<html>
<title> - THE NOMINATION OF DR. CONDOLEEZZA RICE TO BE SECRETARY OF STATE</title>
<body><pre>[Senate Hearing 109-151]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 109-151
 
    THE NOMINATION OF DR. CONDOLEEZZA RICE TO BE SECRETARY OF STATE

=======================================================================

                                HEARINGS



                               BEFORE THE



                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE



                      ONE HUNDRED NINETH CONGRESS



                             FIRST SESSION



                               __________

                        JANUARY 18 AND 19, 2005

                               __________



       Printed for the use of the Committee on Foreign Relations


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate


                    U.S. GOVERNMENT PRINTING OFFICE
22-847                      WASHINGTON : 2005
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


                     COMMITTEE ON FOREIGN RELATIONS

                  RICHARD G. LUGAR, Indiana, Chairman

CHUCK HAGEL, Nebraska                JOSEPH R. BIDEN, Jr., Delaware
LINCOLN CHAFEE, Rhode Island         PAUL S. SARBANES, Maryland
GEORGE ALLEN, Virginia               CHRISTOPHER J. DODD, Connecticut
NORM COLEMAN, Minnesota              JOHN F. KERRY, Massachusetts
GEORGE V. VOINOVICH, Ohio            RUSSELL D. FEINGOLD, Wisconsin
LAMAR ALEXANDER, Tennessee           BARBARA BOXER, California
JOHN E. SUNUNU, New Hampshire        BILL NELSON, Florida
LISA MURKOWSKI, Alaska               BARACK OBAMA, Illinois
MEL MARTINEZ, Florida

                 Kenneth A. Myers, Jr., Staff Director
              Antony J. Blinken, Democratic Staff Director

                                  (ii)




                            C O N T E N T S

                              ----------                              
                                                                   Page

                       Day One--January 18, 2005

Lugar, Hon. Richard G., U.S. Senator from Indiana
    Opening statement............................................     1
    Round One Questions..........................................    22
    Round Two Questions..........................................    99

Biden, Hon. Joseph R., U.S. Senator from Delaware
    Opening statement............................................     4
    Round One Questions..........................................    26
    Round Two Questions..........................................   102

Feinstein, Hon. Dianne, U.S. Senator from California, 
  introduction of the nominee....................................     9

Rice, Dr. Condoleezza, nominee to be Secretary of State, opening 
  statement......................................................    11
    Prepared statement...........................................    18

Hagel, Hon. Chuck, U.S. Senator from Nebraska
    Prepared statement...........................................    30
    Round One Questions..........................................    31
    Round Two Questions..........................................   106

Sarbanes, Hon. Paul S., U.S. Senator from Maryland
    Round One Questions..........................................    35
    Round Two Questions..........................................   109

Chafee, Hon. Lincoln , U.S. Senator from Rhode Island
    Round One Questions..........................................    38
    Round Two Questions..........................................   114

Dodd, Hon. Christopher J., U.S. Senator from Connecticut
    Round One Questions..........................................    41
    Round Two Questions..........................................   116
    Round Three Questions........................................   145

Allen, George, U.S. Senator from Virginia
    Round One Questions..........................................    47
    Round Two Questions..........................................   121

Kerry, Hon. John F., U.S. Senator from Massachussetts
    Round One Questions..........................................    50
    Round Two Questions..........................................   125
    Round Three Questions........................................   149

Coleman, Hon. Norm, U.S. Senator from Minnesota
    Round One Questions..........................................    55
    Round Two Questions..........................................   128

Feingold, Hon. Russell D., U.S. Senator from Wisconsin
    Round One Questions..........................................    59
    Round Two Questions..........................................   131

Voinovich, Hon. George E., U.S. Senator from Ohio
    Round One Questions..........................................    63
    Round Two Questions..........................................   134

Boxer, Hon. Barbara, U.S. Senator from California
    Round One Questions..........................................    67
    Round Two Questions..........................................   136

                                 (III)

Murkowski, Hon. Lisa, U.S. Senator from Alaska
    Round One Questions..........................................    74

Nelson, Hon. Bill, U.S. Senator from Florida
    Round One Questions..........................................    77

Alexander, Hon. Lamar, U.S. Senator from Tennessee
    Prepared statement...........................................    84

Obama, Hon. Barack, U.S. Senator from Illinois
    Round One Questions..........................................    86
    Round Two Questions..........................................   141

Sununu, Hon. John E., U.S. Senator from New Hampshire
    Round One Questions..........................................    90

Martinez, Hon. Mel, U.S. Senator from Florida
    Round One Questions..........................................    93

                       Day Two--January 19, 2005

Lugar, Hon. Richard G., U.S. Senator from Indiana
    Opening statement............................................   165

Dodd, Hon. Christopher J., U.S. Senator from Connecticut
    Round One Questions..........................................   166

Chafee, Hon. Lincoln , U.S. Senator from Rhode Island
    Round One Questions..........................................   168
    Round Two Questions..........................................   192

Biden, Hon. Joseph R., U.S. Senator from Delaware
    Opening statement............................................   170
    Round One Questions..........................................   173
    Round Two Questions..........................................   192


Coleman, Hon. Norm, U.S. Senator from Minnesota
    Round One Questions..........................................   175

Feingold, Hon. Russell D., U.S. Senator from Wisconsin
    Round One Questions..........................................   176

Boxer, Hon. Barbara, U.S. Senator from California
    Round One Questions..........................................   179

Nelson, Hon. Bill, U.S. Senator from Florida
    Round One Questions..........................................   187

Obama, Hon. Barack, U.S. Senator from Illinois
    Round One Questions..........................................   189

                   Business Meeting--January 19, 2005

Boxer, Hon. Barbara, U.S. Senator from California, closing 
  statement......................................................   197

Allen, George, U.S. Senator from Virginia, closing statement.....   199

Kerry, Hon. John F., U.S. Senator from Massachussetts, closing 
  statement......................................................   200

Lugar, Hon. Richard G., U.S. Senator from Indiana, closing 
  statement......................................................   201

Dodd, Hon. Christopher J., U.S. Senator from Connecticut, closing 
  statement......................................................   203

Biden, Hon. Joseph R., U.S. Senator from Delaware, closing 
  statement Biden................................................   204

The Roll Call Vote...............................................   208

                               Appendixes
appendix i--responses to questions submitted for the record by members 
                of the committee to dr. condoleezza rice

Responses to Questions for the Record Submitted by Senator 
  Richard Lugar..................................................   211

Responses to Questions for the Record Submitted by Senator Joseph 
  R. Biden, Jr...................................................   246

Responses to Questions for the Record Submitted by Senator 
  Russell Feingold...............................................   262

Responses to Questions for the Record Submitted by Senator Bill 
  Nelson.........................................................   265

appendix ii--additional material included in the record at the request 
                      of members of the committee

Prepared Statement Submitted by Senator Russell Feingold 
  (Submitted as part of the 1/19/2005 Business Meeting Prior to 
  the Vote)......................................................   273

Letter to the Chairman from the Department of State in reference 
  to DOS support for S. 2127.....................................   274

Charts Detailing U.S. Trade Deficits Submitted by Senator 
  Sarbanes.......................................................   275

``The Right Call,'' by L. Paul Bremer III, The Wall Street 
  Journal, January 12, 2005......................................   278

Comprehensive Report of the Special Advisor to the DCI on Iraq's 
  WMD, 30 September 2004.........................................   280

Excerpts from The White House Regular Briefing, April 10, 2003, 
  Thursday.......................................................   281

Correspondence from the White House Regarding H.R. 10/S. 2845 
  (Intelligence Reform Legislation)..............................   283



    THE NOMINATION OF DR. CONDOLEEZZA RICE TO BE SECRETARY OF STATE

                              ----------                              




                                Day One

                              ----------                              


                       Tuesday, January 18, 2005

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                   Washington, D.C.
    The committee met, pursuant to notice, at 9:05 a.m. in Room 
SH-216, Hart Senate Office Building, Hon. Richard G. Lugar, 
chairman of the committee, presiding.
    Present: Senators Lugar, Hagel, Allen, Coleman, Voinovich, 
Alexander, Sununu, Murkowski, Martinez, Biden, Sarbanes, Dodd, 
Kerry, Feingold, Boxer, Nelson, and Obama.

          OPENING STATEMENT OF HON. RICHARD G. LUGAR,
                   U.S. SENATOR FROM INDIANA

    The Chairman. The committee is called to order.
    Let me begin by welcoming distinguished new Members to the 
committee who have joined us. I want to introduce Senator Lisa 
Murkowski of Alaska, Senator Mel Martinez of Florida, Senator 
Barack Obama of Illinois. We're delighted that you have chosen 
to be on this committee, and we assure you that we will have 
activity and, we hope, progress. We appreciate your coming with 
us, and appreciate all Members' attendance this morning.
    We will proceed with an opening statement, that I will 
give. In the event that the distinguished Ranking Member, 
Senator Biden, arrives during that time, he will then deliver 
his statement. If he does not, he'll deliver the statement 
following Dr. Rice's statement and before our questioning. And 
I will ask, after the two opening statements, our distinguished 
colleague from California, Senator Feinstein, to introduce Dr. 
Rice.
    The Committee on Foreign Relations meets today to consider 
the nomination of Dr. Condoleezza Rice to be Secretary of 
State. We are especially pleased to welcome Dr. Rice to the 
committee. As a result of her distinguished service as National 
Security Advisor to President Bush in her earlier assignments 
on the NSC, she is well known to many Members of this 
committee, and we admire her accomplishments. We're 
particularly thankful for the cooperation that she has provided 
to this committee in its work.
    The enormously complex job before Dr. Rice will require all 
of her talents and experience. American credibility in the 
world, progress in the war on terrorism, and our relationships 
with our allies will be greatly affected by the Secretary of 
State's actions and the effectiveness of the State Department 
in the coming years. Dr. Rice is highly qualified to meet those 
challenges. We recognize the deep personal commitment necessary 
to undertake this difficult assignment, and we are grateful 
that a leader of her stature is willing to step forward.
    The Secretary of State serves as the President's top 
foreign-policy advisor, as our nation's most visible emissary 
to the rest of the world, as a manager of one of the most 
important departments of our government. Any one of those jobs 
would be a challenge for even the most talented of public 
servants, but the Secretary of State, at this critical time in 
our history, must excel in all three roles.
    Since 2001, we have witnessed terrorists killing thousands 
of people in this country and destroying the World Trade Center 
and a part of the Pentagon. We have seen United States military 
personnel engaged in two difficult and costly wars. We have 
seen the expansion of a nihilistic form of terrorism that is 
only loosely attached to political objectives and is, 
therefore, very difficult to deter. We have seen frequent 
expressions of virulent anti-Americanism in many parts of the 
Islamic world. We have seen our alliances, our international 
standing, and our budget strained by the hard choices that we 
have had to make in response to terrorism.
    In this context, many diplomatic tasks must be approached 
with urgency. In particular, our success in Iraq is critical. 
The elections scheduled for January 30 must go forward, and the 
United States must work closely with Iraqi authorities to 
achieve the fairest and most complete outcome possible. At the 
same time, we must understand that those forces that want to 
keep Iraq in chaos will commit violence and intimidation. Both 
Iraqis and the coalition will have to be resilient and flexible 
in the elections' aftermath.
    The Bush administration and the State Department also must 
devote themselves to achieving a settlement of the Arab-Israeli 
conflict; to coming to grips with the nuclear proliferation 
problems in Iran and North Korea; to continuing urgent 
humanitarian efforts in Sudan, the Indian Ocean region and 
elsewhere; to maintaining our commitment to the global fight 
against HIV/AIDS and other infectious diseases; to advancing 
democracy in Afghanistan, Ukraine, and elsewhere; to repairing 
alliances with longstanding friends in Europe; to 
reinvigorating our economic and security relationships in our 
own hemisphere; and to engaging with rapidly changing national 
powers, especially China, India, and Russia.
    Even though this list of diplomatic priorities is daunting, 
it is not exhaustive and does not anticipate unforeseeable 
events. Just weeks ago, none of us could have predicted that an 
earthquake and a tsunami would change the face of the Indian 
Ocean region. Our efforts must include the expansion of our 
foreign-policy capabilities so that we will be better prepared 
for crises that cannot be averted, and better able to prevent 
those that can be.
    I would like to outline a handful of initiatives brought 
forward by this committee on which I would ask for your 
assistance.
    First, the committee intends to report out a Foreign 
Affairs Authorization Bill no later than March. With the 
support of the Senate leadership, I am confident that the 
obstacles to Senate passage that we have encountered in the 
past will be overcome. It is crucial that the executive branch, 
especially the State Department, works together with our 
committee on this legislation. Not only does the authorization 
fund the Department and foreign affairs programs, it also 
contains personnel and other authorities important for the 
Department to carry on its work effectively and efficiently. We 
will be calling upon you for you advice and to exercise your 
considerable persuasive power at key moments as the legislation 
works its way through Congress.
    Second, the Bush administration must continue its efforts 
to safeguard and destroy vulnerable stockpiles of weapons of 
mass destruction. To this end, I plan to reintroduce 
legislation designed to eliminate impediments to the Nunn-Lugar 
program. My bill would drop conditions on weapons dismantlement 
work that in the past have slowed or threatened to slow the 
urgent task of eliminating nuclear, biological, and chemical 
weapons. Furthermore, the legislation removes the $50 million 
cap on the President's ability to utilize Nunn-Lugar funds 
outside the former Soviet Union.
    I will also reintroduce the Conventional Arms Threat 
Reduction Act, designed to improve the State Department's 
efforts to combat the proliferation of advanced conventional 
weapons, including MANPADS. The bill would unify program 
planning, coordination, and implementation of a global strategy 
into one office at the State Department.
    Third, we must ensure the State Department has adequate 
resources to do the difficult job it faces. Under the 
leadership of President Bush, the administration has requested 
major funding increases for the State Department and U.S. 
foreign policy objectives. You have argued successfully for the 
creation of new foreign policy tools, including the Millennium 
Challenge account, the Global AIDS Initiative, and the new 
Office of Reconstruction and Stabilization.
    The State Department's Diplomatic Readiness Initiative, 
launched by Secretary Powell, has made great progress in 
addressing personnel shortfalls in the Foreign Service. In 
addition, the State Department has continued an efficient 
program to upgrade security at U.S. missions around the world. 
Even though Congress has failed to provide all the funds 
requested by the President to strengthen the State Department 
and U.S. foreign policy capabilities, this committee is 
enthusiastic about the progress that you have made so far. We 
want to work with you to achieve the President's vision of 
reinvigorated diplomatic capabilities.
    Finally, I would like to highlight a crucial need that has 
been identified by Members of this committee. Our country must 
improve its capacity to stabilize failing or war-torn nations, 
and to assist in their reconstruction. If we are to deny 
sanctuaries to terrorists, a goal identified by the 9/11 
Commission as a top priority, we must improve planning and 
organization for post-conflict reconstruction operations.
    Last year, the Foreign Relations Committee unanimously 
passed the Stabilization and Reconstruction Civilian Management 
Act of 2004. I appreciate the State Department's letter 
endorsing the purposes of S. 2127, and I ask that the letter be 
submitted in the record.

    [The letter referred to by Chairman Lugar appears in 
Appendix II of this hearing transcript.]

    The Chairman. In addition, a study done by the Defense 
Science Board endorses the legislation. The State Department 
has now established an Office for Reconstruction and 
Stabilization, as called for in the legislation.
    The new office, headed by Carlos Pasqual, is doing a 
government-wide inventory of the civilian assets that might be 
available for stabilization and reconstruction tasks. It is 
also pursuing the idea proposed in S. 2127 of a Readiness 
Reserve to enable rapid mobilization of post-conflict 
stabilization personnel.
    In addition, I hope that the office will develop the 
concept of a 250-person active-duty Response Readiness Corps. 
In Army terms, this is less than a small battalion of well-
trained people--a modest but vigorous force-multiplier that 
would greatly improve our nation's stabilization capacity. This 
Corps would be composed of State Department and USAID employees 
who have the experience and the technical skills to manage 
stabilization and reconstruction tasks in a hostile 
environment. I consider this new office to be one of the most 
important long-term defenses that the State Department can 
mount against future acts of terrorism. I would urge the State 
Department to embrace the concept of a well-funded civilian 
stabilization and reconstruction capability.
    Dr. Rice, we welcome you to the committee on this historic 
occasion. We look forward to a dialogue that will illuminate 
the direction of United States foreign policy for Members of 
this committee and for the American people, who are observing 
this hearing.
    Now, at this point, I would normally call upon Senator 
Biden, but I would say, on his behalf, his train was canceled. 
He took the next one possible, and he will be here momentarily. 
We appreciate that very special effort.
    I'm going to call now upon Senator Feinstein, our 
distinguished colleague from California, for her introduction 
of Secretary----
    Ah, in the nick of time. Indeed, the distinguished Ranking 
Member has arrived. And I'll talk for a few minutes to give you 
a chance to catch your breath. And then if you will proceed 
with your opening statement.
    Senator Biden.  I'm ready, Mr. Chairman.
    The Chairman. Well, proceed.

               STATEMENT OF HON. JOSEPH R. BIDEN,
                   U.S. SENATOR FROM DELAWARE

    Senator Biden.  My purpose in being here today is to get 
more money for Amtrak. I want to know your position on that, 
Madam Secretary.
    Dr. Rice, welcome. If I'm somewhat out of breath, it's 
because I am. There's very few people I'd run from the station 
for. And I welcome you, as you already have been welcomed.
    And I'd also like to welcome the new Members of the 
committee--Senator Obama, Murkowski, and also a man who sat in 
your chair in a different committee, the distinguished Senator 
from Florida. And I want to welcome back, although I don't see 
him here right now, our good friend, John Kerry, a long-time 
member.
    Dr. Rice, I congratulate you and President Bush on your 
nomination. We've enjoyed frequent discussions, maybe more than 
you would have liked, over the past four years in your office 
and in the Oval Office. And I've enjoyed our meetings. And I 
hope this will be the first of many visits before this 
committee.
    As you know as well as anyone, America faces two overriding 
national security challenges in this century. We must first win 
the struggle between freedom and radical Islamic 
fundamentalism, and, in my view, with the leadership of the 
Chairman of this committee, Senator Lugar, keep the world's 
most dangerous weapons away from its most dangerous people. To 
prevail, we obviously have to be strong, but we also have to be 
smart, wielding the force of our ideas and our ideals, as well 
as the force of our arms.
    Today, after a necessary war in Afghanistan and a optional 
war in Iraq, we're rightly confident in the example of our 
power. But we have sometimes forgotten the power of our 
example. Foreign policy is not a popularity contest, as you 
well know. We have to confront hard issues, and sometimes it 
simply requires us to make hard choices that other countries 
don't like. But, above all, these hard decisions require 
American leadership--the kind that persuades others to follow. 
We've been having a tough time doing that the past few years; 
that is, persuading others to follow.
    Clearly, we pay a price, in my view, for being the world's 
sole superpower--we inspire as much envy and resentment as we 
do admiration and gratitude, even if we do everything 
correctly, in my view. But the fact is, relations with many of 
our oldest friends are, quite frankly, scraping the bottom 
right now, and we need to heed the advice of the President of 
the United States, just before his first inaugural, when he 
talked about acting with humility as well as force.
    In the Muslim world--despite the hundreds of thousands of 
Muslims that we have helped save in Somalia, Bosnia, Kosovo, 
Afghanistan, and, yes, in my view, in Iraq, as well, our 
motives are still suspect, our actions are resented, and, as 
bizarre as it sounds to most Americans, the polls show that 
Osama bin Laden has a higher approval rating than, not only 
President Bush, but than America, as a whole, in most of those 
areas. And the result is that, despite our great military 
might, we are, in my view, more alone in the world than we've 
been in any time in recent memory. And the time for diplomacy, 
in my view, is long overdue.
    As a result, we're in--in my view, a less secure position 
than we should be in the world. That's because virtually all 
the threats we face--from terrorism to the spread of weapons of 
mass destruction to rogue states flouting the rules to the 
pandemic diseases that we face now, and will face--can be 
solved solely by American soldiers, by themselves. America is 
much more secure working with, and reaching out to, others than 
it is walking alone.
    And I believe the heart of your mission must be to help 
rebuild America's power to persuade and to restore our nation 
to the respect it once enjoyed; quite frankly, for our own 
safety's sake. And it's going to be very difficult to achieve 
any of this until we find a way forward in Iraq.
    This committee has worked hard across party lines to 
support the President's decision to hold Saddam Hussein to 
account. In return, prior to going in, we asked the 
administration to do two things: one was to build a broad and 
deep international coalition, and, two, develop a detailed plan 
to win the peace. We held extensive hearings, as you know, and 
we had many discussions in this committee--back in the bad old 
days, when I was chairman, and then immediately after that, 
when the Chairman took over, not about the day after--we held 
detailed hearings about the decade after. And the 
administration, in my view, neither generated a deep 
international coalition nor had a plan to win the peace. And I 
think we're paying a very heavy price for it now.
    We also asked the administration, most importantly, to 
level with the American people about how hard and dangerous 
Iraq was going to be, and how long it was going to take, and, 
to our best judgment, how much it was going to cost.
    You may remember, just prior to going in, we had a meeting 
with congressional leaders--you were present, Secretary of 
State, Secretary of Defense--in the Cabinet room. And the 
President, as he often does--he's engaging--leaned over to me 
and publicly said, in front of all our colleagues, ``Joe, why 
aren't you with me?'' He called me ``Mr. Chairman,'' which I'm 
not. I'm flattered he did that, but he really understands who 
the chairman is. He said, ``Mr. Chairman, why aren't you with 
me?'' You may remember, I said then, and publicly many times, 
``Mr. President, I'll be with you when two things occur. One, 
when you, in fact, indicate what you're going to do after we 
win, because winning's not going to be the hard part; and, two, 
level with the American people about the cost, the price 
they're going to have to pay.''
    I think one thing we all learned--whether we were for or 
against the war in Vietnam, whether we went or didn't go--of 
the Vietnam generation is that no foreign policy can be 
sustained without the informed consent of the American people. 
The informed consent.
    And I think the only people who leveled with us before the 
war--like General Shinseki, who said it would take several 
hundred-thousand troops to secure Iraq, and the Economic 
Advisor, Larry Lindsay, who said it would cost upward of $200 
billion--were shown the door. And, since the war, Ambassador 
Bremer has indicated that he said he needed more force, and 
didn't get it. Field generals, with whom I have spoken on my 
three trips since 2003 to Iraq, have indicated that they need 
more force. And we keep hearing from the Defense Department and 
the President, ``No, we're winning, and we don't need any 
additional force, and we haven't needed any additional force 
for the past two years.''
    Just last week, very quietly, the administration ended its 
search for weapons of mass destruction in Iraq. Not much 
fanfare. The administration concluded that the reason for going 
to war--weapons of mass destruction--did not exist, they found 
nothing, and said so. Quietly.
    And the National Intelligence Council, the CIA's think 
tank, concluded that Iraq has replaced Afghanistan as the 
training ground for the next generation of terrorists, 
something it was not before the war.
    Despite all that, we now learn from the President that 
there's no reason to hold any administration officials 
accountable for mistakes or misjudgments in Iraq. According to 
the President, ``We had an accountability moment, and that's 
called the 2004 elections.''
    Dr. Rice, I hope that you, as Secretary of State--and I'm 
confident you will be confirmed Secretary of State, and I plan 
on voting for you as Secretary of State--I hope you will demand 
accountability from the people who serve you if, heaven forbid, 
they mis-serve you to the extent that our country has been, in 
my view, mis-served in Iraq. This is not about punishing people 
or embarrassing the President; it's about learning from our 
mistakes so we don't repeat them. And a second term is also a 
second chance, and I hope the President will seize it. I hope 
he will seize it, quite frankly, by rejecting the neo-
conservative notion about how we are going to, in fact, secure 
Iraq and the Middle East.
    So I hope we can start leveling today. We'd like to hear 
how you see the road ahead in Iraq. What should the American 
people expect about what we can achieve, and when we can hope 
to achieve it, and how we are going to succeed? I, for one, 
want to work with you toward success, but I hope you'll not 
give Wolfowitz answers by saying, ``It is unknowable.'' There's 
a whole heck of a lot that is knowable.
    Iraq is an overwhelming issue. And this administration, 
like its predecessors and the seven Presidents with whom I've 
served, is only human. Every major problem winds up on the desk 
of the same senior people. The same senior people. Every 
problem. This is not a criticism; it's an observation. It's not 
possible--in my experience of observing seven Presidents up 
close and personal--to give every challenge the attention it 
deserves.
    Consequently, it's understandable that, while we're focused 
on Iraq, other problems remained, if not on the back burner, 
not getting full attention. But now, some of those pots are 
boiling over, starting with the nuclear program in North Korea 
and Iran, the dangerous backsliding of democracy in Russia, the 
genocide in Sudan, and the lack of focus on public diplomacy, 
which I hope, and I expect, you'll talk about.
    Over the past few years, North Korea has increased its 
nuclear capacity by as much as 400 percent, and now may have as 
many as eight nuclear weapons which it could test, hide, or 
sell to the highest bidder. You have said, ``It is 
unacceptable,'' for North Korea to have nuclear weapons. What 
does that mean? And what do you propose to do to stop this 
growing threat?
    Over the past few years, the reform movement in Iran has 
been literally crushed in front of the whole world. Surrounded 
by about 200,000 forces, it very openly just reached out and 
crushed the democracy movement. So much for the notion of 
leveraging power.
    Over the past four years, things have gotten considerably 
worse in Iran, and it's accelerated its own nuclear program. 
There may be nothing we can do to persuade Iran not to develop 
weapons, mass destruction. But our European allies are trying, 
through a combination of carrots and sticks. They believe they 
cannot succeed unless the United States engages in this effort. 
And, in my view--and it may not be true; I'm anxious to hear 
what you have to say--we seem to be sitting on the sidelines. 
What do you propose we do to diffuse--or, if necessary, 
defeat--this emerging danger?
    Over the past few years, President Putin has reversed the 
course of democratic development, human rights and the rule of 
law in Russia. The administration has been largely silent. How 
can we be so concerned about the advancement of democracy in 
the Middle East and so unconcerned about the regression in 
Russia? At the same time, we've gotten little return for 
turning the blind eye to Russia's regression. Just the last 
week, the press reported--hopefully it's not true, but I worry 
it may be that Russia is about to sell new missiles to Syria, 
which would threaten stability and progress toward peace in the 
Middle East.
    One of the most important programs to protect America's 
security--the effort to help Russia account for, secure, and 
destroy weapons of mass destruction and related materials--has 
become mired in red tape that the two presidents need to cut 
through. How are we going to approach this problem? How are you 
going to approach it as Secretary of State?
    And, finally, the administration has done, in my view, an 
admirable job of promoting peace between North and South in 
Sudan. But in Darfur, we have watched a terrible tragedy 
unfold, as militia supported by the Sudanese government have 
killed as many as 100,000 civilians and chased as many as two 
million from their homes.
    I literally, as I was getting off the train, spoke to Jack 
Danforth, who called me. He said he hoped I would keep an open 
mind about the notion of carrots and sticks to deal with this 
problem. I'd like to know how--it seemed as though that process 
worked in Libya. I can't believe, had we not made the 
concessions or agreements we made relative to oil and their 
ability to produce more in cooperation from the West, and us in 
particular, I doubt very much, in my meeting, that--I will be 
precise--when I went to meet with Qaddafi, I believe, at the 
President's request; I know it was at yours--I am confident 
that--and I think you did an incredible job--I'm confident that 
it wouldn't have happened unless there were carrots, as well. 
The last four years, we've not seen many carrots except there, 
and that process started earlier.
    Four months ago, before this committee, Secretary Powell 
rightly called what was going on in Sudan ``genocide.'' Since 
then, the situation has gotten worse. What do you believe the 
administration and Congress can do, now, to stop this slaughter 
and to help African allies develop their own peacekeeping 
capacity?
    There's much, much more to talk about that we'll not be 
able to talk about here at this hearing. Relations with 
emerging powers like China, fault-line friends like India and 
Pakistan, long-time allies in Europe and Asia, and, closer to 
home, the troubled--but ignored in many respects--Latin 
America.
    I've spent a little bit of time in Europe recently, and I 
have one simple message: ``Get over it. Get over it. President 
Bush is our President for the next four years, so get over it 
and start to act in your interest, Europe.'' But that requires 
us to engage the hoped-for diplomacy from the gentlelady from 
Stanford.
    We want to hear your thoughts about bolstering our capacity 
to handle post-conflict reconstruction. I listened on the 
radio, and I know you spoke about that. Chairman Lugar has 
drafted important legislation to do just that, which I was 
pleased to cosponsor. And I hope you'll support it.
    And I intend to ask you about a source of urgent 
opportunity: the Israeli-Palestinian peace process. Abu Mazen's 
election may provide a rare second chance to forge a lasting, 
secure peace in Israel and to give the Palestinians a state of 
their own. I'd like to know what you believe we should do to 
seize this opportunity, and how urgent you think it is.
    But let me end with something you've talked about and that 
I hope you will elaborate on today: putting diplomacy back at 
the center of America's foreign policy. I strongly agree that 
this is a time for a new diplomatic offensive with old friends, 
rising powers and even hostile regimes, but it has to be 
sustained, it has to be persistent, and it has to do as much 
listening as it does talking. And it has to use all the tools 
at our disposal--our military might, but also our intelligence, 
our public diplomacy, our alliances, international 
organizations, treaties and agreements, development assistance, 
trade and investment--even if it is frustrating, even if the 
payoff takes years, even if it takes a generation.
    You often point out to me privately, and to others, with 
some degree of accuracy, in my view, that the corresponding 
difficulty after World War II and the corresponding 
difficulty--corresponding to the situation in Iraq--I'm not 
sure how applicable it is, but one way it clearly was a major, 
major, major, major piece of our post-reconstruction effort in 
Germany and after World War II was diplomacy, public diplomacy. 
We convinced many parts of the world that our ideas were 
ascendant, that we provided what was needed, and would provide 
what was needed, to bring security to the region, and freedom.
    I remember when Lech Walesa first walked into my office, 
like he did to many of us here, he walked up, and I said, 
``Congratulations''--I said, ``Solidarity.'' He said, ``No, no, 
no, Radio Free Europe. Radio Free Europe.''
    Now we're faced with a new but no less dangerous set of 
challenges, and it seems to me we have to recapture the 
totality of America's strength. Above all, we must understand 
that those who spread radical Islamic fundamentalism and 
weapons of mass destruction although they may be beyond our 
reach--we have to defeat them, but there are hundreds of 
millions of hearts and minds around the world that are open to 
American ideas and ideals. There are 1.2 billion Muslims in the 
world, and we have to reach out to them.
    So I'm looking forward to working with you to do just that; 
I'm anxious to hear what you have to say, and I'll have some 
questions.
    I thank you, Mr. Chairman, for allowing me to make my 
statement. And, again, welcome.
    The Chairman. Well, thank you very much, Senator Biden. I 
call now on Senator Feinstein for her introduction.

              STATEMENT OF HON. DIANNE FEINSTEIN,
                  U.S. SENATOR FROM CALIFORNIA

    Senator Feinstein: Thank you very much.
    Chairman Lugar, Ranking Member Biden, distinguished Members 
of the Foreign Relations Committee, it gives me great pleasure 
to introduce a friend and fellow Californian, Dr. Condoleezza 
Rice, as the President's nominee to be the next Secretary of 
State.
    Dr. Rice's story began 50 years ago with her birth in 
Birmingham, Alabama. A precocious child, she began piano 
lessons at age three, could read by five, and skipped the first 
and seventh grades. She attended public schools before 
enrolling at Birmingham Southern Conservatory of Music in 1964. 
Her mother and father are here in spirit today. Her father, an 
educator and pastor, aptly nicknamed his only child Little 
Star. Today, she is, indeed, a big star.
    Dr. Rice's family moved to Denver, Colorado, in 1969, where 
she entered an integrated school for the first time as a tenth 
grader. Staying close to home, she opted for the University of 
Denver, and was awarded her B.A. degree, with honors, at the 
age of 19.
    By this time, Dr. Rice was engrossed with Soviet military 
issues and the related problems of arms control. She began her 
graduate studies on the topic at Notre Dame, and was awarded an 
M.A. degree in 1975. Thereafter, she returned to the University 
of Denver to finish her dissertation on the Czech military's 
effect on society.
    Dr. Rice's career as an academician then brought her to my 
alma mater, Stanford University, in 1981, where she became an 
assistant professor of political science. During this time, she 
authored ``Uncertain Allegiance, The Soviet Union and 
Czechoslovak Army, 1948 to 1963,'' and continued to follow her 
great interests in football and piano.
    From 1989 to 1991, in the first Bush administration, she 
proved her mettle in government for the first time as a senior 
director for Soviet Affairs and East European Affairs at the 
National Security Council. President George Bush had this to 
say about her abilities, quote, ``Condi was brilliant. She 
disarms the biggest of big-shots. Why? Because they know she 
knows what she is talking about,'' end quote.
    It was then back to Stanford in the early 1990s, where she 
was named provost of the university. She was the first woman, 
first African American, and the youngest person, at age 38, to 
hold the position, in the school's history. For six years, she 
managed a one-and-a-half-billion-dollar school budget, 1400 
faculty members, and 14,000 students.
    She returned to the White House, as the first African 
American woman to serve as National Security Advisor, in 
January 2001.
    As a young girl, Condi stood at the gates of 1600 
Pennsylvania Avenue with her father, telling him that, quote, 
``Daddy, I'm barred out of there now because of the color of my 
skin, but one day I'll be in that house,'' end quote. She's 
delivered on that promise. Now she is the President's choice to 
be our country's next Secretary of State.
    As both the Chairman and the Ranking Member have so well 
stated, American foreign policy today is at a crossroads--in 
Iraq, across the Middle East, in North Korea, in our relations 
with China, and in so many other places we face major 
challenges. I would submit that Dr. Rice has the skill, the 
judgment, and the poise and the leadership to lead in these 
difficult times. If confirmed, she will have the deep, personal 
trust and confidence of the President, a real asset. She has 
been by his side for every crucial national security decision 
in the last four years. My sense is that the President trusts 
her implicitly. When Dr. Rice meets with Hu Jintao or Arial 
Sharon or Vladimir Putin, there will be no doubt that she 
speaks for, and on behalf of, the President of the United 
States.
    The problems we face abroad are complex and sizeable. If 
Dr. Rice's past performance is any indication, though, we can 
rest easy. It's difficult to know ahead of time how anyone will 
perform as Secretary of State. Time and events test vision, 
facile thinking, and resolute problem-solving. But, indeed, 
this is a remarkable woman that I introduce to you today, and 
it is with great pride that I do so.
    The Chairman. Well, Senator Feinstein, we thank you for a 
truly remarkable introduction of our candidate.
    And, Dr. Rice, before I call upon you for the opening 
statement, I'm going to ask you to rise and to raise your right 
hand so that I might administer the oath.
    Do you swear to tell the truth, the whole truth, and 
nothing but the truth, so help you God?
    Dr. Rice.  I do.
    The Chairman. I thank you. Please proceed with your 
statement.

   OPENING STATEMENT OF DR. CONDOLEEZZA RICE, NOMINEE TO BE 
                       SECRETARY OF STATE

    Dr. Rice.  Thank you very much.
    Thank you, Chairman Lugar, Senator Biden, and Members of 
the committee. I'd also like to thank Senator Dianne Feinstein, 
who, as a fellow Californian, I have admired as a leader on 
behalf of our state and our nation, and on whose wise counsel I 
have relied, and will continue to rely.
    Mr. Chairman, Members of the committee, it is an honor to 
be nominated to lead the State Department at this critical 
time, a time of challenge and hope and opportunity for America.
    September 11th, 2001, was a defining moment for our nation 
and for the world. Under the vision and leadership of President 
Bush, our nation has risen to meet the challenges of our time, 
fighting tyranny and terror, and securing the blessings of 
freedom and prosperity for a new generation. The work that 
America and our allies have undertaken, and the sacrifices we 
have made, have been difficult and necessary and right.
    Now is the time to build on these achievements to make the 
world safer and to make the world more free. We must use 
American diplomacy to help create a balance of power in the 
world that favors freedom. The time for diplomacy is now.
    I am humbled by President Bush's confidence in me to 
undertake the great work of leading American diplomacy at such 
a moment in history. If confirmed, I will work with the Members 
of this Congress, from both sides of the aisle, to build a 
strong bipartisan consensus behind American foreign policy. I 
will seek to strengthen our alliances, to support our friends, 
and to make the world safer and better. It is a time to reflect 
on this challenge, and I do so humbly.
    I will enlist the great talents of the men and women of the 
State Department, the Foreign and Civil Services, and our 
Foreign Service nationals. And if I am confirmed, I will be 
especially honored to succeed a man--a man that I so admire, my 
friend and my mentor, Colin Powell.
    Four years ago, Secretary Powell addressed this committee 
for the same purpose that I do now. Then, as now, it was the 
same week that America celebrates the life and legacy of Dr. 
Martin Luther King. It is a time to reflect on the legacy of 
that great man, on the sacrifices he made, on the courage of 
the people he led, and on the progress our nation has made in 
the decades since. I, personally, am indebted to those who 
fought and sacrificed in the civil-rights movement so that I 
could be here today.
    For me, this is a time to remember other heroes, as well. I 
grew up in Birmingham, Alabama--the old Birmingham, of ``Bull'' 
Connor and church bombings and voter intimidation, the 
Birmingham where Dr. King was thrown in jail for demonstrating 
without a permit. Yet there was another Birmingham, the city 
where my parents, John and Angelina Rice, and their friends 
built a thriving community in the midst of terrible 
segregation. It would have been so easy for them to give in to 
despair and to send that message of hopelessness to their 
children, but they refused to allow the limits and injustices 
of their time to limit our horizons. My friends and I were 
raised to believe that we could do or become anything, that the 
only limits to our aspirations came from within. We were taught 
not to listen to those who said, ``No, you can't.''
    The story of Birmingham's parents and teachers and children 
is a story of the triumph of universal values over adversity, 
and those values, a belief in democracy and liberty, and the 
dignity of every life and the rights of every individual, unite 
Americans of all backgrounds, all faiths, and all colors. They 
provide us a common cause and a rallying point in difficult 
times, and they are a source of hope to men and women across 
the globe who cherish freedom and work to advance freedom's 
cause. And in these extraordinary times, it is the duty of all 
of us--legislators and diplomats and civil servants and 
citizens--to uphold and advance the values that are core to our 
identity and that have lifted millions around the world.
    One of history's clearest lessons is that America is safer, 
and the world more secure, whenever and wherever freedom 
prevails. It is neither an accident, nor a coincidence, that 
the greatest threats of the last century emerged from 
totalitarian movements. Fascism and communism differed in many 
ways, but they shared an implacable hatred of freedom, a 
fanatical assurance that their way was the only way, and a 
supreme confidence that history was on their side.
    At certain moments, it seemed that history might have been 
on their side. During the first half of the 20th century, much 
of the democratic and economic progress of earlier decades 
looked to be swept away by the march of ruthless ideologies 
armed with terrible military and technological power. Even 
after the allied victory in World War II, many feared that 
Europe, and perhaps the world, would be forced to permanently 
endure half-enslaved and half-free.
    The cause of freedom suffered a series of major setbacks--
communism imposed in Eastern Europe, Soviet power dominant in 
East Germany, the coup in Czechoslovakia, the victory of 
Chinese communists, the Soviet nuclear test five years ahead of 
schedule, to name just a few. In those early years, the 
prospect of a united democratic Germany and a democratic Japan 
seemed farfetched.
    Yet America and our allies were blessed with visionary 
leaders who did not lose their way. They created the great NATO 
Alliance to contain, and eventually erode, Soviet power, they 
helped to establish the United Nations, and created an 
international legal framework for this and other institutions 
that have served the world well for more than 50 years. They 
provided billions in aid to rebuild Europe and much of Asia. 
They built on an international--they built an international 
economic system, based on free trade and free markets, to 
spread prosperity to every corner of the globe. And they 
confronted the ideology and propaganda of our enemies with a 
message of hope and with truth. And, in the end, though the end 
was long in coming, their vision prevailed.
    The challenges we face today are no less daunting. America 
and the free world are, once again, engaged in a long-term 
struggle against an ideology of hatred and tyranny and terror 
and hopelessness, and we must confront these challenges with 
the same vision and the same courage and the same boldness that 
dominated our post-world-war period.
    In these momentous times, America has great tasks, and 
American diplomacy has great tasks. First, we will unite the 
community of democracies in building an international system 
that is based on shared values and the rule of law. Second, we 
will strengthen the community of democracies to fight the 
threats to our common security, and alleviate the hopelessness 
that feeds terror. And, third, we will spread freedom and 
democracy throughout the globe. That is the mission that 
President Bush has set for America in the world, and it is the 
great mission of American diplomacy today.
    Let me address each of these three tasks.
    Every nation that benefits from living on the right side of 
freedom has an obligation to share freedom's blessings. Our 
first challenge is to inspire the American people, and the 
people of all free nations, to unite in common to commonly 
solve problems that confront us. NATO and the European Union 
and our democratic allies in East Asia and around the world 
will be our strongest partners in this vital work.
    The United States will also continue to work to support and 
uphold the system of international rules and treaties that 
allow us to take advantage of our freedom, to build our 
economies, and to keep us safe and secure. We must remain 
united in insisting that Iran and North Korea abandon their 
nuclear-weapons ambitions and choose, instead, the path of 
peace. New forums that emerge from the broader Middle East and 
North Atlantic Initiative offer the ideal venues to encourage 
economic, social, and democratic reform in the world. 
Implementing the Doha development agenda and reducing trade 
barriers will create jobs and reduce poverty in dozens of 
nations. And by standing with the freed peoples of Iraq and 
Afghanistan, we will continue to bring hope to millions, and 
democracy to a part of the world where it is sorely lacking.
    As President Bush said in our national security strategy, 
America is guided by the conviction that no nation can build a 
safer, better world alone. Alliances and multilateral 
institutions can multiply the strength of freedom-loving 
nations. If I am confirmed, that core conviction will guide my 
actions. Yet when judging a course of action, I will never 
forget that the true measure of its worth is its effectiveness.
    Our second great task is to strengthen the community of 
democracy so that all free nations are equal to the work before 
us. Free peoples everywhere are heartened by the success of 
democracy around the globe. Together, we must build on that 
success.
    We face many challenges. In some parts of the world, an 
extremist view threaten the very existence of political 
liberty. Disease and poverty have the potential to destabilize 
whole nations and whole regions. Corruption can sap the 
foundations of democracy. And some elected leaders have taken 
illiberal steps that, if not corrected, could undermine hard-
won progress for democracy.
    We must do all that we can to ensure that nations which 
make the hard choices and do the hard work to join the free 
world deliver on the high hopes of those citizens for better 
lives. From the Philippines to Colombia to the nations of 
Africa, we are strengthening counterterrorism cooperation with 
nations that have a will to fight terror, but need help with 
the means. We're spending billions to fight AIDS and 
tuberculosis and malaria and other diseases, to alleviate 
suffering for millions, and help end public-health crises.
    America has always been generous in helping countries 
recover from natural disasters, and today we are providing 
money and personnel to ease the suffering of the millions 
afflicted by the tsunami and to help rebuild those nations' 
infrastructure.
    We are joining with developing nations to fight corruption, 
instill the rule of law, and create a culture of transparency. 
In much of Africa and Latin America, we face the twin 
challenges of helping to bolster democratic change while 
alleviating poverty and hopelessness. We will work with 
reformers in those regions who are committed to increasing 
opportunity for their peoples, and we will insist that leaders 
who are elected democratically have an obligation to govern 
democratically.
    Our third great task is to spread democracy and freedom 
throughout the world. I spoke earlier of the grave setbacks to 
democracy in the first half of the 20th century. The second 
half of the century saw an advance of democracy that was far 
more dramatic. In the last quarter of that century, the number 
of democracies in the world tripled. And in the last six months 
of this new century alone, we have witnessed the peaceful 
democratic transfer of power in Malaysia, a majority Muslim 
nation, and Indonesia, the country with the world's largest 
Muslim population. We've seen men and women wait in line for 
hours to vote in Afghanistan's first-ever free and fair 
presidential election. We--and, I know, you, Mr. Chairman, and 
I want to thank you for your role in this--were heartened by 
the refusal of the people of Ukraine to accept a flawed 
election, and heartened by their insistence that their 
democratic demands would be met. We have watched as the people 
of the Palestinian territories turned out to vote in an orderly 
and free election. And soon the people of Iraq will exercise 
their right to choose their leaders and set the course of their 
nation.
    No less than were the last decades of the 20th century, the 
first decades of this new century can be an era of liberty. And 
we, in America, must do everything we can to make it so.
    To be sure, in our world there remain outposts of tyranny. 
And America stands with oppressed people on every continent--in 
Cuba and Burma and North Korea and Iran and Belarus and 
Zimbabwe. The world should really apply what Nathan Sharanski 
called the ``town-square test.'' If a person cannot walk into 
the middle of the town square and express his or her views 
without fear of arrest, imprisonment, and physical harm, then 
that person is living in a fear society. And we cannot rest 
until every person living in a fear society has finally won 
their freedom.
    In the Middle East, President Bush has broken with six 
decades of excusing and accommodating the lack of freedom, in 
hoping to purchase stability at the price of liberty. The 
stakes could not be higher. As long as the broader Middle East 
remains a region of tyranny and despair and anger, it will 
produce extremists and movements that threaten the safety of 
America and our friends.
    But there are hopeful signs that freedom is on the march. 
Afghanistan and Iraq are struggling to put dark and terrible 
pasts behind them, and to choose a path of progress. 
Afghanistan held a free and fair election, and chose a 
president who is committed to the success of democracy and the 
fight against terror. In Iraq, the people will soon take the 
next step in their journey toward full, genuine democracy. All 
Iraqis, whatever their faith or ethnicity, from Shias to Sunnis 
to Kurds to others, must build a common future together. The 
election later this month will be an important first step as 
the people of Iraq prepare to draft a constitution and hold the 
next round of elections, elections that will then create a 
permanent government.
    The success of freedom in Afghanistan and Iraq will give 
strength and hope to reformists throughout the region, and 
accelerate the reforms already underway. From Morocco to Jordan 
to Bahrain, we are seeing elections and new protections for 
women and minorities, and the beginnings of political 
pluralism. Political, civil, and business leaders have--during 
calls for political, economic, and social change. Increasingly, 
the people are speaking, and their message is clear: the future 
of this region is to live in liberty.
    And the establishment of a Palestinian democracy will help 
to bring an end to the conflict in the Holy Land.
    Much has changed since June 24th, 2002, when President Bush 
outlined a new approach for America in the quest for peace in 
the Middle East and spoke the truth about what would be 
required to end this conflict. Now we have reached a moment of 
opportunity, and we must seize it. We take great encouragement 
from the elections just held in the Palestinian territories. 
And, Senators Biden and Sununu, I want to thank you for 
representing the United States at those historic elections. 
America seeks justice and dignity and a viable, independent, 
and democratic state for the Palestinian people. We seek 
security and peace for the state of Israel. Israel must do its 
part to improve the conditions under which Palestinians live, 
and to build a better future. Arab states must join to help, 
and deny any help or solace to those who take the path of 
violence.
    I look forward to personally working with Palestinian and 
Israeli leaders and bringing American diplomacy to bear on this 
difficult, but crucial, issue. Peace can only come if all 
parties choose to do the difficult work. And the time to choose 
peace is now. But there can be no permanent peace without an 
end to terror. Building a world of hope and prosperity and 
peace is difficult. As we move forward, America's relations 
with world global powers will be critical.
    In Russia, we see that the path to democracy is uneven and 
that it's success is not yet assured, yet recent history shows 
that we can work closely with Russia on common problems. And, 
as we do so, you can be assured that we will continue to press 
the case for democracy, and we will continue to make clear that 
protection of democracy in Russia is vital to the future of 
U.S./Russian relations.
    In Asia, we have moved beyond the false assumption that it 
is impossible to have good relations with all of Asia's powers. 
Our Asian alliances have never been stronger, and we will use 
that strength to help secure peace and prosperity.
    Japan, South Korea, and Australia are key partners in our 
efforts to deter common threats and spur economic growth. We 
are building a candid, cooperative, and constructive 
relationship with China that embraces our common interests, but 
recognizes our considerable differences about values.
    The United States is cooperating with India, the world's 
largest democracy, across a range of economic and security 
issues. This, even as we embrace Pakistan as a vital war on--
vital ally in the war on terror and a state in transition 
toward a more moderate future.
    In our own neighborhood, we are cooperating closely with 
Canada and Mexico and with our close neighbors in Latin 
America. We are working to realize the vision of a fully 
democratic hemisphere bound by common values and free trade.
    But, perhaps most importantly, we must realize that America 
and all free nations are facing a generational struggle against 
a new and deadly ideology of hatred that we cannot ignore. We 
need to do much more to confront hateful propaganda, dispel 
dangerous myths, and get out the truth. We will increase our 
exchanges with the rest of the world. America should make a 
serious effort to understand other cultures and learn foreign 
languages. Our interaction with the rest of the world must be a 
conversation, not a monologue. And America must remain open to 
visitors and workers and students from around the world. We do 
not, and will not, compromise our security standards; yet if 
our public-diplomacy efforts are to succeed, we cannot close 
ourselves off from the rest of the world.
    If I am confirmed, public diplomacy will be a top priority 
for me and for the professionals I lead. In all that lies 
ahead, the primary instrument of American diplomacy will be the 
Department of State and the men and women of its Foreign and 
Civil Services and Foreign Service Nationals. The time for 
diplomacy is now, and the President and I will expect great 
things from America's diplomatic corps. We know from experience 
how hard they work, the risks that they and their families 
take, the hardships they endure. We will be asking even more of 
them in their service of the country and of a great cause. They 
will need to develop new skills and rise to new challenges. 
This is a time that calls for transformational diplomacy.
    More than ever, America's diplomats will need to be active 
in spreading democracy and fighting terror and reducing poverty 
and doing our part to protect America's homeland. I will 
personally work to ensure that America's diplomats have all the 
tools they need to do their jobs, from training to budgets to 
mentoring to embassy security. I also intend to strengthen the 
recruitment of new personnel, because American diplomacy needs 
to constantly hire and develop top talent. And I will seek to 
further diversify the State Department's work force. This is 
not just a good cause, it's a necessity. A great strength of 
our country is its diversity, and the signal sent to the rest 
of the world when America is represented abroad by people of 
all cultures and races and religions is an unsurpassed 
statement about who we are and what our values mean in 
practice.
    Let me close with a personal reflection. I was in 
government in Washington from 1989 to 1991. I was lucky enough 
to be the Soviet specialist in the White House at the end of 
the Cold War. I got to participate in the liberation of Eastern 
Europe and the unification of Germany, the beginnings of the 
peaceful collapse of the Soviet Union. It was a heady time for 
all of us. But when I look back, I know that we were just 
merely harvesting the good decisions that had been made in 1947 
and 1948 and in 1949, when Truman and Acheson and Vandenberg 
and Kennan and so many wise and farsighted statesmen in the 
executive and legislative branches recognized that we were not 
in a limited engagement with communism, we were in the defining 
struggle of our time. Democrats and Republicans united around a 
vision and policies that won the Cold War. The road was not 
always smooth, but the basic unity of purpose and values was 
there. And that unity was essential to our eventual success.
    No President and no Secretary of State could have 
effectively protected American interests in such momentous 
times without the strong support of the Congress and from this 
committee. And the same is true today. Our task and our duty is 
to unite around a vision and policies that will spread freedom 
and prosperity around the globe.
    I have worked directly with many of you. And in this time 
of great challenge and opportunity, America's coequal branches 
of government must work together to advance freedom and 
prosperity.
    In the preface to his memoirs published in 1969, Dean 
Acheson wrote of the postwar period that, ``Those who had acted 
in this drama did not know, nor do any of us yet know, the 
end,'' close quote.
    Senators, now we know. And many of us here were witness to 
that end. The end was a victory for freedom, the liberation of 
half a continent, the passing of a despotic empire, and 
vindication for the wise and brave decisions made at the 
creation.
    It is my greatest hope and my deepest conviction that the 
struggle we face today will someday end in a similar triumph of 
the human spirit. Working together, we can make it so.
    Thank you very much.

    [Dr. Rice's prepared statement follows:]

               Prepared Statement of Dr. Condoleezza Rice

    Thank you Chairman Lugar, Senator Biden, and Members of the 
Committee. And let me also thank Senator Dianne Feinstein who, as a 
fellow Californian, I have long admired as a leader on behalf of our 
state and our nation.
    Mr. Chairman, members of the Committee, it is an honor to be 
nominated to lead the State Department at this critical time--a time of 
challenge and hope and opportunity for America, and for the entire 
world.
    September 11th, 2001 was a defining moment for our nation and the 
world. Under the vision and leadership of President Bush, our nation 
has risen to meet the challenges of our time: fighting tyranny and 
terror, and securing the blessings of freedom and prosperity for a new 
generation. The work that America and our allies have undertaken, and 
the sacrifices we have made, have been difficult--and necessary--and 
right. Now is the time to build on these achievements--to make the 
world safer, and to make the world more free. We must use American 
diplomacy to help create a balance of power in the world that favors 
freedom. And the time for diplomacy is now.
    I am humbled by President Bush's confidence in me to undertake the 
great work of leading American diplomacy at such a moment in history. 
If confirmed, I will work with members of Congress, from both sides of 
the aisle, to build a strong bipartisan consensus behind America's 
foreign policy. I will seek to strengthen our alliances, to support our 
friends, and to make the world safer, and better. I will enlist the 
great talents of the men and women of the State Department, the Foreign 
and Civil Services and our Foreign Service Nationals. And if I am 
confirmed, I will be especially honored to succeed a man I so admire--
my friend and mentor, Cohn Powell.
    Four years ago, Secretary Powell addressed this committee for the 
same purpose I do now. Then as now, it was the same week that America 
celebrates the life and legacy of Doctor Martin Luther King, Jr. It is 
a time to reflect on the legacy of that great man, on the sacrifices he 
made, on the courage of the people he led, and on the progress our 
nation has made in the decades since. I am especially indebted to those 
who fought and sacrificed in the Civil Rights movement so that I could 
be here today.
    For me, this is a time to remember other heroes as well. I grew up 
in Birmingham, Alabama--the old Birmingham of Bull Connor, church 
bombings, and voter intimidation--the Birmingham where Dr. King was 
thrown in jail for demonstrating without a permit. Yet there was 
another Birmingham, the city where my parents--John and Angelena Rice--
and their friends built a thriving community in the midst of the most 
terrible segregation in the country. It would have been so easy for 
them to give in to despair, and to send that message of hopelessness to 
their children. But they refused to allow the limits and injustices of 
their time to limit our horizons. My friends and I were raised to 
believe that we could do or become anything--that the only limits to 
our aspirations came from within. We were taught not to listen to those 
who said to us, ``No, you can't.''
    The story of Birmingham's parents and teachers and children is a 
story of the triumph of universal values over adversity. And those 
values--a belief in democracy, and liberty, and the dignity of every 
life, and the rights of every individual--unite Americans of all 
backgrounds, all faiths, and all colors. They provide us a common cause 
in all times, a rallying point in difficult times, and a source of hope 
to men and women across the globe who cherish freedom and work to 
advance freedom's cause. And in these extraordinary times, it is the 
duty of all of us--legislators, diplomats, civil servants, and 
citizens--to uphold and advance the values that are the core of the 
American identity, and that have lifted the lives of millions around 
the world.
    One of history's clearest lessons is that America is safer, and the 
world is more secure, whenever and wherever freedom prevails. It is 
neither an accident nor a coincidence that the greatest threats of the 
last century emerged from totalitarian movements. Fascism and Communism 
differed in many ways, but they shared an implacable hatred of freedom, 
a fanatical assurance that their way was the only way, and a supreme 
confidence that history was on their side.
    At certain moments, it almost seemed to be so. During the first 
half of the 20th century much of the democratic and economic progress 
of earlier decades hooked to be swept away by the march of ruthless 
ideologies armed with terrible military and technological power. Even 
after the allied victory in World War Two, many feared that Europe, and 
perhaps the world, would be forced to permanently endure half enslaved 
and half free. The cause of freedom suffered a series of major 
strategic setbacks: Communism imposed in Eastern Europe--Soviet power 
dominant in East Germany--the coup in Czechoslovakia--the victory of 
the Chinese Communists--the Soviet nuclear test five years before we 
predicted--to name just a few. In those early years, the prospect of a 
united democratic Germany and a democratic Japan seemed far-fetched.
    Yet America and our allies were blessed with visionary leaders who 
did not lose their way. They created the great NATO alliance to contain 
and eventually erode Soviet power. They helped to establish the United 
Nations and created the international legal framework for this and 
other institutions that have served the world well for more than 50 
years. They provided billions in aid to rebuild Europe and much of 
Asia. They built an international economic system based on free trade 
and free markets to spread prosperity to every corner of the globe. And 
they confronted the ideology and propaganda of our enemies with a 
message of hope, and with the truth. And in the end--though the end was 
long in coming--their vision prevailed.
    The challenges we face today are no less daunting. America and the 
free world are once again engaged in a long-term struggle against an 
ideology of tyranny and terror, and against hatred and hopelessness. 
And we must confront these challenges with the same vision, courage and 
boldness of thought demonstrated by our post-World War Two leaders.
    In these momentous times, American diplomacy has three great tasks. 
First, we will unite the community of democracies in building an 
international system that is based on our shared values and the rule of 
law. Second, we will strengthen the community of democracies to fight 
the threats to our common security and alleviate the hopelessness that 
feeds terror. And third, we will spread freedom and democracy 
throughout the globe. That is the mission that President Bush has set 
for America in the world--and the great mission of American diplomacy 
today.
    Let me address each of the three tasks I just mentioned. Every 
nation that benefits from living on the right side of the freedom 
divide has an obligation to share freedom's blessings. Our first 
challenge, then, is to inspire the American people, and the people of 
all free nations, to unite in common cause to solve common problems. 
NATO--and the European Union--and our democratic allies in East Asia 
and around the world will be our strongest partners in this vital work. 
The United States will also continue to work to support and uphold the 
system of international rules and treaties that allow us to take 
advantage of our freedom, to build our economies, and to keep us safe 
and secure.
    We must remain united in insisting that Iran and North Korea 
abandon their nuclear weapons ambitions, and choose instead the path of 
peace. New forums that emerge from the Broader Middle East and North 
Africa Initiative offer the ideal venues to encourage economic, social 
and democratic reform in the Islamic world. Implementing the Doha 
Development Agenda and reducing trade barriers will create jobs and 
reduce poverty in dozens of nations. And by standing with the free 
peoples of Iraq and Afghanistan, we will continue to bring hope to 
millions, and democracy to a part of the world where it is sorely 
lacking.
    As President Bush said in our National Security Strategy, America 
``is guided by the conviction that no nation can build a safer, better 
world alone. Alliances and multilateral institutions can multiply the 
strength of freedom-loving nations.'' If I am confirmed, that core 
conviction will guide my actions. Yet when judging a course of action, 
I will never forget that the true measure of its worth is whether it is 
effective.
    Our second great task is to strengthen the community of 
democracies, so that all free nations are equal to the work before us. 
Free peoples everywhere are heartened by the success of democracy 
around the globe. Together, we must build on that success.
    We face many challenges. In some parts of the world, an extremist 
few threaten the very existence of political liberty. Disease and 
poverty have the potential to destabilize whole nations and regions. 
Corruption can sap the foundations of democracy. And some elected 
leaders have taken illiberal steps that, if not corrected, could 
undermine hard-won democratic progress.
    We must do all we can to ensure that nations which make the hard 
choices and do the hard work to join the free world deliver on the high 
hopes of their citizens for a better life. From the Philippines to 
Colombia to the nations of Africa, we are strengthening 
counterterrorism cooperation with nations that have the will to fight 
terror, but need help with the means. We are spending billions to fight 
AIDS, tuberculosis, malaria and other diseases, to alleviate suffering 
for millions and help end public health crises. America has always been 
generous in helping countries recover from natural disasters--and today 
we are providing money and personnel to ease the suffering of millions 
afflicted by the tsunami, and to help nations rebuild their 
infrastructure. We are joining with developing nations to fight 
corruption, instill the rule of law, and create a culture of 
transparency. In much of Africa and Latin America, we face the twin 
challenges of helping to bolster democratic ideals and institutions, 
and alleviating poverty. We will work with reformers in those regions 
who are committed to increasing opportunity for their peoples. And we 
will insist that leaders who are elected democratically have an 
obligation to govern democratically.
    Our third great task is to spread democracy and freedom throughout 
the world. I spoke earlier of the grave setbacks to democracy in the 
first half of the 20th century. The second half of the century saw an 
advance of democracy that was far more dramatic. In the last quarter of 
that century, the number of democracies in the world tripled. And in 
the last six months of this new century alone, we have witnessed the 
peaceful, democratic transfer of power in Malaysia--a majority Muslim 
nation--and in Indonesia--the country with the world's largest Muslim 
population. We have seen men and women wait in line for hours to vote 
in Afghanistan's first ever free and fair presidential election. We--
and I know you Mr. Chairman--were heartened by the refusal of the 
people of Ukraine to accept a flawed election, and their insistence 
that their democratic will be honored. We have watched as the people of 
the Palestinian Territories turned out to vote in an orderly and fair 
election. And soon the people of Iraq will exercise their right to 
choose their leaders, and set the course of their nation's future. No 
less than were the last decades of the 20th century, the first decades 
of this new century can be an era of liberty. And we in America must do 
everything we can to make it so.
    To be sure, in our world there remain outposts of tyranny--and 
America stands with oppressed people on every continent--in Cuba, and 
Burma, and North Korea, and Iran, and Belarus, and Zimbabwe. The world 
should apply what Natan Sharansky calls the ``town square test'': if a 
person cannot walk into the middle of the town square and express his 
or her views without fear of arrest, imprisonment, or physical harm, 
then that person is living in a fear society, not a free society. We 
cannot rest until every person living in a ``fear society'' has finally 
won their freedom.
    In the Middle East, President Bush has broken with six decades of 
excusing and accommodating the lack of freedom in the hope of 
purchasing stability at the price of liberty. The stakes could not be 
higher. As long as the broader Middle East remains a region of tyranny 
and despair and anger, it will produce extremists and movements that 
threaten the safety of Americans and our friends.
    But there are hopeful signs that freedom is on the march. 
Afghanistan and Iraq are struggling to put dark and terrible pasts 
behind them and are choosing the path of progress. Just months ago, 
Afghanistan held a free and fair election, and chose a president who is 
committed to the success of democracy and to the fight against terror. 
In Iraq, the people will soon take the next step in their journey 
toward full, genuine democracy. All Iraqis, whatever their faith or 
ethnicity--from Shias to Sunnis to Kurds--must build a common future 
together. The election later this month will be an important first step 
as the people of Iraq prepare to draft a constitution and hold the next 
round of elections--elections that will create a permanent government.
    The success of freedom in Afghanistan and Iraq will give strength 
and hope to reformers throughout the region, and accelerate the pace of 
reforms already underway. From Morocco to Jordan to Bahrain, we are 
seeing elections and new protections for women and minorities, and the 
beginnings of political pluralism. Political, civil, and business 
leaders have issued stirring calls for political, economic and social 
change: Increasingly, the people are speaking, and their message is 
clear: the future of the region is to live in liberty.
    And the establishment of a Palestinian democracy will help to bring 
an end to the conflict in the Holy Land. Much has changed since June 
24th, 2002, when President Bush outlined a new approach for America in 
the quest for peace in the Middle East, and spoke the truth about what 
will be required to end this conflict. Now we have reached a moment of 
opportunity--and we must seize it. We take great encouragement from the 
elections just held for a new Palestinian leader. And Senators Biden 
and Sununu, I want to thank you for representing the United States at 
these historic elections. America seeks justice and dignity and a 
viable, independent, and democratic state for the Palestinian people. 
We seek security and peace for the State of Israel. Israel must do its 
part to improve the conditions under which Palestinians live and seek 
to build a better future. Arab states must join to help--and deny any 
help or solace to those who take the path of violence. I look forward 
to personally working with the Palestinian and Israeli leaders, and 
bringing American diplomacy to bear on this difficult but crucial 
issue. Peace can only come if all parties choose to do the difficult 
work, and choose to meet their responsibilities. And the time to choose 
peace is now.
    Building a world of hope, prosperity and peace is difficult. As we 
move forward, America's relations with the world's global powers will 
be critical. In Russia, we see that the path to democracy is uneven and 
that its success is not yet assured. Yet recent history shows that we 
can work closely with Russia on common problems. And as we do so, we 
will continue to press the case for democracy, and we will continue to 
make clear that the protection of democracy in Russia is vital to the 
future of US-Russia relations. In Asia, we have moved beyond the false 
assumption that it is impossible to have good relations with all of 
Asia's powers. Our Asian alliances have never been stronger--and we 
will use that strength to help secure the peace and prosperity of the 
region. Japan, South Korea, and Australia are key partners in our 
efforts to deter common threats and spur economic growth. We are 
building a candid, cooperative and constructive relationship with China 
that embraces our common interests but still recognizes our 
considerable differences about values. The United States is cooperating 
with India, the world's largest democracy, across a range of economic 
and security issues. This, even as we embrace Pakistan as a vital ally 
in the war on terror, and a state in transition towards a more moderate 
and democratic future. In our own neighborhood, we are cooperating 
closely with Canada and Mexico, and working to realize the vision of a 
fully democratic hemisphere, bound by common values and free trade.
    We also must realize that America and all free nations are facing a 
generational struggle against a new and deadly ideology of hatred that 
we cannot ignore. We need to do much more to confront hateful 
propaganda, dispel dangerous myths, and get out the truth. We will 
increase our exchanges with the rest of the world. And Americans should 
make a serious effort to understand other cultures and learn foreign 
languages. Our interaction with the rest of the world must be a 
conversation, not a monologue. And America must remain open to visitors 
and workers and students from around the world, without compromising 
our security standards. If our public diplomacy efforts are to succeed, 
we cannot close ourselves off from the world. And if I am confirmed, 
public diplomacy will be a top priority for me and for the 
professionals I lead.
    In all that lies ahead, the primary instrument of American 
diplomacy will be the Department of State, and the men and women of its 
Foreign and Civil Services and Foreign Service Nationals. The time for 
diplomacy is now--and the President and I will expect great things from 
America's diplomatic corps. We know from experience how hard they work, 
the risks they and their families take, and the hardships they endure. 
We will be asking even more of them, in the service of their country, 
and of a great cause. They will need to develop new skills, and rise to 
new challenges. This time of global transformation calls for 
transformational diplomacy. More than ever, America's diplomats will 
need to be active in spreading democracy, fighting terror, reducing 
poverty, and doing our part to protect the American homeland. I will 
personally work to ensure that America's diplomats have all the tools 
they need to do their jobs--from training to budgets to mentoring to 
embassy security. I also intend to strengthen the recruitment of new 
personnel, because American diplomacy needs to constantly hire and 
develop top talent. And I will seek to further diversify the State 
Department's workforce. This is not just a good cause; it is a 
necessity. A great strength of our country is our diversity. And the 
signal sent to the rest of the world when America is represented abroad 
by people of all cultures, races, and religions is an unsurpassed 
statement about who we are and what our values mean in practice.
    Let me close with a personal recollection. I was in government in 
Washington in 1989 to 1991. I was the Soviet specialist in the White 
House at the end of the Cold War. I was lucky to be there, and I knew 
it. I got to participate in the liberation of Eastern Europe. I got to 
participate in the unification of Germany and to see the Soviet Union 
collapse. It was a heady time for us all. But, when I look back, I know 
that we were merely harvesting the good decisions that had been made in 
1947, in 1948, and in 1949, when Truman and Acheson and Vandenberg and 
Kennan and so many wise and farsighted statesmen--in the Executive and 
Legislative branches--recognized that we were not in a limited 
engagement with communism, we were in the defining struggle of our 
times.
    Democrats and Republicans united around a vision and policies that 
won the Cold War. The road was not always smooth, but the basic unity 
of purpose and values was there--and that unity was essential to our 
eventual success. No President, and no Secretary of State, could have 
effectively protected American interests in such momentous times 
without strong support from the Congress, and from this Committee. And 
the same is true today. Our task, and our duty is to unite around a 
vision and policies that will spread freedom and prosperity around the 
globe. I have worked directly with many of you. And in this time of 
great challenge and opportunity, America's co-equal branches of 
government must work together to advance freedom and prosperity.
    In the preface to his memoirs, published in 1969, Dean Acheson 
wrote of the post-war period that ``those who acted in this drama did 
not know, nor do any of us yet know, the end.'' Senators, now we know--
and many of us here bore witness to that end. The end was a victory for 
freedom, the liberation of half a continent, the passing of a despotic 
empire--and vindication for the wise and brave decisions made at the 
beginning. It is my greatest hope--and my deepest conviction--that the 
struggle we face today will some day end in a similar triumph of the 
human spirit. And working together, we can make it so.
    Thank you.

    The Chairman. Dr. Rice, thank you. The committee asked you 
to make a comprehensive and thoughtful statement, and you 
certainly have fulfilled our request. We appreciate the time 
and effort that you have given to that statement, and, 
likewise, to the responses that you've given to all of our 
questions. Just for the benefit of Senators and those following 
the hearing, I would add that during the past few weeks, 
Senators have submitted to Dr. Rice folios of questions. The 
questions have been answered, and they will all be made a part 
of the record. For the record, some Senators may wish to 
reiterate some of those questions today, but we know you will 
be well prepared, because you have already written some 
remarkable answers that give us a great deal of assurance.
    I've consulted with the distinguished Ranking Member, 
Senator Biden, about the format, and we will now have a round 
of questions. Each Member will have ten minutes, and I'll ask 
Members to be respectful of that time so that they will not 
infringe upon the opportunities of others. And then, following 
that, if Members wish to ask additional questions, we will have 
a second round of ten minutes per Member; and, if required, a 
third and even a fourth round. I have consulted with Dr. Rice. 
She is prepared for a number of hours of questions, and I 
appreciate that.
    We'll proceed at least until noon, and maybe a little 
beyond that, commence again at 2:00 o'clock in the afternoon. 
If it appears that the hearing might be concluded at some time 
in the early evening, it would be my privilege to continue on 
and to preside and to be with any Member who wishes to keep 
asking questions throughout that period of time.
    My hope is that Members on both sides of the aisle will be 
prepared, at the conclusion of all of the questioning, whether 
it should occur today or tomorrow, to have a business meeting 
of the committee so that we might take a vote upon this 
nomination, and that it might be available, therefore, for 
action on the floor of the Senate on Thursday, January the 
20th. Dr. Frist has indicated that, after 3:00 o'clock, roll-
call votes will be in order. My prayer is that one of the roll-
call votes will be on this nomination.
    This is a potential roadmap for us to proceed through the 
hearing in an orderly way that is fair to all Members, and I 
want to make that point clear. We have offered two full days so 
that, in the event Members have a lot of questions, they will 
have an opportunity to raise them for a complete record of the 
hearing.
    Now, Dr. Rice, I'll begin, and I'll ask the timekeeper to 
be as rigorous on my questions as on anyone else's for the next 
ten minutes.
    Let me say that, last year, I introduced legislation 
intended to relieve the burdens placed on the Nunn-Lugar 
program by the Congress in the form of conditions, 
certifications, reporting requirements. These have occurred 
over many years, and many were points well taken at the time, 
as there was gross distrust of the Russians, and, likewise, a 
hope for progress through these restrictions. Nevertheless, 
they have inhibited, substantially in some years, the amount of 
work that could be done to actually work with the Russians in 
cooperative threat reductions, to take warheads off of 
missiles, to destroy the missiles, to destroy the aircraft that 
might fly over our country, and even in the Shchuch'ye Project, 
to move toward a neutralization of the chemical weapons.
    The goal of my legislation is to provide President Bush 
with more flexibility in the utilization of this program in 
achieving nonproliferation and dismantlement goals. Does the 
administration support this legislation?
    Dr. Rice.  Thank you, Senator Lugar.
    Yes, we do. And I want to start by saying thank you very 
much for the tremendous leadership that you have given and 
that, earlier, Senator Sam Nunn gave to this. And I know that a 
number of Senators on this committee and on other committees 
have been stalwarts in this extremely important initiative. I'm 
an old student of the Soviet Union and of the Soviet military, 
and I really can think of nothing more important than being 
able to proceed with the dismantlement, the safe dismantlement, 
of the Soviet arsenal, with nuclear safeguards to make certain 
that nuclear weapons facilities and the like are well secured, 
and then the blending down, as we are doing, of the number of 
hazardous, potentially lethal materials that could be used to 
make nuclear weapons, as well as, of course, you mentioned, 
Shchuch'ye and the chemical weapons.
    So this is an extremely important program. I want to be 
clear that we do pay attention, in our relationship, to the 
progress, or lack thereof, of democracy. We pay attention and 
push the Russians on questions of accounting fully for their 
chemical-weapons stockpiles, for permitting an understanding of 
their biological-weapons programs. But flexibility in being 
able to administer the program would be most welcome, and it is 
just an extremely important program that--I think you know--
that we continue to push.
    The Chairman. I appreciate that statement very much. We 
will be working with you and the Department. Likewise, we will 
continue our efforts with the Department of Defense and DTRA 
and the Cooperative Threat Reduction Group, which has been so 
helpful.
    Now, the future of U.S./Russian cooperation on 
nonproliferation and the dismantlement of weapons of mass 
destruction is contingent also upon the continuation of the 
Nunn-Lugar Umbrella Agreement that undergirds all of our 
efforts in this area. To date, the Kremlin has not submitted 
the agreement reached in 1999 to the Duma for approval. What 
are your views on the prospects of the United States and Russia 
reaching agreement on such things as liability, tax-free 
status, and the other issues that are covered by the umbrella 
agreement?
    Dr. Rice.  Senator Lugar, the President has raised with 
President Putin the issue of ratification in the Duma of the 
CTR over--umbrella over a number--on a number of occasions, 
including, most recently, when they were at Sea Island. I'm 
sure that he will raise it when he sees President Putin in the 
next several weeks. And we are, ourselves, reviewing what we 
may want to do about the liability procedures here. It is 
extremely important that this work go forward. And to the 
degree that there are bureaucratic logjams that need to be 
broken, we've simply got to break them.
    The other possibility, which is that you leave materials 
unsecured and you don't take as full initiative as you can 
under these very important programs, is simply not acceptable. 
And so, we are working to see how we can move this forward with 
the Russians.
    We had discussions, just recently, with the Russian Defense 
Minister, when he was here, about moving forward, so you can be 
assured that we're looking to break whatever bureaucratic 
logjams have emerged over this period of time.
    The Chairman. I appreciate that response, and I'm hopeful 
that you will work with the President so that that will be on 
the agenda of his meeting with President Putin. Clearly, 
President Putin is cognizant of all of these programs, but 
bureaucracy in Russia sometimes moves slowly----
    Dr. Rice.  Right.
    The Chairman [continuing]. ----as it does in our country. 
To the extent that we can expedite this, that would be helpful. 
As the President pointed out, weapons of mass destruction or 
materials of mass destruction, improperly secured, are the 
basis for many of the terrorist threats, whether it be al Qaeda 
or the Russians' fear of the Chechnyans, or whoever. The 
materials are there to be picked up and to be utilized without 
research and difficulty. These are critical items, and I know 
that you agree.
    Let me also mention that the G8 meeting, the so-called ``10 
plus 10 over 10'' program, attempted to enlist our allies in 
matching the effort, of about a billion dollars a year, that we 
are putting into these programs--Defense, State, and Energy 
Departments. It's been difficult for them to do that, because 
they do not have satisfactory umbrella agreements, in most 
cases, either.
    So, while the President is visiting with President Putin 
bilaterally, perhaps he could also mention our seven allies 
within the G8 that we urgently need to enlist in this type of 
work.
    Dr. Rice.  I agree completely, Senator. In fact, the 
President has talked to President Putin about the difficulties 
that others are having extending money.
    I think one of the really great breakthroughs was when we 
came up with this global partnership initiative, because it 
permitted us to multiply the resources that the United States 
was putting in by resources from Japan and Italy and Great 
Britain and other places. And it's important that those 
resources get spent.
    This is one part, an extremely important part, of a broad 
nuclear nonproliferation initiative agenda that we are pursuing 
to--with our allies--to try and deal with this very nettlesome, 
difficult problem.
    The Chairman. And, of course, also, as the President visits 
with the German leadership, and perhaps the French leadership 
and what have you, they are parties to this and are----
    Dr. Rice.  They are.
    The Chairman [continuing]. ----hopefully, eager to be a 
part of it.
    Dr. Rice.  In fact, I think that the nonproliferation story 
is a quite remarkable story of cooperation among the major 
allies. We have outstanding cooperation with France and Germany 
and our other allies. We have been working, for instance, in 
something called the Proliferation Security Initiative, which 
60 countries are now party to--and a number of others have 
expressed interest--to try to interdict with--consistent with 
international law--to try and interdict suspicious shipments. 
This has given us new means of intelligence cooperation, law-
enforcement cooperation, naval cooperation. And it--these are 
very important.
    We work best when we're putting the alliance to use and to 
work----
    The Chairman. Yes.
    Dr. Rice [continuing]. ----on difficult problems together.
    The Chairman. And this is a great way to do so. I would add 
an agreement that's also important, the AMEC agreement. We have 
enlisted the support of Norway and friends who want to work in 
that area, particularly on the submarine issues and the 
pollution of nuclear material that may have been dumped, or 
could be dumped, without activity on our part.
    Let me turn to another issue. In your answers to questions 
for the record--and I cite that, because I've asked this 
question for the record and you have responded--I particularly 
appreciated your response on the Law of the Sea Convention. You 
urged the committee to favorably report it out, and you said 
that you will work with the Senate leadership to bring the 
convention and implementing agreement to the floor for a vote 
during the 109th Congress. You also said the following, 
``Joining the convention will advance the interests of the 
United States military. The United States, as the country with 
the largest coastline and the largest exclusive economic zone, 
will gain economic and resource benefits from the convention. 
The convention will not inhibit the United States, nor its 
partners, from successfully pursuing the Proliferation Security 
Initiative. And the United Nations has no decision-making role 
under the convention in regulating uses of the oceans by any 
state party to the convention.'' That language clears up an 
issue sometimes raised by opponents to the convention. And, 
finally, you said, ``The convention does not provide for, or 
authorize, taxation of individuals or corporations.''
    I cannot think of a stronger administration statement in 
support of the Law of the Sea Convention. Should I assume that 
the President would like to see this convention passed as soon 
as possible?
    Dr. Rice.  Would certainly like to see it passed as soon as 
possible. And, Senator, I think--you know the history of this 
better than I, as well as Senators like Senator Warner and 
others, who worked very hard to make sure that some of the 
early concerns about the convention were addressed and that the 
convention, as it now stands, serves our national security 
interest, serves our economic interest, and we very much want 
to see it go into force.
    The Chairman. I thank you for that response.
    In your responses to questions for the record, you embraced 
the Department's role as the lead on an interagency team 
working for a more coordinated approach to stabilization and 
reconstruction efforts, a role that I've been pushing, as have 
Senator Biden and many others on our committee, as a new core 
mission for the Department of State. Your support for the 
Department's Office of Reconstruction and Stabilization in the 
Department will be crucial as it seeks the personnel, 
resources, and budget to succeed. Can you outline your own 
vision for the Department of State in this area? And how would 
you integrate USAID with this effort?
    Dr. Rice.  We have learned a lot of lessons over the last 
several years, and one of them, I think, is that we need to be 
better able to marry civilian expertise in reconstruction and 
stabilization with whatever we need to do militarily to 
stabilize the situation. These post-conflict situations require 
a wide range of skills and talents that we've had to assemble, 
in a rather ad-hoc fashion, from within the United States 
Government when we faced Afghanistan or faced Iraq. And, 
frankly, we will face these again. We face it in Liberia, we 
face it in Sudan--we will face it in Sudan if those situations 
can be stabilized. And so, we have been--and I've been--very 
heartened by the work that has been done on this new Office 
of--for Reconstruction and Stabilization. I know, Senator, that 
you and your staff have had a lot of conversations, first with 
people who were on my staff in the NSC who were interested in 
this. And now that the office has been created in the State 
Department, I've had briefings on what Carlos Pasqual and his 
people are already doing. We are going to try to make sure that 
they have the resources for this first-phase effort that they 
are in.
    I think we need to look at what further functions and what 
further requirements there are for this especially important 
task. But the State Department does need to lead this effort. 
There is great enthusiasm in the State Department for being 
able to do this, as I've talked to people in briefings and the 
like. And so, the office will not only have my support, but I'm 
counting on it to be able to help us make better efforts as we 
face these stabilization problems around the world.
    The Chairman. Great. And we will count upon you for 
leadership of our legislative efforts. We will work together on 
this.
    Dr. Rice.  Thank you.
    The Chairman. Senator Biden?
    Senator Biden.  Thank you very much.
    Dr. Rice, you're, I'm told, a great football fan. I notice, 
when I go in your office, you are. I'm not going to ask you 
this under oath, but are you aware of who the national 
champions that won double-A football were last year?
    Dr. Rice.  Did they come from Delaware, sir?
    Senator Biden.  Yes, they did.
    Dr. Rice.  Yes, sir.
    Senator Biden.  University of Delaware. Thank you very 
much. I knew you'd know that. I knew you'd know that.
    Dr. Rice.  Right.
    Senator Biden.  Very important point.
    Dr. Rice, I'd like to talk to you about Iraq, if I may 
start there. You quote eloquently, and you write eloquently, in 
your opening statement, ``But when I look back, I know that we 
were merely harvesting the good decisions that had been made in 
'47, '48, and '49, when Truman, Acheson, and Vandenberg and 
Kennan, and so many other wise and foresighted statesmen in the 
executive and legislative branch, recognized that we are not in 
a limited engagement with communism, we are in the defining 
struggle of our times.''
    Based on our discussions over the years, I think we agree 
that the defining struggle of our times right now is this 
struggle between freedom and radical Islamic fundamentalism. 
That's not the only problem in the world, but it's the one 
that, I think, takes a long time. And Truman and Acheson and 
others came up with--and leveled with the American people about 
how long and hard and expensive it was going to be--the Truman 
Doctrine, the establishment of NATO, the Bretton Woods 
agreement, the Marshall Plan, well over 300,000 troops in 
Europe. We still have a considerable number of troops in 
Europe. And we flat-out told the American people. And yet I'm a 
little concerned that the American people don't have a clear 
sense of what is expected of them in this defining struggle 
that we always talk about. And the focus right now is primarily 
in Iraq. And we have an exit strategy, which I happen to agree 
with. The ultimate exit strategy is a stable, secure Iraqi 
government brought about as a consequence of a series of 
elections, this one just being the first of a series, and 
providing Iraq the capacity to maintain order and peace, not 
only in the streets, but along their borders.
    And, toward that end, we had significant discussions in 
this committee prior to going in, and a number of experts, from 
RAND to others, indicated that we were going to need somewhere 
in the order of 5,000 European paramilitary police troops, in 
addition to the military. I think the number was 5,600. And my 
first question is, Did your outfit write a report suggesting 
how many military forces your team thought would be needed in 
Iraq?
    Dr. Rice.  No, Senator, we did not write a report of that 
kind. We, obviously, were aware of all the literature out there 
about how one stabilizes, and we looked at that literature, we 
considered it. But as a part of a team that is the National 
Security Council, and that is where the President's primary 
national security advisors sit, I sat through briefing after 
briefing that assessed the plan for both the war and for the 
immediate postwar period and, as a part of that plan, the troop 
levels that were recommended by General Franks and by his 
commanders. The President had good military advice from General 
Franks, good military advice from Chairman Myers, who 
represents, of course, not just himself, but the corporate body 
of the Joint Chiefs of Staff. And they were very clear that 
they believed that the plan that they were going to execute, 
including phase four--that is, the stabilization phase--was 
adequately resourced, in terms of troop strength.
    Senator Biden.  In retrospect, do you think it was 
adequately resourced? What do you think now? Everybody gets a 
chance to determine whether or not what they signed on to or 
thought, recommended by professionals, was workable or not. Do 
you think it was adequate, now, looking back?
    Dr. Rice.  Senator Biden, I would not presume to try to 
give the President military advice, but I do believe that he 
got good military advice, and I do believe that the plan and 
the forces that we went in with were appropriate to the task. 
We did meet with some unforeseen circumstances; most 
importantly, as we swept through the country really rather 
rapidly, this--the core of this insurgency--that is, the 
Ba'athists and many of Saddam's loyal forces melted into the 
population. They didn't stand and fight. When they reemerged, 
they reemerged as an insurgency, I think, that, frankly, cannot 
be dealt with by military power alone, and certainly not by 
overwhelming military power, but must now be dealt with through 
the political mobilization of the Iraqi people, which is why 
these elections are so important, through economic 
reconstruction--and I would be the first to say that we want 
very much to accelerate that reconstruction--and then, most 
importantly----
    Senator Biden.  So bottom line----
    Dr. Rice [continuing]. ----through the Iraqi forces.
    Senator Biden [continuing]. ----getting the chance to look 
back, you think there were an adequate number of forces--
beginning, middle, and now. You wouldn't, if you got to go 
back, change the force structure.
    Dr. Rice.  I don't think I would, Senator.
    Senator Biden.  Okay. You're aware that Mr. Bremer suggests 
that we needed more force--he is the former, as we all know, 
ambassador who was in charge up until we handed over 
sovereignty. And I've made three trips since 2003, and every 
trip I make I meet with the flag officers, and they're all 
telling me they need more force, and they needed more force. 
The reason I asked the question is not to assess blame, because 
who the heck knows--as I said to Bremer--and I think the three 
of us were together the first time--I said, ``Mr. 
Ambassador''--in the first meeting after Saddam was dethroned 
and we were in Baghdad--I said, ``If the Lord Almighty came 
down and sat on this table and gave you the right answer to 60 
percent of all the difficult questions you'll have to answer, 
you still only have an even chance of succeeding. No one's ever 
done what we're trying to do.'' And I supported the effort. But 
it concerns me that, in retrospect, you still think the force 
structure was appropriate.
    Which leads me to this issue of one element of our exit 
strategy, and that is the training of Iraqi security forces. On 
October 21st of last year, you said, ``The Iraqi security force 
will number 125,000 by the end of the year, there will be 
145,000 security forces by February, and 200,000 by the time of 
the permanent election.'' And then March of last year, 
Secretary Rumsfeld, ``We now''--he said, ``We now have 200,000 
Iraqi security forces that are out there providing security in 
the country.'' And a month later, he said, ``210,000 in 
uniform,'' and called it, quote, ``an amazing accomplishment.''
    And now, what I'd like to know is what you all mean by 
``trained Iraqi security force.'' Do you mean someone who we 
give a uniform to, someone who had been in the Iraqi military 
before, or the police? Or does ``trained'' mean someone capable 
absent a physical presence of the United States or a coalition 
force with them to, in fact, do their job, whatever it's 
assigned, in whatever region they're in? What do you mean by 
``trained?''
    Dr. Rice.  By ``trained,'' Senator, what we've been trying 
to do is to take Iraqis--some of whom have served before, some 
of whom have not--and to give them, depending on whether it's 
police training or army training or commando training, the 
skills that they need to be able to secure the country. Now, we 
have had to, in many cases, understand that this is--that the 
initial training is--just that, it's initial training, and that 
you face a number of other issues. You face the issues of 
leadership. One of the problems that we've had with the 
desertion rates that we faced in the Iraqi security forces and 
with some of the problems of--I'll call it, ``discipline,'' 
broadly--is that we think there has been leadership gap. We 
learned, early on, that Iraqis were not going to train and then 
serve coalition leaders. And so----
    Senator Biden.  What have we done about that leadership 
gap?
    Dr. Rice [continuing].----we have a very active program now 
that Prime Minister Allawi is very involved in, himself, of 
vetting proven leaders in the former Iraqi security forces to 
bring top-down leadership to those people. NATO, of course, has 
put in a training mission that is devoted to training 
leadership, and a----
    Senator Biden.  That's not even set up yet, is it?
    Dr. Rice.  Well, it's--we have, on the ground----
    Senator Biden.  I'm not criticizing. Look, here's the 
reason I asked this question. I talked about, earlier--and my 
time is about up--I talked, earlier, about the need to level 
with the American people. When you say we have 200,000 trained 
security forces, and the Secretary of Defense says you have 
210,000, the impression of the average American is that, we've 
actually trained up people who can do the job.
    Now, I've made four trips there, three since Saddam came 
down. I've gone to the training facility for police in Jordan. 
With the American head trainer, I said, without anybody there, 
and I believe my friend--and a person who has an ideological 
bent considerably different than mine--my friend from South 
Carolina was there. I said, ``There's no one in the room. 
Please cut all the malarkey. Is this training program worth a 
darn?'' And the answer was, ``No,'' from our own trainer. I 
asked the head of the Jordanian police force who was there, and 
the Canadian Royal Mounted Policeman who was there as the 
triumvirate running the operation. I've been back and spoke 
with General Petraeus on two occasions. He is a first-rate 
soldier. He has indicated that he is just basically beginning.
    How many--and this is my last question, Mr. Chairman--how 
many security forces do you think are trained that can shoot 
straight, kill, and stand their ground? I don't mean in a 
uniform. I spent four hours in Fallujah. Our marines are not 
real anxious to stand next to, and count on, a lot of Iraqi 
forces, except the few that were trained as special forces. 
Now, how many do you really think are trained that Allawi can 
look to and say, ``I can rely on those forces?'' What do you 
think that number is?
    Dr. Rice.  Senator, I have to rely on the what I get from 
the field. And, by the way, I think that the trips that you've 
made, and the trips that the others have made, have given us 
information that we can go back with, and I appreciate your 
doing that
    We think the number right now is somewhere over 120,000. We 
think that, among those people, there are clearly--continue to 
be questions about on-duty time; that is, people who don't 
report for duty. And so, this is being looked at. We are trying 
to provide, for some of these units, mentors who can help, 
trying to provide leadership from the Iraqis, themselves, that 
can help these people.
    But this is the reason that Gary Luck has gone out, at 
Secretary Rumsfeld's direction, to take a hard look at the 
training program to see what General Petraeus--who, as you say, 
is a terrific soldier and has a lot of experience in Iraq--what 
he's been able to achieve, to work with the Iraqis to address 
some of these problems of leadership and morale and desertion 
in the armed forces and in the police forces, and to look at 
some of the equipping of the police forces.
    But I do want to note, Senator, that the Iraqis are making 
a lot of sacrifices here----
    Senator Biden.  No question.
    Dr. Rice [continuing]. ----their soldiers, their police. In 
places like Fallujah and places like Samara, and places like 
Najaf, they have played an active role in their security. But 
it is a process that takes some time. We believe that we've 
made some progress. We have more progress to make.
    Senator Biden.  Well, I thank you for your answer. I think 
you'll find, if you speak to the folks on the ground, that they 
don't think there's more than 4,000 actually trained Iraqi 
forces. I strongly urge you to pick up the phone or go see 
these folks. And the reason I press it is not that the Iraqis 
aren't sacrificing; they are--but that's almost irrelevant in 
one regard: the exit strategy for America is a trained force of 
several hundred-thousand people. We're talking about a year or 
more to get anywhere close to that. We should level with the 
American people about it. But after you take a hard look, as 
Secretary of State, I'd like to talk more with you about that.
    Thank you.
    The Chairman. Thank you, Senator Biden.
    Senator Hagel?
    Senator Hagel.  Mr. Chairman, thank you.
    Welcome, Dr. Rice.
    Dr. Rice.  Thank you.
    Senator Hagel.  Mr. Chairman, I have a statement that I 
would ask to be included in the record.
    The Chairman. It will be included in full.
    Senator Hagel.  Thank you.

    [Senator Hagel's prepared statement follows:]

               Prepared Statement of Senator Chuck Hagel

    Mr. Chairman, I congratulate Dr. Rice on her nomination and look 
forward to working with her in her new position as Secretary of State. 
She has served with distinction as Assistant to the President for 
National Security, as well as in other National Security Council 
positions. Dr. Rice comes to this job well-qualified and prepared to 
take on her new responsibilities.
    The challenges for U.S. foreign policy over the next four years 
will be formidable. U.S. foreign policy cannot be separated from our 
energy, economic, defense and domestic policies. It all falls within 
the arch of national interest. There will be windows of opportunity, 
but they will open and close quickly. Foreign policy will require a 
strategic agility that, whenever possible, gets ahead of problems, 
strengthens U.S. security and alliances, and promotes American 
interests and credibility.
    Our public diplomacy requires convincing the next generation of the 
world that America's purpose is not defined solely by our power. It is 
to work with our friends and allies to help build a better world for 
all people. A safer, more stable and prosperous world is in America's 
interest. That message has been lost. I am not sure how it happened, 
nor do I believe that it was solely our fault. I do know that public 
diplomacy is not about packaging, marketing, or spin. It is about our 
policies and, most importantly, our actions. It is a long-term process 
of engagement, dialogue and enhancing present relationships and 
building new ones.
    American policies in the war on terrorism must address the 
political and economic conditions that breed radicalism and violence, 
especially in the Muslim world. Poverty and underdevelopment do not 
necessarily lead to terrorism. But a lack of political freedom and 
economic opportunity undermine the prospects for stability and 
democracy in developing regions, and present easy targets for 
extremists.
    We must think creatively about how best to reorganize our foreign 
policy structure for stabilization and reconstruction missions, whether 
in post-conflict situations like Iraq and Afghanistan, or following 
natural disasters like the tsunami in Asia.
    America's inter-agency process and our military have done a 
tremendous job helping those people affected by the tsunami. We learn 
from experiences that test and exercise relationships within our own 
government.
    The U.S.-Europe-Japan alliance has been the foundation of our post-
World War II global strategy and should remain so. America is both an 
Atlantic and Pacific power. Our alliance with Europe and Japan 
functions as a bridge between East and West, Atlantic and Pacific, and 
is based on a shared commitment to democracy, free trade, and global 
leadership. In addition to strengthening our Trans-Atlantic bonds as 
Europe undergoes its own historic changes, America's Asian alliances 
will also require attention and focus. The Asia-Pacific region will 
greatly define America's interests in the 21st century.
    America's relationships with Russia, China and India will shape 
international politics, commerce, and security in the coming decades. 
These are powerful states undergoing dramatic and historic changes. Our 
bilateral relations with Russia, China and India will require a 
delicate diplomatic balance of security and commercial interests, as 
well as support for reform and human rights.
    The Western Hemisphere must be a high priority for U.S. foreign 
policy. The U.S. relationship with Mexico is as important as any 
relationship we have. The United States' cultural integration with the 
Western hemisphere is a fact of life--more than 50% of U.S. immigrants 
are from Latin America. The United States and Mexico must work together 
on immigration polices that further our shared interests in a more 
stable and prosperous Western hemisphere.
    There are few more urgent challenges facing this country today than 
immigration reform. A new 21st century U.S. immigration policy must be 
developed and implemented. I look forward to working with the Bush 
Administration on immigration policy and plan to re-introduce my 
immigration reform bill in the next few weeks.
    America must recognize the opportunities, however imperfect, 
presented by the election of Palestinian President Mahmoud Abbas (Abu 
Mazen) earlier this month, and the election of the Iraqi National 
Assembly, which will take place on January 30.
    The Israeli-Palestinian issue lies at the core of our strategic 
engagement with the Middle East and the Muslim world. The United 
States, its Quartet partners--the European Union, the United Nations, 
and Russia--and the Arab world must now actively engage in helping 
Israelis and Palestinians re-start the Peace Process. It will not be 
easy. Israeli Prime Minister Sharon faces a political challenge from 
Israeli settler groups and from those within his own Likud Party 
opposed to Israeli withdrawal from Gaza. Terrorists and extremists will 
continue to be a security threat to Israel and will seek to undermine 
Abu Mazen's government. That is happening now. We must not allow 
terrorists to hold hostage Middle East peace and the future of a two-
state solution.
    The National Assembly elections on January 30th represent a 
critical benchmark for Iraqi sovereignty and self-governance, as well 
as for an American exit strategy from Iraq. Developments in Iraq will 
influence and constrain America's foreign policy initiatives as long as 
U.S. combat troops remain there. We need a military exit strategy for 
Iraq. The questions are when and how. An exit strategy requires a 
sovereign Iraqi government and a strategy for diplomatic partnerships 
and regional security with Iraq and its neighbors.
    This hearing is an opportunity to discuss with Dr. Rice the war in 
Iraq, other foreign policy challenges facing the United States, and the 
Bush administration's plans and initiatives to deal with them.
    Thank you.

    Senator Hagel.  As has been noted here and, I think, 
eloquently stated by Senator Feinstein, you come before this 
committee impressively qualified, well prepared, and it is a 
nomination all of America can be proud of. And I mean that 
sincerely. So thank you for offering yourself for another four 
years of very engaging, responsible leadership. We appreciate 
that.
    I also want to note, Mr. Chairman, for the record, the good 
work of Secretary Powell, Deputy Secretary Armitage--I noted, 
Dr. Rice, that you mention him in your statement--the work that 
the Powell-Armitage team has done for this country over the 
last four years has been significant. All those who were part 
of that team need to be acknowledged, as well. So thank you, 
Dr. Rice, for noting Secretary Powell's leadership.
    I want to pursue, to some extent, some of the same line of 
questioning on the same subject, as well as other subjects in 
my ten minutes, that Senator Biden was talking about: Iraq. He 
left off with exit strategy. Would you explain to this 
committee what you and the President see as an exit strategy 
for America from Iraq, which would be, I suspect, connected to 
a post-January 30th election, which will provide an Iraqi--an 
elected Iraqi national assembly? What are our plans after that?
    Dr. Rice.  Well, we do have some things that we have to 
accomplish after the elections. Senator Biden has talked a lot 
about the training of Iraqi security forces. I think that's 
probably, in many ways, our most important task. Iraq's most 
important--the task of the Iraqis is to find a way forward from 
their elections for political reconciliation. And we can, of 
course, try to help in that, and do what we can to support that 
effort, but that's largely an Iraqi task. I think for us to try 
and improve Iraq's capability to defend itself.
    And I will just say, I have talked with people from the 
field, and I recently talked with General Casey, who was back 
here, and others. I think they think that they are doing 
relatively well on starting to get the numbers up for Iraqi 
security forces, but that they do need to address these 
questions of leadership, which then lead to problems with 
desertion and the like, and that they need to do something that 
is actually quite promising, which is to work with the Iraqis 
who have some ideas, themselves, about how some of these 
security forces might be restructured. So we will focus very 
heavily, I think, on trying to give the Iraqis, or help them 
get, more capacity on the security side.
    It is also the case that, of course, we will continue to 
seek the terrorists, and to help them fight the war on 
terrorism that they are now fully engaged in, and to try and 
continue to help in building capacity in the Iraqi ministries. 
Because, ultimately, the coalition is there because the Iraqis 
lack certain capacities. And if we focus, in this next period 
after the election, on helping them to build those capacities 
beyond where they are now, I think we will have done a major 
part toward the day when less coalition help is needed, across 
the board. The----
    Senator Hagel.  May I----
    Dr. Rice.  Of course.
    Senator Hagel [continuing]. ----may I just ask----
    Dr. Rice.  Certainly.
    Senator Hagel [continuing]. ----a followup to that? How 
will that change from what we have been doing? Can you give 
this committee some specifics of what you've stated? You've 
framed clearly--I think we understand what you said. I support 
what you--what you're talking about, your objective. But how 
will that change from what we have been doing? Fewer troops? 
Less troops? More NATO troops? Or what will envision the change 
in what you're anticipating our role to be? And connect that to 
an exit strategy.
    Dr. Rice.  Well, our role is directly proportional, I 
think, Senator, to how capable the Iraqis are. And so, as the 
Iraqis become more capable, then I would assume, certainly, our 
help will be needed less. I am really reluctant to try to put a 
timetable on that, because I think the goal is to get the 
mission accomplished, and that means that the Iraqis have to be 
capable of some things before we lessen our own responsibility. 
But we will be working with a newly elected government, and I'm 
quite sure that they're going to have their own ideas about how 
this--how we move forward to improve security. The Iraqis will 
take more and more responsibility for fighting the terrorists, 
for rooting out the Ba'athists. And we have to help them get 
there.
    If I could just add, Senator, on--we also, of course, have 
a major task of continuing, on the reconstruction front, to 
employ the resources that were given to the executive branch by 
the Congress so that we can help the Iraqis with their 
reconstruction tasks. But I see it as a diminution of our 
responsibility, over time, as the Iraqis become more capable. 
So we need to focus on building their capability.
    Senator Hagel.  Will that require a change of policy?
    Dr. Rice.  I don't think it requires a change of policy. We 
have all had, over time, an evolution of attitude, which just 
comes from the fact that, as you work with increasingly more 
representative and legitimate Iraqi government, they have more 
say in how this is all done. And I think that that's only 
appropriate and right. We are no longer in occupation of the 
country, as we were under the Coalition Provisional Authority. 
And so, this has become a very intensive partnership with the 
Iraqis to get these tasks done, and I think that will probably 
continue to----
    Senator Hagel.  Well, let me----
    Dr. Rice [continuing]. ----to accelerate.
    Senator Hagel [continuing]. ----let me ask you, on the 
basis of troops, if I have read accurately--and you've noted 
this, General Casey's statements regularly; when some of us 
were over there last month, we met with General Casey, as well 
as other general officers--will that mean that the 150,000 or 
so American troops we have there today will now be refocused on 
acceleration of training or--what does this mean in the way of 
actually accomplishing what you are talking about?
    Dr. Rice.  Well, we're certainly, right now, very focused 
on security for the election. And while that will pass on 
September--on January 30th, there will continue to be important 
security tasks to make sure that the initial stages for this 
new government are secure. But one of the things that the Luck 
mission is to try and determine is what the path forward is 
with the Iraqis, in terms of security. Are we training the 
right--continuing to train the right security forces? What 
ought to be the roles and responsibilities of coalition forces 
in training, versus active security? How much can the Iraqis 
take on some of these active security roles themselves? So we 
thought that the time just before the election and leading to 
after the election was an ideal time to have this mission. And 
I think we will get some answers from that mission.
    Senator Hagel.  Thank you.
    Let me move to the Israel-Palestinian issue. What do you 
and the President envision as a new role, or a different role, 
for the United States now as a result of the Palestinian 
elections? For example, are you contemplating a special envoy? 
How are we going to engage more deeply and widely than we have 
in the past? Or are we going to? Give this committee some sense 
of where we're going in the next year.
    Dr. Rice.  We all believe--and most especially, the 
President--that we have a really good opportunity here, given 
the election of a new Palestinian leader, and given the Israeli 
Gaza withdrawal plan, which is linked to the West Bank through 
the forced settlements that would be dismantled in the West 
Bank, as well. We think this is a moment of opportunity. That 
means that there is going to have to be engagement at all 
levels. I expect, myself, to spend an enormous amount of effort 
on this activity.
    I can't substitute for the parties and their willingness to 
take on their responsibilities, and that's the message that we 
have to keep sending. We've had to note that--how hard this 
road is going to be was in evidence during this last few days, 
and we've pressed very hard for the Palestinians to take on 
terrorism, because we're not going to get very far if there is 
terrorism from the Palestinian militants. But you can be sure 
that we will have very active engagement, because we think this 
is a time of responsibility.
    I think I need to, for the time being, demur on the 
question of a special envoy. No one has objections, in 
principle, to the idea of an envoy, but it is a question of 
whether that is appropriate to a particular point in time in 
the process that we're involved in.
    Senator Hagel.  But, as Secretary of State, you intend to 
be very involved, engaged, with considerable activity as we go 
forward.
    Dr. Rice.  Absolutely. Because, Senator, I don't think we 
can afford to miss this opportunity if the parties, themselves, 
are willing to really take advantage of the opportunity.
    Senator Hagel.  I probably have time for one question 
that's going to be on more--one more question--immigration. You 
noted, in your prepared delivery--and I thought it was 
excellent; you covered a number of the areas that we all have 
interest in, and we'll want to go deeper into them--but you 
talked about exchange programs. You hit on that, I thought, 
very--a very important point. Immigration reform. Is the 
President going to push for immigration reform?
    Dr. Rice.  As you know, the President has been concerned 
about, and a proponent of, immigration reform going back to the 
time that he was Governor of Texas, when he faced these issues 
as Governor. He has a proposal on the table for a temporary-
worker program that would serve the purpose of--purposes, in a 
humanitarian sense, in that it would help to alleviate what is 
really a humanitarian crisis for us. It would help us 
economically, because matching willing workers and willing 
employers is an extremely important thing for our economy, when 
Americans--when there are jobs that Americans will not take. 
It's not an amnesty, and the President's been very clear about 
that, but it also has, for our security, real implications, 
because if we are not asking our border guards and our border 
personnel to deal simultaneously with immigration that comes 
out of economic circumstances, and dangerous border 
infringement that comes out of terrorism, and they have a more 
regularized way to deal with the former, we think that that 
will make it easier to deal with some of the terrorism and 
concerns about bad people coming to do bad things.
    Senator Hagel.  I'm going to reintroduce my comprehensive--
I think the only bipartisan immigration reform legislation of 
last year--I'm going to reintroduce it. I look forward to 
working with you on this. I don't think there is a more urgent 
problem America has to deal with today--far more urgent than 
Social Security, in my opinion--than this immigration reform 
issue. So thank you.
    Mr. Chairman, thank you.
    The Chairman. Thank you, Senator Hagel.
    Senator Sarbanes?
    Senator Sarbanes.  Mr. Chairman, thank you very much.
    First of all, I want to welcome our new colleagues to this 
committee--Senator Murkowski and Senator Martinez, on your side 
of the aisle; and Senator Obama, on our side of the aisle. 
We're very pleased to have them join the committee.
    And, Dr. Rice, I want to join all of my colleagues in 
welcoming you----
    Dr. Rice.  Thank you.
    Senator Sarbanes [continuing]. ----here before the 
committee today.
    The post for which you've been nominated is obviously an 
extremely important one, perhaps the premier post in the 
Cabinet. And in an independent and interconnected world, where 
events that happen thousands of miles away can affect our own 
economy, our health, or our national security, literally within 
minutes, the Secretary of State can make a critical difference 
in our everyday lives.
    In my view, a Secretary who forges meaningful partnerships 
to foster peace or reduce global poverty and hunger, promote 
democratic values, and address emerging threats can set our 
country on a course to greater security and prosperity. By the 
same token, I think a Secretary who adopts a unilateralist 
approach in the international environment may miss important 
opportunities to prevent conflicts and to build alliances. And, 
in that regard, I'd just note that it's not enough to have the 
ear of the President; I think the Secretary of State must also 
win the ear of the world.
    Before I turn to my first question, I want to note that I 
have watched Senator Lugar work assiduously on this cooperative 
threat reduction issue. I think he and Senator Nunn provided 
exemplary leadership. And Senator Lugar, assisted by Senator 
Biden and others on this committee, has continued to pursue 
that issue. And the only counsel I would give you is, listen to 
Senator Lugar on the cooperative threat reduction question. He 
knows the issue, he's lived with it, he's invested an 
incredible amount of his own time and effort to try to make it 
work. So I would hope the administration would, in effect, 
follow his counsel and guidance on this issue. I know of no one 
who knows the issue better, or whose advice is more measured 
and more reasoned than that of the Chairman.
    I'd extend the same advice, if I may be so bold as to do 
so, in terms of hoping you would listen to Senator Biden and 
Senator Hagel in their interchange with you about Iraq. They've 
both been there now a number of times, at some risk to 
themselves, obviously, as anyone who goes out there well knows. 
And it seems to me, the counsel and advice they have given is 
perceptive, it's measured, it's tough-minded, and I would very 
much hope the administration would listen to that.
    Now, my first question is based on a new book by T. R. 
Reid, a very distinguished journalist. His book, which has just 
only recently come out, is entitled, ``The United States of 
Europe: The New Superpower and the End of American Supremacy.'' 
And I want to talk some economics with you here this morning. I 
looked through your statement quickly, and, other than a couple 
of references to ``prosperity'' and to ``free trade,'' there's 
not much in it on economics. And I think that's a very 
important dimension of what we need to discuss here.
    A review of this book, which recently appeared in the New 
York Times, said that small things happen, of which we may not 
be aware, but over time they gather, and then they become 
instrumental. They really end up having a very significant 
impact. Let me just quote here, ``Sometimes major events take 
place quietly, their import obscured by the hubbub of more 
arresting happenings. Only with time is the shift 
perceptible.''
    And in that regard, I'd like to show you just three charts 
that set the context. First is a chart that shows the U.S. 
Trade deficit.

    [The charts to which Senator Sarbanes referred appear in 
Appendix II to this hearing transcript.]

    Since Senator Dodd is an important part of our efforts to 
get a trade surplus, I don't want to close him out of this 
discussion.
    Senator Dodd.  I've been in your shadow for years.
    Senator Sarbanes.  As this chart shows, it's pretty 
apparent what's happened here. There has been an incredible 
deterioration in recent years in the U.S. trade deficit. And 
it's estimated that we're now running a trade deficit of well 
over $600 billion a year, by far the largest trade deficit in 
our history. Now, of course, when you look at the current 
accounts--which is a somewhat broader measure--we have the same 
situation. Again, we see an incredible deterioration in the 
current-account situation, and much of it highly accelerated in 
the last four or five years. And the end consequence of running 
these large trade deficits and these large current-account 
deficits--astronomical for us, in historical terms--is to give 
us this marked deterioration of our net investment position. 
Our net investment position is now going well over the three-
trillion mark.
    Now, it seems to me, this ought to be a matter of very, 
very real concern. Chairman Greenspan, testifying before the 
Congress, said that ``the rate at which the U.S. is running 
current-account deficits and accumulating external debt is 
unsustainable.'' He said, ``countries that have gone down this 
path invariably have run into trouble, and so would we.'' And 
just a few days ago, the president of the New York Federal 
Reserve Bank, Timothy Geithner, said in a speech, ``The size 
and concentration of external imbalances in the system are at 
an unprecedented scale, between 5 to 6 percent of GDP, in the 
case of the U.S. current account deficit.'' He concluded, 
``what's new is that we are significantly more dependent today 
on the confidence of the rest of the world in U.S. economic 
policy and the safety and stability of our financial markets.''
    Now, the Economist recently said, talking about the dollar 
as the reserve currency and the challenge now to the dollar 
that's coming from the euro, ``Never before has the guardian of 
the world's main reserve currency been its biggest net 
debtor.'' ``Never before has the guardian of the world's main 
reserve currency been its biggest net debtor.'' And the 
Financial Times, earlier this year, in an editorial entitled 
``Borrowing From the Rest of the World,'' warned, ``Like 
Tennessee Williams' ill-fated character Blanche Dubois, the 
U.S. has long been dependent on the kindness of strangers. 
Foreigners' hitherto insatiable appetite for dollar assets is 
what has enabled the U.S. to keep running on credit for so 
long. Like Miss Dubois' dysfunctional relationships, this one 
is symbiotic but potentially hazardous.''
    How serious do you regard this situation as being?
    Dr. Rice.  Well, I know, Senator, that the President and 
his economic team regard it as a serious set of issues that 
they will be dealing with. The President has talked about the 
importance of the fundamentals of the American economy, 
strengthening the American economy, the importance of a strong 
dollar, which continues to be our policy. He's talked about the 
need for budget discipline. And I think he is working toward a 
budget that will express that.
    Senator Sarbanes. Do you consider this a matter for your 
agenda? After all, it affects American power and the ability to 
project power, and there's a lot of suggestion now that the 
economic basis on which we can project power is being 
substantially eroded.
    Dr. Rice.  Yes, Senator, of course it is an important--the 
strength of the American economy is an important issue for 
American power, and, therefore, an important issue for the 
Secretary of State. I do think that the help that our diplomacy 
and our foreign policy can give to a strong American economy 
comes, for instance, through trade and through the efforts that 
we make to promote free trade, and to promote it on a basis in 
which the playing field is level. The United States is engaged 
in, through the person who will become my deputy, I hope, if 
you confirm him, Bob Zoellick, a very active trade agenda 
through the Doha development agenda, which will improve growth 
worldwide, but also will improve the American economy, because 
we're believers in free trade. I think----
    Senator Sarbanes.  But the trade balance----
    Dr. Rice [continuing]. ----I think that is one way that we 
can help.
    Senator Sarbanes [continuing]. ----has worsened markedly. I 
mean, something's wrong with the set of policies we're 
pursuing, it seems to me, if we're going to have the kind of 
erosion in the trade balance that we have seen, particularly in 
recent years. It's a very negative figure. And, of course, 
every year the figure is negative, the amount of debt that we 
owe overseas and our dependence upon others increases.
    Dr. Rice.  Senator, there are a number of factors that have 
contributed to that, and the--I do think that the economic team 
is aware and trying to deal with those factors in the American 
economy. Where the State Department and our diplomacy can be 
supportive is really in two ways--first, to promote a trade 
agenda that is--that levels the playing field, that makes 
certain that the rules of the trading system are followed. For 
instance, many of the changes, economically, are coming as the 
result of a strong and growing China, and China's role in the 
world economy. The need to make certain that China is, in its 
growing strength in the economy, playing by the rules of the 
international economy, is enhanced by the work that we did to 
have China accede to the WTO. We now, of course, have to make 
certain that China is living up to its obligations on the WTO. 
So we spend a good deal of time, for instance, trying to get 
the Chinese to react to intellectual-property-rights issues.
    Another way that the State Department can help with this 
very important agenda is to make certain that the markets of 
others are as open to us as our markets are to them. And that's 
an activity that I would expect to be involved in as a part of 
my diplomacy, I've been involved in as National Security 
Advisor. If we're not to have deformations in the way that the 
international economy works, then people cannot be 
protectionist.
    Those are some of the ways in which I think the diplomacy 
can support a strong economic policy. And I agree with you 
completely that a strong economy is very important to our 
national--to our international standing.
    I would note that we are still the fastest-growing of the 
major developed countries of the world, so we have considerable 
economic strength.
    Senator Sarbanes.  Well, we're growing in a way, though, 
that causes us to become increasingly mortgaged to others. 
China and Japan now are holding tremendous dollar reserves, 
which then, of course, play into the trade relationship much to 
their advantage, so that we become more dependent. They're able 
to skew the trade arrangement to their advantage, which makes 
us more dependent, and the vicious circle continues in a 
downward spiral.
    But I see my time is expired. I may revisit this in another 
round. Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Sarbanes.
    Senator Chafee?
    Senator Chafee.  Thank you, Mr. Chairman.
    And congratulations and welcome, Dr. Rice.
    Dr. Rice.  Thank you.
    Senator Chafee.  Senator Feinstein mentioned how proud your 
parents John and Angelina must be, and, here in spirit, would 
be, rather. And out of curiosity, did your father know Martin 
Luther King at all?
    Dr. Rice.  He did. And--he was a minister in Birmingham, 
and they all did, and everyone admired him. We also had a 
number of friends who worked with him, like Reverend Fred 
Shuttlesworth and--who was a giant in our community.
    Senator Chafee.  Well, Dr. King's one of my heroes.
    Dr. Rice.  Yes. Mine, too.
    Senator Chafee.  Senator Hagel mentioned the distinguished 
career of your predecessor, Secretary Powell, and I'm curious 
as to how you might look at the improvements as we go forward, 
or how you--what would you see, as you come in now, as the new 
Secretary of State--what improvements might be occurring----
    Dr. Rice.  Okay.
    Senator Chafee [continuing]. ----in the State Department?
    Dr. Rice.  Thank you, Senator.
    The goal here is to build on the considerable achievements 
of Secretary Powell and Deputy Secretary Armitage. I think that 
it is well recognized that they did a great deal to improve the 
fundamentals in the State Department, and I would hope to 
follow on that. For instance, the Diplomatic Readiness 
Initiative, which brought whole classes of new people into the 
diplomatic corps. We can't afford, again, to get to the place 
where we skipped several years in hiring of Foreign Service 
officers. That--you pay the price for that later down the road. 
You pay for the price for it early, too, because you don't 
bring in that new, young energy. And so, I would hope to 
continue to press the Diplomatic Readiness Initiative.
    I know that the Secretary was, kind of, appalled when he 
saw the state of technology in the State Department. And 
Senator Allen has had a particular interest in this. I gather--
I don't know if it's apocryphal or not--that people were still 
using WANGs in certain parts of the State Department--not that 
there was anything wrong with WANGs; it's just a few 
generations back. And they have done a lot on the IT side. And 
I would expect to continue to try to help people have those 
tools.
    I will say, I've had briefings about this, and they've made 
wonderful investments in the infrastructure, the hardware. I, 
myself, chaired Stanford's executive committee on the changing 
out of Stanford's information technology systems. And Stanford, 
even though it was in the heart of the Silicon Valley, had a 
terrible set of legacy systems. The hard part now is to give 
people the training and the software and the ability to use 
that technology in their jobs, and I would hope we could do 
that.
    They've made tremendous progress, I think, on the training 
of people. Colin's emphasis on leadership training and skills, 
management skills, for the State Department personnel is 
extremely important. We have to make sure that people are well 
paid and that they are valued.
    But the most important thing--and here they've made 
tremendous progress--is on the security of our personnel 
abroad. We operate in a very dangerous environment in which 
everybody--many, many bad people would like nothing better than 
to wreak havoc against American interests abroad. And so, the 
efforts that have been made to build new security into the 
facilities and to revamp our most vulnerable posts will be a 
very high priority for me. The first meetings that I had were 
with the Under Secretary for Management, and I would expect to 
make that a large part of the agenda.
    Senator Chafee.  Do you see any significant changes ahead?
    Dr. Rice.  Well, there are--there's always need for change, 
because, of course, conditions are different. And I think we 
have to continually review and update the skills of our 
diplomatic corps. We're asking our diplomatic corps to do more, 
actively, in, for instance, helping transform whole societies, 
getting in and helping the Iraqis with their currency exchange, 
or getting in and helping the Nigerians root out corruption. 
These are skills that are of a more active transformational 
diplomacy, and one that probably wasn't really foreseen in the 
earlier stages of building Foreign Service skills. So I look 
forward to working with those people, but also with Members of 
this committee, who I know have some interest in skills 
development, to see if we can push that envelope.
    Senator Chafee.  Well, thank you.
    As Chairman of the Middle East Subcommittee of the Foreign 
Relations Committee, I'm interested in your comments on the 
Israeli-Palestinian issue. And in your opening statement, you 
talked about, ``America seeks justice and dignity and a viable 
independent, democratic state for the Palestinian people.'' Can 
you expound--expand at all on ``viable?'' What do you see as a 
viable Palestinian state?
    Dr. Rice.  Well, there are several ways to think about 
viability. One is that it has to have territory that makes it 
viable. It cannot be territory that is so broken up that it 
can't function as a state. And I think that's now well 
understood. It has to have economic viability. And, there, it 
probably needs to have economic viability in relationship to 
other states around it--to Jordan, to Israel, and to others. 
And viability also comes from democratic institutions. One of 
the things that I think we didn't pay enough attention to in 
the past is the development of democratic institutions in the 
Palestinian territories. In a time when we are promoting the 
progress of democracy in the Middle East, the Palestinians are 
a people who should be able to adopt those habits and take them 
up. They are a talented, in many ways educated population, a 
population that has tried, even under very limited 
circumstances, to have some, at least, pluralism in their 
politics. And so, viability, I think, also has a political or a 
democracy dimension that we need to pay attention to.
    Senator Chafee.  I'm sure that many Palestinian moderates 
would like to hear more specifics on what might constitute a 
viable Palestinian state. Are we looking at something perhaps 
along the Geneva Accord lines?
    Dr. Rice.  Well, I--as the President said when he met with 
Prime Minister Sharon back in--I think it was May--we have to 
recognize that the parties are going to determine their 
borders, that it is not for us to prejudge what those borders 
might be. There has been a lot of negotiation. I think we 
will--they will need to look at what has been looked at before. 
But the June 24th, 2002, speech really focused on some 
fundamentals to get us to the place that discussions of final 
status would be successful. And those fundamentals now seem to 
be starting to come into place. The new Palestinian 
leadership--I think, a Palestinian leadership, at least in 
word--is devoted to fighting terror. It needs to be, indeed, as 
devoted to fighting terror. An international community that, 
whenever I talk to people, is quite devoted to, and taken with, 
the idea of helping the Palestinians to build those democratic 
institutions, to reconstruct, economically, in areas which 
Israel leaves. We have, in Israel, a new coalition that was 
built around the idea that Israel will disengage from the Gaza 
and from the four settlements in the West Bank.
    And we now really--I'd just like to mention the neighbors. 
The Arab states have responsibilities here, too. And they can't 
incite violence against Israel, on the one hand, and call for 
peace and a two-state solution, on the other. And so, we've got 
work to do with them.
    But, as the fundamentals are beginning to come into place, 
everyone can be certain that it is a very high priority to 
seize this moment to try and push toward the day when we have 
interlocutors who can work on the final status issues.
    Senator Chafee.  In the news today, some were calling upon 
the new Palestinian leadership to be more proactive against 
some of the violence which is occurring within their own ranks. 
The previous Palestinian leadership did not intend to go--to do 
that, under Yasser Arafat, the danger being that once 
Palestinians take up arms amongst themselves, you could have 
Palestinian civil war. How do you--how do we go forward with 
that dilemma?
    Dr. Rice.  Yes. Well, I do believe that Abu Mazen made a 
good start in what he said, which is that there really is no 
route to a Palestinian state through violence. And that means 
that he is appealing, in my--to my mind, correctly--to those 
Palestinians who realize that the use of terror techniques, the 
use of violence is not going to result in the fulfillment of 
their national aspirations.
    Having said that, the people who insist on violence, and 
insist on terrorism, have got to be isolated and, ultimately, 
disarmed. The Palestinians are fond of saying, ``There has to 
be one authority, one gun.'' We can help with that, because the 
restructuring of the Palestinian security forces is something 
that we have helped with in the past, and should now, with 
other neighbors like Egypt or Jordan, be helping with in the 
future. The construction of unified Palestinian security forces 
that are accountable to the Palestinian leadership and are not, 
in effect, armed gangs is probably one of our most important 
tasks.
    So I don't see it as a matter of civil war; but, rather, as 
a matter of the isolation of those who are unwilling to pursue 
the aspirations of the Palestinian people through peaceful 
means.
    Senator Chafee.  Well, thank you very much, Dr. Rice. I see 
my time is up. I just returned from a trip with Senator Dodd 
and Senator Nelson----
    Dr. Rice.  Yes.
    Senator Chafee [continuing]. ----to Latin America, and I 
have to say, Senator Dodd was a good leader of this trip--he 
has perfect Spanish--and a good ambassador for the United 
States as we travel in the region.
    The Chairman. Well, thank you, Senator Chafee. And what a 
wonderful introduction of our questioner.
    Senator Dodd?
    Senator Dodd.  Bienvenido a nuestra commite.
    Dr. Rice.  You'll stimulate me to answer in Russian. I'm 
sorry, Senator.
    Senator Dodd.  I'm not going to try and ask you questions 
in Spanish. Welcome to the committee. And, Mr. Chairman, thank 
you very much.
    Let me also join my colleagues in welcoming our new Members 
to the committee--Mel Martinez, who I got to know when he was 
Secretary of HUD and appeared before my other committee, the 
Banking Committee, on numerous occasions; and Senator 
Murkowski, of course, a colleague from Alaska; and Barack 
Obama, new Member from Illinois. We're delighted to have all 
three Members here.
    Senator Sarbanes.  Senator Martinez has gone on the Banking 
Committee. He wants to work over his successors.
    Senator Dodd.  I know. I'll expect you to ask tough 
questions in those hearings and through the confirmation 
process.
    Let me also, Mr. Chairman, commend you for your opening 
statement, and some very wonderful ideas that you've raised 
here. I particularly want to commend you for working hard, I 
think all of us will join you on this side, to get an 
authorization bill out of this committee as early as we can, by 
March. And that's a--we've done it once before in my tenure on 
this committee, when you chaired the committee a number of 
years ago. It was a very exciting time for the committee, and I 
look forward to working with you to achieve that reality.
    Let me also join with Senator Sarbanes and Senator Biden in 
commending you and our former colleague, Senator Nunn, for the 
efforts in the Nunn-Lugar approach. You and I have talked about 
this on several occasions over the last year or so, and I'm 
heartened to hear you raise it again as such a priority. I 
think it's critically important. There's still time for us to 
make a difference in this area. And, Dr. Rice, I appreciate 
your response to Senator Lugar's question in expressing a 
strong interest to see the ideas that Senator Lugar has offered 
are ones that you could endorse and support and urge the 
President to do, as well.
    Let me also join Senator Hagel in--this is a 
transformational time, as you talked about, for American 
foreign policy. We'd be remiss in this committee if we did not 
express our deep sense of gratitude to Colin Powell and Richard 
Armitage and the staff they put together. He's been a 
tremendous public servant, and whatever else life holds for 
him, he deserves our commendation for the job he's done for our 
nation. So we thank him for that, as well.
    And I want to thank my colleagues for raising some of the 
issues they have. Obviously, Iraq is a major current foreign 
policy question and, rightfully, would dominate a lot of our 
conversation here today.
    As Senator Chafee mentioned, Senator Chafee and Senator 
Nelson and I just completed an eight-day trip to Latin 
America--Venezuela, Paraguay, Argentina, Peru, and Ecuador, 
coming back. And I want to focus some attention on that in this 
first round. There are other questions I have.
    There are roughly 600 million people in this hemisphere, 
excluding ourselves, who look to the United States for 
leadership. Two of our most important trading partners--Mexico 
and Canada--are, of course, in this hemisphere. The issues that 
Senator Sarbanes has raised about economic policy are 
absolutely on target and one that we should be paying much more 
attention to, in my view. Because, as we have found over the 
last eight days traveling in South America, these issues are 
the ones they care the most about, in many ways, and they're 
the ones the absence of our attention to these questions over 
the last number of years, for reasons they understand--
certainly, 9/11 diverted our attention elsewhere, the events in 
the Middle East have certainly dominated our attention. But I 
want you to know, at least my observations over the last week 
or so, is, we're in trouble in this hemisphere, Dr. Rice. We're 
in deep trouble in this hemisphere. And I--others may know 
other parts of the world well, and certainly there have been 
great changes in China and India, Russia, the Middle East, 
certainly in Africa, but we need to get back on track in this 
hemisphere. And I'm going to ask you a broader question about 
what direction we're going to take here.
    Let me tell you, just briefly, some of the things that we 
found over the last seven or eight days. And my colleagues, 
Senator Nelson, Senator Chafee, can add or detract from these 
conclusions.
    We found facing--these governments facing major demands 
from their citizens, with inadequate resources to meet those 
demands. In fact, the budget indications coming out of the 
administration are significantly--going to provide 
significantly less resources, in terms of aid to this part of 
the world, than has been the case in previous years. You 
mentioned the important years of 1947, '48, '49, and 
thereafter, in terms of our efforts to grapple with the great 
challenge of the second half of the 20th century. Certainly, 
one of the great speeches given, that set the tone for that, 
was Harry Truman's only inaugural address, in which point 4 
would set up the U.S. aid missions. It made a huge difference 
in the 1950s and '60s, the Alliance for Progress that Senator 
Kennedy initiated. These ideas had strong economic components 
to them as we grappled with the great challenges facing choices 
in those days between what the Soviet Union offered and what we 
offered. So we found great demands on the part of the citizens 
of these countries.
    We found government institutions that have been weakened 
and co-opted by unsolved internal political disputes. We found 
government officials interested in concluding bilateral free-
trade agreements, not only because it would improve access to 
our markets, but because they know it can be a means of 
institutionalizing reforms, that it will mean more jobs and 
incomes for their citizens.
    We found government leaders concerned about the declinein 
U.S. resources available to assist them fight against narco-
terrorists, terrorists ready to take advantage of the 
lawlessness created by the systemic corruption that exists 
generally throughout the region, and especially in the tri-
border area of Paraguay and Brazil and Argentina, where Muslim 
organizations are reportedly raising and laundering money to 
support their international ambitions.
    We found government leaders frustrated by the suspension of 
U.S. military assistance and training to their military 
services because of our fixation with the international 
criminal court, as codified by the American Servicemen's 
Protection Act, which links continued assistance to these areas 
to the signing of the so-called Article 98 Agreements of the 
United States. And I heard this from American military 
personnel, Dr. Rice--not from foreigners, but our own personnel 
worried about placing so much emphasis on that point we're 
stopping the training so necessary to build those relationships 
in this century with people in that part of the world.
    We found government leaders desirous of positive 
relationships with the United States, and disappointed that our 
government hasn't made relations with them a higher national 
priority. Even President Chavez expressed an interest in 
improved relations with the United States. Putting aside the 
obvious issue that's going on in the last several days, it's 
going to be critically important that we try and do something 
new with Venezuela than the continued policies of isolation, in 
my view.
    So I'd like to get from you, if I could, after these 
opening comments, Are we going to have a new direction here in 
this critical part of the world? Senator Hagel mentioned 
immigration. No other issue. Vicente Fox, the one issue that he 
was hoping he'd get some resolution from over the last four 
years was on immigration, and nothing was done. One speech that 
I'm aware of, no legislation introduced, no effort up here to 
make a difference. It's a crippling economic problem here at 
home and a sword of continuing contention between one of our 
very, very important allies around the globe and the closest 
neighbor to us with some of the important issues. What are we 
going to do about that? And are we going to change some 
direction here? Or are we going to stick with the policies of 
the past that are creating some serious, serious problems in 
this part of the world for us?
    Dr. Rice.  Well, thank you, Senator Dodd. And thank you, 
also, for the time that you did spend. And I look forward to 
talking to you more about the future of Latin America, Western 
Hemisphere. It's obviously extremely critical to our agenda.
    Let me start with Mexico and Canada, because the 
relationship with our closest neighbors--a good policy begins 
with the relationship with your closest neighbors. I do think 
we've made a lot of progress with Mexico and Canada on a number 
of issues. For instance, on the Smart Border Initiative, which 
has helped us to solidify and codify our homeland-security 
concerns, it was something that we needed to do in the face of 
9/11 and the terrorist threats and the relationships that our 
Homeland Security Secretaries have been able to forge so that 
we get to a position where the borders are allowing in 
commerce, but not allowing in those who might harm us. And that 
was very important, because I remember, in the very first days 
after September 11th, that some of our efforts to secure the 
border were actually very quickly going to prevent commerce. 
And so, we needed to find the right balance. And we've made a 
lot of progress, in terms of the use of technology. And those 
Smart Border initiatives will continue.
    We also, with our Mexican and Canadian counterparts, are 
talking a lot about what the next steps are in our NAFTA 
relationships, because, as--Senator Sarbanes talked about some 
of the economic difficulties the United States may face, or 
some of the difficulties we may face if we're--if we should 
have problems in our economy--we also face a lot of competition 
around the world. And as we have watched Europe and the 
European Union integrate its economic policies, I think it has 
raised questions about what the future can look like for NAFTA 
and for the NAFTA states to extend those relationships. And 
we've had discussions about what the next phases are. And I 
think that is a way forward, and I would look forward to having 
extensive discussions about how we improve the competitiveness 
of Northern America as we face competition from the rest of the 
world.
    We also have been very active in Central America. And I 
would agree with you, there are very grave challenges now to 
some of these regimes. And we don't want to repeat what has 
tended to be a cycle in Latin America of democratic 
developments followed by authoritarian ones. And I don't think 
that we have to.
    In Central America, and in Latin America, we have to 
recognize that, while there are, in many of these places, 
growth rates that are very, very high for these regions, that 
the ability for these countries to actually deal with the 
problems and demands of their people are--that's really the 
next step. And we had, at Monterey, a number of discussions 
about developing the human potential of these countries, 
worrying about education and worrying about literacy and 
worrying about economic opportunity for people. These are, in 
many ways, very highly stratified societies, and we need, in 
the United States, to associate ourselves, I think, with the 
struggle of those who are trying to overcome that 
stratification. We can't just associate ourselves with an old 
order. We have to be concerned about the indigenous peoples 
that are trying to find their rightful place in a political and 
economic system. Our own history should tell us that that's an 
extremely important task ahead.
    So it is a very big agenda to do what the President has 
been trying to do, which is to promote democratic development 
and democratic institutions, to begin to marry those democratic 
institutions with economic progress for the peoples of the 
region.
    Certainly, one of the ways that we can contribute to the 
twin progress of democracy and economic development is through 
trade, and we have had a number of successful free-trade 
agreements. We had the free-trade agreement with Chile. We 
are--you, in the Senate, will be contemplating, at some point, 
a free-trade agreement, the CAFTA agreement. We continue to 
work, with Brazil as our co-chair, to try and push forward on 
the Free Trade of the Americas Agreement. So trade is a big 
part of this agenda.
    If I might just take one other moment to say that we also 
are trying to work relationships, key relationships in this 
region, in a very aggressive way. And I would focus for just a 
moment on the relationship with Brazil, which I think is 
extremely critical to the region.
    There are others, as well, but the President and President 
Lula have met on a couple of occasions. We had, in the earliest 
stage, a meeting of both cabinets to try and have an agenda 
going forward. Because if we think about the real challenges, 
those are economic, social mobility, education and literacy for 
people, and how that can be done within democratic institutions 
so that the challenges don't have to come from outside of 
democratic institutions, we need partners in that. Brazil is 
such a partner, but so are others. And I would hope to really 
spend some time with the Organization of American States making 
certain that the agenda of promoting democratic development, 
holding accountable leaders who do not govern democratically, 
even if they are democratically elected, that that would be an 
agenda that we could mobilize around.
    Senator Dodd.  Well, I thank you for your broad answer. My 
time is up here. Let me--just a couple of points.
    One, this underscores the point Senator Sarbanes was 
making, in my view, that--I, too, was a bit disappointed, 
reading your opening statements, about the parsity of--paucity, 
rather, of comments about economics and the importance of the 
issue. You've highlighted this exactly, and you're correct, 
this is part of the issue. But I think it's critically 
important that we pursue these issues without expressing yet, 
until we see them, these final agreements on these trade 
agreements.
    But I would hope--and if you want to quickly answer--Are we 
going to have these trade agreements up here in short order? 
You and I both know that if you wait--even good trade 
agreements, if coming up at the wrong time up here, the 
circumstances, can fail. And if they fail, I think the 
implications could be serious for the region.
    So, quickly, are we going to see CAFTA and the DR Trade 
Agreement coming up, the Andean Agreement, which they're 
working on right now? Are we going to see those sooner rather 
than later, an administration priority?
    Dr. Rice.  Well, we will certainly work with the Congress 
on this. But we, obviously, would like to see these agreements 
sooner rather than later.
    Senator Dodd.  And let me just comment, please, I think 
Senators Chafee and Nelson and I would tell you, as well, we 
were very impressed, Mr. Chairman, with the competency and 
quality of the State Department personnel we ran into in these 
countries.
    I would hope, as you're making choices about the senior 
positions, there's some wonderfully talented, knowledgeable 
people about this part of the world, and my hope would be that 
you'd put a team together that would reflect the very things 
you're suggesting in response to my questions. Because I think 
you will agree with me: for reasons we may understand, we've 
really got to pay more attention to this part of the world.
    Dr. Rice.  Thank you. Senator, may I just have one moment? 
You asked--you mentioned Venezuela, and I'd like to just 
address that quickly, if I may.
    We have a long and good history with Venezuela, and long 
ties. I think it's extremely unfortunate that the Chavez 
government has not been constructive. And we do have to be 
vigilant, and to demonstrate that we know the difficulties that 
that government is causing for its neighbors, its close 
association with Fidel Castro, in Cuba--still the only empty 
chair at the OAS is that of Cuba, because it's not a 
democratically-elected government. And those relationships are 
deeply concerning to us, and to me. And we are very concerned 
about a democratically-elected leader who governs in an 
illiberal way. And some of the steps that have been taken 
against the media, against opposition, I think, are really very 
deeply troubling. And we're going to have to, as a hemisphere 
that signed a democracy charter, be devoted to making sure that 
those who signed that charter live up to it.
    Senator Dodd.  Well, I appreciate your saying that. But 
it's a two-way street, Dr. Rice. It requires we work on it, as 
well. It's not the 1960s or '70s, and there are people down 
there--you mentioned President Lula. I can go back and show you 
statements that President Lula made that would compete with 
anything President Chavez has said, yet we've found a way to 
work with this new president. My strong suggestion is, find 
ways to do this. Going back and repeating these statements over 
and over again only digs the hole deeper and deeper. And that's 
an important relationship, it's important in the hemisphere. We 
need to work at it. My hope is, you will.
    Thank you.
    The Chairman. Thank you very much, Senator Dodd. I 
congratulate you and Senator Chafee and Senator Nelson on the 
trip. I know Senator Coleman has been very active in the area, 
too. And I would underline the request that we really have 
people in the Department who are on top of the situation. I 
think that Senator Dodd makes a good point, a group of people 
really interested in the area, forwarding these difficult 
situations.
    Let me call now on Senator Allen.
    Senator Allen.  Thank you. Thank you, Mr. Chairman. I guess 
this is on. And I'd thank all the Members preceding me for 
their questions.
    And, Dr. Rice, I've thoroughly enjoyed listening to your 
statement and your very positive life story. Four years ago, as 
a rookie Senator, I was introducing Secretary Powell, or 
General Powell, to this committee, a genuine American hero. 
Your personal life story, and his, although in different 
backgrounds, certainly are an inspiration and, I think, very 
helpful for us as we, as a country, try to advance freedom for 
people all over the world.
    And I do think that when you talk about your life story, 
and bringing up Birmingham, I would encourage some of my 
colleagues, there's a civil-rights pilgrimage every year. Last 
year, I went on it. Senator Coleman was there--Senator DeWine, 
a few others. This year, Senator Corzine, on the Democrat side, 
me on the Republican side, will be heading a delegation there 
for the 40th anniversary of the Voting Rights Act. And it 
goes--you go to Birmingham, that church that was bombed that I 
know that you are a member of, as well as Montgomery and Selma. 
And I found it a very moving, profoundly impacting, and very 
meaningful event for me. And a lot of those who--now, Dr. King, 
obviously, is gone, but many of those who were involved in the 
civil-rights movement are actually still alive, and you can 
talk and question them on what they were trying to do.
    Now, Dr. Rice, you mentioned the future, which is 
important. And some people call the 20th century ``America's 
Century.'' I believe, as you do, that the 21st century needs to 
be ``Freedom's Century.'' Individual freedom, regardless of 
race or gender or ethnicity or religion, are key. I look at 
those as some of--the four pillars of freedom or individual 
liberty are: freedom of religion, freedom of speech--you used 
the town-hall test--three is private ownership of property, 
and, fourth, the rule of law to protect those rights, and 
constitutional rule. And we do learn from history. That's why I 
like reading and listening to your statement.
    You referenced Truman--President Truman and Acheson and so 
forth, and--1947 to 1949, and that is fine, that was the 
beginning of the Cold War. I will say, though, that President 
Ronald Reagan, George Schultz, Cap Weinberger and that 
administration were the ones who changed that dynamic of the 
Cold War from one of containment and coexistence to the 
advancement of freedom. Some criticized President Reagan for 
calling the Soviet Union--in my view, rightfully--``The Evil 
Empire.'' They criticized him for going to the Brandenburg Gate 
and telling Mr. Gorbachev to ``Tear down that wall,'' but 
that's actually what did happen. Because of that, there are now 
hundreds of millions of people tasting that sweet nectar of 
liberty in Central Europe, Friends and allies, not just in the 
war on terror, but also economically, thanks to that 
leadership.
    One of the things that was key in those years was Voice of 
America and Radio Free Europe. Presently, there's still Radio 
and TV Marti, insofar as Cuba is concerned.
    One of the concerns that I have presently, insofar as the 
Arab world and, more particularly, Iraq, is--we may grouse 
about what TV stations people may watch or what radio they may 
listen to. There are so many satellite dishes that you see in 
Iraq. I would like to get your views--and Senator Biden brought 
this up in his opening statement, just a glancing blow of it. 
What is your view of what we can do with the Board of 
Broadcasting Governors to find a way of--not propaganda, not 
music, but just facts----
    Dr. Rice.  Yes.
    Senator Allen [continuing]. ----about the United States, 
our motivation, or just the concepts of freedom, so that the 
people of Iraq and others in the Arab world have a fair and 
balanced view of the United States and our purposes and the 
concepts of individual liberty?
    Dr. Rice.  Yes. Well, we really do have to enhance our 
efforts, I think, in getting our word out, and getting ``the 
word'' out. And I used ``the word'' advisedly, because Radio 
Free Europe and Voice of America and Radio Marti are about 
telling the truth, not about propagandizing, and we have to 
make certain that people that otherwise don't have access to 
the truth receive it. We also have to make certain that people 
who are hearing what are sometimes just incredibly amazing 
propaganda and lies about our policy have alternative sources 
of information.
    And so, I would expect that, as the part of a broad public-
diplomacy effort, which I really want to emphasize, I think 
this is something that we really have to pay attention to. 
We've done some good things, we've done some good things with 
al Hurra, which is the Arab-language television satellite 
station. We have done some good things with Radio Farda and 
Radio Sawa. Obviously, we've done some good things with Radio 
Marti. But--and TV Marti--but there is, perhaps, in this war of 
ideas, nothing more important than getting out the truth.
    And so, I look forward to working with the Broadcasting 
Board of Governors, respecting the line that is there, that has 
been observed between the State Department and the Board, but 
recognizing that if we're going to win the war of ideas, then 
we're going to have to really compete on the playing field a 
lot better than we're competing right now.
    I think it's broadcasting, but I also look forward to 
broadening our exchanges and our efforts to get people here so 
that they know what America is about. Some of our student 
exchanges have been probably our most valuable policies. I 
remember sitting in many places where the prime minister or the 
economics minister or the foreign minister were people who 
studied in the United States, and they obviously have a 
different view of us.
    So I can't think of a more important task.
    Senator Allen.  Well, count me as one who's going to want 
to work with you to make sure that we're getting news and 
information out to people in those areas. We actually don't 
have the same problems we have with jamming, say, to----
    Dr. Rice.  Right.
    Senator Allen [continuing]. ----Cuba or with the former 
Soviet Union in that regard.
    Now, when you talk about students, let me go to the second 
issue, and that has to do with visas. You mentioned in your 
remarks, ``America must remain open to visitors, workers, and 
students from around the world.'' I hear from business leaders, 
from those in research and also in the scholarly or the 
collegial--in the literal sense--community how difficult it is 
for people to get visas. Clearly, after 9/11, we do need to 
have better information. The consulates all have to have the 
information that Defense Intelligence has, and the CIA, so that 
visas are not granted to people who should never be allowed 
into this country. However, in between there, of completely 
shutting it down, and with these long delays, versus no 
scrutiny whatsoever, in my view, are ways that we can be 
utilizing technology. Your predecessor, Secretary Powell, has 
done a great job in upgrading the technology, so at least they 
can e-mail back here in--within some of the embassies.
    The technologies on visas, whether it's a variety of 
biometrics, need to be implemented. We need to show the lead, 
here in this country, clearly harmonizing, particularly with 
Europe and certain Asian countries where we do have a lot of 
visitors, whether they are for tourism, whether it's for 
business, whether it's research, or for our universities. Can 
you share with me and our committee what you envision of 
utilizing better biometrics and ensuring security while also 
stopping this--or reducing the lengthy, inhibiting time 
involved in acquiring a visa for somebody who is a safe 
traveler to come to this country?
    Dr. Rice.  Well, obviously, after September 11th we had to 
worry about who was inside the borders, and I think we took a 
number of steps that were very important and long overdue. But 
it is also important to remain open.
    Now, I--the State Department, should I be confirmed, under 
my leadership would be resolute and attentive to the security 
issues and the kind of policies about biometric passports and 
biometric identification. I want to look at where we are on 
that issue and--to make sure that we can get the standard in 
place so that when we require others to have it in place, that 
we have been in the lead. It's obviously the case that you 
can't ask others to do what you won't do. And so, I will pay a 
lot of attention to that, and spend some time understanding 
whatever impediments there are to getting that done.
    As to the visa policies, themselves, and the slowness, I 
would very much like to have the time--and also the counsel of 
this committee, because I think it's the one issue that came up 
when I talked to almost every Member of this committee--to see 
what we can do to improve this situation. It's partly--a lot 
has been done. Secretary Powell and Secretary Ridge worked very 
hard on it. They made available some information-sharing 
between various agencies that has made it quicker. We put a lot 
of stress and pressure on our consular people in this process, 
and I appreciate their good works.
    But there is clearly and certainly more that we can do. And 
I look forward to working with Judge Chernoff, if he is 
confirmed, to see what we can do to give a sense of greater 
openness to people who want to come here, not to harm us, but 
to be a part of this great experience that is America.
    I am a big proponent of, particularly, student exchanges, 
having been, myself, in a place that had a lot of foreign 
students. It's the best policy that we can have. Universities 
will have to play their part in helping us to make sure that 
the policies that they are carrying out help with the security.
    But this is something that I'm going to pay a lot of 
attention to, Senator.
    Senator Allen.  Thank you, Dr. Rice. I look forward to 
working with you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you very much, Senator Allen.
    Senator Kerry, as you--before you came in this morning, 
Senator Biden paid tribute to your service on the committee, 
and let me join him. We're proud that a Member of our committee 
was a candidate for President of the United States, and we're 
delighted that you are here today.
    We recognize you for your questions.
    Senator Biden.  Mr. Chairman, if I may interrupt, I 
indicated to Senator Kerry. I am very disappointed that he's 
back. But I am happy to see him.
    Senator Kerry.  Well, Mr. Chairman, I wish we could have 
translated your pride into some votes, but thank you, anyway. 
But I respect the pride, and I love your friendship, and I 
thank you for it very, very much. And to my friend Joe, the 
Ranking Member, I want to thank him also for his comments. I 
actually heard them back in the office, and I wanted to thank 
you personally, both of you.
    I guess it's, sort of, good to be back.
    Dr. Rice, welcome. Welcome to the world of oaths and 
testimony and congressional accountability, which I tried so 
hard to distance myself from for awhile.
    I admire, enormously, your personal story. I admire the 
road you've traveled. I admire your relationship with the 
President, which is obviously special. And he certainly has the 
right and prerogative, as we all know, as President, to make 
choices. You are going to be confirmed, and everybody knows 
that. But without anything personal at all, whether or not it 
is with my vote is yet to be determined.
    I have reservations. And they are not personal in any way 
whatsoever. But they do go to the story and trail of the last 
four years. And I even listened closely to your answer to 
Senator Biden a few moments ago about troops, and the numbers. 
And, frankly, your answer disturbed me.
    Despite Paul Bremer saying he thought they needed more 
troops, despite General Shinseki talking about more troops, 
despite the acknowledged mistake by so many people, certainly 
all the leaders I met with in the region in recent days, about 
the disbanding of the military, the de-Ba'athification that 
went as deep as it did, despite the failure to guard ammo 
dumps, the weapons of which are now being turned on our troops, 
despite the failure to guard nuclear facilities, when, after 
all, the purpose of the invasion was to deal with weapons of 
mass destruction, despite the inability to deliver services 
immediately, despite the security level that we have today, you 
sat there this morning and suggested it was the right number of 
troops, contrary to the advice of most thoughtful people who 
have been analyzing this.
    The Chairman of this committee, at one point, said that he 
thought the administration's efforts with respect to the 
delivery of aid, et cetera, was embarrassing. The Ranking 
Member on their side, Senator Hagel, thought it was both 
pitiful and even reached a zone of dangerous. So there's, sort 
of, this hanging-in-there to the status quo, which is 
worrisome. And then, afterwards, you said, ``Well, there were 
unforeseen consequences, unforeseen events, because the army 
melted into the countryside.'' Well, that wasn't unforeseen. 
That's exactly what they did in '91. And we, in fact, 
encouraged them to do it, because we leafletted and broadcast 
and told them that if they disbanded, we would pay them, and 
they would not suffer any consequences for putting down their 
arms and going home and getting out of uniform. So we told them 
to do that. But we didn't pay them. We went back on that 
promise. And they got angry and organized.
    Now, having just come back from there--I haven't been as 
many times as Joe, but--in Fallujah and Kirkuk and Mosul, I 
talked with Iraqis, who are trying to make this work, who are 
desperate about the lack of support from Baghdad, the lack of 
resources coming. And they almost feel forgotten by Baghdad.
    And it seems to me that if the administration is going to--
you know, we went in to rescue Iraq from Saddam Hussein. Now I 
think we have to rescue our policy from ourselves. And what I 
learned from every single leader over there--and, you know, I 
don't come back with any joy in this, but it's, sort of, the 
reality we've got to deal with. We've got kids who are dying 
over there. They're going on missions that, in my judgment, are 
questionable in what they're going to achieve, in terms of the 
population and the overall goal. I hope General Luck comes back 
with some judgments about that.
    Our troops are stunning. Superb. You know that, I know 
that, the President knows that, every American knows that. But 
they deserve and want a policy. They ask questions, you know, 
``How are we going to do this? How are we going to get out of 
here? How are we going to take care of this business?'' And 
what I came away from was an unbelievable sense of willingness 
of the community-at-large--European leaders, Arab leaders--to 
do more, to be able to be more a part of this.
    My question to you is several-fold, and there are a lot of 
questions I want to ask, in a number of areas, obviously--North 
Korea proliferation, the Middle East, a whole host of things. 
But all we've have time for in these rounds is probably this 
first initial effort.
    Every Arab leader I asked, ``Do you want Iraq to fail?'' 
says no. ``Do you think you will be served if there's a civil 
war?'' They say no. ``Do you believe that failure is a threat 
to the region and to the stability of the world?'' Yes. Same of 
European leaders. But each of them feel that they have offered 
more assistance, more effort to be involved, want to be part of 
a playing field that's more cooperative, and yet they feel 
rebuffed.
    I'll give you an example. President Mubarak said to me, 
``We're only training 146 officers.'' He doesn't understand 
why; offered to do more, hasn't been taken up on it, by Iraqis 
or by us. Similarly, European leaders are prepared to do more, 
in terms of training. I know they don't want to put boots on 
the ground; well, I understand that. But we're not training 
people with the sense of urgency that recognizes that there's 
only one way out of this successfully, and that is to provide 
the capacity ofIraq to have stability and then, with the 
stability, to affect a political reconciliation that they all 
talk about, critical to making up for what will be the 
deficiencies of this election.
    So the event we have to look at is not the election, 
itself, but what you do--you and the President and this 
administration--in the immediate minutes and hours after that 
election, to change this dynamic.
    Now, can you share with us what you believe the reality is 
on the ground and what steps you intend to take to change this 
dynamic that is spiraling downwards and not resolving, you 
know, centuries-old conflicts in the way that we ought to be?
    Dr. Rice.  Thank you, Senator. I know that you've been 
there recently, and I look forward to hearing from you on what 
you found. I do think that we have to look at the overall 
difficulty and complexity of trying to help a society recover 
from the kind of tyranny that Saddam Hussein imposed upon it.
    This was never going to be easy. It was always going to 
have ups and downs. I'm sure that we have made multiple--many 
decisions, some of which were good, some of which might not 
have been good. But the strategic decision to overthrow Saddam 
Hussein was the right one, and we're all going to be very glad 
that we no longer have to deal with a bloody dictator, in the 
middle of the world's most dangerous region, who was an avowed 
enemy of the United States. I would rather trade the 
considerable difficulty of helping the Iraqi people get to a 
democratic future, and a future in which they will be allies in 
the war on terror, for what was, yet again, a chance or a 
policy that thought that we could buy stability even if there 
was a regime of the tremendous brutality of Saddam Hussein's in 
place in the Middle East. And so, I think we made the right 
decision to overthrow him.
    Having made that strategic decisions, you're right, we do 
have some big tactical challenges to get the strategic--to the 
get to the strategic goal that we have.
    After the election--and I do think the election is an 
important event, it's a next step on the Iraqi people's road to 
a better future. It is not the final step. It's a step that 
will allow them to elect leaders who will then begin the 
political process of trying to deal with the many divisions and 
historic and other divisions that the Iraqi people, themselves, 
have. And they're going to have to make political compromises 
to do it. They're going go have to find their own way 
politically, and we will be there to support them. That is 
perhaps the most important set of steps that have to take place 
after this election.
    Our role, as you rightly say, is to focus on what we can do 
to help them build capacity in their security forces and in 
their economy. And in their security forces, again, I--we can 
talk about what was foreseeable or what was not--the people who 
are fighting now, yes, some of them are frustrated young 
people, and we need to do--and Allawi is doing--Prime Minister 
Allawi is doing what he can to siphon those people off and to 
give them a stake in the future of Iraq, and he's doing it--we 
will help him with jobs programs. I think we do, as one 
adjustment, need to pay more attention to what jobs we are 
creating for Iraqis out of the reconstruction dollars that we 
are spending. And that's one issue that I've asked to have 
looked at a little bit more closely. If the metric is, ``How 
many jobs are we creating,'' how are we really creating jobs 
for the Iraqis?
    But many of the people who are blowing up their fellow 
citizens, are blowing up Iraqis, are not actually people who 
were angry because they weren't paid. They are people who were 
part of Saddam Hussein's regime. They were Ba'athists, at the 
high level of Ba'athism--not people who joined the party 
because they had to, to get a job, but people who enjoyed the 
benefits and the fruits of Saddam Hussein's regime, and people 
who spent their lives oppressing their fellow citizens. They've 
lost power, and they want it back. And so, we have to be clear 
who the enemy is here.
    Others are foreign terrorists, like Zarqawi, the face of 
terrorism, who, frankly, do see Iraq as the central front in 
the war on terror. And they were committing terrorist acts 
someplace. They weren't sitting and drinking tea someplace. 
They were fighters, hardcore fighters, in the war on terrorism; 
now they've decided to fight in Iraq.
    Senator Kerry.  Can I just interrupt you for a minute?
    Dr. Rice.  Yes.
    Senator Kerry.  I understand that. I mean, you're 
describing for me the different groups of terrorists. I know 
who they are. Some of them are criminals, some of them are 
jihadists, some of them are the former Ba'athists, some of them 
are Zarqawi. We understand that.
    The question I asked you is, what are you going to do? Why 
have we rebuffed the efforts of others to be involved--
Russians, Indians offered peacekeepers, others involved, the 
U.N. offered at a point in time. There have been a series of 
offers here, and we keep, sort of, making this decision to go 
it alone. And there's a frustration out there in the global 
leadership that's wondering, you know, whether we're going to 
change that dynamic and bring them to the table in a legitimate 
way.
    Dr. Rice.  Well, Senator, the only reason that I rehearsed 
who we're fighting is that there was the notion somehow that 
these were people who were made angry by----
    Senator Kerry.  Well, somewhere----
    Dr. Rice [continuing]. ----our policies. I think most of 
them were made angry by the fact that Saddam Hussein was 
overthrown. But, you're right, there are people who we need to 
respond to who need jobs and the like.
    As to international help, I would note we do have an 
international coalition. We have 27 countries on the ground 
with us, soon to be 28. Yes, some of the contributions are 
small, but, for small countries, they are significant 
contributions. We have contributions from places like Japan and 
South Korea that one would not expect, Asian allies who are 
serving in Iraq, and we need to honor those contributions.
    Senator, I'll check, but, frankly, I'm not aware of Russian 
effort--or Russian offers of peacekeepers----
    Senator Kerry.  Indian----
    Dr. Rice [continuing]. ----or Indian peacekeepers----
    Senator Kerry [continuing]. ----peacekeepers?
    Dr. Rice [continuing]. ----in Iraq. As a matter of fact, 
quite the opposite, that there don't seem to be people who are 
willing to put forces on the ground. There are people----
    Senator Kerry.  They offered training, and----
    Dr. Rice [continuing]. ----there are people who, in 
differing ways, are offering training. For instance, we've 
taken up, and have been using for some time, the German efforts 
at training in the UAE, for police forces. The Egyptians have 
trained some people. We'll look at what more they can do.
    Senator Kerry.  Germans say they could do more.
    Dr. Rice.  And we will--if they want to do more, they only 
have to say they can do more. And I can guarantee you we will 
want them to do more.
    One of the things that I will do, going forward, is, after 
this election is over, we have a chance now to, as an 
international community, support a new elected Iraqi 
government. And it may be a time that we can enhance the 
contributions of some members of the international community. 
But it is not for lack of trying that we have not been able to 
get forces on the ground from some of these countries.
    Senator Kerry.  Well, are--my time is up, and I want to--
we're not really finished with it, in a sense, but let me just 
say to you, very quickly, that, as you make a judgment about 
this, I think all of my colleagues would report to you--and I 
think you'll hear it from generals and others--that current 
policy is growing the insurgency, not diminishing it. And you 
need to think, as--I mean, I'm still, sort of--you know, try to 
see if we can be more precise about what you intend to do to 
change this dynamic and affect the political reconciliation 
necessary. There are many people who believe that Kirkuk, for 
instance, may explode because of the Kurd issue, after the 
election, because of what happened in their efforts to move 
people in, and they were denied the effort. And so, the 
dynamics of the election could actually, without the proper 
actions, provide a greater capacity for civil war than there is 
today, absent the right steps.
    Dr. Rice.  Senator, I think that the elections--the Iraqis 
understand the opportunity that the elections will give them to 
address some of the divisions that you are talking about. There 
is no doubt that Iraq is a country that has deep divisions, and 
it is a country where Saddam Hussein exploited those 
divisions--for instance, with the policy of Arabization in 
Kirkuk. And so, they have a long and hard road ahead to effect 
national reconciliation.
    But I've been, frankly, quite heartened by the fact that 
the Shia, whenever there is an attack against them by Zarqawi 
and his people or by the insurgents, don't take to the 
barricades. What they say is, ``This is going to be a unified 
Iraq, and we're not going to fall to sectarian violence.''
    So I think we need to give them a chance here. You know, 
the political process, as you well know, and you all know 
better than I, is one of coming to terms with divisions--coming 
to terms with institutions that mitigate against people's sense 
of alienation. It takes time, it takes effort. Sometimes the 
compromises are a bit imperfect, at first. But, over time, it 
gets better.
    You know, we've had our own history with this. I often say, 
and I don't mean it jokingly, that, so far, I have not seen the 
Iraqis, or, for that matter, the Afghans, make a compromise as 
bad as the one in 1789 that declared my ancestors to be three-
fifths of a man.
    So we need to be patient with people as they make these 
moves to democracy, understand that it will be in small steps, 
that they will have ups and downs, that the whole process will 
have ups and downs. But as long as they're on a strategic road 
that is getting them to a government that can actually 
represent the aspirations of the Iraqi people, as a whole, I 
think they've got a chance.
    The insurgency wants, very much, to halt that process and 
throw Iraq back. We have to provide the Iraqis with the tools--
through training, through capacity-building--to defeat that 
insurgency, with our help. And that's what we're trying to do.
    Senator Kerry.  I couldn't agree with you more. The only 
question is why it's not happening at a pace that maximizes the 
capacity for success and minimizes the potential of disaster. 
The Sunnis are viewing this election, as you know, with the 
highest level of anxiety and suspicion. They view it as, sort 
of, a quasi-American joining with the Shia to provide Ayatollah 
Sistani and the Shia with a power-hold that they never could 
achieve in several hundred years otherwise. And unless there's 
some kind of reconciliation process, that every European leader 
and every Arab leader talked to me about, which currently isn't 
on the table, we're going to have an exceedingly hard time, 
sort of, patching that together.
    I want to have happen what you just described. My fear is, 
there is nothing that shows me a sufficient level of 
sophistication and openness to bringing people to the table to 
make it happen. I think you have a unique opportunity now. But 
I'd like to hear the administration articulate a little more 
how it intends to proceed to grab that opportunity.
    And I've abused my time. I apologize, Mr. Chairman.
    The Chairman. Well, thank you very much, Senator Kerry. The 
Chair has allowed the exchange to proceed because it was an 
important one, and perhaps there will be a further opportunity 
to continue that dialogue.
    I'm going to suggest, respectfully, to Members that there 
will be four more Senators recognized before we have our break 
today, and that will get us farther and farther down the 
batting order, so that we can commence this afternoon with 
recognition of everybody else, and then maybe a second round.
    Senator Coleman.
    Senator Coleman.  Thank you, Mr. Chairman.
    I want to join those in applauding Secretary Powell and 
Deputy Secretary Armitage for the work they did.
    And I also do want to note that some of us are overjoyed to 
have Senator Kerry back here with us today.
    Senator Kerry.  There's going to be a certain unanimity 
over there.
    Just pass a quick resolution and move on.
    Senator Coleman.  I also want to make note of the 
incredible work that the Foreign Service staff does. I just 
came back from a bipartisan trip, with Majority Leader Frist 
and Whip McConnell, Senator Landrieu, from Louisiana, and 
Senator DeWine, from Ohio. And we had a chance to be in Iraq 
with Ambassador Negroponte and his staff, many of whom are 
former ambassadors who have come back into service, and not the 
ambassadorial level. That level of commitment is just 
extraordinary. I saw that in Afghanistan and Pakistan and India 
and other places that we were--in Brussels--as part of our 
journey. So I just--I don't think we give enough credit to 
folks who are doing such great work for this country.
    Just an observation from my trip, and perhaps a little 
different perspective from Senator Kerry's. One, what I saw was 
an incredible moment of opportunity, right now. I met with 
Prime Minister Singh of India, and he said that relations 
between America and India have never been better. Have never 
been better.
    And I didn't sense, by the way, that sense of being 
rebuffed in Iraq. In fact, the sense I got--and we raised the 
issue of Iraq with all the leaders in Pakistan and in India and 
with the European Union--I think there's a tentativeness, 
certainly about the security situation in four of the 18 
provinces. There is a concern--not a concern, but there is a 
hope--that the election, the election that's going to take 
place, that has to take place--has to take place--on January 
30th, provides a moment of opportunity, with two more elections 
to come. But one of the great success stories, which we don't 
talk about enough, is Afghanistan. The election there was a 
paradigm-shifting event. Paradigm-shifting event. President 
Karzai ran on a platform of developing a stronger strategic 
relationship with the United States--and was elected. Eighty-
two percent, by the way, of the voters were women. And in 
Minnesota, where we pride ourselves in having the highest 
turnout in the nation, I don't think we get 82 percent. Pretty 
stunning.
    And so, the sense I got is, Afghanistan is this great 
miracle. Iraq, in four of the 18 provinces, deep concerns. But 
we met with Carlos Valenzuela, the U.N. Advisor to the 
Election; he said the election would pass, today, international 
tests of credibility and independence. It would be a solid 
election.
    In Pakistan, we met with Musharraf, who was not 
democratically elected, but talked about a commitment to 
democracy within two years, talked about a vision of 
enlightened moderation within the Islamic world. And that was 
heartening. He's got to follow through now. We have to hold him 
to those commitments. But we saw that.
    And then, in Brussels, with the EU, with Secretary General 
de Hoop Scheffer and European Union President Barraso, they 
talked a new wind blowing, a new moment of opportunity.
    So I hope that, Dr. Rice--and I'm sure you recognize--there 
is this moment of opportunity, for whatever reason. The 
President's going to be there four more years. What happened in 
Afghanistan with the election, I think, is very important. I 
don't think we reflect on it enough. And the sense I got from 
our allies is not that they're being rebuffed, but a little 
hesitancy. But now they're ready to come forward, and we have 
to then seize the moment.
    The challenge, in two areas that I think are critical. 
One--and Senator Dodd raised--in Latin America. I'm deeply 
concerned that--we've had 20 years of democracy that, I think, 
threatens to be undermined by economic promises that aren't 
fulfilled. And I think we need to be focused on that region. 
And then, in the second round of questions, I think I'll 
specifically ask about Colombia and talk about that. So I think 
there is a great challenge. And the other is Russia. I think in 
your comments you talked about an uneven path ``the path to 
democracy is uneven.'' I would agree with Senator Biden that 
what we're seeing is a slippage, we're seeing a reversal of 
course, we're seeing a regression on the part of the Russians. 
And as the President prepares to meet with Putin, I just hope 
we continue to press this issue.
    In fact, I'll raise a micro-issue, and the micro-issue has 
to do with some religious documents important to the Jewish 
community, the Schneerson documents important to the Chabad-
Lubavitch community. I marched for Soviet Jewry--for the issue 
of freedom for Soviet Jewry--in the 1980s here in Washington. 
And we still face those issues.
    So my concern is, as we look to develop our relationship 
with the Russians, that we continue to press them on the 
religious freedom issues, these documents in particular. I 
continue to have deep concerns--deep concerns--as to what I see 
as a regression.
    So I just want to make that statement, and I hope that you 
would, kind of, push on those. The little things sometimes 
become big things.
    Dr. Rice.  Thank you. And we will very much push on those 
issues and the issues of the Schneerson documents, but also 
religious freedom. I think you're very right, we need pay 
attention, in Russia, to what is happening to individual rights 
and--as well as religious freedom.
    Senator Coleman.  Let me raise, then, in this round, just 
one other issue. Obviously, my Subcommittee is involved in the 
investigation of Oil for Food. We just had a release of 
documents. By the way, I want to thank the State Department. I 
know, within the budget committees of the U.N., they pushed to 
have member states have access to these reports. And, as a 
result, we got them a lot quicker, because of that kind of 
support, that kind of focus.
    These most recent documents highlight a lot of 
mismanagement, serious mismanagement. We fund 22 percent of the 
U.N.'s operating budget. We've had, as you know, a terrible 
environmental crisis, which, by the way, we responded to very, 
very well. The Indians also responded well. I worry about the 
ability of the U.N. to be able to respond credibly when we've 
got this stain of mismanagement. Again, I think we're just 
seeing the tip of it right now. Our investigation will go on, 
but these audits demonstrate severe mismanagement of resources. 
That is simply not tolerable with concerns and the needs that 
we have.
    Can you reflect a little bit on the Oil for Food impact on 
U.N. credibility and how do we move forward?
    Dr. Rice.  Yes, absolutely. I would agree with you that it 
is a--I'll use the world ``scandal.'' I think it is a scandal 
that--what happened with Oil for Food. And it is extremely 
unfortunate, because it--not only did it allow Saddam Hussein 
to continue to get resources, it really did--it was very hard 
on the Iraqi people. So we had the worst of both circumstances. 
It was also the process that we were relying on, of course, to 
keep Saddam Hussein contained and checked. And clearly we 
weren't doing that. The sanctions were breaking down. He was 
playing the international community like a violin. And we can't 
let that happen again, should we ever get into a position where 
we have to do something in terms of sanctions. It's just 
outrageous.
    Now, I hope that the Voelcker commission will get all of 
the cooperation that they need from the U.N. to continue their 
process. And we have worked--and I appreciate hearing that 
things have gotten better for the congressional committees 
here, because we really do expect openness and transparency and 
information flow from the United Nations. I know we've made 
State Department people, who would have knowledge, available to 
talk with people here. We've opened up the Iraq--the Iraq 
Survey Group's files, in effect, to people. We've got to get to 
the bottom of what happened here, and those who were 
responsible, I think, should be held accountable.
    I will note that some changes are being made at the U.N., 
in terms of the structure of the staffing there, that more 
changes have been recommended as a part of the high-level 
panel, and the United States has to stay active in the U.N. 
reform process, because we want the U.N. to be effective. We 
don't want it to be an ineffective organization. We have too 
much work to do together, and it has to be in--it has to be 
effective, and it has to be admired and--for its integrity and 
its programs. And so, this will be an important agenda for us.
    And if I could just go back to the point that you made 
earlier, Senator Coleman, which is about the moment of 
opportunity. It's very easy, in the day-to-day, to lose sight 
of some of the things that you mentioned. I do think that if 
you had sat here two-and-a-half years ago trying to talk about 
the situation in Afghanistan, you might have wondered at the 
sanity of someone who said that there was going to be an 
election, with a president elected who was running on a 
platform that he is pro-American, who would have dealt pretty 
effectively now with the warlords around him, who is moving 
toward women's rights and the likes. I think we would have 
thought that farfetched.
    Similarly, if you had sat here three-and-a-half years ago 
and said that Pakistan was going to turn its guns on extremism, 
rather than supporting the extremists in places like al Qaeda 
and the Taliban, you would have, again, said that this is 
farfetched.
    So we have to remember that these are historical processes.
    And I want to just go back to Iraq for a moment. This is a 
huge historical change that is going on in the center of the 
Arab world, and it has great promise, and it has great peril. 
And we are aware of both. But we shouldn't lose sight of the 
promise of Prime Minister Allawi and the leaders, including the 
Shia leaders, reaching out to Sunnis and saying, ``You are 
going to have a place in this government. Yes, you are only 20 
percent of the population, and, yes, the Shia, who are now 60 
percent of the population, have been repressed, as have the 
Kurds, but that doesn't matter. We're going to have a common 
Iraqi future.'' And my read is that the reason that Sunnis are 
nervous about this election is not that they want to boycott 
the elections because they think they're somehow just a shield 
for Sunni--for Shia dominance, but, rather, because there is 
widespread intimidation by these thugs against the Sunni 
people. We have to recognize what the motivation is here. The 
Sunnis want to participate in these elections, but there are 
people who are engaging in the most brutal intimidation.
    And so, the Iraqis, I think, will find a way to, after the 
elections, unify their country again, and we have to be there 
to help them. But from the historical perspective of 30,000 
feet, it's sometimes important to see the long sweep, not the 
short--short term.
    Senator Coleman.  And we heard that from our bipartisan 
visit just last week.
    If I can, Mr. Chairman, I would like to enter into the 
record a commentary by Paul Bremer that was in the Wall Street 
Journal of January 12th.
    Dr. Rice has answered the concern raised by Senator Kerry, 
but Bremer did note in this article, he said, ``Moreover, in 
July 2003, we began paying a monthly stipend to all but the 
most senior former officers. These payments continue to this 
day. So if any former army officers is involved in the 
insurgency, it is not for money; their objective is simply to 
retake power and to return Iraq to its horrible past.'' So I 
would like that to be part of the record.
    The Chairman. It will be made a part of the record.

    [The article to which Senator Coleman referred appears in 
Appendix II of this hearing transcript.]

    Dr. Rice.  Thank you.
    The Chairman. Thank you, Senator Coleman.
    Senator Feingold?
    Senator Feingold.  Thank you, Mr. Chairman.
    Let me join the other Members of this committee in 
congratulating you, Dr. Rice, on your nomination. I've always 
enjoyed our conversations and work together. It's long been 
apparent that the President has tremendous confidence in you, 
and his choice to nominate you to be the Secretary of State at 
a time when the United States faces so many profound challenges 
and so much global distrust, is still more evidence of his deep 
and abiding trust in you.
    Dr. Rice, obviously you and I disagree on many issues. I 
actually think that the Bush administration's foreign policy 
over the last four years has been, on many fronts, misguided 
and self-defeating, and I will continue to oppose these 
policies.
    Nothing is more important to this country than prevailing 
in the fight against terrorism. In that effort, and the related 
effort to repair our country's image and create a more stable 
and just and prosperous world for our children to inherit, we 
have to make sure our policies are effective and well thought 
out.
    I just returned, two days ago, from a trip to Algeria, 
Chad, and Mali. And, after that, I'm even more convinced than 
before that we need to make a much more substantial commitment 
to ensuring that the vast youthful populations of the Middle 
East and Asia and Africa do not mistakenly believe that our 
goal is to humiliate them, and, therefore, believe that their 
best hope might be a movement, that may seem to promise pride 
and belonging, but actually delivers hatred and repression and 
brutality and terror.
    So, Dr. Rice, where we do agree, I hope to be a strong and 
active ally of yours. We have to make the right policies work.
    Just as an aside, I note that, in response to Senator 
Coleman's questions, you talked about the need for 
accountability of the U.N. for the Oil for Food Program. And I 
agree with that. But I just have to note, shouldn't the demand 
for accountability also apply to this administration for the 
long litany of mistakes and misstatements about Iraq? There 
hasn't been serious accountability for that. So I'm not going 
to hesitate to point out mistakes or raise questions. The 
stakes are to too high.
    And I'd like to begin by continuing an exchange you had 
with Senator Kerry. You indicated that if there are countries 
willing to do more to help us stabilize Iraq, quote, ``All they 
have to do is say they want to do more.'' I think this comment 
troubles me.
    Americans are dying, and our approach to burden-sharing is 
to wait for others to come to us?
    I would like to hear a little bit about what your strategy 
will be to proactively reach out, to squeeze every drop of 
assistance from others that is available. That will be your 
job. We just can't sit and wait for others to raise their hands 
and volunteer.
    I wonder if you could comment on that?
    Dr. Rice.  Of course. And, Senator, let me be very, very 
clear about this. We have been reaching out to others and 
asking them what they can do to stabilize Iraq. It is a 
constant preoccupation of Senator--or of Secretary Powell, who 
has talked to every counterpart that he has about what might be 
possible. It is something that the President has raised in his 
many meetings with people. It's something that we took to NATO, 
and that's how we got the NATO training mission, talking to 
people about what NATO can do. We mobilized the world to--the 
G7 to give debt forgiveness to Iraq, which will save that 
country a lot of resources and make it possible for it to 
recover.
    I know, in my personal conversations around the world, I 
always ask the question. I start with the premise that we all 
want to see a stable and democratizing Iraq. I then go on to 
say that I understand that we've had differences in the past, 
but that now we all have a common future in looking to a stable 
and democratizing Iraq. And then the very next question is, 
``So what can you do to help?'' And this has been a 
preoccupation of reaching out.
    My only point was that we will have another opportunity 
when the elections are held, elections that will come out of a 
process that the U.N. blessed in a U.N. Security Council 
Resolution, and that countries that may have had hesitancy, for 
whatever reason, I hope that they will really step up. We had a 
very successful donor conference, for instance, in which 
countries made very large financial pledges to this effort.
    So we are getting help. I think we can get more. Perhaps 
more countries will be active after the elections.
    I would just note, on the matter of the region, there have 
been a couple of very important meetings of regional leaders--
one that took place with the G8 and--with the EU the G8 and 
regional leaders there--to pledge support to Iraqi democracy. 
There was a recent meeting that King Abdullah of Jordan held, 
which was a meeting that was to actively ask people to 
participate in the elections.
    I think the world is coming together behind the idea that 
we have to succeed in Iraq, and we have to succeed by building 
a more democratic Iraq. And we'll welcome all the help. But I 
didn't mean to leave the impression that we're not reaching 
out. We're consistently and constantly reaching out.
    Senator Feingold.  Well, I thank you for that. My sense is 
that we've not reached out as often and as well as we could, 
but I wish you well in an aggressive approach to this. I don't 
think anything would mean more to the American people, and 
particularly the families of our soldiers, to know that we're 
doing everything that we can possibly do to get the help from 
other countries that we can.
    Dr. Rice, I've reflected, a lot of times, on the memo that 
Secretary of Defense Rumsfeld issued in October 2003, which 
indicated that despite over two years having passed since 
September 11th, quote, ``relatively little effort had gone into 
developing a long-range plan to win the fight against 
terrorism.'' He pointed out that there is no consensus within 
the national security community of the United States about how 
to even measure success in the fight.
    Now, I think the Secretary of Defense was quite right, and 
I don't see any particular evidence that this problem has been 
remedied. In fact, we just listened to discussion here at this 
three-hour-some hearing today--there's been, actually, not a 
whole lot of discussion about the fight against terror, unless 
you believe that the Iraq War is the heart and soul of that, 
which I don't. And that troubles me. I think we risk losing 
focus, something I believe happened when we turned the lion's 
share of our attention to Iraq, devoting many years and 
billions of dollars, and possibly many American lives, to 
ineffective or self-defeating strategies.
    Since the terrorist attacks of September 11, 2001, how have 
you and the Department been assessing the success and efficacy 
of policies designed to actually fight terrorist networks, to 
strengthen the multilateral coalition cooperating to combat 
these networks, and to prevent these networks from gaining new 
support and new recruits? And how do you, sort of, measure that 
success? Do you think the metrics and assessments that we're 
now using in the fight against terror are sufficient?
    I want to reiterate, I'm talking here about, not the 
broader strategy that the President has articulated, but the 
specific issue of terrorist networks and where they actually 
exist.
    Dr. Rice.  Well, Senator, there are a number of important 
elements in the fight on terror, and I'll come back to--because 
I do think there is a broader context here that has to be 
understood. But, first of all, when you look at the 
organization that did 9/11, al Qaeda and Osama bin Laden's 
organization, I think that you would see that we have had 
considerable success in bringing down the ``field generals'' of 
that organization, people like Khalid Sheik Mohammed and Abu 
Zubaydah and others. It is true, I'm certain, that they worked 
to replace those people, but they lose a lot of skill and 
experience in these field generals in--who had trained in 
Afghanistan together and had worked to produce September 11th. 
There's a lot of evidence that we've really hurt the 
organization in that way.
    Secondly, in terms of their financing, I think we've made a 
great deal of progress, not just in the United States in 
tracking and dealing with terrorist financing, but around the 
world. You know, we didn't understand, really, the structure of 
terrorist financing very well. We didn't understand the role of 
non-governmental organizations that sounded like they were for 
good purposes but were, in fact, carrying out or funding 
terrorist activities. Others didn't understand that, in the 
Muslim world, like the Saudis. And we have made, I think, great 
strides in doing that.
    We've made strides in denying them territory. You know, one 
of the ways that you fight a war is, you deny the other side 
territory. And when you look at what has happened to them, 
their world has gotten smaller. Afghanistan is not a hospitable 
environment now for terrorists. It used to be the home base for 
al Qaeda, with its training camps and its access to 
Afghanistan's benefits of being a state. They can no longer 
count on Pakistan, which had such strong ties to the Taliban 
that it was not really an aggressive actor against al Qaeda. 
They can no longer count on not being pursued up in the 
northwest frontier. The federally administered tribal areas 
that hadn't been governed by Pakistan for--hadn't been ever 
governed by Pakistan--they can't count on that territory. So we 
are denying them territory.
    Senator Feingold.  Dr. Rice, I don't share the view that 
they've lost territory, actually. I happen to have supported 
the invasion of Afghanistan, and understand absolutely why we 
had to do that. But I've done a fair amount of work in East 
Africa and Northern Africa. We aren't denying terrorist 
elements those territories. When it comes to Somalia or Algeria 
or the activities that have occurred in Kenya--our focus on 
Iraq has been so single-minded--and, in fact, I was told by 
some of our own officials in that region, this past week, that 
a lot of things have gone waiting because of the demands of the 
Iraq invasion, in terms of dealing with this issue in North 
Africa and in East Africa. I know there are efforts going on, 
and I encourage those efforts, and I support them. But in terms 
of the balance? I think the balance has not been correct.
    Dr. Rice.  Well, Senator, in East Africa, we have a very 
effective set of partnership in counterterrorism strategy with, 
for instance, Kenya. Somalia is a particular problem, a unique 
problem, given that it's ungoverned, in effect, and the problem 
there is to try and bring about some kind of stable government, 
in the long run. But, in the meantime, we have worked with 
Somalia's neighbors to try and increase their capacity to deal 
with counterterrorism----
    Senator Feingold.  Dr. Rice, I see my time's up, but we 
have no policy in Somalia. Our government has no policy in 
Somalia, and we simply must reverse that if we're going to get 
serious about terrorism.
    Dr. Rice [continuing]. ----But, Senator, our intention in 
Somalia is to try to work with the EGAD process there to bring 
about a government. It has been extremely difficult. In the 
meantime, we've tried to contain the terrorist threat in 
Somalia by working with Kenya and with others in East Africa.
    But I will tell you, Senator--I'd just like to make one 
final point--I do sit every day and look at the terrorist-
threat reporting that's coming in. I look, every day, at the 
efforts that disrupt terrorism around the world. And I can tell 
you that the reports come from every--practically every service 
in the world, because our liaison relationships are so much 
more developed now, that when you have a situation like we 
faced back in December of last year, where we thought there 
might be an imminent threat to the United States, that we are 
able to mobilize law enforcement around the world, that you do 
get major take-downs of terrorists in places like Pakistan, 
which had been a central place for them to operate. We are 
making a lot of progress in this, but I--I know that there are 
differences on the question of what the ultimate antidote to 
terror is, and it is our view, and the President's view, that 
the ultimate antidote is to deal with the source of that 
terror, and that really is, ultimately, the freedom deficit, 
and that in order to do that, you've got to have a different 
kind of Middle East. And that's why we do see Iraq as being a 
part of that war on terrorism.
    Senator Feingold.  Just one last comment. I certainly--the 
freedom deficit is a legitimate way to look at this, but I 
think the reality of failed states and lawless areas is just as 
important, in terms of the terrorist threat, and needs to be 
considered in that regard.
    Thank you, Mr. Chairman.
    Dr. Rice.  Thank you.
    The Chairman. Thank you very much, Senator Feingold.
    Senator Voinovich?
    Senator Voinovich.  Thank you, Mr. Chairman.
    First of all, I'd like to publicly thank Secretary Powell 
and Secretary Armitage--and their team--for the outstanding job 
that they've done for this country during the last four years.
    I'd like to thank you, also, for being willing to come 
before us and to seek confirmation as Secretary of State of the 
United States of America.
    I couldn't help but think, as I have heard my colleagues 
ask questions here today, about the enormous responsibilities 
that you're taking on, in terms of the world. There's no 
country in the world where a foreign minister is being asked 
questions about the whole world. And, today, you're being asked 
questions about the whole world and, what you are going to do.
    And I'd like to share with my colleagues that one of the 
things that we all ought to be concerned about is whether or 
not the new Secretary of State is going to have the budget and 
the human capital that she is going to need to get the job 
done. Are we going to prioritize, in terms of this nation, the 
money necessary, so that many of the questions that have been 
asked here at this table about what you are going to do in 
parts of the world can actually be done? And, at the same time, 
maybe we need to look at our own tax policy and give 
consideration to what Senator Sarbanes has been talking about, 
the trade deficit that's looming, and the account deficit.
    And I am very happy to hear that Bob Zoellick is interested 
in coming over to the State Department because Bob's got 
tremendous background in the area of trade, which I think is 
essential to almost everything that you'll be doing.
    I was glad, also, in your testimony you said that, ``More 
than ever, America's diplomats will need to be active in 
spreading democracy, fighting terror, reducing poverty, and 
doing our part to protect the American homeland. I will 
personally work to ensure that America's diplomats have the 
tools they need to do their jobs, from training to budgets to 
monitoring embassy security.
    We expect you to come here before this committee and tell 
us what you think you need to get the job done. And I think 
it's your job to advocate to the administration about what it 
is that you need to get the job done. We've got to be real.
    I have dealt with a lot of the major issues that are on 
everyone's mind, but I think you know I have a particular 
interest in Southeast Europe, where I've spent probably more 
time than any Member of the Foreign Relations Committee. And 
we've made some progress there. We've gotten rid of Milosevic, 
we've gotten rid of Tudjman. Stipe Mesic just got reelected to 
serve as President of Croatia. Slovenia has joined NATO and the 
EU. There's some real progress being made.
    But I am very concerned about what's going on in Serbia and 
Montenegro today. I'm also very concerned about what's 
happening in Kosovo, because I really believe that unless 
things are stabilized in Serbia and Montenegro, and unless we 
stabilize things in Kosovo, we could very well have another 
crisis on our hands this year, particularly because we're 
discussing the final status of Kosovo and what's going to be 
happening there.
    I'd like to say that Under Secretary of State Marc Grossman 
has done a good job, but I'd like to know, where is this on 
your priority list? Are you familiar with problems in Southeast 
Europe? We've got our NATO forces in Kosovo, and they haven't 
got the job done. You'll recall, on the 17th of March last 
year, ethnic violence resulted in 4,000 refugees, 900 homes 
burned, and 30 churches destroyed. There are some real problems 
in that part of the world. We've invested a lot of money. I'd 
like to know, what do you think you're going to do about that?
    Dr. Rice.  Yes. I think it is a high priority, Senator, 
because it would help complete the European construction, if 
you think of it that way, that, in effect, until the Balkans 
have settled, it's going to be hard to think of Europe as truly 
whole and free. And so, we need to resolve the remaining 
Balkans issues.
    And on Bosnia and Herzegovina, we've made a lot of 
progress. We've been able to end the S4 mission there and to 
have the EU take that mission over. But, you're right, in 
Kosovo, in Serbia Montenegro, we have a thorny set of problems.
    One of the issues in Kosovo has been to try to get some 
energy into UNMIK. And I think we've got now, in the leadership 
there, strong people who are looking to try to improve the 
coordination on economic and political affairs there. We 
definitely need the Serbs to continue their democratic process. 
I think we were all somewhat heartened about the election 
there, of Mr. Tadic. And I hope that they will take the 
opportunity that that provides to make progress on the further 
democratization of Serbia. And, of course, we do need their 
cooperation in the international tribunal for Yugoslavia, and 
we continue to press that case.
    Ultimately, on Kosovo, as we've had this standards-before-
status approach, we recognize that the standards are going to 
be important to the future of that region. Meeting those 
standards is going to be important to the future of that 
region. And I notice that Mr. Jessen Peterson has put a lot of 
emphasis on those standards that are about minority rights and 
the need to deal with the Serbian minority there so that we can 
move on, then, to discussions in the review conference that's 
coming up----
    Senator Voinovich.  I'd just like to say that I hope that 
we really give it the priority it needs.
    Dr. Rice.  Yes.
    Senator Voinovich. Because last year, when Secretary Powell 
was here, I said to him, ``I don't think we're doing the job 
we're supposed to be doing.'' He said, ``No, I think things are 
fine.'' And then we had the blowup there.
    Dr. Rice.  Oh.
    Senator Voinovich.  But I'm just telling you, we have a 
situation, and now you've got the new prime minister of Kosovo, 
who may go to The Hague. Solana and our people have encouraged 
the Kosovars not to put that person in, and he's still there. 
So you've got a real problem there that needs to be taken care 
of, in addition to getting the other countries to give up their 
national caveats, in terms of what they can do. Because we had 
the burnings of homes there, and some NATO forces just watched 
the homes and monasteries burn down and said, ``We can't do 
anything about it, because our orders are--we only protect 
people, not property.''
    Dr. Rice.  I take the point, Senator.
    Senator Voinovich.  The other issue that I'm very 
interested in, and where we've made some great progress, is the 
issue of global anti-Semitism. And, as you know, we passed 
legislation, which the President signed into law. I think the 
report on global anti-Semitism that came out of the State 
Department did an outstanding job of portraying the situation, 
which is a crisis all over the world, particularly in the OSCE 
area.
    And I would encourage you to give the same kind of 
commitment to this issue that Secretary Powell has made. He was 
in Berlin. And one of the concerns I have--and I'd be 
interested if you're familiar with it--is the budget of the 
OSCE, and whether or not the OSCE is going to provide the money 
necessary to ODIHR, which is the Office of Democratic 
Institutions and Human Rights, to really monitor this anti-
Semitism issue. They've agreed to do it. But, as you know, so 
often people agree to do things, and then the money is not 
there to get the job done.
    And I am not sure whether anybody has talked to you about 
the fact that they're going to have another conference in 
Cordoba, Spain, in June. I would recommend that you be there, 
because I think that, without the presence of the Secretary of 
State of the United States, it doesn't get the kind of clout 
that we need for that issue to be dealt with.
    Dr. Rice.  I appreciate it, Senator. I am aware of the 
conference. It'll be a very important conference.
    I will look into the budget issue. I was not aware of the 
budget issue, but I will look into that----
    Senator Voinovich.  Well, it's my understanding that the 
Soviet Union--or Russia----
    Dr. Rice.  Russia.
    Senator Voinovich [continuing]. ----is dragging its feet 
and slowing things down right now.
    Dr. Rice.  Right. And I think, at some point, have said 
they might not contribute. I understand that.
    But this is an issue that I think gets everybody's 
attention when you have something pending, like the conference. 
We'll put a focus on it, we'll put an emphasis on it the way 
that we did in the past. I think it was a great thing. 
Actually, everyone who was there, including the countries of 
the OSCE, thought it was a great thing, and I'm glad we're 
having a second one.
    Senator Voinovich.  Well, as I say, it's a high priority, 
the money.
    As you know, I also, feel that our best offense against 
terrorism is intelligence, diplomacy, and something that Robert 
Burns once spoke to, and that is, ``Oh, that some great power 
would give me the wisdom to see myself as other people see 
me.''
    I was recently in England and parts of Southeast Europe 
prior to attending the NATO Parliamentary Assembly meeting in 
Venice. And I was just shocked at what I got back from our 
friends about how badly we're thought of today in that part of 
the world. And I just wonder, what are you going to do to try 
and change that? I think what we're doing to help following the 
tsunami right now is wonderful. But we have got to show people 
that we love them, that we are for democracy, that we want them 
to enjoy the same thing, that we haven't any hidden motives. 
What are you planning on doing in that area?
    Dr. Rice.  Senator, first of all, I do agree that the 
tsunami was a wonderful opportunity to show, not just the U.S. 
Government, but the heart of the American people. And I think 
it has paid great dividends for us.
    Sometimes what happens is that we've had to ask people to 
do very difficult things, and we've had policies that people 
don't like. I think, in some corners, there are people who have 
been unhappy with the way that we've dealt with the Middle 
East, with the strong support for Israel, with our strong 
belief that terrorism has got to stop there. But we somehow 
have to get the message out that this is also the first 
President to call, as a matter of policy, for a Palestinian 
state. And somehow we're not getting that message out, as well.
    What I plan to do is that, I'm going to put a major 
emphasis on public diplomacy, in all of its forms. That means, 
in getting our message out. And public diplomacy really is the 
State Department's core--a State Department responsibility. The 
State Department has to take on this challenge. Because public 
diplomacy isn't done here in Washington; public diplomacy is 
done in London, or done in Oman, or done in Riyadh. And so, the 
arms and legs of the public-diplomacy effort are our embassies 
out there and our ambassadors and what they do on a daily 
basis. And so, I think we have to have a new renewed effort on 
that piece of it, getting our message out.
    We also have to have a new renewed effort on getting our 
people back and forth, because people, when they come to the 
United States and see who we are and can get past some of the 
filter of, perhaps, some of the sides of America that are not 
well liked or respected, I think, do come away with a different 
view of us. And so, I will have a strong emphasis on getting 
our message out, on getting the truth to people, on diminishing 
the--on doing something to mitigate against the propaganda 
that's out there against us, but also on going to our long-time 
partners and friends and saying, ``We have a common purpose 
here, a great cause ahead of us.'' And the Transatlantic 
Alliances--you know, sometimes it's a little bit like whatever 
it was that Mark Twain said about Wagner's music; I think he 
said, ``It's better than it sounds.'' Well, in fact, our 
Transatlantic Alliances are really getter than people give us 
credit for. We're cooperating in a lot of places, we're working 
hard together in a lot of places, we've had a lot of successes. 
But we can do more, in this period of tremendous opportunity, 
to unify the great democracies, the great alliances for a push 
to spread freedom and liberty. I think it's an agenda thatis 
inspiring, and I think we've done a lot already, but there is 
much more that we can do.
    Senator Voinovich.  Thank you.
    The Chairman. Thank you very much, Senator Voinovich.
    Senator Boxer?
    Senator Boxer.  Thank you very much, Mr. Chairman. Thank 
you, Dr. Rice, for agreeing to stay as long as it takes, 
because some of us do have a lot of questions.
    And, Senator Lugar, you are a very fair Chairman. And I 
wanted to say to the new Members, also, welcome, and you'll 
enjoy this committee because we have such a great Chairman and 
such a terrific Ranking Member, and we really do a lot of 
things in a bipartisan way, unlike other committees. And I 
think you're going to enjoy your time here.
    Dr. Rice, before I get to my formal remarks, you, no doubt, 
will be confirmed. That's, at least, what we think. And if 
you're going to become the voice of diplomacy, this is just a 
helpful point. When Senator Voinovich mentioned the issue of 
tsunami relief, you said--your first words were, ``The tsunami 
was a wonderful opportunity for us.'' Now, the tsunami was one 
of the worst tragedies of our lifetime. One of the worst. And 
it's going to have a ten-year impact on rebuilding that area. I 
was very disappointed in your statement. I think you blew the 
opportunity. You mention it. It's part of one sentence. And I 
would hope to work with you on this, because children are 
suffering, we're worried they're going to get in the sex trade. 
This thing is a disaster, a true natural disaster and a human 
disaster of great proportions, and I hope that the State 
Department will take a huge lead, under your leadership, in 
helping those folks in the long range.
    Mr. Chairman, again I thank you.
    Dr. Rice, I was glad you mentioned Martin Luther King. It 
was very appropriate, given everything. And he also said, 
Martin Luther King, quote, ``Our lives begin to end the day we 
become silent about the things that matter.''
    And one of the things that matters most to my people in 
California and the people of America is this war in Iraq. Now, 
it took you to page three of your testimony to mention the word 
``Iraq.'' You said very little, really, about it, and, only in 
this questioning, have we been able to get into some areas.
    Perhaps you agree with President Bush, who said, ``All 
that's been resolved.'' I'm quoting today's Post, ``Bush said, 
in an interview last week with the Washington Post, that the 
'04 election was a moment of accountability for the decisions 
he made in Iraq. But today's Washington Post/ABC poll found 
that 58 percent disapprove of his handling of the situation, to 
40 percent who approve, and only 44 percent said the war was 
worth fighting.''
    So, in your statement, it takes you to page three to 
mention the word ``Iraq.'' Then you mention it in the context 
of elections, which is fine, but you never even mention, 
indirectly, the 1366 American troops that have died or the 
10,372 who have been wounded, many mentally. There's a report 
that I read over the weekend that maybe a third will come home 
and need help because of what they saw, it's been so traumatic 
to them. And 25 percent of those dead are from my home state. 
And this from a war that was based on what everyone now says, 
including your own administration, were falsehoods about WMDs, 
weapons of mass destruction. And I've had tens of thousands of 
people from all over the country say that they disagree--
although they respect the President, they disagree that this 
administration and the people in it shouldn't be held 
accountable.
    I don't know if you saw the movie ``The Fog of War.'' War 
is a nightmare. You know that. Colin Powell, I think, was the 
most eloquent I've heard on it, because he's seen it, himself. 
He's been there and done it. And I don't want to have you in a 
circumstance where you're writing something, years later, about 
the fog of war. And I'm fearful, if we don't see some changes 
here, we're going to have trouble. And I think the way we 
should start is by trying to set the record straight on some of 
the things you said going into this war.
    Now, since 9/11, we've been engaged in a just fight against 
terror. And I, like Senator Feingold and everyone here who was 
in the Senate at the time, voted to go after Osama bin Laden, 
and to go after the Taliban, and to defeat al Qaeda. And you 
say they have less territory? That's not true. Your own 
documents show that al Qaeda has expanded from 45 countries in 
'01 to more than 60 countries today.
    Well, with you in the lead role, Dr. Rice, we went into 
Iraq. I want to read you a paragraph that best expresses my 
views--and ask my staff if they would hold this up--and, I 
believe, the views of millions of Californians and Americans. 
It was written by one of the world's experts on terrorism, 
Peter Bergen, five months ago. He wrote, ``What we've done in 
Iraq is what bin Laden could not have hoped for in his wildest 
dreams. We invaded an oil-rich Muslim nation in the heart of 
the Middle East, the very type of imperial adventure bin Laden 
has long predicted was the U.S.'s long-term goal in the region, 
we deposed the secular socialist, Saddam, whom bin Laden has 
long despised, ignited Sunni and Shia fundamentalist fervor in 
Iraq, and have now provoked a defensive jihad that has 
galvanized jihad-minded Muslims around the world. It's hard to 
imagine a set of policies better designed to sabotage the war 
on terror.''
    This conclusion was reiterated last Thursday by the 
National Intelligence Council, the CIA Director's think-tank, 
which released a report saying that, ``Iraq has replaced 
Afghanistan as the training ground for the next generation of 
professionalized terrorists.'' That's your own administration's 
CIA.
    NIC Chairman Robert Hutchings said Iraq is, quote, ``a 
magnet for international terrorist activity.'' And this was not 
the case in '01. And I have great proof of it, including a 
State Department document that lists every country--could you 
hold that up?--in which al Qaeda operated prior to 9/11. And 
you can see the countries. No mention of Iraq. And this booklet 
was signed off on by the President of the United States, George 
W. Bush--was put out by George Bush's State Department, and he 
signed it. There was no al Qaeda activity there. No cells.
    Now, the war was sold to the American people, as Chief of 
Staff to President Bush, Andy Card, said, ``like a new 
product.'' Those are his words. ``Remember,'' he said, ``you 
don't roll out a new product in the summer.'' Now, you rolled 
out the idea, and then you had to convince the people as you 
made your case with the President. And I, personally, believe--
this is my personal view--that your loyalty to the mission you 
were given, to sell this war, overwhelmed your respect for the 
truth. And I don't say it lightly. And I'm going to go into the 
documents that show your statements and the facts at the time.
    Now, I don't want the families of those 1366 troops that 
were killed, or the 10,372 that were wounded, to believe for a 
minute that their lives and their bodies were given in vain, 
because when your Commander in Chief asks you to sacrifice 
yourself for your country, it is the most noble thing you can 
do to answer that call. I am giving their families, as we all 
are here, all the support they want and need, but I also will 
not shrink from questioning a war that was not built on the 
truth.
    Now, perhaps the most well-known statement you've made was 
the one about Saddam Hussein launching a nuclear weapon on 
America, with the image of, quote--quoting you--``a mushroom 
cloud.'' That image had to frighten every American into 
believing that Saddam Hussein was on the verge of annihilating 
them if he was not stopped. And I will be placing into the 
record a number of such statements you made which have not been 
consistent with the facts.
    As the nominee for Secretary of State, you must answer to 
the American people, and you are doing that now through this 
confirmation process. And I continue to stand in awe of our 
Founders, who understood that, ultimately, those of us in the 
highest positions of our government must be held accountable to 
the people we serve.
    So I want to show you some statements that you made 
regarding the nuclear threat and the ability of Saddam to 
attack us. Now, on July 30th, 2003, you were asked by PBS News 
Hour's Gwen Ifill if you continued to stand by the claims you 
made about Saddam's nuclear program in the days and months 
leading up the war. In what appears to be an effort to downplay 
the nuclear-weapons scare tactics you used before the war, your 
answer was, and I quote, ``It was a case that said he was 
trying to reconstitute. He's trying to acquire nuclear weapons. 
Nobody ever said that it was going to be the next year.'' So 
that's what you said to the American people on television. 
``Nobody ever said it was going to be the next year.''
    Well, that wasn't true, because nine months before you said 
this to the American people, what had George Bush said? 
President Bush, at his speech at the Cincinnati Museum Center, 
``If the Iraqi regime is able to produce, buy, or steal an 
amount of highly enriched uranium a little larger than a single 
softball, it could have a nuclear weapon in less than a year.''
    So the President tells the people there could be a weapon. 
Nine months later, you said, no one ever said he could have a 
weapon in a year, when, in fact, the President said it.
    And here's the real kicker. On October 10th, '04, on FOX 
News Sunday with Chris Wallace, three months ago, you were 
asked about CIA Director Tenet's remark that, prior to the war, 
he had, quote, ``made it clear to the White House that he 
thought the nuclear-weapons program was much weaker than the 
program to develop other WMDs.''
    Your response was this, ``The intelligence assessment was 
that he was reconstituting his nuclear program, that, left 
unchecked, he would have a nuclear weapon by the end of the 
year.''
    So here you are contradicting--first contradicting the 
President, and then contradicting yourself. So it's hard to 
even ask you a question about this, because you are on the 
record, basically, saying--taking two sides of an issue. And 
this does not serve the American people. If it served your 
purpose to downplay the threat of nuclear weapons, you said, 
``No one said he's going to have it in a year.'' But then 
later, when you thought perhaps you were on more solid ground 
with the American people, because, at the time, the war was 
probably popular, or more popular, you say, ``We thought he was 
going to have a weapon within a year.'' And this is--the 
question is--this is a pattern here of what I see from you--on 
this issue, on the issue of the aluminum tubes, on the issue of 
whether al Qaeda was actually involved in Iraq, which you have 
said many times. And in my rounds--I don't have any questions 
on this round, because I'm just laying this out--I do have 
questions on further rounds about similar contradictions. It's 
very troubling.
    You know, if you were rolling out a new product, like a can 
opener, who would care about what we said? But this product is 
a war, and people are dead and dying, and people are now saying 
they're not going to go back because of what they experienced 
there. And it's very serious. And as much as I want to look 
ahead--and we will work together on a myriad of issues--it's 
hard for me to let go of this war, because people are still 
dying. And you have not laid out an exit strategy, you have not 
set up a timetable, and you don't seem to be willing to, (a) 
admit a mistake, or give any indication of what you're going to 
do to forcefully involve others. As a matter of fact, you've 
said more misstatements, that the territory of the terrorists 
has been shrinking, when your own administration says it's now 
expanded to 60 countries.
    So I am deeply troubled.
    Thank you.
    Dr. Rice.  Senator, may I respond?
    The Chairman. Yes. Let me just say that I appreciate the 
importance of Senator Boxer's statement. That's why we allowed 
the statement to continue for several more minutes----
    Senator Boxer.  I'm sorry.
    The Chairman [continuing]. ----beyond time.
    Senator Boxer.  I'm sorry. I lost track of the time.
    The Chairman. Clearly, you ought to have the right to 
respond. And then, at that point, we're going to have a recess. 
But will you please give your response?
    Dr. Rice.  Yes.
    Senator, I am more than aware of the stakes that we face in 
Iraq. And I was more than aware of the stakes of going to war 
in Iraq. I mourn and honor--I mourn the dead and honor their 
service, because we have asked American men and women in 
uniform to do the hardest thing, which is to go and defend 
freedom and to give others an opportunity to build a free 
society which will make us safer.
    Senator, I have to say that I have never, ever lost respect 
for the truth in the service of anything. It is not my nature. 
It is not my character. And I would hope that we can have this 
conversation and discuss what happened before, and what went on 
before, and what I said, without impugning my credibility or my 
integrity.
    The fact is that we did face a very difficult intelligence 
challenge in trying to understand what Saddam Hussein had, in 
terms of weapons of mass destruction. We knew something about 
him. We knew that he had--we had gone to war with him twice in 
the past, in 1991 and in 1998. We knew that he continued to 
shoot at American aircraft in the no-fly zone as we tried to 
enforce the resolutions of U.N. Security Council--that the U.N. 
Security Council had passed. We knew that he continued to 
threaten his neighbors. We knew that he was an implacable enemy 
of the United States who did cavort with terrorists. We knew 
that he was the world's most dangerous man in the world's most 
dangerous region. And we knew that, in terms of weapons of mass 
destruction, he had sought them before, tried to build them 
before, that he had an undetected biological weapons program 
that we didn't learn of until 1995, that he was closer to a 
nuclear weapon in 1991 than anybody thought. And we knew, most 
importantly, that he had used weapons of mass destruction.
    That was the context that, frankly, made us awfully 
suspicious when he refused to account for his weapons-of-mass-
destruction programs, despite repeated Security Council 
resolutions and despite the fact that he was given one last 
chance to comply with Resolution 1441.
    Now, there were lots of data points about his weapons-of-
mass-destruction programs. Some were right, and some were not. 
But what was right was that there was an unbreakable link 
between Saddam Hussein and weapons of mass destruction. That is 
something that Charlie Duelfer, in his report of the Iraq 
Survey Group, has made very clear, that Saddam Hussein intended 
to continue his weapons-of-mass-destruction activities, that he 
had laboratories that were run by his security services--I 
could go on and on.
    But, Senator Boxer, we went to war, not because of aluminum 
tubes, we went to war because this was the threat of weapons of 
mass destruction in the hands of a man against whom we had gone 
to war before, who threatened his neighbors, who threatened our 
interests, who was the world's--one of the world's most brutal 
dictators, and it was high time to get rid of him. And I'm glad 
that we're rid of him.
    Now, as to the statement about territory and the terrorist 
groups, I was referring to the fact that the al Qaeda 
organization of Osama bin Laden, which once trained openly in 
Afghanistan, which once ran with impunity in places like 
Pakistan, can no longer count on hospitable territory from 
which to carry out their activities. In the places where they 
are, they are being sought and run down and arrested and 
pursued in ways that they never were before. So we can have a 
semantic discussion about what it means to take or lose 
territory, but I don't think it's a matter of misstatement to 
say that the loss of Afghanistan, the loss of the northwest 
frontier of Pakistan, the loss of running with impunity in 
places like Saudi Arabia, the fact that now intelligence 
networks and law enforcement networks pursue them worldwide, 
means that they have lost territory where they can operate with 
impunity.
    Senator Boxer.  Mr. Chairman, I'm going to take 30 seconds, 
with your permission.
    First of all, Charles Duelfer said, and I quote--here it 
is--I ask unanimous consent to place in the record Charlie 
Duelfer's report----
    The Chairman. It will be placed in the record.

    [The information to which Senator Boxer referred appears in 
Appendix II to this hearing transcript.]

    Senator Boxer [continuing]. ----in which he says, 
``Although Saddam clearly assigned a high value to the nuclear 
progress and talent that had been developed up to '91, the 
program ended, and the intellectual capital decayed in the 
succeeding years.''
    Here's the point. You and I could sit here and go back and 
forth and be--present our arguments. And maybe somebody 
watching a debate would pick one or the other, depending on 
their own views. But I'm not interested in that. I'm interested 
in the facts. So when I ask you these questions, I'm going to 
show you your words, not my words. And, if I might say, again 
you said, you're aware of the stakes in Iraq. We sent our 
beautiful people--and thank you, thank you so much for your 
comments about them--to defend freedom.
    You sent them in there because of weapons of mass 
destruction. Later, the mission changed, when there were none. 
I have your quotes on it. I have the President's quotes on it. 
And everybody admits it but you, that that was the reason for 
the war. And then, once we're in there, now it moves to a 
different mission--which is great. We all want to give 
democracy and freedom everywhere we can possibly do it. But 
let's not rewrite history. It's too soon to do that.
    Dr. Rice.  Senator Boxer, I would refer you to the 
President's speech before the American Enterprise Institute, in 
February, prior to the war, in which he talked about the fact 
that, yes, there was the threat of weapons of mass destruction, 
but he also talked to the strategic threat that Saddam Hussein 
was to the region.
    Saddam Hussein was a threat, yes, because he was trying to 
acquire weapons of mass destruction. And, yes, we thought that 
he was--that he had stockpiles, which he did not have. We had 
problems with the intelligence. We were all, as a collective 
polity of the United States, trying to deal with ways to get 
better intelligence.
    But it wasn't just weapons of mass destruction. He was also 
a place--his territory was a place where terrorists were 
welcomed, where he paid suicide bombers to bomb Israel, where 
he had used SCUDs against Israel in the past, and so we knew 
what his intentions were in the region, where he had attacked 
his neighbors before, and, in fact, tried to annex Kuwait, 
where we had gone to war against him twice in the past. It was 
the total picture, Senator, not just weapons of mass 
destruction, that caused us to decide that, post-September 
11th, it was finally time to deal with----
    Senator Boxer.  Well, you should----
    Dr. Rice  [continuing]. ----Saddam Hussein.
    Senator Boxer  [continuing]. ----read what we voted on when 
we voted to support the war, which I did not, but most of my 
colleagues did. It was WMD, period. That was the reason and the 
causation for that, you know, particular vote.
    But, again, I just feel you quote President Bush when it 
suits you, but you contradicted him when he said, yes, Saddam 
could have a nuclear weapon in less than a year. You go on 
television nine months later and said, ``Nobody ever said it 
was going to be''----
    Dr. Rice.  Senator, that was just a question of pointing 
out to people that there was an uncertainty, that no one was 
saying that he would have to have a weapon within a year for it 
to be worth it to go to war.
    Senator Boxer.  Well, if you can't admit to this mistake, I 
hope----
    Dr. Rice.  Senator, we can----
    Senator Boxer  [continuing]. ----that you'll----
    Dr. Rice  [continuing]. ----we can have this discussion in 
any way that you would like, but I really hope that you will 
refrain from impugning my integrity.
    Thank you very much.
    Senator Boxer.  I'm not. I'm just quoting what you said. 
You contradicted the President, and you contradicted yourself.
    Dr. Rice.  Senator, I'm happy to continue the discussion, 
but I really hope that you will not imply that I take the truth 
lightly.
    The Chairman. Let me intervene at this point now. We've had 
four hours of good hearing. And we thank all Members for their 
constancy.
    We're going to recess, and I'm going to suggest we come 
back at 2:30. Is that convenient for----
    Dr. Rice.  Perfect.
    The Chairman [continuing]. ----you, Dr. Rice?
    Very well. We recess until 2:30.

    [recess]

    [The committee remained in recess until 2:35 p.m.]

    The Chairman. The hearing is called to order again.
    The Chair recognizes Senator Murkowski for a ten-minute 
round of questioning.
    Senator Murkowski.  Thank you, Mr. Chairman.
    It's a privilege and honor to be part of the committee, and 
I appreciate the warm welcome from you and the other committee 
Members.
    Welcome to you, Dr. Rice. The opportunity to sit down and 
speak with you a couple of weeks ago was greatly welcomed, and 
it was a chance for me to speak to some of the issues that, as 
a new Member to this committee, were important to just, kind 
of, have that discussion and get on the table.
    One of the issues that is really quite paramount in 
Alaskans' mind is the situation over in North Korea. Our 
proximity in that region is one that causes us to look very 
carefully at what is happening in North Korea, and what is 
happening particularly with the nuclear-weapons program over 
there.
    I'm heartened to hear, from the media reports, that North 
Korea appears willing to restart the six-party talks. And, 
again, I think Alaskans are anxious to know that there will be 
success there.
    Looking beyond the talks and further down the road, I'm 
curious to know your views on a future North Korea. We 
recognize that, for these past many years--about 60 years or 
so--under the reign of Kim Il Sung and Kim Jung Il, an entire 
generation of North Koreans, including their military leaders, 
have basically been brainwashed into believing that their 
military can defeat the armed forces of any country in this 
world. And this raises considerable concern, in the event of a 
regime change, about who has control over the North Korean 
military, and what actions that military, or an individual 
commander, might take.
    So as the administration moves forward in these six-party 
talks, what steps will you take to develop the relationship 
with North Korea's future leadership?
    Dr. Rice.  Well, thank you very much, Senator Murkowski. 
I--we did have an opportunity to talk about a number of issues, 
and I recognize the importance of this issue to everyone, 
because, obviously, North Korea is a very dangerous power, and 
one that has been intent on seeking weapons of mass 
destruction, particularly nuclear weapons.
    Let me start by just saying that it is important to repeat 
that North Korea should understand fully that we have a 
deterrent against any North Korean action, or attempts at 
action, because we have a very strong alliance with South 
Korea, a very technologically sophisticated alliance, that is 
getting more so with the changes that we are discussing with 
the South Koreans about how to realign military forces on the 
peninsula. And we do have, as you mentioned, a very active 
diplomacy now through the six-party talks, which brings all of 
the neighborhood together to say to the North Koreans, ``You do 
not have a choice. If you intend to be a part of the 
international system, you have got to give up your nuclear-
weapons programs.'' And that's an important innovation, because 
it speaks, in a part, to the broader question of how we manage 
a problem like North Korea in the neighborhood. It is not 
something that the United States wants to have to do 
unilaterally. It's something that we're much better off doing 
with South Korea, with Japan, with Russia, and, most 
especially, with China, which is playing an important role in 
the six-party talks, and needs to play--it needs to continue to 
play an active role.
    This is a very closed and opaque society that we're dealing 
with when we're dealing with North Korea. It is a sad thing 
that there probably is no more desperate population than the 
population of North Korea, in terms of starvation, in terms of 
repression. The United States has no problem with the people of 
North Korea. And, in fact, we have consistently been a large 
food-aid donor to North Korea because we do not want the people 
of North Korea to suffer.
    It doesn't have to be this way. There is another path. And 
we've made clear to the North Korean regime that the President 
of the United States has said, and that the United States has 
no intention to attack North Korea, to invade North Korea, that 
multilateral security assurances would be available to North 
Korea, to which the United States would be party, if North 
Korea is prepared to give up its nuclear-weapons program 
verifiably and irreversibly. So we will continue to work on 
that issue.
    It is very hard, actually, to make contact with the 
Korean--North Korean people at all, but, to the degree that we 
can, through South Korean contacts, try to encourage the North 
Korean people that there might be a better future for them, I 
think that's an important thing to do. But our goal now has to 
be to make the six-party mechanism work for dealing with the 
North Korean nuclear program, and then hopefully for dealing 
with the broader problem of managing this dangerous regime.
    I hope that they will follow through, and that, indeed, 
they do intend to restart the six-party talks. We have an offer 
on the table that we put there at the last round of the six-
party talks. It was an offer that I think all other parties 
thought moved the ball forward. We've heard nothing, really, 
from North Korea, and I hope that they will actually act, 
because we've found that their words are not always completely 
reliable.
    Senator Murkowski.  We also had a chance to talk a little 
bit about the Arctic Council. This is probably not a question 
that you're going to get from anybody else on this panel, so I 
will take the time to ask it. I know that my colleague here 
from Florida is not going to ask it, so I will.
    But one of the things that I hoped to achieve, or to work 
on, during my time here on the Foreign Relations Committee is 
to raise my colleagues', and the rest of the United States', 
awareness of--and just really the knowledge of the Arctic 
regions. And there's a lot of focus right now on what's going 
on up north because of the climate change. We're wondering 
whether or not this is a permanent event or whether it's just 
part of a natural cycle. But we do know that it's a reality. We 
do know that it's--it will have an impact on our lands, 
particularly up north. And what we're seeing is, there's a 
potential for increased circumpolar maritime commercial 
activity, which is going to impact our northernmost boundaries, 
as well as substantial new scientific exploration in the Arctic 
region.
    Now, along with the Arctic nations, the U.S. is a member of 
the Arctic Council, which was formed to address the common 
problems of the many Arctic nations. And so far as I can tell, 
our role, the U.S. role, within this Council, has been 
underutilized in furthering our relationship with our Arctic 
neighbors.
    So my question to you at this time is, what role do you see 
for international institutions, like the Arctic Council, in 
U.S. foreign policy? And how can we use our Arctic location to 
further this country's interests?
    Dr. Rice.  There's a very important point that I'd like to 
make about the broader question that you ask. And I do think 
that, on issues of this kind, we can work both internationally 
and regionally--in a sense, the most interested and affected 
countries.
    I would like to spend some time talking with you about what 
more we might do in the Arctic Council. I know we've been 
supportive of the Arctic Council and members, but perhaps there 
is more that we can do.
    It speaks--for instance, you mentioned the environmental--
global environmental issues, like climate change. We have a lot 
to offer, in terms of the science and the technology, and we 
ought to be, and are trying to, develop relations with others 
who are interested in harnessing that science and that 
technology to deal with some of the environmental challenges 
that we have.
    And so, I very much look forward to talking with you about 
what role we can play. There are some important countries that 
would probably share interests. For instance, the Russians 
would probably share interests, and this is another area for 
potential cooperation. And so, I look forward to having a 
chance to look at what more we can do.
    Senator Murkowski.  I think it is an opportunity for us, 
and it's something that needs to be cultivated in order to work 
to our advantage. So I do look forward to that opportunity, 
with you.
    Very general. This might be a softball to you, but how is 
the administration working to improve the role of women in the 
Middle East and elsewhere in the world?
    Dr. Rice.  Well, in fact, it may be one of the most 
important things that we do over the next few years. We've 
already tried to do a lot. I think there's no doubt that the 
Afghanistan situation, which was really one of the true horror 
houses for women--and I know that Senator Boxer and others were 
very involved in trying to promote the cause of women in 
Afghanistan. Well, we promoted the cause by the overthrow of 
the Taliban. It's a remarkable thing that the first person to 
vote in Afghanistan was a young woman. It's a remarkable thing 
that women can now see a doctor without a male relative's 
permission, that they can no longer be punished for letting one 
little hair show out from under the veil, that women are taking 
their rightful place in Afghan society. And I think it is in 
their documents, like their new constitution, that women are 
considered equal citizens.
    That may seem like a small thing, but in a region of the 
world where women have been anything but equal citizens, to 
have that enshrined in the Afghan constitution--and it will 
be--it's in the TAL, or the Transitional Administrative Law, 
for Iraq. These are important steps forward.
    We've also been very outspoken about the need of every 
society to make sure that women's rights are protected. It is a 
part of the agenda in the broader Middle East initiative, where 
clearly countries are going to move at different speeds on this 
issue, but where you have to put on the agenda that you cannot 
function as a modern society if half your population is 
essentially kept out of the political process. And we are 
particularly interested in women's education, the education of 
girls, which, in some of these societies, stops when girls are 
10 or 11 years old. Pressing the case for the education of 
girls is an important part of what we're doing. Helping to 
empower women politically through political activity and civil-
society activity.
    And we've done more than just in the Middle East, which is 
to be very active on, for instance, the Trafficking in Persons 
Initiative, which benefits women, because, very often, the 
people who are trafficked, particularly for sex crimes, are 
women. And the President went to the United Nations, put this 
on the agenda. We've gotten a resolution about it, and we are 
prosecuting people here and pressing countries to prosecute 
people on this very terrible crime.
    Finally, I would just mention the HIV/AIDS initiative, with 
has a mother-to-child transmission element, as well as helping 
caregivers, who, many times, are women, to deal with the 
travails of caring for relatives with AIDS, preventing further 
infections, many of whom would be women. This is a broad agenda 
of helping women, and it is in our moral interest, of course, 
to do so, but it's also in the interest of these societies, 
economically and in terms of modernity, that women take a 
rightful place and are fully contributing to the prosperity of 
these societies.
    Senator Murkowski.  Thank you. Appreciate that.
    The Chairman. Thank you very much, Senator Murkowski.
    Senator Nelson?
    Senator Nelson.  Thank you, Mr. Chairman, Dr. Rice.
    Senators Dodd and Chafee and I just returned from visiting 
with four Latin American presidents in their respective 
countries, and we are certainly of one mind that we need to be 
more engaged in the region. When a leader, such as Chavez in 
Venezuela, starts lurching to the left, and yet we have a 
dependency there of some 13 to 15 percent of our daily 
consumption of oil coming from Venezuela, clearly one part of 
our foreign policy ought to be that we ought to start planning 
on weaning ourselves from that dependence, not even to speak of 
the global dependence that we now have on foreign oil. But 
here's one right in our neighborhood.
    And Chavez has threatened, from time to time, that he was 
going to cut it off. Now, that's a hollow threat, because there 
are no refineries that--outside of the Gulf Coast, that can do 
it, although it would take them a year, maybe two, to build 
those kind of refineries, if, for example, they struck a deal 
in China, to take his oil. We, clearly, urge you that we need a 
Latin American policy that will get us engaged a lot more.
    And then in the places where we see the presidents of those 
countries really trying to do something--and, in fact, having 
an effect--such as Toledo in Peru, such as Paraguay, such as 
Argentina's beginning to have some economic uplift that--if 
America is more engaged, it's just going to--it's going to be 
some wind under their wings, and it's going to help stem that. 
If Chavez continues to go leftward, we should enable those 
other countries, who are more centrist, to corral him, or at 
least have a chance of doing that. So that's a little message 
that I bring you from the activities of the last week.
    Now, elsewhere in the hemisphere--and you can appreciate 
this since I represent the state of Florida. Haiti is a 
disaster. And it's going to continue to be a disaster until we 
get engaged and do something seriously, along with particularly 
the other nations of the Western Hemisphere, financially and 
politically, to help them.
    I've had a difference of opinion with the administration, 
and I think you did have a policy of regime change. And 
although Aristide was a bad guy, you know, it's kind of hard to 
say we support democracy in elections and then we go and push 
him out. But that's done.
    Looking forward, we're getting close to the authorized 
support, now, under the U.N. peacekeeping force, of 6700 
military and 1600 civilian police. Do you think that's an 
adequate number?
    Dr. Rice.  Well, I believe the number that has been 
determined, 6700 or so led by Brazil as a stabilization force 
now, after the initial stabilization was done by the United 
States and the French and the others, is judged to be adequate 
to the task. The question has really been about--more of, what 
can that force do? And I think the expansion of it, of a more 
aggressive stance by that force in going into areas that are 
particularly violent, and dealing with the violence and the 
militias in those areas, is probably really the question that 
we have to deal with.
    I'm glad, Senator, you mentioned the police forces, 
because, in the long run, what really will help Haiti is that 
it needs a professional civilian police force that can be 
counted on to enforce law, not to break law. And we have, as 
you well know, dispatched civilian police trainers from the 
United States, and from other places, to try and engage in that 
activity. But I agree completely.
    Unfortunately, Haiti seems to be a place where natural and 
manmade disasters have come together in a really terrible way 
for the Haitian people. They do have a new chance now. They 
have a transitional government that is trying to arrange 
elections in the fall. We need to support that process. And we 
have had a successful donor conference recently, with a 
billion-dollar commitment. The United States is about 230 
million of that. And so----
    Senator Nelson.  The problem is, they never follow through.
    Dr. Rice.  Senator, I agree, we have to press very hard on 
people to follow through on the pledges that they make. That's 
a problem worldwide.
    Senator Nelson.  And this has been going on for 200 years 
of Haiti's history. Now, when the U.N. peacekeeping force comes 
up for reauthorizing, in the Security Council, what's going to 
be your posture about considering an expansion of that 
peacekeeping force? This is a country of seven-and-a-half 
million, and a lot of them are outside, in those areas that are 
now defoliated; thus, the mud, the slides after the storms, and 
so forth.
    Dr. Rice.  Senator, we've been focused, to now, on trying 
to stabilize the situation with the stabilization force that is 
there. The Brazilians have done a fine job of leading that. And 
I just might mention that this is the first time that a lot of 
those countries, most of whom are from the hemisphere--many of 
whom are from the hemisphere--have actually done peacekeeping 
in the Western Hemisphere. And so, this is a step forward, for 
the neighbors to embrace Haiti in the way that they have.
    What more will be needed, I have to demur. I think we need 
to look at the situation. But, for now, I think we are in the 
right place, in terms of the peacekeeping forces. We have been 
concerned about what missions they were prepared to take on, 
and that is being resolved, and there is a more aggressive 
posture. And we really have to put a major effort into the 
civilian police development.
    We also, as you--you are absolutely right, people pledge; 
they don't follow through. And we have money to put Haitians to 
work. We have money to help restart the Haitian economy. But 
we've got to----
    Senator Nelson.  Well, then I want to----
    Dr. Rice [continuing]. ----follow through.
    Senator Nelson [continuing]. ----I want to suggest 
something to you. And it's a bill that is sponsored by one of 
our Republican colleagues, Mike DeWine of Ohio, and it's called 
the HERO Act, which is an acronym, but what it does is, it 
allows textiles to come in, like we already have in the 
Caribbean Basin Initiative in other areas in the Caribbean, but 
it allows it for Haiti. And then they can come, duty free, into 
the U.S. It would foster an economic uplift by creating jobs. 
But we can't get the administration to support it. It's a 
Republican Senator's bill.
    Dr. Rice.  Senator, I think we believe, at this point, that 
the best course with Haiti is to work with them to take full 
advantage of the Caribbean Basin Initiative, to work with them 
on job creation through some of the programs that we have out 
of our economic support fund for Haiti. They will benefit, in a 
secondary way, from what happens in Central America with trade 
if CAFTA can be taken--can be passed. And so, at this point we 
think we have the right tools, we just have to make it work.
    I understand fully the concerns about Haiti, both from a 
humanitarian point of view and also from a stability point of 
view. And we probably dodged a bullet, in the earlier days, 
with the ability to get Aristide out peacefully, because he had 
lost the ability to control that country, to govern 
authoritatively in that country.
    But we have a lot of work ahead of us in Haiti. I'd be the 
first to admit it.
    Senator Nelson.  Madam Secretary-designate, you can make a 
difference. If you'll jump on that horse and ride it, and keep 
on it over the next four years of your tenure, it'll start to 
pay huge dividends. And nobody's done that. We go in, and we 
fix a problem, and then we turn around and we leave it, and so 
do the other nations. And then Haiti just goes back into chaos.
    Let me shift to the other side of the globe, to Iran. What 
specific steps will you advocate to stop Iran's nuclear 
program? And I'm talking about beyond the noise that we hear 
from Europe. This Senator doesn't think that's gonna cut it.
    Dr. Rice.  Well, Senator, we--this is a problem that we're 
trying to approach both multilaterally and through some 
bilateral pressure. And we were the first to really put the 
Iranian nuclear program on the table when the President did his 
speech, his State of the Union speech, and identified the 
Iranian nuclear program. I can remember, back in the early 
days, Senator, people didn't take nearly as seriously that Iran 
was actually trying to, under cover of its nonproliferation 
treaty access to civilian nuclear energy, to build a nuclear 
weapons program. I think people now, because of Iranian 
behavior, are very skeptical and suspicious of what the 
Iranians are doing.
    Senator Nelson.  Are you ready for sanctions?
    Dr. Rice.  Well, we already have an awful lot of sanctions 
on Iran unilaterally. There is really not terribly much more we 
can do. But I do----
    Senator Nelson.  How about getting Europe to go along?
    Dr. Rice.  Well, Senator, I would take it the first step, 
that if the Iranians do not show that they're going to live up 
to their international obligations, that we refer them to the 
Security Council. That has been our policy. That--when you're 
in violation of your obligations under the NPT, that you get 
referred to the Security Council. And the IAEA has been, I 
think, documenting that the Iranians have not been serious 
about their obligations. So, at some point, that may be exactly 
where we need to go.
    We are making some progress in unifying people's view of 
what the Iranians are doing, and putting pressure on the 
Iranians. We do work with the EU 3 to try and help them 
formulate a strategy that would really hold Iran accountable, 
not just take Iran's word for it. And we've made some progress 
in getting people who engage in bilateral assistance with Iran 
to be more cognizant of some of the proliferation risk. For 
instance, the Russians, who have a civilian nuclear power 
program with Iran in their reactor at Bushehr, now say to the 
Iranians that, ``You will have to return the fuel.'' In other 
words, ``Close the fuel cycle and sign the additional 
protocol.'' Those are all positive steps. We need to continue 
to take those.
    But, Senator, the spirit of your question is that, at some 
point, Iran has to be held accountable for it's unwillingness 
to live up to its international obligations, and I could not 
agree more.
    Senator Nelson.  Hopefully, sooner, than later.
    Dr. Rice.  I could not agree more.
    The Chairman. Thank you very much, Senator Nelson.
    Senator Alexander?
    Senator Alexander.  Thank you, Mr. Chairman.
    Dr. Rice, welcome, congratulations, and thank you for being 
here today.
    I apologize to you, I missed part of the hearing because I 
was at another hearing for Mike Leavitt, who's been nominated 
to Department of HHS. But it wasn't a total loss, because we 
were talking about early-childhood education, and I was able to 
remind your new colleague in the Cabinet that you began piano 
lessons at age three, and that that is a good sign for early-
childhood education, to have that kind of example here.
    I have three questions to ask. They're all subjects that 
have come up before in one way or the other. And I thought I'd 
ask 'em all at once and then give you a chance to comment on 
them, because they're interrelated. One is about Iraq, one is 
looking beyond Iraq, and one is to return to the subject that 
you said almost every Senator had mentioned to you, Senator 
Coleman has done some work on, especially on this committee, 
and that has to do with visas of foreign students and the 
effect on our higher-education system. I want to think about 
that in a little different way.
    Question number one, about Iraq. Some colleagues have 
suggested and asked you about an exit strategy. I don't think 
we need an exit strategy. I think we need a success strategy. 
But I would suggest--and my question is this--that is--after 
the election, that we might take a more realistic, and perhaps 
a different, view of how we define success. And so, my question 
is, how many American lives? How long are we willing to take? 
How much money are we going to spend? What is the definition of 
``success'' in Iraq? It's one thing to give people their 
freedom, it's quite another to help build a stable pluralistic 
democratic society. What are the limits of that? That's the 
first question.
    The second question. This is beyond Iraq. I know your 
conversations with the President are between the two of you, 
but perhaps you can talk about this in a general way. You're 
the Secretary of State, President Bush is President, you're 
sitting around in a National Security Council meeting in a year 
or so, and someone suggests that we have a circumstance in a 
Middle-Eastern country or some other country where we need 
change a regime, we need to engage in nation-building again. 
What are--what kind of advice would you give the President 
about what lessons we've learned from Iraq and the other 
examples of nation-building that he ought to consider before he 
commits us again to one more nation-building?
    I've heard strong words today about Iraq. I wasn't here, 
but I would have voted to give the President authority to go to 
Iraq. I think he made a reasonable decision to go. The war was 
a stunning success. And, in my view, they've done a series of 
miscalculations since then. You, yourself, have used words like 
``adjustments.'' I think it's no--it's a sign of strength for 
us when we--when we look back, we see something that we could 
do better, that we recognize that, learn from that, and go 
ahead.
    So I'm asking, if we were to consider nation-building 
again--and we've done it many times since World War II--what 
are the lessons for the President? And my own view of that is 
that there is more than one way to implement the City on the 
Hill moral mission that we have in this country to spread 
freedom around the world. One way is to change a regime and try 
to make a country more like ours. Another way might be to 
celebrate our own values and strengthen ourselves, and be a 
good example, and, by doing that, to spread freedom.
    You, yourself, mentioned--and this leads me to my third 
point--the example of foreign students here. All of us, when we 
travel, we see ministers, we see citizens, business people, who 
have been in this country, and who have carried our message, 
our values, our principles back more effectively than almost 
anything we can think of. In fact, I think perhaps our most 
effective method of foreign policy has been our programs that 
have admitted so many students from around the world to the 
United States.
    But there is another aspect of that, as well. The number of 
foreign students attending our major universities, especially 
the graduate programs in our major research universities, such 
as the one where you were provost, Stanford, has dropped 
dramatically. Applications to American graduate schools 
declined 28 percent last year. Those from China fell 45 
percent. From India, 28 percent.
    There are several reasons for that. One is that India, 
China, Germany, Great Britain all are seeing a brain-drain to 
the United States. We talk a lot about outsourcing of jobs; we 
have an insourcing of brains that that drop of foreign 
students, of brain power, hurts our ability to keep our 
technological edge. And it is of great concern to me over the 
next ten years.
    So I'm not just looking at spreading our values around the 
world; I'm looking very much at our own self interest in 
another way, which is, what can we do to make certain that we 
pay more attention, for example, to making sure that students 
who are here, or researchers, who already cleared the visa 
process don't have to go home for a month to reapply for the 
same kind of visa.
    So my questions, related, are, one, what is our success 
strategy for Iraq? Number two, based on the lessons for Iraq, 
what advice would you give our President about some things he 
might want to consider, in terms of the amount of money, the 
amount of time, the amount of troops we might have to expend or 
sacrifice in any future nation-building exercise? What have we 
learned in Iraq? And, number three, what can we do to help you, 
in your new role, to make it easier for foreign students to 
come here, both so we can spread our values around the world 
and so we can take advantage of their brain power to create 
jobs for us in the United States?
    Dr. Rice.  Thank you, Senator.
    Let me take the first of this, and I'll try to segue, as 
you did so well, into the second.
    I do think that, in Iraq, you were right, what we need is a 
success strategy, not an exit strategy. And I--that's a very 
good way to talk about it. The success here is going to be that 
Iraqis are in charge of their own future, and recognize that it 
is really up to them to make that future one that is inclusive 
of all of the divisions that have bedeviled Iraq, that we have 
given them the capability to defend themselves--principally 
from internal insurgency, but also to give them the ability 
that their neighbors will understand that Iraq is a stable 
place that is a unified Iraq--one of the obligations, by the 
way, that we undertook when we decided to change the regime in 
Iraq was that we would be concerned about the territorial 
integrity of Iraq, and we have to keep that obligation--and, 
finally, that they are beginning the process toward the 
stabilization of their economy so that the economy can support 
those first two, a political process and a military--a security 
process.
    I can't give you a timeline, but I think we will know when 
the Iraqis are able to have in place institutions, no matter 
how fragile and no matter how young, where they're actually 
beginning to try and solve their own problems within those 
institutions. Now, they're not going to solve them perfectly, 
they're not, probably, going to solve them the way that we 
might, necessarily, but you see, step by step, over the last 
year or so, the Iraqis taking more and more responsibility for 
solving their own political problems. And I would take, for 
example, what has been going on with the Kurds about provincial 
elections in Kirkuk. They have been resolving that among 
themselves. That's an important political process.
    On the security side, I think it's going to be somewhat 
clearer. They may need the help of multinational forces for a 
while, but, ultimately, Iraqis have to be willing to defend, 
and fight for, their own freedom. And they are showing a desire 
to fight and defend their own freedom. We have to get them the 
capacity to do it. And I took note of what Senator Biden and 
Senator Hagel and others said this morning--Senator Kerry--
about the need to make sure we're training forces in the right 
way, that we accelerate that training. I do look forward to 
General Luck's coming back and letting us know what the next 
phase ought to be. We've faced changing circumstances here, but 
I've put a lot of emphasis and a lot of--a lot of emphasis on 
getting those security forces trained, and then, finally, 
helping them economically.
    So it isn't that we have to see an Iraq that is a fully 
democratized, mature economy, fully able to deal with all of 
its divisions. That's going to take a very, very, very long 
time. What we have to see is that they've been launched on a 
path to be able to achieve that, that that path is one that is 
clear ahead for everybody, and where they are taking advantage 
of that path. And I think we will start to see that after these 
elections. And I think they are thinking in those ways.
    Senator, I've thought, a thousand times, about how one 
thinks about nation-building, something that I famously said we 
probably wouldn't be involved in. We have been. And it's turned 
out that we've had to be, because our security depends on 
states that can function, on not having failed states in the 
midst. We learned the dangers of an Afghanistan that people 
left alone after the Soviets left, and we left it as a place 
that became a terrorist haven. We can't make that mistake 
again.
    One of the important lessons that we've learned is that the 
skills needed to help reconstruct and stabilize the country and 
put it on a path to stable nationhood are skills that we 
haven't really had to use in a very long time, maybe since 
World War II. And one of the reasons that I'm so supportive of 
this new Office of Reconstruction and Stabilization is, I think 
it starts to give the State Department a focus for those 
skills. We find ourselves trying to help people create police 
forces. We find ourselves trying to help people create 
independent judiciaries that are not going to be wracked by 
corruption. We find ourselves giving technical assistance on 
currency. We find ourselves giving people advice about how to 
start up a ministry, in many of these places. We can learn, 
from the experiences that we've had in Afghanistan and in Iraq, 
how to put those skills together in a more permanent way, and 
how to be more predictive of what might be needed in places 
that we know we're going to have to engage in this kind of 
activity.
    The office that is there now, I think, needs to look at 
what is going to be needed in Liberia, what is going to be 
needed in Sudan, and start to put together those skills now, so 
that you have a civilian counterpart to what our military often 
does in providing immediate stabilization. Otherwise, we have 
to depend on the military to do it, and that's not always the 
best answer.
    I can tell you how incredibly supportive the uniformed 
military and the Defense Department are of this idea of an 
Office of Reconstruction and Stabilization, because they want 
and understand that the State Department needs to have the kind 
of expertise that we need to do this.
    Finally, just on the visa issue, I will be coming back to 
you on exactly this. I'm, of course, an academic. I was provost 
of Stanford University. We had a large foreign student 
population. It was one of the best things for the foreign 
students, and it was one of the best things for our students, 
too, because they engaged people from other places as 
students--not as Chinese or not as Russians, but as students. 
They were all in a common enterprise. It changes the way we 
think about people, it changes the way they think about us. 
I've gone abroad so many times and sat and heard the prime 
minister describe how many universities his--American 
universities his people have come from. And you know what's 
really remarkable about it? It's not just from Stanford or 
Harvard or Yale, but it's also from universities like I went 
to, the University of Denver or Texas A&M or Nebraska or, I'm 
sure, Tennessee. And that's invaluable.
    And so, I will be coming back to you, because these numbers 
are disturbing, and we need to do something to reverse the 
trend.
    Senator Alexander.  Thank you, Mr. Chairman. I'd like to 
ask to put my entire statement in the record.
    The Chairman. It will be.

    [The prepared statement of Senator Alexander follows:]

             Prepared Statement of Senator Lamar Alexander

    President Bush has made an excellent choice in nominating Dr. 
Condoleezza Rice to be America's next Secretary of State. her 
experience as national Security Adviser will make her uniquely 
effective. When foreign leaders talk with Dr. Rice, they will know she 
is speaking with the President's voice.
    I will have a question for Dr. Rice about Iraq and one beyond Iraq.
    The major issue confronting Dr. Rice and our Nation is the war in 
Iraq. Some of my colleagues have said we need an exit strategy in Iraq. 
I disagree. We don't need an exit strategy in Iraq, we need a success 
strategy--but such a strategy may mean taking a more realistic view of 
what we mean by ``success.'' It is one thing to help people to win 
their freedom. It is another to help a country become a stable, 
pluralistic, democratic, flourishing society. How many American lives 
are we willing to sacrifice to do this? How long are we willing for it 
to take? What is our standard for ``success?''
    That leads me to the question beyond Iraq, and it is this: the next 
time the opportunity occurs for the United States to undertake regime 
change or nation building, what advice will Dr. Rice give President 
Bush about the lessons we have learned in Iraq? During his campaign for 
the Presidency in 2000, President Bush was critical of nation building. 
That was before September 11, 2001.
    Our initial war in Iraq was a stunning success. What came 
afterwards has been a series of miscalculations. But the United States 
has engaged in nation building more than a dozen times since World War 
II. Based upon those experiences, should we not have anticipated that 
nation building in Iraq should have required more troops, more money 
and taken longer than we expected? And what do these lessons say about 
our future policy toward nation building?
    American history is the story of setting noble goals and struggling 
to reach them and often falling short. We sincerely say that `` 
anything is possible'' and that ``all men are created equal'' and ``no 
child will be left behind'' even though we know down deep we will fall 
short and we will have to keep trying. We also have said we want to 
make the world safe for democracy and we remember and inaugural speech 
44 years ago in which a new President said we would ``pay any price, 
bear any burden'' for freedom. Yet there obviously is a limit to what 
we can do, and what we are willing to do and the number of lives we 
will sacrifice to secure the blessing of freedom and democracy for 
others.
    At President Reagan's funeral last June, former Senator Jack 
Danforth said the text for his homily was ``the obvious,'' Matthew 
5:14-16. ``You are the light of the world. A city built on a hill 
cannot be hid. No one after lighting a lamp puts it in a bushel basket, 
but on a lamp stand, and it gives light to all in the house. In the 
same way, let your light shine before others, so that they may see your 
good works, and give glory to your Father in heaven.''
    From our beginning, that vision of the city on a hill has helped to 
define what it means to be an American and provided America with a 
moral mission. It helps explain why we invaded Iraq, why we fought wars 
``to make the world safe for democracy,'' and why we are forever 
involving ourselves in other nations' business. It is why when I was in 
Mozambique last summer I found 800 Americans, 400 of them missionaries 
and most of the rest diplomats or aid workers.
    But is it possible that too much nation building runs the risk of 
extending too far the vision of the city on a hill? Letting a light 
shine so that others may see our good works does not necessarily mean 
that we must invade a country and change its regime and remain there 
until it begins to look like us. It may mean instead that we strive 
harder to understand and celebrate our own values of democracy, equal 
opportunity, individualism, tolerance, the rule of law, and the other 
principles that we hope will be exported to other parts of the world. 
How we ourselves live would then become our most persuasive claim to 
real leadership in a world filled with people hungry to know how to 
live their lives. For example, in my own experience, and I am sure in 
Dr. Rice's, we have found that sometimes the most effective way to 
export our values is to train foreign students at our universities who 
then return home to become leaders in their own countries.
    Of course we will never say that only some men are created equal, 
that only some children will not be left behind or that we will pay 
only some price to defend freedom. But perhaps we should think more 
about strategies for extending freedom and democracy in the world other 
than nation building and determine what those strategies are and when 
they most appropriately might be used.

    Senator Alexander.  And if I may just underscore, I just 
want to emphasize the point that, with all the discussion about 
visas, that we're not just talking about some goodwill gesture 
to the world; we're basically talking about recruiting the most 
talented people in the world, who have helped us create our 
very high standard of living so that 5 or 6 percent of the 
people in the world have 25 to 30 percent of all the money. 
That's what we're--that's one of the things we're talking about 
here. We're going to lose our capacity to do that, to some 
degree, if we don't solve this problem.
    Thank you, Mr. Chairman.
    The Chairman. Well, thank you very much, Senator Alexander.
    As you can tell, Dr. Rice, the committee is fortunate to 
have people who have served as governors of states, members of 
the Cabinet. But the visa issue was a part of our hearings last 
year. Senator Alexander played a leading role in the followup 
with a roundtable group. It's a very serious issue because of 
homeland security and other purposes. We are losing ground, and 
the committee takes it very seriously. I'm sure you do too from 
your background in Stanford and elsewhere. I appreciate his 
bringing this up, and, likewise, your reiterating the 
reconstruction idea, which could also be called nation-
building, which is so important. And the progress you're making 
there, I think is critical.
    Well, let me now call upon Senator Obama for his initial 
ten minutes of questioning.
    Senator Obama.  Thank you very much, Mr. Chairman, Members 
of the committee, Dr. Rice.
    First of all, let me say how grateful I am to have the 
opportunity to serve on this committee. I know that it has a 
wonderful reputation for bipartisanship, and that, I think, is 
partly due to the excellence of the Chairman and the Ranking 
Member, and the degree to which you both work together 
extremely closely. So I'm looking forward to my service here.
    Dr. Rice, it's wonderful to see you here, and I've been 
very impressed, obviously, with your mastery of the issues. 
Since it's the day after King's birthday, obviously 20 to 30 
years ago it's unlikely that I'd be sitting here asking you 
questions. And so, I think that's a testimony to how far we've 
come, despite how far we still have to go. And I think 
everybody, rightly, is extraordinarily impressed with your 
credentials and your experience in this field.
    I've got three areas that I'd like to explore that have 
already been touched on to some degree. I want to try to see if 
I can knock out all three of them with the time that I have 
remaining.
    The first has to do with the issue of nuclear 
proliferation, which has already been discussed. But, you know, 
I think it's important to note that, in the midst of what was 
sometimes a very divisive campaign, there was strong agreement 
between President Bush and Senator Kerry that our number-one 
priority, that our single greatest challenge, is keeping 
nuclear weapons out of the hands of terrorists. And there has 
been enormous leadership on the part of this committee--and 
Senator Lugar, in particular, working with former Senator 
Nunn--to move the process forward of securing nuclear material 
in the former Soviet Union.
    I am still concerned that less nuclear material, as I 
understand it, has been secured from the former Soviet Union in 
the two years after September 11th than the two years prior to 
September 11th. Now, it may just be that there was low-hanging 
fruit initially, and it starts getting harder as time goes by. 
But I'm also concerned by the fact that we've never fully 
funded, it appears to me, the Nunn-Lugar program. And so, I 
know that Senator Lugar is going to be presenting an amendment 
that gives your office more flexibility in this area. I'm 
hopeful that I'm going to have the opportunity to work with him 
and my colleagues on this piece of legislation.
    I guess my question is, how are you going to use this 
flexibility? Number one, are you going to be seeking full 
funding? Number two, beyond the existing mechanisms to lock 
down existing nuclear material, what else are we doing, for 
example, to make sure that Pakistan has a mechanism in place to 
assure that those nuclear weapons, or that technology, is no 
longer drifting off into the hands of hostile forces?
    Dr. Rice.  Thank you. First of all, on nuclear 
proliferation, let me just say that, broadly, our strategy has 
been really threefold. First of all, to be very concerned about 
the loopholes in the Nonproliferation treaty. The 
Nonproliferation Treaty is in trouble, because there are 
countries that have signed on to it, and then are using the 
access to civilian nuclear power to really pursue nuclear-
weapons programs. Iran is a prime example of that. The 
President has made a number of proposals--Senator Lugar has--
we've talked about this--to close the fuel cycle, to make it 
not possible for countries to enrich uranium or other fuels to 
the point that they are left with the fuel, but, rather, to get 
a fuel supply from the fuel suppliers that are out there. And 
it's a proposal that has met with some resistance, but it's 
something that we're continuing to work on.
    Clearly, we have to make the proliferation problem somewhat 
easier by not having countries, that are suspect, with access 
to the fuel supply.
    Senator Obama.  Can I interrupt, just real quickly?
    Dr. Rice.  Yes.
    Senator Obama.  Is the resistance on those reforms coming 
simply from countries that are in the midst of development, or 
are we also seeing resistance from allies, like France and 
Germany and others, that already have----
    Dr. Rice.  Yes.
    Senator Obama [continuing]. ----existing nuclear capacity?
    Dr. Rice.  Well, the resistance really is coming from 
countries that we think have no intention of trying to build a 
nuclear weapon, but who want to maintain the access to their 
entire civilian nuclear cycle. So we've had to talk with some 
countries about the fact that, yes, under the Nonproliferation 
Treaty, countries have a--have access to this, but, when you 
get a country that is cheating under that access, that maybe 
for those countries you shouldn't have the access. So this is a 
discussion--we got a one-year moratorium on enriching and 
reprocessing, and we'll try to keep pressing forward.
    Secondly, we've been very aggressive on what is a really 
bad problem, which is nuclear entrepreneurship, the kind of AQ 
Khan factor, these black-market entrepreneurs who are selling 
nuclear secrets, selling, in fact, the whole little ``kit,'' if 
you will. And the takedown of the AQ Khan network is really one 
of the most important things that we've done. It will give us 
information on how this works. We have to put this one out of 
business, and we have to work to see if there are others.
    This has all been helped by what happened Libya, where a 
country voluntarily gave up its weapons of mass destruction, in 
hopes of a better relationship with the international 
community. And we have to try and incent that kind of behavior 
on countries that have pursued weapons of mass destruction.
    And then, finally, you mentioned--oh, I should also mention 
the Proliferation Security Initiative, which, of course, helps 
us to interdict dangerous cargo. So it's a broad program. But 
the Nunn-Lugar piece of this is very important. As I've said, 
as an old Soviet specialist, I know a good bit about the 
dangers there.
    We have tended--we have tried to fund it at levels that are 
adequate to do the work at hand. And you mentioned the securing 
before 2001, and the securing afterwards. Some of that is 
exactly as you mentioned, low-hanging fruit. Some of it is that 
there's a, kind of, schedule for which sites get secured when. 
What we have done is to go to the Energy Department and ask 
them to prioritize, to try to get the most important sites 
secured in the earliest time. And the timetable has been 
collapsed to one where, if we keep to schedule, we should be 
able to secure all materials within the next four years. So 
we're making some progress.
    We need to work harder on the bureaucratic impediments to 
this. There are impediments on both sides.
    Senator Obama.  Okay, but my understanding, though, is also 
that, at the current schedule, we'd be stretching this process 
out for potentially 13 years, as opposed to four. Collapsing it 
will require a little more aggressive movement on the part of 
the State Department. And I recognize this is difficult. Russia 
may not always be entirely----
    Dr. Rice.  Right.
    Senator Obama [continuing]. ----interested in moving this 
along as quickly as possible. But it strikes me that, with the 
expertise we have on this committee, this is something we'd 
like to work on----
    Dr. Rice.  And we should certainly work on it.
    Senator Obama [continuing]. ----aggressively.
    Dr. Rice.  We do, by the way, have a collapsed schedule, 
for four years. We will see what it takes to get that done. But 
I appreciate the interest in this. This is something we should 
work very carefully on.
    Senator Obama.  The second question I have--and this is 
something that I think repeatedly comes up as I travel through 
Illinois; I suspect this is true everywhere--and that is the 
enormous strain that is being felt by our national guardsmen 
and reservists in Iraq. And, you know, I did a calculation, or 
my staff did, that I think if Illinois was a country, we'd be 
fourth or fifth in size of--as a coalition partner. I think 
that may be true, in fact, for just the National Guard, alone.
    Now, I recognize that you're not up for confirmation as 
Secretary of Defense. Presumably, at some point I'll have the 
opportunity to ask Secretary Rumsfeld about some of these 
questions. But I am concerned about this notion, that was 
pursued by Senator Biden and others, that we've made 
significant progress in training troops. Because it seems to me 
that--in your response to Senator Alexander--that we will not 
be able to get our troops out, absent the Iraqi forces being 
able to secure their own country, or at least this 
administration would not be willing to define success in the 
absence of such occurring.
    I never got quite a clear answer to Senator Biden's 
question as to how many troops, Iraqi troops--don't just have a 
uniform and aren't just drawing a paycheck, but are effective 
enough and committee enough that we would willingly have our 
own troops fighting side by side with them. The number, of 
120,000 that you gave, I suspect does not meet those fairly 
stringent criteria that Senator Biden was alluding to. And I 
just want to make sure, on the record, that you can give me 
some sense of where we're at now. You may not have all the 
answers, but I'd like to at least get a better sense of that.
    Dr. Rice.  The number that we consider trained is 120,000. 
It's a little hard to give a number in--for exactly the 
criteria that you are talking about, because a lot of this is a 
matter of what you experience when these forces actually go 
into difficulty.
    We have had--and everybody understands that we have had 
problems with people leaving, people deserting. We've had 
problems with people--well, not coming back. And we've had 
problems with, particularly, some of the police forces, who 
are, frankly, undermanned. And one of the things--or under-
supplied--we are dealing with the structure of the police 
forces by trying to go to more commando units that are more 
heavily armed for what is now contact with insurgencies, not 
just what your average beat-cop can do.
    The Iraqi forces have fought pretty well in a number of 
places. The forces that have fought best are the ones that have 
clear leadership by Iraqis. And this has caused us to focus 
more on the need for leadership, for coherent leadership for 
these forces. And I mean leadership of units, not leadership in 
the broad sense. And so, the Iraqis, themselves, are spending 
more time vetting people who--experienced leaders--who can be 
brought back these--to give structure and moral to these 
people. They're considering the policy of putting some of our 
people in as, really, almost mentors with these forces, really 
paying more attention to their capability to fight as integral 
units, not just the numbers of people that we're training. And 
I think that's going to be responsive to some of the concerns. 
And one of the points that General Luck will look at is how 
well that process is going and what more we need to do.
    But the numbers are 120,000. When they are tested, some 
perform well, and some don't. We have to recognize that this is 
a very tough environment, even for the best-trained forces.
    Senator Obama.  Ours.
    Dr. Rice.  Even for our--even for our forces. And while we 
want to accelerate the training of the forces, we don't want to 
do what we did in an earlier cycle, I think, which was to 
accelerate it to the point that we put unprepared forces on the 
field. So it's a complicated issue, but I think we're trying to 
work our way through it. We've tried to adapt to what are 
really changing circumstances and changing demands for the 
Iraqi security force personnel.
    Senator Obama.  Mr. Chairman, I know my time is up. I would 
just make this note, that if our measure is to bring our troops 
home, and success is measured by whether Iraqis can secure 
their own circumstances, and if our best troops in the world 
are having trouble controlling the situation with 150,000 or 
so, it sounds like we've got a long way to go. And I think part 
of what the American people are going to need is some 
certainty--not an absolute timetable, but a little more 
certainty than is being provided. Because, right now, it 
appears to be an entirely open-ended commitment.
    Dr. Rice.  Senator, if I may just--to that point, I want to 
be understood that we are always looking to complete the job, 
but, of course, to get our forces home as soon as possible. And 
it will be a function of our--their capability and our ability 
to help them. But there is at least some hope that Iraqis may, 
themselves, fight this fight somewhat differently and somewhat 
better, because it is their fight.
    I was asked once, why are Iraqis better in certain 
situations than even the best-trained coalition forces? And, of 
course, an Iraqi knows whether that is a Syrian or a Saudi or 
an Iraqi. They are ``of'' the country, ``of'' the culture, and 
they're fighting for their own freedom.
    And so, one of the standards of success is really that the 
Iraqis are fighting for their freedom; even if they're not 
fully able yet to secure themselves, that they are fighting for 
their freedom. And I think we are seeing very strong signs of 
that in the country.
    Senator Obama.  Thank you, Mr. Chairman.
    The Chairman. Thank you very much, Senator Obama.
    I just want to underline the Senator's point. And you have 
addressed that, in your own way, Dr. Rice. But I know that when 
Prime Minister Allawi was here, he told some of us who are 
around this table that, by the time of the election--about a 
year from now, there would be at least 200,000 people, who are 
both police force and National Guard, who would be capable, who 
could, in fact, patrol the streets, control the country. And 
then, he assured us, there will be a good election, unlike what 
we are likely to see on January the 30th.
    I'm wondering if it's not possible for us to devise, 
between you and us, some metrics that are more satisfying than 
the large spread that we have between Senator Biden's questions 
and Senator Obama's followup, 4,000 and 120,000. As you point 
out, of the 120,000, it is very difficult to determine how 
well-trained they are, how many weeks they will need, what kind 
of staying power they might have, whether they're overwhelmed. 
We appreciate that. As Allawi said, the negotiation with us as 
to how rapidly we withdraw in a seemly and secure way must 
occur. This is going to be up front with the American people 
for quite some time. And I think we can probably do better with 
the question. It's very difficult to do so in this dialogue 
because all the criteria of training and capability are not 
really clear. But I'd just ask you to think through this a 
little bit, and we will, too, creatively, maybe through 
hearings or through studies of some sort. I think some 
measurement is essential, perhaps like the way we were gauging 
the electrical power output for a while, or determining how 
much oil was in the planning to be produced. There have to be 
some indicators that give some sense of progress and hope and 
what have you.
    Dr. Rice.  Thank you, Senator.
    The Chairman. Senator Sununu? And I congratulate you on 
your co-chairmanship with Senator Biden of a very successful 
observation effort.
    Senator Sununu.  Thank you, Mr. Chairman. And I suppose 
it's largely due to the fact that you chose me, so I'm very 
grateful for that.
    Dr. Rice, in your remarks, you mentioned that the United 
States has a role to play in providing assistance to the new 
Palestinian leadership. And in our meetings last week with both 
Abu Mazen and Abu Ala, it was emphasized that, in structuring 
the Palestinian security forces, one of the biggest needs was 
money to deal with the pension issues and payment issues.
    Do you intend to recommend a financial-assistance package 
for the new Palestinian leadership to restructure their 
security forces? And is it likely that that request would be 
part of a supplemental budget early in the year?
    Dr. Rice.  Thank you, Senator. I will look with others, 
when I get to State, at precisely how we might fund the 
obligations that I'm sure we're going to have to undertake to 
help the Palestinians in this important period of time. 
Clearly, the training of the security forces is going to be 
critical. They've got to fight terrorism. They've got to have 
trained security forces to do it. It will be a good investment, 
to train those forces.
    I would just note that we have, through indirect 
assistance, through the United Nations, through non-
governmental organizations, provided a good deal of funding to 
Palestinian reconstruction, Palestinian humanitarian needs. We 
also have--the President approved the funding of $20 million in 
direct support to the Palestinians just recently to help with 
their elections. So there is a fund flow, and we will look at 
what more we need.
    I would hope that some of this would be funded by their 
Arab neighbors. I have to say that, you know, if people really 
want a peace--if the countries in the neighborhood, as they 
come and they tell me, and they come and they tell the 
President, they come and they tell the Secretary Powell all the 
time, ``We have got to have peace, you've got to work on behalf 
of the Palestinians''--then there are a number of their 
neighbors who could really afford to help fund some of these 
efforts. And I'm sure that I will be actively seeking their 
support, because that is one thing that the neighbors could do 
for the Palestinian people.
    Senator Sununu.  Well, that was my second question: What 
can the Arab states do to help? Obviously, with 45- or 50-
dollar-a-barrel oil, the economy is there, and the revenue base 
there is much stronger than it has been in past years. Is there 
any specific role that you see for the Arab states, in addition 
to financial resources? One of the issues that was raised in 
some our meetings were, perhaps, the opportunity to assist in 
the training of the security forces. And, let me be clear, 
there are two different steps to this. One is restructuring the 
security forces, which will take resources and funding, in and 
of itself, and a lot of political will. And then the second 
step would be the training of security forces. Is there a 
particular partner in the region that you think might be best 
suited to that training role?
    Dr. Rice.  Yes, I--it appears to me that both the Egyptians 
and the Jordanians will probably have a role to play. They've 
played that role before, in various ways, and we have had 
extensive conversations with them at other times about playing 
that role--at the time, for instance, of Akaba. And we would 
want to get them involved. The Egyptians, of course, also have 
a role to play in helping stabilize the Gaza as the Israeli 
forces withdraw, and we have talked with them about that.
    There are other roles that we need the Arab states to play, 
and I think the most important is--I mentioned earlier, you 
can't incite hatred against Israel and then say you want a two-
state solution. It's just got to stop. They've got to stop it 
in their media, they've got to stop it in their mosques, 
because it is a message that is inciting the people who want to 
destroy the chances for peace between Israel and Palestine--the 
Palestinian territories. So we have--we've sent that message.
    And it was probably little noticed, but when we went to 
Sharm El Sheik, the Arabs actually issued a very good 
statement, and it was on behalf of Arab states, the Arab 
League, and it was a very good statement. We will be going back 
to them to remind them of that statement and to ask them to 
live up to it.
    Senator Sununu.  In addition to the value of that 
statement, I would mention that one of the things that came up 
time and again was the impact that your visit had on the area, 
and the importance of that kind of high-level engagement. I 
know you answered some questions with regard to a special 
envoy. It's something that you have supported, in concept. But 
I would just underscore the value of that, a high-level 
engagement, whether it's through our special envoy or your 
personal commitment.
    You mentioned Egypt and Jordan. So a third question has to 
do with public diplomacy. You mentioned it in your remarks. 
It's obviously a goal that's shared by most everyone on this 
committee, to focus on public diplomacy and even to reform some 
of our efforts in that area. I believe one of the areas of 
public diplomacy that has been a success story is that of the 
American university in Beirut, the American University in 
Cairo, what they have done for both students in the region and 
American students seeking to broaden their educational base.
    I have had suggested to me the initiative of developing an 
American university in Amman, and I was curious what you 
thought of that objective, and what kind of support you might 
lend to such an effort.
    Dr. Rice.  Well, thank you. I will certainly look at it. I 
haven't taken a look at that, and I'd like to have a chance to 
do that. But I have to say that the two universities that you 
mentioned have been, really, extremely important in helping to 
create a link between the United States and these important 
countries and in providing a place for moderation in these 
societies. And so, it's certainly the kind of thing that we 
should look at.
    We have to look, overall, at what I like to call a 
conversation, not a monologue. It's one thing to get your 
message out, which is how we often think about it, but it's 
also important to engage other cultures. And I would hope that 
that includes, on the part of the United States, a commitment--
a renewed commitment to the training of people--Americans in 
critical languages, like Arabic and Farsi and other languages, 
and in the study of those cultures.
    I was a Soviet specialist and learned Russian at a time 
when a lot of us were told that was a good thing to do for the 
well-being of the country. And we linked our cultural awareness 
and linguistic awareness to the broader question of how we 
secured ourselves and how we won the war of ideas. And we have 
to do that again. There are too few of us who are able to 
engage those societies on their own terms.
    Senator Sununu.  Finally, I'd like you to talk a little bit 
about the Middle East Partnership. This is a new way of looking 
at financial assistance. It's obviously consistent with the 
goals that you spoke about in your remarks today--economic 
liberalization, political reform. Do you believe that MEPI, as 
implemented to date, has been successful? Is it a model that we 
ought to seek to reproduce elsewhere? And how do we ensure that 
an approach like MEPI and the funding commitment made through 
the Middle East Partnership isn't duplicative of efforts within 
USAID or other State Department programs?
    Dr. Rice.  On the broader question, there needs to be very 
close coordination between USAID and the State Department. And 
I think that that has gotten better. Just watching it from the 
outside--I will obviously know more as I get to the inside, but 
I really do think that Andrew Natsios and Rich Armitage and 
Colin Powell have worked very closely together to make sure 
that all our resources are going in a way that is not 
duplicative to further our goals.
    I am a supporter of MEPI. I think that it is a part of the 
concrete things that we can do to change the environment in the 
Middle East. And its focus on good governance, as well as 
liberalization of economies at the same time that assistance is 
flowing, is a very important innovation. It is also behind the 
Millennium Challenge account approach, where I think we now 
have a consensus about foreign assistance, that foreign 
assistance has to be a two-way street--that it's not just money 
going into a country, but it is--a country has to be devoted to 
fighting corruption, to liberalizing the economy, to good 
governance, to spending money on healthcare and education for 
the people--or it's not going to succeed. And that kind of 
compact between donor and donee is the wave of--the future 
wave, I believe, for foreign assistance.
    And so, we do have other initiatives that push in the same 
direction. I might just mention, also, Senator, that we hope, 
in the Middle East, to be able to take advantage of free trade 
as a tool, both to encourage peaceful liberalization between 
the countries of the region, but also with us. And so, Bob 
Zoellick has been putting free-trade agreements in place in a 
lot of places in the Middle East, and looking to the day that 
we might have a Middle East free-trade area.
    Senator Sununu.  I want to note, for the record, that was 
question number five, Jordanian free trade and, obviously, the 
initiatives in Morocco that have been undertaken. And I 
certainly encourage you to continue along that line. I think, 
in the long term, the issues that have been stressed within 
part of the Middle East Partnership--that is, economic 
liberalization and the trade liberalization that comes along 
with that--will do far more for economic growth and development 
as any short-term assistance that we might provide. That short-
term assistance is important, and especially in areas like 
restructuring the Palestinian security forces. I don't think 
that can happen in the short term without some outside 
assistance, but, in the long term, economic growth, development 
opportunity--it's really going to be determined by the 
macroeconomic policy and trade policy that are chosen by our 
partners.
    Thank you, Mr. Chairman.
    The Chairman. Thank you very much, Senator Sununu.
    Senator Martinez?
    Senator Martinez. Mr. Chairman, thank you very much. It's a 
great honor to be a part of your committee. I want to thank you 
and Ranking Member Biden for the warm welcome, and I look 
forward to working with you and the other Members.
    I'm particularly honored today to have the opportunity to 
participate in the confirmation of Dr. Rice, someone I came to 
know as a colleague and friend in our work together in the 
administration. And I can certainly recall many moments in 
which her steady leadership and her steady hand were felt, from 
those early days of our administration, when an American 
airplane was down in the--off the coast of China, to tumultuous 
days after 9/11. When good, steady leadership was needed, Dr. 
Rice was there, providing it to the President each and every 
day. And I know that, in all my interactions with her, I've 
always found her to be, not only extremely competent, but a 
person of great personal integrity, and I'm extremely proud to 
be in support of her confirmation.
    We've talked a little bit about Latin America, Dr. Rice, an 
area that's of great interest. I share, with Senator Dodd and 
Senator Nelson, the anxiety that we have about the need for us 
to be more engaged in the region. You hear it from all their 
leaders when you travel there. You also just know that it is an 
area that begs for our participation and engagement in a more 
direct way than we've had in the last several years.
    There are some signs that are troubling to me. And I know 
we've talked about Venezuela. I want to go back into Venezuela 
for a moment, because it seems to me that over the last--well, 
first of all, Venezuela is a government that, purportedly, was 
elected through a democratic process. However, anything but a 
democratic governance is what takes place there today. I'm 
troubled by the recent events, where property has been 
expropriated, inflammatory statements, as Mr. Chavez travels 
the world, that he continues to make against the United States, 
which has been a pattern of his throughout the time of his 
governance, his close relationship with another negative force 
in the region, with the Government of Cuba and Fidel Castro, 
himself. It really does raise, in my mind, some serious 
skepticism of our ability to work with him, or his commitment 
to true democracy and pluralism within his own country.
    In addition to that, we now know, recently, that Mr. Chavez 
has initiated conversations with Russia about the major 
purchase of arms. It sounds to be something in the order of $5 
billion. It would be a terribly destabilizing effect on the 
region. He's talking about purchasing MiG-29s, advanced jet 
fighters, as well as a large, large number of AK rifles and 
other military equipment. He's already purchased helicopters. 
This would create, I think, a tremendous imbalance in the 
region, in terms of the potential to trigger an arms race in a 
region that, frankly, does not need one.
    And, also, I greatly concern myself with the continuing 
friction that appears to exist--or, actually, doesn't appear; 
it, in fact, exists--between Venezuela and its neighboring 
country, Colombia. I know, in Colombia, we have tried to 
support President Uribe in his fight against the narco-
trafficker terrorists, or narco-terrorists.
    And so, my question to you would be, how do you view the 
government of President Chavez, the kind of threat that it 
represents to stability in the region, as well as to his 
neighboring Colombia, and his continuing pattern of association 
and relationship with some of the worst characters in the 
world, including Fidel Castro?
    Dr. Rice.  Thank you, Senator. I think that we have to 
view, at this point, the Government of Venezuela as a negative 
force in the region, negative in terms of its effect on its 
neighbors, as you have outlined, and negative in embracing the 
only undemocratic government in the region--as I said, the only 
place there's an empty chair in the OAS is for Cuba--negative 
in the sense of what he is doing inside of his own country to 
suppress opposition. And it's a very, very serious matter. And 
the--we can, I think, work with others to expose that and to 
say to President Chavez that this kind of behavior is really 
not acceptable in this hemisphere that is trying to make its 
way toward a stable, democratic future.
    Democracy has a lot of challenges in Latin America. It has 
challenges of new, fragile institutions that have come into 
being over the last less-than-two decades. It has the 
challenges of trying to bring economic prosperity to very poor 
populations. It has the challenge of trying to integrate into 
the political system people who have long been shut out of that 
political system, like indigenous peoples. It has a lot of 
challenges. In some places, it has the challenge of terrorism 
and narco-trafficking, like Colombia.
    But I do want to say that President Uribe has been very 
tough on narco-trafficking and terrorism, and we've supported 
him, and I think he's making some progress. It has places like 
the Andean region, which we've supported through extension of 
Andean trade preferences and through working on the Andean 
Initiative.
    We are engaging, and need to engage more, this very vital 
region. It has a lot of challenges. It has a lot of promise. 
But I would have to say that, at this point, one would have to 
judge the influence of Venezuela--Venezuela's government as 
negative. And it's too bad, because it has been a longstanding 
good relationship with the United States, and we have great 
affection for the Venezuelan people. I just think that right 
now it's a pretty negative influence.
    Senator Martinez. As it relates to Cuba, I know that the 
President put forth a very broad policy towards Cuba in May of 
this year, which included, among other things, a really strong 
outreach to the dissident community with Cuba, and providing 
encouragement and assistance so that this budding group of 
people could continue to thrive. Understanding that they 
operate under tremendous difficult circumstances, as we know, 
from the continuing human-rights suppression in Cuba and 
political prisoners, like Dr. Oscar Elias Biscet and others, 
who continue to unjustly be imprisoned.
    I wondered if you could speak to the implementation of the 
recommendations of the Commission on a Free Cuba, which, 
obviously, some of them have been already taken place, but I'm 
particularly concerned about whether there will be, within the 
State Department, someone that you will task to be a point-
person in the continuity of this and in the ensuring of the 
implementation of all of its different points, including, in 
this, the obvious need for there to be a continuing flow of 
information to the Cuban people.
    I was delighted when Ranking Member Biden mentioned that, 
when he saw Lech Walesa, the first thing he said was not 
``solidarity,'' but was ``Radio Free Europe.'' I think that 
Radio and TV Marti can have that same freeing potential for the 
people of Cuba if we can break through the jamming that 
continues to be there because of Castro's fear of his own 
people hearing just free news and information.
    So can you help me giving me some assurance that there will 
be someone to ensure the carrying out of this by having a 
point-person so assigned, and a continued commitment to Radio 
and TV Marti, and the platform that we're talking about, having 
a dedicated opportunity to pierce the jamming, by ways in 
which--we've done it recently, in ways that I think would help 
the people of Cuba to get free information.
    Dr. Rice.  Well, the information flow to Cuba is a very 
important tool for us, because Castro would like nothing better 
than to have his people shut off from information. And Radio 
Marti and TV Marti, of course, we've been very supportive. 
We've been flying commando solo. We're looking at how best to 
extend that and make certain that we can continue to do that.
    I don't know about the structure just yet, but I can assure 
you that there will be very close attention to the 
implementation of the Commission's recommendations. We've 
already made a lot of progress with our--with immigration, with 
homeland security. Castro, I think, is feeling some of that, 
where we are beginning to make it not possible for him to skim 
money off of monies that people send for humanitarian or family 
reasons or travel to fuel his dictatorial regime.
    The day that the people of Cuba are finally free is going 
to be a great one for the Western Hemisphere, and the 
Commission recommendations were intended to try and hasten that 
day and also to try and prepare the ground for a peaceful 
transition. And it's a very important goal, and you can be 
certain that we'll pay extremely close attention to it.
    Senator Martinez. You have in the past, and I know you will 
in the future.
    Dr. Rice.  Thank you.
    Senator Martinez. Shifting to the Middle East, I had the 
opportunity to travel there recently and also saw the 
Palestinian election take place. One of the great concerns that 
seems to be there as we look to a peace process is the 
continued stability in Southern Lebanon--the fact that the 
United Nations resolutions have never been implemented, Syria 
has never really left the region, the Lebanese Government has 
never really taken over the southern part of Lebanon--and it 
just continues to exacerbate the inability of Israel to not 
suffer the terrorist attacks, which then creates more 
instability in the region.
    Do you think that there will be an opportunity for us to 
more forcefully assert the need for that resolution to be 
observed by Syria and Lebanon?
    Dr. Rice.  Absolutely, Senator. The Resolution 1546, which 
we and the French cosponsored to put the Syrians on notice that 
the world expected them to observe the legitimate sovereignty 
of Lebanon, to begin to remove their forces, to stop terrorism 
from there, I think, was a very important achievement. 
Secretary General Annan has appointed someone to keep on top of 
the implementation of that resolution. And that's also very 
important.
    Lebanon can be one of the democratic strongholds in the 
Middle East. And so, we need to pay attention to what is going 
on in Lebanon.
    And if I just may say one line about Syria, as well, I 
think that it's fair to say that the Syrian Government is 
behaving in a way that could, unfortunately, lead to long-term 
bad relations with the United States. It is incumbent on Syria 
to respond, finally, to the entreaties of the United States and 
others about their ties to terrorism, about the harmful 
activities that are taking place from Syrian territory into 
Iraq, and to act on a number of the steps that were first 
outlined to them by Secretary Powell almost three years ago, 
and then by Deputy Secretary Armitage just very recently. And 
so, this is an important issue with Syria, and I just want to 
thank the Congress. We do have, thanks to the Syrian 
Accountability Act, some tools, but we will have to mobilize 
them, because Syria should not be, but is, thus far, not a 
constructive force.
    Senator Martinez. Thank you.
    The Chairman. Thank you very much, Senator Martinez.
    At this point, I want to have a little discussion. I will 
not let this become a full-scale debate. But I want to survey 
what is possible with the committee this afternoon in the 
hearing. And so, I'm going to ask each Member who is assembled 
for some estimate of how many minutes the Member would require 
in raising additional questions. And we'll try to total that up 
and come to some idea, then, of whether we might complete our 
work this afternoon and, in fact, have a vote on confirmation. 
Or, if that is not in the cards, we will proceed in regular 
order so that Members will have the opportunity to ask the 
questions that we promised everyone they could ask.
    Dr. Rice.  And, Senator, I'm willing to stay here longer 
than the afternoon, if you need me to be.
    The Chairman. Well, you may be more prepared than all of 
our Members. But, nevertheless, we'll not debate that, either, 
in terms of eagerness.
    But let me just ask. Senator Hagel, do you need more time?
    Senator Hagel.  Ten minutes.
    The Chairman. About ten minutes.
    Senator Chafee?
    Senator Chafee.  Probably five.
    The Chairman. All right.
    Senator Coleman?
    Senator Coleman.  Maybe five, but I'd forego my five if we 
came to some consensus that we could vote this afternoon.
    The Chairman. I see. Flexible, okay.
    Senator Voinovich?
    Senator Voinovich.  Ten.
    The Chairman. All right.
    Senator Martinez?
    Senator Martinez. Sir, I'm awfully new, I need to be very 
flexible.
    The Chairman. All right. Well, I read that somewhere 
between 30 and 40 minutes--plus or minus a few.
    Senator Biden?
    Senator Biden.  I have at least ten minutes.
    The Chairman. Senator Sarbanes?
    Senator Sarbanes.  Another round.
    The Chairman. All right.
    Senator Dodd?
    Senator Dodd.  The same, 10 or 15 minutes.
    The Chairman. All right.
    Mr. Feingold?
    Senator Feingold.  Ten minutes.
    The Chairman. Senator Boxer?
    Senator Boxer.  About two rounds.
    The Chairman. About two hours?
    Senator Boxer.  Two rounds.
    The Chairman. Two rounds, all right.
    Senator Boxer.  I don't want two hours.
    The Chairman. All right. Very good.
    Senator Obama?
    Senator Obama.  That sounds better than 20 minutes.
    The Chairman. All right. Well, that would be at least 70 
minutes or so, it looks like.
    And, Senator Murkowski, how many more minutes would you 
like to question the witness?
    Senator Murkowski.  I think it can be done in ten.
    The Chairman. Another ten, all right.
    Well, it appears probably we have at least two hours of 
work ahead of us, maybe more. And let me just mention, the 
distinguished Ranking Member, because of an important 
commitment, will need to leave at about 6:00 o'clock or 
thereabouts.
    Senator Biden.  Mr. Chairman, I do have a longstanding 
commitment at 6:00. I assumed we'd go two days. But I want to 
make it clear, if, in fact, the committee has exhausted its 
questions in the time frame of 6:00 or 7:00 o'clock, I would 
leave my proxy with my colleague, if you would be still here, 
or with you, to vote my proxy. I have no objection to 
proceeding, assuming every Member is satisfied they've had 
their questions answered. And I'm sure the witness would be 
delighted to not have to be back tomorrow, although we enjoy 
her company greatly and expect her back many times.
    Dr. Rice.  Many times.
    Senator Biden.  So I have no objection, as long as the 
Chairman understands, my constraint is at about ten minutes of 
6:00. I'm going to have to leave for a longstanding commitment.
    Senator Dodd.  Mr. Chairman, if I might just--I think what 
you're doing to do is a wise thing, to proceed in this way, but 
let's--I would hope, because, in terms of the nominee's 
responses and so forth, you may find Members needing more time 
than they've indicated to you here----
    The Chairman. Could be.
    Senator Dodd  [continuing]. ----in good faith. It would be 
improper for us to assume that you might be able to say there 
are two hours left, and we'd be, sort of, failing in our 
commitments to you if we discovered that we needed more time to 
pursue some issues maybe a little more aggressively.
    The Chairman. I understand that. And the Chair will not be 
unreasonable in keeping the hearing going forever. We'll try to 
gauge what is doable. Now, if, at some point it appears that 
we're still raising good questions, but we're not going to 
conclude, then I would ask for Members' cooperation to come 
back tomorrow morning at 9:00 o'clock again. And, hopefully, 
under those circumstances, perhaps to have a vote on the 
nomination before noon so that we would then compact our 
efforts, perhaps, and thus leave afternoons available for the 
nominee and for ourselves.
    But if that doesn't work, why, we've reserved the 
afternoon, also. One option or another probably will work out, 
and that's why I just took the time to gauge your preferences 
at this juncture. We've had wonderful attendance. As you've 
noticed, Dr. Rice, all 18 Members have been present and have 
all taken at least ten minutes, some a few more--as the case 
may be.
    There is deep interest in this, as is evidenced by the 
attendees at the hearing who have come to hear you. And we've 
had standing-room only throughout the hearings. You cannot see 
this from where you are sitting, but I can testify to this.
    Well, we'll proceed now. We'll set a ten-minute round. 
Members need not use all ten minutes if they are disposed to 
stop short of that.
    Let me begin by saying, Dr. Rice, that I submitted a 
question to you, and I appreciated your response, endorsing my 
initiative for an institute on the free press at the National 
Endowment for Democracy. Given both public and private sectors 
working together, the National Endowment seemed to me to be a 
good framework for this. We can make some headway on the public 
diplomacy initiatives that you have expressed today, and enlist 
both parties, Republicans and Democrats, through the 
International Republican Institute and the National Democratic 
Institute, and others who are affiliated. I'll not take time to 
question you, but I just wanted to note that I appreciated, 
very much, that endorsement. I mention it because of your 
strong advocacy, today, of public diplomacy, the need for us to 
get our message out.
    Dr. Rice.  Thank you, Senator.
    The Chairman. Let me ask about Ukraine. We have had a 
dramatic chain of events, and they are, by no means, at 
conclusion. The story evolves there. But it is clear that 
President Yushchenko will have numerous hurdles in front of 
him. It would be helpful, in my judgment, if we could have the 
administration's support of legislation repealing Jackson-Vanik 
restrictions for Ukraine. Do you have an opinion on----
    Dr. Rice.  We would----
    The Chairman [continuing]. ----that initiative?
    Dr. Rice [continuing]. ----we support the repeal of those--
--
    The Chairman. For Ukraine.
    Dr. Rice [continuing]. ----For Ukraine, at the time that 
it's appropriate, yes.
    The Chairman. Well, I appreciate that. And you may be able 
to help us determine, in the timetable, when it is appropriate, 
and to work with us on that legislation so that there will not 
be hitches or misunderstandings with the government that we are 
trying to assist there.
    Senator Biden has indicated an appropriate and timely call 
from our former colleague Senator Danforth, our ambassador to 
the United Nations, with regard to Sudan. And I had the 
privilege of visiting with him in the last few days, over the 
telephone, on specific issues that are now before us. Despite 
peace between the north and the south, there is, in fact, the 
need, still, for peacekeepers--African troops, essentially. 
About $250 million, he estimated, would be required to pay for 
that peacekeeping effort by these troops, in addition to a 
commitment he feels that we have made as part of the carrots of 
the carrots-and-stick business, of about $500 million in 
development aid to the Government of Sudan. Now, Senator 
Danforth was concerned about both sums, the 250 million and the 
500 million, and the incorporation by the Department of this in 
our foreign assistance budget--or wherever it may be 
appropriate, perhaps in the Defense budget. Have you given 
thought to how we are going to meet the Sudan commitments?
    Dr. Rice.  Senator, I need to look at precisely how we will 
meet the commitments. We have been aware of the commitments 
that we have, and we will do it through some combination of 
funding accounts.
    As to the peacekeepers, I think our goal, right now, is to 
convince the Sudan Government that the AU needs to have the 
full 3,300 complement, not just 1,100. And we're working very 
hard on that. But we recognize the commitments that we've made 
on----
    The Chairman. So they still need to be convinced that they 
need 3300 peacekeepers.
    Dr. Rice [continuing]. ----Right. That's right.
    The Chairman. Oh, well, that's a very----
    Dr. Rice.  That's a problem.
    The Chairman [continuing]. ----important factor. But it's 
still important that we succeed, I think, in having an 
appropriate amount, not only to gel together the success thus 
far, but, obviously, because Darfur is still in some jeopardy, 
as Senator Danforth has told this committee, with a lot of 
guilt on all sides, in that situation.
    Of course, sadly enough, he also, I'm sure, informed 
Senator Biden, as he did me, that he will be leaving his post 
today.
    Dr. Rice.  Yes.
    The Chairman. And so, once again we have a very important 
diplomatic assignment that requires a nominee. I would just 
request that you work closely with colleagues in the White 
House and with the President to forward a nominee quickly, 
because, as we went through this progression with Ambassador 
Negroponte's nomination, the committee moved very rapidly to 
hold a hearing almost before the Ambassador might have been 
prepared for it, as well as the Department, considering all of 
the paperwork that needs to be done. At this particular crucial 
time, an ambassador to the U.N. from the United States is so 
important. So I know that that's on your mind, but I----
    Dr. Rice.  Yes, it is.
    The Chairman [continuing]. ----just wanted to take the 
occasion of the hearing to underline it.
    Dr. Rice.  Thank you.
    The Chairman. I wanted to mention, in Venezuela, as others 
have already, that we do have a very, very heavy oil traffic 
with Venezuela that's mutually beneficial. However, given all 
the difficulties and vagaries of the situation, I just simply 
want to ask, Is there a contingency plan, in the event of 
another suspension of oil exports from Venezuela? Because even 
the hint of this, or of labor difficulties in Venezuela, causes 
spikes in the oil futures markets. These bring speculation and 
higher gas prices for Americans, all over. They see us, as 
constituents, and ask, ``What are you going to do about it?''
    Nigeria sometimes is responsible, quite apart from the 
Middle East and the normal suspects. But, with Venezuela, do we 
have, really, some contingency plan of what to do with this 13 
percent of the oil that we require?
    Dr. Rice.  Well, we're certainly hoping that the Government 
of Venezuela realizes, as you said, the mutual beneficial 
nature of this. I think that it was Senator Nelson who 
mentioned the fact that some 80 percent of Venezuelan exports 
are actually--in oil--are actually to us. So it is mutually 
beneficial. Obviously, we have to prepare for disruption. 
That's why we have a strategic petroleum reserve. And the long-
term goal, of course, is to have an energy policy that lessens 
our----
    The Chairman. Yes.
    Dr. Rice [continuing]. ----dependence on foreign supplies. 
But it would be--I would hope that the Venezuelan government, 
whatever our differences and difficulties with, understand that 
this is, economically, a mutually beneficial relationship.
    The Chairman. Well, as you take hold, would you just take 
under advisement the need for a more explicit plan, and 
perhaps, through the appropriate departments in the Department 
of State, work with the subordinates that you will have? 
Because it just seems to me that something here is going to be 
required, beyond the hope, eventually, for an energy plan or 
the various contingencies that we have thus far.
    I just wanted to touch on Iran briefly to indicate that 
there has been enormous commentary, not only from the press, 
but among academics, about the extent of our participation with 
the Europeans in negotiations with Iran or with the IAEA. And 
from time to time, it appears that the Europeans, or Ambassador 
Baradei, negotiate various things, and then we make an 
editorial comment about it, but are not exactly around the 
table are not lifting in the same way.
    Are you examining what our role ought to be in these 
ongoing negotiations so that, in fact, they will be more 
successful, so that they will have greater staying power, and 
the Europeans, as well as the U.N., will have greater 
confidence that our heft is behind this situation?
    Dr. Rice.  Well, we're certainly working very closely with 
the Europeans. And, with the IAEA, we're full participants, as 
members of the board, in the processes that the IAEA is going 
through.
    Obviously, we need to keep reviewing this situation, but I 
think that we believe, at this point, that there is a path 
ahead. If the Europeans are unable to get satisfactory 
understanding with the Iranians about their international 
obligations, I think we have to go back and look at the process 
that was prescribed, which is that this would go to the 
Security Council, and we would go from there.
    Nobody is saying that there have to be sanctions right 
away, or anything of the sort, but we are saying that Iran has 
to be held to account for its international obligations.
    The Chairman. Well, indeed, that has been our policy. I, 
once again, am hopeful--and I see an opportunity with the 
Europeans here, as we begin to meld together strategies for the 
future in the Middle East--some possibilities for more 
cooperation, for more mutual assistance in this process, in 
addition to, as you say, our thought that responsibility means 
that they've got to do this or that, or face the U.N. 
Ultimately, they might face the Security Council, and not much 
might come of it. I think you understand better than any of us 
the importance of the negotiations. I've just seized, once 
again, on some possibilities of working with Great Britain, 
with France, with others who have been doing more heavy-lifting 
here.
    Dr. Rice.  Thank you.
    The Chairman. Now, finally, in May, the Nonproliferation 
Treaty Review Conference is going to take place in New York. 
May is at least four months away, but what sort of preparations 
is the administration making for that conference? What sort of 
objectives will we have at that point?
    Dr. Rice.  Well, we will try, at that conference, to work 
with others to try and address some of the loopholes that are 
there in the NPT. And I think the big one, of course, is this 
issue of civilian nuclear-use being used to cover----
    The Chairman. The loop that----
    Dr. Rice [continuing]. ----nuclear programs----
    The Chairman [continuing]. ----you mentioned earlier.
    Dr. Rice [continuing]. ----this fuel cycle----
    The Chairman. Yes.
    Dr. Rice [continuing]. ----loop. And we have some 
proposals. We're working--there's a proposal for a special 
committee on compliance, which I think is a good proposal, and 
we probably can work that out. But the NPT needs some repair. 
And we will try and press this agenda at the conference.
    I have to say that the leadership of the IAEA has also been 
interested, when I've talked to Mr. El Baradei about this, in 
trying to pursue some of these problems, too, because they know 
that, without a sound NPT, there's--we really are--we have one 
hand tied behind our backs.
    The Chairman. Thank you.
    Senator Biden?
    Senator Biden.  Thank you very much.
    Dr. Rice, I'm going to ask several questions, and we can 
both get right to it. It'll keep me from a second round, maybe 
an incentive.
    First of all, I'd like to ask you briefly about Iraq. In my 
last trip to Iraq, I was surprised at how frequently--and I'm 
not exaggerating, my colleagues may have found the same thing, 
I think they did--how many people asked us, including our own 
military, ``Are we staying''--how many times I heard the 
question, from Iraqis as well as our own military, ``Are we 
staying, or is the administration's exit strategy an election? 
At the end of January, Allawi, whomever is elected, turns and 
says, `We want you out,' and we leave; we declare that Saddam 
has been defeated, we have eliminated weapons of mass 
destruction, or there are none there to begin with, and we've 
done our job, and we leave.''
    Can you tell this committee whether or not it's the 
administration's position to see through the process until the 
election that's due at the end of 2005?
    Dr. Rice.  Well, it is certainly this administration's 
intention to see that process through. I think what that means 
for our force levels, we will have to see, as we've been 
talking about, Iraqi forces. There's no doubt that we believe 
strongly that they're on a path here, and we have to help them 
through that path.
    Senator Biden.  Do you see any possibility--now, everything 
is possible--do you see any reasonable possibility that the 
United States would withdraw the bulk of its forces before the 
end of 2005?
    Dr. Rice.  I can't judge that, Senator Biden, but I will 
say that we're going to try to help the Iraqis get this done. 
And what force levels we need to get it done, we'll just have 
to keep to get it done.
    Senator Biden.  Well, I think it would be a useful thing, 
upon consideration, once you're sworn in, for somebody to tell 
the American people what to expect, so they have some sense of 
an honest assessment of what is likely. Every single military 
person I have spoken with in my trips to Iraq says we need a 
minimum of 150,000 troops, at least for the next year and 
possibly beyond that, that there's no reasonable possibility, 
no matter how well we train Iraqis, that we would be able to 
draw down in any significant way. Some are talking about 
drawing down the 12,000 we put in for the election.
    And so, I hope that there will be an attempt on the part of 
the President to try to just give his best judgment to the 
American people of what is expected of them, because I think 
they're prepared to do anything that's asked of them, but I 
don't think they're prepared to continue not to know, not to 
have some honest sense of what may be expected of them. Because 
I expect you're going to have to come back for tens of billions 
of dollars this year, and I know we'll go through the game of 
not--I know Iraq's not part of our budget; it's that magic 
thing that we never know--having any idea what we're going to 
spend, even though we know exactly how much it costs to 
maintain X number of troops in Iraq. It's just fascinating. 
It's like Democrats talking about revenue enhancements. 
Republicans talking about Iraq is up there in the sky somewhere 
and we don't have to include it in the budget, like the Lord 
Almighty may come down and pluck it from the Earth and drop it 
on Mars. But I just think we need a little more candor. I hope 
you'll focus on that a little bit.
    Iran. Seymour Hersch wrote, in The New Yorker, that the, 
quote, ``Hawks in the Pentagon, in private discussions, have 
been urging a limited attack on Iran because they believe it 
could lead to a toppling of the religious leadership,'' end of 
quote.
    I'm not asking you about whether there's any discussion 
about an attack, but do you believe that it is possible to 
``topple,'' quote, the religious leadership in Iran? And--by 
any short-term military action--is that a goal--not 
militarily--is it a goal of the United States to change the 
regime in Iran?
    Dr. Rice.  The goal of the administration is to have a 
regime in Iran that is responsive to concerns that we have 
about Iran's policies, which are 180 degrees antithetical to 
our own interests at this point. That means that the--a regime, 
``the'' regime, would have to deal with its nuclear-weapons 
obligations, deal with the fact that there are al Qaeda leaders 
who have been there, deal with the fact that they're supporting 
Hezbollah and terrorism against--and Palestinian rejectionists 
against the Middle East peace process. That's what we're 
seeking.
    I do want to say that the Iranian people, who are among 
some of the most worldly, in a good sense, that we know, do 
suffer under a regime that has been completely unwilling to 
deal with their aspirations, and that has an appalling human-
rights record----
    Senator Biden.  One of the things that--if I can stick on 
the nuclear side of this equation for a minute, one of the 
things that I've found--I may be mistaken, but I think Senator 
Hagel also might have found, there were a lot of feelers coming 
out, we talked to you about it in detail, from the Modulists 
and members who were viewed as at least modern and not 
clerical, not necessarily pro-Western--was, I didn't find a lot 
of distinction between quote, ``Iranian democrats,'' with a 
small ``d,'' and the Ayatollas on the issue of whether Iran, 
quote, ``was entitled to be a nuclear power.''
    The arguments I would get would be--even from people we 
would not consider hardliners--was that, ``We're in a dangerous 
neighborhood. We believe Israel has nuclear weapons, Russia has 
nuclear weapons, Pakistan has nuclear weapons, India has 
nuclear weapons, others are seeking nuclear weapons. Why are we 
not entitled to nuclear weapons? And there's no umbrella or 
guarantee coming from any nuclear power for us.''
    Do you think, if there was a regime change--that is, assume 
that the reform movement had been successful, assume that 
instead of toppling those elected officials in genuinely held 
democratic elections, assume that instead of them being thrown 
out, assume that they had prevailed and the religious 
leadership had been defeated, politically, in Iran. Do you 
think Iran would forego its nuclear aspirations?
    Dr. Rice.  Well, it's hard to--I really don't want to 
speculate. I think it's the kind of thing that we've--we don't 
know. I do think that we're sending a message--the world is 
sending a message to Iran that Iran cannot be a legitimate 
participant in international--the international system, 
international politics, and pursue a nuclear weapon. And I 
would hope that that would have an effect on----
    Senator Biden.  Well, we did----
    Dr. Rice [continuing]. ----whatever regime there is in----
    Senator Biden [continuing]. ----that, and----
    Dr. Rice [continuing]. ----Iran.
    Senator Biden [continuing]. ----and you did it very 
successfully, along with our European friends, who had 
initiated it, with regard to Qaddafi. But, as I said earlier, 
there were significant carrots in the Qaddafi, quote, ``deal.'' 
And I fully supported what you did, and I think it was a great 
success.
    Now, the EU 3, the European community, has approached this 
in a slightly different way than we have, with a slightly 
different emphasis. And I asked you about that in my questions 
to you, written ahead of time, and you said, in answer to the 
question about our participation with the EU 3, you said, among 
other things, ``The United States Government is not a party to 
the EU 3's ongoing dialogue with Iran. We believe that 
additional bilateral and multilateral pressure, including 
reporting Iran's noncompliance to the U.N. Security Council, 
will be required to persuade Iran's leadership to end its 
sensitive nuclear fuel cycle pursuits. We will continue to 
consult with our friends and allies toward this end.''
    Now, my question is, why do you think it is not--or is it 
that we are not welcome, or is it not profitable to be actually 
engaged with the EU 3 as they proceed now? Because the 
likelihood of the U.N. Security Council--maybe you have more 
faith in the U.N. Security Council than I do--but the 
likelihood of them concluding that Iran is in noncompliance and 
imposing broad sanctions--we're already sanctioning the heck 
out of them--I wouldn't want to bet anything on that.
    So I'm confused. Why are we not prepared to engage in the 
process and talk about what carrots we may be willing to offer 
in return for a cessation of their nuclear program and their 
missile program? Is there some philosophic reason for that, or 
is it a practical reason or what's the reason?
    Dr. Rice.  Well, we do have a number of other problems with 
Iran, not just the nuclear problem. And I think that the future 
of Iranian relations--U.S./Iranian relations--rests, not only 
on the nuclear issue, but at other--a number of other issues, 
too--terrorism, our past--their human-rights record.
    The way that we've chosen to do this is that Europeans work 
very closely with us, and they--we are trying to see if, 
indeed, the process that they're engaged in is going to bear 
any fruit.
    Senator Biden.  I understand that. And I think you've given 
me a straightforward answer, and I want to make sure I don't 
misunderstand you. When I talk to our European friends, who are 
the three, their foreign ministers and/or their 
parliamentarians who are engaged in this, what they say to me 
is essentially what you just said. I think the Europeans would 
be willing to cut a deal with the Iranians now, relating to 
economic help, if there was a verifiable foreswearing of 
production of nuclear weapons and a missile program. But the 
truth is--and I'm not being critical, I just want to make sure 
I understand it--even if they did that, as long as they were 
continuing to support Hezbollah, as long as they were exporting 
the efforts to destabilize Israel, and as long as they were 
engaged in human-rights abuses, then the administration's 
position would be--even if the Lord Almighty came down and 
said, ``We guarantee you we can verify this, guarantee we can 
verify a compliance with no nuclear weapons and no missile 
technology,''--we still wouldn't go for that deal, would we?
    Dr. Rice.  Well, I think we would have to say that the 
relationship with Iran has more components than the nuclear 
side, but let's see how far the Europeans get, and----
    Senator Biden.  Well----
    Dr. Rice [continuing]. ----take a look at----
    Senator Biden [continuing]. ----I appreciate----
    Dr. Rice [continuing]. ----where we are.
    Senator Biden [continuing]. ----that. I would just suggest 
that we have a real relationship with China, and their human-
rights abuses are terrible. The watch group looking at Russia 
has now put Russia in the category--I can't find the exact 
quote, my staff has it--of being non-democratic. We continue to 
have a relationship with them. And my worry is--I'll be very 
blunt with you, with regard to both Iran and Korea--is that I'm 
not sure we're ready to take yes for an answer. I don't know 
whether they would go forward. But I do believe one thing 
firmly, that there is no possibility of any fundamental change 
in the nuclear program in Korea or Iran, absent the United 
States actively, deeply engaged in the negotiation. We're the 
800-pound gorilla. We're the outfit, they want to know where 
they are, where we are. And it concerns me that we say the 
single most dangerous thing--as my friend from Illinois said--
and that both candidates agree, the most single-most dangerous 
thing in the world is the spread of nuclear weapons and their 
possible access by the bad guys beyond the nation-states.
    We seem to be able to delineate when we deal with Russia. 
We seem to be able to delineate when we deal with China. I 
would argue the human-rights abuses in China are not 
fundamentally different than human-rights abuses in Iran. By 
the way, it was Freedom House who categorized--I know you guys 
know this, I couldn't remember the outfit--that now labels 
Russia as, quote, ``not free.''
    As my grandpop used to say, the horse may not be able to 
carry the sleigh that you all are insisting on, but at any 
rate, thank you very much.
    The Chairman. Thank you, Senator Biden.
    Senator Hagel?
    Senator Hagel.  Mr. Chairman, thank you.
    Dr. Rice, can you share with us what diplomatic initiatives 
President Bush will be carrying to Europe next month?
    Dr. Rice.  Well, we are working, currently--and, indeed, 
discussing--with our European allies how we might structure 
this very important trip. I think what we want to do, and what 
the President wants to do, is to unite this important alliance 
behind the kind of great goals that we all have. And there is a 
calendar that permits some potential movement on the Middle 
East. We can hope for that. For instance, there's a conference 
in London on March 1st that Prime Minister Blair is hosting. 
And that should, therefore, provide an area where, in the runup 
to that, which the President's trip will be, we can have a 
discussion about how we move forward on Middle East peace. I 
think we will want to have a discussion about how we move 
forward on Iraq in the wake of elections. Elections will have 
just been held. What are the tasks? Who's going to play what 
role? What, with a new government in place, we can do to 
support that government. I would hope we would also look for 
concrete movement on the broader Middle East agenda.
    The Forum for the Future was a great success, but we need 
to keep moving that forum forward so that it doesn't just 
become a place where we get together, kind of, every six months 
and talk.
    I would characterize it this way, Senator Hagel, that what 
we'll try to do is to focus--and when I talk to my friends in 
the Transatlantic Alliance, they agree with this--focus the 
Transatlantic Alliance on what we're going to do together. 
We've spent a lot of time talking about ``the'' Transatlantic 
Alliance. We've actually spent a good deal of time transforming 
some of its elements, like the changes that we've made to an 
expanded NATO, over time, giving it a rapid-reaction force, and 
so forth. But it's now time to put this great alliance to work 
in the service of the great causes that we have ahead of us. 
And I think that's really the agenda, is to enlist, unite, 
discuss how we move ahead together on what is really, kind of, 
the agenda of our time.
    Senator Hagel.  Might that agenda include climate change?
    Dr. Rice.  We will certainly be in discussions with the--
with our allies on this issue, because Prime Minister Blair has 
made it a discussion issue for Gleneagles in the G8. And so, we 
will want to work with them. I don't know how much will be done 
on this trip, but this is in--a set of discussions we've 
already begun to have. I know of your interest in this, 
Senator, and perhaps we can talk more about it.
    There are technological initiatives that we have with a 
number of countries in the world. There is a Methane Emissions 
Initiative that we have with a number of countries in the 
world. What we, in the developing--developed world need to 
realize is that we need to have an approach to this that is 
growth, energy, and environment, because we're going to have to 
bring onboard the large developing states, like China and 
India, if we're going to be able to approach the issues of 
climate change.
    So it will certainly be an--a subject for discussion, and 
eventually an initiative. Whether, on this trip or later, as we 
prepare for Gleneagles, I think we'll have to see.
    Senator Hagel.  Well, I--as you know, and you mentioned 
when you and I had an opportunity to visit a little bit, I told 
you that I was going to introduce comprehensive climate-change 
legislation. I've been working with Chairman Lugar and others 
over the last few months on this. And I also, as you know, met 
with Prime Minister Blair last month, in London, on this. So I 
would hope, especially in light of what Senator Murkowski 
noted, and others, this morning, that this would get some 
attention, because I do think climate change is one of those 
areas where it's value-added for relationships, especially 
diplomacy. And so diplomacy, and some efforts--and I hear that, 
incidentally, from many from of our friends around the world. 
So thank you.
    Dr. Rice.  Thank you, Senator. And I will work you. I know 
we're spending $5 billion on this issue. And so, I think----
    Senator Hagel.  I know it.
    Dr. Rice [continuing]. ----we have something to bring to 
the table.
    Senator Hagel.  No--well, the record is actually very, very 
positive. It's just that we have not explained it very well.
    Dr. Rice.  I agree with you there.
    Senator Hagel.  And I think we have an opportunity to do 
that.
    Speaking of explaining records, we spent some time this 
morning on public diplomacy. You thoroughly noted how important 
it is to you and your efforts, in your statement this morning, 
as well as in our private conversations. Can you share with 
this committee any new initiatives that you are thinking about 
in the area of public diplomacy at the State Department?
    Dr. Rice.  Well, I would like to do a couple of things. 
First of all, I have to get there and look at the structure. 
There have been a number of studies of what to do about the 
structure. I've had the chance to talk to Ed Djerejian, I've 
had a chance to talk to Davie Abshire, I'm going to talk to 
others who have been a part of these studies, because we need 
to look at how the--Washington works with the field. As I said, 
public diplomacy's done in Amman, not in Washington. And so, 
we're going to look at that set of issues.
    I think we will need to--we have some very effective 
cultural and educational exchange programs. I think we need to 
look at how we leverage those, move those forward. Are we doing 
enough, particularly in the Muslim world and in places like 
Indonesia and countries that we have, unfortunately, been not 
very active in recent years? What more can we do? And so, I 
would hope to have some initiatives on that score, too.
    So both structure and through initiatives, I would hope to 
make a very early push to demonstrate that--we have fine 
professionals in this field. I'm quite certain of it. But this 
is something that we once really knew how to do, during the 
Cold War. We somehow lost our ability to do it as effectively 
as we once did. And we broke up a lot of the apparatus when we 
thought we--the end of history had come. And now we are going 
to have to look at what we need to reestablish in order to be 
able to do the job. And, again, I think this is an area where I 
would hope to have considerable input from Members of the 
committee.
    Senator Hagel.  Well, I think you will not have to ask 
twice on that. You've received some indication of this 
committee's interest. And I think, under Chairman Lugar and 
Senator Biden's leadership, it has been a high priority over 
the last few years, and it needs to be revisited. And I think 
the entire committee is very pleased that you have put this on 
your list, on your agenda, as a high priority.
    United Nations. It was mentioned here earlier during our 
hearing, but, in particular, what types of reform, at the 
United Nations, would you be looking for and will you help 
lead?
    Dr. Rice.  Well, we are digesting the High-level Panel 
Report, at this point. And we're going to put a lot of 
attention on consultations with countries around the world 
about that report. It's something that I've discussed with Kofi 
Annan, and that he's asked of us to make an effort.
    Obviously, there are two kinds of reforms, simply those 
that will make the U.N. work better, in terms of management--
and we've long had an interest in those. I think we need to 
pursue them. We also, obviously, want the U.N. to have the 
kinds of structure and tools that it needs to face the threats 
and the opportunities of the 21st century.
    And I know there's a lot of discussion of Security Council 
reform. I don't think we have any particular perceived wisdom 
right now on how to do that, except to say that there needs to 
be a look at where we are, in terms of the representation in 
the U.N. bodies of countries that are contributing a lot.
    Even outside of the United Nations, there are a number of 
rising influential democracies, like India and Brazil and South 
Africa, that we just need to be working more with on all kinds 
of issues. And I hope that we can pursue that at the same time 
that we look at what the structure of the U.N. may look like.
    Senator Hagel.  Thank you.
    There has been considerable discussion today about 
proliferation of weapons of mass destruction; in particular, 
nuclear proliferation. Little conversation, so far, about 
bioterrorism. Do you think it would be in our interest to 
initiate an effort to develop some kind of an international 
model--using CDC, Centers for Disease Control, as an example--
where all nations could, in some way, work together through 
that international body, which--not unlike some of the 
nonproliferation treaty efforts, although we're seeing, I 
think, necessary refinements, and probably reforms, in that, if 
that can happen. But if you would speak to that kind of an 
idea, about maybe a CDC international model for bioterrorism.
    Dr. Rice.  It's a very interesting idea, Senator. We should 
definitely explore it. Homeland Security people have had some 
discussions with their counterparts around the world about the 
bioterrorism threats, because it's obviously one of those 
threats that could be quite borderless and quite stateless. And 
so, we have had some discussions of that. But a more 
concentrated international effort that deals with all of the 
elements of bioterrorism detection, prophylactic efforts that 
might be undertaken, and then, heaven forbid, consequence 
management, I think this is something that should be put on the 
international agenda, and we'll look at various ways to do 
that.
    Senator Hagel.  Thank you.
    Mr. Chairman, thank you.
    The Chairman. Thank you very much, Senator Hagel.
    Senator Sarbanes?
    Senator Sarbanes.  Thank you very much, Mr. Chairman.
    Dr. Rice, I'm going to run through a series of questions, 
and maybe we can move very quickly, and then I want to come 
back to the economic questions, as well.
    First of all, if you were Secretary of State, how much 
discretion or authority would you have in filling positions 
within the State Department?
    Dr. Rice.  I work very closely with presidential personnel, 
but I have to say that the folks have been very understanding 
of the fact that I have to have a team that is a team that I 
can work with and that's my team.
    Senator Sarbanes.  But your selections have to clear 
Presidential Personnel?
    Dr. Rice.  Well, these are presidential appointments, at 
least the ones that are presidential appointments.
    Senator Sarbanes.  I know it's been written so often about 
how close you are to the President, but you don't have, as it 
were, the kind of a vote of confidence or commitment to you 
from the President that you can go ahead and fill these 
positions yourself.
    Dr. Rice.  Senator, it's been just very easy to work 
through Presidential Personnel. It's just not been an issue.
    Senator Sarbanes.  Well, if there were an issue, though, 
you don't have that kind of commitment, is that correct?
    Dr. Rice.  These are appointments by the President. And so, 
I think it's a perfectly appropriate role.
    Senator Sarbanes. I understand the answer.
    My next question is, I've always been curious to know the 
rationale why a National Security Advisor will not appear 
before the Congress to testify and answer questions, but goes 
on the news programs or appears at the Press Club and, at the 
end of it, says, ``Now I'm open to take your questions,'' and 
then proceeds to answer questions on the public record in front 
of the public. Now, what is the rationale for that? Why doesn't 
the National Security Advisor respond to the Congress?
    Dr. Rice.  Well, the rationale, Senator, has been a couple 
of things--first of all, that there is a separation of powers, 
and the President's staff is, to him, in the executive branch, 
private counsel. When you go on----
    Senator Sarbanes.  Well, it's not very private counsel when 
you go on the national media shows, appear publicly, and answer 
questions in that forum. I'd have a little more understanding 
of the rationale if you didn't do that, if you limited yourself 
to giving private advice to the President, and turned down the 
interviews. But you depart from that, and you go outside in 
very public fora and make these appearances and answer 
questions, and won't come to the Congress.
    Dr. Rice.  Senator, it's a longstanding practice of every 
National Security Advisor. I have actually been here to answer 
questions of the whole committee at one point, but also 
Senators and groupings of Senators, but not in testimony. It's 
a line that National Security Advisors have kept as private 
advice to the President, as presidential staff. And I--National 
Security Advisors have also, of course, gone on television and 
made public appearances.
    But in terms of the line between the executive and the 
legislature, the President's staff has simply not been subject 
to congressional testimony.
    Senator Sarbanes.  Well, what's your position on appearing 
before the Congress if you were the Secretary of State? How can 
we be confident that you would engage in frequent, thorough, 
and meaningful consultations with this committee?
    Dr. Rice.  Well, Senator, I would no longer be staff to the 
President if I'm confirmed. I'll be the Secretary of State if 
I'm confirmed, and that is a Cabinet officer with--who's been 
confirmed by this body. And, it seems to me, at that point, it 
is not only perfectly appropriate, but only right, that the 
Secretary of State and other members of the Cabinet, as well as 
other members of the State Department, respond positively to 
requests to testify whenever possible.
    Senator Sarbanes.  Is it your view, then, that Secretary of 
State would not invoke executive privilege in testimony before 
the Congress?
    Dr. Rice.  Well, I believe that the Secretary of State 
would come and testify before the Congress, and testify fully. 
Whether a Secretary of State might choose to keep private some 
conversation that that person has had with the President or 
not, I think that's another matter. But certainly the Secretary 
of State would appear before this body and others on a regular 
basis, and it has been----
    Senator Sarbanes.  What's your sense of your 
responsibility, if you were the Secretary of State, to deal 
with the Congress in a nonpartisan or bipartisan manner, 
however one wants to describe it? I'm prompted to ask that 
question by the fact that you did, at one point, make a rare 
trip to Capitol Hill for separate closed-door briefings with 
Republicans and Democratic lawmakers, if you recall that. You 
met with Republican representatives for well over an hour, did 
not meet with the House Democrats--met only with the Republican 
members of the House. You came to the Senate side, had a 
lengthy meeting with Senate Republicans, and then a very brief 
meeting with Senate Democrats, caught short by a vote that was 
scheduled by the leadership, I guess. But, in any event, there 
was a marked difference in the extent of the meeting and the 
consultation between Republicans and Democrats.
    Presumably, as Secretary of State, you wouldn't intend for 
anything of that sort to happen, I would take it.
    Dr. Rice.  Senator, I will conduct this in a completely 
bipartisan way. Let me just say that--I will check, but I 
believe that we've generally offered to both sides in both--
both sides of the aisle and both houses, and I was prepared to 
stay in that Senate meeting as long as desired. But, as you 
said, it was cut short by a vote.
    Senator Sarbanes.  Well, what about the House side?
    Dr. Rice.  I believe we offered, but I will check to see. 
Because it was my view that the National Security Advisor also 
needed to deal in a bipartisan way, and I believe I've dealt 
with Members of the committee, Democrat and Republican.
    Senator Sarbanes.  Ordinarily, at the start of each new 
Congress, the administration conducts a review of signed 
treaties to determine which ones to send as priorities for 
Senate advice and consent to ratification. The administration 
did not submit a treaty priority list to this committee in the 
108th Congress. Are there plans or intentions to send up a list 
of treaty priorities to this new Congress?
    Dr. Rice.  There are plans to do so, Senator. We will.
    Senator Sarbanes.  You plan to do that.
    Dr. Rice.  We plan to do that, yes.
    Senator Sarbanes.  Now, let me ask you to come back to the 
economic questions. Do you think it's to America's advantage 
for the dollar to be the world's main reserve currency?
    Dr. Rice.  Senator, I'm going to demur here. I will think 
these questions better asked of the Treasury. I have a strong 
interest in our economic well-being. I have a strong interest 
in what I can do, as Secretary of State, to promote our 
economic well-being, particularly through free trade and 
through the establishment of good partners in trade and a level 
playing field in trade, but I really don't feel that I should 
comment on currency matters.
    Senator Sarbanes.  Well, it goes back to our discussion 
this morning. I, frankly, concluded that round with some 
concern, because you kept talking about the President's 
economic team, as though that's something separate and apart 
from the concerns or the responsibilities of the Secretary of 
State, even though at one point you stipulated that the 
strength of America's economy is fundamental to its ability to 
assert strength in the world. And these all play together.
    And I mentioned a book, this morning, ``The United States 
of Europe: The New Superpower and the End of American 
Supremacy,'' and one of the points made in that book is that 
the euro was specifically designed to challenge the global 
hegemony of the dollar.
    And, of course, we've seen the value of the euro rise very 
substantially in recent times. In fact, we now know, in 2001, 
Middle Eastern oil-producing countries kept 75 percent of their 
currency reserves in dollars. Now, that figure is now 60 
percent--it's dropped substantially--with much of the rest of 
it in euros. And Chinese and Russian central bankers are also 
shifting their reserves.
    Does this cause you some concern?
    Dr. Rice.  Senator, there are many reasons for what has 
happened to the relationship between the euro and the dollar, 
but, again, I really think it best that I not comment on 
currency matters. I will do what I can, as Secretary of State, 
to try and enhance the prospects for a strong American economy. 
I think I can do that principally through the promotion of free 
trade, through the promotion of a level playing field, in using 
the diplomacy to carry economic messages, when we need to do, 
as we've done, for instance, with the Chinese on intellectual 
property rights. I'll be an active and interested participant, 
but there are some matters that I really feel are best left to 
the Treasury, and that's the commentary on----
    Senator Sarbanes.  Last month, China's president, Hu 
Jintao, embarked on a 12-day tour of Latin America. He wound up 
making commitments to invest $30 billion in the region. China 
is now Brazil's second largest trading partner, and Chile's 
largest export market. In trade, technology, investment, 
education, and culture, China has been displacing the United 
States all across Asia, and it's now starting to do the same in 
America's backyard. Are you concerned about this expansive 
China?
    Dr. Rice.  Well, this is an area that I think bears some 
watching and some activity, and I would work very carefully and 
very closely with those in trade and economics to try and deal 
with this. We do face a rising China. There is no doubt about 
that. And the way that we've tried to deal with the fact that 
China's economic strength is growing, and that China's 
influence is growing along with its economic strength, and its 
penetration of markets and its own market are growing 
exponentially, is to embed China in the World Trade 
Organization, and to make certain that it lives up to the rules 
of a rule-based international economic system. And we have a 
lot of work to do, because China is not always completely 
attentive to some of its obligations under the World Trade 
Organization.
    The other thing that we can do, Senator, is that we can 
assert our still-considerable global reach and our still-
considerable regional influence through organizations like 
APEC, which we attend, and which we are nurturing, and which we 
are pushing forward with a very active agenda. We have had 
problems with ASEAN because of the presence of Burma, but we 
have had meetings and discussions with the countries of ASEAN.
    I was in China, Japan, and South Korea in June of this past 
year, and I will say that I think most of the countries of Asia 
look to us to continue to be a major influence and an active 
player in Asia, because they don't want to see China 
``supplant,'' quote/unquote, the United States. We also have to 
remember that the Chinese economy, for all of its vigor and all 
of its robustness, is still a developing economy whose size is 
not going to approach the size of the American economy for 
quite a long time. It is a China that is dealing with 
tremendous difficulties with inequities between its interior 
regions and its coastal regions. It is still a developing 
economy. And while it is a huge market, and is doing very well 
in our own markets, I think it's important to recognize that it 
is a--at a different stage of its economic development than the 
United States.
    Senator Sarbanes.  Well, it's interesting, because they 
seem to be doing pretty well, if that's the case. I mean, our 
accumulated debt to foreign investors is now 28 percent of our 
gross domestic product. That's nearly double the share of four 
years ago. And most of it is being funded by borrowing from 
foreign central banks, primarily those of Japan and China. In 
fact, it's staggering, the increase of foreign official assets 
in the United States.
    Mr. Chairman, in closing, I would just note that, in the 
1990s, the U.S. admonished Mexico and Argentina to get their 
economic houses in order. This month, the Chinese premier gave 
Washington a similar lecture. And by not taking the important 
corrective measures we need to take with respect to our 
economy, we're running up these large trade imbalances and 
becoming increasing dependent on the kindness of strangers. 
We're in their hands. And I can't help but believe that this 
will be brought to bear in other areas of the U.S.-China 
relationship, if and when it becomes relevant.
    Dr. Rice.  Well, Senator, I agree with you, and I think the 
President would agree, that the issue is for the U.S. economy 
to be as strong as it possibly can, and as competitive as it 
possibly can. And there are a lot of measures being undertaken 
to do that. My role, I think, will be to try and enhance our 
economic growth and our economic strengths through our openness 
in trade, but also by making certain that those with whom we 
trade are dealing with us on a level playing field. And I'll be 
completely dedicated to that.
    Senator Sarbanes.  Thank you, Mr. Chairman.
    The Chairman. Well, thank you very much, Senator Sarbanes.
    Let me just indicate, Dr. Rice, that I appreciate the point 
you're making as to what the scope of the State Department may 
be, and your role. But I would have to agree with Senator 
Sarbanes. The issue that he's touching upon--and this would be 
the subject for a couple of days of good hearings--is 
profoundly important. It finally comes down to how we're going 
to pay for our foreign policy. We have reached a critical 
juncture, given the circumstances of the foreign exchange 
situation, our own exchange rates, and so forth.
    I suppose that we are taking advantage of the fact that you 
are perceived as a super-competent person and are perhaps 
prepared to take all of this on, on behalf of the President. 
But I would encourage you to visit with the President about 
this--you probably have--because I'm sure we'll all be getting 
back to it again and again. We'll not be able to solve it 
today, but I would just underline that there are some dynamics 
here that all of us find difficult to comprehend--the growth of 
China, the growth of India as economies, a third of the 
population of the world going out now to try to find energy 
resources everywhere, maybe sucking up the resources of the 
world. This is good for the soybean farmers of Indiana, and 
we're grateful for everything that comes along that way. But 
it's nevertheless going to be tough, with regard to energy and 
other things.
    I don't want to take more time, but I was moved by what 
Senator Sarbanes is saying, because he works over in the 
Banking Committee. Other Members of this committee are active 
in that area. And we have interchanged disciplines in our own 
way, as you do. But please, if you can, take under advisement 
our conversation today.
    Dr. Rice.  Absolutely. Thank you, Senator. I will.
    The Chairman. Senator Chafee?
    Senator Chafee.  Well, thank you, Mr. Chairman. And I agree 
with your comments and Senator Sarbanes' comments also, 
concerning on the financial issues, particularly the rise of 
the euro and the potential for OPEC to move in that direction. 
It could be alarming.
    Thank you for your time. Your stamina and your breadth of 
knowledge are both remarkable. In fact, at the lunch we were 
joking that we're going to find an obscure country to ask you 
about.
    But we agreed it would be futile, you'd know all about it.
    And I'd like to follow up on some of Senator Biden's 
comments about what seems to be a hypocritical approach to our 
foreign policy, in some ways; in particular, how we deal with 
some of those democracies, such as Russia, Senator Biden said, 
uneven or undemocratic or some of the Turkmenistan, Uzbekistan, 
Tajikistan, even Musharraf--President Musharraf, and then, on 
the other hand, have a completely different view of, say, Iran, 
as Senator Biden was saying. It seems as though we magnify our 
differences, on the one hand, and then, on the other hand, we 
magnify our similarities.
    In particular, after having just come back from South 
American and meeting with President Chavez--here he has been--
gone before his people--high, high turnout, just had a 
referendum. And, as one of the people from our embassy said, 
``He cleaned their clocks and kicked their butts.'' And it 
seems to me to say derogatory things about him may be 
disrespectful to him, but also to the Venezuelan people. How do 
you react to that?
    Dr. Rice.  Well, I have nothing but good things to say 
about the Venezuelan people. They are a remarkable people. And 
if you notice, Senator Chafee, I was not making derogatory 
comments, I was simply recognizing that there are unhelpful and 
unconstructive trends going on in Venezuelan policies. This is 
not personal.
    Senator Chafee.  And there aren't in Tajikistan, 
Uzbekistan----
    Dr. Rice.  And we----
    Senator Chafee [continuing]. ----and Russia and----
    Dr. Rice [continuing]. ----and we speak out about those----
    Senator Chafee [continuing]. ----Pakistan?
    Dr. Rice [continuing]. ----we speak out about those, as 
well. But some of this is a matter of trend lines and where 
countries have been and where they are now going.
    Senator Chafee.  Are their government's unconstructive?
    Dr. Rice.  Well, the Russian government is not 
unconstructive in a lot of areas. It's quite constructive in 
many areas. It's been more constructive on Iran in recent 
years. It is constructive on--to a certain extent, in trying to 
deal with the kind of Nunn-Lugar issues that we've talked 
about. It's been constructive in Afghanistan. It's constructive 
on a number of areas. But that doesn't excuse what is happening 
inside Russia, where the concentration of power in the Kremlin, 
to the detriment of other institutions, is a real problem. And 
we will continue to speak to the Russians.
    I think we do have to remember, that is also not the Soviet 
Union. The Russians have come quite a long way from where the 
Soviet Union was, and we need to always keep that in mind when 
we judge current policies. But where they're going is simply 
not very good. It is something to be deeply concerned about, 
and we will speak out.
    And countries are going to need--going to move at different 
speeds on this democracy test. I don't think there is any doubt 
about that. But what we have to do is, we have to keep the 
agenda--keep this item on the agenda. We have to continue to 
press countries about it. We have to support democratic forces 
and civil-society forces wherever we can.
    I would just note that Ukraine, I visited in 2001, not long 
after I had become National Security Advisor. And I, frankly, 
when this happened, in Ukraine, was pretty stunned by how 
effective civil society was and how effective the Ukrainian 
people were in making their voices known. Some of that is 
because we and the EU and others have spent time developing 
civil society, developing political opposition, working with 
people, not to have a specific candidate in any of these 
countries, but to have a political process that's open. And we 
have to do more of that.
    We're going to spend some $43 million this year--I believe 
that's the number--on Russian institutions, trying to help, for 
the development of civil society there. We need to do more of 
that kind of thing, because, while we put it on an agenda, 
while we confront the governments that are engaged in 
nondemocratic activities, we also have to help the development 
of civil society and opposition.
    Senator Chafee.  You and Senator Boxer were having a little 
bit of a debate over credibility. And, to me, it seems as 
though trust is built with consistency. Is it possible for you 
to say something positive about the Chavez administration?
    Dr. Rice.  It's pretty hard, Senator, to find something 
positive.
    Senator Chafee.  I don't understand----
    Dr. Rice.  Let me say----
    Senator Chafee [continuing]. ----that.
    Dr. Rice [continuing]. ----this.
    Senator Chafee [continuing]. ----After----
    Dr. Rice.  Let me say this----
    Senator Chafee [continuing]. ----after----
    Dr. Rice.  Let me say this----
    Senator Chafee [continuing]. ----Tajikistan, Pakistan, 
Russia----
    Dr. Rice.  No, what----
    Senator Chafee.  It seems as though, as I say, magnifying 
our differences to some countries, and magnifying our 
similarities with others. And, as I said, I think trust is 
built with consistency. I don't see consistency----
    Dr. Rice.  Well, the----
    Senator Chafee [continuing]. ----in some of your comments.
    Dr. Rice [continuing]. ----the state of behavior in the 
Western Hemisphere, or the state of affairs in the Western 
Hemisphere, is such that we've had democratic revolutions in 
all of these places, and we don't want to see them go back. We 
have some places where the democratic revolution is still to 
place. And we just have to understand that there are 
differences in that regard.
    But I have said, we hope that the Government of Venezuela 
will continue to recognize what has been a mutually beneficial 
relationship on energy, and that we can continue to pursue 
that. We certainly hope that we can continue to pursue counter-
drug activities in the Andean region, and Venezuela 
participates in that.
    But I have to say that, for the most part, the activities 
of the Venezuelan government, in the last couple of years, have 
been pretty unconstructive.
    Senator Chafee.  Well, thank you very much. I'll go back to 
what I said earlier. It seems disrespectful to the Venezuelan 
people. They have spoken.
    Dr. Rice.  Thank you.
    The Chairman. Well, thank you, Senator Chafee.
    Senator Dodd?
    Senator Dodd.  Thank you very much, Mr. Chairman. I'll try 
and move along in this, as well.
    Let me just pick up on the--one of the points that Senator 
Sarbanes was raising earlier with you, and that is, of course, 
the apparent contradiction, obviously, of having an NSC advisor 
not be able to appear with any regularity before the committee, 
and then appearing with rather significant regularity on 
national television. I'll also note--and I'm sure you're not 
the first NSC advisor to do this--but, just in the fall of this 
year, according to some staff work here, that you made some ten 
speeches in the fall of this year in battleground states, I 
guess, except one, involved in the politics. And I always--I 
know that the Secretary of State, historically, is not 
Secretary of Defense, and I commend Senator Powell and Senator 
Rumsfeld for not having been involved in the campaign. Would 
you make a similar commitment? Obviously, there--the President 
doesn't run again, but, obviously, there are midterm elections. 
And would you share with us your opinion on whether or not it's 
wise, given the historic efforts to try and create 
bipartisanship when it comes to foreign policy, to have an NSC 
advisor out on the campaign trail, and certainly as Secretary 
of State. Can you quickly give us some sense of where you think 
that ought to----
    Dr. Rice.  Certainly. As National Security Advisor, I spoke 
a lot, actually, and I tried to get outside of Washington to 
speak. I went----
    Senator Dodd.  Were these campaign stops?
    Dr. Rice [continuing]. ----I went to places that were 
nonpartisan. I went to places like world-affairs councils and 
universities. Anybody could come. I was thoroughly questioned 
about American foreign policy, and I thought it only 
appropriate, at a time in which we were at war. They were not a 
part of the campaign, and I think the fora that we chose would 
demonstrate that.
    But you can be certain that I will respect the tradition of 
this office, of Secretary of State, should I be confirmed. I 
think it has to be bipartisan. I think it cannot be political 
in any way. And I, in my comments, mentioned how important I 
thought bipartisan foreign policy is, and I'll do everything 
that I can to make----
    Senator Dodd.  I don't want to dwell on it, but it's an 
important point. And, again, I'm not sure what the precedents 
are of those who have preceded you in the office as NSC 
advisor. But I think it is bad business, in those periods, to 
get involved in this stuff. It does create problems, and I 
think it's a wiser course to follow.
    Let me quickly jump to the issue of the Justice 
Department's opinion memos regarding torture in interrogation. 
In a response to a question for the record, you indicated that 
the Justice Department opinion memos on torture in 
interrogation were provided to the National Security Council 
for review by staff, in draft form. And you indicated that the 
response--that you were not involved in reviewing the draft 
opinion. Just a series of three or four questions, if I may.
    Did you ever read the opinion?
    Dr. Rice.  I did not read the opinion.
    Senator Dodd.  And did you have a view at the time about 
them at all?
    Dr. Rice.  Senator, I did not think it my role to try and 
give legal advice to the President, but that legal advice was 
then discussed in a policy context. And, at that point, the 
policy of how we would treat detainees in this new kind of 
war--and we did face a very difficult and different 
circumstance. I mean, you were dealing with al Qaeda on the 
battlefield, people----
    Senator Dodd.  Yes.
    Dr. Rice [continuing]. ----who were not living up to the 
laws of war. This is a different kind of combatant. People like 
Khalid Sheikh Mohammed and people who were--who plotted 9/11 
and clearly were not part of any organized army. We did have a 
series of difficult choices to make, but----
    Senator Dodd.  You were aware, I presume, of the State 
Department concerns at that time about these memos?
    Dr. Rice.  I was aware. And, in fact, we made certain that, 
before the President made a final decision on this matter of 
how Geneva would be applied, that he had the advantage of 
hearing from all of his advisors.
    Senator Dodd.  Do you want to share with us what your 
opinions were?
    Dr. Rice.  Senator, I gave my advice to this--to the 
President on this matter, and I really would prefer not to talk 
about what advice I gave him. He came out in a place that I 
think was consistent with both living up to our international 
obligations and allowed us to recognize that the Geneva 
Conventions should not apply to a particular category of 
people. Now, when we got to Iraq, there was no question that 
the conflict itself was covered under Geneva. Iraq was a 
signatory to the Geneva Conventions, and we believed that the 
conflict was, therefore, covered.
    Senator Dodd.  Let me just ask you very briefly about--what 
are your views? Let's get to the bottom of this--we can fool 
around with the language here, but what are your views on 
things like waterboarding and nudity? What are your views on 
that? Is that torture, in your view, or not? And should it be--
should the United States stay away from that activity, or is 
that--do you have a--sort of, a mixed view on that? I'd just 
like to get some sense----
    Dr. Rice.  Senator, under no circumstances should we, or 
have we, condoned torture. And the President has been very 
clear that he expects everyone to live up to our international 
obligations and to American law. And the Justice Department 
makes a determination on any interrogation techniques that are 
used, that they have to be consistent with our international 
obligations and with American law. I----
    Senator Dodd.  You're familiar now, aren't you, with----
    Dr. Rice.  No.
    Senator Dodd [continuing]. ----the draft opinion that was 
submitted? Just tell me what--now that you know what the draft 
opinion was, not according to what you thought at the time, 
would have raised objections to it, had you been aware of what 
was included in that?
    Dr. Rice.  I didn't say I wasn't aware of what was in the 
opinion; I didn't read the full opinion, Senator. But I believe 
that the President, as a policy matter, decided that, in order 
to protect American interests, but also in order to live up to 
our obligations, internationally, even though this was a very 
different kind of war, a different kind of set of 
circumstances, that the right policy call was to treat the 
detainees, even al Qaeda detainees, consistent with our 
obligations--or consistent with the principles of Geneva, 
consistent with military and security necessity. And I think 
that was the right call. And it--I just can't emphasize enough 
how difficult it is when you're dealing with a totally new set 
of circumstances.
    Now, we have talked about what we might to do engage the--
--
    Senator Dodd.  Let me just come back to the--just want to 
make--this is a simple question.
    Dr. Rice.  Yes.
    Senator Dodd.  Is it your view, as a human matter, is 
waterboarding and the--uses we saw in the prisons in Iraq, of 
nudity, is that torture, in your personal view, as a nominee 
here for the----
    Dr. Rice.  Senator, I'm not going to speak to any specific 
interrogation techniques, but let me talk about Abu Ghraib, 
because that was not acceptable----
    Senator Dodd.  I'd like to just get your views on this 
simple matter. It's a simple question I'm asking.
    Dr. Rice.  Well, you asked me about the incidents in Iraq, 
and----
    Senator Dodd.  I asked you about some very specific 
techniques that we used, whether or not you consider them to be 
torture, or not.
    Dr. Rice.  Senator, the determination of whether 
interrogation techniques are consistent with our international 
obligations and American law are made by the Justice 
Department. I don't want to comment on any specific 
interrogation techniques. I don't think that would be 
appropriate, and I think it would not be very good for American 
security.
    Senator Dodd.  Well, let's leave it. That's your answer, 
there. It's a disappointing answer, I must say. And this is a 
very--the face of U.S. foreign policy is in the person of the 
Secretary of State, and it's important, in moments like this, 
to be able to express yourself, aside from the legalities of 
things, how you, as a human being, react to these kinds of 
activities. And with the world watching when a simple question 
is raised about techniques that I think most people would 
conclude, in this country, are torture. It's important, in a 
moment like that, that you can speak clearly and directly, 
without getting involved in the legalisms questions. I 
understand these involve some legal determinations. But, as a 
human being, how you feel about this, about to assume the 
position to be responsible for pursuing the human-rights issues 
that this nation has been deeply committed to for decades, it 
is a very important moment.
    Dr. Rice.  Senator, I maintain the commitment, and will 
maintain the commitment, of the United States to norms of 
international behavior and to the legal norms that we have 
helped to----
    Senator Dodd.  Let me ask you this, then. What would happen 
if someone did this to an American? What would happen if we saw 
it on television, that a captured American was being subjected 
to these kind of activities? How would you react to it?
    Dr. Rice.  Senator, the United States of America--American 
personnel are not engaged in terrorism against innocents----
    Senator Dodd.  I wasn't asking what they have been charged 
with; I'm asking whether or not, if you saw an American being 
treated like this, how would you react?
    Dr. Rice.  We expect Americans to be--because we are 
parties to the Geneva Conventions, we expect Americans to be 
treated in accordance with the Geneva----
    Senator Dodd.  Of course we do.
    Dr. Rice [continuing]. ----Conventions.
    Senator Dodd.  And so you consider these kinds of 
activities to violate the Geneva Conventions?
    Dr. Rice.  We believe that there are certain categories of 
people--the al Qaeda, for instance--who were not covered by 
Geneva, that, in fact, it would have been a stretch to cover 
them under Geneva, would have weakened Geneva to cover them. 
But the President said that they had to be treated, as military 
necessity allowed, consistent with the application of Geneva--
--
    Senator Dodd.  Do me a favor, at the end of all these 
hearings, I'd like you to spend about 15 minutes with John 
McCain and talk to him about this stuff. I think you'll get 
some good advice, when it comes to this subject matter, someone 
who's been through this, about what the dangers are when we 
have, sort of, waffling answers about these questions, and then 
Americans can be apprehended, and what happens to them?
    Let me move on, because I don't want to take up the 
committee's time on this particular point, but I'm troubled by 
your answer.
    Now, let me ask you about, if I can, the HIV/AIDS issue. 
Let me move to the Caribbean again, come back to the--this 
region of the world. During the consideration of the 
legislation on 2003, I attempted to add countries to the HIV/
AIDS legislation--Caribbean countries. And let me tell you why 
I did. We have a staggering percentage, high percentage, of 
people in the Caribbean who are HIV-positive. I know we do a 
lot already as part of this program in Guyana and Haiti, but--
and I won't list all of the island nations in the Caribbean--
involving some 600,000 people who have almost as high a rate of 
AIDS contamination as some of the most seriously affected 
countries in Africa. And yet we've left these countries out 
because we never passed the legislation. It's an important 
issue. I won't go through all the details with you here, but 
there are ten million Americans who visit these island nations, 
not to mention the tremendous number of people who come to our 
own country, far more so than have contact with some of the 
nations that are very adversely affected in Africa. And I would 
hope that you might, as we look at these programs here, expand 
the coverage to these countries.
    The average--today, the average Haitian man can expect to 
live only 47 years; the average woman, 51 years. It's the 
single highest cause of death in the Caribbean nations for men 
under the age of 45. It really deserves far more attention than 
it's getting. Do you want to--have a quick answer, a quick 
response?
    Dr. Rice.  Yes, just that the President's emergency plan 
was intended to deal with the 14 and then 15 most affected 
countries. I think it's an excellent plan. And if we meet our 
goals, we will be providing treatment to two million people, 
and preventing seven million infections, and getting ten 
million people into contact with educational and other 
programs. And it's a very fine program. It's not all that we 
do. We do a lot of other assistance, bilateral assistance. Some 
85 or so countries are affected by the assistance that we give. 
And, of course, the global fund, to which we are, by far, the 
largest single contributor, is also very active in that.
    I think we've made a very big step forward. I know Senator 
Kerry and others have been long proponents of an international 
effort on AIDS. We have made a major breakthrough in the 
President's emergency plan. We wanted to have a number of 
countries where we could worry, not just about the disbursement 
of money, but about helping to build delivery systems that 
would actually get the job done. But I would just emphasize 
that it's not the only assistance that we give.
    Senator Dodd.  Take a good look at this, please. The 
Dominican Republic is on the same island--shares the island of 
Hispaniola with Haiti. Haiti is covered; the Dominican Republic 
is not. That's ridiculous, on its face, given that cross-
contamination that occurs, with just populations that move from 
Haiti to the Dominican Republic, as we speak, here, because of 
the cane-cutting seasons and the--and, obviously, the potential 
there.
    I see my time is expired. Let me just--just quickly, and 
I'll come back--I said one round, Mr. Chairman. I apologize, I 
may have to come back for a few more questions.
    But I want to emphasize, again--I know you'll come back to 
this Venezuela issue, and Latin America. We've got to be 
thinking a bit differently. No one's going to argue about some 
of the decisions that have been made in many of these 
countries, things that they do that we find very different from 
how we would approach issues. But what Senator Chafee has said, 
I think is an accurate description, we've got to be more 
balanced about this view. It strikes many of us as being, sort 
of, domestic politics rather than foreign policy, when it comes 
to these issues.
    I mentioned earlier, statements that have been made--it's 
good politics in Latin America, too often, to attack the United 
States. Here was our good friend, Chile, for instance, when the 
issue came up in the vote in the United Nations on Iraq, where 
we threatened them not to complete the Chilean-U.S. Trade 
Agreement. It was only as a result of the intervention of Spain 
which put it back on track again. That word is widely known--
that conclusion widely known in the region. That's not helpful 
as we're trying to build these relationships. And I'd urge you 
not to get caught in this mindset, sort of, to use your own 
experience, the Pavlovian sort of reaction to some of these 
people, and to try and engage in a positive and constructive 
way.
    I'll guarantee you that, certainly in Venezuela today, 
they're watching very carefully what's been said. That's not to 
say we agree or applaud decisions being made that we would 
disagree with, but we need to try something differently here if 
we're going to succeed in building different relationships. And 
I'll want to come back to that.
    But I've been disappointed in the way that--I don't expect 
you, sort of, agree with Democrats up here, but we've got to be 
thinking in a way that shows we're going to move where the 
world is headed, in many ways, looking for different ways to 
establish better relationships. And I want to come back to that 
when we finish our round.
    Thank you.
    The Chairman. Thank you, Senator Dodd.
    Senator Allen?
    Senator Allen.  Thank you, Mr. Chairman.
    I have some questions I want to get to on competition and 
corruption, but let me follow up on some of the cross-
examination of Senator Dodd.
    On the question of what--I understand you don't want to use 
the word ``torture,'' but maybe the word ``abuse'' is 
appropriate, insofar as the conduct of our military, some of 
our military people in Abu Ghraib prison. Now, we all can agree 
that this conduct, whatever you want to call it--whether it's 
``abuse,'' whether it's ``torture''--the bottom line is, as far 
as Americans are concerned, this is a violation of our 
standards, standards of conduct and the expectations that we 
have of our government, and, therefore, the Bush 
administration. And not just the administration, the United 
States, indeed, is going after those who are culpable and are, 
in fact, being prosecuted and punished. Charles Grainer just 
received a ten-year sentence for his actions and activity, and 
responsibilities for it.
    So I would say, Dr. Rice, that this administration and the 
United States Government is on record finding that deplorable, 
regardless of what phraseology one wants to use to describe 
this conduct.
    Dr. Rice.  Yes. Senator, let me just be very clear. I 
didn't have a chance to say, Abu Ghraib was unacceptable, it 
was abuse, and people are being punished for that. The question 
came about broader detainee policies, but what happened at Abu 
Ghraib made everyone sick to their stomachs. And the good thing 
about the United States is that we actually prosecuted the 
people who did it, and will continue to as the investigations 
unfold.
    Senator Allen.  Thank you. I wanted to adduce that 
response, which I figured was actually was your sentiments on 
it. You're getting kind of tied in all the legalistics there.
    On the issue of competition that Senator Sarbanes brought 
up, you mentioned a fair or level playing field, I very much 
agree with some--many of the things Senator Sarbanes is saying, 
as well as what you brushed on, generally. And the Chairman 
mentioned India and China being concerns, long term.
    I look at India differently. India is the largest democracy 
in the world. We have great and strong bilateral ties with 
India and also, more recently, with Pakistan. Somehow we ought 
to be able to help continue the rapprochement with India and 
Pakistan.
    Insofar as China, though, China is not a democracy, and 
China--there are concerns that you're going to be facing, as 
far as China, with the Europeans potentially selling arms to 
China. But on the area of what you mentioned, corruption--this 
is on page 3 of your statement--``corruption can sap the 
foundation of democracy.'' And, indeed, if you look at the 
trade practices of China, they cheat on a variety of fronts--
textiles, furniture--they have in semiconductor chips, as well. 
Mr. Zoellick, who's going to be with you, has helped prosecute 
some of those, to various degrees, but finally got 'em on their 
cheating-on-the-semiconductor-chip matter, as well as South 
Korea doing that, as well.
    But the one area that they wholly fail, as well, in is 
intellectual property, and they--there's no adequate protection 
of intellectual property, which is stealing from Americans, 
their creativity, our ingenuity. I'd like your view on what we 
can do--and you said ``corruption can sap the foundations of 
democracy''--and part of that corruption, in my view, would be 
China's unfair trade practices.
    I have worked with this committee to increase funding, to 
train law enforcement and judicial-system systems around the 
world on the protection of intellectual property. We've 
funded--it's $5 million to help enforce IP laws, intellectual 
property laws, and make these countries, many of whom are 
unaware, apparently, of violations, and they needed to be 
educated on it. I do think, though, China is educated on it. 
This is not a question of unknowing violations.
    I would like to hear from you what steps that you can 
foresee the United States taking to help combat corruption in 
other nations; in particular, the violations and the theft of 
our intellectual property, which is so key to the 
competitiveness of our country in the future.
    Dr. Rice.  It absolutely is. And we have been very active--
in fact, aggressive--with China about the IPR problem, trying 
to get them to have more stringent laws and, more importantly, 
enforcement when they finding pirating. We make the point to 
them that, as they begin to invent, themselves, they are not 
going to want a world in which intellectual property rights are 
stolen, but, rather, in which intellectual property rights are 
protected.
    I think we've gotten a little movement forward, but not 
enough, and we keep pressing this agenda. We are pressing the 
agenda, by the way, also with Russia, where pirating is a very 
big problem and where, actually, there have been fewer 
prosecutions than in China. So I think we need to press those 
issues.
    As to the broader concerns about corruption, there is no 
doubt that corruption, which leads to legal systems that allow 
the--allow pirating of technology, allow terrorists to 
flourish, allow drug-runners and arms dealers to flourish, it's 
all a part of the same problem. And so, having police forces 
that are properly paid, trained, and loyal, having judges that 
are properly paid, trained, and loyal, is a very important part 
of a wide--worldwide effort that we have to help with 
corruption, especially in some countries, like Nigeria--we've 
offered assistance in these ways.
    We also, Senator, have tried to get the international 
development banks to be more concerned about corruption in the 
granting of aid, that when aid goes in, that it's clear that 
the tax isn't going to be a corruption tax on top of the aid 
that goes in. And we've made some progress.
    Finally, in something like the Millennium Challenge 
account, the President's made very clear that corruption, which 
is one of the indices that leads to a country being eligible or 
not, that corruption is an index that we ought to look at very, 
very carefully, because if you have a corrupt government, that 
aid is just going to be wasted.
    Senator Allen.  Well, thank you very much. I look forward 
to working with you, and I know this whole committee will, on 
this issue of protecting intellectual property rights and the 
issue of corruption, as well, because it does undermine freedom 
and democracy and the respect for the rule of law.
    Finally, let me just bring up this area of question, and 
this is South Caucasus, or the Black Sea, area. I've been one 
who believes that we ought to be looking at maybe basing more 
of our NATO forces in the Black Sea area, closer to the Middle 
East, the areas that are of greatest concern because of the 
proximity, obviously. It seems clear that--I think--the United 
States ought to be working to shore up--it's not even ``shore 
up,'' it's actually ``enhance'' our alliances with the new 
countries in Central Europe that have joined the European 
Union, joined NATO.
    How do you envision the administration working with 
countries in the Caucasus, Southeast Europe, as they--to 
promote their democratic reforms, but also your views on 
integrating them into the European Union, and into our NATO 
operations?
    Dr. Rice.  Well, certainly some of the countries of that 
region have already begun to integrate in very fruitful ways. A 
number of them have already acceded to the EU, as well as to 
NATO.
    One of the ways that we can encourage that integration is 
what used to be Partnership for Peace is now, in many ways--in 
many cases, NATO membership, and, as NATO refines its 
capabilities to be responsive to the threats of the 21st 
century, rather than sitting and waiting for the Soviet Union 
to come across the German plains, as much of the forces looked 
like--the ability of those countries to place specialized 
missions within NATO's overall portfolio is very important, and 
it gives opportunities for training, for civil-military 
interaction, for the kinds of things that strengthen democracy. 
And I happen to think that what we did with Partnership for 
Peace, and what we continue to do in some countries that are 
not yet capable of accession to NATO, like, for instance, 
Georgia, that those programs which ensure contact between 
democratically-governed militaries and militaries in those 
societies, the kinds of seminars that we are able to conduct 
under Partnership for Peace, those all have very positive 
effects, and I would hope that those would continue. But the 
future for most of these countries is a further integration 
into Europe's great pillars, and we need to work toward that.
    Senator Allen.  Thank you, Dr. Rice.
    Mr. Chairman, I just want to say, in conclusion here, Dr. 
Rice, thank you for your wonderful leadership that you have 
provided. I look forward to working with you in the years to 
come. I know we're going to have some debate here, and some 
votes, but I feel very comfortable that with you as our 
Secretary of State in this administration, and I think, 
reflecting all the highest and best aspirations of America, you 
will help us advance freedom, our security, but also for 
freedom for people all over the world. Thank you, and good luck 
to you, and thank you for putting up with a lot of cross-
examination today. But it'll be nothing compared to the 
achievements that you will see in the next four years.
    Dr. Rice.  Thank you very much, Senator.
    Senator Allen.  Thank you, Mr. Chairman.
    The Chairman. Thank you very much, Senator Allen.
    Let me just broach, with the committee, two scenarios, one 
of which is that we would have a business meeting at some time 
this evening, and a vote on the nominee; or alternatively that 
we will continue, in either case, to have questioning so that 
Members will have an opportunity to ask their questions, but 
also to continue again tomorrow. Might I suggest, perhaps, a 
vote so that Members can be alerted in midmorning tomorrow 
morning. I have asked this in terms of the preferences of the 
committee, in terms of other schedules. Senator Boxer, you 
have----
    Senator Boxer.  Yes, I just would like to say, myself, that 
what's happening here is, the questioning is so good from both 
sides of the aisle that it raises other issues. And I don't 
agree it's ``cross-examination.'' I think it's our job. And so, 
I think we ought to do this tomorrow. I think we ought to maybe 
hear from Senator Kerry, as the closer--it's a thought--and 
come back in the morning and continue.
    The Chairman. Well, we'll come back in the morning, in that 
event, anyway. But we'll also continue this evening so that 
every Senator who is here has an opportunity to ask questions.
    Senator Boxer.  Okay.
    The Chairman. I'm not prepared to end the hearing. My 
thought was simply that we might have a vote at the end of the 
questioning this evening, thus obviating the need for a meeting 
tomorrow. In the event that Senators are not prepared to vote 
this evening, then we'll continue the hearing tonight and 
reconvene tomorrow and proceed.
    Senator Boxer.  Are you saying we would continue 
questioning tomorrow, as well, and then have the vote?
    The Chairman. In the event that we are still meeting 
tomorrow, then it would be open for questions tomorrow morning.
    Senator Allen.  Mr. Chairman?
    The Chairman. Yes. Senator Allen?
    Senator Allen.  Just for the Senator from California, the 
term--I used the term ``cross-examination,'' not in a 
derogatory sense. It's normal. Just questioning people and 
adducing answers from people. So don't take any offense from 
that.
    Senator Boxer. Thank you, Senator.
    The Chairman. Very well.
    Senator Kerry?
    Senator Kerry.  I don't know if I want to get in the middle 
of this.
    I wonder, Mr. Chairman--I know I heard Dr. Rice say, 
earlier, she's willing to stay and stay and stay, but I wonder 
if, you know, there's sort of a limit of decency of how long we 
want to----
    Dr. Rice.  No, I'm perfectly happy to stay, Senator. I look 
forward to further exchange.
    Senator Kerry.  Fair enough.
    I'm reading from an article, on December 15th, which says, 
by David Ruppe, ``Invoking comments by then-presidential 
candidate Senator John Kerry, a senior Energy Department 
official said yesterday that the Bush administration would defy 
critics and finish securing 600 tons of Russian nuclear weapons 
materials by 2008.'' It goes on to explain the distinction 
between sites and tons and how they're going to try to do it.
    So I'm glad that some people heard what we were talking 
about. But in a debate with the President, we were both asked--
I think it might have been by Bob Schaffer--what we thought the 
most important issue was, and I answered, nuclear 
proliferation, globally, and the President agreed.
    Now, this is in 2004 that the President agreed that this is 
the most pressing issue, globally and nationally, to our 
security. And yet the fact is that, by the end of this year, we 
will have secured maybe 46 percent of the material that's out 
there, and 70 percent of the sites. The fact is, also, that 
this administration has requested less money than the Clinton 
administration did in its last year. And each year, this 
administration has either cut or flat-lined the money for this 
enterprise.
    In 2002, the administration unveiled its G8 Global 
Partnership Against Weapons of Mass Destruction, pledging to 
spend $10 billion. But if you look at what was then being 
spent, it was about a billion dollars a year; in effect, that 
was ten billion over the next ten years--same amount of money, 
no additional commitment of funds to the most significant 
threat the country faces.
    Now, a number of years ago, I remember a suitcase was 
captured--I think it was in Amman, at the airport--with 
something like 250 grams of radioactive material, and the sale 
was several hundreds of millions of dollars on the black 
market. That's the suitcase we caught. As a former prosecutor, 
you always wonder about the suitcases you don't catch and the 
people you don't catch.
    No threat has been greater to us, according to, I think, 
everybody, than the potential of a ``dirty bomb'' and the 
threat of terrorists securing these materials. And you 
explained earlier about the sort of marketing of this process.
    You know, I don't say this as a matter of politics at all, 
but just as a matter of common sense. I don't understand how 
the administration can choose to spend--now we're going to be 
close to $300 billion in Iraq to disarm weapons that weren't 
there, and yet $1 billion a year to secure weapons that we know 
are there, potentially, because every fissionable site is a 
potential weapon. Real. Ascertainable. Tangible.
    So my question to you is, there are a series of steps that 
could be taken, very simply, as a matter of common sense, for 
the United States of America to lead the world, as we ought to, 
with respect to proliferation. One is accelerating, even 
further, this securing of sites. That material is subject to 
theft, some of it poorly guarded by people who are poorly paid. 
It is insecure. Senator Lugar and Senator Nunn and others put 
enormous energy into this effort. And the administration even 
allowed money to be cut at one point with respect to this 
effort. That hardly defines a serious commitment.
    So, one, will the administration--will you press for a 
global effort that meets the seriousness of the threat and that 
puts the United States back into the position of leadership 
with respect to securing fissionable material that we know is 
there?
    Dr. Rice.  Senator, I think that we are working to do 
exactly that. There are a lot of reasons that the schedule is 
what it is. We've talked about some of the bureaucratics of 
this; not just here, but principally in Russia. We're on a 
schedule to do this in four years. I think we will get it done 
in four years. We're also on a very active program of securing 
nuclear sites with the Russians, through Nunn-Lugar.
    I'm completely and totally dedicated to this program. I 
think Senator Lugar would tell you that I've been one of its 
biggest advocates inside the administration, and I will 
continue to be one of its----
    Senator Kerry.  Well----
    Dr. Rice [continuing]. ----biggest advocates.
    Senator Kerry.  But, you see, that--what you just said 
doesn't ring with what has happened. I mean, we secured more 
nuclear fissionable material in the two years prior to 9/11 
than we did in the two years after 9/11, when we supposedly had 
an even better relationship with Mr. Putin. Now, the fact is 
that you've allowed summit after summit with Russian President 
Putin to go by without any action that has been taken to 
overcome--in fact, at the last--the most recent summit, in 
September of 2003, the United States and Russia laid out an 
agenda for that effort, and it didn't even include the subject 
of securing nuclear stocks. It wasn't even on the agenda.
    Dr. Rice.  It is part, Senator, of what we call the 
``checklist,'' which is a vehicle that we have for working with 
the Russians on very concrete projects that we have going 
forward. And we just had discussions, in the strategic dialogue 
with the Russians, about what more we can do to push this 
agenda forward. And I think it will be a major issue when 
President Putin and President Bush meet----
    Senator Kerry.  Yes----
    Dr. Rice [continuing]. ----in a couple of weeks.
    Senator Kerry [continuing]. ----I know, but global 
diplomacy, as you know well, is defined by the issues that a 
President of the United States chooses to publicly put on the 
table and to publicly announce accomplishments on. And, you 
know, whether it's a checklist that's private versus a major--
--
    Dr. Rice.  The checklist----
    Senator Kerry [continuing]. ----agenda issue----
    Dr. Rice [continuing]. ----the checklist is public, 
Senator.
    Senator Kerry.  But the--it wasn't on the agenda.
    Dr. Rice.  Senator, the President has, not only put this 
nonproliferation on the agenda, but he's made proposals for how 
we might deal with the multiple aspects of nonproliferation 
that we have to deal with at this point. I mentioned the 
proposals that he made at National Defense University, which 
we've taken up in the G8 and we've tried to press, the Global 
Partnership, to which you referred, which multiplies American 
assistance to this area----
    Senator Kerry.  With the same amount of money. It didn't 
add a cent.
    Dr. Rice.  Senator, there--this is a program that we've 
worked out jointly with the Russians on what can be done when. 
The amount of money that is dedicated to that particular part 
of the program is the amount of money that we believe we can 
spend on the programs that are in the queue. We are going to 
accelerate the securing of these materials to the point that it 
can be done in a period of four years, not 13 years. This is a 
very high priority, and we have funded the program, we have put 
emphasis on it. We have run into some bureaucratic obstacles, 
and I've just represented to Senator Lugar that I intend to try 
and break through those bureaucratic obstacles.
    Senator Kerry.  Well, I appreciate that, and I certainly, 
obviously, hope you will.
    A second initiative that could be taken with respect to 
this is to actually push for a global clean-out of potential 
bomb-making materials, and that could be done in four years. 
We've got highly enriched uranium that can be used to create a 
bomb. I gather it's being used to fuel over 130 research 
reactors in more than 40 countries right now. I've set out a 
plan that would allow us to be able to secure that completely. 
I think your current plan, the Bush administration took three 
years to even get to the point of saying that it would take 
another ten years to achieve. I believe that could be done in 
three or four years. Is there any reason that the 
administration couldn't similarly accelerate that?
    Dr. Rice.  Well, Senator, I'd love to sit down and talk 
with you about your plan and what it entails, and to see what 
could be done. I do think that we spend an awful lot of time 
trying to work with the Russians to make full use of Nunn-Lugar 
and other aspects. Now, in terms of a global way to deal with 
this material that is around, we have a G8 partnership that 
might allow us to do that, but I'd be very pleased to talk with 
you about your plan.
    Senator Kerry.  What do you think about pursuing an effort 
which many nations support--there's a lot of international 
support for this--to embrace a ban on all production of highly 
enriched uranium and plutonium for use in nuclear weapons, and 
that would, in effect, permanently freeze current stockpiles?
    Dr. Rice.  In the Fissile Material Cutoff Treaty, that is 
being--we have said that we favor the negotiation of a Fissile 
Material Cutoff Treaty. We've been prepared, for some time, to 
live up to its terms. The problem has been that we did an 
extensive review, and we do not believe that we can get 
adequate verification of such a treaty. But we are still 
prepared to pursue a fissile-material cutoff, and we've made 
very clear to our partners that we're prepared to do that.
    Senator Kerry.  And what about any initiatives or 
discussions with President Musharraf and the Indians with 
respect to failsafe procedures in the event--I mean, there have 
been two attempts on President Musharraf's life----
    Dr. Rice.  Yes.
    Senator Kerry.  If you were to have a successful coup in 
Pakistan, you could have, conceivably, nuclear weapons in the 
hand of a radical Islamic state automatically, overnight. And, 
to the best of my knowledge, in all of the inquiries that I've 
made in the course of the last years, there is now no failsafe 
procedure in place to guarantee against that weaponry falling 
into the wrong hands.
    Senator Kerry.  Senator, we have noted this problem, and we 
are prepared to try to deal with it. I would prefer not, in 
open session, to talk about this particular issue.
    Senator Kerry.  Okay. Well, I raise it, again. I must say 
that, in my private briefings, as a nominee, I found the 
answers highly unsatisfactory. And so, I press on you the 
notion that--without saying more, that we need to pay attention 
to that.
    Dr. Rice.  We are very aware of the problem, Senator, and 
we have had some discussions, but I really would prefer not 
to----
    Senator Kerry.  Okay.
    Dr. Rice [continuing]. ----discuss that.
    Senator Kerry.  Let me get to the question of North Korea. 
North Korea has quadrupled its weaponry capacity----
    The Chairman. Senator, your----
    Senator Kerry.  I'm sorry. I apologize.
    The Chairman. That's all right. Proceed, but then make that 
the final----
    Senator Kerry.  No, that's fine.
    The Chairman. Well, the Chair is going to declare a recess 
of ten minutes. We've been at it for over three hours, and you 
have been responsive for that period of time. Then we will come 
back. We have five Senators who remain to be heard; and so, we 
will hear those five and then conclude for the evening at that 
point, and then we will start at 9:00 tomorrow, with the 
thought that the Senators, hopefully, will be prepared for a 
midmorning business meeting and a vote.
    Senator Dodd.  Mr. Chairman, you said 9:00 o'clock? Is that 
what you said?
    The Chairman. Yes.
    We'll have a recess for ten minutes, in the event that you 
would like to recess at this point.

    [Recess at 5:30 p.m.]

    The Chairman. The hearing is called to order again.
    The chair now calls on Senator Coleman for his questions.
    Senator Coleman.  Thank you, Mr. Chairman.
    First, Dr. Rice, I do want to thank you for your strong 
remarks about the international student exchanges. I think you 
said that we need to do something to reverse the trend, and we 
do. My colleague from Tennessee talked about it as an economic 
competitive issue in the United States. I also think it is a 
national security issue, that we are losing the ability to have 
relationships with folks who are going to be the prime 
ministers and the generals and others.
    So I have actually introduced legislation which contains a 
number of provisions to reverse the decline in international 
students studying in America. One, the computer system, the 
SEVIS system that tracks students, needs to be improved. It 
tends to get bogged down.
    And another little piece of it is we have got a 50-year-old 
requirement under law that requires students who are applying 
for student visas to demonstrate strong ties with the country 
they come from. But it is hard if you are a 19-year-old kid. 
You do not have a mortgage. You may not have a spouse. So we 
put some requirements on folks that, I think, if we took a more 
common sense approach, we would be able to increase the flow, 
and in the end I think there are both economic competitive 
issues and national security issues.
    I also want to echo the comments of some of my colleagues 
about Latin America. And we have talked about that and we had a 
chance to visit. We need to increase American involvement.
    I do want to make one comment about Venezuela. It is clear 
that Chavez won an election. There are a number of us who want 
to engage. We want to engage more. But I also think it is fair 
to say that in our business, actions matter and words matter. 
And the rhetoric from Chavez has to change. You cannot be 
proclaiming sympathy with folks who are killing Americans in 
Iraq. My colleague and friend from Connecticut noted that 
President Lula had said some things, but he said them 20 years 
ago. Chavez said them last week, in the last month.
    Senator Dodd.  It was not 20 years ago. I hear you but----
    Senator Coleman.  But in any case--I think it is fair. 
There are a number of us who believe we need to figure out a 
way to engage, but there has got to be a two-way street here. 
And words matter; actions matter.
    My question for you is about Colombia. After decades of 
terror, we are seeing killings down. President Uribe is, I 
think, providing outstanding leadership. Folks are actually 
able to travel on the roads, which they were not able to do 
before. The economy is responding positively to some of the 
increased security. Clearly Plan Colombia is working, but Plan 
Colombia expires at the end of this fiscal year. Our 
President--I am pleased that one of his first trips right after 
reelection was to Latin America--visited Colombia.
    I have two questions for you. One, if you can reflect on 
the situation in Colombia and discuss the future of Plan 
Colombia. Where are we going?
    And then the second issue is that one of the things Uribe 
is doing is that they are having one of the largest 
demilitarizations of a paramilitary group probably in history. 
Because of limitations put on us in the Foreign Operations 
Bill, this is going on without the participation of the U.S. 
Government. I would appreciate your reflections on what you 
believe to be the proper role of the United States in this 
effort to demilitarize a paramilitary group.
    Dr. Rice.  Well, thank you very much, Senator.
    First of all, on Colombia, I think that Colombia has 
outstanding leadership in President Uribe. What he has done is 
to mobilize Colombian society, the Colombian people to take on 
the terrorism, the narcoterrorism in a new and renewed fashion. 
He went to the people in a democratic way, and he said here is 
what we have to do and here are the resources that we have to 
put behind it. He is starting to have a lot of success. It is a 
very tough environment, but he is also taking very tough 
policies toward the FARC. We have very good cooperation on that 
piece of it.
    I think that many of the aspects of Plan Colombia that 
dealt with alternative livelihoods, that dealt with dealing 
with the crop, all of those have worked to improve the 
circumstances in Colombia to the point that now it is possible 
for President Uribe to have this very tough policy. It is 
always a struggle, but it is beginning to work and we just need 
to support this democratically elected president who went to 
his people and said we have got to defeat the narcoterrorists, 
and he is doing it.
    The dismantlement or the disarming of militias, including 
the AUC, is an important part of this revitalization of 
Colombia and dealing with its past problems. Obviously, there 
are some things that we cannot do. We have gotten a little bit 
of flexibility to help some in some of the efforts that he 
needed toward the FARC, and that was much appreciated.
    We would like to be in a position to do whatever we need to 
do to help him and to have him tell us what that is. I am sure 
that in the demilitarization, we could do more. But the one 
thing that we have made clear is that while the AUC needs to be 
demobilized, demilitarized and while he has talked about 
reconciliation with certain aspects, not with blood on their 
hands, and that has been a very important admonition to this 
government. But Colombia is becoming--I will not declare yet--a 
success story because you have had very determined leadership, 
and I think we have been a good partner for President Uribe.
    Senator Coleman.  I think the challenge is you cannot give 
a free pass to folks with blood on their hands, but we need to 
somehow have an ability to continue forward with getting guns 
out of the hands of narcoterrorists.
    Dr. Rice.  The most important thing that they must do next.
    Senator Coleman.  I would hope that we would be able to 
have a more assertive role in that and perhaps some guidance 
from State down the road.
    Just to follow up in terms of what we can do to support 
President Uribe, what do you see as the next phase with the 
expiration then of Plan Colombia but with, obviously, still 
great needs, still security concerns? What is our role in the 
next 2, 3, 5 years for Colombia?
    Dr. Rice.  I think there is no doubt that we are going to 
have to explore with Colombia its economic development. It is a 
country that has potential but a lot of that potential has been 
held back by the terrible security situation produced by 
narcotrafficking. As the narcotrafficking situation is brought 
under control, we obviously will want to be a partner with 
Colombia in how they build a vibrant democracy.
    Part of that is that they have asked us to discuss with 
them what we might be doing in the area of free trade. I think 
that is something that we will want to explore with them. 
Obviously, it has to be seen in the context of what we are 
trying to do with the free trade area of the Americas, but we 
have not been shy to go ahead and look at what we might be able 
to do bilaterally in trade. I know that trade is an area that 
Colombia is extremely interested in.
    Senator Coleman.  One of the areas where we have been 
successful is cutting down on the hectares of cocaine, coca 
that is being grown there. Spraying has worked in Colombia.
    Dr. Rice.  Yes.
    Senator Coleman.  When we met with Karzai in Afghanistan, I 
know that in Afghanistan there are concerns about the spraying. 
The good news there is that we are hearing that their folks 
were actually voluntarily stopping poppy growing. We are still 
waiting to get confirmation of that, but we have got a number 
of those reports. I think the climate may be more fertile for 
other things to grow there.
    But I would hope that we would at least give evidence to 
the Afghans about spraying, that it can be done with 
environmental concerns being met, and that it can be effective 
if some of the other things that they are doing do not work to 
the degree that we think they should.
    Dr. Rice.  I agree, Senator. In fact, we asked the 
Colombians, and they agreed, to talk to the Afghans about their 
experience.
    But we are exploring or pursuing with Afghanistan a kind of 
five-pillar approach to the counternarcotics problem, which 
really is now, I think, in many ways the most urgent in 
Afghanistan, first of all, to look at eradication, to look at 
eradication both aerial and manual. At this point, manual is 
all that we can do, but we will see whether aerial is needed 
and what we can do in that regard.
    We are working on alternative livelihoods. We are working 
on legal reform and police training so that we can help with 
that. Prosecutions of people need to take place.
    And then there is a very big public affairs campaign. 
Karzai made the point to us that he needed, after many years of 
no democratic contact with the society, to delegitimize in the 
eyes of the people the growing of poppy. He has been very 
aggressive on that. He has appointed a minister for 
counternarcotics. He went to the people and said this is a 
stain on Afghanistan that we have this. So there is a lot of 
work to do, but I think we have a government that is dedicated 
to the counternarcotics fight. And we will see what role aerial 
spraying has to play.
    Senator Coleman.  We saw last week great success in 
Afghanistan. Some people talk about the hustle factor. The 
people there are proud of what they have accomplished, proud of 
what they have done with their election, proud of where their 
country is going. The opium trade threatens to undercut all of 
that. We spoke to our European allies, NATO, about that. But 
that is the one issue that could derail the incredible success 
we are having.
    So I appreciate your perspectives and I look forward to 
supporting your nomination. I know that you will serve this 
country with great distinction and great skill as you have done 
already, and I know you will continue to do so.
    Dr. Rice.  Thank you, Senator.
    The Chairman. Thank you, Senator Coleman.
    Senator Feingold.
    Senator Feingold.  Thank you, Mr. Chairman.
    Dr. Rice, thanks for all your time today.
    I do want to commend you for your strong statements on the 
need to focus in a much more serious way on public diplomacy 
and particularly to ensure that our efforts involve a real 
dialogue and exchange, not just broadcasting our opinions or 
handing out cassettes or pamphlets. We have to show people the 
basic respect of listening to them, even when we disagree. It 
is so important particularly in political cultures in which 
ideas about humiliation are so prominent. I hope to work 
closely with you on these issues.
    Every time I travel, I become more and more convinced of 
the importance and the value of involving more and more 
Americans, our farmers, our artists, our teachers, in this kind 
of an issue. I think Americans want to contribute in this way, 
and I very much hope that you will consider me a true ally in 
your efforts in this regard.
    On the other hand, I am deeply troubled by your response 
or, rather, your failure to respond clearly and directly to 
Senator Dodd about torture and interrogation techniques. We 
went through the same kind of process with the nominee for 
Attorney General in our Judiciary Committee, but frankly this 
was even more troubling. It is simply not okay to equivocate on 
torture. It is not okay from the point of view of the safety of 
our own troops. It is no okay in terms of global perceptions of 
this country, and it is not okay because it is not who we are 
as a country. America is better than that. We stand for 
something and we do have standards. I just felt I wanted to say 
that before I proceed to one other area.
    Less than 10 days ago, a comprehensive peace agreement was 
signed that we all hope will mean a lasting end to the 
tremendously costly north/south civil war in Sudan, which the 
Chairman mentioned. I congratulate the administration, which 
worked tirelessly on this issue, on this accomplishment, but as 
we all know, the crisis in Darfur continues to fester. And 
despite the fact that Secretary Powell acknowledged that we 
were dealing with genocide, the United States and the 
international community have basically taken no effective 
action to stop the violence.
    Last week I met with refugees who had fled to desolate 
camps in eastern Chad, and I heard the fear in their voices as 
they told me that they cannot return home until there is some 
kind of meaningful security on the ground. To date the 
administration simply has proven unable or perhaps unwilling to 
exert enough pressure on the Government of Sudan to convince it 
to change its behavior.
    Of course, one of the many difficult issues in addressing 
Sudan, something that has come up in other contexts today, is 
the tension between the desire to have a solid counterterrorism 
relationship with Sudan and, on the other hand, our reaction to 
the kind of unacceptable atrocities we see in Darfur right now. 
We see this tension in other places as well, such as 
Uzbekistan.
    How can this kind of tension be managed?
    Dr. Rice.  Thank you, Senator.
    First, let me try to be clear. The United States does not 
and cannot condone torture. I want to make very clear that that 
is the view and the policy of the administration, the policy of 
the President, and that he has made very clear to American 
personnel that we will not condone torture.
    As to Sudan, it is a very difficult problem. And I thank 
you very much for the recognition for what we have been able to 
do on the north/south issue, and I want to just say that 
Senator Danforth did a fantastic job on that. The President, 
when he first came into office, said that he wanted to try to 
do something about Sudan. He enlisted Jack Danforth and we did 
get something done on the comprehensive peace between north and 
south.
    We have hoped that that would give us some leverage to deal 
with the Darfur issue because Khartoum now has more at stake. 
If, in fact, we are going to move forward on a relationship, 
having resolved the north/south issue, Darfur has to be 
resolved too. So there is more at stake for Khartoum in 
resolving the Darfur issue.
    We were early and we have been consistent in trying to deal 
with the humanitarian crisis, getting access for the 
nongovernmental organizations, having opened up an additional 
access route with Libya, spending money. I met with NGO's that 
were operating there. I think they believe that the American 
effort on the humanitarian side was really quite active.
    The problem, as you note, is that Khartoum has been 
difficult to deal with, particularly on the security issue, 
where we have been saying to them you have got to disarm the 
Janjaweeds. You have got to stop the atrocities against people. 
We do believe it rises to the level of genocide and we are 
pressing Khartoum very, very hard on those matters.
    There also has to be a political process ultimately, and we 
have tried to help sponsor one.
    Frankly, this is a place where I am really disappointed in 
the response of some others in the international community. The 
reason that we could not get a tougher Security Council 
resolution is not because the United States did not want one. 
It was because certain members of the Security Council refused 
to have one. One of the problems in working in a multilateral 
environment is that sometimes you are blocked by others.
    Now, we are impressing and I think we need to. One reason 
that we thought it important to call genocide genocide was to 
put pressure on members of the Security Council who have been 
reluctant to even talk about the future, a future that might 
include sanctions, that it was important to put pressure on 
those other Security Council members. So we will continue to 
press this case.
    We also need--I think I mentioned earlier, and this is 
actually a broader issue within Africa. Our policy has been to 
try to improve the capability of African institutions to 
involve themselves in civil conflict of this kind. We did it 
with ECOWAS in Liberia. We are working with the AU in Sudan. 
But again, right now, we believe 3,300 peacekeepers ought to be 
there. Khartoum has allowed 1,100.
    So we are really going to have to have an international 
effort in order to bring greater pressure on the Sudanese 
Government, but we are trying to raise the spotlight on it. We 
are trying to pressure others to raise the spotlight on it, and 
we are doing what we can, in the meantime, to deal with the 
humanitarian circumstances.
    Senator Feingold.  Well, I think your comments are fair 
with regard to the lack of cooperation from other countries in 
past months with regard to Sudan. But based on the extensive 
conversations I had last week in that region, my guess is that 
the combination of our counterterrorism interests and the 
commitment to the north/south agreement in Sudan will provide 
too much momentum in the other direction and that the Darfur 
situation will not be resolved unless we do something fairly 
dramatic.
    Let me reiterate my call and the call of others that a 
special envoy be appointed to deal with this issue. You 
mentioned Senator Danforth. He did a tremendous job as a 
special envoy on the north/south problem. This situation, this 
genocide, as your predecessor called it, will not be resolved 
unless we do something dramatic, and it makes perfect sense to 
take that step. So let me urge that on you.
    Finally, just to go back to the torture issue for a minute, 
I appreciate your general statement that you abhor and reject 
torture. Senator Dodd got it down to specific types of 
activities that are reprehensible. You were unable to say that 
those particular kinds of conduct were unacceptable forms of 
torture. And I am afraid that that is absolutely the wrong 
message we want to send today, with all respect.
    Thank you, Mr. Chairman.
    Dr. Rice.  Thank you.
    The Chairman. Thank you very much, Senator Feingold.
    Senator Voinovich.
    Senator Voinovich.  Thank you, Mr. Chairman.
    I would like to talk to you a little bit about budget and 
management. The 150 account, function 150, is what funds your 
agency. It is about 1 percent of the total Federal budget 
outlays, that is as compared to the defense budget which 
represents about 17 percent of budget outlays.
    The President--and I pat him on the back for this--
requested a 7 percent increase for the Department in his 2005 
budget. We unanimously agreed to that and, unfortunately, my 
colleagues in Budget and Appropriations came up $1.8 billion 
short.
    There is some talk today around town that the President is 
going to be asking all agencies, other than Defense and 
Homeland Security, to prepare options for cutting current 
spending by 5 percent with the intention of holding non-defense 
resources to 1 percent of growth in the 2006 budget.
    What impact would this have on your 150 account, number 
one? And do you believe the State Department should be included 
in such national security exemptions in a way similar to the 
Defense Department, Intelligence, and Homeland Security?
    Dr. Rice.  First of all, I do understand the budget 
concerns that the country is operating under at this point and 
the need to have budget discipline. I fully understand that. 
And obviously, the budget numbers are not yet available, not 
yet final.
    I do believe that we will be able to execute the American 
foreign policy. We will be able to keep momentum in the very 
considerable improvements that have been made in management in 
people, in the diplomatic readiness initiative in technology--
--
    Senator Voinovich.  Do you believe that the State 
Department should be part of the national security exemptions 
just as the Department of Defense, Intelligence, and Homeland 
Security? I would like to know whether you think it should be 
an exemption or not.
    Dr. Rice.  I think the important thing, Senator, is that we 
are able to perform the functions that we need to perform. That 
is what I am going to be watching. If at any time I do not 
think we will be able to perform those functions, I will make 
that known not only to OMB but to the President.
    Senator Voinovich.  Well, it is pretty important because we 
have heard a lot today. There are a lot of areas where people 
want money, but there is just only so much that is there. I do 
believe that your Department is as important to our national 
security as the Defense Department, and we are going to have to 
start to reevaluate the way we spend our money around here if 
we are going to deal with this new challenge that we have of 
global terrorism.
    The next question I have is the issue of management. Do you 
know when the last time was when the Department of State had a 
management audit to find out whether or not it was organized 
the way it ought to be organized?
    And second of all, when was the last time that somebody 
looked at how the Department sets its priorities?
    Dr. Rice.  Senator, I do not know when the last management 
audit was, and I have to assume that they looked at priorities 
on a yearly basis. I know that this has been a very fine 
management team that Secretary Powell has set in place and they 
have made a lot of progress.
    But I want to assure you that I feel very strongly about 
the need to manage a Department very well. Without the 
management of your resources--and that means budget, people, 
technology, buildings, all of those things--it is very hard to 
actually conduct policy. You have my word that the management 
agenda will be a very important part of my agenda, and if there 
has not been a management audit or a review for some time, then 
there will be because it is an important thing to do.
    Senator Voinovich.  I am going to be paying a lot of 
attention to that part of it not only as a member of this 
committee, but also because of my chairmanship of the Oversight 
of Government Management in Governmental Affairs. I am really 
interested in that information because if you do not have the 
people to get the job done, then we have got some real 
problems.
    Dr. Rice.  I agree, Senator. Let me just say, on the budget 
matter again, we can meet our obligations. If there is a 
supplemental, we will look forward to, obviously, being a part 
of it for a number of our requirements for a number of things 
that have to get done. But I just want to emphasize we will 
look at the resources that we have and can we do the job, and I 
will not hesitate, if I think that we have problems in that 
regard, to make certain that the President knows.
    Senator Voinovich.  I would really like to know who is 
going to be looking management issues? Bob Zoellick? You are 
going to be so busy with all kinds of things. We are talking 
about special envoys to other places, among other things, and 
you are saying, well, maybe we will not do it. If you get 
involved in the Middle East and start shuttle negotiations or 
something, somebody has got to pay attention to who is running 
the shop, and I am real concerned about it.
    One other thing I would like to bring up is the Global 
Anti-Semitism Review Act. Part of that act requires the State 
Department to create a new office to monitor and combat anti-
Semitism. I would like to know when is that office going to be 
created.
    Dr. Rice.  Senator, I will have to look into that. I know 
that we need to create the office. I know that they have looked 
at creating it. There is some question about where it will be 
located. I will look into that as soon as I am, hopefully, 
confirmed and get back to you with an answer.
    As to who will manage, clearly the deputy has an important 
role to play in the management. So does the Under Secretary for 
Management.
    But I just want to emphasize I know that I will be doing a 
lot of things, but I was chief operating officer of Stanford 
University's Provost. I cared a lot about the management 
issues. I understand management of big organizations, and I 
know that if you are not watching, all kinds of things can 
happen that are to the detriment of your objectives. So you can 
be certain that it is something I will be paying attention to.
    Senator Voinovich.  That is great because your people will 
want to know you care.
    Dr. Rice.  The first briefing that I actually had was with 
the Under Secretary for Management because I wanted to 
understand what the management challenges were, what the future 
looked like. Secretary Powell and Deputy Secretary Armitage 
have done a fine job of managing. We have to continue that 
tradition and push further.
    Senator Voinovich.  One other issue again deals with 
management. Our European Subcommittee conducted a hearing on 
crime and corruption in Southeast Europe and that area. You 
have got the FBI, you have got the State Department and other 
agencies involved in it. I would suggest that someone look at 
the way that effort is organized because the conclusion I drew 
was that everybody is involved, but there does not seem to be 
an orchestra leader or somebody who is coordinating it. I do 
not know whether it is the State Department or the Justice 
Department. I think you understand it. You mentioned in your 
remarks that crime and corruption in some of those parts of the 
world are a much greater threat than terrorism, and if we do 
not really have our act together in that regard, many of these 
new democracies are going to be undermined.
    Dr. Rice.  Understood. Thank you, Senator. I will look into 
that.
    The Chairman. Thank you very much, Senator Voinovich.
    Senator Boxer.
    Senator Boxer.  Thanks so much, Mr. Chairman.
    I am going to make a couple of comments and then I am going 
to continue the questioning on the torture issue.
    I hope that you will consider what colleagues have said on 
both sides of the aisle about a lack of consistency in our 
foreign policy. For example, Senator Dodd at one point said we 
are in trouble in Latin America, and I would say, having come 
back from a 6-day conference with Senator Lugar, bipartisan on 
Central and South America, it is true because they do not sense 
a consistency. As Senator Chafee points out, you praise Uribe 
for democracy even though we were told at this conference that 
he is trying to pass a law which would forbid sitting governors 
and sitting senators from running against him. And you condemn 
the head of Venezuela, Chavez, after having the administration, 
not you personally, briefly praise a coup. And it was not until 
the OAS spoke up and said, well, wait a minute, that is wrong, 
that we backed off. So we really do need more consistency here.
    For example, in Mexico where the PRI is coming back. We 
have got to pay attention to Mexico. I hope that will be a 
priority because I know they are very distressed and 
disappointed that they do not feel they were a priority. We 
have got immigration issues in my State that I know you are 
very aware of being a resident there, and we have got to deal 
with these issues. We have a situation where the PRI now is 
trying to disqualify someone who wants to run. So we have got a 
lot of democracy issues there, and I think we need to be even-
handed.
    Also, I think Senator Biden's point--and I think Senator 
Lugar might have picked up on it. I am not sure--that for the 
Axis of Evil countries, we have a certain set of criteria, but 
yet it does not extend to other countries like China and Russia 
and other places that I think Senator Chafee mentioned.
    I put this out there because I know it is all tough and we 
play the game and we need all of our friends to be with us and 
we overlook certain things. But we will lose credibility. So I 
hope you can think about that as you, I believe, will try to 
restore credibility for this country.
    Now, we sparred over the weapons of mass destruction, and I 
just want to place something in the record because I do not 
want to go on and on because we just will not agree. We might 
as well say you see it one way, I see it another. But I thought 
what I put in the record is a statement by the President's 
spokesman, Ari Fleischer, right after the war started. I ask 
unanimous consent to place this statement in the record.
    The Chairman. It will be placed in the record.
    Senator Boxer.  At a press conference he said: ``The fact 
of the matter is we're still in a war and not everything about 
the war is known, but make no mistake, as I said earlier, we 
have high confidence that they have weapons of mass 
destruction. That is what this war was about and it is about.'' 
That's Ari Fleischer.
    I would like to place that in the record because we are not 
going to agree at the end of the day. That is why I am trying 
to put in statements that say that my view is not coming from 
me. It is coming from people who are all around you.

    [The material to which Senator Boxer referred appears in 
Appendix II of this hearing transcript.]

    Senator Boxer. Now, Senator Dodd gave you a great moment in 
history to show your humanity on the issue of torture. He said, 
I am not talking to you as a nominee. I am talking to you as 
one human being to another. And you answered in legalisms. Then 
Senator Feingold gave you another chance and you did not take 
the opportunity. Now, I respect that, but I am distressed about 
it. And I agree with Senator Dodd. It is very, very 
disappointing. So I am going to press you a little further not 
only on what you have said on it, but what you have actually 
done on the issue.
    What you said today what happened in Abu Ghraib was 
unacceptable, was abuse. It made us all sick to our stomachs, 
and I think we could all agree. Did you see all of the photos 
that were available from that prison?
    Dr. Rice.  I do not know if I saw all of them, but I saw 
enough of them to know that it was a stain on our country.
    Senator Boxer.  Well, I appreciate that. I went up to see 
the photos. And at my age we take stress tests. Also because of 
the work we are in, we take stress tests. And they tell you, 
when you get up on that machine, just keep on going until you 
cannot take it anymore. That is how I felt when I was watching 
those photographs. I saw things there that will be burned in my 
memory forever.
    And that is why I am so supportive of making sure that 
America stands tall, tall, the leader in the world against 
torture. I am very upset at certain things that occurred, and I 
want to tell you what they are.
    You said, on July 1, 2004, when you commented on the abuses 
that took place in Abu Ghraib--we are going to put this up 
here. You said: ``What took place at the Abu Ghraib prison does 
not represent America. Our Nation is a compassionate country 
that believes in freedom. The U.S. Government is deeply sorry 
for what happened,'' and so on. You said that about Abu Ghraib. 
I thought your remarks were very appropriate.
    Now, last Thursday we find out that after the Senate 
unanimously approved an amendment to restrict the use of 
extreme interrogation measures by American intelligence 
officers, you wrote a letter, along with Mr. Bolton, to the 
members of the conference committee asking them to strike that 
language from the final bill. Unfortunately, that is what they 
did at your request.
    Now, I want to read you the operative language that you 
asked to be struck from the bill and was struck from the bill. 
And by the way, this is written by Joe Lieberman and John 
McCain--John McCain, a man who knows what torture is. So he 
wrote this with Joe Lieberman. ``In general, no prisoner shall 
be subject to torture or cruel, inhumane, or degrading 
treatment or punishment that is prohibited by the Constitution, 
laws, or treaties of the United States.'' Pretty 
straightforward, pretty elegant, bipartisan. That amendment 
passed the Senate unanimously, every single member.
    A letter comes and the newspaper writes that at your 
request, at the urging of the White House, congressional 
leaders scrapped a legislative measure last month that would 
have imposed new restrictions on the use of extreme 
interrogation measures by American intelligence officers. In a 
letter to Members of Congress sent in October and made 
available by the White House on Wednesday--this is last week--
Condoleezza Rice, the National Security Advisor, expressed 
opposition to the measure on the ground that it ``provides 
legal protections to foreign prisoners to which they are not 
now entitled under applicable law and policy.''
    Now, my understanding of this is that is a restatement of 
what the law is.
    So again, I am so distressed that we hear from you, even 
though you had a chance today to put your personal touch on 
it--we hear good words about how it was terrible, what happened 
at Abu Ghraib. Again, I know you are aware that the 
overwhelming number of those people were set free from Abu 
Ghraib. So those people in that pyramid who were being sexually 
abused were set free, the vast majority of them. Yet, when we 
had a chance, the bipartisan Senators voted to say this has to 
end, this has to stop, who writes a letter--you do--telling 
them to drop this?
    Why on earth did you do that after we passed this 
unanimously? And you say that what happened in Abu Ghraib was 
unacceptable and it was abuse. It is to me rather stunning. So 
can you explain to me why you wrote that letter?
    Dr. Rice.  Senator, it was our view in the administration 
that, first of all, this was covered in the defense 
authorization bill, which the President did sign.
    Senator Boxer.  But this has to do with the intelligence 
community, not the military.
    Dr. Rice.  And secondly----
    Senator Boxer.  So it is not covered.
    Dr. Rice.  But all Government agencies were covered in the 
defense authorization.
    Senator Boxer.  This was just the intelligence officers.
    Go ahead.
    Dr. Rice.  All Government agencies were covered in the 
defense authorization. So intelligence was covered.
    Senator Boxer.  No, it was not.
    Dr. Rice.  It was our view.
    Secondly, we did not want to afford to people who should 
not enjoy certain protections those protections. The Geneva 
Conventions should not apply to terrorists like al Qaeda. They 
cannot or you will stretch the meaning of the Geneva 
Convention.
    But, Senator, I have to go back to the broader point here.
    Senator Boxer.  One second. Excuse me. I just want a 
clarification.
    Dr. Rice.  Yes.

    [Pause.]

    Senator Boxer.  Got it. Thanks. Go ahead.
    Dr. Rice.  Nobody condones torture. Nobody condones what 
was done at Abu Ghraib. In fact, you had everyone from the 
President of the United States on down, in effect, offer an 
apology to those who had endured that treatment. The people who 
perpetrated it have been punished and are being punished. It is 
being investigated. It is looked into as to whether there was a 
broader problem. The United States reacted the way that 
democracies react when something goes wrong. And something 
definitely went wrong at Abu Ghraib and nobody condones or 
excuses what happened at Abu Ghraib.
    The problem of how to deal with unlawful combatants, 
though, in a different kind of war is, frankly, a very 
difficult problem. You have people who kill innocents with 
impunity. You have people who burrow into our country and try 
to harm us. You have people who have engaged in large-scale 
acts against children in Russia and against commuters in 
Madrid. This is a different kind of war and these are 
combatants with which we are not accustomed.
    Senator Boxer.  So do you then oppose that language in the 
defense bill? You seem to oppose it in the intelligence bill.
    Dr. Rice.  Did we oppose the language in the defense bill?
    Senator Boxer.  I am asking you now. You said that you 
should----
    Dr. Rice.  The President signed it.
    Senator Boxer [continuing]. ----No, no, no. I am asking 
about you. You said----
    Dr. Rice.  The President signed it.
    Senator Boxer [continuing]. ----No, no. You are not 
listening to the question.
    You said you do not want to extend these international laws 
to all prisoners. However, it is extended in the defense bill, 
and this was just extending it to the intelligence officers. So 
that is why I am asking you. Since you said you cannot extend 
it, do you support it in the defense bill? Whether the 
President signed it, I am asking your opinion.
    Dr. Rice.  Of course, I support it in the defense bill, 
Senator.
    Senator Boxer.  But you do not in the intelligence bill. Is 
that correct?
    Dr. Rice.  No. Senator, we think the intelligence agencies 
are covered in the defense bill. It was unnecessary to have it 
in----
    Senator Boxer.  But then you go on to say that these 
agreements should not cover it.
    Dr. Rice [continuing]. ----I was making a broader point, 
Senator, which is that the Geneva Conventions should not be 
extended to those who do not live up to the obligations of the 
Geneva Conventions.
    Senator Boxer.  Well, let me just say this, Mr. Chairman. 
The person who wrote this, Dick Durbin, Senator Durbin, the 
senior Senator from Illinois, offered the language to the 
Defense Department bill. He then said the Senate intelligence 
reform bill would have simply extended these requirements to 
the intelligence community.
    Now, I am getting two messages from you. One is we did not 
need this because the intelligence community is already 
covered. If that was the case, why not leave it in so the world 
can see that we are not only willing to put it in the defense 
bill, but in the intelligence bill? Because, obviously, 
colleagues here--John McCain kind of knows what he is doing in 
legislation and so does Senator Lieberman. They are the ones 
who did this. 100 to nothing it was passed through the United 
States Senate. I think people felt it was important, in light 
of Abu Ghraib, to stand up and be elegant on the point.
    And I am going to read it one more time, because what they 
said was quite elegant. And it does not have any extra words at 
all. ``In general, no prisoner shall be subject to torture or 
cruel, inhumane, or degrading treatment or punishment that is 
prohibited by the Constitution, laws, or treaties of the United 
States.''
    And for everyone in the Senate, Republican and Democratic, 
it was a shining moment. And then in a letter--and it just 
comes to light last week that you write--you asked that this be 
stricken. I have to say that is the problem I have. There are 
beautiful words and then there is the action or there are 
contradictions.
    Dr. Rice.  Senator, it is the law of the land.
    Senator Boxer.  I do not think that you have explained it 
because by saying we did not need it, it was in the defense 
bill, A, people do not agree with that in the Senate; and B, so 
what if it was duplicative, that we said it twice that torture 
is wrong and we will obey international laws?
    I think it just shows that this is not an issue that you 
feel very comfortable with. You had an opportunity when Senator 
Dodd asked you. You had an opportunity to say how you felt 
personally about it. You had a chance to embrace this language, 
which was embraced by Senator McCain and Lieberman and every 
Member of the Senate, and yet you write a letter and as a 
result, it is dropped. I just think it is a sad day for us. 
That is how I feel.
    Thank you.
    The Chairman. Thank you very much, Senator Boxer.
    I call now on Senator Obama.
    Let me just announce, while there are still Senators here, 
that after consultation with many parties and if not quite 
unanimous consent, certainly majority consent, it is the 
chair's view that we will commence our hearing tomorrow morning 
at 9 o'clock. We will have a round of questions for cleanup 
purposes, limited to 5 minutes a Senator. At 10 o'clock, we 
will have a business meeting of the committee at that point, 
and at that point we will have debate and hopefully a vote on 
the nominee.
    I appreciate that this inconveniences some Senators and the 
witness. On the other hand, Senator Biden had obligations this 
evening and so have two Senators, who will remain nameless, who 
had television appearances and other things that needed to 
happen. So we are attempting to do the best we can to try to be 
fair to everybody involved.
    We will continue this evening and Senator Obama will ask 
questions and take a regular round. We will then go back to 
other Senators who wish to continue the questioning at that 
point. Senator Obama.
    Senator Obama.  Thank you very much, Mr. Chairman.
    Dr. Rice, I appreciate your stamina.
    I have got one very specific question that I would like 
maybe a brief answer to even though it is a large question, and 
then maybe I want to engage with you a little bit on this 
public diplomacy issue.
    I think that you have done a commendable job in helping the 
United States rethink its international aid and development 
programs. So I know the Millennium Challenge Account you were 
very active in. I understand the President pledged $10 billion 
by fiscal year '06. To date, $2.5 billion has been 
appropriated. My understanding is very little has been spent.
    The President also pledged in 2003 $15 billion for HIV/
AIDS, something that all of us care deeply about, but to date 
only around $2 billion has been appropriated for HIV/AIDS, 
leaving $13 billion to be appropriated and spent over the next 
3 years.
    So my very specific question is, are you planning and would 
you pledge here to make full funding of these commitments a 
central priority of the administration in its budget requests 
for Congress?
    Dr. Rice.  The MCA is a very important initiative for us, 
and we have been trying to get it right. So it takes some time 
to negotiate compacts with these countries and to make sure 
that they are prepared to take on the obligations of receiving 
MCA funding. We were also about a year late--not a year late, a 
year in getting in the Millennium Challenge Corporation up and 
running. So what we will do is we will make sure that the 
funding is there for the program that is before us, and we 
will, over time, certainly fulfill the President's obligation 
to, by 50 percent, increase American spending on development 
assistance.
    Senator Obama.  Okay. The reason I make this point I think 
is not that I want us to spend money willy-nilly. And in the 
same way on social programs, if programs are not well thought 
through and you throw money at them, it may be a waste of 
money--and we do not have money to waste--the same is certainly 
true on the international stage.
    On the other hand, when we publicly announce that we are 
making these commitments and if it appears that we are not 
following through, then that undermines our credibility and 
makes your job more difficult. So I would urge that there is a 
clear signal by the administration in its budgeting process 
this time out that we are moving forward on this. And if in 
fact it turns out that the spending on this money was overly 
ambitious because we do not quite know how to spend all of it 
wisely, then that should be stated publicly and clearly and the 
time line should be extended, but there should be a clear 
signal sent by the administration on that. So that is the 
relatively narrow point.
    The broader point I think draws on a number of themes that 
have been discussed earlier. The issue of public diplomacy--
some of it is technique. It is technical. Do we have the 
equivalent of a Radio Free Europe in the Middle East that is 
effective? What are we doing with respect to exchange students 
and visas? I think there are a whole host of technical 
questions that we can deal with.
    But effective public diplomacy, at least from my 
perspective, is not just spin. It is substantive. Part of the 
problem we have overseas is not just a matter of presentation. 
It is profound disagreements with our approach to certain 
policies. And I think that one area that this comes up--and I 
think Iraq highlighted, and I see in your statement I think it 
may highlight it as well. When I read in the third paragraph of 
your testimony or opening statement today, it says, ``under the 
vision and leadership of President Bush our nation has risen to 
meet the challenges of our times, fighting tyranny and terror 
and securing the blessings of freedom and prosperity for a new 
generation. Part of, I think, the concern of that I have here--
and this has been a concern for critics of the administration 
for some time--is the conflation of tyranny and terror. That 
may be where the mixed signals or the lack of consistency that 
Senator Chafee and Senator Boxer and others were alluding to 
arises.
    We are unanimous in wanting to root out terror. It appears 
that even within the administration, there is ambiguity with 
respect to our views on tyranny. Tyranny is problematic but if 
engaged in by an ally of ours or a country that is sufficiently 
powerful that we do not think we can do anything about it does 
not prompt military action. In other cases it does.
    Part of the, I think, debate and divisiveness of Iraq had 
to do with the fact that it appeared that the administration 
sold military action in Iraq on the basis of concern about 
terror, and then the rationale shifted, or at least got 
muddied, into an acknowledged desire to get rid of a tyrant.
    And I guess what I am trying to figure out here--and this 
is particular to military action and military incursions--do we 
have a well-thought-through doctrine that we can present to the 
world that explains when we feel that military action is 
justified and when it is not?
    Apparently it is not justified in Sudan where there is a 
genocide taking place. It was not justified in Rwanda, despite 
I think unanimity that that was one of the greatest tragedies 
that occurred in my lifetime. There are a number of 
circumstances in which we have felt that such incursions or 
nation-building are not appropriate despite the evidence of 
great tyranny, and yet in Iraq and perhaps in Iran and perhaps 
in other circumstances, we think it is.
    So what I am looking for is some clearly articulated 
statement as to when you think, as Secretary of State, military 
action is appropriate. Or do you think alternatively that the 
administration should be able to engage in sort of ad hoc 
judgments as it goes along as to whether, well, let us take 
these folks out and let us not take these folks out?
    Dr. Rice.  Well, it is a very interesting question, 
Senator. It is one that actually is debated in the academy 
around the world. How can you think about a standard for the 
use of military force?
    Senator Obama.  Not to interrupt, but of course this is not 
academic because----
    Dr. Rice.  No, of course.
    Senator Obama [continuing]. ----we have 150,000 troops over 
there right now.
    Dr. Rice.  Of course. That is exactly my point, that when 
you are not debating it in the academy, it is a bit more 
difficult to have a hard and true definition of when one would 
use military force and when one would not because circumstances 
differ and one has to, when choosing a policy course, look at 
the mix of tools available to you. Military force should really 
be a last resort, certainly not a resort that is early on in 
the process because so much is at stake and lives are at stake 
and war is an unpredictable, blunt instrument. So it is, 
indeed, outside the confines of the academy, very difficult to 
have a specific definition of when you use force and when you 
do not.
    I think that when one looks at Iraq, you look at a 
circumstance in which an awful lot of factors came together to 
make the case of Saddam Hussein approachable really ultimately 
only through the use of military force, that it was in that 
sense a last resort because you had had 12 years of failed 
diplomacy after a war, in which he had fought a war of 
aggression, and which he had then signed on to certain 
obligations, not kept those obligations. He signed on to the 
obligations, by the way, in order to end the 1991 conflict. He 
then did not live up to those obligations, flaunted them before 
the international community, continued to threaten his 
neighbors, continued to threaten our pilots trying to enforce 
the no-fly zones. We did have someone with a history and a 
present and a shadow of the future concerning the world's most 
dangerous weapons, and we had someone who was an ally of terror 
and was in the world's most dangerous region. I think he had 
the whole package.
    Senator Obama.  Dr. Rice, I do not mean to interrupt you, 
but I know that I am going to be running out of time. I see 
that yellow light going off.
    I guess my point is not to relitigate the Iraq issue. I 
think it is to move forward. The concern that many of my 
constituents in Illinois express is that we went into Iraq, at 
least in their minds, because of a very specific threat of 
terror, not tyranny but terror. Had the administration sold the 
plan to go into Iraq based on this complex mix, then it is not 
clear it would have generated public support. That is past.
    As we move forward and we look at Iran or we look at North 
Korea or these other circumstances, I think it is important for 
us to be clear that the American people have to have an honest 
accounting of why we are going in because once we are in, we 
are stuck.
    Dr. Rice.  Yes.
    Senator Obama.  And we are now going to be spending at 
least $200 billion in Iraq, and we have lost over 1,300 lives 
and it is counting.
    So part of the public diplomacy, both internationally as 
well as domestically, requires this administration to at least 
be able to articulate these reasons in a way that are coherent 
and somewhat consistent. I understand that the world is 
complicated and it is not always going to be fitting into the 
neat boxes of the academy, but right now at least, it seems 
like it is a moving target, both for the American people and 
for the international community.
    Dr. Rice.  Well, Senator, I appreciate that, but if I could 
just speak to the moving target notion because I do not think 
it has been a moving target.
    The fact is tyranny and terror are linked. They are linked. 
We know that if we deal with Osama bin Laden and al Qaeda and 
the organization that did 9/11, we are still going to be 
dealing with its spawn and we are still going to be dealing 
with the ideology of hatred that it has been perpetrating. And 
we know that the ground in which that ideology of hatred has 
grown and matured and prospered is the ground of places in the 
world where there is a freedom deficit and where the anger and 
hopelessness has been channeled into these very malignant 
forces.
    Senator Obama.  Absolutely, but again--I know I am out of 
time here, but that is true in Sudan. There is a lot of anger 
in Sudan. There is a lot of anger all through sub-Saharan 
Africa, and yet we do not make these decisions. So I am not 
disputing that if you have a vibrant democracy and a healthy, 
functioning free-market system there is less likelihood of 
terrorism. I think all of us recognize that connection, but we 
are making very specific calculations on the basis of flawed 
information or flawed intelligence and finite resources. And so 
we have got to make the best judgments we can in these 
circumstances. So the fact that there is a link somewhere 
between terror and tyranny is not sufficient for us to be 
making decisions about spending $200 billion to $300 billion or 
sacrificing the lives of American servicemen and women.
    Dr. Rice.  Senator, I appreciate that, but I have to say I 
do not think it is a vague link. When you talk about the Middle 
East, it is a pretty clear link. You are talking about the rise 
of Islamic extremism. You are talking about jihadism. You are 
talking about the ground in which it grew up, and you are 
talking about a very narrow definition of terrorism if you only 
talk about trying to take down the al Qaeda organization.
    Senator Obama.  I think that is fair, and if that is the 
case--again, I do not belabor this, but I am just trying to 
give you a sense of where I think our public diplomacy fails. 
There is certainly a link between tyranny in Saudi Arabia and 
terrorism, and yet we make a whole series of strategic 
decisions about accommodating the Saudi regime. I am not saying 
that is a bad decision.
    But what I am saying is the degree to which you as the 
spokesperson for U.S. foreign policy are able to articulate 
greater consistency in our foreign policy and where those links 
exist between tyranny and terror, you are able to apply those 
not just in one or two areas but more broadly, then I think 
your public diplomacy is going to be more successful.
    Dr. Rice.  Thank you.
    The Chairman. Thank you very much, Senator Obama.
    I will pass on this round and recognize Senator Dodd.
    Senator Dodd.  Well, thank you, Mr. Chairman. I have a 
number of areas to cover.
    Let me mention, first, on a positive note because Senator 
Voinovich and others, I think maybe the chairman raised 
earlier--in fact, I want to thank you. You came by and we had a 
pleasant conversation I think in December or early January. I 
have forgotten which now.
    Dr. Rice.  December I think.
    Senator Dodd.  I appreciate the time and the willingness to 
do that.
    One of the things you and I talked about in that meeting 
was this issue of the--at least statistically we are told in 
the press about a declining number of graduate students coming 
to the United States. I think you were talking about this 
earlier, the visa issue and this problem we are having with, I 
think, a 45 percent decline in graduate schools, about 8 
percent in undergraduate degrees. We ran into it in this trip 
that Senator Nelson and Senator Chafee and I took in our 
embassies and talking to other people. There is a declining 
number of applicants coming through our office because of the 
bureaucracy, just waiting for a decision whether or not they 
can come. Given the opportunities to choose other universities 
around the world who are competitive with our own, they are 
making choices to go elsewhere.
    I think one of the great strengths in this post-World War 
II era was the opening of America's doors, our universities and 
the tremendous benefit to us, to them as well going back. How 
many of us have run into students, leaders today that went to 
American universities, came here as students and had a 
wonderful effect on their decision-making process as young 
adults? I am hopeful that we can get back to that issue again.
    I realize there are modern considerations in the wake of 9/
11 that we have to weigh in all of this, but I think we do so 
at our own peril if we do not get this right soon in my view.
    I will not go back because time is limited here, but in 
your opening statement, you made a couple of wonderful 
statements here that I certainly agree with. You speak 
eloquently about the visionary leaders we had at the end of 
World War II. I think too often we forget about how visionary 
they really were in many ways and things they did.
    I say that because in talking about the subject matter 
earlier when I raised the issue of torture and these questions, 
and I say this because I remember growing up and getting a 
constant diet of this. My father was about a 35- or 36-year-old 
lawyer when he went to Nuremberg. And Winston Churchill and 
others at that time talked about the defendants in the first 
round of prosecutions were some of the most vicious people that 
mankind had ever seen. Whether they wore uniforms or not, they 
brutally murdered 6 million Jews and 5 million others, 
civilians not to mention the millions who lost their lives as 
combatants.
    Winston Churchill and others argued at the time that we 
just ought to summarily execute these people, but the American 
team argued, without any basis--there was no Geneva Convention 
that I am aware of in those days that sat--that they believed 
very deeply that the place at Nuremberg was so appropriate 
because that was the site of the Nuremberg laws that gave the 
Nazis the legal justification for the final solutions. And the 
Nuremberg trials occurred in that city. We insisted that every 
defendant there get a lawyer. They could present evidence 
before that court, that tribunal made of the allies.
    They did so not because there was some body of law 
someplace that said they had to, but because we wanted to tell 
the world who we were. We were very, very different not just in 
terms of our economic plans and political plans, but how we 
viewed mankind.
    What I think we are getting at here in these questions to 
you is not about the legalisms of this, but in these troubled 
times--and we are dealing with great threats of fundamentalism 
that threatens our way of life--that we are different out 
there. We stand for things that are different based not so much 
on laws or statutes that get passed, but go right back to our 
Constitution in this country. When our Founders wrote, they did 
not talk about people who were blessed enough to either be born 
here or live here when they talked about mankind. And that is 
what we are getting at with these questions.
    I know you have got a job to follow the law and read the 
statutes and so forth, but I wanted to give you as an 
opportunity to talk as that very visionary generation did in 
the wake of World War II with all of the anger, all of the 
feelings they had. They insisted that we send a different 
message to the world, that even these brutal, cruel human 
beings who did what they did to innocent civilians, we treated 
them differently than they ever would have treated their own 
victims. That is the issue really, not what the law says, not 
dotting the I's and crossing the T's, but speaking more 
fundamentally as to who we are as a people. That is really what 
is at the core of this issue. I want to give you a chance to 
talk about that because that is important to people around the 
globe. So that is the reason I raised it.
    It goes to a third issue which I want to get to in a 
minute, but if you want to respond to this again, I would like 
to give you another chance to do so because your answer was 
very troubling to me.
    Dr. Rice.  Well, we are and have been different. We have 
now friends who have similar views of international law. The 
United States has been a leader. Senator, I understand what 
something like Abu Ghraib does to our image and not just our 
image but to people's desire to really hold onto America as 
something different. I understand that. I understand it fully. 
It is one reason that it was so hard to watch and so hard to 
respond to and so hard to know exactly what to say. It is a 
rare thing that the President of the United States apologizes 
for something like that, but he did, and I thought it was the 
right thing to do.
    I know too that we are struggling with the fact that we are 
in a different kind of war even than World War II when there 
were certainly terrible atrocities, but now a war in which we 
are trying to prevent the next attack through information by 
the people who are captured on these battlefields and the like 
and people who blow up innocent civilians and who drive 
airplanes into buildings and who behead people and who slit the 
throat of Daniel Pearl. It is a different kind of war. I think 
you would agree with me that these are enemy noncombatants that 
we----
    Senator Dodd.  Do not become like them.
    Dr. Rice.  No.
    Senator Dodd.  Do not become like them.
    Dr. Rice.  I agree. And Senator, if we were like them, we 
would not have punished the people for Abu Ghraib. If we were 
like them, the President of the United States would not have 
apologized. If we were like them, we would not have so much 
concern about how not to have that happen again.
    Senator Dodd.  All right.
    Dr. Rice.  But may I just say one final thing about this? 
Because probably the answer to the tensions between trying to 
live with the laws and the norms that we have become accustomed 
to and the new kind of war that we are in is to really have a 
kind of international conversation about this problem. I have 
been talking to other national security advisors when they face 
terrorism. I have talked to attorneys general and interior 
ministers around the world. They feel the tension too, and we 
would like to look--I know Judge Gonzales mentioned this. We 
would like to look at what other kinds of international 
standards might be needed to deal with this very special war 
because we are a country of laws. We are going to maintain 
them.
    Senator Dodd.  Well, make sure you come up here and talk 
with us on these treaties because they are important. I am sure 
the chairman would underscore that point as well----
    Dr. Rice.  Absolutely.
    Senator Dodd [continuing]. ----that we would like to be 
involved.
    Let me jump quickly because the time is going to move here. 
Senator Martinez and others have raised the issue of Cuba. 
Again, no one is here apologizing or defending Fidel Castro at 
all. But one of the things that struck me--again, your opening 
statement talked to this, and I think you rightly point out in 
1989-1991, I remember being in the Senate and watching those 
miraculous events occurring. You are so right to point out this 
just was not a victory of that year. This was a victory that 
took years to achieve.
    And one of the things that I think contributed to it--and I 
presume you would agree with this--in addition to our military 
prowess, which was very important, was the amount of access we 
had, the amount of information we punched into those eastern 
bloc countries that gave hope to people like Lech Walesa and 
Vaclav Havel and others who, because there was that 
communication and contact back and forth and I think 
contributed to the collapse of the Soviet Union--you might 
argue it was not an overwhelming reason, but it certainly was a 
major factor.
    What troubles me here is that we are going the opposite 
direction in a sense in dealing with Cuba in many ways. I hear 
no idea to change anything at all. Tonight, if I walked out 
here, I could go to any country in the world if they would 
accept me. I can fly to Iran. I can go to Iraq. I can go to 
North Korea. They may not let me in. But my own Government will 
let me go there. The only place in the world that I cannot go 
to, nor can a Cuban American to see their family, is the island 
nation of Cuba.
    Why do we make such a difference or distinction on that 
country if we are trying to break down those barriers and to 
demonstrate to the Cuban people that we are different? Why is 
it we deny Cuban Americans, second and third generations, the 
opportunity to go and visit their families, put limitations on 
the remittances that go back? Is there not a greater 
possibility, given our earlier experience in the latter part of 
the 20th century, that we might have a greater chance of 
effectuating change there than keeping it isolated and closed 
off?
    Dr. Rice.  Well, Senator, there are those who believe that 
that is the case.
    Senator Dodd.  Well, did it not work in part in eastern 
Europe?
    Dr. Rice.  Well, it worked in part in eastern Europe but it 
worked in part in eastern Europe after a long time in which 
those countries were actually quite isolated. It did not happen 
overnight in eastern Europe.
    Senator Dodd.  We had Radio Free Europe. We had all those 
activities.
    Dr. Rice.  These were countries that it was possible to 
actually access a civil society. It was possible to actually 
access university students and the like. Castro keeps such a 
tight lid and such a tight handle on that regime----
    Senator Dodd.  That is another point. Let him turn me down 
if show up to go in. Why are you telling me I cannot go? I can 
go to North Korea. Right? I can fly to North Korea. You would 
let me go there, would you not?
    Dr. Rice.  Yes, if you would like to go.
    Senator Dodd.  Yes, but there is nothing that prohibits me 
from going. I can go to Iran. I can go to Iraq tonight if I 
wanted to. The only country you will not let me go to is the 
island nation of Cuba. Why does the----
    Dr. Rice.  Because the Cuban regime would use your travel 
and the skimming off the top of that travel----
    Senator Dodd.  And North Korea would not do that?
    Dr. Rice [continuing]. ----to continue to strengthen the 
hold of that brutal regime. And that is what Castro does. He 
uses humanitarian efforts by people with their families. He 
uses travel. He uses every possible way to skim the money to--
--
    Senator Dodd.  But, Doctor, you are not going to tell me 
you are going to make that distinction there and tell me that 
all these other places I mentioned are not equally as brutal 
and can be more brutal. In fact, some of them are directly 
involved in exporting terrorism, shipping weapons around the 
world. You cannot say that about the Cuban Government at this 
point. They may have earlier but not today.
    Dr. Rice.  Senator, not that many people are going to go to 
North Korea.
    Castro has made a living of siphoning money off of travel, 
off of mules that he sends, off of humanitarian packages. The 
Cuban regime needs to be isolated in this hemisphere.
    Senator Dodd.  All right. The point is--enough said.
    Thanks, Mr. Chairman. Thank you.
    The Chairman. Thank you, Senator Dodd.
    Senator Chafee.
    Senator Chafee.  I pass.
    The Chairman. Senator Chafee passes.
    Senator Kerry.
    Senator Kerry.  Thank you very much, Mr. Chairman. Thank 
you, Dr. Rice, for your patience and hanging in here.
    I have got a few areas of inquiry that I would like to 
pursue if I can.
    Number one, have you read this article in the New Yorker by 
Sy Hersh? Are you familiar with it?
    Dr. Rice.  I am familiar with it, but I have not read it, 
Senator.
    Senator Kerry.  Coming wars. Just to quote from it for a 
minute, he talks about the administration conducting secret 
reconnaissance missions inside Iran at least since last summer. 
He talks about the administration looking at the region as a 
huge war zone, and next we are going to have the Iranian 
campaign. This is a quote from the Bush administration former 
high level intelligence official. ``Next we're going to have 
the Iranian campaign. We've declared war on the bad guys 
wherever they are, the enemy. This is the last hurrah. We've 
got four years and want to come out of this saying we won war 
on terrorism.''
    I am not going to ask you to comment on anything 
classified, but I am going to ask you to comment on this. A 
former high level intelligence official told me: ``They don't 
want to make any WMD intelligence mistakes as in Iraq. The 
Republicans can't have two of those. There's no education in 
the second kick of a mule. The official added that the 
government of Pervaiz Musharraf, the Pakistani President, has 
won a high price for its cooperation: American assurance that 
Pakistan will not have to hand over A.Q. Khan, known as the 
father of Pakistan's nuclear bombs, to the IAEA or to any other 
international authorities for questioning.'' Do you know 
whether or not that is accurate?
    Dr. Rice.  I will just reiterate what was said about that 
article by the Defense Department. It is filled with 
inaccuracies and its credibility is sorely lacking. The----
    Senator Kerry.  Well, on that specific point----
    Dr. Rice.  Let me just speak to the handling of A.Q. Khan. 
What we have been concerned about is that we are able to get 
the information that we need to break up the network. We have 
not made any deals about what happens with him.
    Senator Kerry.  I am sorry.
    Dr. Rice.  We have not made any deals about what happens 
with him, but we have been concerned with the Pakistani 
Government to get access to as much information as we possibly 
can. This is a matter that is being handled by the Pakistanis. 
It is not our place to talk about what should or should not 
happen with the IAEA, and we have not.
    Senator Kerry.  So what about our own interests and our own 
efforts with respect to A.Q. Khan?
    Dr. Rice.  Our own interests are being very well served by 
the fact that A.Q. Khan is now off the market, that we are 
working with the Pakistanis to get information about what he 
knows, very well served by cooperation with several other 
governments about members of his network. Several of them are 
in custody. Some will be prosecuted. So our interests are very 
well being served in this regard.
    Senator Kerry.  Are they being served if we do not have 
direct access to him?
    Dr. Rice.  We believe that we have a working relationship 
with Pakistan on dealing with the A.Q. Khan matter. At this 
point we are getting cooperation from Pakistan on what we need 
with A.Q. Khan.
    Senator Kerry.  But are they being served if we do not have 
direct access to him?
    Dr. Rice.  They are being served at this point.
    Senator Kerry.  Adequately?
    Dr. Rice.  We are getting the information that we need to 
deal with the A.Q. Khan network. Senator, I do not know what we 
will need to ask in the future, but at this point we have a 
good working relationship with Pakistan on this matter.
    Senator Kerry.  And with respect to Iran, are you also 
denying or discounting any of the allegations in this article?
    Dr. Rice.  The article is inaccurate.
    Senator Kerry.  With respect to Iran.
    Dr. Rice.  The article is, as Defense said, inaccurate.
    Senator Kerry.  With respect to Iran.
    Dr. Rice.  Senator, the article does not represent our 
policies toward Iran or our expectations of policies toward 
Iran.
    Senator Kerry.  Coming back, if I may, for a minute to 
Iraq, what steps are you going to take in the immediacy of your 
confirmation in the next days, if you have thought about this, 
or if any, prior to the election, to put in place the kind of 
political reconciliation that I talked about at the very 
beginning in the morning? Have you thought that through?
    Dr. Rice.  Well, the Iraqis are trying to put in place a 
means for political reconciliation to the degree of what is 
needed for political reconciliation after the elections.
    Senator Kerry.  You do not think we have a specific role to 
play with the Europeans and Arab community?
    Dr. Rice.  We certainly have a role to play and we have 
played that role in doing what we can to encourage contacts 
between the Sunnis and certainly the members of the Iraqi 
interim government. We have tried to help with that. We have 
tried to facilitate it.
    You know, they have their own contacts that are, frankly, 
much better even than our own. They are reaching out to the 
tribal leaders. Sheikh Gazi al-Yawar, the President of Iraq, is 
himself an influential leader in Mosul, an influential Sunni, 
and as he says, many members of his tribe are also Shia. He is 
actively engaged. We help them, we talk to them, but really but 
this has to be an Iraqi process. I do not think we want this to 
be an American process.
    Senator Kerry.  Oh, I agree with that completely, which is 
really what I am getting at, because it has been, it is, and is 
still perceived as such. This was what was raised with me with 
almost all of the leaders that I met in the region. It is the 
urgency of the sense of reconciliation of coming together. I do 
not think they believe it is going on, and I am just reporting 
to you what I gleaned in the last few days, real serious 
concerns that it is not going on. And within the country 
itself, deep concerns.
    I cannot remember if it was in Mosul or Kirkuk the 
governor--incidentally, just a tribute to a lot of the Iraqis--
and I agree with you. So many of them want to vote. So many of 
them want the freedom. We understand all that and I am very 
sympathetic towards it.
    But this fellow was the governor. His brother had been 
killed. His son had been killed. His cousin had been killed and 
he still assumed the role of governor, which says something. 
But he and others were all complaining about just sort of the 
lack of communication, lack of contact, sense of divorce and 
alienation from Baghdad and so forth.
    So the urgency seemed to leap out everywhere, whether it 
was Sunni, Shia, secular, religious, whoever I met with. And 
especially leaders in the surrounding countries who feel that a 
major effort is going to be necessary, almost a convening--I am 
sure you are familiar with it, but whether it is right in the 
focus right now--but in the 8 June resolution in the United 
Nations, section 5 specifically invites the Government of Iraq 
to consider how the convening of an international meeting could 
support the above process, the above process being the forming 
of the transitional government and this kind of reconciliation 
I am talking about.
    So you really have this already solidly laid out within the 
resolution itself, but there does not seem to be the kind of 
organizational effort or initiative or leadership on the table 
to say this is what we are going to do and there is a post-
election process so you avoid any kind of post-election chaos.
    Dr. Rice.  Well, I think that they are very focused. I 
really do think that they are very active in reaching out. All 
that we hear from the embassy and from others about the 
contacts is that they are almost constant at this point.
    It is an Iraqi process. Some of it is transparent to us. 
Some of it is not, but that they are actively engaged in trying 
to reach out to all aspects, I have no doubt about that.
    As to the international piece, we have had one 
international conference and the King of Jordan just recently 
on January 6th brought people together. The Sunni leaders from 
around the world or around the region, like the King of Jordan 
and like the Saudis and others, are speaking out. When the 
meeting took place, the Egyptians spoke out. When we recently 
had a meeting in Egypt, the grand religious leader of Egypt 
spoke out to encourage Sunnis to participate in the vote. I 
think there is a lot of activity.
    Now, as to the post-election period, how to bring about a 
process of reconciliation after what will be a difficult and 
probably imperfect election, but nonetheless a tremendous step 
forward for the Iraqi people that they will hold this election, 
that is a process that I think the Iraqis themselves are 
discussing and trying to come to terms with how they are going 
to use the process of putting together the transitional 
assembly and then the process of writing the constitution to 
begin to overcome their divisions.
    But I have to say, Senator, I have been impressed with the 
degree to which they recognize the importance to use this next 
step as a step in the process of national reconciliation. They 
are not saying we are going to have elections and that is it.
    Senator Kerry.  Well, I know they are not saying that, but 
with all due respect, I was in Jordan the night before that 
meeting. I met with several of the foreign ministers who were 
at that meeting, including the Syrian, may I add. You have been 
pretty tough on Syria here today, but Syria tried to cooperate 
and send its foreign minister and specifically stood up and 
said, yes, the elections ought to take place. Each of the 
foreign ministers that I met with there, as well as King 
Abdullah, as well as President Assad and others, talked about 
this Sunni alienation, as well as intimidation, but alienation 
beyond the intimidation.
    There is a lot of curiosity because there is such a history 
here. I do not know if you have had a chance to ever read a 
book I happen to read going over there. It was Desert Queen by 
Gertrude Bell. You read about her meetings in Cairo in 1919 and 
she is sitting there talking about Mesopotamia--Iraq did not 
exist--and how they were going to divide up completely separate 
interests between Shia, Sunni, Kurds, Jews, Christians, et 
cetera, none of whose interests mixed. We are doing the same 
thing.
    Dr. Rice.  Well, Senator, I think it is better than that. 
This would not be the first time in history that countries 
through a process of democratization, through a process of 
building institutions start to overcome differences that seemed 
irreconcilable in the past. This would not be the first time 
that that has happened. We are watching a process in 
Afghanistan where precisely that is happening, and I do not 
think you would have bet on Afghanistan to be able to carry 
that forward either.
    Senator Kerry.  Actually I did.
    Dr. Rice.  Good.
    Senator Kerry.  And I supported that, if you will recall.
    Dr. Rice.  I know you supported it, but there were many 
people who did not think that they would ever reconcile Pashtun 
and the various ethnic groups of Afghanistan.
    Senator Kerry.  But they are very different in a lot of 
ways, and that is what concerns a lot of people who are 
struggling with this now.
    Look, I do not pretend to be an expert, but I know how to 
listen to people who have lived there all their lives and who 
talk through the history. I think they all have an interest in 
seeing things stabilized and work. I come at this from the 
position of I want it to work. We all want it to work.
    But I am just relaying to you that there is a deep-rooted 
skepticism in the region among people who are potential players 
and existing players, some more visible than others in some 
countries and some very much on the line like Jordan or Egypt 
who are deeply concerned about the lack of a sense of how this 
reconciliation itself is going to take place.
    Dr. Rice.  Well, what we have been saying to them is that 
they can translate that concern into action because this is an 
Iraqi process, but it is also a process that can include the 
neighbors. In recent weeks, I do think that the King of Jordan 
and others have made more efforts to reach out to Sunnis 
themselves and to be part of the reconciliation effort.
    It is one thing for them to express concern. It is another 
thing for them to realize that they actually have a role to 
play in the reconciliation and stabilization of Iraq. And I 
think we are beginning to see that.
    Senator Kerry.  But it is another thing also for them to 
put their political necks on the line when they have seen a 
series of, frankly, unilateral and, to them, insensitive steps 
taken that have worsened the situation and not made it better. 
For a population in Jordan that is majority Sunni and for a 
population in Egypt, majority Sunni, likewise in Saudi Arabia, 
this is complicated. So it does not come easily to step in if 
they do not see how it is going to play out, which is why I am 
saying this international effort. And I heard it in Europe from 
the European leaders likewise. I think there is a readiness for 
it, and if I were you, I would embrace it and want to get in 
there. And I think you will be surprised pleasantly at the 
possibilities. But if we stand back and we are not willing to 
share both decision-making and listening, I think we are going 
to invite more problems.
    Dr. Rice.  I appreciate that, Senator. I just want to 
assure you that we are reaching out and we are encouraging 
international partners to be as active in Iraq as they possibly 
can be. There has been some hesitancy. I think the security 
situation has made some people uncomfortable about certain 
kinds of activity. But we are all hands on deck. We believe 
very strongly that a free and democratic Iraq, a stable Iraq is 
going to be in everybody's interest, and the opposite is true. 
If Iraq does not find stability, then that is going to be to 
everybody's detriment. And that is the message that we have 
been carrying, and I think that after these elections, we will 
try to carry it even more strongly.
    Senator Kerry.  I do have some more questions, but I see my 
colleague is waiting also. So I will pass to him and then I 
will come back.
    The Chairman. Senator Voinovich.
    Senator Voinovich.  I am just staying here to keep the 
Chairman company.
    I pass on my questions.
    The Chairman. All right. Senator Voinovich passes, and we 
revert back to Senator Kerry.
    Senator Kerry.  Thank you.
    North Korea. There are a lot of observers, and I heard this 
throughout the campaign and we obviously went back and forth on 
the subject of Six Party versus alternatives. Your predecessor, 
Secretary Powell, at one point announced that the 
administration was going to proceed forward with bilateral 
talks following up on the Clinton administration, and even 
while Kim Dae-jung was here, the President announced otherwise 
from the Oval Office. Since then, we went through a period 
where there was no discussion at all, no dialogue at all, and 
then finally under pressure, the Six Party Talks came together. 
But generally speaking, observers have indicated to me that 
those Six Party Talks are really waiting for U.S. leadership 
and for a change in U.S. position that moves it forward.
    Do you have any feeling at this point that you might be 
prepared to recommend to the President or that the President 
will and you will engage in bilateral discussions that might 
try to resolve this question of nonaggression versus progress 
on the nuclear program?
    Dr. Rice.  I think, Senator, that the North Koreans should 
be well aware that the United States has no intention to invade 
them or attack them--we have said that--and that there are 
multilateral security assurances that are available to them if 
they choose to take them. Now, obviously, if there are 
multilateral security assurances, the United States would be 
one of the parties to those security assurances.
    We did put a new proposal on the table at the last round of 
the Six Party Talks. The North Koreans were unresponsive. Some 
say that they wanted to bide their time a bit and that they 
will get back to us now that they are trying to position 
themselves for the President's second term.
    But I really do think that we have to step back and 
recognize that what happened in the '94 agreement--and by the 
way, at the time it was probably the right thing to do, but we 
know now that the North Koreans, within just a couple of years 
perhaps, were violating that agreement by pursuing a separate 
route to a nuclear weapon, a highly enriched uranium route.
    Jim Kelly, the Assistant Secretary for Asia, was all set to 
go to North Korea and say here is a bold approach on how we can 
change the nature of North Korean/U.S. relations. And it had 
all the things that you might imagine in it about what role we 
might play in economic assistance, what we could do in 
humanitarian assistance, so forth and so on.
    On the way to that, we learned in a definitive way that was 
not available to the Clinton administration about this HEU 
program. So when Jim got there, he told them we also know you 
have an HEU program. First they admitted it. Then they shut 
down. And the bilateral route at that point was really closed 
to us, and it had not been effective.
    Our strong view is that the Six Party Talks has the 
advantage of not letting the North Koreans play us off against 
the others. It has the advantage of having China at the table, 
and China has much greater leverage with North Korea than we 
will ever have. And it has the advantage of having the parties 
in the region work together on a serious security problem.
    Now, I am hopeful that the North Koreans, seeing no other 
option but to recognize that they are going to have to give up 
their nuclear weapons program in a verifiable way, that they 
are going to be persuaded to come back to the talks.
    But as to the question of what they have to fear from the 
United States, the President has been very clear that we do not 
have any intention to invade them, any intention to attack 
them, and that there is another path that could be there for 
them, but the roadblock on that path is the North Korean 
program. So sometimes there is a tendency to think that the 
problem is U.S. policy. The problem is North Korean regime that 
has not yet made a fundamental choice, and we just have to 
press them to make a fundamental choice.
    Senator Kerry.  That is different from what one hears from 
some of the other parties to the talks themselves who believe 
that we have not put something sufficient on the table. Now, we 
are not going to iron this out here and now, but I would love 
to pursue that with you at some point in time.
    I mean, if that is true and they are now, let us say, up to 
the published publicly number of eight weapons and it is again, 
as we have said about Iran, unacceptable that they do this, 
what do you view as the options that are on the table?
    Dr. Rice.  Well, we still believe that this is something 
that we can resolve diplomatically. We are committed to that 
course. Of course, the President never takes any option off the 
table, but I think we all know that this is something that 
needs to be resolved diplomatically.
    Senator Kerry.  Given the intransigence and the cheating, 
why does this lend itself more to being resolved diplomatically 
than Iraq?
    Dr. Rice.  Because, Senator, despite the problems with 
North Korea, it is actually not sitting in the middle of the 
Middle East. We have not gone to war with them twice in recent 
years.
    Senator Kerry.  Well, I am taking about before we went 
twice and we were working on once.
    Dr. Rice.  Well, they invaded Kuwait. That was the reason--
--
    Senator Kerry.  No, no, no. I am working after that. During 
the WMD inspection process.
    Dr. Rice.  Well, the WMD inspection process was simply not 
getting anywhere. I think the inspectors will tell you that 
while they were in the country, they were able to make some 
headway, but of course, Saddam Hussein----
    Senator Kerry.  I think the inspectors said--I do not want 
to go back and redebate it, but they said they were partially 
in compliance and partially out. That was the last report of 
Hans Blix.
    Dr. Rice.  Well, partially was not good enough----
    Senator Kerry.  Well, I understand that.
    Dr. Rice [continuing]. ----when you are talking about 
somebody who had used weapons of mass destruction. And so we 
could not accept partial compliance.
    But you asked me, Senator, what is the difference, and my--
--
    Senator Kerry.  Well, the difference is why could you not 
have gotten full compliance. You do not know the answer to that 
because you made a different decision.
    Dr. Rice.  Well, I do not think you were going to get full 
compliance from Saddam Hussein.
    Senator Kerry.  We know you do not think that.
    Dr. Rice.  Well, with American and coalition forces 
building up on his shores, he still decided not to comply with 
his international obligations. So that is pretty good evidence 
that he was not going to be convinced to comply.
    Senator Kerry.  But again, this goes into process, which I 
do not want to really go to for a number of different reasons. 
I am just trying to find the root of your confidence about this 
resolution with North Korea.
    Dr. Rice.  Oh, I did not say that I was confident that it 
would be resolved. I said that I thought we still had room for 
a diplomatic solution. We also, of course, have a vibrant 
deterrent on the Korean peninsula in the person of our alliance 
with South Korea.
    But if anyone is going to do anything about the North 
Korean nuclear program, it is going to be the combined pressure 
of its neighbors, not the United States alone. When we put the 
proposal on the table, one that, by the way, was discussed and 
vetted and talked about with our closest allies, Japan and 
South Korea, before we put it on the table, people did think 
that it was a step forward. The North Koreans have not 
responded. We will see if we can get them to respond.
    What I had really hoped that they would see is that there 
is another path. They do not have to be on this path, but they 
are going to have to recognize that there is no good path in 
the international system as long as they try to hold onto their 
nuclear weapons program.
    Senator Kerry.  And how do you distinguish that from Iran?
    Dr. Rice.  From Iran?
    Senator Kerry.  Yes, and the possibilities there.
    Dr. Rice.  Well, for one thing, I think with Iran we are 
dealing with a country that is not nearly as isolated as North 
Korea. The Iranian people are not going to eat bark as the 
North Koreans do, and so I think that we have some other 
instruments of pressure, if we are willing and able to mobilize 
them, on Iran.
    We are also in a somewhat earlier stage with Iran, and the 
IAEA, I think, is starting to try to function there in an 
effective way.
    We have some bilateral ways to try and deal with the 
Iranian nuclear program. I mentioned earlier that the Russians 
and their requirement with the Iranians that they sign the 
additional protocol and bring back the spent fuel.
    We simply have different tools with Iran than we had with 
North Korea and different tools with North Korea than we had 
with Iraq. That is the nature of dealing with these very 
different regimes.
    Senator Kerry.  Do you believe that we would be better 
advantaged with respect to Iran if we were to be either leading 
or at least joined into more directly and openly with the 
British, French, and Germans in their initiative?
    Dr. Rice.  I think the British, French, and Germans know 
that we are coordinating with them, that we are skeptical that 
this is going to work, but we certainly hope that it is going 
to work. We will see how far the Europeans get. Someone needs 
to test the Iranian willingness to live up to their 
international obligations, and that is what the EU-3 are doing.
    Senator Kerry.  Why not be part of it?
    Dr. Rice.  I think it is always very important, Senator, 
that the Iranians know that the United States is not prepared 
at this point to take away the possibility that the real course 
ought to be here to declare them not in compliance and take 
them to the Security Council.
    Senator Kerry.  Do you not always have that option anyway? 
Is the option of sanctions and greater action not always on the 
table?
    Dr. Rice.  I think we think the best course right now, 
Senator, is to EU-3 see if they can get this agreement. We are 
skeptical about it.
    Senator Kerry.  Is this a good cop/bad cop routine, or is 
it something more thoughtful than that?
    Dr. Rice.  I think it is probably not a good thing for us 
to be involved in negotiations about which we are skeptical. 
Let us let them explore with the Iranians, and we will see what 
steps are needed by the United States.
    Senator Kerry.  Is it possible that your own skepticism 
breeds a failure?
    Dr. Rice.  I do not think so. I think if the Iranians are 
going to live up to their international obligations, the EU-3 
have given them plenty of reason to do it.
    Senator Kerry.  The Iraqi Stabilization Group that you were 
put in charge of October 2003 by almost everybody's judgments 
has disintegrated. People have left it. It has not been 
successful. I wonder if you would speak to that. There were a 
half dozen agencies or so that were supposed to identify and 
resolve problems. How would you characterize the work and 
effect of that group?
    Dr. Rice.  The Iraq Stabilization Group, Senator, was 
actually an internal NSC group. It was not an interagency 
group.
    Senator Kerry.  Well, you had a half dozen agencies that 
were part of it that were reporting to you as part of it, were 
they not?
    Dr. Rice.  No. The role of the Iraq Stabilization Group was 
to improve the information flow during the period of time when 
we had the CPA in place. It was to try and de-bottleneck back 
here when there were problems for the CPA. We were very active 
and I think played a very important and useful role in the 
governance issues so that Bob Blackwell, who at the time was 
heading the Iraq Stabilization Group on governance and had an 
under secretary's group on governance, was very active in 
working with Lakhdar Brahimi in bringing about the Iraq interim 
government. So that was a very successful outcome of having the 
Iraq Stabilization Group.
    But it was a group that was really there for the period in 
which the Coalition Provisional Authority was moving from one 
that had been almost exclusively in the chain of command for 
the Defense Department to one that needed more interagency 
back-stopping back here. Many of those functions have really 
now been taken over by the United States embassy and by the 
State Department.
    Senator Kerry.  Well, in the Washington Post--maybe they 
got it wrong, but they characterized it as the new group to be 
led by National Security Advisor Condoleezza Rice and drawn 
from more than a half dozen cabinet agencies----
    Dr. Rice.  Let me just make the distinction that the Iraq 
Stabilization Group was an intra-NSC group.
    Senator Kerry.  No, I understand that.
    Dr. Rice.  It reached out to and tried to help the CPA by 
bringing together interagency teams when it was necessary to 
try and get something done. We tried to improve the information 
flow. We tried to improve the coordination back here. We tried 
to de-bottleneck for the CPA. When the CPA needed some help, 
for instance, on the currency reforms, we worked with the 
Treasury to get the right people out there from Treasury to do 
the currency reform, which was actually very successful.
    Senator Kerry.  Was this an effort to try to straighten out 
what the military itself was not able to do or not doing?
    Dr. Rice.  It was an effort to move from a stage at which 
it had been almost exclusively Defense Department and military 
to a period in which you needed better interagency support for 
what the CPA was doing.
    Senator Kerry.  How successful would you say it was?
    Dr. Rice.  I think it was successful in a number of ways. 
If you look at several projects, the currency reform I think 
was very successful. I think that we were very successful on 
the governance issues. Again, Bob Blackwell, who was the chair 
of the governance Iraq Stabilization Group, was very active 
with Lakhdar Brahimi in bringing about the Iraqi interim 
government. I do not think it would have happened without the 
activities of that group. So it had its successes. Bottlenecks 
also remained and we continued to work on them.
    I think it is a much smoother system, frankly, with an 
embassy and an ambassador who can oversee those things with the 
back-stopping of the State Department and the interagency 
process of which the State Department is in the lead.
    Senator Kerry.  Has been?
    Dr. Rice.  I think it has been smoother----
    Senator Kerry.  Smoother.
    Dr. Rice [continuing]. ----with an embassy in place that 
can be the coordination in the field. We have always had the 
view that most of the interagency coordination ought to 
actually be done in the field.
    Senator Kerry.  How does that reconcile with the pretty 
strong opinion you had that you wrote in Foreign Affairs when 
you said the President must remember that the military is a 
special instrument? It is lethal and it is meant to be. It is 
not a civilian police force. It is not a political referee. It 
is most certainly not designed to build a civilian society. 
What happened?
    Dr. Rice.  Well, we found ourselves building a civilian 
society, and we frankly as a country do not really have the 
tools outside of the military to do it, which is why the work 
that Senator Lugar has done in sponsoring this office of 
reconstruction and stabilization is such important work. We 
need a civilian corps that can do the kinds of things that we 
had to put together in a really rather ad hoc fashion in 
Afghanistan, in Iraq, even frankly in Bosnia-Herzegovina going 
all the way back. This has been a need, a set of skills that I 
think we will want to have in a more coherent and directed way. 
That is why I think we have to give very great support to this 
office of stabilization and reconstruction. It would have been 
very helpful to have it in the past couple of years.
    Senator Kerry.  Do you think that that misjudgment about 
what it can or cannot do--and I say misjudgment in broad 
terms--has complicated choices that you may face and the 
President may face today as a result of the stretching pretty 
thin of our military forces, numbers of divisions, active duty, 
equipment? The commanders over there tell me that in a matter 
of months, you put on several years of wear and tear on 
equipment. There is going to be a huge equipment deficit at the 
back end of this that America has yet to really see the bill 
for. I gather 1 year there is worth 7 years on an aircraft.
    Dr. Rice.  Well, we have been at war and we have had to use 
our forces and use them hard. I think that Secretary Rumsfeld 
is giving a lot of attention to how to deal with the 
obligations that we have and the structure of our forces. We 
believe we can continue to meet obligations that we have 
globally with the forces that we have, but there is no doubt as 
to the matter of how one transitions from war to peace and that 
intermediate stage that we need new skills and new 
organizations in order to be able to do that. The military 
fights and wins the war. There is a period of time, I think 
appropriately, where the military is really the dominant force 
on the ground. But as you move to civilian reconstruction, you 
need people who understand legal reform and understand how to 
build a civil justice system and a police system, how to change 
a currency, and that is what we are going to try to build.
    Senator Kerry.  I know that Senator Lugar has long been 
concerned about this. A lot of us on the committee have. But I 
must say to you that I am deeply concerned. I recommended that 
we add another 40,000 troops. I gather there is going to be an 
addition of some 30,000 without formally creating new 
divisions. But I think we are way behind the curve in terms of 
this civilian side combined public diplomacy component, and I 
do not think the budget begins to match what it needs to. And 
when you look at the other side of the costs I just described, 
the back-end military equipment, et cetera, the American 
taxpayer, to pursue this properly, has a--it goesback to what 
Senator Biden was saying earlier about kind of telling the 
American people what is expected of them. I do not personally 
think it is all on the table sufficiently when you combine the 
needs of the counterproliferation efforts with various 
challenges of the human condition with various challenges of 
the narcotics and other environmental and other kinds of 
efforts that are all sort of growing rather than receding.
    And then you add it to what Senator Sarbanes has been 
saying about our overall fiscal challenge here. We have some 
very, very tough choices ahead of us and I hope the 
administration and you will really put them to the Congress and 
to the American people because the outcome is obviously 
gigantic, but we have got to be on the right track.
    With that in mind, I would just like to ask you a couple 
more quick things, and I appreciate your patience.
    You wrote or said--I cannot remember whether it was in a 
speech--that the terrorist ideology is the direct heir to 
communism and naziism and fascism. That struggle against terror 
is fundamentally a struggle of vision and values. Do you really 
see terrorism as an ideology? Is it not really anarchy?
    Dr. Rice.  Senator, I think it is really--terrorism is the 
tool of Islamic extremism. That is really what I was referring 
to in that article.
    Senator Kerry.  You would not really think of it as an 
ideology.
    Dr. Rice.  I think of Islamic extremism as an ideology.
    Senator Kerry.  So do I. Terror is the----
    Dr. Rice.  Right. We have talked a lot about this. The fact 
is that early on what we have had to do is to talk about 
terrorism in order to delegitimize it, and I think we are doing 
a good job internationally of delegitimizing it. Saying that no 
cause can be served by the use of terrorism is an extremely 
important message. But there is no doubt that when you talk 
about al Qaeda or you talk about the threats to the Middle East 
or the threats to the Pakistan or what operated out of 
Afghanistan, you are talking about a virulent form of extremism 
coming, in large part, out of the Middle East, which is a 
perversion of Islam.
    Senator Kerry.  Do you believe that we can do a better job 
than we have been of bridging that gap, of reaching out to 
moderate Islam, bringing mullahs, clerics, imams, et cetera 
together, along with leaders of other religions and having a 
much more concerted global dialogue on this?
    Dr. Rice.  I do think that interface efforts are very 
important and should be done. I think a lot of it is going on 
in the private sector, and I actually am not sure that this is 
something that the U.S. Government would do better than letting 
the private sector----
    Senator Kerry.  Well, is it not really a part of public 
diplomacy? There is no way to----
    Dr. Rice.  It is certainly a part of public diplomacy, 
Senator, but I often think that we are too narrow in our 
definition public diplomacy if we only think it is something 
the U.S. Government is going to do.
    Senator Kerry [continuing]. ----Well, this will be the 
first time this administration left a faith-based analysis 
lying by the wayside.
    Dr. Rice.  Well, the faith-based analysis here I would 
agree with, and I think the need for interfaith dialogue is 
important. I would hope it would happen in the society more 
broadly.
    But on the debate that is going on within Islam itself, 
that is also an extremely important debate. We cannot be the 
ones who carry that debate. Moderate imams, moderate mosques, 
moderate universities have got to do that.
    Senator Kerry.  Of course, but they're anxious. I met with 
one of the principal leaders of Islam in Cairo, and they are 
fighting their own struggle. I think they are interested in 
seeing us and others reach out in a way that tries to help 
bridge the gap because it has serious implications in their 
countries.
    Dr. Rice.  I could not agree more, and we should be doing 
that. We are trying in some ways. The broader Middle East 
Forum, the forum for the future, allows for moderate voices, 
civil society, business groups, other groups, to come together 
in kind of space that they can engage each other, and I think 
that is very important.
    You take a country like Pakistan, it has come a long way. 
It was, 3 and a half years ago, on the brink of really going 
completely to extremism, with its ties to the Taliban, with 
thorough penetration of al Qaeda. If you look now at the way 
that they fight instead al Qaeda and if you look at one of my 
top 10 speeches that any leader has given in recent years, it 
was a speech that Musharraf gave on December 12th after the 
attack on the Indian parliament in which he said that extremism 
and modernism cannot exist side by side in Pakistan. That has 
given rise to very promising developments, if you think about 
it, in South Asia. As India and Pakistan start feeling a better 
future, I think in part that has been fueled by Pakistan's 
unwillingness to be associated with extremism and India's 
democracy and a very healthy set of developments there. They 
are small steps still and it is still fragile.
    Senator Kerry.  Yes, they are and I agree with you. I hope 
you will really take a look at this. I think it is an important 
mark of the current leadership because there are such political 
and obviously security overtones attached to this so that it 
cannot be left exclusively to the realm of whatever religious 
initiatives are going to take place.
    And secondly, it is paramount because we have an urgent 
need to isolate the terrorists rather than having them isolate 
us or having extremists isolate us. In many parts of the world, 
we have been the ones. I think you know that.
    A couple of last questions. You also wrote at one point 
that you moved our Nation beyond antiquated theories like 
mutual assured destruction and moved forward with the 
deployment of ballistic missile defense. To the best of my 
knowledge, obviously, not to be cute, but we do not have a 
ballistic missile defense yet. And the outlook as to when we 
might have the kind of defense that really obviates mutual 
assured destruction is anybody's guess.
    Do you really believe it is ``antiquated'' after your 
experience as a student of the Soviet Union and what we 
succeeded in doing and what Ronald Reagan succeeded in doing in 
all of this?
    Dr. Rice.  Senator, it was meant really to reflect a change 
in the relationship between the United States and Russia. I do 
think mutually assured destruction was antiquated in regards to 
the United States and Russia. With the United States and the 
Soviet Union, there was nothing----
    Senator Kerry.  But you are not referring generically----
    Dr. Rice [continuing]. ----coming between us but mutually 
assured destruction. The change here was to say to the Russians 
that when we are no longer enemies, mutually assured 
destruction does not make any sense. We need to have a 
different kind of relationship.
    And by the way, on ballistic missile defense, we will, I 
think, have initial operating capability fairly soon, but the 
important thing is that we are exploring the technologies now, 
working toward the development of the systems. We are getting a 
lot of interest in these systems from some corners that one 
might not expect. We have even had discussions with the 
Russians about what we might do to deal with the threat of 
ballistic missiles.
    Senator Kerry.  Well, I support the research and the 
development. I am skeptical of a rapid deployment prior to its 
being adequately tested and proven, particularly given the 
financial concerns that we face as a country. But obviously, we 
ought to pursue it, and if it is feasible, I think there are 
ways to make it safer.
    Dr. Rice.  Well, we will deploy. We actually have begun 
deployment and will continue deployment because we believe that 
sometimes it is important to start getting the initial 
capability in place.
    Senator Kerry.  If I can just say, summarizing, a couple of 
things. Number one, you said earlier that you support the State 
Department's new office of reconstruction and stabilization so 
that our skills in nation-building can be honed and we can do 
the job. And we need to do that, and all of us agree. But 
regrettably, the State Department itself issued a report saying 
that its own plan for that kind of stabilization and effort in 
Iraq was ignored.
    So we have had a process here, and I am not going to go 
through it all. But I think a lot of us are hoping--let me just 
take this instance to say something about your predecessor.
    I think Colin Powell pushed as hard as he could. I think he 
wanted to do those things. I think he is obviously an 
exceptional public servant. We owe him a great deal, a great 
debt of gratitude for that service. And I have great respect 
for him. I know that he fought for things and was skeptical 
about things that others were more certain of and went forward 
notwithstanding his advice and counsel. And I know that the 
State Department had very significant plans and concerns that, 
had they been adequately embraced and adequately implemented, 
might have really saved us not just lives, but money and 
prestige and relationships in the world.
    You do not have to comment on this, but you pick up the 
newspapers almost anywhere and you read about how the President 
is going to be going to Europe shortly in order to repair 
relationships. Now, you might not use that language, but the 
language is used universally around the world.
    So my hope is--and I say this with the deepest commitment 
to working in a bipartisan way when we can. When we cannot, 
when criticism is appropriate, I intend to level it. But after 
20-plus years on this committee and working with people like 
Senator Lugar and others and watching the balance shift here so 
many times, we all know that we are strongest when we are 
together. We are strongest when we are bipartisan. Historically 
in the old days with Senator Vandenberg and others, foreign 
policy picked up in a bipartisan fashion almost always and 
politics ended at the water's edge.
    I think that is how it ought to be if it is properly done, 
but that requires a level of consultation, a level of respect, 
a level of listening and of dialogue that just has been absent, 
unlike any period of time since I have served here in the 
Senate. I think there was greater dialogue and greater 
discussion and greater trust and less ideology with President 
Reagan, with George Herbert Walker Bush, and going back in 
history.
    So my hope is that you are going to herald a new period. 
Everybody knows the trust that the President has in you. 
Everybody knows the closeness of your relationship. You have 
the President's ear. You would not be here. So we are all 
really asking for an opportunity to try to bind the wounds up, 
bring the country together, find the common ground.
    I think the world is waiting for a different approach, and 
I am confident that if the President offers the genuine 
opportunities for this kind of mutuality, not just here but 
abroad, you will be able to advance the interests of our 
country and of the planet. I think that history can be written 
in a different way than it has been in the last 4 years.
    So I hope you will seize that opportunity and I hope that 
we have the opportunity to work together. I pledge to you that 
if you reach out and if there are ways to find that common 
ground in the interests of our country, I am prepared to meet 
you halfway, which I think we need to do.
    Dr. Rice.  Thank you, Senator, and I fully accept and look 
forward to working with you.
    Senator Kerry.  Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Well, thank you very much, Senator Kerry, and 
that is a good note on which to conclude today, that there is a 
reaching out to work together. I thank you, Dr. Rice, and 
members of the committee for over 9 and a half hours of 
testimony today. We look forward to seeing you again tomorrow 
morning at 9 o'clock. Providence willing, we will have a 
business meeting at 10:00.
    Dr. Rice.  Thank you.
    The Chairman. The hearing is adjourned.

    [Whereupon, at 7:45 p.m., the committee was recessed, to 
reconvene at 9:00 a.m., Wednesday, January 19, 2005.]



    THE NOMINATION OF DR. CONDOLEEZZA RICE TO BE SECRETARY OF STATE

                              ----------                              




                                Day Two

                              ----------                              


                      Wednesday, January 19, 2005

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                   Washington, D.C.
    The committee met, pursuant to notice, at 9:02 a.m. in Room 
SH-216, Hart Senate Office Building, Hon. Richard G. Lugar, 
chairman of the committee, presiding.
    Present: Senators Lugar, Hagel, Chafee, Allen, Coleman, 
Voinovich, Alexander, Sununu, Murkowski, Martinez, Biden, Dodd, 
Kerry, Feingold, Boxer, Nelson, and Obama.

          OPENING STATEMENT OF HON. RICHARD G. LUGAR,
                   U.S. SENATOR FROM INDIANA

    The Chairman. This hearing of the Senate Foreign Relations 
Committee is called to order.
    We appreciate the attendance of Senators. We appreciate, 
especially, the attendance of our witness, the nominee for 
Secretary of State, Dr. Condoleezza Rice. I want to thank Dr. 
Rice, her staff, and all Members for their diligence throughout 
yesterday. As has been mentioned, we had over nine hours of 
testimony, including, I think, very good questions and very 
good answers. I was just visiting with my colleague Senator 
Boxer. Almost every point of view of the American public was 
heard.
    We want to continue this morning with another round of 
questioning from committee Members who have remaining questions 
to ask. Some do have questions, some do not; and, therefore, a 
number of Members will pass. We will have a five-minute round. 
This will conclude at 10:00 o'clock. We've announced to Members 
that they should anticipate a business meeting and a roll-call 
vote on nomination, with that activity commencing at 10:00. 
But, prior to that time, we look forward to questioning.
    Now, let me say, from the beginning, at least on my part, I 
will pass on this round, and I will call now upon Senator Dodd 
for any remaining questions that he might have.
    Senator Dodd.  Well, thank you very much, Mr. Chairman, and 
let me join you in commending our colleagues in the committee 
yesterday, and our nominee, as well. It was a long day. If 
nothing else, I was very impressed with your tenaciousness to 
sit at that table and have 18 of us up here raising questions 
that covered the entire globe, and matters of deep concern to 
all of us. And we appreciate your willingness to go through 
that. It was a long day, but, I think, a worthwhile one, Mr. 
Chairman, as you point out. And I'm sure our colleague, Senator 
Biden--I don't know if he's going to be along or not this 
morning.
    I just have a couple of matters I'd like to raise----
    The Chairman. Very well.
    Senator Dodd [continuing]. ----if I may, with you, as this 
time moves on, of--a little more than ten days ago, Dr. Rice, a 
disturbing report surfaced that the United States--
specifically, the CIA--was making a practice of handing over 
detainees from U.S. control to a third country for the purposes 
of interrogation. This process is referred to as ``rendition,'' 
I think, is what it's called. And the Intelligence Agency 
admits to practicing it since the early 1990s. In this report, 
there are several accounts of prisoners being transferred by 
the U.S. to certain countries, and then allegedly being 
tortured during those interrogations.
    Last year, I introduced an amendment to the defense 
authorization bill, part of which would have prevented the 
Department of Defense from transferring prisoners to third 
countries without keeping a record of the transfer, and the 
reasons for it. I wonder if you might comment on this, if 
you're familiar enough with the practice, and whether or not we 
might be willing at least to--one, at least, either preventing 
these renditions from occurring, or, if not, at least keeping 
some record so we have some way of determining how these people 
are being treated. Are you familiar----
    Dr. Rice.  Thank you, Senator.
    Senator Dodd [continuing]. ----with the subject matter?
    Dr. Rice.  Thank you, Senator. May I just take one moment, 
before answering the question, just to also thank the Members 
of the committee for yesterday? I think it was an extensive, 
some would say even exhaustive, look at the questions that we 
face in American foreign policy, but I think it was an 
important day. I appreciate, very much, the spirit in which the 
questions were asked. And I look forward--and I really meant 
what I said, and I want to underscore--I look forward to 
working with each and every Member of the committee in a 
bipartisan fashion so that we can fashion an American foreign 
policy for the 21st century that takes advantage of the 
substantial opportunities before us, recognizing that these are 
also difficult times for the country.
    And I want to thank you, especially, Mr. Chairman, for your 
leadership of yesterday, and to tell you that I look forward to 
many other sessions of that kind.
    The Chairman. Great.
    Dr. Rice.  Senator--now let me turn to Senator Dodd's 
question--the United States is not permitted to transfer anyone 
if we think that they are going to be tortured. And, in fact, 
we make efforts to ascertain, from any party, that this will 
not happen. And you can be certain that we will continue to do 
so.
    I want to be careful on commenting on intelligence matters, 
particularly in open session, but to say that we do--anything 
that is done, is done within the limits of the law. It is done 
with a recognition that the United States is special, and has 
special responsibilities, and that we will continue to do that.
    As to keeping a record, I would have to demur for now. I 
don't have enough information----
    Senator Dodd.  If you'd look at that for me, and get back--
--
    Dr. Rice.  I will, and I'd be happy to talk with you about 
it at some point, when we're not in open session.
    Senator Dodd.  Appreciate it. Another one--and I'll--this 
may be the last, Mr. Chairman, to make sure we have enough time 
for others as well--mentioned earlier, Senator Nelson, Senator 
Chafee, and I made this trip in--to South America. And one of 
the issues, obviously--it came up everywhere--is the contraband 
issues and the narco-trafficking issues. It's very, very common 
thing. The economic issue is important, as well. I'm not asking 
you to comment on this. I'd ask you to pay particular attention 
to that tri-border area----
    Dr. Rice.  Yes.
    Senator Dodd [continuing]. ----that Senator Chafee, Senator 
Nelson, and I spent some time in, that Brazilian, Argentinian, 
Paraguayan corner where there--it is the--the term ``The Wild 
West,'' in terms of contraband issues, and money flowing back 
and forth, and some very, very important questions. And there 
needs to be some specific attention, I think, paid to that, 
more attention than we are right now.
    The narco-trafficking issue, there's a great concern about 
the ballooning effect we've seen over the years, and that is 
where we've put a lot of attention, as we have, over $3 billion 
dollars in Columbia over the last few years. And there's 
concerns now of this problem reemerging again in Peru and 
Bolivia, where it was in the past, even parts of Brazil. The 
issues of Venezuela obviously get effected by these decisions, 
as well. And there is--really is a need, I think, for a more 
comprehensive approach to this.
    When we had the certification process here, which the 
Chairman and others will remember, it was a rather difficult 
process we went through, year end and year out, declaring which 
countries were complying, or not complying, with our anti-
narcotic efforts. It caused a lot of acrimony between countries 
that would be labeled not being supportive and the like. So we 
changed that, we dropped that. But we promised, when we did it, 
that we were going to replace it with something. Just doing 
nothing about it was not the answer.
    And part of what we talked about was developing a more 
comprehensive approach; whereas, the consuming country, we'd 
work more closely with the producing, transferring, money-
laundering nations, as well.
    I would urge you to see if we can't revitalize that. There 
is a growing concern with the great disparity of resources 
we're applying to these countries as they battle with these 
issues, and it's something that really deserves more attention 
or we're going to find this problem just moving from nation to 
nation in these countries without really addressing it more 
thoroughly.
    I don't know if you want to comment on that at all, or not, 
but I'd ask you to really pay attention to that, if you could.
    Dr. Rice.  Thank you Senator. I will take a hard look at 
it. We had, in concept, when we had the Andean Initiative, 
exactly this in mind, of course, which was that if you stop the 
spread narco-trafficking in one place, it would find a home in 
another. And it was intended to be comprehensive, in terms of 
alternative livelihoods and in terms of economic development to 
forestall that. But it's a very good point and I'll take a hard 
look at it.
    Senator Dodd.  Thank you.
    Thank you Mr. Chairman.
    The Chairman. Thank you very much, Senator Dodd.
    Many Senators have come in since the beginning of the 
hearing. Let me repeat, we're going to have a five-minute 
round. Senators are not obligated to use their five minutes. 
Some will want to pass. In any event, at 10:00 o'clock, 
Senators, we'll gather for a business meeting on the 
nomination.
    Senator Chafee?
    Senator Chafee.  Thank you, Mr. Chairman, and good morning, 
Dr. Rice.
    I see you're fourth in line for succession to the 
presidency. And so, this is an important hearing we're having. 
And also, in that line of succession, the only one that hasn't 
appeared before the public in any kind of capacity in electoral 
process, so this is an important process.
    Dr. Rice.  Thank you.
    Senator Chafee.  Going back to our questions of finding--my 
questions from yesterday--finding common ground. And as I look 
back in history--and you're a historian--and the success we had 
with the thaw with the People's Republic of China, had a lot to 
do with the exchange of pingpong teams of all things. And I 
always admired the architects of that doctrine, in that we knew 
the Chinese pingpong players were probably going to beat us 21 
to 2, or something, but that wasn't what was important; it was 
the start of finding common ground. And I was wondering--in 
some of my questions you seem to reject that doctrine of 
finding common ground.
    Dr. Rice.  Thank you Senator, for giving me an opportunity 
to answer that. Because, obviously, we need to look for common 
ground. There is no reason that the United States has to have 
permanent enemies. We have had circumstances in which there 
have been major changes in the world. And the Libyan experience 
shows that--if there are countries that are prepared to 
foreswear behavior that is dangerous to the international 
system, that we can start down a different path. And I'm glad 
that you mentioned the pingpong diplomacy, because, obviously, 
in almost every circumstance, the exchange of people of civil 
society, of non-governmental actors is often an important tool 
in thawing difficult relations. And so, I don't want to leave 
the impression that I would be, by any means, opposed to 
looking for those opportunities, and I will look for them.
    Senator Chafee.  Can we specifically go back to Venezuela, 
again? Where can we find common ground?
    Dr. Rice.  Well, we have, obviously--we talked about the 
economic relationship yesterday, and there's common ground 
there. We sit together in the OAS, we sit together in the 
Summit of the Americas. The point is that the--we don't have a 
problem with finding common ground. We have, right now, a 
government in Venezuela that has been unconstructive, in 
important ways. And I would just urge that the entire 
neighborhood, as well as the Venezuelan Government, look at 
what's happening, in terms of democracy in Venezuela, in terms 
of Venezuela's relations with its neighbors. But this is a 
matter of sadness, not of anger.
    Senator Chafee.  And with Iran, can you--is there any 
potential for finding common ground with Iran?
    Dr. Rice.  Well, I think the problems with Iran are well 
known. And we've tried to make them known to the Iranian 
government--often through third parties, sometimes when we've 
been in four together.
    This is just a regime that has a really very different view 
of the Middle East and where the world is going than we do. 
It's really hard to find common ground with a government that 
thinks Israel should be extinguished. It's difficult to find 
common ground with a government that is supporting Hezbollah 
and terrorist organizations that are determined to undermine 
the Middle East peace that we seek.
    So I would hope that the nuclear issues will be resolved. 
It's extremely important to the world that Iran not acquire a 
nuclear weapon. And we are working closely with the European 
Union on that. I would hope that Iranian Government does 
something to make clear to the world that they're not going to 
support terrorists who are determined to undermine the two-
state solution in the Palestinian--in the Holy Land. And those 
are barriers to relations, and we just have to be honest about 
it. It's a very different view. Not to mention, by the way, 
that a theocratic government that has a view that the mullahs 
ought to rule, that has no rights--or it has a human-rights 
record that is really appalling, and that treats its citizens, 
its women, in that way is not a regime with which I think we 
have very much common ground, particularly given the way that 
we would like to see the Middle East develop.
    Senator Chafee.  It seems to me, going back into history, 
the same occurrences were--with the People's Republic of China, 
at the time--they were arming the--in the middle of the Vietnam 
War, arming our opponents in that war. I mean, there was every 
opportunity to accentuate our differences and everything wrong 
with them, but, nonetheless, through this thawing, this process 
of exchange and ping-pong diplomacy, now the two countries are 
not killing each other.
    And, interestingly, on Iran, I went to a conference in 
Bahrain, earlier in December, and the Iranians were there, and 
I looked up, out of curiosity, ``Who are these delegates from 
Iran?'' And each of the three delegates from Iran had been 
educated in the United States--one at the University of 
Houston, one at the University of Cincinnati, and one at 
Michigan State. And I wasn't surprised. There is common ground. 
But, given every opportunity to express even the slightest 
finding of that common ground, I find that you, instead, fall 
into accentuating and magnifying our differences.
    Dr. Rice.  Well, Senator, let me just make the following 
point. You know, when the Forum for the Future was held, the 
very important meeting that was held to talk about reform in 
the Middle East, the Iranians were actually invited. The 
Moroccans wanted to invite them. We said we had no objection. 
And they didn't come. And I think there's a reason they didn't 
come, which was that that was a gathering of civil society and 
business leaders and people--people in the country who wanted 
to talk about reform. That's an opportunity for Iran to 
interact with the world.
    We showed, I think, our respect for, and our humanitarian 
impulse to, the Iranian people with our response to the Bam 
earthquake, and it was a very great moment in American--in the 
history of American compassion and generosity. And I hope we'll 
have other opportunities, that are not linked to disaster, to 
let the Iranian people know that we have no desire to isolate 
them from the international system, or from others.
    And so, I understand your question. It's a complex problem, 
when you're dealing with a regime that really has views that we 
consider illegitimate. But from the point of view of the 
Iranian people, this is a people who should be in contact with 
the rest of the world.
    Senator Chafee.  Well thank you very much. I know my time 
is up. I'll just say thank you for your time. And yesterday we 
talked about Martin Luther King day and I recommend you read 
his great treatise, ``Where Do We Go From Here: Chaos or 
Community.''
    Dr. Rice.  Thank you.
    The Chairman. Thank you, Senator Chafee.
    Senator Biden?
    Senator Biden.  Madame Secretary, you had a long day 
yesterday, and you've got many long days ahead of you as 
Secretary of State. But I'd like to cut right to it.
    I want to make it clear, I intend to vote for you, because 
I believe, strongly, the President is entitled to his Cabinet, 
unless the person he taps is far out of the mainstream, and 
you're clearly not, or is not intellectually capable to handle 
the job. You're clearly capable. And he obviously values you 
very, very much as his counsel. So I'm going to vote for you. 
But I must tell you it's with a little bit of frustration and 
some reservation.
    The questions we asked you in writing, and then yesterday 
at the hearing, I thought gave you an opportunity to 
acknowledge some of the mistakes and misjudgements of the past 
four years. And I want to make it clear--and I've made it clear 
time and again--no matter who is President--it could have been 
the Lord Almighty, it could have been Al Gore, it could have 
been John Kerry, it could have been anyone, it could have been 
John Kennedy, Franklin Roosevelt, Ronald Reagan--after 9/11, 
they would have made mistakes. There's no way in which we could 
have undertaken this effort without some mistakes being made. 
So the point we are--at least I, and I don't think anyone else 
here is different--trying to get to you yesterday, is not to 
play ``I got you,'' or embarrass the President, but about what 
we've learned, what we'd do differently, how we would proceed 
differently, given the opportunity again or given a similar 
circumstance, which we may face. We may face a God-awful choice 
in North Korea. We may face a God-awful choice in Iran. We may 
face an awful choice with regard to Syria.
    And so, we're trying to get some insight into how a second 
term, a second chance, a second round might be different, not 
because--not even because anyone else would have done it 
better--that Al Gore, had he been President, would have done it 
better.
    But instead of seizing the opportunity, it seems to me, Dr. 
Rice, you danced around it. You sort of stuck to the party 
line, which seems pretty consistent. You're always right, you 
all never made any mistakes, you're never wrong. And it's 
almost like, ``If I acknowledge any weakness, if I acknowledge 
any misjudgments on the part of me, or the President, or 
anybody on the team, it's a sign of weakness.'' But I, 
personally, don't think it is. I think it's a sign of some 
degree of maturation, a strength.
    Yesterday, you claimed my colleague Barbara Boxer was 
impugning your integrity when she asked you about the changing 
rationale for the war in Iraq. I wish, instead, you had 
acknowledged the facts, that the administration secured the 
support of the American people, and of the Congress, for going 
to war based overwhelmingly on the notion that they believed--
and it was portrayed, in my view, by the administration, 
understandably, from your perspective--that Iraq was an 
imminent threat because it possessed, or was about to possess, 
weapons of mass destruction. Now, when it turns out there were 
no such weapons, you claim the war was based on removing a 
dictator.
    Now, my recollection--I've asked my staff to go back and 
check this, and, before the hearing's over this morning, 
they'll have statements--my recollection is that it was 
explicitly stated it was not about regime change. That's not 
why we were going to war. That would be effect, but that wasn't 
the rationale for going to war when we went to war.
    Now, I'm glad Saddam's gone. He deserves a special place in 
hell. A special place in hell. Chuck Hagel and I, we went up 
into Irbil, got smuggled in before the war in Northern Iraq, we 
rode in a seven-hour ride through the mountains--I understand 
why the Kurds now say, ``The mountains are our only friends''--
and three hours, four hours before that in Turkey, and we met 
with the widows of those people who were gassed. We saw the 
pictures of little kids' eyes bulging out. And, you know, we 
saw what Chemical Ali actually did to those people. So he 
deserves a special place in hell.
    But if you read the resolution Congress passed giving the 
President authority to use force if necessary, it was about 
disarming Saddam. It was about disarming him. And reread the 
words of the President and other senior officials. In speech 
after speech, TV appearance after TV appearance you left the 
American people the impression that Iraq was on the verge of 
reconstituting nuclear weapons. I don't doubt you believed 
that. But to pretend we didn't leave them that impression, and 
leave the Congress the impression. In fact, I'm not positive of 
this, but I think I was on Face the Nation the day that the 
Vice President was on Meet the Press, and he got asked about 
nuclear weapons. The Vice President said, ``They have 
reconstituted their nuclear weapons.'' And I got on, and I was 
asked, on either Late Edition or one of the other Sunday 
shows--they said, ``Is that true?'' And I looked at the camera 
and said, ``Absolutely not. One of two things, either the Vice 
President is deliberately misleading the American people and 
the Congress, or you all are not telling the Congress the 
truth''--and at that time I was the Ranking Member and, just 
prior to that, the Chairman--``telling us the truth about what 
we had, in terms of intelligence, because,'' I said, ``I've 
seen nothing--nothing, nothing, nothing, up to that date, to 
indicate they had reconstituted their nuclear capability.'' 
Back then, as I said, we were all left with the impression, as 
Senator Boxer suggested, that this was about weapons of mass 
destruction and an imminent threat.
    Now, when I said, about, I don't know, six, eight months--
maybe longer--ago, I said the administration claimed that there 
was an imminent threat. It was pointed out to me that the 
phrase ``imminent threat'' was not used by the President. But 
here's what other senior officials said: ``immediate threat,'' 
quote, ``moral threat,'' quote, ``urgent threat,'' quote, 
``grave threat,'' quote, ``serious and mounting threat,'' 
quote, ``unique threat''.
    Now, it would almost be funny, if wasn't so, so serious, 
that we are sort of dancing on the head of a pin here, whether 
``imminent'' was stated. Now, you didn't say that--I was 
corrected by other administration officials for saying the 
President said ``imminent.''
    But here's my point. Especially on matters of war and 
peace, we've got to level with the American people. And if we 
want, not only their support, if we want to sustain that 
support--my greatest worry, and it genuinely is a worry, is 
that if we're going to get the job done in Iraq, you're going 
to have to come back here for another at least $100 billion 
dollars before it's over, probably close to $200 billion before 
it's all over. And I'm worried your friends on that side of the 
aisle are going to say, ``Whoa, whoa, whoa, wait a minute, 
Jack. You all didn't tell me that.'' Now, maybe I'm wrong. 
Maybe they'll all pledge today, publically, that if you ask for 
$200 billion dollars, they'll belly up to the bar and do it. I 
can tell you, I will. I can tell you, I will. But you're going 
to have a little problem here--``you, the administration''--
with this outfit, Democrats and Republicans, because I don't 
think they know what's in store here. We've all got to be 
honest, also, with the world. Otherwise, we'll do terrible 
damage, beyond what we've already done, to our credibility, 
which is, in my travels around the world, at least in question, 
in many places.
    You've heard, a thousand times, the analogy about, you 
know, when Acheson went to de Gaulle and said, ``You know, Mr. 
President, here, I want to show you the pictures of the Cubans, 
the fact that the Cubans have put in Russian missile sites,'' 
et cetera, et cetera, and de Gaulle raised his hand and said, 
``No, no, I don't need to see that.'' I'm paraphrasing. He 
said, ``I know President Kennedy would never mislead me in a 
matter of war and peace.'' Well, we both know, because the 
world has changed, that even if Kerry had been elected, nobody 
out there is likely to believe a President of the United States 
on matters of intelligence just by saying, ``I know he'd never 
mislead me, you don't have to show me anything.'' Those days 
are gone, unfortunately, for a while.
    After Iraq, it's much harder for the world to rally to our 
side if we have to face a truly imminent threat in Korea or 
Iran. The same goes for the way you answered my questions, in 
my view, about training Iraqi security forces. It is true, 
there's probably about 120,000 people in a uniform. But the 
question really is--and I'll end Mr. Chairman, I know I'm going 
over my time--the question really is, how many of those forces 
could supplant an American force, how many of them we could 
trade off for an American soldier? Because that's ultimately, 
again, the exit strategy--get enough Iraqis there so we don't 
need American troops there.
    Time and again, this administration has tried to leave the 
American people with the impression that Iraq has well over 
100,000 fully trained, fully competent military police and 
personnel. And that is simply not true. You and I know that. 
We're months, probably years, away from reaching our target 
goal.
    When the Chairman and I were in Iraq with Senator Hagel, 
right after Saddam's statue went down, we asked the military, 
as well as the police trainers, ``How long would it take you to 
train the military forces necessary?'' They talked about 
40,000. And they said, ``At least two, maybe three years.'' 
``How long would it take you to train a police force capable of 
policing the country, to replace the 79,000 thugs that were 
called police before?'' They said, ``Three to five years.'' 
That was our people. Our people told us that.
    And, all of a sudden, Rumsfeld announces, ``Hey, we got 
this done.'' ``Don't worry, be happy,'' that calypso song, 
should be the theme song of the civilian leadership of the 
Defense Department.
    So yesterday I think you had a chance to help wipe the 
slate clean for the American people and our allies, tell them, 
flat out, how hard it was going to be, how much more time it 
was going to take, and why we needed to do it. It's not about 
revisiting the past, Dr. Rice, it's about how you're going to 
meet the challenge in the future. And I must tell you, for the 
first time in the last four years, I have doubts about it. 
Either because you're not telling us, the President doesn't 
know, or you all don't have a plan, because I'm telling you 
honestly, that's what I walk away from this hearing worried 
about.
    I'm going to vote for you because of the standard I have 
about the President having intelligent, bright people, if 
they're honorable--and you're all of those things--he gets to 
choose who he wants. But I left the hearing yesterday, and got 
on the train somewhat perplexed. I mean--and I'll end with 
this--it was like the issue I asked you about Iran--if, in 
fact, the Lord Almighty came down and said, ``Look, we 
guarantee we can monitor whether they're keeping the 
commitment--no nukes, no missiles''--would we make a deal with 
them? Doesn't mean we don't still fight about their support of 
Hezbollah, terror, human rights.
    And my impression from you--and maybe you can clarify it 
now--is that you said, ``no, we wouldn't make a deal if it was 
just those two things. No nukes, no missiles. Period.'' Would 
we make a deal with them? That's my question. Would we? Or do 
we have to have it all settled, all at once, with them?
    Thank you Mr. Chairman.
    Dr. Rice.  Senator, I'll be--I'll be brief. The question 
about Iran, I think, is a question of looking at the totality 
of the relationship. Obviously, the pressing issue, right now, 
is to deal with Iran's nuclear program. And I think that we 
will see what becomes of the EU-3 efforts. We'll work with 
them. We will see what we can do in the IAEA. If the Iranians--
--
    Senator Biden.  If they got that deal, would we sign it?
    Dr. Rice  [continuing]. ----if the Iranians are prepared to 
verifiably and irreversibly get rid of their nuclear program, 
then that will be a very good day, and I think it would 
certainly change the circumstances that we are looking at.
    Senator Biden.  I wish we had a court reporter----
    Dr. Rice.  But I----
    Senator Biden  [continuing]. ----to play back----
    Dr. Rice  [continuing]. ----I really----
    Senator Biden  [continuing]. ----what you just said. What's 
the answer? Would you----
    Dr. Rice.  The answer----
    Senator Biden  [continuing]. ----make the deal----
    Dr. Rice.  The answer----
    Senator Biden  [continuing]. ----or not?
    Dr. Rice  [continuing]. ----Senator, is, I'm not going to 
get into hypotheticals til I know what I'm looking at. That's 
the answer.
    Senator Biden.  Well, you're in a hypothetical with China. 
You make a lot of deals with China. Their human-rights record 
is horrible.
    Dr. Rice.  I understand those----
    Senator Biden.  Their problems with us are serious. I don't 
get it. Why can't you just say, ``If that worked''--wouldn't 
that be a nice message to send to the Iranians? Hey, guarantee 
us no missiles, guarantee us no nukes, we can make a deal.
    Dr. Rice.  Senator, what we have----
    Senator Biden.  Is that a good idea?
    Dr. Rice  [continuing]. ----what we have said to the 
Iranians is, ''Look at the Libyan example.'' The United States 
doesn't have permanent enemies.
    Senator Biden.  And look at the Libyan example, and look at 
Qaddafi's role in human rights now, in his country.
    Dr. Rice.  But what we've done with the Libyan example, is 
that the Libyans made an irreversible, we believe, decision 
about their weapons of mass destruction. They made it, by the 
way, without a promise of specific deals. They--we told them 
that there could be a path to better relations, and they're now 
on a path to better relations. That's----
    Senator Biden.  That's not what Qaddafi told me. I asked 
him why he made the deal. Straight up. The State Department was 
in there. He said, ``It was simple.'' He said, ``I knew if I 
had used nuclear``--first of all, he said, ``Nuclear weapons 
didn't help you much``--through a translator--``Nuclear weapons 
didn't help you much in Vietnam and in Iraq.'' That was his 
comment. Secondly, he said, ``I know, if I use them``--and I 
forget exactly the phrase--``you'd blow me away.'' And thirdly, 
he said, ``They weren't much value to me.'' And then he went on 
to say, ``And now I can have American oil companies in here 
pumping the oil out of the ground.'' I asked why he wanted 
American oil companies, and he made an analogy of the French. 
He said, ``You make a deal with the French, they say 90-10 and 
they take 95.'' He said, ``The Americans, you say 50-50, they 
only take 50.'' He was the most candid guy I ever spoke with.
    Dr. Rice.  Well, the Libyan example is a good example.
    Let me turn to the--very briefly, to the question of 
lessons learned. I said, yesterday, Senator, we've made a lot 
of decisions in this period of time. Some of them have been 
good, some of them have not been good. Some of them have been 
bad decisions, I'm sure. I know enough about history to stand 
back and to recognize that you judge decisions, not at the 
moment, but in how it all adds up. And I've--that's just 
strongly the way that I feel about big, historical changes. I'm 
being as straightforward with you as I possibly can.
    Senator Biden.  I appreciate----
    Dr. Rice.  And that's----
    Senator Biden  [continuing]. ----that.
    Dr. Rice  [continuing]. ----that's how I see it.
    Senator Biden.  It's a little----
    Dr. Rice.  Now----
    Senator Biden  [continuing]. ----bit like I told my 
daughter, when I have no doubt--16--I have no doubt, by the 
time she was 30 years old, she would be a beautiful, 
intelligent, well-educated, happy lady. I just wondered how 
much pain there was going to be between then and----
    Dr. Rice.  I understand that. And I'm----
    Senator Biden [continuing]. ----I'm talking about pain, 
here.
    Dr. Rice [continuing]. ----Well I'm afraid, in difficult 
hysterical circumstances, there's going to be a lot of it, and 
a lot of sacrifice.
    I don't have a 16-year-old daughter to refer to, but I will 
tell you that I think the analogy is apt, because it's how Iraq 
turns out that really ultimately matters.
    If I could just say one thing, though, about lessons 
learned--and that is--I spoke, yesterday, about the important 
work that we've been doing on the Office of Reconstruction and 
Stabilization. I think that's a lesson learned. We didn't have 
the right skills, the right capacity to deal with a 
reconstruction effort of this kind. And we are going to face 
these again, even if it's not after war. And I certainly hope 
that it will not be. We're going to face it in places like 
Liberia, places like Sudan. And so----
    Senator Biden.  All we want to know is, how are you going 
to face it with the $15 billion bucks that's sitting out there 
now, that you haven't spent, and, you know, you don't know what 
to do with?
    Dr. Rice.  We do know what to do with it, Senator. And----
    Senator Biden.  If you want to tell us----
    Dr. Rice [continuing]. ----That----
    Senator Biden [continuing]. ----it would be good. Tell us.
    Dr. Rice [continuing]. ----that spending is accelerating, 
and I'll be glad to give you a full accounting of it next time 
I see you.
    Senator Biden.  God bless you. And, by the way, my daughter 
is 23. She thinks I'm handsome and smart again, and all is 
well.
    Dr. Rice.  All is well.
    The Chairman. And she's right.
    Senator Boxer.  We'd better straighten her out.
    Senator Biden.  Thanks, pal.
    The Chairman. Senator Coleman?
    Senator Coleman.  Thank you. I just----
    Senator Nelson.  I've got one that's 27, and I'm still 
going through a lot of pain.
    Senator Coleman.  Two comments, Dr. Rice. One, with all the 
talk about foreign-policy goals, there are things that impact 
my constituents most directly. I was surprised, my first year 
as a Senator, I probably spent more time on immigration issues 
and child adoption than any other issue in my state office. So 
I just want to raise that. And probably, by the way, the most 
satisfying portion of what I do, to unite families.
    You have a program called Adjudicate Orphan Status First. 
It's a pilot project. I would just urge you to take a look at 
expanding it. We do wonderful things to bring families 
together, and it's really important stuff that we don't talk 
about much.
    And I am just going to have to join in the conversation 
here. I am sympathetic to some of my colleagues' concerns about 
finding common ground. I join with some of my colleagues, 
believing that we need to find more common ground with 
Venezuela. I think we have to figure out a way to do that.
    But I have to agree with you, and appreciate your response, 
in separating Venezuela from Iran, a country that's calling for 
the destruction of Israel, that's supporting terrorism, that 
has no freedom of religion, an abysmal human-rights record. 
Pursuit of nuclear weapons--just in Iraq, talking to Allawi 
with concerns about Iran interfering with what's going on in 
Iraq. And I will say, Dr. Rice, for this Senator, the idea of 
finding common ground with Iran, and the mullahs makes me sick. 
So I guess there is a separation there, and I believe it's 
important for some of us to keep our eye on that difference 
between Iran and Venezuela.
    Dr. Rice.  Thank you.
    The Chairman. Thank you, very much Senator Coleman.
    Senator Feingold?
    Senator Feingold.  Thank you, Mr. Chairman.
    Dr. Rice, thanks for this further opportunity to speak with 
you.
    I'm struck by the conversation you just had with Senator 
Biden with regard to Iraq; in part, because I think if people 
are watching this hearing, they would think that we've been in 
great disagreement about foreign policy ever since 9/11. That's 
not what really happened. We were all quite unified with regard 
to the fight against terrorism, trying to figure out this 
challenge, up until the time that serious disagreements 
occurred with regard to whether Iraq really was part of that 
effort, or to what extent it was.
    So I want to return, in that spirit, to the item that I 
started with yesterday, Secretary Rumsfeld's interesting 
comments, in his memo, that there was no consensus within the 
national-security community of the United States about how to 
even measure success in the fight against terrorism. And you 
and I had an exchange about this yesterday, where you talked 
about some of the places, geographically, where it's much 
harder for the terrorists' network to operate. I talked about 
my concern that I think they actually are able to operate in 
other places--North Africa--and we went back and forth on that. 
But, fundamentally, I'd like to have you say a little bit 
about, how do we measure success--not a list of things we've 
done, but how do we measure how well the terrorists are doing? 
How do we know whether they're picking up steam, in terms of 
picking up recruits and gathering more help around the world, 
or not? How do we measure this thing? I think that's one of the 
most important things that perhaps we could come together on, 
and start discussing again, once we get through this serious 
disagreement on Iraq.
    Dr. Rice.  It's a very interesting question Senator. And 
it's a hard question. As you know, when you're measuring any 
social phenomenon, you are usually without hard tools to do it. 
That's one of the lessons of social science. If you're 
measuring scientific phenomena, you have hard tools to do it. 
If you're measuring human phenomena, how do you measure how 
well a young person is developing? These are human phenomena. 
They are hard to measure.
    One of the hardest things about this is, it's a very 
shadowy network whose numbers are hard to count. It's important 
and difficult to know what is a hardcore terrorist who is 
committed to the jihad and would never be reformable in any way 
versus somebody who might just be attracted to the philosophy 
because they're jobless or hopeless, or whatever, and might be 
brought back into the fold. That's the kind of important 
question for which we, frankly, don't have a measurement. And I 
don't think we're going to. I think we're going to see this in 
broader strokes.
    We can measure, with good intelligence, issues like how 
well we think they're doing on funding. We can measure 
something like that. Imperfectly, because we're dependant on 
what intelligence we can learn about that. We can measure, 
imperfectly, when we take down some of their leadership, 
whether they seem to be able to replace that leadership. We can 
measure, imperfectly, whether we think they are able to carry 
through on threats that we believe they have issued. But, 
again, imperfectly.
    What we're not going to be able to measure, and I would 
resist trying to measure, is how we're doing in empowering 
moderate Islam against radical Islam, because that is an 
historical process that is going to have its ups and downs, 
but, in time, when you have a Pakistan coming back from the 
brink of extremism, or you have an Indonesia carrying out a 
democratic election in which the role of terrorism in Islam was 
actually a fairly minor issue, you have to say, we are making 
some progress. How much? I can't tell you, but we're making 
some progress.
    What I keep my eye on is, how is moderate Islam doing? When 
I'm asked what future am I looking for, I'm looking for a 
future in which the regions of the world that we're concerned 
about, whether it is North Africa, or East Africa, or the 
Middle East, or Southeast Asia, that moderate Islam is winning. 
It's winning in government, it's winning in rhetoric, it's 
winning in educational programs, but the impact of that is 
going to be a while before we see it.
    Senator Feingold.  I appreciate that answer. Let me--I 
recognize how imperfect it is. And I do think a lot of it has 
to do with how moderate Islam is doing. But let me just give 
you an example from Algeria, where, of course, they've gone 
through this horrendous period of terrorism, and they're coming 
out of it. And we had a dinner with civil society people last 
week, in Algiers, and I said, ``Now, what about the young 
people here? Are they likely to return, to be attracted to a 
radical, violent Islam, or not?'' And the sense was that they 
probably wouldn't, because it was horrible; but perhaps if 
economic opportunity didn't improve, that it could happen. I'm 
not so sure that can't be measured more than we're doing. I'm 
not so sure that we can't identify these trends in a more 
serious way than we are, and I think it would be very valuable 
information.
    Let me turn to another question. I'd like you to explain 
how the President's emergency plan for AIDS relief will help 
build infrastructural capacity in Africa, particularly in the 
area of training healthcare practitioners, especially community 
health workers and discouraging the medical brain-drain. In the 
course of the work I've done on this committee, I've had a lot 
of wonderful conversations with people in countries seriously 
affected by the pandemic, especially in Africa. And I found one 
of the most heartbreaking to be my conversation in Botswana 
with the president of that country, President Mogae, who was 
acknowledging that they had a 40 percent AIDS rate, and that 
they were trying to deal with it, but, whenever they'd get some 
local healthcare workers trained, they were poached by American 
healthcare entities or European healthcare entities, and they 
couldn't keep the very people that were trying to deal with 
this situation.
    So will implementing partners all adhere to a set of 
principles regarding hiring local staff to ensure that we don't 
siphon resources away from the domestic healthcare 
infrastructure, making our efforts, in the end, unsustainable?
    Dr. Rice.  That's, again, a very important point. And the 
whole concept, especially of the part of the emergency plan 
that is for the 15 most affected--once 14, now 15 most 
affected--is to focus, not just on the delivery of services, 
which is important in itself--the cure--the treatments to 
millions; preventing seven million, giving access to 
information and care for ten million--those are all very 
important goals. But the design of the program has also been to 
worry about the delivery mechanism for that care, to use a 
tiered approach so that you have clinics in the cities that can 
do that, or hospitals in the cities, but that you also build 
capacity in the village--in some of these places, even using 
motorcycle-riders to get the care out that people who've been 
trained to administer, or help administer, the drugs--so that 
you're improving the delivery, the healthcare delivery system, 
as well. And that really was the innovation that came about 
through studying and working with, for instance, the Ugandans, 
who have a very effective system of delivery.
    It is also the case, of course, that if you improve the 
delivery system for AIDS you improve the healthcare delivery 
system for other things, as well--malaria, tuberculosis are 
part of the program, but other--others as well. If you improve 
mother-to-child transmission delivery, you improve OB/GYN care, 
you improve neonatal care, and so forth.
    And so, I think it's a really--probably one of the most 
important aspects of the emergency plan would be not to just 
focus on the treatment itself, although that's extremely 
important, but what are we doing for the healthcare delivery 
system.
    I hadn't thought much of the--about the problem of well-
trained healthcare workers being siphoned off, but we'll go 
back and give that some thought.
    Senator Feingold.  I would appreciate that.
    Thank you very much Mr. Chairman.
    The Chairman. Thank you very much Senator Feingold.
    Senator Hagel?
    Senator Hagel.  No questions.
    The Chairman. Senator Hagel passes.
    Senator Boxer?
    Senator Boxer.  Thank you very much, Mr. Chairman, for 
being so fair.
    Thank you, Dr. Rice, for answering our questions.
    Mr. Chairman and my Ranking Member, I'm going to use my 
time this morning to lay out the rest of my concerns, and then, 
when we get a chance to vote, I'm going to put all my concerns 
back into context again.
    Dr. Rice, clearing the air and, as Senator Biden said, 
starting from a fresh page here would have been wonderful. We 
haven't had that. And the reason I think it is so important to 
place into the record some of your past statements is because 
your administration has named several countries in the ``axis 
of evil.'' We don't know what your plans are. We haven't been 
able to flush them out. I think Senator Biden has been trying 
to push you on the Iran situation. We don't have an exit 
strategy for Iraq, that we can tell, because you insist there's 
120,000 in the Iraqi forces, but yet, being pressed by several 
Senators here yesterday, you still won't say how many of them 
really are trained. So we've got problems here; at least, I 
have problems here. So forgive me if I continue along the lines 
of yesterday.
    Now, Dr. Rice and colleagues, our country is united in 
waging war on those responsible for 9-11, and eliminating the 
al Qaeda network. That is why I find it so troubling that the 
Bush administration used the fear of terror to make the war 
against Iraq appear to be part of the response to 9/11. And, 
Dr. Rice, as I said, you were involved in that effort. You were 
the face on television, as was pointed out yesterday. You tell 
us that you were giving the President confidential advice, but 
you didn't shrink from talking straight to the American people.
    Now, I don't know one American who wants Saddam Hussein to 
see the light of day. I don't. So that's not the point. I don't 
know of one American who wanted Slobodan Milosevic to see the 
light of day. And guess what? And you know this--1,300 plus 
American soldiers didn't have to die to get rid of Slobodan 
Milosevic, and 10,000 didn't have to get wounded. So there are 
issues surrounding this.
    Now, on September 25th, '02, you said, in an interview with 
Margaret Warner, on PBS, ``We clearly know that there were in 
the past, and have been, contacts between senior Iraqi 
officials and members of al Qaeda going back for actually quite 
a long time.'' And you went onto say, ``And there are some al 
Qaeda personnel who found refuge in Baghdad.''
    Now, that statement and others by administration officials 
assert there was a longstanding operational alliance between 
Iraq and al Qaeda.
    We know the truth is otherwise. We know it. And I'll show 
you, again, the State Department document, signed off by 
President Bush in October 2001, one month after 9/11, showing 
absolutely no operational cells in Saddam-Hussein-controlled 
Iraq.
    And, second, most experts agree that Saddam Hussein and 
Osama bin Laden were far from being allies. In an interview on 
CNBC with Maria Bartiromo, on March 24th, '03, Peter Bergen was 
asked if he saw any direct connection between Saddam and Osama. 
Mr. Bergen said, ``Well, you know, I met bin Laden in '97, and 
I asked him, at the end of the interview, his opinion of 
Saddam. And he said, `Well, Saddam is a bad Muslim, and he took 
Kuwait for his own self aggrandizement.' ''
    In November '01, the former head of the Saudi intelligence 
said, quote, ``Iraq doesn't come very high, in the estimation 
of Osama bin Laden. He thinks of Hussein as an apostate, an 
infidel, or someone who is not worthy of being a fellow 
Muslim.''
    Third, you were contradicted by the bipartisan 9/11 
Commission, which stated in its report, last summer, that there 
was, quote, ``no collaborative relationship between Iraq and al 
Qaeda.'' In fact, the 9/11 Commission report states that you 
received a memo on September 18th, '01, detailing what was 
known about the links between al Qaeda and Iraq. Let me read 
the 9/11 Commission's description of the memo you received. 
They write, ``The memo pointed out that bin Laden resented the 
secularism of Saddam Hussein's regime. Finally, the memo said, 
there was no confirmed reporting on Saddam cooperating with bin 
Laden.''
    So you received a memo, on September '01, clearly stating 
there was no link. The President, himself, was part of a State 
Department publication which said there were no al Qaeda in 
Iraq prior to 9/11, there's documented history of bin Laden's 
loathing of Saddam, and, in spite of this, you went on TV and 
told the American people there was a clear connection between 
Saddam and al Qaeda. Even the State Department was very clear 
that there was no such contacts.
    So it is very disturbing to think that, in spite of 
everything and all the information that you had, you continued 
to go out there and claim this contact and make the people feel 
that, somehow, going to war against Iraq was our response to 9/
11.
    Now, on the aluminum tubes, I'm not going to get into the 
back and forth with you on the aluminum tubes, but I'm going to 
lay this into the record, because I think it's essential. On 
September 8th--first, I believe you tried to convince the 
American people that Iraq's purchase of aluminum tubes proved 
positively that they were going to build a nuclear weapon. 
Thus, your statement about the mushroom cloud, which scared the 
heck out of every American. On September 8th, '02, you were on 
CNN's Late Edition with Wolf Blitzer, and you made this 
statement, ``We do know there have been shipments going into 
Iraq, for instance, of aluminum tubes that are really only 
suited to high-quality aluminum tubes that are only``--I'm 
reiterating what you said--``really suited for nuclear weapons 
programs, centrifuge programs.''
    That unequivocal statement was wrong. You never mentioned 
to the American people that there was a major dispute about the 
tubes, even though our nation's leading nuclear experts in 
Department of Energy, in 2001, said, ``The tubes were for small 
artillery rockets, not for nuclear weapons.''
    It is reported that one Energy--a Department analyst summed 
up this issue for the Senate Intelligence committee saying, 
quote, ``The tubes were so poorly suited for centrifuges that 
if Iraq truly wanted to use them this way, we should just give 
them the tubes,'' unquote.
    This dispute among the CIA, the DIA, the Department of 
Energy, Department of State over the likely use of tubes was 
played out in front of this committee. And, Mr. Chairman, I 
remember it. I was there in that meeting. It was very 
contentious, and we saw all sides of the issue.
    This dispute was so well known that the Australian 
Intelligence Service reportedly wrote, in a July 2002 
assessment, that the tubes evidence was, quote ``patchy and 
inconclusive.''
    Third, the IAEA, the International Atomic Energy Agency, 
reported, on January 8th, '03, that the tubes were, quote, 
``not directly suitable for uranium enrichment, and were 
consistent with making ordinary artillery rockets.''
    So, given the concerns raised by Department of Energy, 
Department of State, the Australians, the IAEA, you still 
failed to level with the American people on the subject of the 
aluminum tubes. Even as recently as a few months ago, October 
3rd, 2004, you had the opportunity to finally set the record 
straight. And, as Senator Biden says, it's good to set the 
record straight, we've got to move on. But when you were asked 
by This Week's George Stephanopoulos about the tube 
controversy, you said, ``There was dispute only by one agency. 
That's the State Department.''
    Now, that is not the truth. It's not the facts. And it is 
very, very troubling to me. As Senator Biden said, we all make 
mistakes. God knows, I've made mine, and I will make more. I 
apologize in advance to my constituents for the mistakes I'll 
make. But once all the facts are out there, can't we just make 
sure that the truth is finally embedded into history, without 
being--without turning our backs on what the truth is. So 
that's another area.
    Now, I know my time is up. I can either wait til one more 
round, or just finish up my last area of concern. Can I just 
finish it up?
    Mr. Chairman: Proceed.
    Senator Boxer.  Okay.
    When you were making the case for the war in Iraq, one of 
the things you said that, frankly, stunned me was that a reason 
to go was, the Iranians were gassed by the Iraqis. Now, this is 
truly a horrific fact, that is right. But, Dr. Rice, we all 
know the Iran-Iraq war took place between 1980 and 1988. And 
the United States knew--they knew--that Saddam Hussein was 
using chemical weapons against the Iranians. And it was 
appalling. Despite this fact--despite this fact--I'm sure 
you're aware who traveled to Iraq to meet with Saddam Hussein 
one month after we became aware of this. It was Donald 
Rumsfeld. And Donald Rumsfeld tried to increase diplomatic 
relations with Saddam Hussein. Iraq was a charter member of the 
terrorism list in 1979, put on there by Jimmy Carter. Do you 
know--and I'm sure you knew at the time you said this--that it 
was the United States who removed Iraq from our list of state 
sponsors of terrorism? And they didn't get put back on til 
1990.
    So, let's review. While Saddam was gassing the Iranians--a 
despicable act--Donald Rumsfeld and the Reagan administration 
reestablished U.S. relations with the Iraq and refused to put 
Iran back on the terrorism list.
    So, in '03, when you told the American people that Saddam 
Hussein's use of chemical weapons against Iran was a 
justification for war--one of them that you gave--why didn't 
you tell them the full story? Why didn't you mention that it 
was Rumsfeld who favored the normalization of relations with 
Iraq during a time when Saddam was using chemical weapons 
against Iran?
    So a reason you gave the American people for the war in 
Iraq, and a reason you believe it was worth American lives, was 
the heinous gassing of the Iranians by Saddam in the '80s. This 
gassing was known to the American Government at the time. The 
gassing did nothing to dissuade the American Government from 
launching full diplomatic relations with Saddam. America gave 
its seal of approval to Saddam Hussein by sending special envoy 
Donald Rumsfeld to Iraq when we had zero relations with Iran at 
that time.
    So, to me, it's telling a half truth to the American 
people. It's ``gaming'' the American people. And, as someone 
who believes that we, again, owe the full story, it was very 
upsetting to me that you didn't put it into context.
    Now, had you said, ``You know, we were wrong, we were 
fooled,'' maybe it would have been better. But there's no 
mention, anywhere.
    So I guess what I'm saying, Mr. Chairman, these are my 
areas of deep concern. I've gone back through the record, 
exhaustively, because I knew Dr. Rice--and you saw it 
yesterday--you know, we can get into a give-and-take, and she's 
a very good debater, and I'm a pretty good debater, and that's 
interesting, but I think we need to see what the facts are and 
why I'm disturbed about this particular nomination. It isn't 
based on qualifications or intelligence or all the rest, 
because that's obvious--wonderful break in the glass ceiling 
and all those beautiful things, which I'm proud of. It's not 
about that. It's about candor. It's about telling the full 
story. It's about, seemingly, not being willing to go with us, 
in both sides of the aisle, because it was the same answer to 
Senator Chafee when he pressed you. It seems to me a rigidness 
here, a lack of flexibility, which is so troubling to me; and, 
most of all, going back into recent history, an unwillingness 
to give the American people the full story. Because the 
mission, the zeal of selling the war, was so important to Dr. 
Rice, that was her job. And yet I feel--and, again, I know not 
everyone agrees with me at all in the country, but many do--
that this war, and all of these horrific deaths and the wounded 
and all of that, is a direct result of not leveling with the 
American people.
    Thank you.
    The Chairman. Thank you very much, Senator Boxer.
    Dr. Rice. Thank you. I'll just--I'll be brief.
    Senator Boxer, let me respond to a couple of specific 
points, very briefly, and then to an overall point. But I, 
first, need to go back to yesterday.
    Senator Boxer, you mentioned the letter that we wrote 
concerning----
    Senator Boxer.  Yes.
    Dr. Rice [continuing]. ----I just want to note--and I will 
want to note for the record, that you put up one provision, 
not----
    Senator Boxer.  Yes.
    Dr. Rice [continuing]. ----all of the provisions.
    Senator Boxer.  That's right.
    Dr. Rice.  And it was a provision, of course, with which we 
would have no difficulty, which was one that is enshrined in 
law, which is that we should not torture, and so forth and so 
on. But there were other provisions that you did not put up 
that was not fully in context, what you presented yesterday. 
And----
    Senator Boxer.  Dr. Rice, I agree with you completely.
    Dr. Rice.  Yes, and----
    Senator Boxer.  But your letter didn't say----
    Dr. Rice.  No, I understand that.
    Senator Boxer [continuing]. ----that one----
    Dr. Rice.  But----
    Senator Boxer [continuing]. ----provision.
    Dr. Rice.  But----
    Senator Boxer.  Because the conferees could have kept that 
one provision.
    Dr. Rice.  Yes, we decided--you're right--not to try and 
parse. But I just want to make clear that you did not put up 
the entire set of provisions.
    Senator Boxer.  Of course I didn't.
    Dr. Rice.  Yes.
    Senator Boxer.  Because the conferees could have kept that. 
You didn't tell them to keep it.
    Dr. Rice.  Yes, but the impression was left that what we 
objected to was that one provision, when it----
    Senator Boxer.  Well, you did.
    Dr. Rice [continuing]. ----when, in fact, there were 
several.
    Senator Boxer.  Well, you did, yesterday, object to it. You 
said it was duplicative, didn't you?
    Dr. Rice.  No, I said it was in the Defense authorization 
bill. But I just want, for the record, it to be noted that the 
Bush administration was objecting, not to something to do with 
the law of the land, but to other provisions, and I'll provide 
that to you.

    [The information to which Dr. Rice referred appears in 
Appendix II of this hearing transcript.]

    The Chairman. Thank you.
    Dr. Rice.  So the context here was extremely important.
    Secondly, let me just respond, very briefly, Senator Boxer, 
to a few points.
    First of all, I really just can't agree that Milosevic and 
Saddam Hussein were the same problem. And we do have to 
recognize that different tools have to be taken against 
different dictators. It was a remarkable set of events with 
Milosevic, but he was in the center of Europe. We had all kinds 
of pressure on Milosevic that we had failed to be able to bring 
about with Saddam Hussein. And so, I just reject the analogy 
between the two.
    Secondly, as to the question of al Qaeda and its presence 
in Iraq, I think we did say that there was never an issue of 
operational control, that al Qaeda--that Saddam Hussein had 
nothing to do with 9/11, as far as we know or could tell. It 
wasn't a question of operational alliance, it was the question 
of an attitude about terrorism that allowed Zarqawi to be in 
Baghdad and to operate out of Baghdad. There were contacts 
going back to the early 90s, and those are, indeed, detailed in 
the 9/11 report.
    Third, on the question of aluminum tubes, we didn't go to 
war because of aluminum tubes. This was a debate about whether 
this issue, this particular piece of evidence, was evidence was 
reconstitution of the nuclear program. And the--there was one 
agency that disagreed that he was reconstituting his nuclear 
program, and that was the State Department. The INR. Other----
    Senator Biden.  Didn't the Department of Energy also----
    Dr. Rice.  No, the Department of Energy said that they did 
not believe that the tubes were evidence of reconstitution, but 
that he was, indeed, they believed, reconstituting his program. 
And that's--that's an important distinction, though. But I said 
``reconstituting his program.'' I was not talking about the 
tubes.
    The Department of Energy, in fact, I learned, when the 
process unfolded, did have reservations, or did believe that 
the tubes were not for nuclear weapons. The majority of 
agencies in the intelligence community did.
    I was representing, Senator--and I've made this available 
for the record--the views of that majority, and the view on 
reconstitution was one that all but the State Department held.
    Now, I just have to put this into context. When you're 
dealing with intelligence matters, you are not dealing with 
perfect information, and you do have to put that information 
into a context of someone's history--this was someone who was 
very close to a nuclear weapon in 1991, much closer than we 
thought; of his present--the intelligence community's belief 
was that he was reconstituting his program, that there was 
evidence of this in his procurement activities and keeping the 
nuclear scientists together; and he--and that the shadow of the 
future, according to that National Intelligence Estimate was 
that, left unchecked, he would have a nuclear device by the end 
of the decade. I just don't think that the President of the 
United States and I were going to give him the benefit of the 
doubt.
    And as to the ``mushroom cloud'' statement, one that I've 
heard repeated many, many times, it was simply a statement 
about uncertainty, that you didn't want the first evidence that 
he had nuclear weapons to be the kind of evidence that we 
learned when we found out that the Soviet Union had a nuclear 
weapon five years ahead of schedule.
    On the Iranians and Iraq, I'll say it right now, the United 
States Government has often, as the President's said, supported 
regimes in the hope that they would bring stability. And we've 
been, in the Middle East, sometimes blind to the freedom 
deficit. We're not going to do that anymore. And what happened 
with Saddam Hussein was probably evidence that that policy was 
not a very wise policy.
    In general, Senator, let me just say, again, we did go to 
the American people with a case for war. It was a case that, 
yes, said that the threat that this horrible dictator--sitting 
in the Middle East in the worlds most dangerous region, with 
whom we had gone to war twice before, who had used weapons of 
mass destruction, who was shooting at our aircraft--that it was 
not acceptable to have him with weapons of mass destruction.
    And we believed, like most of the intelligence agencies in 
the world, like the United Nations--and much of the information 
was from the United Nations--that he had weapons of mass 
destruction. He refused to account for them. Even with 
coalition forces sitting on his doorstep, he refused to account 
for them. We weren't prepared to give Saddam Hussein the 
benefit of the doubt, given his history and given the shadow of 
the future.
    We also had a situation, now rectified, of a Middle East 
out of which the terror threat, the jihad's threat, comes, with 
a factor, in Saddam Hussein, who was going to make it 
impossible to change the nature of the Middle East. I don't 
think anybody can see a different kind of Middle East with 
Saddam Hussein in the middle of it.
    So we can disagree about the course that we took. We can 
certainly have, I think, a healthy debate about the course that 
we should take, going forward. I would be the first, again, to 
say, we've had to make a lot of decisions, some of them good, 
some of them bad. But I would hope that what we will do now is 
to focus on where we go from here.
    I can assure you, I will be candid. My assessments may not 
always be ones that you want to hear, they may not always be 
ones with which you agree, but I will tell you what I think. 
And that's a promise that I make to you today.
    Thank you.
    The Chairman. Thank you very much.
    Senator Boxer.  Thank you. If I could--and I know I'm 
taking a lot of time--I just don't want to have to speak again, 
but I would like to finish my comments here.
    The fact is that the reconstituting were based on the 
yellow cake and the aluminum tubes, both of which proved to be 
false. And when I asked you about aluminum tubes----
    Dr. Rice.  And balancing equipment and the accounts out of 
which these came and his keeping nuclear scientists together. 
Let's have the entire picture.
    Senator Boxer.  Okay. Yes, exactly my point. Let's have the 
entire picture. And when I asked you about aluminum tubes, you 
talked about the larger picture. The fact is, when you go on 
television, and you say the aluminum tubes can only be used for 
nuclear weapons--you want to turn it to a different subject, 
that's okay, but that's what you said, and the facts proved 
otherwise, and we knew that at the time--four or five agencies 
were having a giant battle over that. No one could have 
possibly said that they could only be used--because the 
Intelligence Community was split.
    My last point has to do with Milosevic. You said you can't 
compare the two dictators. You know, you're right, no two 
tyrants are alike. But the fact is, Milosevic started wars that 
killed 200,000 in Bosnia, 10,000 in Kosovo, and thousands in 
Croatia. And he was nabbed, and he's out, without an American 
dying for it. That's the fact.
    Now, I suppose we could have gone in there, and people 
could have killed to get him. The fact is, not one person wants 
either of those two to see the light of day again. And in one 
case we did it without Americans dying, and in the other case 
we did it with Americans dying. And I think if you ask the 
average American, you know, ``Was Saddam worth one life, one 
American life,'' they'd say no. He's the bottom of the barrel. 
And the fact is, we've lost so many lives over it. So if we do 
get a little testy on the point, and I admit to be so, it's 
because it can continues, day in and day out, and 25 percent of 
the dead are from California. We cannot forget--we cannot 
forget that.
    Dr. Rice.  May I just close by saying, Senator Boxer, I, 
probably more than most, because I did have a role in the 
President's decision to go to war, mourn every day the people 
that are lost. I look at their pictures, I think about their 
families, I've been to Walter Reed, I see the pain and 
suffering. I believe that their service and their sacrifice was 
needed for our security.
    I don't think there is anyone who believes that you could 
have gone into Iraq and nabbed Saddam Hussein. It wasn't that 
kind of regime.
    The Chairman. Members of the committee, let me just say, we 
tried, in fairness, to leave the debate open last evening. Dr. 
Rice, Senator Kerry, Senator Voinovich and I were here for 50 
minutes of questioning. The table was available for any Senator 
who wanted to stay and ask questions at that point.
    Now, Senator Boxer obviously has strong points of view. 
And, in a spirit of fairness, the Chair has let the hearing 
verge out of control.
    But we're going to come back into control at this stage.
    Senator Boxer.  I'm finished, you'll be happy.
    The Chairman. Yes, I understand, and I appreciate that.
    We have called for a business meeting at 10:00 o'clock. 
Now, I don't want to be arbitrary, because I appreciate that 
there may be impelling questions for the completion of the 
record, questions that people hadn't thought of last night, but 
rather this morning.
    We rapidly want to come to conclusion here. I just simply 
want to ask, Are there Senators who have impelling questions, 
or can we proceed to have a business meeting of the committee?
    Senator Biden.  Mr. Chairman?
    Mr. Chairman: Yes.
    Senator Biden.  In response, Senator Levin importuned me in 
the hall on the way up here, and he had said that he had sent a 
letter, which I asked for a copy of--that there are questions, 
some of which have been touched on here, that he'd like Dr. 
Rice to answer in writing before we vote in the Senate. And 
I'll read the letter.
    ``Dear Dick and Joe, Enclosed are some questions for the 
record which I request that you ask Dr. Rice on my behalf. I'd 
appreciate a response in writing before the time set for the 
Senate vote on her nomination. Thank you for your assistance.''
    They're pretty straightforward. I'd be guided by your 
judgement. I could ask them, on behalf of the Senator, right 
now, or we could do them in writing, and I think there's plenty 
of time.
    I think you could answer all of these, Dr. Rice. They 
relate to, for the record, uranium from Africa, and the 
second--and there are a total of six questions relating to 
that--aluminum tubes, one question; and no distinction between 
Iraq and al Qaeda, one question. So I guess, for the record----
    The Chairman. Well, let me suggest that, first of all, as 
Senators know, Dr. Rice has been answering questions for a 
month. We've all had ample opportunity to ask everything we 
wanted.
    Secondly, however, I'll ask Dr. Rice to respond to the 
questions of Senator Levin, our colleague, as a courtesy. Our 
hearing, here, is with the Foreign Relations Committee. Yet we 
are prepared to help any Senator find answers. I'm sure Dr. 
Rice will be cooperative; at least I presume so. And so, within 
the next few hours, presumably those questions will be 
answered.
    Senator Biden.  They're very straightforward.
    The Chairman. My guess is, they probably have been answered 
in the folios of questions that are a part of the record, so it 
will not be difficult, I suspect, to reiterate.
    Dr. Rice.  I'm happy to do it, Senator.
    The Chairman. I appreciate that.
    Dr. Rice.  We'll get them back to you shortly.
    The Chairman.  All right.
    Now, impelling questions. I see Senator Nelson raising his 
hand. Are there any, on this side, that feel they need to ask 
questions? All right, one short question by Senator Chafee, and 
Senator Obama has----
    Senator Biden.  And there may be closing statements, not 
questions, before the actual vote, which would be appropriate. 
Senator Dodd has a closing statement, and maybe someone else 
does.
    The Chairman.  Well, that could perhaps be a part of our 
business meeting.
    Senator Biden.  Yes. That's exactly right.
    The Chairman.  We'll have discussion at that point.
    All right. Senator Nelson?
    Senator Nelson.  Thank you, Mr. Chairman.
    Just picking up on a theme that was hit here, there was a 
discrepancy, Dr. Rice, between the intelligence in the State 
Department and other intelligence. In this particular case that 
was discussed, about the aluminum tubes, there was also a 
difference of opinion within the intelligence community with 
regard to unmanned aerial vehicles possessed by Saddam Hussein. 
Indeed, I and other Senators were told, that not only did he 
have those UAVs for offensive reasons, but there was a plot. He 
was going to put them on ships off the eastern seaboard of the 
United States and launch them over eastern cities of the United 
States, dropping chemical or biological weapons. We were told 
that. But what we were not told is that there was a vigorous 
disagreement within the intelligence community--specifically, 
that Air Force intelligence, which knows the most about UAVs--
but we were not told that they had disagreed. Now, it was 
written in the report, but I'm talking about those verbal 
briefings that we received in the secure room in the Capitol.
    Tell us what you know about that kind of dispute of 
intelligence. Because we don't ever want to get into a 
situation where we are operating on information that is 
incomplete, as we were in this particular case.
    Dr. Rice.  Senator, I'm sorry, I don't remember the 
briefing--what was said at the briefing. I don't even know if I 
was there at the briefing to which you're referring. There was 
a dispute about the UAVs, and I think it was fully outlined in 
the National Intelligence Estimate, which should have been the 
basis for the briefings.
    Let me just--if you don't mind, I'll just make a broader 
point, which is, obviously we need the very best intelligence, 
and obviously there were problems with the intelligence 
concerning Iraq weapons of mass destruction. I don't think 
members of the intelligence community were trying to deceive or 
to do a bad job or any of those things. It's an incredibly 
difficult intelligence challenge when you're dealing with a 
closed society that is deliberately deceiving, and where 
they're using dual-use equipment. And the question very often 
is, Do you give Saddam Hussein the benefit of the doubt that 
these are really for weather monitoring, or not? And so, I 
think it's just a very difficult--I'm sorry, I just don't 
remember----
    Senator Nelson.  Well, I guess----
    Dr. Rice [continuing]. ----the circumstance.
    Senator Nelson [continuing]. ----the question would be--
since we're looking forward, which has been the theme of my 
statements. If your intelligence in the Department of State has 
a difference of opinion from the rest of the intelligence 
community, what is the way that you will receive and handle 
that intelligence?
    Dr. Rice.  Well, I will certainly encourage INR, which is 
headed by an assistant secretary who I've known for 20-plus 
years, somebody that I have known at Stanford--I will certainly 
make certain that they are making their views known in the 
intelligence community. I don't think I have to do that. I 
think they have been making them known. And I think INR has 
demonstrated that it has a different take on things and that 
that is worth looking at. Why have they had a different take? 
They have very often been right about some of the dissents that 
they've taken. And so, I look forward to working with them to 
understand that somewhat better. But as we're restructuring the 
intelligence community, understanding how different 
intelligence agencies do their work is going to be important to 
the National Intelligence Director--the Director of National 
Intelligence--in making sure that he's getting competitive 
views on the intelligence front.
    Senator Biden.  Would the Senator yield for ten seconds?
    Senator Nelson.  Of course.
    Senator Biden.  Will you tell us if there's a difference, 
if we ask you?
    Dr. Rice.  Well, of course. And you'll know, because the 
intelligence community always fights any dissents.
    Senator Biden.  No, but you, as Secretary of State, will 
you tell us, if we don't ask you, if we don't know to ask you? 
Will you level with us? Will you tell us, ``By the way, there's 
a different take on . . .''----
    Dr. Rice.  From the INR----
    Senator Biden.  Yes.
    Dr. Rice.  Of course, yes.
    Senator Nelson.  See, that's the point. We felt like we 
didn't know what to ask, because we were told about these UAVs. 
Yes, it was buried in the National Intelligence Estimate, but 
we were getting these verbal communications in a very secure 
room. And that's the whole point, so that we can make 
judgements based on the full information.
    Mr. Chairman, let me just wrap up with a couple of other 
subjects here. It's already been discussed, we've got a problem 
in Latin America in the tri-border region, and that needs your 
attention. It is, as Senator Dodd said, ``The Wild West.'' And 
there's a lot of financing of some bad actors that comes out of 
that area. We've got to keep our eyes on President Chavez. He 
told us one thing, a week ago Monday, and then, lo and behold, 
a whole different thing suddenly emerges after we left Caracas. 
And thanks to the Chairman, he noted this, way back in 
November, which I fully support. What are the implications to 
the United States if Chavez cuts off the oil?
    And the Chairman has called for a GAO investigation. I hope 
the Chairman will call for hearings on this, and I fully 
support him.
    And then, you know, there seems to be some flap over this 
very courageous Cuban resident name Oswaldo Paya, who went out 
and got 11,000 signatures on a petition and then the government 
of Cuba stiffed him, when, in fact, that was a part of what 
their constitution said. Will you support the Varela Project, 
and other grassroots movements inside Cuba?
    Dr. Rice.  Absolutely. And we'll look for even better ways 
to support them.
    Senator Nelson.  Okay. And my final statement, it's just a 
little thing that nobody ever recognizes, but, because in my 
former life I had been, handling issues for people that were 
victims of the Holocaust, and their families. There's a little 
office in the United States State Department that is a pittance 
on what its budget is. I asked this four years ago of Secretary 
Powell, when he was here for his confirmation. He said he would 
continue it. It still is there. And what it's trying to do is 
to see that people in the particular life, that I had lived 
before, were seeing how all of these people had been run over 
by insurance companies. They had collected the policies for 
years and years, and then, after the war, they said, ``We don't 
know you.'' And that's just one of the things that the 
Holocaust victims and their families, now, and the Holocaust 
survivors, have suffered. And so, I would ask you to maintain 
the Office of the Special Envoy for Holocaust Issues.
    Dr. Rice.  Thank you Senator. I will.
    Senator Nelson.  Thank you.
    The Chairman.  Thank you very much, Senator Nelson.
    I will call upon Senator Obama, because Senator Chafee has 
already had one opportunity, and then I will call upon Senator 
Chafee.
    Senator Obama?
    Senator Obama.  Thank you very much Mr. Chairman. And I'll 
try to be brief.
    The first question I guess I have is more of a request, Dr. 
Rice, and that is, assuming your successful confirmation here 
today that we schedule some mechanism for your Department to 
follow up on the question that had been raised yesterday, both 
by Senator Biden as well as myself and others, about figuring 
out a concrete measurement of our progress in training, 
because--training of Iraqi troops--because one of the questions 
that will continue to come up, every time I have a town hall 
meeting in Illinois, is, what's the status of our troops, and 
what's our exit strategy?
    And I recognize that you are hesitant, in your current 
position, to provide a timetable. I thought Senator Alexander 
said something, yesterday, about wanting a success strategy, as 
opposed to merely an exit strategy, and I recognize that 
approach. On the other hand, constituents and families in small 
towns all across Illinois need some more satisfactory answer to 
them. And it strikes me that this whole issue of training 
troops, turning over security functions to the Iraqi Government 
is critical to that.
    So my first question, I guess, is, Are you committed to 
setting up some mechanism whereby we can get some specific 
answers on that?
    Dr. Rice.  I am. I will note that the police training is 
actually under the Defense Department, and not under the 
military.
    Senator Obama.  I understand. This may require----
    Dr. Rice.  But I will make certain that----
    Senator Obama [continuing]. ----an additional commitment 
from----
    Dr. Rice.  I'll----
    Senator Obama [continuing]. ----Secretary Rumsfeld. But----
    Dr. Rice.  I will talk to Secretary Rumsfeld about it. And 
I'm certain that we can be responsive to the concern.
    Senator Obama.  Okay. The second--I guess this is more of a 
point, rather than a question, but I'm happy to solicit a 
response. You know, all of us, I think, are rooting for your 
success. And I recognize--not just yours, personally, but this 
administration's success. I think the notion that we have a 
very real and present danger in the nihilistic ideologies of 
radical Islam, I think most Americans share.
    I think to the extent that we can encourage a more moderate 
brand of Islam, it already exists, it has to be nurtured. 
Although I have to dispute, a little bit, your notion that, 
sort of, we're always making progress. Indonesia, for example--
I actually lived in Indonesia for five years--perceptions of 
America and the West were much better then than they are 
currently, subsequent to 9/11. So I'm not always certain we're 
going in a straight line in that route, but I recognize that 
it's a complicated issue, and we wish you well.
    And I'm--I don't think there's anybody on this committee 
who would not prefer to see this administration succeed, even 
though there have been strong disagreements about the decisions 
that have been made in the past.
    I guess the comment that I'd like to make is that--in the 
activist, proactive strategies that you've pursued. It seems to 
me that this administration often asks that we simply go along 
and have faith that you're making the right decisions. And 
that's true--I think part of the reason you were hesitant to 
talk about the torture issue yesterday had to do with the fact 
that you don't want to define ``torture'' too much, because you 
want a little bit of wiggle room. You want us to assume that 
you will make sound decisions based on immediate circumstances. 
And I think that the reason it's hard to pin you down on an 
exit strategy, or Iran, or these other circumstances, is, you 
don't want to bind this administration. ``Trust us,'' I think 
is the message, ``and we'll make the best decisions.''
    But I think that, from the perspective of my constituents 
in Illinois, at least, a number of people did vote for George 
Bush, and do trust him. But my job, as a Senator, is to make 
sure that we're basing these decisions on facts and that I 
probe and not simply take it on faith that good decisions are 
being made.
    And so, my final comment, I guess, is simply this. Your 
predecessor had a reputation of being willing to maybe tell the 
President some things that he didn't always want to hear. I 
think he displayed a certain independence that was encouraging, 
and I think the people felt that he was speaking on behalf of 
the American people and not simply being a mouthpiece for the 
administration. If there's criticism of this administration, I 
think, on foreign policy it's--I think the most profound one 
is--is that maybe dissenting views have a difficult time 
getting a hearing.
    And so, I just would urge you, in your role as Secretary of 
State, to display some independence and make certain that, as 
you're making these difficult calculations, that you are not 
engaging in simply agreement with the conventional wisdom 
inside the White House, but that the hard questions are being 
asked in all these decisions, because, ultimately, you've got 
young men and women who are making sacrifices as a consequence 
to these decisions, and the entire country is spending huge 
sums of money that could be spent on other things on the basis 
of these decisions.
    So I think my comment is just, I hope that you show the 
kind of independence that will make the country proud, and not 
just please the administration.
    Dr. Rice.  Thank you. Let me just, perhaps--Senator Chafee 
will have comment--but let me just--I have no difficulty 
telling the President exactly what I think. I've done that for 
four years. Sometimes he agrees, and sometimes he doesn't. The 
fact is, that I felt, very strongly, that no one else should 
ever know the times that when he disagreed and the times that 
when he didn't.
    Senator Obama.  Which I respect.
    Dr. Rice.  When we agree----
    Senator Obama.  I have no problem with that, in your role 
as National Security----
    Dr. Rice.  Yes. Well, but in my role as Secretary, I want 
it to be clearly understood that I still believe that we are 
one administration, with the President in the lead.
    The President is the only elected official in the war 
council. Of course, the--was the only elected official in the 
war council, other than the Vice President, of course.
    The President will, as we move from war to peace, still be 
the elected official as we decide how to try to use this time 
of diplomacy to build new structures and to bring old 
relationships to use to pursue this new agenda.
    But I know what he expects from me. And he expects my most 
candid advice. He expects me to argue vociferously for that 
which I believe. He expects the State Department to play a 
strong and active role, not just in the execution of American 
foreign policy, but in its generation, in its formulation. And 
that, he'll get.
    I know the men and women of the State Department--not every 
single one of them, but I've worked with them--many of them 
over the last four years and in years past. And what I'll ask 
from them is their best in pursuing a course, and in 
recommending a course, and then moving forward on a course. So 
you don't have to worry, Senator, that I will be a strong voice 
for what I believe and for what the State Department believes 
is the best course, going forward.
    Senator Obama.  I wish you the best of luck.
    Dr. Rice.  Thank you.
    The Chairman.  Thank you very much.
    Senator Chafee?
    Senator Chafee.  Thank you, once again, Mr. Chairman.
    I'd just like to respond to some of the comments from 
Senator Coleman. And I deplore any rhetoric of hate, and 
particularly against the state of Israel. I do believe the 
challenge with the Iranians is to empower those many, many 
Iranians who believe that we've got to find a way to resolve 
our differences without bloodshed, and that's our challenge.
    The Chairman.  Thank you Senator Chafee.
    Now, I've been requested by the distinguished Ranking 
Member to welcome one final comment or statement that he will 
make. Following that, we will proceed to the business meeting, 
and we will excuse you from further activity, Dr. Rice.
    Senator Biden?
    Senator Biden.  Dr. Rice, I suspect your press office has 
been asked by the press as often as I have in the last 24 hours 
how there could be such a discrepancy in our individual 
assessment of the trained troops in Iraq. And I want to just 
set the record straight. It implies that I know I'm right. So 
I'm not setting the record straight--I'll give you how I 
arrived at my numbers and why I think it's important.
    It's not about criticizing the administration. It's about, 
I believe, a recognition on the part of our trainers, our folks 
in the field, that we made, understandably, the wrong 
judgement, early on, as to how to train. I will not mention the 
general's name--but last trip, I think my friend said this; I 
don't want him in trouble, because maybe he didn't--he said, 
``We went for quantity, not quality, at the front end, and it 
hasn't worked,'' end of quote.
    Now, here's what I know to be the facts, as told to me by 
your administration personnel in charge of training, not by 
anybody from the outside. First of all, the claim there is 
53,520 trained police. That's what the administration says in 
the last report. These consist of police who receive a three-
week refresher course and new recruits who get an eight-week 
course.
    Parenthetically, I'll point out that we talked about lack 
of automobiles and lack of equipment for the police. At the 
training center, when I asked whether they received the 
automobiles, the person in charge of training said, ``We have 
them, but they're not much use. I found out they don't know how 
to drive.'' Literally. My word. They don't know how to drive. 
``So we're teaching them how to start automobiles, mainly''--
paraphrasing; I don't know the exact quote--``to get out of the 
way of an explosion.''
    So that's the quality of the people we're sending.
    There's a 24-week field-training course by U.S. trainers in 
the manual. It has never begun. Not a single one of these 
claimed 53,000 cops have gone through that. They don't even 
know, when they send the police back to--you should know this, 
if you don't--back to Iraq, they have no notion where they go, 
they have no notion who they've been assigned to, they don't 
have any idea where they are, and no one way to follow up.
    Instead of the 5,700 international trainers recommended by 
your administration, your assessment team, in June of '03, it 
took until this fall, '04, to get 500. U.S. only. Nobody else. 
U.S.-only trainers.
    You stated, yesterday, Doctor, this is not an environment 
for, quote, ``beat cops.'' It's an insurgency--witness Mosul in 
November, where the police force nearly deserted after 
insurgent attacks.
    On September 15th, 2004, the administration claimed it had 
32,000 trained police. You all are now claiming--you've gone 
from 32,000 to 53,000--up 20,000 just since September 15th.
    In that hearing, the Deputy Assistant Secretary of State, 
Joe Bowab, who I think will still be there when you get there, 
who was in charge of overseeing the training program from 
State's end, I asked him the following question, quote, ``Do we 
have 32,000 trained Iraqi cops on the street?'' Trained. Not 
cops on the street, but trained Iraqi cops. Bowab said, ``No, 
sir.'' Quote, ``No sir.''
    I won't bother you with the rest of it. I went onto say, 
``My impression is, you don't have one trained Iraqi cop--
having gone through all the training.'' His answer to that was, 
``Yes, we don't.''
    National Guard, 40,063 in the latest report. Training 
consists of three weeks by the individual and three to four 
weeks collective training. Training is not standardized. There 
have not been good results. They report high absenteeism. Large 
casualties from insurgents has led to a climate of 
intimidation. Reports of infiltration by insurgents--they think 
infiltration of the U.S. base in the Mosul attack.
    Allawi himself dismissed the national guard before the 
interim assembly, saying it was a concept not understood by 
Arab societies.
    So, who's equipped, trained, led and experienced to fight 
the insurgency? As General Petraeus said--and he's a first-rate 
guy, please listen to him--we have to change the--quote, ``the 
operational concept. This is an insurgency, not regular police 
work.'' That's Petraeus. Police commandos, led by General 
Adnam--I think, A-d-n-a-m, a former Iraqi general with whom I 
met last time around--Petraeus introduced us to him in 
December. He will eventually have about 1,000--he probably has 
about 600 now; that's an educated guess--able to operate 
independently in collecting their own intelligence. But 
Petraeus has figured out: don't send the cops back to their 
home town. Send the cops you finally do train to another town. 
Focus on--what we've been arguing you should do for two years--
focus on training, essentially, SWAT teams, people to rely on, 
heavy training, heavily armed, to send them in. So we're 
finally doing that, Petraeus is doing that. But, just to put it 
in perspective, there's about 600 of those folks now. And this 
General Adnam is a pretty tough guy. I'm convinced he knows 
what he's doing, and Petraeus does, too.
    Intervention force--latest reports, 9,159--all of them 
don't have the experience to stand up to the insurgency.
    Special operation forces--latest report, 674--some element 
to the army--the latest report puts the number at 4,159--are 
trained. That's where I got the number, roughly 4,000. That's 
what we're saying.
    The latest report puts the number at 4,159, though the 
mission is supposed to be national defense, not fighting 
internal battles against fellow Iraqis. These same outfits 
refused to fight in Fallujah in April.
    This is my staff's assessment, and I agree with it.
    At the high end, assuming every one of these forces is 
battle-ready, that would give you about 14,000 forces. But, in 
reality, it's probably no more than a third who are actually 
battle-ready. Most are rookies and will not have time to gain 
the experience, the skills that are needed, unless they're 
embedded, like our reporters are, in U.S. forces.
    And the delays in the NATO staff colleagues helping? That 
hasn't helped at all, either.
    Now, Peter Khalil, the former Director of National Security 
in the CPA--this is the guy who was in charge of training--in 
the New York Times, December 20, said, ``The answer lies with 
specially trained Iraqi internal security forces, separate from 
the standard military, including mobile counterterrorism units, 
light infantry police battalions and SWAT teams. There are now 
only a handful of battalions with such training.'' Continue to 
quote, ``Unfortunately, the coalition was late off the mark in 
building up these units, and the training is long--a minimum of 
16 weeks for each man, as compared to the two weeks of boot 
camp given to a typical guardsman.'' Quote--continued quote, 
``Training these specialized troops will take time; the United 
States should be prepared to shoulder the main burden of Iraq 
security for the next six to 12 months.''
    Now, Khalil also did a piece in the New York Times. He's 
now a visiting fellow of the Saban Center for Middle East 
Policy. And he says, and I'll end this, ``150,000 Iraqis who 
have so far joined the state security services can do little to 
stand in their way; in fact, even if their ranks increased to 
500,000 through rushed training, they would still be largely 
ineffective. However a force of 25,000 or so highly trained 
Iraqi internal security troops, operating at the sharp end of 
the spear, with the remaining bulk Iraqi forces in a supporting 
role, might be able to do the job. That's because 
counterinsurgency is not about numbers; the quality of the 
security forces, not their quality is the key.''
    Every single person I have spoken to--on the ground in 
Iraq, in my four trips, three since Saddam is down, every tough 
marine, every single military guy I've spoken to, says that. 
Been saying it for two years. And yet you guys--I'm not asking 
people to say, ``Mea culpa, mea culpa, mea maxima culpa, we 
made a mistake.'' Forget that. You all don't do anything except 
parrot, ``We've trained 120,000 forces.''
    So I go home, and people ask me the same thing they ask the 
Senator from Illinois, ``Why are we still there--120,000 
trained Iraqis--why are we still there?''
    So do me a favor--as my mother would say, ``God love you, 
please do me favor``--start to tell the whole deal. Let me cite 
a new definition of ``trained.'' If you're able to take the 
place of U.S. Forces. Let's call it that.
    And I'd like you to think about and, in private, tell us 
later--after you're Secretary, and I'm about to vote for you in 
about five minutes--tell us how many of those folks you think--
and, for God's sake, don't listen to Rumsfeld; he doesn't know 
what in the hell he's talking about with this.
    Thank you very much. You want to comment? I welcome it.
    Dr. Rice.  I only want to say, Senator, that we talked, 
yesterday, about the fact that the 120 is ``those trained.'' I 
said, there are problems with leadership, there are problems 
with desertion, there are problems with some absenteeism, as 
well. And I also said, in response to Senator Obama, that the 
real test is, do they fight when they're put in the field? In 
some places they've fought well, in other places they've not 
fought well.
    Senator Biden.  What's your overall assessment?
    Dr. Rice.  I think that we have had problems with the 
training. I'd be the first to say that. That's why General 
Petraeus says what he says. And we're working to address those 
problems. And that's one reason that General Luck is out there, 
is to get an assessment of what we need to do.
    Part of it is that the circumstances do keep changing. We 
thought we were training ``beat cops.'' We were training cops 
who were going to have to face insurgents.
    Senator Biden.  In truth, they haven't changed, in 19 
months.
    Dr. Rice.  Well, that piece of it has changed. Because the 
cops were taking a real beating. But, at any case, we are 
absolutely clear that that key for the administration, the key 
for America, is to get Iraqi forces trained. We understand 
that. We are working on it.
    Senator Biden.  That translates, then, that we have to keep 
American forces in large numbers there for at least six months 
to a year, right?
    Dr. Rice.  Well Senator, we can--let's have this discussion 
later. I will say that I don't know if the standard is----
    Senator Biden.  Believe me, I'd rather have it after I was 
confirmed.
    Dr. Rice.  I don't--no, no. I don't know if the standard is 
that they have to be able to, one for one, replace American 
soldiers. There are some things that they will do better than 
American soldiers because they know the neighborhood. There are 
many things that they will not do as well. And so I think I 
would not accept as a standard a one-for-one exchange of an 
Iraqi for an American soldier. That's my only point.
    Senator Biden.  What is your standard? You tell me your 
standard.
    Dr. Rice.  My standard is that they are able and capable of 
carrying out the tasks that are required to deal with the 
insurgency, and to begin to root out the insurgency, and to 
work in a counterinsurgency way. Frankly, they may not do it 
the way an American soldier would do it.
    Senator Biden.  As long as they do it, so we can come home.
    The Chairman.  Well, thank you very much, Senator Biden.
    Dr. Rice, as you can tell, we are, as a committee, 
concerned about the training; likewise, we are concerned about 
the economic issues that were raised yesterday as a part of 
foreign policy; we are concerned about the budget; we are 
concerned about support for your Department. We want to ensure 
that you have the resources that are required.
    We appreciate, very much, the quality of your answers. We 
appreciate the quality of the questions that were raised. This 
has been a comprehensive view of American foreign policy at 
times of stress. We congratulate you on the hearing.
    I look forward to supporting you. For the moment, I will 
recess the hearing, and then, in a few moments, we will 
commence a business meeting of the committee.
    Senator Biden.  Thank you very much, Dr. Rice.
    Dr. Rice.  Thank you, Mr. Chairman. Thank you, Senator 
Biden. Thank you, Members of the committee.

    [Whereupon, at 10:44 a.m., the hearing was adjourned.]


    THE NOMINATION OF DR. CONDOLEEZZA RICE TO BE SECRETARY OF STATE

                              ----------                              




                            Business Meeting

                              ----------                              


                      Wednesday, January 19, 2005

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington D.C.
    The committee met, pursuant to notice, at 10:46 a.m. in 
Room 423 Dirksen Senate Office Building, Hon. Richard G. Lugar 
[chairman] presiding.
    Present: Senators Lugar, Hagel, Chafee, Coleman, Biden, 
Sarbanes, Feingold, Kerry, Boxer, Nelson, Obama, Dodd, 
Alexander, Sununu, Murkowski, and Allen.
    The Chairman. Members of the committee, I call the business 
meeting to order. The question before the committee is on the 
nomination of Condoleezza Rice to be Secretary of State of the 
United States of America. Is there a debate, or discussion, at 
this point?
    Senator Boxer. Mr. Chairman?
    The Chairman. Senator Boxer.
    Senator Boxer. Mr. Chairman, first let me thank you from 
the bottom of my heart for your fairness in these hearings. I 
know it's difficult, and these are difficult times, difficult 
matters. I think you show patience and you show a spirit of 
bipartisanship that I think is a model for the rest of us 
tonight.
    The Chairman. Thank you.
    Senator Boxer. I just want you to know I feel that way. In 
my mind there is no doubt that Dr. Rice has the resume and the 
intelligence, and the experience to be Secretary of State. And 
after nine hours of grueling questions and answers she 
certainly proves she has endurance for the job.
    But I'm very troubled because, although this committee on 
both sides gave Dr. Rice the opportunity to speak candidly and 
set the record straight, there were a number of areas where she 
just didn't do that. She was given a chance to set the record 
straight on the nuclear threat which was hyped to the American 
people and got this country into a war. She failed to admit 
that she had made any mistake in over stating Saddam's nuclear 
capabilities even though as I put into the record at least four 
agencies had told her otherwise.
    She was given the chance to set the record straight on 
terrorism and the effect of the Iraqi war on terror. She 
actually stated that al-Qaeda had lost territory, when in fact 
the record shows that al-Qaeda has expanded from operating in 
45 countries in 2001 to 60 countries today. And I think Senator 
Feingold pressed her on that in terms of al-Qaeda's president--
presence in Africa.
    I pointed out to her a State Department document showing no 
al-Qaeda in Iraq before 9-11. She didn't even address that. And 
that was a report that was signed by the President of the 
United States. She was on another subject given a chance to set 
the record straight on our inconsistent policy towards Central 
America. Senator Chafee pressed her on that, I pressed her on 
that, Senator Dodd pressed her on that. And she showed a 
rigidity in her answer which I found troubling. She was given 
the chance to set the record straight on what Iran can do--this 
was an answer to Senator Biden--to avoid a dangerous clash with 
the United States of America. And she demurred when given this 
amazing opportunity she had to speak directly to the Iranian 
leadership.
    She was given the opportunity to set the record straight on 
the number of really trained Iraqi security forces and our exit 
strategy in Iraq. Every American wants us, yes, Senator 
Alexander, to succeed and leave. And yet she would not really 
even say that this was a troubling issue, when pressed by 
Senator's Biden, Kerry, and Obama. She was given the chance to 
address the issue of America's past relationship in supporting 
Saddam Hussein when he was gassing the Iranians. She didn't 
even pick up that challenge, or discuss that in anyway to set 
the record straight.
    And I have to say most troubling to me, she was given the 
opportunity to set the record straight on her feelings about 
torture and the United State's policy on torture. And here I 
have to say I have grave concerns. Because she said to us today 
that she never objected to the language in the intelligence 
bill written by Senators Lieberman and McCain when I have right 
here her very words that the administration opposes that 
section which provides legal protections of foreign prisoners. 
And I ask unanimous consent to place this into the record.
    The Chairman. It will be placed in the record.
    Senator Boxer. So a lack of candor in the past is bad 
enough. And here we have a continuing assault on reality. This 
is not right. The fact is she said, well, we objected to other 
sections, not the section that guaranteed that no prisoner 
shall be subject to torture or cruel, inhumane, or degrading 
treatment or punishment that's prohibited by the Constitution, 
and yet that's the very section she cites in her letter, Mr. 
Chairman. So her lack of candor on that issue alone is very 
troubling to me.
    Now I know there are areas of common ground. I think that 
Senator Murkowski raised some of those because--I'm so happy 
she's on this committee because we can really work together on 
issues affecting women and children and families, and I'm 
thrilled that she's here. And Dr. Rice is very accepting of the 
fact that this will be important to her. I'm very glad about 
that. And I'm glad she mentioned the Syria Accountability Act 
which I authored along with Rick Santorum, which is now the law 
of the land. But that aside, these other areas are terribly 
troubling.
    And I'll conclude in this way. This is a terrific 
committee. I'm so proud to be on it. I think members on both 
sides are very candid and forthcoming. And I didn't see that 
replicated by Dr. Rice and we gave her every opportunity on 
both sides to do that. I look at her opening statement, as I 
said yesterday, and wait to page three, the bottom of page 
three, a thousand words into it to mention Iraq and a passing 
reference to the Tsunami.
    I just if--I think if someone was kind of beamed down and 
knew about what was troubling Americans and they read that, I 
agree with Senator Biden, it was sort of ``don't worry, be 
happy'' until this committee got into the hard issues of the 
day. So I continue to stand in awe of our founding fathers. I 
wish there were founding mothers at that time. Give credit 
where credit is due. That anyone at a high level like this is 
in fact responsible to the American people.
    And I hope if nothing else Dr. Rice now gets the difference 
between her role as the National Security Advisor where she 
wasn't in any way responsible to come before Congress, but went 
to the American people and sold a war, and continued to repeat 
things that were not so. And her role now where she is 
responsible to the American people as well as to the President, 
and to the American people through us. And so I just hope we 
have better times ahead and I will not be able to support this 
nomination even though I know I'm in a--a quite a minority. 
Thank you.
    Senator Allen. Mr. Chairman?
    The Chairman. Senator Allen.
    Senator Allen. If I may Mr. Chairman. Thank you and Senator 
Biden for your outstanding leadership of this committee. I've 
listened to the Senator from California's comments and 
questions. In fact when talking about Dr. Rice's opening 
statement, I thought it was a very powerful opening statement. 
And while we can quibble as to which page and when into the 
speech one gets into talking about Iraq, I think this is how we 
need to look at Dr. Rice and the totality of her character, her 
experience, her knowledge, and capabilities to be our next 
Secretary of State. One, in reading her statement, she first 
talked about her own background. All of us are a composition of 
our life experiences. The fact that she grew up in the 
segregated south, persevered, is part of what I think will help 
her be an effective Secretary of State as we're trying to 
advance freedom around the world.
    She then got into the details, but the key point in her 
testimony and all the questions was, we want to advance 
freedom. And I think that should be a bipartisan goal and 
aspiration. And throughout it all, Dr. Rice showed a basic, 
fundamental belief in trusting free people, trying to advance 
freedom, put in the institutions of freedom so that there is 
not corruption in government, how there's religious freedom, 
how there's freedom of expression, many times talking about the 
rule of law. She faced some tough questions on some tough 
challenges facing our country presently and in the future. And 
there was some bump and run defenses and tactics used against 
her but she never really got off stride. She kept her poise 
through these many, many hours of questioning and I think when 
you look at the totality of her--of her record, her experience, 
her principles I respectfully ask my colleagues to confirm 
President Bush's choice to be his Secretary of State.
    I think she will do our country proud. She has shown a 
great deal of poise, a great deal of intellect, and I believe 
that this committee has asked, and every Senator's had more 
than adequate chance to ask questions.
    But through it all Dr. Rice has never gone off stride. 
She's the embodiment of the modern day American dream for all 
people who have an equal opportunity to compete and succeed 
regardless of their gender, their race, or their religion. That 
is the meritocracy we have in this country. And she understands 
that as does this President. As other countries, the people in 
other countries of the world have such opportunities not only 
will they have greater opportunity and hope, but we also will 
be more secure. And I think Dr. Rice will be an outstanding 
Secretary of State for advancing those principles. Thank you, 
Mr. Chairman.
    The Chairman. Thank you, Mr. Allen.
    Senator Kerry. Mr. Chairman.
    The Chairman. Yes, Senator Kerry.
    Senator Kerry. Mr. Chairman, first of all, thank you very 
much for your stewardship of these hearings. They have been 
what my colleagues have--have called them. I think you've been 
fair and patient and generous and I appreciate it and I think 
everybody on the committee appreciates it. And I want to thank 
you for staying extra time last night and I thank Dr. Rice for 
hanging in there. The Senator from Virginia talks about sort of 
the standard here by which we should make this judgment.
    There isn't anybody in the United States of America who 
doesn't admire Dr. Rice for the journey she's made, for what 
she represents. And is she qualified for the job? Absolutely. 
Of course she is, absolutely qualified. The President has a 
right to make a choice. But our votes also have to count for 
something, and it seems to me if you think about this hearing 
and what we've heard over the course of the last hours, a 
majority of this committee, bipartisanly, has expressed 
unbelievably serious reservations about policies in one part of 
the world or another. Serious reservations about North Korea, 
about Iraq, about Iran, about proliferation, about Haiti, about 
Latin America. And particularly the absence even of policy in 
some of those places.
    So in my judgment it's not a question of ratifying a life 
story as much as it is a judgment that we make about the 
direction of our nation, the security of our country, and the 
choices that have been made. The judgments that have been made 
over the last years. I choose to vote my concerns, not to 
overlook them. I choose to vote my gut, not custom. I know what 
custom says. But the fact is that Dr. Rice is one of the 
principle architects, implementors, and defenders of a series 
of administration policies and choices that in my judgment have 
not made our country as secure as we ought to be in the 
aftermath of 9-11. And that have alienated much of the world 
and certainly much needed allies in our effort to reduce the 
cost in lives and dollars to the American people.
    I also believe there's been a collateral cost of other 
initiatives that we might have been able to undertake that 
would also have advanced the cause of freedom as well as the 
security of our nation. I came to this hearing genuinely open 
minded to see what I would hear. And I regret to say that while 
we heard words sort of offering--so the convention of this city 
and of current politics. I didn't see in the testimony an 
acknowledgment of the need for a fundamental bipartisan change. 
For a policy that shows a direction that can build the kind of 
consensus that our nation needs and that the world needs.
    Nor even a new vision for America's foreign policy that can 
make us stronger and help us win the war on terror. On Iraq, on 
North Korea, and on Iran to name just a few what I heard was 
really a policy that predicts more of the same. Senator Biden 
is right about those numbers and the refusal to even 
acknowledge that to the American people is quite stunning at 
this point in time. You can't deal with that kind of reality, 
you can't really tell the American people what the choices and 
options really are.
    I hope I'm proven wrong. And I hope the course will change. 
And I hope the administration will recognize the strength of a 
foreign policy that has bipartisan support. And I'm prepared as 
I said last night to work with Dr. Rice and all the colleagues 
on this committee to find the kind of bipartisanship that has 
always made America stronger. Historically politics stopped at 
the water's edge, it ought to. We haven't seen that kind of 
strength in these last years.
    So I will work, I'll work with the administration, I'll 
reach out and I'm confident that colleagues on both sides of 
the aisle will do the same. But while I recognized at the 
beginning of this hearing that Condoleeza Rice will be 
confirmed overwhelmingly by the United States Senate it will 
have to be without my vote for the reasons that I've stated. 
Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Kerry. Let me just make a 
personal comment. Part of Dr. Rice's responsibilities, as we 
all recognize, is to be a strong administrator of the 
Department of State. She has spent quality time to try to make 
certain that confidence could be built in the Department. 
Secretary Powell was certainly remarkable in the leadership 
that he gave in that respect. I mention that part of the issue 
because it's one that we all have to be cognizant of on this 
committee.
    We talked about the support that she will need, the 
budgetary support, the things that need to happen in our 
embassies abroad, in our consulates, the security of our 
people. We touched upon these issues which are not really 
differences of policy but really ones of emphasis. This 
committee should be an advocate for a strong budget. We have 
talked about the need for a strong authorization, the 
refashioning of various institutions that sometimes don't get 
looked at.
    I see in Dr. Rice someone who is fully capable of making 
changes as required, of working and listening carefully to 
those who are part of that Department and in our embassies. I 
admire that. I appreciate the points made by members on both 
sides of the aisle with regard to the debate that we have had 
for many years on American foreign policy. Certainly that has 
been found in this committee in abundance. We have a 
responsibility to try to bring forward a bipartisan support so 
there is one face for America. I think that the committee has 
discharged that very well through the chairmanship of my friend 
Joe Biden and hopefully during the past two years.
    I think that this hearing was designed for not only a 
ventilation of all of our views but also a public opportunity 
for Dr. Rice and for the American people to understand the 
gravity of our concerns. We have underlined many concerns.
    There were, in fact, instances during our hearing in which 
Dr. Rice recognized that we have work to do. There will be more 
conversations, more hearings. There will need to be. At the end 
of the day, she does have very strong confidence in the 
President of the United States, and it's a unique relationship. 
I'm not certain that I saw the very beginning of it, but I 
think I saw a part of that in visits to Stanford University to 
see my friend and our former Secretary of State George Schultz 
at a time when Dr. Rice was serving as provost of the 
university. For a variety of reasons, George Schultz came to 
the conclusion that, at least on the Republican party side, 
that George Bush was the best bet. As a result he gave very 
strong support to the candidacy of the Governor of Texas.
    Perhaps through his intercession, Dr. Rice became an 
advisor, and was even sometimes suggested as a tutor, as a 
mentor to Governor Bush during the primary campaigns and the 
election. That trust has been built over many years. She does 
have the ear of the President.
    Many of you have raised questions as to how candid she will 
be with the President. She affirmed today that she tells the 
President what's on her mind. Sometimes he agrees and sometimes 
he disagrees. Each one of us, less frequently, has had that 
opportunity. Most of us have availed ourselves of that 
opportunity in very candid ways, advising to the best of our 
ability our President about what we believe is the thing to do.
    I see in Dr. Rice, in the conversations that I've enjoyed 
with her, sometimes with Senator Biden, sometimes with other 
members of the committee, a degree of openness to listen. She 
possess a loyalty to the President, so there is not immediate 
acquiescence or commitment. But at least there is an 
opportunity to move the policy along. I saw in her discussion 
today of the nation building issue, now called reconstruction 
or whatever, a very large change. President Bush in his first 
few speeches on foreign policy five years ago indicated that we 
were not involved in nation building, and that was the 
generally held view of many people, on both sides of the aisle. 
When Chairman Biden held hearings before the war on Iraq, we 
heard from many witnesses. We asked how long will we be there. 
The witnesses said, some in the Bush administration, some in 
previous administrations, that the mission would not be very 
long because it would be embraced by the Iraqi people. They'll 
proceed on to democracy and we'll be out of there.
    Our role is not one of building, and hand holding and so 
forth. We've had a 180 change in this world. We all understand, 
having seen Afghanistan and elsewhere, how profound that change 
has been. Dr. Rice did acknowledge that we are enthusiastically 
trying to build something. We're going to have to make sure it 
has the right personnel cadre for whatever the contingency may 
be.
    I look forward to supporting her nomination both today and 
when we will have a vote of the full Senate. Even more 
importantly I look forward to working with her, and to 
expressing to her as candidly as we did today things that we 
think are important, and try to make available for members of 
the committee those opportunities, so that we will have a 
sharing as constantly and as consistently as possible. Let us 
just conclude by saying that I'm hopeful that members will give 
her strong support with their votes today, but, even if not, 
then at least with their support and their good advice in 
months to come.
    Senator Dodd.
    Senator Dodd. Well, thank you, Mr. Chairman. And let me--
because I presume others may want to if not make public 
statements here today want to have some remarks included in the 
record. So I'd ask unanimous consent that any and all members 
be allowed to express their views. I'd ask unanimous consent 
that some comments I have be included in the record. I'll leave 
it there.
    Let me--first of all let me begin by saying if I had my 
druthers this morning the chair to my right would be vacant and 
that I would have listened to someone appear before this 
committee at some date seeking the job of Secretary of State. 
Is that mic--is that mic on? And possibly even the chair to my 
left might have been vacant as well under some circumstances. I 
began my membership on this committee 24 years ago. I'm 
watching this new freshman from Illinois, and by the way you 
handled yourself brilliantly, I thought, during the last day 
and a half, and I'm very proud to have you as a member of the 
committee along with Senator Martinez and Senator Murkowski. 
When I sat in that chair, Al Haig was the nominee under the 
Reagan administration. Senator Sarbanes, Senator Biden, 
Senator--the chairman of the committee were present at that 
time. And so I've been through a number of these hearings over 
the last 24 years. I think I've counted I think seven 
Secretaries of State over that period of 24 years that have 
been before this committee.
    I always begin with the presumption that elected Presidents 
ought to have their official families, their cabinets. To begin 
with that presumption--I don't do the same with judicial 
nominations, but I certainly do when it comes to having the 
people around you who are going to express and carry out the 
policies as you've described them and as they've articulated 
them. And I do that here in this case as well.
    And I intend, on that basis, to vote for this nominee. 
Having said that, I want to thank Senator Boxer and Senator 
Kerry. Others may take the same view they have of this 
nomination, but I think the Chairman has said it well and the 
ranking member has said it well. This is a very important 
service we provide to the American public through a 
confirmation hearing. However the votes are cast those who have 
watched the hearings and as they've been reported it's one of 
the unique opportunities we get to really examine as we 
thoroughly would like a broad array of issues that affect the 
interests of this nation. And whatever you may feel about the 
votes we cast here I think the Senators who have raised the 
criticisms and the expressions made by my colleagues from 
California and Massachusetts have provided an invaluable 
service. Because they've raised serious questions about past 
policies of this administration and where they will take this 
nation over the next four years.
    I was deeply troubled by the unwillingness of Dr. Rice, 
just very candidly and simply to answer the question about 
torture. It's troubling to me because as others have said, it's 
not just the President of the United States, it's the face of 
American foreign policy, but the Secretary of State as well. In 
simple statements that they make they can say so much about who 
we are as a people. What direction we want to go in as a nation 
as we begin this 21st century.
    Troubled as well about a lack of interest that I suspect 
that exists when it comes to Latin America. And again I thank 
my colleague from Florida, my Senate colleague from Rhode 
Island, for spending the last week, more than a week traveling 
in the region to try and understand better the needs of this 
part of the world and how we can, in a cooperative way, look 
for new ways to establish new relationships that will advance 
the interests of our own Nation.
    So, Mr. Chairman, I thank you for your patience as Senator 
Kerry and Senator Boxer have pointed out. You've conducted a 
wonderful hearing. It's been a pleasure to serve with you over 
these last 24 years in this committee. And I hope that Dr. 
Rice, that she listened carefully to what Senator Boxer was 
saying and Senator Kerry and Senator Biden, Senator Obama, 
members on this side. We need to get back to building this 
bipartisanship in foreign policy. It is critical. The problems 
we face are international in scope; they require cooperation. 
We've done it in the 20th century, we need to do it in the 21st 
century. And so I'm going to take the side of supporting this 
nominee with all the reservations that have been expressed. 
Because I want to begin with a sense of optimism that maybe we 
can go in a bit of a different direction on these pressing 
issues before us. And I look forward to working with her. I 
hope she does reach out to the minority, work with the majority 
and this committee to try to help forge a more constructive and 
thoughtful foreign policy for the 21st century.
    The Chairman. Thank you, Senator. All right, Senator Biden.
    Senator Biden. Mr. Chairman, thank you very much, thank 
you, and I thank Dr. Rice in abstenia for being willing to be 
here as long as it would take. I don't second guess the motives 
of any Senator and how they vote. I respect the Senators from 
California and Massachusetts and I could easily see how I could 
go that way.
    But I want to make one clerical point. We did have 
extensive hearings prior to going to war in that brief period 
when I was chairman, then you followed through with even better 
hearings on whether or not to go to war. And it is true that 
former administration witnesses came forward, from Weinberger 
on, saying that this would be a slam dunk--didn't use the words 
slam dunk but that we'd be greeted with open arms, that if 
would be fairly quick. We didn't have to worry about nation 
building. Then you raised, extensively, questions about 
duration. But the vast majority of the witnesses we had said 
this was going to take years upon years. That's why the title 
of the article that was issued after our series of hearings 
when I was Chairman was not ``The Day After'' but ``The Decade 
After.''
    ``The Decade After.'' You and I and Senator Hagel and 
others on this side talked about how this was going to be a 
gigantic commitment, and that we should get ready for it. Which 
leads me to this point. I think we're going to rue the day when 
the administration acknowledges that they failed to level with 
the American people about what was required of the American 
people in order to make this policy work. I know I've said it a 
thousand times, and I'm going to say it a thousand more times, 
no foreign policy can be sustained without the informed consent 
of the American people. And that means the whole deal.
    I thought Senator Boxer was really articulate in making the 
point about half truths. I am a practicing Catholic which I 
guess as a Democrat is getting harder to be. But I'm a 
practicing Catholic. I went through Catholic grade school and I 
remember when we were learning to receive the sacrament of 
penance where we Catholics go in confession, as some of my non-
Catholic friends know, and confess our sins. Which I still do 
because I still have many to confess.
    And I'll never forget the pastor in Saint Helen's where I 
was a student taught by the Sisters of Saint Joseph. He tried 
to explain to a grade school kid that when you go to confession 
you have got to tell the whole truth. And he gave the following 
example: Johnny went to confession and said, ``Bless me, 
Father, for I have sinned, this is my first confession. And I 
want to tell you the sins I've committed''. Johnny proceeded to 
say, ``I did something very bad, I stole something.'' And 
Father said, ``what did you steal, Johnny?'' Johnny said, ``I 
stole a gold chain.'' Father said, ``Well, Johnny, are you 
sorry for that?'' And Johnny said, ``I am heartily sorry 
Father. I'm heartily sorry for it, but I lost the chain and I 
can't give it back.'' So the priest admonished him and then 
said, ``Say three Our Father's and three Hail Mary's and be a 
good boy.'' And Johnny left.
    And then father learned that there was a gold watch 
attached to that chain. Johnny told the truth, he stole a 
chain. But there was a gold watch on the end of the chain. 
Johnny didn't tell Father that part. And he still had the 
watch. So Father went on to say, ``When you go to confession 
tell the whole deal. I not only stole a chain. There was a gold 
watch hooked to the chain.''
    This administration, first of all, doesn't go to 
confession, nor should it have to. But it hasn't told the whole 
story about what we face. And I hope I'm wrong. I've been here 
32 years. I go back a long way with Secretaries of State. 
Kissinger was National Security Advisor when I got here. Wasn't 
even Secretary of State yet.
    And I am very concerned that the American people--when the 
going gets even rougher, which it well--may say, ``Hey guys you 
don't know what you're talking about. We want to get out of 
there.'' And I'll make you all a bet, I doubt whether anybody 
would disagree with me.
    We leave before the job is done and we will have a 
generational problem. A generational problem in the Middle 
East. It will be chaos. The likelihood of the Saudi Kingdom 
remaining is, I think, is problematic. The Jordanians would be 
under incredible stress, the Turks and the Kurds may very well 
go to war over time. It will be a disaster. I hope I'm wrong. 
Hope everybody gets to say, Biden, you said if we lose this for 
the American people, leave prematurely, that these awful things 
are going to happen and they didn't happen. I hope I'm wrong.
    You're all politicians, you all know what your folks are 
saying at home. How many of your folks are saying at home what 
you know is the truth? We've got to send more forces. How many 
folks at home say, ``Let's really stay the course here?''
    Some are, but they are doing it, I think, because they 
believe the President's told them the whole deal: ``We got 
120,000 trained troops, we don't really need to have any more 
significant expenditure there. We, in fact, don't even have to 
include Iraq in the budget--it's going to take care of itself. 
And by the way, things are getting better from June through 
December. Everything is fine in Iraq, it's getting better.'' 
The American people, because they like him, as I like him, 
believe the President levels with us. ``Man, what's the matter 
with you, Joe? You go over there to Iraq and you come back and 
say, `Geez it's not that good.' President says it's fine.''
    And with regard to advancing freedom, if my colleagues can 
forgive me, although the future Secretary of State likes 
football so she won't mind the analogy. Senator Allen's father 
is one of the greatest pro football coaches in my lifetime, so 
I suspect he knows a lot more about it than I do. If I can 
continue the football analogy, he said, ``We want to advance 
freedom.'' Well, we want to score when we're on the team.
    But if the offense you're running isn't working, you've 
only gained a total of 74 yards in the first three quarters, 
and there's been four interceptions. And the defense is riddled 
with holes because you're running nickel defense, and it's not 
working against this quarterback. What you want to ask at 
halftime is, ``Hey, it ain't working, we're losing. What's the 
plan Stan, what's the game plan? Are you going out of that 
nickel defense, are you going to stop trying to run the ball up 
the middle? Are you going to move on the outside and run 
counter plays? What's the deal, what are you going to do? How 
are you going to score?''
    So everybody here wants to advance freedom. But a lot of us 
think of advancing freedom by wishing that if we just make it 
available to you and you see it you will rise up and embrace 
it. I don't think it works that way.
    So what we need is a coach George Allen. We need a game 
plan. And all we're looking for here, to continue this silly 
analogy, is for a game plan on training. Just tell me the plan, 
what is the game plan? What you have now, everybody 
acknowledges, is not working. What's the game plan on Iraq?
    You want us to support you, Mr. President, and I want to 
support you. We want to have a bipartisan foreign policy. As my 
friends can tell you, I often get beat up on in our caucus 
because I'm not more critical of the President. I want to help. 
But we also need a game plan for Iran and Russia. And how are 
we going to do it? Everyone, including Dr. Rice, says it needs 
to be done.
    What Dr. Rice is saying, by implication and directly, is 
that we have to repair our relations around the world. 
Diplomacy will be the watch word. Did any of you hear a plan on 
diplomacy? I've submitted to the President and other have, I 
think, about a 15-16 page game plan on public diplomacy that he 
seemed to like a lot. Other people submitted other plans. The 
President says, ``No, what's the plan? What are we going to 
do?'' I didn't hear a thing other than the ortatory assertions 
that we want to do this. But I don't want to dwell on my 
disappointments as a result of Dr. Rice's testimony.
    I must tell you, though, that the thing that stunned me 
most is either her lack of willingness to talk about it or her 
lack of understanding of the impact of the economy on foreign 
policy. I was literally stunned, when asked the question, ``Do 
you want the dollar to be the reserve currency for the rest of 
the world or the Euro?'' And then she said she didn't have an 
opinion on that. I'm paraphrasing. Whoa, that's the Secretary 
of Treasury's job.
    I'll conclude, Mr. Chairman, by saying optimism is an 
occupational requirement in this business. And my job is the 
same as every other Senator here, no more, but its slightly 
different. My job as the Democratic Ranking Member on this 
committee is to, hopefully, continue to have a relationship 
with whoever the Secretary of State is. And it gets harder when 
you vote no. I like her, I've been disappointed, but I think of 
the obligation I have. And every other Senator can judge it for 
themselves. For me, my particular role is to be able to work 
with her where we can. Because I do think she has the 
President's ear.
    And I hope she's willing to take on some of the 
neoconservative notions in this administration. And maybe this 
is the wish is the father of the thought, maybe she is a 
neoconservative and I don't know. But if she's not, I hope she 
confronts some of the premises upon which this is based. And 
that's the reason I asked her yesterday, Mr. Chairman about the 
stories in the New Yorker by Seymour Hersh, who is a pretty 
solid guy. Saying that we already have teams in there trying to 
figure out how to take down the nuclear act. Coincidentally, I 
had George Tenet in Delaware for four hours, rode up in the 
train with him. He made the obvious point without declaring 
anything that I didn't already know or you don't already know. 
The Iranians have gotten smart. It's diverse, it's all over the 
country. There ain't no one rocket shot that we can take out 
like the Israelis did before. That does not exist as a 
possibility. The reason I asked her the question was not about 
her confirming whether they're in there or not. I wanted to ask 
her the underlying point.
    The premise the neocons have, if this is being done, some 
of our neoconservative friends, is not that you'll destroy all 
the nuclear capacity but that that will cause the freedom 
loving people of Iran to rise up and throw out the clerical 
oppression. That's the basic fundamental premise. And I hope to 
God she doesn't believe that. And I hope to God that if she 
doesn't believe it, that she'll be the one, if anyone presents 
such a plan to the President, who says, ``Whoa, whoa, wait a 
minute. Let's get real here.'' That's the reason I asked the 
question.
    You know, Mr. Chairman, we who do foreign policy everyday, 
we have a whole different vocabulary, we talk in terms and 
phrases that make what we do sound really important. We talked 
about the first tranche agreement and the second tranche and we 
talk about having bilat with so and so. We better start to 
speak simple English. All foreign policy is a logical extension 
of human relationships with a whole hell of a lot less 
information to go on. So we've got to start talking to the 
American people that way. And the President is extremely good 
at that if he chooses to do it.
    Now I'll end, Mr. Chairman, with this point. I thought that 
Senator Kerry was eloquent when he said how he chooses to view 
this question. And it reminded me--I hope I'm quoting it 
correctly because I try to quote everybody correctly--of a 
quote from Samuel Johnson, who was talking about second 
marriages. And Samuel Johnson said, ``Anyone who marries a 
second time is choosing the triumph of hope over experience.'' 
That's Samuel Johnson's comment. Well this is a second 
administration and I acknowledge I am choosing the triumph of 
hope over experience.
    Because my experience with the first four years of this 
administration has not been real good in terms of what I think 
their policies are. And my experience with Dr. Rice in this 
hearing has been a disappointment. But I choose hope over 
experience. Because at the end of the day the constitution 
says, as my friend from Connecticut says, the President gets to 
propose and we dispose. We all are required, as responsible 
Senators on both sides of the aisle, to choose the standard by 
which we'll make that judgment. And my standard has always 
been, with regard to a cabinet, the President is entitled to 
his family even if they're substantially wrong.
    The only time we'll vote against cabinet appointees is when 
they're appointed to dismantle that cabinet that they're being 
appointed to. That's why I voted against Reagan nominees for 
the Department of Education because Reagan said, as the former 
Secretary would say, he chose to eliminate the Department of 
Education. So I wasn't going to be complicitous in voting for 
someone who's job it was to dismantle the Department of 
Education. And I also voted against people who I thought were 
incompetent in their mastery of the subject or people who's 
reputation and character was not worthy of a vote. On all that 
score, in no sense does Dr. Rice fit any of those probations in 
my view.
    So I'm going to vote for Dr. Rice. But I pray to the Lord 
that she's at least telling the President, ``Hey boss, it's not 
going that well. Hey boss, we don't have that many people 
trained. Hey boss, the Iranians aren't going to rise up if some 
of our special forces guys take out a nuclear facility. Hey 
boss, we ought to read a little bit of history.'' It's really 
that basic. I'm not trying to be a wise guy. It's that basic. 
So, Mr. Chairman, I thank you for your patience as you would 
acknowledge this is, other than voting for the Supreme Court or 
the third branch of the government, I think this and the 
Secretary of Defense jobs are the two most important jobs we 
vote on. And I look forward to working with you and Dr. Rice. 
She's always been available when I've asked her for her view. 
But I was disappointed in this hearing.
    The Chairman. Thank you Senator Biden. This is an important 
vote, and I hope we're prepared for the vote. And if so, I'll 
ask the clerk to call the roll.
    Ms. Oursler. Mr. Hagel?
    Senator Hagel. Aye.
    Ms. Oursler. Mr. Chafee?
    Senator Chafee. Aye.
    Ms. Oursler. Mr. Allen?
    Senator Allen. Aye.
    Ms. Oursler. Mr. Coleman.
    Senator Coleman. Aye.
    Ms. Oursler. Mr. Voinovich?
    The Chairman. Votes aye by proxy.
    Ms. Oursler. Mr. Alexander?
    Senator Alexander. Aye.
    Ms. Oursler. Mr. Sununu?
    Senator Sununu. Aye.
    Ms. Oursler. Ms. Murkowski?
    Senator Murkowski. Aye.
    Ms. Oursler. Mr. Martinez?
    Senator Martinez. Aye.
    Ms. Oursler. Mr. Biden?
    Senator Biden. Aye.
    Ms. Oursler. Mr. Sarbanes?
    The Chairman. Aye by proxy.
    Ms. Oursler. Mr. Dodd?
    Senator Dodd. Aye.
    Ms. Oursler. Mr. Kerry?
    Senator Kerry. No.
    Ms. Oursler. Mr. Feingold?
    Senator Feingold. Aye.
    Ms. Oursler. Mrs. Boxer?
    Senator Boxer. No.
    Ms. Oursler. Mr. Nelson?
    Senator Nelson. Aye.
    Ms. Oursler. Mr. Obama?
    Senator Obama. Aye.
    Ms. Oursler. Mr. Chairman?
    The Chairman. Aye.
    Will the clerk please tally the count?
    Ms. Oursler. Sixteen yeas two nays.
    The Chairman. Sixteen yeas; two nays. The committee votes 
to report the nomination to the Senate floor. I thank all 
Senators.

    [Whereupon at 11:31 a.m. the committee was adjourned]



                          A P P E N D I X E S

                              ----------                              



APPENDIX I--RESPONSES TO QUESTIONS SUBMITTED FOR THE RECORD BY MEMBERS 
                OF THE COMMITTEE TO DR. CONDOLEEZZA RICE

           Responses to Questions for the Record Submitted by
                        Senator Richard G. Lugar

AIDS Vaccine
    Question. A group of independent organizations under the urging of 
the Gates Foundation has formed an alliance called the Global HIV 
Vaccine Enterprise. The Enterprise is preparing a blueprint for action 
by researchers and others to improve international collaboration. Do 
you believe that development of an AIDS vaccine is a national security 
issue for the United States? What plans does the administration have to 
support an international development program for an HIV vaccine?

    Answer. This administration is dedicated to providing unprecedented 
global leadership and commitment in funding the global AIDS emergency. 
The President's Emergency Plan for AIDS Relief is the largest 
international public health initiative ever launched by a single nation 
against a single disease. Beyond being a vital matter of public health, 
the global HIV/AIDS pandemic carries strategic implications, posing a 
direct challenge to our country's political, economic, and even 
security interests.
    Prevention of HIV infection remains a primary strategy in the fight 
against the worldwide HIV pandemic, and a safe and effective HIV 
vaccine would provide an extremely important tool for this purpose. At 
the Sea Island Summit, the G-8 countries, under the President's 
leadership, endorsed the establishment of a Global HIV Vaccine 
Enterprise. The President announced that he would establish an 
additional Vaccine Research and Development Center here in the United 
States and urged other nations to do the same.
    The Office of the U.S. Global AIDS Coordinator works with several 
agencies in implementation of the President's Emergency Plan for AIDS 
Relief. Research for the development of an AIDS vaccine is primarily 
conducted under the auspices of the National Institutes for Health 
(NIH). The National Institute of Allergy and Infectious Diseases 
(NIAID), who oversee this initiative, recently released a Request for 
Applications (RFA) to establish a Center for HIV/AIDS Vaccine 
Immunology (CHAVI). The Center will support intensive, coordinated, and 
multi-pronged approaches to address key immunological roadblocks to the 
discovery and development of a safe and effective HIV vaccine as 
identified by the Global HIV Vaccine Enterprise at the G8 Summit. The 
award is expected to be awarded in late in FY06.

ITAR Waivers for the United Kingdom and Australia
    Former Secretary of State Powell wrote to me shortly after I 
introduced legislation in 2003 regarding agreements the administration 
negotiated with Australia and the United Kingdom to gain exemptions 
from the International Traffic in Arms Regulations (ITAR, 22 CFR 120-
130). Former Secretary Powell called my language ``a prudent measure of 
legislative relief that will allow these agreements to come into 
force.''
    On October 28, 2004, President Bush signed H.R. 4200, the Ronald W. 
Reagan National Defense Authorization Act for Fiscal Year 2005 (Public 
Law 108-375). I am very concerned with language appearing in section 
1225, ``Bilateral Exchanges and Trade in Defense Articles and Defense 
Services Between the United States and the United Kingdom of 
Australia.'' The National Defense Authorization Act for Fiscal Year 
2005 did not provide the exceptions I sought, and, in fact, enactment 
of its provisions made many question the need for future efforts to 
obtain statutory exceptions for the exemption agreements with the 
United Kingdom and Australia. The language of section 1225(b) of Public 
Law 108-375 states: ``the Secretary of State shall ensure that any 
license application submitted for the export of defense articles or 
defense services to Australia or the United Kingdom is expeditiously 
processed by the Department of State, in consultation with the 
Department of Defense, without referral to any other Federal department 
or agency, except where the item is classified or exceptional 
circumstances apply.''

    Question. Does the administration, and do you, support the 
agreements with the governments of Australia and the United Kingdom, as 
negotiated?

    Answer. I welcome the Senate's support for these agreements, which 
would allow most categories of unclassified defense items to be 
exported to two of our closest allies without a license, advancing 
interoperability and defense cooperation with the UK and Australia.
    Only the British and Australian governments, and a limited number 
of companies that the United States selects, would be authorized to 
receive U.S.-origin defense items under the waivers.
    I am aware our efforts to work with Congress on this issue are 
unresolved. If confirmed, I will review the situation promptly, and I 
look forward to working with the committee on this important issue.

    Question. Do you envision any effort on the part of the 
administration or yourself to renegotiate either of these agreements, 
in whole or in part?

    Answer. I know that our efforts to implement these agreements have 
been stalled, and, if confirmed, will review the situation promptly.
    These agreements are the product of years of serious negotiation 
with the British and Australian governments and require them to enact 
new export control laws, regulations, and practices to better protect 
U.S. defense technology. Those improved measures are very much in our 
interest.
    The British and Australian companies that would be authorized to 
receive certain categories of U.S. defense items without a license 
would also have to make new commitments, including to their own 
governments, to protect U.S. defense items.

    Question. With regard to section 1225, do you agree with me that 
this language could harm our government's ability to provide necessary 
and complete interagency review of munitions license applications 
because of the inclusion of the phrase ``without referral to any other 
Federal department or agency?''

    Answer. The State Department agrees with the general point that 
defense export licenses for our British and Australian allies should be 
processed as quickly as possible. However, it is not clear how the goal 
of responsible defense export controls was advanced by a law 
restricting the ability of licensing officers to seek input from 
agencies other than DOD. For example, most licenses related to the 
Missile Technology Control Regime (MTCR) have been referred to an 
interagency committee (Missile Technology Export Control committee, 
MTEC), which includes Commerce, and NASA as well as DoD. In other cases 
we have seen fit to consult law enforcement or intelligence agencies.
    We think a better approach would be to approve the ITAR waiver 
agreements with these governments, which would allow certain 
unclassified exports to proceed without any license under controlled 
conditions, and to permit licensing officers to determine when and to 
which agencies cases need to be referred for input. Now, with more 
sensitive defense exports meriting case-by-case approval, our licensing 
officers will only refer an application to an agency other than DoD if 
they believe it has an interest or expertise that should be taken into 
as an ``exception'' to normal practice.

Nunn-Lugar Liability Issues
    From 1992 until 1999, the Nunn-Lugar program operated under the 
terms of the Umbrella Agreement negotiated in 1991-92. In 1999, the 
1992 agreement expired. A re-negotiated Extension Protocol was signed 
by the United States and Russia in 1999, and has never been sent by 
Presidents Yeltsin or Putin to the Duma. President Putin and other 
Russian officials have at various times promised to send the Umbrella 
Agreement Extension Protocol to the Duma, but this has not happened.

    Question. Will you make ratification by the Duma of the Nunn-Lugar 
Umbrella Agreement with the Russian Federation a priority matter, and 
ensure that the United States engages at the highest levels necessary 
to break this logjam?
    Absent Duma approval, and should the Extension Protocol expire 
under provisional application, do you see any other means with which to 
remedy the liability problem with our Russian non-proliferation 
assistance programs?
    Are the problems of liability peculiar only to nuclear non-
proliferation assistance programs in Russia, or are they emerging in 
other nonproliferation programs such as chemical weapons destruction or 
biological weapons redirection efforts?

    Answer. If confirmed, I will continue to make Duma approval and 
Russian ratification of the Cooperative Threat Reduction (CTR) umbrella 
agreement (as extended in 1999) a key priority and will seek to ensure 
the United States engages with Russia at the highest levels necessary 
to achieve this. Ratification would put ongoing CTR programs on a solid 
footing. It is our understanding, however, that CTR ratification will 
not resolve liability for any expanded or new nonproliferation 
assistance programs with Russia. We will want to resolve both 
ratification and these other matters in 2005, well before CTR comes up 
for extension again in 2006. The administration is actively reviewing 
ways of breaking the liability logjam with Russia--while protecting CTR 
programs--to remove this impediment to plutonium disposition and other 
cooperation. If confirmed, I will make every effort to resolve these 
issues as soon as possible. On the other hand, ongoing CTR programs can 
continue absent Russian ratification of the CTR agreement, as they have 
since 1992 with no Duma approval or ratification. Those programs could 
also continue without Duma approval or ratification after the 2006 
expiration date of the CTR agreement, if both sides agree again to 
extend that agreement provisionally in 2006.
    Ongoing efforts under the CTR umbrella agreement or the 
International Science and Technology Centers Agreement (such as 
chemical weapons destruction and biological weapons redirection) have 
not been blocked by differences over the liability issue. But the 
liability issue has hindered progress on important projects outside 
CTR, most notably U.S. and G-8 efforts to convert excess Russian 
weapon-grade plutonium into forms not useable for weapons under the 
plutonium disposition program.

Congressional Conditions on Nunn-Lugar Assistance
    Question. What is the national security benefit of maintaining the 
CTR certification and waiver process in light of the fact that for 
every time Russia (or in some cases other states) have not met the 
conditions, the administration has waived the conditions in the 
interests of US national security?

    Answer. I share concerns about the certification requirements for 
assistance to Russia (or other states) under Cooperative Threat 
Reduction programs of the USG.
    The fact that each year since 2002, Russia has benefited from 
waiver authority when certification could not be made demonstrates the 
over-riding importance to U.S. national security interests worldwide of 
the aid provided under CTR.
    Since there is every reason to believe that CTR assistance will 
continue to be of vital importance to the U.S. national interest as 
long as it is needed, if confirmed, I look forward to working with 
Congress on this issue.

Congressional Conditions on Nunn-Lugar Assistance: Chemical Weapons 
        Destruction Facility at Shchuchye, Russia
    Question. Section 1308 of the National Defense Authorization Act 
for Fiscal Year 2002 (Public Law 107-107) created six requirements for 
certification before construction of the Chemical Weapons Destruction 
Facility (CWDF) at Shchuchye, Russia, could continue. Four of the six 
requirements have now been met, but Russia still has not provided 
information ``regarding the size of the chemical weapons stockpile of 
Russia.'' More than three years after their enactment, do you believe 
the requirements of section 1308 of Public Law 107-107 have furthered 
US objectives with respect to securing and destroying chemical weapons 
at Shchuchye or with regard to Russian transparency under the Chemical 
Weapons Convention?

    Answer. The destruction of Russia's chemical weapons at Shchuchye, 
in accordance with the verification provisions of the Chemical Weapons 
Convention (CWC), furthers the key U.S. national security objective of 
keeping weapons of mass destruction and related technologies out of the 
hands of terrorists or rogue states.
    However, the United States maintains longstanding concerns 
regarding the completeness and accuracy of Russia's chemical weapons 
stockpile declaration. Despite Russia's insistence that they do not 
possess any undeclared chemical weapons stocks, the United States 
continues to pressure Russia for clarification of our concerns, and an 
acceptable approach that will increase our confidence in this area as 
part of our regular expert level consultations. Experts and Senior 
administration officials have pressed Russian officials for 
documentation into past activities, as well as short-notice visits to 
undeclared suspect Russian chemical weapons sites. Russian officials 
have told us that past documentation in this area no longer exists and 
that visits to undeclared suspect CW sites are not acceptable. However, 
the United States remains ready to review Russian proposals in attempt 
to resolve our concerns.
    The existence of the conditions in Section 1308 provides some 
additional leverage on our continuing efforts to address our compliance 
concerns with Russia. The construction and use of a CWDF at Shchuchye 
is essential for the timely and irreversible destruction of Russia's 
nerve agent
    Despite slow progress and longstanding concerns regarding the 
completeness and accuracy of Russia's chemical weapons stockpile 
declaration, the United States will continue to pursue resolution of 
these concerns with Russia.
    Senior administration officials meet regularly with Russian 
counterparts and stress the importance of resolving these concerns in a 
timely manner, as well as remind counterparts that funding hinges on 
tangible progress.
    The United States intends to continue to address this matter 
through a combination of gathering corroborating information, 
identifying an acceptable approach, encouraging Russian cooperation and 
transparency, and continuing bilateral expert consultations.

Budget: Strengthen Capacity
    Question. One of your most important tasks as Secretary of State 
will be to design and fight for a budget that reflects the challenges 
and difficulties that our foreign policy faces as we fight the war 
against terror. What are your plans to strengthen our civilian capacity 
in the same way we are strengthening our military capacity?

    Answer. Winning the war on terror remains our top foreign policy 
priority. With support from Congress, the Department has established a 
new Office of Stabilization and Reconstruction to provide a civilian 
capacity to respond to post-conflict situations and thwart the growth 
of terrorism and spread freedom and prosperity. State Department 
budgets have also included resources to:

  <bullet> increase diplomatic staffing on the front lines of the 
        global fight, including additional security professionals;

  <bullet> extend an on-going program of security upgrades to protect 
        diplomatic facilities and personnel in the face of terrorism; 
        and

  <bullet> accelerate a capital construction program to replace 
        facilities at high risk with secure new embassy compounds.

Budget: Cut Current Spending
    Question. There are reports that the White House is asking all 
agencies, other than Defense and Homeland Security, to prepare options 
for cutting current spending by 5%, with the intention of holding non-
defense resources to 1% growth in FY 2006. Do you believe that the 
State Department should be included in such national security 
exemptions in a way similar to the Defense Department, Intelligence, 
and Homeland Security?

    Answer. The President, OMB, and Congress recognize the vital role 
that the State Department and International Affairs funding play in 
national security.
    Discretionary belt-tightening has constrained State operations and 
Foreign Operations funding levels.
    With supplemental funding, the Department has been able to meet 
U.S. foreign policy priorities.

Budget: Budget Pressures
    Question. The combination of previously announced spending 
commitments for international HIV/AIDS, the Millennium Challenge 
Corporation and the Middle East Peace Initiative is going to put 
tremendous pressure on the foreign affairs budget for '06. Are you 
working now to make certain that these program increases can be 
accommodated without cutting into other important areas of a very tight 
budget? To what extent is the administration going to request funding 
for 150 account activities in the supplemental?

    Answer. The President's Fiscal Year '06 budget is still under 
review. If confirmed, I look forward to briefing the committee and 
ensuring our important needs in the 150 account activities are met.
    We do have significant foreign and State operations funding 
shortfalls in FY 2005 that can only be met through supplemental 
appropriations. Once the administration has finalized the supplemental 
requirements, and if confirmed, I would be pleased to brief the 
committee on those needs.

Defense Science Board Study on Transition to and From Hostilities
    Question. In August 2004 the DSB concluded a study on ``Transition 
to and from Hostilities.'' The study included an analysis of the very 
substantial costs and manpower requirements for both the Department of 
State and Defense that are needed to achieve our objectives in 
stabilization and reconstruction operations, like our current 
activities in Iraq and Afghanistan. The intent was to provide 
guidelines for matching our national foreign policy objectives with the 
resources that need to be devoted to accomplishing those objectives. 
What is your assessment of the gap between the Department of State's 
current and near-term projected manpower and resources and the 
requirements revealed by the DSB study, and if you are confirmed what 
will you do to bridge that gap?

    Answer. The DSB study has provided a valuable analysis of the costs 
we already spend on reconstruction and stabilization and the level of 
resources required not only to provide assistance, but to manage that 
response, to prepare for it, to staff it, and to maintain it. It 
highlighted the need for additional resources for civilian agencies in 
both people and money.
    We agree with the basic thrust of the resource recommendations in 
the DSB study: resources are needed both to lead, manage and implement 
stabilization and reconstruction operations, and to support 
programmatic activities that promote security and rule of law and 
create the conditions for democracy and market economics to take root. 
Some important resource requirements are not highlighted in the DSB 
study, particularly the cost of deploying civilian teams, when needed 
together with the military, to multiple locations in a country. We will 
review all these resource needs in State and other agencies in order to 
institutionalize a strong stabilization and reconstruction capability 
within the U.S. Government.

    Question. That same DSB study proposed a management regime aimed at 
even better planning, including preparation far in advance, for 
stabilization and reconstruction operations. The approach would 
orchestrate, not just coordinate, activities in the Department of 
State, the Department of Defense, the National Security Council, and 
other organs of government, taking into account not only legislated 
authorities but also realistic organizational capabilities. Do you 
agree with the proposed regime; if not, can you describe the specifics 
of a better alternative to accomplish comparable goals; and if you are 
confirmed what particular steps will you take to ensure even better 
planning for stabilization and reconstruction?

    Answer. We appreciate the DSB report's analysis and agree with the 
need for a more coordinated approach between all agencies. The 
administration has taken the decision to vest the responsibility for 
this coordination in the Department of State, which has the lead in 
foreign policy and which must manage our long-term interests overseas. 
Within the State Department, we have built an interagency team with 
USAID, CIA, and the Departments of Defense, Treasury, Justice and 
others to coordinate stabilization and reconstruction activities for 
countries in transition from conflict and civil strife, to plan for 
potential conflicts, and to avert or mitigate conflict when we can. 
This interagency team for planning and for response management led by 
the Department of State will achieve the objectives of the study, 
provided that sufficient resources are made available to State and 
other agencies implementing programs overseas.

Office of the Coordinator For Reconstruction and Stabilization
    Question. How do you expect the Office of Reconstruction and 
Stabilization to develop in the future? Can you describe a hypothetical 
situation where you and the President might turn to it and what you 
would expect from it, both in terms of planning and operations?

    Answer. Creating a strong USG stabilization and reconstruction 
capacity is an administration national security priority. We appreciate 
the leadership Senators Lugar, Biden and Hagel and others in the 
Congress have shown on this issue.
    S/CRS will not take over activities of partner organizations within 
the government, but will be value-added by: preparing contingency 
plans; building USG capabilities for stabilization and reconstruction; 
developing systems to pre-position people and money; conducting 
outreach to international partners and NGO's aimed at strengthening 
global capacity; applying lessons learned and managing and integrating 
the USG response.
    If it is determined that the technical capacities of S/CRS would be 
a value added in a certain situation, S/CRS will be asked to organize 
and manage, in conjunction with the relevant regional bureau at the 
State Department, a multi-agency response to a failing, failed or post-
conflict state.
    S/CRS would manage a response effort by--establishing an 
interagency task force proposing strategies to senior leadership 
working with international community to coordinate efforts mobilizing 
required personnel deploying personnel, equipment and other resources 
designing programs to respond to identified needs managing response 
efforts to meet identified goals.
    Our efforts will be focused on early response when assistance can 
have the most impact on the long-term prospects. Longer term management 
of these responses will be devolved to normal structures when long-term 
plans and budgets are in place.

Office of the Coordinator For Reconstruction and Stabilization: Budget
    Question. The Office of Reconstruction and Stabilization is small 
and has a very modest budget. Will the administration be requesting 
substantial funding for the Office in the upcoming supplemental or in 
the '06 budget?

    Answer. The office currently has 35 staff from: State, USAID, 
Defense, Treasury and CIA. The administration will recommend the 
resources necessary for the office to start meeting its mission.
    We will need resources for management--from CJS appropriations--and 
for foreign assistance programs from Foreign Operations appropriations.
    Experience has shown that we must have the capacity to manage 2-3 
stabilization and reconstruction operations concurrently. That means 
staff in Washington and the field to manage and deliver quality 
programs.
    In advance of a specific crisis, the Department will need to have 
certain programs and funds already in place and have money available to 
deploy teams quickly and pay for security and logistics, while 
additional longer term funds are identified and sought.
    Obviously we are in a difficult budget climate, but the 
administration is committed to working with Congress to support this 
stabilization and reconstruction initiative as a national security 
priority.

Office of the Coordinator for Reconstruction And Stabilization: 
        Legislation
    Question. The committee's bill, S.2127, called for a new 250-person 
nation-building corps of civilians who can move quickly into a still 
hostile environment to provide public information, deliver emergency 
medical care, train police, rebuild schools, roads and airports, and 
reconstitute political processes. Do you share our view of the 
necessity for such an active duty civilian corps?

    Answer. We need the ability to send the right people into the field 
as well as to manage programs in Washington. To deploy people quickly 
and lead the coordination process in Washington, we need to have in 
place core staff who can plan, exercise, and train together. This will 
require additional staff and resources because the gaps we must fill 
cannot be met by rearranging existing personnel.
    The model we have developed incorporates the core concepts you laid 
out in your bill for a civilian response corps. And, if confirmed, I 
want to examine the concept further. And, if confirmed, I look forward 
to discussing it with you. We need additional diplomatic personnel to 
underpin operations overseas and we need a corps of technical experts 
to design, deliver, and manage programs.
    The complete solution requires a mixture of on-call rosters, 
permanent staff and pre-positioned contracts in order to assemble the 
teams needed in varying situations.
    As we analyze the capacity we have and the gaps, we will work with 
the Congress to put in place the necessary authorities, mechanisms, and 
resources.

Law of the Sea: Ratification Efforts
    Question. The most recent Treaty Priority List submitted by the 
administration to the committee listed the Law of the Sea Convention as 
a treaty ``for which there is an urgent need for Senate approval.'' How 
can we work together to make certain that the treaty is ratified on an 
urgent basis?

    Answer. The administration supports early Senate action on the 
Convention.
    The administration urges the Senate Foreign Relations Committee to 
again favorably report out the Convention and Implementing Agreement, 
with the Resolution of Advice and Consent to Ratification as reported 
by the committee last March.
    The administration will work with the Senate leadership to bring 
the Convention and Implementing Agreement to a floor vote in the 109th 
Congress.

Law of the Sea: Benefits for National Security
    Question. I was pleased to see in the U.S. Ocean Action Plan that 
he submitted to the Congress on December 17, the President states that 
``as a matter of national security, economic self-interest, and 
international leadership, the administration is strongly committed to 
U.S. accession to the UN Convention on the Law of the Sea.'' Can you 
cite specific benefits that accession will have for U.S. national 
security?

    Answer. Joining the Convention will advance the interests of the 
U.S. military.
    As the world's leading maritime power, the United States benefits 
more than any other nation from the navigation provisions of the 
Convention.
    Those provisions, which establish international consensus on the 
extent of jurisdiction that States may exercise off their coasts, 
preserve and elaborate the rights of the U.S. military to use the 
world's oceans to meet national security requirements.
    They achieve this, among other things:

  <bullet> by stabilizing the outer limit of the territorial sea at 12 
        nautical miles;

  <bullet> by setting forth the navigation regime of innocent passage 
        for all ships in the territorial sea, through an exhaustive and 
        objective list of activities that are inconsistent with 
        innocent passage--an improvement over the subjective language 
        in the 1958 Convention on the Territorial Sea and Contiguous 
        Zone;

  <bullet> by protecting the right of passage for all ships and 
        aircraft, through, under, and over straits used for 
        international navigation, as well as archipelagoes;

  <bullet> by reaffirming the traditional freedoms of navigation and 
        overflight in the exclusive economic zone and the high seas 
        beyond; and

  <bullet> by providing for the laying and maintenance of submarine 
        cables and pipelines.

    U.S. Armed Forces rely on these navigation and overflight rights 
daily, and their protection is of paramount importance to U.S. national 
security.
    Becoming a party to the Convention would strengthen our ability to 
deflect potential proposals that would be inconsistent with U.S. 
national security interests, including those affecting freedom of 
navigation.

Law of the Sea: Economic Benefits
    Question. Support for U.S. accession to the Law of the Sea 
Convention has been expressed by U.S. companies and industry groups 
whose businesses depend on the oceans. These include the American 
Petroleum Institute, the U.S. Oil and Gas Association, the Chamber of 
Shipping of America, the U.S. Tuna Foundation, the American Chemistry 
Council, the National Oceans Industries Association, and the U.S. 
Council for International Business. Do you agree with these U.S. 
companies that acceding to the Law of the Sea Convention will advance 
U.S. economic interests and benefit American businesses?

    Answer. Yes. The United States, as the country with the longest 
coastline and the largest exclusive economic zone, will gain economic 
and resource benefits from the Convention:

  <bullet> The Convention accords the coastal State sovereign rights 
        over non-living resources, including oil and gas, found in the 
        seabed and subsoil of its continental shelf.

    The Convention improves on the 1958 Continental Shelf Convention, 
to which the United States is a party, in several ways:

  <bullet> by replacing the ``exploitability'' standard with an 
        automatic continental shelf out to 200 nautical miles, 
        regardless of geology;

  <bullet> by allowing for extension of the shelf beyond 200 miles if 
        it meets certain geological criteria; and

  <bullet> by establishing an institution that can promote the legal 
        certainty sought by U.S. companies concerning the outer limits 
        of the continental shelf.

    Concerning mineral resources beyond national jurisdiction, i.e., 
not subject to the sovereignty of the United States or any other 
country, the 1994 Agreement meets our goal of guaranteed access by U.S. 
industry on the basis of reasonable terms and conditions.
    Joining the Convention would facilitate deep seabed mining 
activities of U.S. companies, which require legal certainty to carry 
out such activities in areas beyond U.S. jurisdiction.
    The Convention also accords the coastal State sovereign rights over 
living marine resources, including fisheries, in its exclusive economic 
zone, i.e., out to 200 nautical miles from shore.
    The Convention protects the freedom to lay submarine cables and 
pipelines, whether military, commercial, or research.
    In addition, the Convention establishes a legal framework for the 
protection and preservation of the marine environment from a variety of 
sources, including pollution from vessels, seabed activities, and ocean 
dumping.
    The provisions effectively balance the interests of States in 
protecting the environment and natural resources with their interests 
in freedom of navigation and communication.
    With the majority of American living in coastal areas, and U.S. 
coastal areas and EEZ generating vital economic activities, the United 
States has a strong interest in these aspects of the Convention.

Law of the Sea: Military Operations
    Question. It is my understanding that it has been U.S. policy since 
President Reagan's 1983 Statement of Ocean Policy that the United 
States, including the U.S. military, will act in accordance with the 
Law of the Sea Convention's provisions relating to the traditional uses 
of the oceans. Would acceding to the Law of the Sea Convention require 
the United States military to make any changes in its existing policies 
or procedures with respect to the use of the oceans to conduct military 
operations?

    Answer. No.
    As the Chief of Naval Operations, Admiral Vern Clark, testified 
before the Senate Armed Services Committee on April 8, 2004, ``I am 
convinced that joining the Law of the Sea Convention will have no 
adverse effect on our operations . . . but rather, will support and 
enhance ongoing U.S. military operations, including continued 
prosecution of the global war on terrorism.''
    The Vice Chief of Naval Operations, Admiral Mike Mullen, testified 
before the House International Relations Committee on May 12, 2004, 
that the Navy ``currently operate[s]--willingly because it is our 
national security interests--within the provisions of the Law of the 
Sea Convention in every area related to navigation. We would never 
recommend an international commitment that would require us to get a 
permission slip--from anyone--to conduct our operations.''
    Admiral Mullen concluded his oral statement by emphasizing, 
``Simply, the Convention does not require a permission slip or prohibit 
these activities; we would continue operating our military forces as we 
do today.''

Law of the Sea: Weapons Of Mass Destruction
    Question. Some commentators have asserted that acceding to the Law 
of the Sea Convention would prevent the United States from taking 
action necessary to stop the transportation of weapons of mass 
destruction across the oceans. I note, however, that State Department 
Legal Adviser William Taft testified before the House International 
Relations Committee that ``the Convention will not affect applicable 
maritime law or policy regarding interdiction of weapons of mass 
destruction, their means of delivery and related materials.'' Do you 
believe that acceding to the Law of the Sea Convention will in any way 
diminish the ability of the United States to take necessary action to 
prevent the transport of weapons of mass destruction?

    Answer. No.
    The Convention's navigation provisions derive from the 1958 law of 
the sea conventions, to which the United States is a party, and also 
reflect customary international law accepted by the United States.
    As such, the Convention will not affect applicable maritime law or 
policy regarding interdiction of weapons of mass destruction.
    Like the 1958 conventions, the LOS Convention recognizes numerous 
legal bases for taking enforcement action against vessels and aircraft 
suspected of engaging in proliferation of weapons of mass destruction:

  <bullet> exclusive port and coastal State jurisdiction in internal 
        waters and national airspace;

  <bullet> coastal State jurisdiction in the territorial sea and 
        contiguous zone;

  <bullet> exclusive flag State jurisdiction over vessels on the high 
        seas (which the flag State may, either by general agreement in 
        advance or approval in response to a specific request, waive in 
        favor of other States); and

  <bullet> universal jurisdiction over stateless vessels.

    Nothing in the Convention impairs the inherent right of individual 
or collective self-defense (a point which is reaffirmed in the 
Resolution of Advice and Consent proposed in the last Congress).

Law of the Sea: Proliferation Security Initiative
    Question. Some commentators have asserted that acceding to the Law 
of the Sea Convention would prevent or inhibit the United States from 
implementing the Proliferation Security Initiative. I note, however, 
that State Department Legal Adviser William Taft testified before our 
committee that the PSI is consistent with the Law of the Sea 
Convention, and that the obligations under the Convention do not 
present any difficulties for successfully carrying out this important 
initiative. Chief of Naval Operations Admiral Vern Clark gave similar 
testimony before the Senate Armed Services Committee. I also note that 
all of the other countries that are partners with the United States in 
PSI are themselves parties to the Law of the Sea Convention. In your 
view, will acceding to the Convention inhibit the United States and its 
partners from successfully pursuing the PSI?

    Answer. No.
    PSI requires participating countries to act consistent with 
national legal authorities and ``relevant international law and 
frameworks,'' which includes the law reflected in the Law of the Sea 
Convention.
    The Convention's navigation provisions derive from the 1958 law of 
the sea conventions, to which the United States is a party, and also 
reflect customary international law accepted by the United States.
    As such, the Convention will not affect applicable maritime law or 
policy regarding interdiction of weapons of mass destruction, their 
means of delivery, and related materials.
    Like the 1958 conventions, the LOS Convention recognizes numerous 
legal bases for taking enforcement action against vessels and aircraft 
suspected of engaging in proliferation of weapons of mass destruction:

  <bullet> exclusive port and coastal State jurisdiction in internal 
        waters and national airspace;

  <bullet> coastal State jurisdiction in the territorial sea and 
        contiguous zone;

  <bullet> exclusive flag State jurisdiction over vessels on the high 
        seas (which the flag State may, either by general agreement in 
        advance or approval in response to a specific request, waive in 
        favor of other States); and

  <bullet> universal jurisdiction over stateless vessels.

    Nothing in the Convention impairs the inherent right of individual 
or collective self-defense (a point which is reaffirmed in the 
Resolution of Advice and Consent proposed in the last Congress).

Law of the Sea: Role of the UN
    Question. Some commentators have asserted that the Law of the Sea 
Convention gives the United Nations the power to regulate the use of 
the oceans and that U.S. accession to the Convention would allow the 
United Nations to veto uses of the ocean by the United States, 
including by the U.S. military. It is my understanding that, under the 
Convention, the United Nations has no decision-making role with respect 
to any uses of the oceans. Please explain what role, if any, the United 
Nations would have in regulating uses of the oceans by the United 
States if the United States were to accede to the Law of the Sea 
Convention.

    Answer. The United Nations has no decision-making role under the 
Convention in regulating uses of the oceans by any State Party to the 
Convention.
    Commentators who have made this assertion have argued that the 
International Seabed Authority (ISA) somehow has regulatory power over 
all activities in the oceans.
    The authority of the ISA is limited to administering the 
exploration and exploitation of minerals in areas of deep seabed beyond 
national jurisdiction, generally more than 200 miles from shore. The 
ISA has no other role and has no general regulatory authority over the 
uses of the oceans, including freedom of navigation and oversight.

Law of the Sea: Taxation by International Seabed Authority
    Question. Some commentators have asserted that acceding to the Law 
of the Sea Convention would involve giving the International Seabed 
Authority the power to impose taxes on U.S. citizens. State Department 
Legal Adviser William Taft has testified before Congress that the 
International Seabed Authority has no ability or authority to levy 
taxes. In your view, is there any basis for concern that U.S. accession 
to the Law of the Sea Convention will result in U.S. citizens being 
subject to taxation by the International Seabed Authority?

    Answer. No. The Convention does not provide for or authorize 
taxation of individuals or corporations.

Law of the Sea: Technology Transfer
    Question. Some commentators have asserted that the United States 
would be required to transfer sensitive technology, including 
technology with military applications, to developing countries if it 
acceded to the Law of the Sea Convention. It is my understanding, 
however, that provisions of the Law of the Sea Convention containing 
mandatory technology transfer requirements were eliminated by the 1994 
Agreement addressing the Convention's deep seabed mining regime. Do you 
believe there is any reason for concern that acceding to the Convention 
would require the United States to transfer any technology to 
developing countries?

    Answer. No, technology transfers are not required by the 
Convention.

Law of the Sea: U.S. Sovereignty over Ocean Resources
    Question. Some commentators have asserted that acceding to the Law 
of the Sea Convention will involve ceding to the International Seabed 
Authority sovereignty currently enjoyed by the United States over ocean 
resources. It is my understanding, however, that the jurisdiction of 
the International Seabed Authority addresses only mining of minerals in 
areas of the deep seabed beyond the jurisdiction of any country, and 
that the United States has never asserted sovereignty over such areas. 
Do you believe that acceding to the Convention would involve any 
surrender of existing United States claims to sovereignty over ocean 
resources?

    Answer. No, the United States has never claimed sovereignty over 
areas or resources of the deep seabed.
    The Convention's provisions on the exclusive economic zone and 
continental shelf preserve and expand U.S. sovereign rights over the 
living and non-living ocean resources located within, and with regard 
to the continental shelf beyond, 200 miles of our coastline.

Law of the Sea: Effect of 1994 Implementing Agreement
    Question. Some commentators have asserted that there is uncertainty 
as to the legal status of the 1994 Agreement Relating to the 
Implementation of Part XI of the Law of the Sea Convention, which 
addresses the Convention's deep seabed mining regime. I have received a 
letter from eight former Legal Advisers to the Department of State from 
both Republican and Democratic administrations stating that the 1994 
Agreement ``has binding legal effect in its modification of the LOS 
Convention.'' Do you believe there is any basis for questioning the 
legal effect of the 1994 Agreement?

    Answer. No. My understanding is that the notion that the 1994 
Agreement has no legal effect is incorrect.

Defense Science Board Recommendations
    Question. The Pentagon's Defense Science Board (DSB) recently 
proposed establishing at the NSC a new deputy post to coordinate 
strategic communications and public diplomacy throughout the 
government. Is this a good idea?

    Answer. The DSB and other studies of public diplomacy and strategic 
communications over the past several years offer many good ideas for 
strengthening public diplomacy and strategic communication. If 
confirmed, strengthening public diplomacy will be one of my priorities 
as Secretary of State. I do not want to comment at this time on what 
structures would best serve that objective but will consider a full 
range of options, and will be delighted to do so in cooperation with 
members of this committee. The State Department must lead the Public 
Diplomacy effort, particularly in the field through our embassies and 
missions abroad.

Public Diplomacy: Budget Increases
    Question. ECA has finally seen its budget increase after suffering 
significant cuts in the 1990s. There has been a major shift in funding 
to programs aimed at the Middle East and Muslim world, at the expense 
of programs in Europe, the former Soviet Union, and other parts of the 
world. Do you believe that enough is being done to focus attention on 
the growing degree and shrillness of anti-Americanism in Europe, Latin 
America, and Asia?

    Answer. Combating terrorism and the apparent deterioration of the 
U.S. image abroad are global challenges that require a strategic 
approach to the use of exchange programs in every region of the world.
    Our political and economic adversaries use misperceptions about our 
goals, disagreements about our policies and a general sense of anti-
Americanism to move their specific agendas forward around the world. 
The Department is committed to balancing the needs of all our regions 
to address U.S. foreign policy goals.
    We know that exchanges present the best face of America, they work 
to convey to publics that we care about the future of their young 
people and education, they convey that we have common cause in basic 
shared vales, and they are ``moving the needle'' with individuals. 
Results consolidated from a number of program evaluations in 2003 show 
that 88% of exchange participants gained new knowledge/skills on key 
issues, and 89% of exchange participants gained a better understanding 
or more positive view of the United States.
    Twenty-five percent of ECA's budget currently goes to exchanges in 
the countries covered by the Bureaus of Near Eastern and South Asian 
Affairs; new programs and increases in traditional exchanges are 
effectively addressing these critical areas. We have moved some 
resources from Eurasia to do so, but have maintained robust programs in 
Eurasia aimed at youth, from high school through undergraduate and 
graduate level students. In all other regions, we have been able to 
keep exchange programs at roughly the FY 03 level. In all regions, we 
are focusing on our most important audiences.
    Resources for exchanges, coupled with the effective programming 
provided by ECA, offer a strong antidote to anti-Americanism. The 
Department looks forward to working further with Congress to identify 
the appropriate level of resources for exchanges to meet the challenges 
we face in every part of the world.

Public Diplomacy: Guidance to U.S. Broadcasting
    Question. How do you view the State Department's role in providing 
strategic guidance and greater coherence to U.S. broadcasting efforts? 
Should the Department play a stronger role? Does the current 
bureaucratic structure serve us well or could it be improved? For 
example, should the VOA be integrated into State?

    Answer. The State Department and BBG must effectively coordinate 
U.S. international broadcasting efforts. As you know, the Secretary of 
State is a member of the Board of Governors, and his/her designee 
actively participates in Board meetings and deliberations.
    The BBG also coordinates regularly with the regional bureaus and 
with the Under Secretary for Public Diplomacy and Public Affairs. As 
part of its annual language service review process, the BBG regularly 
receives briefings from the Department of State on matters of strategic 
guidance as a way to ensure that high priority languages are 
identified. The Department provides guidance and clears on VOA 
editorials on a daily basis, and when issues of difference arise, the 
BBG and Department work together to resolve them.
    I believe that these arrangements serve the State Department and 
the BBG very effectively.

NED
    Question. In the 9/11 Commission legislation that Congress recently 
passed, my initiative to establish a free press institute at the NED 
was included. NED officials and other stakeholders in the media field 
have moved quickly to begin to make it a reality. They will be making a 
proposal to the State Department for $1 million for institute staff, 
the development of a strategic plan, and organizational meetings. Would 
you support this grant and expedite its approval?

    Answer. The State Department supports the work of the NED and will 
support the initiative to develop a free press institute. We would also 
support including the $1 million for free press staff as part of the 
grant for NED core funding that passes through the Bureau of Democracy, 
Human Rights and Labor. We look forward to consultations on the 
development of a strategic plan and discussion of organizational 
efforts.

Embassy Security
    Question. Some agencies who will be required to contribute under 
the Capital Security-Cost Sharing Program have maintained that their 
financial participation is unwarranted or excessive. The Department of 
Defense has been particularly reluctant to participate. Are all the 
agencies now on board with this plan, including Defense?

    Answer. The Consolidated Appropriations Act, 2005 (P.L. 108-447) 
makes clear that all Departments and agencies are to contribute their 
shares under the Capital Security Cost-Sharing Program 
``notwithstanding any other provision of law,'' ``without offsets,'' 
and ``in advance.'' The Department is directed not to build space for 
employees of any agency that fails to pay its full amount of funding 
required by cost-sharing.
    OMB had already directed each agency to include its FY05 cost-
sharing contribution in its FY05 budget. All agencies have been 
cooperating with the Department in determining their respective 
overseas staffing levels, and we anticipate that they will transfer the 
funds upon request. So far we have no indication that any agency will 
refuse to comply.

Danger Pay
    Question. The committee has voted twice in favor of increasing 
danger pay for State Department employees who serve in hostile 
environments. Why has the administration not requested this benefit as 
part of its overall submission to the Congress?

    Answer. I appreciate your support for creating further incentives 
for employees to serve in hostile environments. The administration did 
not request the danger pay increase as part of its overall submission 
for FY 2004 or FY 2005 for budgetary reasons.
    Any future administration initiative to increase danger pay would 
need to consider the additional funding required to finance the 
increase within overall budget constraints.

Submission of Treaties
    Question. The administration did not submit to the committee a 
Treaty Priority List during the 108th Congress. Does the administration 
intend to submit a Treaty Priority List during the 109th Congress? If 
so, when does the administration expect to submit the list?

    Answer. The administration intends to submit to the committee a 
Treaty Priority List during the 109th Congress. The administration 
recognizes that having such a list can assist the committee in 
organizing its work. We will endeavor to submit a list as soon as 
possible after receiving the customary request from the committee.

NED and Free Press
    Question. The President last year called for a doubling of the NED 
budget. We were successful in increasing the budget significantly in 
the omnibus legislation. I was able to have included in the 
intelligence reform bill language that embraced the concept of S. 2096. 
Do you agree that a free press institute funded through NED would be 
one good way of consolidating U.S. expertise, allowing for private 
contributions, and building a coordinated capacity to support free 
press in countries building democratic institutions?

    Answer. The Department of State recognizes and supports the 
importance of and the role of independent media in the development of 
open democracies. The establishment of a free press institute funded 
through NED would be one way to promote this objective and would add a 
fifth ``core'' partner institute to complement NED's work in other 
areas to promote democracy. We support the initiative to coordinate USG 
and private efforts to develop and encourage free press and believe 
that a free press institute could help mobilize private sector 
resources to build free press activities and support democratic 
institution building. We believe that USG efforts to promote free and 
independent media should also be coordinated with the important similar 
work being done by Internews, IREX and other nongovernmental 
organizations that support and share these universal human rights 
values. We would urge the funding of the free press institute to be 
treated as separate from existing media training and independent media 
support activities, and kept clearly distinct from public diplomacy 
initiatives.

Iraq Issues
    Question. Reports indicate General Casey and Ambassador Negroponte 
have established a close working relationship. There is a gap, however, 
between the military and civilian efforts in Iraq. The Department of 
State, which is responsible for executing U.S. assistance to Iraq, is 
dependent on the Department of Defense, which owns and controls 
transportation assets, controls the airspace and roads and is helping 
the Iraqis establish security. The U.S. military, for its part, does 
not have the statutory responsibility, mechanisms or resources to 
operate jointly with the State Department to provide reconstruction 
assistance. How can you ensure that there is an integrated, joint 
civilian-military operational capability for stabilization and 
reconstruction in Iraq?

    Answer. All agencies of the United States government recognize the 
importance and urgency of reconstructing and stabilizing Iraq. It is a 
prime mission for both our DoD and Department of State components in 
Iraq, and they are working together closely. We have developed a strong 
interagency process--at all levels--both in Washington and Iraq to 
ensure civilian-military coordination and cooperation.
    The overall policy and operating relationship between the State and 
Defense Departments is set out in a series of documents, including NSPD 
36, ``Operation Plan (OPLAN) Sovereign Iraq,'' and three Memoranda of 
Understanding on support and security. These documents are the product 
of the joint State-DOD Interagency Transition Planning Team that closed 
down CPA and stood up Mission Baghdad. In practice, they are working 
well.
    Embassy Baghdad (and DOD) participates through video teleconference 
in regular and frequent interagency meetings on Iraq--meetings of the 
National Security Council, Principals and Deputies Committees, and the 
Iraq Policy Operations Group. General Casey participates in meetings of 
the National Security Council.
    On the ground in Iraq our reconstruction efforts are coordinated by 
a civilian-military interagency organization, the Iraq Reconstruction 
Management Office (IRMO), headed by Ambassador William Taylor. IRMO 
coordinates closely with the Project and Contracting Office (PCO), a 
Pentagon-based organization responsible for implementing projects from 
the $18.4 billion Iraq Relief and Reconstruction Fund that Congress 
approved in 2003.
    The Multi-National Security Transition Command-Iraq (MNSTC-I), led 
by LTG David Petraeus, is responsible for the development of the Iraqi 
Armed Forces and Iraqi Security Forces. MNSTC-I works closely with MNF-
I, and Embassy, and IRMO.
    Rather than seeing a ``gap'' between civilian and military efforts, 
I see that at every level they are intertwined and integrated:

  <bullet> State Department, USAID and PCO representatives at the 
        Regional Embassy Offices in Mosul, Kirkuk, Hilla and Basra work 
        closely with the military commands in those regions. Our State 
        Embedded Teams are located within military commands in Tikrit, 
        Ba'quba, Ramadi/Falluja, Najaf and Karbala, providing close 
        State-military coordination.

  <bullet> MNF-I officers are embedded in the offices of IRMO's senior 
        ministry consultants. MNF-I officers participate in the 
        Mission's Elections Security Cell.

  <bullet> The military has changed its security mission in Iraq to 
        ensure the protection of infrastructure under insurgent attack, 
        and to provide security for the assistance materials IRMO 
        imports for the reconstruction of the country.

  <bullet> Military commanders have used their Commander's Emergency 
        Response Program (CERP) funds to fund reconstruction projects.

  <bullet> 800 Civil Affairs personnel work on the ground, in every 
        major American maneuver command, in coordination with civilian 
        reconstruction officials. MNF-I's Civil Affairs troops are 
        supporting IRMO in Falluja resettlement and reconstruction.

  <bullet> USAID and 1st Cavalry Division have partnered to provide 
        services and employ youth in Baghdad; expanded to include PCO, 
        this has been a model for reconstruction assistance in 
        strategic cities such as Najaf, Samarra, Tal Afar and Falluja.

    Carrying out reconstruction and securing the country are two parts 
of a single effort, and that is the way our people on the ground in 
Iraq see it--civilian and military alike. They understand that 
cooperating in such a difficult and dangerous environment is essential. 
They are doing a superb job.

    Question. When USAID advertised openings for 20 personnel in their 
Baghdad office, there were no applicants. They have managed through 
aggressive recruitment by Mr. Natsios to fill these openings, but mid-
level experienced FSO's are still needed. How will you address the 
personnel shortfalls created by the demands of Iraq and Afghanistan? Do 
we need to offer tax-free war zone incentives for State Department 
personnel like we have done for the military? The committee has 
supported increasing danger pay and would like to see an administration 
request to that effect. What other incentives are needed?

    Answer. USAID has done a tremendous job recruiting for Baghdad and 
Kabul, already filling all positions through October 2005. State, of 
course, has many more positions than USAID to fill at both posts. 
Despite the difficulties and dangers of service, Department of State 
employees have also been responsive for service at these sites, as well 
as in the Provincial Reconstruction Teams in Afghanistan and the 
remotely located positions throughout Iraq. This includes Civil Service 
as well as Foreign Service volunteers.
    USAID has noted that issues like security and family concerns are 
more important determinative factors for recruitment than financial 
compensation, and the Department of State will continue to address 
these issues for all agencies under Chief of Mission authority.
    We are exploring whether any additional financial incentives are 
needed, and would expect to return to Congress if we determine such 
incentives are necessary.

    Question. This committee has given great attention to the pace of 
reconstruction assistance, which has accelerated somewhat, but still 
remains slow. Effective reconstruction projects can make a great deal 
of difference in Iraq, yet U.S. assistance continues to be plagued by 
lack of coordination and duplication of efforts between the military 
and civilian organizations, bureaucratic processes, and above all, by a 
lack of security in Iraq. You have seen this from the NSC vantage 
point. Do you consider the pace of reconstruction too slow? Are we 
making progress? Do you plan another review and overhaul? What will you 
do differently?

    Answer. The pace of reconstruction is not moving as smoothly as we 
may have hoped; however, we are making progress, even in the face of an 
ongoing insurgency. Clearly, security remains the most serious issue 
affecting the pace of our reconstruction efforts. Despite the 
challenging environment, the U.S. continues to increase our 
reconstruction spending, and we have obligated nearly $13 billion of 
the over $20.9 billion that Congress has appropriated for Iraq 
reconstruction. Of this total, we have disbursed over $4.3 billion-$1.9 
billion from the FY03 Supplemental (IRRF I) and $2.4 billion from the 
FY04 Supplemental (IRRF II) as of January 5th.
    All agencies of the United States government recognize the 
importance and urgency of reconstruction and stabilizing Iraq. It is a 
primary goal of each civilian and military organization working in 
Iraq, and they are working together closely.
    We continue to develop a strong interagency process--at all 
levels--both in Washington and Iraq to ensure civilian-military 
coordination and cooperation and to review and fine-tune our effort. 
The Iraq Reconstruction Management Office (IRMO) located within our 
Embassy in Baghdad is working hard to coordinate reconstruction efforts 
among the implementing agencies ``on the ground'' in Iraq.
    Rather than seeing a ``gap'' between civilian and military efforts, 
I see that at every level they are becoming more intertwined and 
integrated. For example: since early 2004, USAID and the 1st Cavalry 
Division have engaged in a partnership to provide essential services in 
Baghdad while generating employment for Iraqi youth. This partnership 
was expanded to include the PCO, and ultimately became the model for 
rapid reconstruction assistance in strategic cities such as Najaf, 
Samara, Tel Afar and Falluja.
    Our reconstruction efforts have made significant progress in 
supporting our objectives in Iraq and in improving the lives of the 
Iraqi people.
    Currently, over 133,000 Iraqis are employed in USG administered 
programs.
    Despite recent and serious insurgent attacks on the oil 
infrastructure, the weekly average output during Dec. 27-Jan. 2 stood 
at 2.1 million barrels per day with exports earning Iraq more than $1.4 
billion in hard currency each month.
    We have added over 1800 MW generating capacity to the Iraqi power 
grid since the transition to Iraqi sovereignty and we will add more. 
Power is also more equitably distributed throughout the country than 
under Saddam, when electric power was diverted to Baghdad.
    Iraq is experiencing power shortages now due to sabotage, fuel 
distribution problems, unscheduled outages and seasonal spike in 
demand. We are working with the Ministry of Electricity to increase 
available hours of power in the shortest possible time.
    We continue to seek the most effective means of delivering 
assistance to Iraq. Last fall, Ambassador Negroponte, in close 
coordination with the Iraqi Interim Government, General Casey of MNF-I 
and LTG Petraeus of MNSTC-I, undertook a strategic review of the 
spending plan and suggested the reallocation of $3.46 billion in 
reconstruction assistance.
    In an effort to disburse funds more quickly, PCO is proceeding with 
a pilot program to contract directly with the IIG Ministries, allowing 
them to implement and manage infrastructure projects which meet their 
most pressing priorities.
    We are also using Iraqi firms to the greatest extent possible to 
put an ``Iraqi face'' on our reconstruction efforts.
    As part of the ongoing assessment of spending priorities, our 
Embassy has recently identified an additional $457 million to 
reallocate to high-impact, rapid-action projects designed to stabilize 
and address the near-term needs of the electrical sector as well as to 
deliver quick-delivery essential services programs to the populations 
of 4 cities (Fallujah, Najaf, Samarra and Sadr City) living in post-
battle environments.

    Question. The elections scheduled for January 30, 2005 are the 
first in a multi-year process. Will the Iraqi Election Commission (MCI) 
[presumably referring to the Independent Electoral Commission of Iraq 
(IECI)] have the credibility to monitor elections? Will the elections 
be judged fair if the Sunnis boycott or if we have to bypass three 
governorates? How are plans for the next two elections coming? Should 
we expect the security situation to improve after Iraqis vote?

    Answer. The elections that will take place on January 30 are an 
important next step for Iraqis seeking to put their dark past behind 
them. Over the past several months, the IECI has repeatedly 
demonstrated its independence and its dedication to ensuring that 
Iraq's elections are substantially free and fair. The IECI is enlisting 
thousands of Iraqi election workers. Thousands more will serve as 
domestic election monitors and are being trained by the National 
Democratic Institute (NDI). A conference in Ottawa in December 
organized the International Mission for Iraq Elections (IMIE), an 
international effort that we support.
    PM Allawi, President al Yawar, the IECI, and the Iraqi Interim 
Government (IIG) have all called for full participation--by all Iraqi 
political, ethnic, and religious groups--in the January 30 elections. 
We support the Iraqi call for full participation and believe all Iraqis 
have a role to play in the future of Iraq, including Iraqi Sunnis.
    The IECI, Iraqi Ministry of the Interior, and the Multinational 
Force-Iraq are working closely together to ensure security for the 
elections in all 18 governates. The IECI is also considering ways to 
ensure that voters in areas still plagued by security issues are able 
to participate in the election, even if they have not yet registered to 
vote.
    The IECI is responsible for carrying out not only the January 
elections, but also the constitutional referendum scheduled for October 
and the elections for a constitutionally based government in December. 
We welcome Secretary General Annan's statement that the UN stands 
ready, if asked, to help Iraqis as they draw up a new constitution and 
conduct a national referendum and further elections. The U.S. 
Government will provide support as requested by the Transitional 
Government of Iraq.
    The January elections will mark a watershed moment in Iraq's 
history, which should help the Iraqi Transitional Government battle 
those who seek to derail Iraq's progress to full democracy. But we 
should not underestimate the commitment of these forces to deny Iraqis 
a stable, democratic, and prosperous future. As election day 
approaches, these elements will probably step up their attacks out of 
desperation that Iraq's political transition is succeeding.

Afghanistan
    Question. A Congressional Notification arrived in December 
outlining a new Afghanistan counter-narcotics program costing $776.5 
million in 2005. Given the exponential growth of poppy cultivation and 
drug production in Afghanistan in the past two years this amount may be 
justified, however, the entire Afghan appropriation for 2005 is only 
$980 million. Does this put other reconstruction in Afghanistan in 
jeopardy? How much funding for Afghanistan will be requested in the 
upcoming supplemental? What is the expected budget request for FY 2006?

    Answer. The new Afghanistan counter-narcotics program does not put 
in jeopardy other reconstruction in Afghanistan, provided that 
supplemental funding is received to replenish the reprogrammed accounts 
in full prior to beginning of the third quarter. In preparing the 
reprogramming request every effort was made to minimize any delay or 
disruption in existing programs.
    The President has not yet decided on the timing or content for a 
Supplemental.
    Funds will be requested to continue the Afghanistan counter-
narcotics program in FY 2006. However, the levels have not yet been 
finalized.

    Question. The Congressional Notification indicates that $312.5 
million is to be immediately reprogrammed from other critical accounts 
identified for Afghanistan. What programs will be affected by the 
reprogramming? Will these be replenished in the supplemental?

    Answer. In preparing the reprogramming request every effort was 
made to avoid any delay or disruption to existing programs.
    All reprogrammed funds would to be replenished with the exception 
of the INCLE ``Prior year De-obligated Funds'' of $3,000,000.

    Question. Why is 40 percent of the counter-narcotics budget being 
slated for eradication of only 10 percent of the crop, while only 15 
percent is being budgeted for alternative livelihoods? Should more 
resources be spent to put courts, prisons, laws and greater 
opportunities for alternative livelihoods in place to prepare for a 
sustainable Afghan-driven eradication program?

    Answer. Eradication is one of the most crucial elements of a 
counter-narcotics program, and the objectives of the other elements 
will be undermined without an effective eradication program. 
Considerable up-front capital investment in equipment and 
infrastructure to support eradication is needed. This constitutes a 
large share of the initial counter-narcotics spending. Farmers must 
also be given alternative livelihoods opportunities if they are to stop 
planting poppies. We are already at work providing farmers with real 
options and have reprogrammed $11 million from FY2004 funds to provide 
economic incentives for farmers to plant licit crops.
    Most countries--the United Kingdom and the U.S. being the 
exceptions--decline to contribute to eradication programs for a variety 
of reasons. The eradication program is therefore a key U.S. value-added 
contribution to the overall effort.
    The proposed Afghanistan counter-narcotics initiative takes into 
account the willingness of other donors to contribute to law 
enforcement and criminal justice system development, alternative 
development, public information, and demand reduction programs. The 
counter-narcotics initiative will be coordinated with existing USG 
programs that provide support for the justice sector in Afghanistan, 
with the objective of a stable, peaceful Afghanistan with a legitimate 
central government respecting the rule of law.

    Question. There are consistent concerns that the funds identified 
for Afghanistan are not reaching the ground. What proportion of each 
dollar is going toward overhead? How can we improve the impact of every 
dollar and the timeliness of assistance? Is the head of the Afghan 
Inter-Agency Operations Group sufficiently authorized to ensure 
coordinated and efficient obligation of funds?

    Answer. From FY 2001-2004, the U.S. provided over $4.5 billion for 
Afghanistan's reconstruction. The size and diversity of our ambitious 
program precludes a simple answer to the proportional amount allocated 
towards overhead. Overhead costs vary by sector and project, and would 
have to be addressed on a case-by-case basis.
    We believe the current inter-agency organizational model is 
sufficient to adequately monitor and track the impact of our spending 
and the timeliness of our assistance program to Afghanistan. Through 
the near-daily meetings of the Afghanistan Inter-agency Operation Group 
(AIOG), there continues to be close inter-agency collaboration on all 
funding issues and the Coordinator and other policy makers are 
periodically provided charts that track all U.S. obligations and 
available resources. These charts are designed to highlight 
efficiencies and expose bureaucratic bottlenecks. Progress toward 
specific sectoral objectives is also carefully tracked on a month-to-
month basis through our Afghanistan ``metrics'' document.
    We believe the Coordinator for Afghanistan possesses sufficient 
authority to carry out the administration's priorities in Afghanistan.

Iran Issues
    Question. What should the U.S. do to encourage Iran to close its 
shared borders with Iraq? Who is coming across the border now? Are 
fighters sanctioned or supported by the Iranian government?

    Answer. We have made clear to Iran that we will oppose actions that 
undermine Iraq's stability. Senior officials of the Iraqi Interim 
Government have publicly voiced their concerns about Iranian 
interference in Iraq.
    We urge the Iranian government to live up to its publicly stated 
policy of supporting the sovereignty, independence, territorial 
integrity, and national unity of Iraq, and its commitment to combat the 
flow of terrorists across the Iraqi-Iranian border as stated in the 
November 23, 2004 regional conference on Iraq held at Sharm el-Sheikh.
    Iran should also heed the requirements of UN Security Council 
Resolution 1373 to deny safe haven to those who plan, support, or 
commit terrorist acts and to affirmatively take steps to prevent the 
commission of terrorist acts by providing early warning to other states 
by exchange of information.

Saudi Arabia Issues
    Question. How can U.S. policy toward Saudi Arabia counter the 
growing anti-Americanism in some segments of the Saudi population and 
facilitate the Kingdom's progress toward political, economic, and 
educational reforms, without undermining our close security and 
economic cooperation with the government?

    Answer. Our support for reform in Saudi Arabia is not incompatible 
with our close security and economic agenda with the Kingdom. In fact, 
we believe strongly that the Saudis must pursue reform as the best way 
to ensure that the shared security and economic interests of the US and 
the Kingdom of Saudi Arabia grow stronger.
    We are addressing anti-Americanism in Saudi Arabia through two 
principal means. The first is our traditional public diplomacy effort, 
which includes Fulbright and carefully targeted International Visitors 
programs, other educational exchanges, and dissemination of U.S. views 
via placements in the local media and through USG-sponsored Arabic 
language media.
    The Saudis themselves have a reform agenda that includes holding 
first-ever municipal elections in the spring of 2005; developing a new 
school curriculum aimed at promoting greater tolerance; and continuing 
Crown Prince Abdullah's ground-breaking series of national dialogues 
with religious leaders, intellectuals, young people and women on 
Saudi's most sensitive issues. The Saudis are also taking significant 
steps to advance economic reform, and are currently in the process of 
negotiating their accession to WTO.
    We support these initial efforts and are encouraging the Saudis to 
take additional steps, via our bilateral Middle East Partnership 
Initiative (MEPI) and the G-8 sponsored Broader Middle East and North 
Africa Initiative (BMENA), to provide a better future for their 
citizens, and to give all those citizens a greater voice in the 
decisions affecting their lives.
    We share the view that meaningful reform must reflect the desires 
of the people of the region--it will only succeed if it is internally 
driven, not externally imposed, but we and others can and must help.

Greater Middle East 21st Century Trust Issues
    Question. What is your view of the Greater Middle East Trust idea 
contained in S. Res. 375?

    Answer. President Bush has established the promotion of freedom, 
democracy, and political, economic, and educational reform in the 
countries of the broader Middle East as a major long-term priority for 
the United States. Increasing freedom and opportunity will generate new 
hope, and diminish the appeal of extremism for people throughout this 
region.
    We are moving forward with implementing the Broader Middle East and 
North Africa Initiative, agreed by G-8 leaders at the Sea Island 
Summit, and continue to make progress through the dozens of impact-
oriented reform programs launched under the U.S. Middle East 
Partnership Initiative.
    We welcome the leadership shown by Members of Congress in proposing 
increased assistance and new programs and coordination mechanisms to 
support reform. I share the goal of structuring U.S. efforts 
effectively to coordinate and implement democracy and reform assistance 
programs to support the President's vision.
    A ``Greater ME 21st Century Trust'' is a worthy idea which we 
should explore further. Creating such a trust fund, however, could 
require an increase in available appropriations for promoting reform 
and democracy in the region. The steady reduction in funding for MEPI 
over the past three fiscal years has strained our ability to advance 
U.S. reform efforts. It would be difficult to persuade other 
governments to contribute into a ``Trust'' unless we demonstrate U.S. 
resolve in this area.

Cuba
    Question. I have received reports that officials of the U.S. 
Department of State, Treasury, and possibly the National Security 
Council are recommending administrative or regulatory clarification 
related to implementation of the Trade Sanctions Reform and Export 
Enhancement Act, which would likely impact U.S. agricultural exports to 
Cuba. The reported revision of requirements applied to U.S. 
agricultural sales will be injurious to American farmers, and emphasize 
that the U.S. is not a reliable exporter. If accurate as reported, the 
proposed change would overturn Congressional intent to allow normal 
cash sales to Cuba as they are currently transacted. Dr. Rice, please 
provide background information on the genesis and status of this 
proposed change and how you expect it to affect agriculture sales to 
Cuba.

    Answer. U.S. agencies, including the Department of State, have met 
with concerned parties, including U.S. exporters and shipping 
companies, to hear directly their views about any potential change and 
its impact on their business.
    There is an inter-agency process considering whether the 
regulations implementing the law should be clarified. However, no 
decision has been made, and thus no change has been made in U.S. policy 
concerning agricultural shipments to Cuba.

Russia
    Question. How would you describe U.S.-Russia relations today? What 
are the main challenges to the relationship that you will need to 
address in the near future?

    Answer. In many areas, the relationship is more or less on the 
right track, but we have a ways to go to realize the full potential 
that both countries had hoped for. We have worked well together in some 
areas, notably on counter-terrorism and non-proliferation. However, we 
have growing concerns about Russia's reversal of many democratic 
reforms implemented in the 1990's. We continue to raise our concerns as 
a partner that wants Russia to succeed as a strong, vibrant, democratic 
country.
    The cold-war rhetoric and threat of global nuclear annihilation has 
been replaced by unprecedented U.S.-Russia counter-terrorism and 
nonproliferation cooperation. We now share actionable counterterrorism 
intelligence and are close to concluding a bilateral agreement on 
MANPADS.
    Presidents Bush and Putin have a good, strong relationship that 
sets the right tone for moving forward on a broad range of initiatives. 
Recent joint successes include Iraqi debt forgiveness, space 
cooperation, and Afghanistan elections. The relationship's resilience 
was shown on ABM withdrawal and NATO expansion to the Baltics, which 
many said would provoke a crisis in our relations and did not.
    At the same time, significant challenges remain. We have some work 
to do to convince the Russians that geo-political and economic success 
is not a zero-sum game. Free, peaceful and prosperous Ukraine, Georgia, 
Moldova and other neighbors are in Russia's interest.
    Ten years on, Chechen war needs a political solution and an end to 
human rights abuses. We must also make clear that there is no excuse or 
justification for terrorism.
    Russia needs to integrate more firmly into global institutions as 
appropriate. Russia can play a constructive role in Six-Party talks, on 
Iran, BMENA initiatives and as part of the Middle East Quartet. Recent 
backsliding on democracy and other human rights may begin to raise 
questions about the suitability of Russian participation in other 
international institutions.
    To further this integration, Russia must show that it shares 
Western and international values, including a free judiciary and press, 
strong civil and governmental institutions, the rule of law, freedom of 
speech, assembly and religion.
    Russia will likely continue to project ``soft'' power using its oil 
and gas resources and nuclear know-how. Unfortunately, the handling of 
the Yukos case poses serious questions about Russia's respect for the 
rule of law, property rights, and openness to investment.

    Question. How is Russia cooperating with the United States in the 
Global War on Terror? What assistance is Russia providing to 
Afghanistan? Does the United States envisage a role for Russia in 
reconstruction activities in Iraq?

    Answer. President Putin was the first world leader to call the 
President to offer assistance in the wake of September 11.
    Our two governments have a Counterterrorism Working Group, chaired 
by the Deputy Secretary of State and his Russian counterpart, that 
facilitates operational cooperation and exchanges of information on a 
wide range of terrorism concerns. Among the priority issues addressed 
by this Working Group are intelligence and law enforcement, aviation 
security, WMD, MANPADS, and terrorist financing.
    Russia is assisting the Afghan National Army with equipment. We 
expect Russian aid to Afghanistan may increase if continued progress is 
made on resolving the issue of Russian debt contracted by previous 
Afghan governments.
    To contain the outflow of Afghan narcotics, we are encouraging 
Russia to work with us, the EU, the United Nations Office on Drugs and 
Crime, and the Tajiks to strengthen border security and interdiction, 
as well as to train and equip the Tajik Border Guard as Russian-led 
forces leave the Tajik-Afghan border by 2006.
    Russia has considerable potential to assist in Iraq's 
reconstruction, particularly in infrastructure development and the 
energy sector.
    President Putin recently committed to reducing Iraq's debt to 
Russia by about 93 percent, in accordance with its Paris Club 
obligations and additional commitments made by Paris Club members in 
November.

    Question. How could possible setbacks in democratization and 
respect for human rights in Russia affect U.S.-Russian relations? How 
might the United States respond to such developments?

    Answer. A stable, healthy, democratic Russia serves both U.S. and 
Russian interests, and will make Russia a more effective international 
partner.
    Today's Russia bears little resemblance to the country that emerged 
from the ashes of the USSR. Despite fits and starts, Russia has overall 
made progress toward a more open society and economy. Recent 
backsliding--particularly the dilution of judicial independence, state 
control over nationwide television and end of the direct regional 
elections--raises concerns for us. Actions surrounding the Yukos case 
undermine Russia's commitment to the rule of law, transparency, respect 
for property rights and willingness to uphold the norms and values of a 
democratic market economy.
    Based on these trends, during the certification process for the 
Cooperative Threat Reduction Initiative, we decided this fall for the 
first time to not certify Russia on human rights grounds. We informed 
our Russian colleagues about this decision as well as Members of 
Congress (the President signed the waiver to ensure continued flow of 
CTR funds).
    We must maintain good channels of communication at all levels of 
the Russian Government in order to effectively share our concerns about 
how negative trends in these areas could hurt our relationship. We 
speak to our Russian interlocutors as frank partners who want to see 
Russia become a strong, vibrant, democratic country.
    We also need to maintain good ties with those individuals and 
groups in Russia that are advocating for democratic values and 
institutions. Therefore, the U.S. must continue to provide robust 
support for programs that strengthen the rule of law, help fight 
corruption, and defend democratic values, including respect for human 
rights, in Russia. Building a larger constituency base between our two 
countries and our two societies will redound to the benefit of our 
overall relationship.
    In FY 2005, we plan to spend over $43 million for democracy 
programs in Russia--about a third more than we did in FY 2004. If 
confirmed, I look forward to working with Congress to ensure continued 
strong support for democratization and human rights in Russia.

Ukraine
    Question. What is your sense of the impact the Ukrainian elections 
will have on the future of democracy in the region?

    Answer. The fact that a democratic process prevailed and delivered 
a result that reflects the will of the people represents a stunning 
success for Ukraine.
    It could have a major impact on the development of democracy in the 
region. It will signal to millions of people that democratic freedom is 
within reach and on the ascendance, and that citizens standing up 
peacefully for their political rights can make a difference. This will 
help bolster supporters of democracy, even as authoritarian governments 
in Belarus, Central Asia, and elsewhere in Eurasia crack down on pro-
democracy civil society groups.
    We will intensify our efforts to ensure that respect for democracy 
and human rights remains an integral component of our relationships. We 
will continue to emphasize that long-term stability, security, and 
prosperity arise when people enjoy freedom to participate in the civic 
life of their countries and fundamental human rights. We should bear in 
mind, however, that the conditions that made people's revolutions in 
Ukraine and Georgia a success--especially a well-developed civil 
society--do not exist everywhere in the former Soviet Union. Moreover, 
rulers in some of these countries are already drawing the wrong 
conclusion from the Orange Revolution and are bringing strong pressure 
to bear on pro-democracy NGOs.

    Question. The U.S. imposed sanctions on several top Ukrainian 
leaders. What is the current status of those actions?

    Answer. For months, we repeatedly and consistently warned Ukrainian 
officials of the high importance we place on the conduct of their 
presidential election process and voting day itself.
    Most recently, in his November 18 letter to President Kuchma, 
President Bush wrote that a tarnished election would lead us to review 
our relations with Ukraine, and consider further steps against 
individuals engaging in fraud.
    As we said during the campaign, any individual who has engaged in 
or benefited from corruption or interference in judicial or electoral 
processes should expect his visa application to be reviewed in light of 
Presidential Proclamation 7750 and all U.S. laws relating to visa 
eligibility. Pursuant to the Proclamation, we have denied the U.S. visa 
application of one prominent Ukrainian under Section 212(f) of the U.S. 
Immigration and Nationality Act for engaging in serious corrupt 
activity, including in the Ukrainian electoral campaign.
    We continue to review the behavior of senior officials of the 
Kuchma/Yanukovych government and to consider whether further action may 
be in order in some cases.

    Question. What is the new president's position on Ukraine's troops 
in Iraq? What impact, if any, will Ukraine's troop presence in Iraq 
have on your deliberations?

    Answer. The U.S. and our Multinational Force (MNF) partners are 
very grateful for Ukraine's substantial troop contribution in Iraq. 
Ukraine has a 1,580-man troop contingent in Iraq--one of the largest in 
the MNF. Ukraine also has contributed peacekeepers in the Balkans, 
Africa, and Lebanon, and has provided support for Coalition operations 
in Afghanistan. These troops are making valuable contributions, and we 
have encouraged Ukraine to continue to support these operations.
    During the presidential election campaign in Ukraine, both leading 
candidates said they would consider the possible withdrawal of 
Ukrainian troops from Iraq. Since the circumstances of any withdrawal 
are hypothetical at this point, I cannot comment further on their 
implications.

Europe
    Question. How can we improve U.S.-European relations? In your view, 
can gaps between U.S. and European views regarding the role of 
multilateral institutions and the use of force be bridged?

    Answer. The continued strength of U.S.-European relations is shown 
in the common values we share, and our common efforts to address the 
challenges to the transatlantic community. Although we have had 
sometimes very public disagreements with some European countries over 
Iraq and other issues, we are working together effectively in counter-
terrorism, non-proliferation, Afghanistan, promoting democracy and 
reform in the Broader Middle East, Haiti, Darfur, the Balkans, and many 
other areas.
    In Iraq, even leaving aside our largest coalition partner, the 
United Kingdom, we are working closely with many European nations to 
strengthen security and democratic institutions and to rebuild the 
economy. NATO is training senior military officers, and the European 
Union is playing an increasing role in providing technical assistance 
and police training.
    The President's upcoming trip to Europe will take us still further 
in working together with our Europeans allies and friends, including 
through NATO and the European Union, to address the common challenges 
we face.
    The U.S. consults with Europeans constantly through a variety of 
fora, bilaterally with virtually all European countries and 
multilaterally through such institutions as the UN, NATO and the EU. We 
often consult with our European friends and allies before taking 
positions in international meetings. We regularly discuss with European 
governments the need to ensure that multilateral institutions are 
effective in carrying out their work. These consultations cover the 
widest spectrum imaginable, ranging from democracy promotion in Iraq, 
Afghanistan, and the Middle East to combating HIV/AIDS, fighting 
terrorism, and promoting economic growth through free markets and 
competition.
    We also engage a broad spectrum of European audiences in public 
fora in order to ensure that our policies are understood. There is no 
substitute for personal contact as we advocate our policies. It is 
important also to consider how to increase educational exchange with 
Europe.
    Despite popular perceptions, the U.S. and Europe are working 
together more often than not in both multilateral institutions and in 
the use of force. Although Europe is proud of its ``soft power,'' its 
hard power is also essential: German soldiers are playing a major role 
in promoting security in Afghanistan. France has taken a leading 
military role in peacekeeping in Africa, a French general is commanding 
the ISAF mission, and France has special forces deployed with us in 
Operation Enduring Freedom in Afghanistan. Troops from the United 
Kingdom, Poland, Italy, and many other European nations are playing a 
vital role in strengthening security and building democracy in Iraq. 
And while popular attention focuses on U.S. military deployments, the 
United States regularly uses civilian experts, technical assistance, 
public diplomacy, economic contacts, and a range of other diplomatic 
means to advance our objectives. America and Europe work together best 
when we both deploy all the variety of resources at our disposal in 
addressing common challenges as we are doing in so many areas today.

    Question. What will be the administration's priorities in NATO and 
for U.S.-EU relations over the next four years? How can Washington best 
encourage its NATO allies to strengthen enhanced military capabilities 
and develop mobile forces able to project power beyond Europe?

    Answer. The U.S. seeks in the EU a healthy, reliable partner that 
can help us address the challenges of the 21st Century: building stable 
and secure democracies in Iraq and Afghanistan; preventing Iran from 
acquiring nuclear weapons; fighting terrorism and WMD proliferation; 
promoting freedom, markets, social integration in the Broader Middle 
East; finding a lasting solution to the Israel/Palestine situation; and 
addressing lingering challenges in Eurasia and in Europe's immediate 
neighborhood: Ukraine, Russia, Belarus, Moldova, Caucasus, the Balkans 
(especially Kosovo).
    On the economic side, we will seek to boost growth on both sides of 
the Atlantic, by promoting economic reform and innovation, enhancing 
our trade and investment relationship, and working jointly to speed 
global trade liberalization through the WTO. We will also seek to 
resolve all outstanding trade disputes.
    We welcome EU efforts to enhance its military capabilities and to 
create rapid response forces, as long as these efforts are consistent 
with Berlin Plus arrangements.
    NATO remains the essential forum for transatlantic security, and we 
will continue to implement the historic decisions made by NATO leaders 
at Istanbul last year: promote peace and stability in Afghanistan; 
train and equip Iraqi security forces; maintain security in Kosovo; and 
reach out to partners in the Caucasus, Central Asia, and the Middle 
East.
    But NATO is only as strong as its capabilities. At Prague in 2002, 
NATO agreed on the need to improve Alliance capabilities to meet 
current and future threats and committed to acquiring the most needed 
capabilities, such as airlift, sealift, air refueling, and precision 
munitions. Progress has been made, but more work is needed. We will 
continue to urge Allies to meet these capability commitments.
    NATO is strengthening its ability to respond to contingencies 
quickly through the creation of the NATO Response Force, which is 
expected to reach full operational capability by 2006. We have been 
pleased to see Allies making substantial NRF troop contributions.

The Balkans
    Question. How does the administration plan to carry out its 
``Standards Before Status'' Review policy on Kosovo by mid-2005? What 
process can be established to begin to address Kosovo's status? Should 
status be considered if Kosovo has not achieved progress on certain 
standards, such as security for the Serbian minority in Kosovo? What 
will be the U.S. role in this process?

    Answer. We remain committed to a secure, stable and multiethnic 
Kosovo that is fully integrated into Europe. Resolving the issue of 
Kosovo's status will be a major step in achieving the President's 
vision of a Europe whole, free and at peace.
    The eight international standards for Kosovo cover everything from 
security to rule of law to the economy. Their achievement will benefit 
the people of Kosovo no matter what its future status. Kosovo has made 
some progress on the standards, but much work remains.
    The head of the UN Mission in Kosovo, Soren Jessen-Petersen, 
recently identified a number of key indicators that Kosovo should focus 
on in the lead up to the mid-2005 review. These are standards primarily 
designed to ensure the protection and rights of Kosovo's minority 
communities, notably the Serbs. Achievement of these key standards, 
while ensuring there is no major outbreak of violence, would help pave 
the way for a positive review.
    At the same time, we are encouraging work to decentralize the 
administration of Kosovo, which would give Serb communities a greater 
voice in education, health care and possibly even justice issues, in 
municipalities where they have a large presence.
    We are actively engaged with the Contact Group--where we join the 
United Kingdom, France, Germany, Italy, Russia and the EU--as well as 
with the UN, in assessing Kosovo's progress on the standards and in 
considering the possibility of launching status discussions. We are 
also actively engaging Belgrade to ensure that Serbia has a voice, but 
not a veto, in this process.
    The United States will be an active player in the mid-2005 review 
and in any status discussions that may be launched. However, Kosovo's 
future, and that of its neighbors, is as a part of Europe. We will 
expect our Allies and friends in the European Union to take a leading 
role in this process.

    Question. Following examples in Macedonia and Bosnia, should 
peacekeeping duties in Kosovo be turned over from NATO to the European 
Union? Should the U.N. Mission in Kosovo (UNMIK) be reformed or 
restructured?

    Answer. UN Security Council Resolution 1244 has governed the 
administration of Kosovo since the end of NATO air campaign against the 
Milosevic regime in 1999. Under 1244, UNMIK was established as the 
civil administration for Kosovo and a NATO-led KFOR provides security. 
We are committed to both institutions.
    The administration remains committed to the President's ``in 
together, out together'' pledge but we seek to ``hasten the day'' when 
Kosovo will be stable enough to stand without a NATO mission. While it 
is possible that either or both missions could change as part of 
discussions on Kosovo's status, it is premature to speculate on what 
direction those discussions might take.
    At their December meeting, NATO Foreign Ministers agreed to 
maintain a ``robust KFOR'' and to consider changes to its composition 
only as a result of an improved security situation on the ground. Soren 
Jessen-Petersen, appointed by Kofi Annan to lead UNMIK last August, and 
his American deputy, Larry Rossin, have brought a new dynamism to the 
mission that has greatly improved its effectiveness.
    We will continue to work with UNMIK, the UN Secretariat in New 
York, and other partners, such as the EU, to ensure that the mission is 
structured effectively and operating smoothly, particularly in the run-
up to the mid-2005 review and possible launch of discussions on 
Kosovo's future status.

    Question. Despite episodes of cooperation, Belgrade's lack of 
compliance with its commitments regarding the ICTY has held up Serbia 
and Montenegro's efforts to become more closely integrated into the EU 
and NATO. U.S. bilateral assistance has also been curtailed. What is 
the way forward on this issue?

    Answer. The United States remains strongly committed to supporting 
the work of the UN International Criminal Tribunal for the former 
Yugoslavia and its efforts to bring to justice those most responsible 
for serious violations of international humanitarian law. The United 
States and our allies have made clear that upholding international 
obligations to the International Criminal Tribunal for the former 
Yugoslavia remains the most serious obstacle to Serbia and Montenegro's 
further integration into Euro-Atlantic institutions, including 
membership in NATO's Partnership for Peace.
    We have called on all authorities in Serbia, especially Prime 
Minister Kostunica as head of the government, to issue clear and 
unambiguous orders for cooperation with the Tribunal, including the 
immediate apprehension and transfer to The Hague of Ratko Mladic, the 
three indicted generals living openly in Belgrade and all other 
fugitives hiding in the country.
    We want to see Serbia succeed. We want to help Serbia and 
Montenegro integrate into Euro-Atlantic structures to create a Europe 
whole, free and at peace. We look forward to working with leaders in 
the state union and the Serbian Republic on a variety of issues in the 
coming months. The U.S. is ready and eager to broaden and deepen our 
relationship with Serbia and Montenegro and the Republic of Serbia. But 
the way forward will depend on Belgrade's actions to meet its 
international obligations. Serbia and Montenegro already faces 
consequences from its record of non-cooperation, including the 
suspension of some U.S. assistance.

President Bush's NDU Speech: IAEA Proposals
    Last February, President Bush made several important proposals 
concerning the International Atomic Energy Agency (IAEA), the Nuclear 
Suppliers Group (NSG), and the Treaty on the Non-proliferation of 
Nuclear Weapons (NPT).
    IAEA Proposals. The President made three proposals with regard to 
strengthening the International Atomic Energy Agency (IAEA). First, he 
proposed that all states should sign the IAEA Additional Protocol, and 
that signing of the Additional Protocol should be a condition for 
countries seeking equipment for their civilian nuclear programs by next 
year. Second, he proposed that the IAEA Board of Governors create a 
special committee on safeguards and verification. And, third, he 
proposed that no state under investigation for proliferation violations 
should be allowed to serve or continue serving on the IAEA Board of 
Governors or on the new special committee.

    Question. What is the status of each of these proposals?

    Answer. Additional Protocol (AP)
    We are actively engaged in a number of efforts to promote universal 
acceptance of the safeguards agreements mandated under the Nuclear Non-
Proliferation Treaty (NPT) as well as the related Additional Protocols. 
For the past several months we have been engaged with other G-8 
partners in diplomatic approaches to a variety of states that have not 
yet concluded one or both of these agreements.
    We are also actively engaged in the Nuclear Suppliers Group (NSG) 
in advocating signature of the AP as a condition of supply for 
transfers of nuclear trigger list items and technology. A subsequent 
British/Austrian proposal would require AP implementation rather than 
only signature as a condition of nuclear supply by the end of 2005. 
This is attracting broad support in the NSG, although a few states are 
reluctant to move ahead. We will continue to press for approval of the 
British/Austrian version of the President's proposal.
    There is substantial support for the President's proposal to 
establish a special committee of the IAEA Board of Governors to focus 
intensively on safeguards. At last year's summits, G-8 and EU leaders 
agreed to work together to establish such a special committee, which 
would be responsible for preparing a comprehensive plan for 
strengthened safeguards and verification. These leaders also agreed 
that the special committee should be made up of member states that are 
in compliance with their NPT and IAEA commitments.
    We have circulated a proposal for the mandate of this special 
committee to members of the IAEA Board of Governors, and expect the 
Board of Governors to take this up in the coming year.
    The President's proposal that states under investigation for 
proliferation violations should not be allowed to serve on the IAEA 
Board of Governors or the proposed special committee was based on the 
principle that those actively breaking the rules should not be 
entrusted with enforcing the rules. We have achieved broad support for 
this principle.
    G-8 and EU leaders agreed that countries under investigation for 
non-technical violations of their nuclear non-proliferation and 
safeguards obligations should elect not to participate in decisions by 
the IAEA Board of Governors or the special committee regarding their 
own cases.
    We are working to have this principle accepted by the Board of 
Governors. We will also work to persuade each of the regional groups 
not to put forward as candidates for Board of Governors membership 
states that are under investigation.

    Question. What is the current status of all U.S. diplomatic efforts 
to achieve universal adoption of the Additional Protocol?

    Answer. We have long pressed for universal adherence to the 
Additional Protocol, and are working actively with G-8 and EU leaders 
to achieve that goal. We are also urging those states that have not yet 
done so to conclude promptly the safeguards agreement required under 
the Nuclear Non-Proliferation Treaty (NPT). In particular, G-8 Foreign 
Ministers, led by Secretary Powell, agreed to write to their 
counterparts worldwide and urge them to take the necessary steps.
    We have also supported the IAEA's global outreach efforts. We will 
continue this work and use our actions on the U.S. Additional Protocol 
to demonstrate our commitment to strong IAEA safeguards.
    I would like to thank the Senate and the members of this committee 
for your prompt action in consenting to ratification of the U.S. 
Protocol. If confirmed, I look forward to working with Congress on the 
passage of implementing legislation.

IAEA Referral of Cases of Noncompliance
    Article XII.C of the Statute of the IAEA states that the Board of 
Governors, in cases of non-compliance, ``shall call upon the recipient 
State or States to remedy forthwith any non-compliance which it finds 
to have occurred'' and ``[t]he Board shall report the non-compliance to 
all members and to the Security Council and General Assembly of the 
United Nations.''
    This language, however, appears to have been ignored given that no 
action was taken by the United Nations on the IAEA's report North 
Korean noncompliance in 2002 and we remained stalled in Vienna on Iran. 
Some experts believe that reporting to the UNSC is a formula for 
inaction and, therefore, risks undermining the NPT.

    Question. What do you think we should do to correct the impression 
that referral to the UNSC might result in inaction at the UN thereby 
undermining the NPT, starting with the case of North Korea?

    Answer. Reporting of noncompliance with International Atomic Energy 
Agency (IAEA) safeguards to the United Nations Security Council (UNSC) 
is an important tool in enforcement of the Treaty on the Non-
Proliferation of Nuclear Weapons (NPT). We should not shrink from its 
use. In the case of North Korea, reporting to the Security Council has 
placed pressure on the North Korean regime to address the international 
community's concerns regarding its violations of the NPT.
    While a report of noncompliance does not mandate any particular 
UNSC response, the action alone makes an important statement. Reporting 
noncompliance to the UNSC places the issue on the agenda of the 
international body with the legal authority to address threats to 
international peace and security. A demonstrated willingness by the 
IAEA Board of Governors to report noncompliance to the UNSC can itself 
lead to positive movement on remedying noncompliance even before the 
IAEA Board of Governors votes on a decision to report noncompliance. 
Moreover, the Board of Governors has a responsibility to all NPT 
parties to safeguard their security and to place these matters before 
the UNSC. The Board of Governors cannot shy from its duty under the 
IAEA Statute simply because it fears ``inaction'' by the UNSC.
    While the UNSC may not always pursue the action we would want in 
response to a report of safeguards noncompliance from the IAEA Board of 
Governors, having the weight of the UNSC behind the IAEA Board of 
Governors could be useful. This is the case even when immediate action 
by the UNSC is not feasible (or perhaps even desirable) under the 
circumstances of a particular case.

    Question. Do you believe that any nation should be allowed to 
withdraw from the NPT after violating it and not be held responsible 
for its violations?

    Answer. No. Article X of the Treaty on the Non-Proliferation of 
Nuclear Weapons (NPT) should not be treated as an escape clause for 
Parties that violate the NPT.
    Arms control and nonproliferation treaties typically have 
withdrawal clauses stating that a Party, in exercising ``its national 
sovereignty,'' shall have the right to withdraw from the treaty if it 
believes that circumstances ``jeopardizing its supreme interests'' 
justifying that action. Article X of the NPT contains such a provision. 
However, if an NPT party exercises its right to withdraw when it is in 
violation of the NPT, withdrawal does not excuse those violations. In 
some cases, a party may be held responsible for violations that 
preceded its withdrawal from the NPT. Moreover, the United Nations 
Security Council and/or Parties to the NPT, may find it necessary to 
take action against the withdrawing party based on legal authorities 
separate from the NPT, even though the state is no longer Party to the 
NPT.

    Question. As Secretary of State, how will you work to make sure 
that IAEA referral of noncompliance to the UNSC will no longer result 
in inaction at the United Nations?

    Answer. If confirmed as Secretary of State, I will work to ensure 
that any future International Atomic Energy Agency (IAEA) Board of 
Governors' report of noncompliance with IAEA safeguards agreements to 
the United Nations Security Council (UNSC) is handled in the most 
effective way possible.
    Every case of noncompliance is unique, and there is no one remedy. 
In some cases, such as the one involving Romania in 1992, it may not be 
necessary for the UNSC to take action other than noting that the 
noncompliance occurred and has been remedied. Even in cases not already 
resolved, there also may be no immediate need for punitive action. For 
example, it may be enough initially for the UNSC to provide support to 
actions being taken by the IAEA to resolve the noncompliance. In the 
toughest cases, those in which the violating state refuses to meet its 
obligations, sanctions may indeed be required to help compel the 
necessary compliance.
    The gravity of noncompliance with the NPT must be addressed and in 
a manner that ensures that noncompliance does not weaken the NPT or 
cause Parties to reassess their security calculations.

NPT 2005 Review Conference
    Many experts have called for re-examination of the ``atoms for 
peace'' philosophy that appears to sit at the heart of the NPT. 
Sometimes called ``the nuclear bargain,'' this thinking states that 
guarantees to the peaceful uses of nuclear energy ought to be provided 
to any state forswearing nuclear weapons under the NPT. Thus, states 
such as Iran argue that they have a ``right'' to fuel-cycle activity 
under the NPT that could lead to a nuclear weapon. The plain terms of 
the NPT, though, seem to suggest that a NNWS can only obtain the 
benefits of the nuclear bargain under Article IV so long as they are in 
conformity with their obligations under Article II.

    Question. Do you believe that the NPT contains a right to fuel-
cycle activities, notably reprocessing of spent fuel and enrichment of 
fresh fuel?

    Answer. No, the Treaty on the Non-Proliferation of Nuclear Weapons 
(NPT) does not create a right to engage in fuel-cycle activities. 
States have a right to develop nuclear energy as a matter of national 
sovereignty. However, non-nuclear-weapon state (NNWS) parties to the 
NPT--such as Iran--have undertaken a legal obligation to pursue only a 
peaceful nuclear program, in conformity with the nonproliferation 
obligations in NPT Article II and, by extension, the safeguards 
obligations in NPT Article III.
    Iran's claims that its extensive, covert fuel-cycle activities, 
including enrichment and reprocessing, are for peaceful, non-weapons 
purposes are belied by the fact that they were not pursued in 
conformity with Iran's Article III commitment, nor, we believe, were 
they in conformity with Article II. The only credible explanation for 
Iran's enrichment and reprocessing programs is that Iran is vigorously 
pursuing a nuclear weapons capability. For nearly two decades, Iran 
procured technology for and developed these programs in secret and in 
violation of the NPT. It deceived the IAEA. Iran's small and nascent 
nuclear research and power programs cannot justify its expensive and 
troublesome nuclear program. In short, Iran cannot credibly argue that 
the right to develop nuclear energy for peaceful purposes extends to 
its program of developing enrichment and reprocessing for clear weapons 
purposes.
    There is no need to reconsider the atoms for peace ``bargain'' of 
the NPT. There is an adequate nuclear fuel supply and compliant NPT 
parties are receiving ample external assistance for their peaceful 
programs. Currently there is no need for new states to establish 
reprocessing or enrichment capacity.
    Parties do need to address the challenge posed by noncompliance 
with NPT nonproliferation obligations and ensure that parties pursue 
peaceful programs in ways fully consistent with the NPT's core 
nonproliferation obligations. Given the nature of the technology, the 
recent record of parties pursuing this technology, and the adequacy of 
the nuclear fuel supply, NPT parties that currently do not have fully 
functioning reprocessing and enrichment plants should not pursue these 
technologies. In keeping with the President's February 2004 initiative, 
we are seeking to persuade other supplier states not to supply such 
technologies to those parties that do not possess fully functioning 
plants, but rather to ensure fuel supply at a reasonable price. In the 
meantime, we should deal promptly with NPT violators that seek these 
technologies, particularly in the pursuit of nuclear weapons.

    Question. Are the challenges posed by the fuel cycle the only 
challenges for the NPT, or are there other areas in which the United 
States might focus attention during the 2005 Review Conference?

    Answer. The fuel cycle is only one part of a broader challenge 
faced by the Treaty on the Non-Proliferation of Nuclear Weapons (NPT) 
and its parties: non-nuclear-weapon state (NNWS) noncompliance with NPT 
nonproliferation obligations. Our principal focus at the Review 
Conference (RevCon) will be on this challenge, and we will cite Iran 
and the DPRK as the most pressing examples. We will urge others to 
recognize the gravity of noncompliance, press all parties to insist on 
full compliance by all parties, and more to strengthen collective tools 
against proliferation.
    In the last two decades four states--the DPRK, Iran, Iraq, and 
Libya--have violated their NPT nonproliferation obligations in an 
effort to produce nuclear weapons. These violations threaten the 
security of all NPT parties. Two of these cases remain unresolved: the 
DPRK and Iran. The RevCon can provide vital political support to 
efforts such as the Six-Party Talks to resolve these cases. The RevCon 
can reaffirm the NPT's contribution to international security, the need 
for strict compliance with all of its provisions, the need for parties 
to address promptly and firmly cases of noncompliance, and the need to 
strengthen the NPT to avert future cases of noncompliance.
    In addition to noncompliance, the RevCon should also consider the 
threat to international security posed by non-state actor interest in 
acquiring nuclear weapons and non-state actor involvement in 
trafficking in nuclear materials, technology, and equipment. We will 
pursue support for the President's February 11, 2004 NDU proposals to 
address these challenges from noncompliance and non-state actors. In 
addition to restraint on enrichment and reprocessing, other key tools 
are the NPT Additional Protocol, the Proliferation Security Initiative, 
implementation of UNSCR 1540, and expansion of the G-8 Global 
Partnership. We will of course be prepared to address the full range of 
issues we anticipate will be discussed at the RevCon.

    Question. Do you believe that the NPT continues to serve the 
interests of the international community, or has it been permanently 
weakened given the events in Iran, North Korea or even South Korea to 
the point of making it irrelevant?

    Answer. The Treaty on the Non-Proliferation of Nuclear Weapons 
(NPT) continues to be of fundamental importance to the interests of the 
international community. The NPT is the cornerstone of the nuclear 
nonproliferation regime and is vital to the national security of its 
parties. It sets the standards by which we define nuclear proliferation 
as a common security threat and provides essential mechanisms to 
respond to that threat.
    The challenge posed by non-nuclear-weapon state (NNWS) 
noncompliance with nonproliferation obligations is unquestionably 
serious, particularly those posed by the unresolved cases of the DPRK 
and Iran. However, the proper response to these challenges is to 
strengthen international resolve to compel compliance, not to devalue 
the Treaty itself.
    The vast majority of NPT parties comply with their obligations. 
Four states relinquished nuclear weapons and adhered to the Treaty as 
NNWS; others relinquished serious nuclear weapons ambitions to do the 
same. As many as 35 to 40 NPT NNWS have the technological capability to 
pursue nuclear weapons but do not because they perceive their security 
interests better protected by a strong NPT. The key challenge for the 
United States and all responsible NPT parties is to ensure that this 
equation does not change. Parties must address current cases of 
noncompliance and work to prevent future cases. Parties must ensure 
that noncompliance does not weaken the NPT or cause parties to reassess 
their security calculations. As part of this effort, the United States 
will urge others to recognize the gravity of noncompliance, press all 
parties to insist on full compliance by all other parties, and move to 
strengthen collective tools against nonproliferation.

Nuclear Suppliers Group Proposals
    The President also proposed that members of the Nuclear Suppliers 
Group (NSG) should refuse to sell uranium enrichment or reprocessing 
equipment or technology to any state that does not already possess 
full-scale, functioning enrichment or reprocessing plants.

    Question. Neither the thirteenth nor fourteenth NSG Plenary 
meetings (at Pusan, South Korea and Goteborg, Sweden) adopted the 
President's proposals. Does the administration intend to continue 
advocating for these ideas in the NSG?

    Answer. We introduced the President's February 2004 proposal for 
blocking the further spread of sensitive enrichment and reprocessing 
technology (ENR) into the NSG's Consultative Group (CG) meeting in 
March and pursued it in the May Goteborg Plenary and in the October 
2004 Consultative Group Meeting. (FYI--The 13th NSG Plenary in Pusan 
referred to in the question took place in May 2003, nine months before 
the President's speech.) The proposal has also been discussed in G-8 
meetings. The G-8 Leaders at Sea Island in June 2004 agreed to put in 
place long-term controls on ENR equipment and technology by their July 
2005 Summit, and in the interim to refrain for the next year from 
transfers involving such equipment and technology to additional states. 
We are continuing to press for the President's original proposal at the 
NSG and in the G-8. Other members have suggested instead establishing 
criteria by which to judge potential ENR transfers. We are discussing 
with partners the possibility of an alternative, criteria-based 
approach which would deny ENR technology or equipment to actual or 
potential proliferators. Thus far, however, we have not identified 
criteria--other than those which the President proposed in February 
2004--which would provide sufficiently strong protections against ENR 
proliferation.

NSG Proposals
    Question. As I noted in correspondence with the administration last 
April, China's entry into the NSG was preceded by its sale to Pakistan 
of two reactors. How do you assess China's record with regard to 
nuclear non-proliferation? Are you in any way concerned with China's 
ability to both control nuclear technology exported to it from the 
United States or other countries as well as enforce necessary export 
controls over dual-use nuclear commerce?

    Answer. President Clinton's 1997 certification to the Congress that 
China ``is not assisting and will not assist any non-nuclear weapon 
state, either directly or indirectly, in acquiring nuclear explosive 
devices or the material and components for such devices'' remains 
valid. China has shown that it is serious in wanting to improve and 
strengthen implementation of its nuclear export control laws and 
regulations, including strengthening its ability to enforce nuclear 
export controls.
    For example, in September 2003, China intercepted a shipment of 
chemicals that could have been used in North Korea's nuclear program. 
Chinese officials repeatedly have emphasized China's opposition to 
nuclear weapons proliferation and support for international nuclear 
nonproliferation efforts, including enhancing the effectiveness of the 
NPT, strengthening IAEA safeguards, and encouraging wider acceptance of 
the Additional Protocol. In fact, China was the first nuclear weapon 
state to bring an Additional Protocol into force. China has supported 
efforts to enhance physical protection of nuclear material and 
strengthen international and national export controls. China has cited 
its establishment of a comprehensive legal system for nuclear, 
chemical, biological and missile export controls in accordance with 
international treaties and Nuclear Suppliers Group (NSG), Australia 
Group, and Missile Technology Control Regime guidelines. At the May 
2004 NSG Plenary, China announced it was adopting dual-use catchall 
provisions and full-scope safeguards as a condition of nuclear supply.
    However, vigilance is clearly required in the area of dual-use 
nuclear commerce where Chinese enforcement against illicit transfers to 
countries of concern remains inadequate. To that end, we have 
repeatedly raised with China the need for rigorous enforcement of its 
export controls to prevent such transfers, and interdict transhipments. 
Problems persist in Chinese export control implementation, enforcement 
and transparency. Exports by Chinese entities to sensitive countries 
continue to be of concern and U.S. statutory sanctions continue to be 
applied against Chinese companies, including sanctions for exports to 
Iran, pursuant to the Iran Nonproliferation Act of 2000. To encourage 
China's movement in the right direction on export controls, we held two 
export control talks with China in 2004, with specific emphasis on 
implementation of nuclear export controls. These talks open 
possibilities for additional U.S.-China technical cooperation on 
enhancing nuclear export controls.

NSPD-19 and Regulatory Issues
    On November 21, 2002, the White House announced details of a 
National Security Presidential Directive (NSPD-19) examining many 
aspects of U.S. defense trade controls law and policy.

    Question. What is your understanding of the status of the 
administration's promulgation of policies I understood to be contained 
in NSPD-19 or when President Bush might sign it?

    Answer. State, Defense, and Commerce concluded their review of 
defense trade issues and held consultations with Congressional staff 
several months ago.
    I believe the measures developed by the agencies are prudent and 
useful, but whether the President will choose to have the measures 
implemented is a matter for his decision.

    Question. What do you understand to be the specific regulatory 
changes associated with the International Traffic in Arms Regulations 
(the ITAR, 22 CFR 120-130) on which some of NSPD-19 bears, and what 
specific changes to the ITAR would you envision being necessary as a 
result of President Bush's potential signature of NSPD-19? Would any 
part of NSPD-19 require amendments to the Arms Export Control Act?

    Answer. Some of the measures recommended by the interagency review 
would require changes to the ITAR, and one would require a change to 
the AECA , but as noted previously, all the agency recommendations are 
a matter for Presidential decision.

    Question. What are the specific problems created by the current 
regulatory environment under the ITAR for allied interoperability, 
controls on U.S. defense articles, services and technical data once 
they are exported, and the 21st century defense industrial global 
marketplace?

    Answer. The ITAR has served its primary objective, which is to 
ensure that exports of U.S defense articles and services support U.S. 
national security and foreign policy interests, and to keep such 
articles and services out of the hands of potential adversaries. The 
licensing process can be cumbersome; many improvements have now been 
made. But we need to pay attention to how we manage 60,000 license 
applications valued at nearly $100 billion in proposed exports each 
year. Overregulation can harm our ability to control sensitive goods 
and support legitimate coalition and alliance efforts.
    Coalition operations in the Global War on Terrorism have reinforced 
the importance of ensuring that our friends and allies have timely 
access to U.S. defense technology in order to fight effectively 
alongside our forces against our common enemies. In addition, rapid 
advances in defense technologies and changes in the U.S. and foreign 
defense industries require us to look for ways to make our laws, 
regulations, and procedures as timely and effective as possible in 
advancing our objectives.

    Question. Will you continue to respect the long-standing practice 
of pre-notification of commercial arms sales to Congress under section 
36 (c) of the Arms Export Control Act (22 USC 2276(c))?

    Answer. The Executive Branch has a strong interest in ensuring U.S. 
arms transfers enjoy the benefit of congressional oversight. We will 
continue to comply with the Congressional notification requirements of 
Sec. 36 of the AECA.
    If confirmed, I intend to work with the Congress to ensure that the 
oversight process promotes effective consultation so that we may better 
understand the Members' perspectives in our management of this 
important defense export function.

    Question. There were multiple changes to the United States 
Munitions List (the USML, 22 CFR Part 121) in both 2003 and 2004. Do 
you envision any additional changes in 2005, either as a part of the 
NSPD-19 process or other administration reviews of the USML? If so, 
which USML categories might be amended?

    Answer. Considerable effort has gone into reviewing the USML since 
2001. Of the 21 categories in the Munitions List, 10 have been revised 
and published in the Federal Register. Eight additional categories are 
completed, near completion or being reviewed by State, Commerce, and 
DOD, so I expect there will be additional changes in the near future. I 
expect this process to continue, as the USML continues to be out of 
date.
    As required by law, removals from the USML will be notified to the 
Congress.

Pakistan: Arms Sales and Policy Linkages
    In November 2004, the State Department notified Congress of three 
Foreign Military Sales (FMS) sales to Pakistan under 36(b) of the Arms 
Export Control Act, ``the Act'', (22 USC 2776(b)). The three sales had 
not received, by long-standing and well-established practice, the pre-
clearance of the majority and minority sides of the Senate Foreign 
Relations Committee. These sales to Pakistan were notified without 
resolution of many issues and questions surrounding arms sales to 
Pakistan during pre-consultations on these cases.

    Question. If you are confirmed to the position of Secretary, your 
Department will coordinate FMS with the Defense Department. Will you 
respect the long-standing practice of pre-notification of FMS to this 
committee?

    Answer. We will continue to comply with the Congressional 
notification requirements contained in the Arms Export Control Act and 
the Foreign Assistance Act.The Executive Branch has a strong interest 
in ensuring that U.S. arms transfers enjoy Congressional support. If 
confirmed as Secretary of State, I intend to work with Congress to 
ensure that these objectives are met.

    Question. What is the administration's overall policy with respect 
to arms sales, government or commercial, to South Asia?

    Answer. The U.S. Government's overall policy for the conduct of 
arms sales, government or commercial, is governed by the Arms Export 
Control Act and the Foreign Assistance Act. These legislative 
parameters are codified by the Conventional Arms Transfer (CAT) Policy 
with the Department of State having been given statutory oversight for 
arms transfers and military export programs. Conventional arms sales 
are a legitimate instrument of U.S. foreign policy, designed and 
implemented to serve U.S. foreign policy and national security 
requirements. To this end, defense trade with the countries of South 
Asia is consistent with existing conventional arms transfer policy.
    With the lifting of sanctions against India and Pakistan in 2002, 
the Department has applied the CAT policy with rigor and deliberation 
to all countries of South Asia. Arms sales, particularly commercial 
licenses, have increased significantly over the past three years. The 
Department applies the rigor required of the CAT policy to all arms 
sales in order to ensure U.S. national security interests are being 
served and that regional stability factors are duly weighed. 
Utilization of Foreign Military Sales (government-to-government arms 
sales) has not yet reached its potential. Increased Foreign Military 
Financing (FMF) to Pakistan, and continuity of message to the 
Government of India will help achieve greater reliance on government-
to-government arms sales in the coming years.
    We are mindful of the importance of not fueling a potentially 
destabilizing arms race between India and Pakistan. That said, both 
countries have legitimate defense needs. U.S. defense sales are a means 
of helping them address those needs in a way that is consistent with 
our foreign policy objectives.

    Question. I have read many reports with respect to the potential 
sale to Pakistan of FMS under F-16's. Should the sale, particularly if 
it is financed by the U.S. taxpayer, be conditioned on greater access 
by U.S. officials to A.Q. Khan and increased efforts by the Pakistan 
Government to counter all forms of terrorism emanating from its 
territory, especially given the potential regional repercussions of 
such a sale?

    Answer. Pakistan sent the U.S. government a Letter of Request for 
18 Block 50 F-16 aircraft in July 2004. The administration has not made 
a final decision on Pakistan's request. We will continue to consult 
closely with Congress on this matter.
    Since July, Pakistan has made substantial progress in the war on 
terror, has acted decisively to shut down A.Q. Khan's proliferation 
activities, and has pursued peace with India. The GoP has raised the 
issue of F-16s with us on a number of occasions. It is a conversation 
we will continue to have. If confirmed, I will of course be available 
to address questions of this kind with the committee, perhaps in a 
closed session.

    Question. Public press reports indicate that Pakistan and Iran have 
completed a formal defense cooperation agreement. Does such cooperation 
increase any concerns you may have with respect to Pakistan's ability 
to keep sensitive U.S. arms and technology out of the hands of state 
sponsors of terror, namely Iran?

    Answer. Pakistan and Iran share a common border and maintain 
correct relations. The administration is aware of discussions and 
agreements between Pakistan and Iran on defense-related matters.
    In August 2004, Jane's Defense Weekly reported that Iran's DefMin 
Ali Shamkhani and GoP acting DefMin Haid Nawaz Khan signed an MOU 
expanding defense ties and setting up a joint commission for defense 
cooperation. It remains unclear whether the August visit and subsequent 
MOU will lead to a significant increase in Pakistani-Iranian defense 
trade.
    We have expressed our concerns about this issue to the Government 
of Pakistan on multiple occasions. On August 19, 2004, the South Asia 
Bureau stressed to officials of the Ministry of Foreign Affairs and the 
Ministry of Defense the comprehensiveness of USG law and policy on 
diversions of U.S.-licensed equipment and technology to third parties 
and access by third parties to the equipment and technology. The 
Assistant Secretary of the Political-Military Bureau reinforced these 
points with MFA officials in Islamabad at the end of August.
    In our discussions, we have made clear the potential implications 
for U.S.-Pakistan relations of defense-related cooperation between 
Pakistan and Iran. Subsequently, those discussions were relayed to your 
staffs. It is also worth noting that Iran has also pursued closer 
defense ties with India simultaneously, even engaging in joint naval 
maneuvers. Iran is looking for allies to break out of its strategic 
isolation and Pakistan is one of several countries with which Iran is 
engaged. We will continue to monitor this issue. If confirmed, I will 
of course be available to address questions of this kind with the 
committee, perhaps in a closed session.

    Question. Do you know of any past cases of transfers from Pakistan 
to other countries of U.S. defense items which could result in 
sanctions for illegal transfers of lethal military equipment (LME)?

    Answer. Any discussion on this topic will have to be classified. If 
confirmed, I will of course be available to address questions of this 
kind with the committee, perhaps in a closed session.

RD-180: Goals and Policy
    Commercial space launch vehicle cooperation with Russian entities 
has been seen as a means of preventing the diversion of ballistic 
missile technical knowledge and equipment to rogue states such as Iran 
or North Korea and achieving a domestic production capability for 
advanced and unique Russian systems.
    Until 2004, the State Department had continued licensed cooperation 
with NPO-Energomash for co-production of the RD-180 engine under a 
contract with United Technologies Corporation. Pratt and Whitney and 
Lockheed Martin on a limited basis. In 2004, the Department submitted 
four licenses to the Senate Foreign Relations Committee, three of 
which, (DTC 018-04, 019-04 and 020-04) were authorizations that 
extended the validity of these licenses beyond the annual duration 
under which they had been previously notified. A subsequent 
authorization DTC 086-04, was received by the committee in the later 
part of 2004. All of these licenses were approved on the understanding 
that the goal of these arrangements was to achieve a U.S. production 
capability for the RD-180 and prevent proliferation of this technology. 
Yet, Russian ballistic missile proliferation appears to have continued, 
as the Central Intelligence Agency's most recent Unclassified Report to 
Congress on the Acquisition of Technology Relating to Weapons of Mass 
Destruction and Advanced Conventional Munitions, 1 July Through 31 
December 2003, notes.

    Question. What is your understanding of U.S. goals and policy with 
respect to licenses for the RD-180, both with regard to a timeframe for 
domestic U.S. production and whether this licensing arrangement has, in 
fact, served U.S. non-proliferation concerns in Russia?

    Answer. Industry-to-industry contact can be an effective 
nonproliferation tool. We have repeatedly made the point to Russia that 
it is important that the Russian aerospace industry not assist missile 
programs in problem countries if it wants to enjoy the benefits of 
space cooperation with the United States. Export arrangements for the 
RD-180 program have been scrutinized at the highest levels of the 
Department to ensure that the progress of the program has been in line 
with our nonproliferation objectives.
    According to United Technologies, the current contract phase will 
allow for the building of critical engine components and establishment 
of a capability to produce such systems in the United States. It is 
currently estimated that a co-production facility in the United States 
will be completed in 2007.

    Question. How do you assess Russia's ballistic missile 
proliferation, both with regard to steps the Russian Government has 
undertaken to prevent such proliferation and its failures to prevent it 
(as can be inferred from the latest CIA report to Congress)?

    Answer. We continue to have concerns about the Iranian missile 
program and its efforts to acquire missile technology from Russian 
sources.
    We use every opportunity to make our concerns known to the Russian 
Government, to urge Russia to cut-off the flow of sensitive items to 
Iran, and continue to use the leverage afforded by U.S. space launch 
cooperation to seek better Russian controls.
    As a result, Russia has taken some steps to address the problem of 
Russian supply to Iran's missile program, including implementation of 
strengthened export control laws and enforcement.
    But we remain concerned that Russia has not done enough to thwart 
Iranian missile-related procurement. Russia's enforcement efforts 
remain inadequate, and the Iranian missile program continues to have 
access to missile-related technologies from Russian entities.

Museum Project
    Question. The Department has set aside a space and promised to 
provide staff and security if private funds are raised for exhibits for 
the planned national museum of American diplomacy. What is the status 
of this project? Will it be completed during your tenure?

    Answer. The Department shares with the Congress, the White House 
and other Federal institutions a commitment to make the work of our 
government more accessible to the American people. As with the Capitol 
Visitor Center, the Department's Visitor Center and Museum of American 
Diplomacy will provide an engaging place where citizens can come to 
learn how diplomacy was crucial in shaping our nation and how the work 
of the Department affects the lives of all Americans every day. Only an 
informed public will lend us their full support.
    Working closely with our non-profit partner, the Foreign Affairs 
Museum Council, the Department has laid the groundwork for this project 
by creating a design concept that will draw visitors to the Department; 
finalizing a fundraising strategy that will ensure adequate private 
sector support; and creating an office, the United States Diplomacy 
Center, to oversee and manage the project. The Foreign Affairs Museum 
Council will assist in raising $25 million in private funds for design 
and fabrication of the exhibitions and has already raised over $1.2 
million to support the design effort
    This project began as a Department exhibit, expanding to its future 
18,000-square-foot location within the Harry S Truman Building as its 
potential as a public resource was realized. The three immediate 
preceding Secretaries of State have supported the project and all 
living former Secretaries of State are Honorary Directors of the 
Foreign Affairs Museum Council. The Chairman of the Board of Directors 
is Senator Charles McC. Mathias and Ambassador Stephen Low serves as 
President. Senator Sarbanes is also on the Board of Directors.
    The Visitor Center and Museum of American Diplomacy will operate in 
conjunction with an adjacent, publicly accessible conference center and 
auditorium at the Department's 21st Street entrance. Together, the two 
will provide programs and events that enhance the Department's public 
outreach efforts.
    The United States Diplomacy Center is working closely with the 
Bureaus of administration and Diplomatic Security to address safety and 
security concerns. Visitors to the centers will pass through an 
exterior security pavilion with x-ray and magnetometer screening 
devices. Both centers will be outside the security hard line.

Global Environment Facility
    Question. Since 1994, the United States has been part of the Global 
Environmental Facility (GEF). The GEF has committed $4.2 billion in 
grants, and leveraged $11 billion in additional financing for more than 
1,000 sustainable development projects in 160 countries. The U.S. is 
behind in its dues by $139.8 million. Our dues for FY05 are $177 
million.
    Is the administration committed to supporting the GEF, correcting 
our arrears, and paying our dues this year on time?

    Answer. The United States remains committed to supporting the GEF. 
The U.S. is the largest contributor to this important fund, whose 
projects have resulted in significant environmental and development 
benefits in over 160 countries.
    The United States pledged $107.5 million per year for each of the 
four years of the 2003-2006 GEF replenishment period, in exchange for 
the GEF adopting specific reforms, including the adoption of a 
performance allocation system, by the end of the replenishment period. 
We volunteered to seek an additional $70 million if the reforms were in 
place by November 2004, which unfortunately did not occur. In addition, 
we committed to seek additional contributions to pay off earlier U.S. 
arrears during this same period.
    We will continue to work with the Congress to ensure that the GEF 
successfully meets its objectives under the 3rd replenishment 
agreement, particularly those concerning performance and transparency. 
Although the administration sought a total of $153 million in arrears 
in fiscal years 2003 to 2005, Congress only provided $65 million over 
these three years. So it is clear that it will take longer to pay off 
arrears than originally anticipated.
    Over the past three years, the United States has actively pressed 
for significant improvements in the GEF's operations. As part of the 
2003-2006 replenishment deal, the GEF agreed to establish a transparent 
performance-based allocation system to ensure effective use of 
assistance funds.
    While some very real improvements have been made in the GEF as a 
result of U.S. initiatives, we are concerned that this performance-
based allocation program has not yet been put in place. The progress 
made in implementing this program could be a factor in decisions on 
future U.S. contributions.

India-Pakistan Dialogue
    Question. The U.S. has played an important role over the last two 
years in getting India and Pakistan back to the negotiating table. How 
can the U.S. most effectively use the strong ties we have developed 
with both sides to encourage further progress on the India-Pakistan 
dialogue?

    Answer. We welcome the positive developments in relations between 
India and Pakistan. The agreement last January to resume a wide ranging 
dialogue, with the objective of reaching a peaceful settlement on all 
bilateral issues including Kashmir, was a real breakthrough. The 
efforts that have been made by both governments since then to move the 
Composite Dialogue forward are encouraging.
    The conflict between India and Pakistan has deep roots. Ultimately, 
it will be up to both countries to resolve their differences. They must 
make the determination to accept the dictates of geography and 
recognize that there is no alternative to getting along with their 
neighbor. The decision to enter into a dialogue and their success in 
sustaining it throughout 2004 is testament to the fact that a desire 
for peace is growing in both nations. Our aim is to develop strong, 
separate relationships with India and Pakistan. I think we are 
succeeding, and we were able to put those good relationships to use 
during our efforts to reduce tensions in the region when they have 
flared during the last few years.
    U.S. efforts to encourage the Indo-Pak peace process--some public, 
some private--are centered on nudging both countries to sustain 
dialogue and positive engagement. While we strongly support the 
dialogue process, we do not see ourselves as mediators or taking a 
direct role. We stand ready to provide any assistance requested by both 
sides.

Pakistan: Cutting Off Support for Kashmiri Militancy
    Question. U.S. officials in the past have said that we cannot push 
the Musharraf government too hard on the issue of cutting support to 
Kashmiri militants because of the myriad other issues on our agenda 
with Pakistan and out of concern that we might contribute to 
destabilizing his regime by asking him take on too many vested interest 
at once. However, many of the Pakistan-based militants training to 
fight in Kashmir have links to international terrorists, including 
those that target U.S. personnel in Afghanistan. How do we plan to work 
with the Musharraf government to ensure all official support 
(financing, training, and other) to Pakistan-based militancy is halted?

    Answer. The U.S. Government is concerned about the activities of 
Kashmiri militant groups. We have repeatedly made clear to the 
Pakistani Government that it must continue its efforts to close all 
Kashmiri militant training camps and halt all militant infiltration 
across Kashmir's Line of Control (LOC). The Pakistani Government has 
formally banned several major extremist organizations, including 
Kashmiri militant groups, and has prohibited donations to these groups. 
We look forward to working with Pakistan and the international 
community at large to intensify the effort to cut off money flows to 
these groups.

Pakistan: Support for President Musharraf
    Question. The U.S. has taken a fairly neutral position on the issue 
of Musharraf maintaining his dual role as President and Chief of Army 
Staff, leading many U.S. observers, as well as Pakistanis, to criticize 
U.S. policy as being too ``Musharraf-centric.'' How do you react to 
this criticism? How can we continue to encourage real progress on 
democracy in Pakistan over the next few years?

    Answer. The U.S. Government is committed to a long-term 
relationship with Pakistan that goes beyond individuals. Pakistan's 
transition to a sustainable democracy with strong democratic 
institutions is among our top policy goals in Pakistan. We regularly 
impress upon our interlocutors in the Pakistani Government the need to 
continue to make progress on democratization, including holding free 
and fair multi-party elections in 2007, as scheduled.
    The U.S. Government is assisting Pakistan's own democratization 
efforts through USG-funded programs aimed at making Pakistani democracy 
more participatory, representative, and accountable. This includes 
strengthening national and provincial legislatures, political parties, 
NGO's, and independent media.

North Korea
    Question. North Korea continues to insist on a ``security 
guarantee'' from the United States. Under what conditions is such a 
guarantee possible, and how would it be structured?

    Answer. The proposal that we tabled at the last round of Six-Party 
Talks, in June 2004, included the provision of a multilateral security 
assurance if the North were to commit to dismantle its nuclear programs 
in a permanent, transparent and thorough manner, subject to effective 
verification, and begin taking the steps we outlined in our proposal to 
commence the dismantlement process.
    As we told the North in our proposal, upon acceptance of the DPRK's 
initial declaration of its nuclear programs, and while it verifiably 
undertakes the initial dismantlement steps outlined in our proposal, 
the parties would provide provisional multilateral security assurances, 
which would become more enduring as the process proceeded. These would 
include assurances that no party had any intention to invade or attack 
another, as well as a commitment on the part of all parties to respect 
the territorial integrity of others.
    We have made clear to North Korea and all of the members of the 
Six-Party process that the U.S. will not provide a bilateral security 
assurance to the North. As North Korea's pursuit of nuclear weapons is 
a multilateral concern, the U.S. will participate in only a 
multilateral security assurance. President Bush has, however, made 
clear that the United States has no intention of invading or attacking 
North Korea.

U.S.-China Relations
    Question. Several East Asian leaders have expressed frustration to 
committee Members over what they view as mixed messages from the 
Executive branch on the cross-Strait issue involving China and Taiwan. 
Could you explain our nation's ``One-China'' policy? Is it your 
understanding President Bush intends to continue this approach? Under 
what circumstances would the U.S. come to the assistance of Taiwan in 
case of attack?

    Answer. President Bush remains committed to our One-China Policy 
based on the three Joint Communiques and on the Taiwan Relations Act.
    Our establishment of diplomatic relations with the People's 
Republic of China rests upon the expectation that the future of Taiwan 
will be determined by peaceful means. We oppose unilateral moves by 
either side to change the status quo.
    To this end, we make available to Taiwan arms of a defensive 
character, and we maintain the capacity of the United States to resist 
any resort to force or other forms of coercion that would jeopardize 
the security, or the social or economic system, of the people on 
Taiwan.
    We consider any effort to determine the future of Taiwan by other 
than peaceful means, including by boycotts or embargoes, to be a threat 
to the peace and of grave concern to the United States.
    The President will promptly inform the Congress of any threat to 
the security or the social or economic system of the people on Taiwan. 
The President and the Congress would then decide on appropriate action 
by the United States in response to any such danger.


    Question. During your visit to Beijing in July 2004, what areas of 
agreement and disagreement did you find concerning U.S. and PRC 
information on North Korean nuclear weapon programs? Has China shared 
any information on Pakistani scientist A. Q. Khan's nuclear sales? How 
might China be more helpful in using its ``considerable influence with 
North Korea?''

    Answer. We have briefed our Six-Party partners on our assessment of 
North Korea's nuclear programs, including its uranium enrichment 
program. The evidence we have supports that assessment.
    We continue to have close consultations with all of our Six-Party 
partners, including China, on the nuclear issue. Our allies and other 
partners in the Six-Party talks share our concerns about North Korea's 
possession of nuclear weapons.
    As coordinator and host of the Six-Party talks, China has been 
active in all aspects of the Talks, including working groups and formal 
plenary discussions, as well as during the intervals between plenary 
sessions. We have encouraged China to be an active participant, and not 
just a mediator in the Six-Party talks.
    We also told China that they must work harder at convincing North 
Korea's Kim Chong-il that North Korea must return to the Six-Party 
talks and must commit to the dismantlement of their entire nuclear 
program, to include their uranium enrichment program--which North Korea 
continues to deny having
    There is a concerted, worldwide investigation into the A.Q. Khan 
proliferation network. China supports the international community's 
efforts to shut down the network.


    Question. China is rapidly accelerating its diplomatic and business 
ties to Southeast Asia. Whether to locate necessary resources to meet 
growing energy demands or to increase cooperation in agricultural trade 
and economic development, China is aggressively reaching out to ASEAN. 
Recently agreement was reached to pursue the China-ASEAN Free Trade 
Zone. How will such economic ties impact U.S. security and trade 
interests in the region?

    Answer. China's outreach to ASEAN has indeed accelerated in recent 
years. The outreach takes the primary form of economic engagement, a 
fact that has political and strategic implications for the United 
States. Nevertheless, the United States continues to be a major player 
in the economy of the Asia-Pacific region, and U.S. ties with ASEAN are 
strong and growing stronger.
    China's recent outreach has included the November 2004 ``early 
tariff reduction agreement'' between China and ASEAN countries, which 
will begin reducing duties in mid-2005, prior to the projected 2010 
conclusion of the China-ASEAN Free Trade Area.
    Countries in Asia increasingly view Beijing as a positive economic 
force in the region. For example, Beijing pledged more than $20 million 
to support work in agriculture, information technology, education and 
Mekong River Basin Development under the China-ASEAN Free Trade 
Agreement. Because final processing of goods has generally migrated to 
China in recent years, ASEAN enjoys a significant trade surplus with 
China.
    Nonetheless, the strength of the U.S. economy means we will remain 
a top trading partner for most Asian nations. China's free trade 
agreements with other Asian economies are unlikely to dramatically 
reduce that dominance. The United States has over $120 billion in trade 
annually with ASEAN countries. Over time, development in China and 
other Asian countries might enable them to compete more aggressively 
with us in high-tech and service sectors. We will work hard to ensure 
that competition with China and other rising economies takes place 
within the context of a rules-based system. We are working to 
strengthen U.S.-ASEAN relations through the President's Enterprise for 
ASEAN Initiative, which focuses on improving trade ties, and the ASEAN 
Cooperation Plan, which supports cooperative programs, including in the 
economic area.
    More broadly, we will continue strong economic engagement in Asia, 
working with our long-term partners, South Korea and Japan, and 
strengthening regional fora such as the Asia Pacific Economic 
Cooperation (APEC) forum.

Broader Latin America
    Question. How would you define success with Latin America at the 
end of your tenure?

    Answer. Thirty-three of our thirty-four neighbors in the Western 
Hemisphere enjoy the benefits of democratic government. Most share a 
commitment to free market principles.
    One of the key goals of the Bush administration is consolidation of 
democratic rule in our hemisphere. Hopefully, that will include a 
peaceful transition to democracy in Cuba in the near future.
    The administration's strategy for the Western Hemisphere is built 
on secure borders and commitments to democracy, free markets and 
economic integration. True success will be the extension of economic 
opportunity to all citizens of the Western Hemisphere, working to 
liberate millions more from the tyranny of poverty, inadequate 
education and crime.

    Question. How can we best reverse negative public opinion in the 
region toward the United States? Do we need a change in our policies 
toward the region or is it a problem of communication?

    Answer. Press reports to the contrary, mid-2004 polls show the U.S. 
is well respected in most countries in the region. Majorities in 12 of 
17 countries polled hold a good image of the United States. Majorities 
of two-thirds or more in 13 countries see good ties between their 
country and the United States. Citizens of Central America, Panama, 
Colombia, Ecuador and Peru hold the most positive opinions of the U.S. 
Six in ten Mexicans have a positive image of the U.S., and two-thirds 
assess bilateral relations as good.
    We will build on these good relations by expanding our outreach 
efforts, including educational, press, and economic exchanges, 
throughout the hemisphere. We will continue to counter negative claims 
by the Cuban and Venezuelan governments and highlight the USG's 
sustained efforts to improve the lives of millions in the hemisphere.

    Question. Could you list in order of importance challenges facing 
U.S. interests in the region?

    Answer. Our challenges in the Western Hemisphere include:

  <bullet> Securing our borders by developing capacity for governments 
        to exercise effective sovereignty and provide basic security 
        over their territories.

  <bullet> Strengthening democratic institutions by promoting 
        representative, constitutional government as the only 
        legitimate form of political organization in our hemisphere.

  <bullet> Ensuring economic opportunity by bringing economic benefits 
        to all, not just the rich or powerful.

  <bullet> Investing in people by fomenting policies and programs to 
        allow all citizens a ``share'' of prosperity and quality of 
        life.

    President Bush's strategy and vision for the hemisphere provides 
the roadmap for responding to these challenges and achieving full 
implementation of the economic and social reforms needed to deliver the 
benefits of democracy to all citizens of this hemisphere.

North American Border Security
    Question. What progress has been made in implementing ``Smart 
Border Declaration'' agreements with Canada and with Mexico? What other 
policies are being implemented to improve hemispheric border security? 
What will you do during your tenure to gain improved cooperation with 
Mexico and Canada on border security?

    Answer. The Smart Border Partnership Action Plans continue to be 
the framework for United States border security cooperation with Canada 
and Mexico.
    The United States is pleased with Mexican and Canadian cooperation 
under these Plans. Through Congressional authorization, we have 
provided assistance to Mexico to strengthen border controls, such as:

  <bullet> 13 state-of-the-art inspection (VACIS) systems in Mexican 
        customs facilities, and mobile X-Ray inspection units in some 
        Mexican cities.

  <bullet> Expansion of a secure electronic network for Travelers' 
        Rapid Inspection lanes.

  <bullet> Training for over 350 Mexican officials on border safety 
        issues.

    If I am confirmed, I will continue our collaborative efforts under 
existing plans while seeking opportunities for new initiatives to 
further border security in hemisphere.
    Unilateral United States programs, such as US-VISIT and passport 
requirements for American citizens, further improve hemispheric 
security.
    Beyond our collaboration with Mexico and Canada on contiguous 
border security, we work in multilateral fora, including the 
Organization of American States Inter-American Committee Against 
Terrorism (CICTE), and with regional partners. Examples of such 
cooperation include:

  <bullet> President Bush's Third Border Initiative to focus attention, 
        including security upgrades, on our border with the nations of 
        the Caribbean Basin.

  <bullet> In Central America, the United States supports a variety of 
        anti-smuggling initiatives, including the Container Freight 
        Tracking System.

  <bullet> Our on-going ``3+1'' Counterterrorism Dialogue with 
        Paraguay, Brazil and Argentina has made significant steps to 
        enhance border security and build counterterrorism finance 
        capacity in that region.

    Question. Though the ``Smart Border'' declarations with Mexico and 
Canada further enhance the security of the borders and the flow of 
commerce, these agreements are largely dependent on current government-
to-government relations. There is no legal framework within which to 
implement these agreements. Under your leadership, what will the 
Department do to create an institutional framework to deal with 
hemispheric border security? Given that Guatemala is the southern 
border to the NAFTA space, should Guatemala be included?

    Answer. Agreements, letters of intent, statements of mutual 
understanding, and other arrangements that have been developed in the 
past several years shape our security cooperation with Mexico and 
Canada.
    With Canada, the Smart Border Accord is the framework. The Canadian 
Preclearance Act provides authority for U.S. border inspectors working 
in Canada. In Mexico, the 22-Point Border Partnership Action Plan, 
signed in 2002, provides a framework. Letters of agreement with Mexico 
have been negotiated for the use of Congressionally-authorized funds to 
improve border security.
    The U.S.-Mexico Binational Commission, which has met annually for 
23 years, includes cabinet-level bi-national discussion of border 
security and cooperation.
    The U.S.-Canada Cross-Border Crime Forum provides similar 
opportunity for senior officials of our countries to review security 
efforts.
    The United States has a multifaceted law enforcement program with 
Guatemala, including enhancement of border ports of entry. The work is 
part of a larger Central American regional program to improve border 
controls. The Government of Mexico actively cooperates with the 
Government of Guatemala to combat smuggling and other threats along the 
Mexico/Guatemala border.

Venezuela
    Question. Has the administration drawn up contingency plans in the 
event of another suspension of oil exports from Venezuela? Should 
arrangements be made with other regional oil producers to replace a 
Venezuelan shortfall? What other contingency plans should be made?

    Answer. The United States and Venezuela have traditionally enjoyed 
a strong, mutually beneficial energy relationship. Venezuela is among 
the largest suppliers of petroleum to the United States. The United 
States is the single largest destination for Venezuelan oil.
    We strongly believe this energy relationship remains in the 
national interests of both countries.
    As outlined in our National Energy Policy, we are constantly 
working to enhance our energy security through promoting increasing 
diversity of global energy suppliers.

    Question. How can the United States press for Venezuelan adherence 
to democratic standards without appearing to interfere in Venezuelan 
affairs?

    Answer. Pressing for adherence to democratic standards is not 
interference in the internal affairs of another country. It is the 
right thing to do. As a signatory to the Inter-American Democratic 
Charter and other instruments, Venezuela must honor its commitments to 
uphold democracy, human rights and the rule of law. We are increasingly 
concerned about the continued deterioration of democratic 
institutions--unchecked concentration of power in the executive, 
politicization of the judiciary and increased threats to basic 
democratic and civil rights.
    We are working with our hemispheric and international partners and 
the Organization of American States to help strengthen democracy in 
Venezuela. We continue to press the Venezuelan government to honor its 
constitutional and international commitments to democracy, human 
rights, and the rule of law. Additionally, we continue to engage civil 
society and democratic nations that share our values and concerns.
    In August 2002, the United States Agency for International 
Development established the ``Venezuela Confidence Building 
Initiative'' to strengthen the country's fragile democratic 
institutions by working with independent organizations to facilitate 
and enhance dialogue and support constitutional processes. We will 
continue to look for ways to enhance our support to democratic 
institutions in Venezuela and elsewhere. Support for democracy is a 
cornerstone of President Bush's foreign policy.

    Question. Currently the level of our direct engagement with the 
Venezuelan government is through our ambassador in Caracas. Do you 
intend to elevate this level of contact?

    Answer. Our two countries traditionally have enjoyed close, 
friendly relations based on shared democratic values. We lament this 
historic relationship has deteriorated due to the actions and rhetoric 
of the Government of Venezuela (GOV).
    Our relations are conducted in Caracas through our Ambassador and 
in Washington between the Department of State and the Venezuelan 
ambassador to the United States. In June, we accepted a GOV proposal 
for a bilateral working group. Although the GOV informed us of the 
intention to send two special representatives to Washington to explore 
the idea, the Venezuelan government never followed through.
    Our Ambassador has been in Caracas for nearly five months and has 
only been granted a handful of meetings with Venezuelan officials in 
Caracas. Regrettably, the actions of the Government of Venezuela do not 
appear to indicate a desire to improve bilateral relations.

                               __________

           Responses to Questions for the Record Submitted by
                      Senator Joseph R. Biden, Jr.

Tenure as National Security Adviser
    Question. Section 108 of the National Security Act requires 
submission to Congress of a ``national security strategy report'' on an 
annual basis. Such a strategy report is also required within 150 days 
after a new President takes office. During this administration, this 
report has been submitted to the Congress only once, in September 2002. 
As Assistant to the President for National Security Affairs, is it not 
your responsibility to assure the preparation and submission of this 
report? Why has the administration failed to comply with this legal 
requirement?

    Answer. Unlike previous national security strategies, President 
Bush's National Security Strategy of September 2002 was meant to be an 
enduring document, one that would last for more than a year. 
Significant time and resources were dedicated to producing a 
comprehensive strategic document that would reflect the President's 
vision and his specific priorities and initiatives to protect our 
national security over the next several years and beyond. It was a top 
down document that required Principals' time and that of the President. 
We have reviewed the September 2002 strategy during each of the last 
two years and believe that it remains valid today. I regret, however, 
that we did not communicate this conclusion to Congress. The 
administration plans to update the strategy to take account of 
significant developments since its publication, including the war in 
Iraq, and to submit an update to Congress this year.
    In the last six months of 2004, you gave 11 public speeches, nine 
of which were delivered in states that were considered important 
``battlegrounds'' in the 2004 presidential election, including Oregon, 
Washington, North Carolina, Ohio, Pennsylvania, Michigan and Florida.

    Question. (a). Please comment on why you believe it was appropriate 
to deliver these speeches in such ``battleground'' states during the 
presidential campaign period. Why did you not have a concern that these 
appearances--inasmuch as all of them (but one) occurred after the 
Democratic and Republican national conventions and prior to Election 
Day--might be construed as partisan political activity?

    (b). Do you agree that, as Secretary of State, you should abstain 
from activities that might be construed as partisan political activity?

    Answer. By tradition and custom, the National Security Advisor does 
not actively participate in public campaign or political events, and I 
have continued that tradition. However, I do not believe that this 
means being non-accessible. At a period in U.S. history when national 
security has been very much on the minds of the American people, I have 
found it important, throughout my tenure as National Security Advisor, 
to discuss the President's national security policies in public 
speeches . It is also important to me to make myself accessible not 
just in Washington but to citizens in their communities and to local 
reporters. Because of concerns expressed by some members of Congress, I 
understand that all of my speeches in 2004 were reviewed by the Office 
of Special Counsel, which concluded that they were standard policy 
speeches that did not involve partisan political activity or 
campaigning. If confirmed as Secretary of State, I intend to continue 
the tradition in that position of not actively participating in public 
campaign or political events.

9/11 Attacks
    Question. Looking back at the period between January 20, 2001 and 
September 11, 2001, do you believe there is anything you should or 
could have done differently to assist the President to try to prevent 
the 9/11 attacks?

    Answer. I believe that we did everything that was appropriate and 
possible at the time to protect the American people and our interests 
from terrorist attacks. I do not believe there was a single ``silver 
bullet'' that could have prevented the 9/11 attacks. As I said during 
my testimony before the 9/11 Commission, ``In hindsight, if anything 
might have helped stop 9/11, it would have been better information 
about threats inside the United States, something made difficult by 
structural and legal impediments that prevented the collection and 
sharing of information by our law enforcement and intelligence 
agencies.'' This view is shared by the 9/11 Commission, which found 
that government institutions failed to adapt to the threat of 
terrorism, enabling the terrorists to exploit ``deep institutional 
failings within our government'' caused by a variety of factors 
spanning many years, many departments, and multiple administrations.
    On July 13, 2001, you gave a speech at the National Press Club. You 
indicated that mid-July was ``as good a time as any to start making 
some observations on how [the administration was] doing.'' The speech 
started by listing the President's priorities, and then reviewed some 
of these priorities, such as relations with Europe and Africa, and 
missile defense. A noticeable omission was the subject of terrorism, 
which was mentioned only as a challenge that faced Africa. The report 
of the 9/11 Commission indicates there was a significant level of 
threat reporting in the immediate period before your speech (see, e.g., 
p. 257--``Threat reports surged in June and July, reaching an even 
higher peak of urgency'').

    Question. Given the ongoing level of threat reporting, why was the 
threat of terrorism against the United States and U.S. interests not 
considered a priority meriting substantive discussion in this address?

    Answer. Counterterrorism was--and continues to be--a high priority 
for President Bush. After he took office, President Bush retained 
George Tenet as Director of Central Intelligence and Louis Freeh as 
Director of the FBI; I retained Dick Clarke and the entire Clinton 
administration's counterterrorism staff at the NSC. We quickly moved to 
develop a new and comprehensive strategy to eliminate the al-Qaeda 
terrorist network, which was approved on September 4, 2001, and was the 
first major national security policy directive of the Bush 
administration. While we were developing this new strategy to deal with 
al-Qaeda, we also took action on a number of specific anti-al-Qaeda 
initiatives that had been proposed by Dick Clarke, and worked hard on 
multiple fronts to detect, prevent, and protect against terrorist 
activities. I did not address the subject in this speech because we had 
not yet concluded the policy review.

    Question. The 9/11 Commission reported that ``no Principals 
committee meetings on al Qaeda was held until September 4, 2001,'' 
although there were 32 such meetings on other subjects prior September 
11, 2001. At the September 4 meeting, the Principals Committee approved 
a draft presidential directive on al Qaeda. Why did it take over 7 
months to convene a Principals Committee meeting on this subject, and 
to approve a strategy on al Qaeda?

    Answer. The Deputies and department/agency staffs worked intensely 
on developing this new National Security Presidential Directive (NSPD) 
beginning in March 2001. The development of a new, comprehensive, and 
aggressive al-Qaeda strategy was exceptionally fast, especially given 
the time required for the Senate to confirm key principals and 
deputies, the complexities involved in orchestrating all aspects of our 
national power, other pressing issues, and the activities attendant to 
the start of a new administration. While the NSPD was approved by the 
Principals Committee on September 4, it is important to note the 
strategy development process was completely different from the on-going 
process of identifying and responding to specific threats, which 
occurred throughout 2001 and was not contingent upon the Principals' 
approval of the NSPD.

Iraq and Pre-War Intelligence
    On January 28, 2004, David Kay stated to the Senate Committee on 
Armed Services that ``we were almost all wrong'' about the judgment 
that Iraq possessed weapons of mass destruction before March 2002.

    Question. (a). Do you agree with Dr. Kay's statement? Please 
elaborate.

    (b). Do you believe the President was well-served by the 
Intelligence Community and by the NSC staff in the preparation and 
presentation of pre-war intelligence on Iraq's weapons of mass 
destruction programs? Please elaborate.

    Answer. I believe that the matter is more complicated than Dr. 
Kay's five word characterization. I agree with Charles Duelfer's 
conclusion that:

          Saddam continued to see the utility of WMD. He explained that 
        he purposely gave an ambiguous impression about possession as a 
        deterrent to Iran. He gave explicit direction to maintain the 
        intellectual capabilities. As UN sanctions eroded there was a 
        concomitant expansion of activities that could support full WMD 
        reactivation. He directed that ballistic missile work continue 
        that would support long-range missile development. Virtually no 
        senior Iraqi believed that Saddam had forsaken WMD forever. 
        Evidence suggests that, as resources became available and the 
        constraints of sanctions decayed, there was a direct expansion 
        of activity that would have had the effect of supporting future 
        WMD reconstitution. Comprehensive Report of the Special Advisor 
        to the DCI on Iraq's WMD, September 30, 2004, Vol. I, p. 9.

    In ordering the creation of the Commission on the Intelligence 
Capabilities of the United States Regarding Weapons of Mass 
Destruction, the President has shown his determination to ensure that 
we have the very best intelligence possible on this critical issue.

Aluminum Tubes
    In an interview with CNN on September 8, 2002, you stated that Iraq 
was importing aluminum tubes that ``are only really suited for nuclear 
weapons programs, centrifuge programs.'' The report of the Senate 
Select Committee on Intelligence (``Report on the U.S. Intelligence 
Community's Prewar Intelligence Assessments on Iraq,'' July 7, 2004) 
indicates that there was considerable debate in the intelligence 
community for nearly a year and a half before September 2002 about the 
utility of the aluminum tubes. On September 12, 2002, in his address to 
the United Nations General Assembly, the President stated that ``Iraq 
has made several attempts to buy high-strength aluminum tubes used to 
enrich uranium for a nuclear weapon.''

    Question. Were you aware of this debate when you made this 
assertion about the aluminum tubes? Were you aware of it during the 
preparation of the President's speech to the UN? If so, do you regret 
your categorical statement about the purpose of the tubes? If not, why 
do you think you were not informed that there was such a debate?

    Answer. My statement in September 2002 was consistent with the 
majority view of the Intelligence Community at the time. Subsequently, 
in October 2002, the National Intelligence Council produced the 
National Intelligence Estimate on Iraq, which stated that: ``Most 
agencies believe that Saddam's personal interest in and Iraq's 
aggressive attempts to obtain high-strength aluminum tubes for 
centrifuge rotors--as well as Iraq's attempts to acquire magnets, high-
speed balancing machines, and machine tools--provide compelling 
evidence that Saddam is reconstituting a uranium enrichment effort for 
Baghdad's nuclear weapons program. (DOE agrees that reconstitution of 
the nuclear program is underway but assesses that the tubes probably 
are not part of the program.).''

Iraq
    On July 21, 2003, USA Today reported that, prior to the war, the 
NSC staff prepared a memorandum that examined previous peace and 
stability operations and came up with specific estimates for a force 
size to stabilize a post-Saddam Iraq. According to the article, the 
memo suggested that using Bosnia as a guide, 500,000 forces would have 
been required.

    Question (a). What were your views on the requirements of the size 
of the stabilization force?

    (b). Prior to the war, there was an open disagreement between 
General Eric Shinseki (then Army Chief of Staff), and the civilian 
leadership of the Pentagon over the size of the force required in post-
conflict Iraq. Did you take steps to ensure that the views of General 
Shinseki and others in the uniformed military reached the President? 
Why were those views dismissed? What is your understanding of the 
assumptions that led the Pentagon to ultimately deploy the level of 
troops it did for stability operations? In retrospect, do you believe 
that we deployed sufficient forces for stability operations?

    Answer. The NSC staff did perform a ``quick look'' prior to the 
war, which examined the ratio of stabilization forces to the overall 
population of countries where such forces had been stationed. A number 
of examples were examined, and the ratios varied widely. None was seen 
as a yardstick for Iraq. The NSC staff does not determine military 
requirements. The President was briefed on a continuing basis prior to, 
during, and after the Operation Iraqi Freedom by the Secretary of 
Defense, the Chairman of the Joint Chiefs of Staff (who is the 
principal military adviser to the President and also represents the 
Joint Chiefs), and the Commander, U.S. Central Command.
    On October 25, 2004, the Wall Street Journal reported that the 
Department of Defense prepared detailed plans in June 2002 for options 
to strike a military camp in northeastern Iraq where Abu Musab al-
Zarqawi allegedly was based, but the White House never approved such a 
strike. NBC News reported on March 2, 2004 that such a strike was 
rejected three times by the White House between June 2002 and January 
2003. Press reports also indicate that the vast majority of 
terrorists--many of whom were al-Qaeda from Afghanistan--fled the camp 
before we and the PUK finally attacked it during Operation Iraqi 
Freedom. Zarqawi is now one of the most lethal terrorists in Iraq, 
having recently been named head of al-Qaeda in Iraq by Osama bin Laden. 
Ansar al-Sunna, which has taken responsibility for the recent bombing 
of a U.S. military base in Mosul and a series of other vicious attacks 
in Iraq, is thought to be an off-shoot of Ansar al-Islam, which was 
operating in the same camp.

    Question (a). On how many occasions did the administration refuse 
to approve strike plans? Please explain why.

    (b). Do you regret that such a strike was not undertaken?

    Answer. If we had been able to determine Zarqawi's location prior 
to the war, we would have taken action to capture or kill him. While we 
knew that he and his associates were transiting the border between Iraq 
and Iran prior to the war, we did not have actionable intelligence that 
would have given his location at a given point in time.

Iraq Stabilization Group
    In October 2003, the President directed that you head the Iraq 
Stabilization Group. As of this month, only $2.4 billion of the funds 
appropriated the following month have been expended, (just 13%), 
despite the fact that the administration requested them on an urgent 
basis that autumn.

    Question (a). What specific steps have you taken to accelerate the 
disbursement of the $18.4 billion package for Iraqi reconstruction 
signed into law by the President in November 2003?

    (b). Are you satisfied with the current rate of expenditure? Do you 
believe that enough Iraqis are involved in the process? Are local and 
provincial governments in Iraq being used enough to help get funds 
expended so that Iraqis realize tangible benefits?

    Answer. My staff has been interacting with relevant agencies and 
Embassy Baghdad (and the CPA prior to the transfer of sovereignty) on 
an almost daily basis with respect to how the United States might best 
use the $18.4 billion IRRF monies. We have worked to improve the flow 
of information and to coordinate the U.S. response in an effort to 
create innovative ways to spend taxpayer money most effectively while 
at the same time maximizing benefits to Iraqi citizens.
    Iraq needs the resources to overcome the formidable obstacles its 
faces. Our goal is to give the people of Iraq the resources they need 
to cultivate a new Iraq. Through our strategy, we have sought to 
identify and target key high-impact areas for immediate focus--and 
funding--to create the momentum and legacy of visible success, which 
can, in turn, support longer-term reconstruction efforts.
    Offices in the government that became involved in post-conflict 
Iraq have told the committee that they were not involved in planning 
before the war.

    Question (a). Why was the Office of Reconstruction and Humanitarian 
Assistance established only on January 20, 2003, less than two months 
prior to the conflict?

    (b). What steps did you take to ensure that State Department's 
Future of Iraq project were incorporated into the overall 
administration efforts to plan for post-Saddam Iraq?

    (c). What role did the NSC play to promote interagency coordination 
in pre-war planning, and what notable successes and failures resulted?

    Answer. Contingency planning in case of war in Iraq began in the 
early Fall of 2002. It was done by an interagency team coordinated by 
NSC staff, and included every relevant agency. The team met multiple 
times per week for months, and covered both pre-war planning to support 
the war-fighter and to avert humanitarian disasters if war occurred as 
well as every aspect of post-war civilian matters--water, sewage, 
medical care, food, ports, electricity, courts, and governance.
    Later, in January 2003, it was decided that a special office should 
be established to take all the work that had been done and put it to 
use if we went into Iraq. ORHA was created with that purpose. The 
interagency team was indeed familiar with the work the Future of Iraq 
project had done, and of course the State Department was represented on 
the team. That work did become part of the overall preparations the 
team was undertaking. Some aspects were immediately useful; other 
parts, such as the redesign of the judicial system, are still very 
valuable and will, we hope, help Iraq's new government with that 
important task. The team worked well and put together a good plan for 
the civil and humanitarian work in case of war.
    Our planning efforts have paid off in many vital areas, although 
the environment in Iraq has proved to be very challenging and we have 
had to adapt to some unforeseen circumstances. At the same time, I 
strongly support the creation of the Office of Reconstruction and 
Stabilization inside the State Department to create the permanent 
capacity to work with the Department of Defense to do reconstruction 
and stabilization planning in post-conflict and other crisis 
situations. I very much appreciate the committee's leadership on this 
effort.
    Before the war, a specific recommendation was made to this 
committee that, based on past experience in post-conflict situations, 
it was necessary to recruit an international police force of roughly 
5,000 before hostilities to move in quickly to train Iraqi police 
afterwards. A similar recommendation on the size of an international 
police training force was made by our own experts in the Iraq Police 
Assessment Team in June 2003.

    Question (a). What steps were taken to act on their 
recommendations? Please describe any attempts that the administration 
made to recruit international police forces before the war. If none 
were made, please explain why.

    (b). In June 2004, more than 14 months after the fall of Baghdad, 
General Petraeus was appointed to revamp and consolidate the training 
program for Iraqi security forces. Why did the administration not move 
more quickly to overhaul this program?

    Answer. Recommendations made early on to field an international 
police force of approximately 5,000 men in Iraq failed to recognize the 
significant differences between the situation in Iraq and past 
experience with UN peacekeeping missions.
    Importantly, in contrast to Kosovo and other UN peacekeeping 
missions, the security situation in Iraq, where heavily-armed soldiers 
are being killed every day, has never been stable enough to allow for 
widespread deployments of lightly-armed civilian policemen. There has 
never been a UN Civilian Police force deployed in a non-permissive 
security environment, and governments have shown their reluctance to 
send national contingents into the volatile environment of Iraq.
    Because there is a limited pool of trained civilian policemen in 
the United States available for international missions, the United 
States alone could not have supplied a 5,000 man force. Few local or 
state police departments will release officers badly needed at home, 
and American civilian policemen going to missions are retirees or leave 
poorly paying jobs. To field 500+ U.S. civilian policemen in Kosovo 
posed significant difficulties, and INL had similar difficulties to get 
to 500 by November 2004, the target number set for March 2004.
    As such, assembling a force of 5,000 men would require large 
contributions both in funding and personnel from a number of countries, 
since national contingents are often less than 200 and are often 
dependent on the UN to pay for the bulk of their expenses. However, no 
UN peacekeeping account was available for Iraq and many European 
countries have exhausted their supplies of police available for other 
peacekeeping missions.
    The military has been very involved in Iraqi police programs since 
the outset and has had considerable influence over the way it has 
progressed. State/INL initially led the interagency management effort 
because of its control of funding and its traditional role in running 
civilian police programs in UN missions. The deteriorating security 
situation together with the recognition that a different approach was 
required made it prudent to shift lead responsibility for the entire 
program to the military. MNSTC-I was then set up and General Petraeus 
was put in charge.

China
    In your Foreign Affairs article you wrote: ``The longstanding U.S. 
commitment to a `one-China' policy that leaves to a future date the 
resolution of the relationship between Taipei and Beijing is wise.'' 
And you strongly criticized the Clinton administration for articulating 
a policy of ``three no's'' during the President's trip to China. 
Specifically, President Clinton said, ``I had a chance to reiterate our 
Taiwan policy which is that we don't support independence for Taiwan, 
or `two China's,' or `one Taiwan, one China,' and we don't believe that 
Taiwan should be a member in any organization for which statehood is a 
requirement.''
    The Bush administration has not only adopted the ``three no's'' 
position you criticized, but gone a major step further, arguing that 
Taiwan does not currently enjoy sovereignty and rejecting a final 
outcome that might lead to Taiwan independence, both steps that no U.S. 
administration had ever taken before. On October 25, 2004, Secretary 
Powell said in Hong Kong: ``Both sides should show restraint, not taken 
any unilateral actions, look for ways of improving dialogue across the 
Straits and move forward toward that day when we will see a peaceful 
unification,'' adding, ``There is only one China. Taiwan is not 
independent . . . It does not enjoy sovereignty as a nation, and that 
remains our policy, our firm policy.''

    Question (a). Does the United States have a position on whether 
Taiwan enjoys sovereignty? If so, what is that position? Is Taiwan part 
of China?

    (b). Was Secretary Powell wrong to rule out Taiwan independence as 
a possible future for Taiwan?

    (c). Will you continue to argue that Taiwan and China should be 
reunified and that Taiwan does not enjoy sovereignty?

    Answer. Our policy of long standing has not changed. We do not 
support Taiwan independence, and we oppose attempts by either side to 
unilaterally alter the status quo. American policy toward Taiwan is 
governed by our One-China Policy, the three Joint Communiques, and the 
Taiwan Relations Act.
    Additionally, we have reaffirmed our commitment to uphold the Six 
Assurances to Taiwan originally conveyed by President Reagan, including 
the assurance that the United States will not alter its position on the 
sovereignty of Taiwan, which is that it is a matter to be decided 
peacefully by the Chinese themselves.
    We have long maintained that differences between the People's 
Republic of China and Taiwan are matters to be resolved peacefully by 
the people on both sides of the Taiwan Strait, absent the threat or use 
of force, and in a manner acceptable to the people on both sides of the 
Taiwan Strait.

Indonesia: Timika Murders
    Question.No suspect has yet been brought to justice for murder of 
two U.S. citizens in Timika in August 2002. Initial reports, by both 
Indonesian police and the State Department, implicated the Indonesian 
military in the attack. In June, however, Attorney General Ashcroft 
shifted the blame to an alternate suspect, and downplayed a possible 
connection to the Indonesian military (TNI). In the meantime, the 
suspect remains at large, well documented ties between him and the TNI 
remain unexplored in official accounts of the case, and there appears 
to be no effort under way to advance the investigation.
    Do you believe the FBI's investigation exonerates the TNI, or do 
you believe more investigation needs to be done? If more needs to be 
done, what do you intend to do to persuade the Indonesians to 
cooperate?

    Answer. The arrest and prosecution of Anthonius Wamang, who was 
indicted by the FBI for the murder of two American citizens, is one of 
our top priorities. Although the investigation is not complete, the FBI 
has uncovered no evidence indicating TNI involvement in the Timika 
murders.
    We know President Yudhoyono understands the importance of this 
matter to the United States and trust that the Government of Indonesia 
will take the appropriate actions to achieve justice in this case.

    Question. If the case remains stalled--with no suspect in jail, no 
investigation actively probing alleged ties to TNI, no plans for any 
movement in the future--would you support a resumption of IMET training 
to the Indonesian military?

    Answer. IMET for Indonesia is in the US interest. In FY 05, we have 
allocated $600,000 in IMET funds (includes E-IMET) for Indonesia. The 
aim of IMET is to strengthen the professionalism of military officers, 
especially with respect to the norms of democratic civil-military 
relations such as transparency, civilian supremacy, public 
accountability, and respect for human rights. The GOI has demonstrated 
cooperation as required. We are currently evaluating whether to issue 
the required determination.

Nonproliferation
    Question. The United States has several very useful programs to 
help former Soviet weapons of mass destruction scientists find new 
careers in more socially useful areas. These programs include the 
International Science and Technology Centers, Initiatives for 
Proliferation Prevention, Chem/Bio Redirect, Nuclear Cities Initiative, 
and the Cooperative Research and Development Foundation (which is 
independent of the U.S. Government, but receives State Department 
funds). These programs have been so successful that some of them are 
being used as models for similar efforts to redirect Iraqi and Libyan 
scientists. But the programs have rarely received budget increases from 
this administration, although Congress has sometimes increased their 
funding. Will you seek greater funds for these programs?

    Answer. We have developed a strategic framework for 
Nonproliferation of Weapons of Mass Destruction Expertise (NWMDE) that 
is relevant to both mature programs in Russia and Eurasia and nascent 
programs in Iraq and Libya. The Nonproliferation and Disarmament Fund 
(NDF) will allow us to exploit unanticipated opportunities in Iraq and 
Libya in FY 2005. In FY 2006, we plan to sustain our engagement of 
former Soviet, Iraqi and Libyan WMD scientists within the 
Nonproliferation of WMD Expertise budget line.

IAEA Director General
    The United States took a ``principled stand'' last year that nobody 
should be elected to a third term as IAEA Director General. No other 
country seems to have agreed with that stand, however, perhaps because 
previous IAEA Directors General have routinely served more than two 
terms. Nobody has filed to even challenge Dr. ElBaradei for that post, 
so it would appear that he will be re-elected.

    Question.What does the United States gain by persisting in its 
opposition to Dr. ElBaradei's re-election, which is probably seen by 
other countries as based more on personal pique than on principle? Will 
you continue that approach in our non-proliferation policy, or will you 
inject more practicality into our policy?

    Answer. For many years the United States and other major donors to 
the UN system have expressed the view that the heads of UN 
organizations serve only two terms. This is not a new approach and we 
reminded Dr. ElBaradei of this view at the beginning of his second term 
as IAEA Director General. From the U.S. perspective, Dr. ElBaradei has 
served with distinction. However we do see merit in predictable 
turnover at senior levels in international organizations that a two-
term policy provides. If I am confirmed, I will look carefully at the 
views of other governments and take them into consideration as well as 
discuss this with other members of the IAEA Board as we move ahead.

Non-Proliferation Assistance Programs
    Although the administration has voiced support for threat reduction 
and non-proliferation assistance programs in the States of the Former 
Soviet Union, these programs have suffered from recurrent crises and 
have too often failed to achieve the speed or universality of coverage 
that was envisioned for them.

    Question (a). The issues of access to Russian sites and contractor 
liability protections have stalled new efforts in the MPC&A and 
plutonium disposition programs. Why have the U.S. and Russian 
bureaucracies been unable to make progress on these issues?

    (b). Will you urge President Bush to engage directly, intensively, 
and in a sustained manner with President Putin to agree on solutions 
and give clear direction to the bureaucrats? Alternatively, would you 
recommend a new mechanism to develop U.S. Russian inter-agency 
decisions on these programs?

    Answer. The administration strongly supports cooperative threat 
reduction efforts with Russia and will continue to work hard to resolve 
the challenges of liability and access to sensitive nuclear facilities.
    On liability, if confirmed, I will continue to make Russian 
approval and ratification of the Cooperative Threat Reduction (CTR) 
umbrella agreement (as extended in 1999) a key priority and will seek 
to ensure the United States engages with Russia at the highest levels 
necessary to achieve this. Ratification would put ongoing CTR programs 
on a more solid footing.
    It is our understanding, however, that CTR ratification will not 
resolve liability for any expanded or new nonproliferation assistance 
programs with Russia. This includes U.S. and G-8 efforts to convert 
excess Russian weapon-grade plutonium into forms not useable for 
weapons under the plutonium disposition program. The liability issue 
has hindered progress on this important project. The administration is 
actively reviewing ways of breaking the liability logjam with Russia--
while protecting CTR programs--to remove this impediment to plutonium 
disposition and other cooperation. If confirmed, I will make every 
effort to resolve these issues as soon as possible.
    On the issue of access to sensitive Russian nuclear facilities, we 
are continuing our efforts to address this effort with Moscow. We and 
the Russians have developed special procedures to provide access to 
these sensitive facilities and protect their nuclear secrets but have 
not been able to agree to implement them at some key remaining 
facilities. We have also recently provided unprecedented access to 
Russian officials to U.S. nuclear facilities to demonstrate openness 
and show them how we too are grappling with how to improve nuclear 
security. We will continue to press senior Russian officials on these 
issues to ensure that the security at all such nuclear facilities is 
increased to prevent terrorist access to these weapons.
    We will want to resolve both CTR umbrella agreement ratification 
and these other matters in 2005, well before CTR comes up for extension 
again in 2006.

Nonproliferation (Global Pathogen Surveillance Act)
    Since 2001, I have introduced legislation to authorize the State 
Department to lead an interagency effort to help other countries 
improve their pathogen surveillance capabilities--with particular 
emphasis on giving them the ability to spot an outbreak that might be 
man-made and to call in international resources to promptly investigate 
and respond to such an outbreak. The Senate passed that bill in 2002, 
and it was a title in the State Department authorization bills reported 
out by this committee in 2003 and 2004. In a world where natural 
diseases like SARS and avian flu threaten to cause world-wide 
epidemics, and where biotechnology gives our enemies increased ability 
to create ``designer'' diseases for use against us, don't we need a 
major program to build up the world's defenses against biological 
terrorism?

    Question (a). Will you work with us to see that the Global Pathogen 
Surveillance Act is enacted?

    (b). Do you agree that the State Department should take the lead in 
this area, or do you favor leaving that to the Departments of HHS or 
Defense?

    Answer. We believe that the Global Pathogen Surveillance Act will 
indeed help strengthen developing countries' abilities to identify and 
track pathogens that could be indicators of dangerous disease 
outbreaks--either naturally-occurring or deliberately-released. 
Improved disease surveillance and communication among nations are 
critical defenses against both bioterrorism and natural outbreaks. We 
look forward to working with you in support of the Global Pathogen 
Surveillance Act.
    We believe that improving monitoring and reporting on infectious 
disease outbreaks globally sits at the very intersection of foreign 
policy, health, and national security concerns. As such, we agree that 
the Department of State should lead the activities articulated in the 
Global Pathogen Surveillance Act. The Department is already working to 
better coordinate and integrate the multiple U.S. initiatives on 
disease surveillance internationally, collaborating with the 
Departments of Health and Human Services, Defense, Homeland Security, 
Agriculture, and other federal agencies.
    One of the true ``nightmare'' scenarios--of a bioterrorist attack 
or a naturally-occurring disease--involves a contagious biological 
agent moving swiftly through a crowded urban area of a densely 
populated developing nation. Thus, we believe that it is critical to 
increase efforts to strengthen the public health and scientific 
infrastructure necessary to identify and quickly respond to infectious 
disease outbreaks--and that the Global Pathogen Surveillance Act will 
provide valuable support in these efforts.

Proliferation Security Initiative
    Several countries have joined the Proliferation Security 
Initiative, there have been many meetings and exercises, and the United 
States has signed boarding agreements with some major seafaring 
nations. But thus far there has been no interdiction that we know of 
that was clearly a PSI operation.

    Question (a). What real-world interdiction capability does PSI give 
us, what are its operational objectives, and how will we know if it has 
been successful and worth the effort?

    (b). What do you plan to do, if confirmed, to further the PSI?

    Answer (a). An important measure of PSI's success is the foundation 
it provides for states to work together. Over sixty countries support 
the PSI and dozens have participated in or observed PSI exercises. PSI 
is succeeding because of the international consensus that WMD 
proliferation is a threat to global peace and security. PSI is also 
succeeding because it is based on practical actions that make maximum 
use of each country's strength in countering proliferation. The real-
world capability consists of partnerships being forged, contacts being 
made, and operational readiness established, all of which helps create 
a lasting basis for cooperative action against proliferation.
    The PSI Operational Experts have overseen fourteen interdiction 
training exercises and currently have 15 sea, air, and land exercises 
scheduled for 2005/6 with additional regional exercises in the planning 
stages. These have significantly improved the interoperability of PSI 
participants and contribute directly to our ability to work 
cooperatively to interdict shipments of WMD, their delivery systems and 
related materials at sea. PSI exercises also send a strong deterrent 
signal to those who would engage in proliferation trafficking because 
they could be stopped, caught and held responsible for their 
activities. These operational gains and deterrent benefits are already 
worth the effort.

    (b). In 2005, we will work to build on our successes. We will seek 
to put smooth, effective communication and operational procedures in 
place to interdict shipments and we will seek to use them; we will 
learn more about how proliferators behave; we will devise new 
strategies to shut down this deadly trade; and we will reach out to 
industry to intensify cooperation. In all, we will make it far more 
difficult and costly for those who engage in WMD trafficking to 
continue their dangerous work.

Public Diplomacy: Decline in Support for U.S. Foreign Policy
    Public opinion polls abroad reflect a significant decline in 
support for the United States and U.S. foreign policy. For example, the 
``Global Attitudes Survey'' in March 2004 by the Pew organization found 
that the percentage of people that had favorable views of the United 
States were just 37% in France and 38% in Germany, and much lower 
percentages in key countries with Islamic majorities, such as Jordan 
(5%), Pakistan (21%) and Turkey (30%). In the same survey, Osama bin 
Laden had higher favorability ratings in Pakistan (65%) and Jordan 
(55%).

    Question. To what do you attribute this decline in support for the 
United States in foreign countries and the significant support for bin 
Laden in some key Muslim countries?

    Answer. Although polling can be useful in providing insights into 
some aspects of public opinion, it is easy to put too much stock in 
polls. Even polls which gain the most attention as apparently revealing 
a very negative picture of America's standing abroad show a much more 
complex picture with many positive aspects when we dig more deeply into 
the details.
    America's standing in the eyes of the world is, of course, 
important. We must do all we can through active public diplomacy to 
ensure that our policies and actions are understood and that we build 
sustainable relationships of mutual understanding with people and 
institutions in other countries.
    Our goal is not popularity per se but increased understanding of 
American values, policies and initiatives to help create an 
international environment receptive to U.S. interests.
    Public diplomacy is not the answer to all negative views others may 
hold of America. Our military, cultural and economic power, our pre-
eminent position in the world can create negative reactions. In some 
cases, policies which we pursue as necessary for our national interest, 
are unpopular. We cannot forego necessary policies for the sake of 
international public opinion, but we can extend every effort to create 
understanding and acceptance if not active support.
    Any support for Osama bin Ladin is disturbing in that it indicates 
a great lack of understanding of the threat he poses to international 
stability and security. One of the primary challenges for public 
diplomacy is to break the myth of Osama bin Ladin where it exists and 
support the voices of tolerance opposed to the regressive fanaticism 
Osama bin Ladin represents.

Public Diplomacy: Measuring Public Diplomacy Efforts
    Question. What measures do you think are necessary to improve U.S. 
public diplomacy efforts?

    Answer. The improvement of our Public Diplomacy efforts will be a 
very high priority for me. We must improve coordination of public 
diplomacy strategy and activities within the Department and 
interagency. Within State, the Under Secretary must serve as a full 
advisor to the Secretary on all aspects of foreign policy, ensuring 
that all policy initiatives have a strategic communications component 
and that public diplomacy resources are deployed in support of those 
policy objectives. This is done now; we can do better.
    We must strengthen the position of the Under Secretary. In 
particular, we must strengthen the effective relationship between the 
Under Secretary and our embassies and consulates, which shape and carry 
out public diplomacy for maximum impact in the field.
    We have interagency mechanisms which can be used to strengthen 
public diplomacy. In particular the Policy Coordinating Committee 
process can be developed more fully in the public diplomacy context.
    We must transform the conduct of diplomacy by demonstrating through 
action and awareness that every major strategy, policy or diplomatic 
initiative must have public support in order to succeed. This requires 
better institutional understanding of the promise of public diplomacy 
within the Department and foreign affairs community, promoted through 
vigorous outreach on the part of public diplomacy practitioners, from 
the Under Secretary on down.
    To communicate with a skeptical world, the United States must 
exploit its technological edge and vastly expand its international 
media presence. It must build on successful exchange programs and 
expand face-to-face contact. Certainly greater cooperation and 
coordination with private sector outreach efforts will extend the reach 
of the American people, but we cannot rely on the private sector to 
carry the government's policy messages.
    Additionally, public diplomacy must continue to develop meaningful 
methods of evaluating its performance. This will require the 
development of honest performance indicators, the proliferation of a 
culture of measurement among public diplomacy practitioners, and the 
professional staff to analyze results.

Public Diplomacy: Role of DoD
    There have been press reports that the Department of Defense is 
seeking to take a leading role within the government on public 
diplomacy, and undertaking disinformation campaigns abroad (e.g., 
``Pentagon Weighs Use of Deception in Broad Arena,'' The New York 
Times, Dec. 13, 2004).

    Question (a). Do you believe that the State Department should have 
the lead role in this area? Should the Defense Department have a 
significant role in this area?

    (b). Should the Department of Defense--outside the context of the 
battlefield--engage in disinformation campaigns?

    Answer (a). The State Department is charged with conducting the 
foreign relations of the United States, and public diplomacy falls 
squarely within this responsibility. With a continued, consistent 
presence worldwide and an already established infrastructure through 
our missions abroad, the Department of State is best equipped to advise 
on how to engage, inform, and influence foreign publics most 
effectively. We have a broad range of tested programs to do so, as well 
as a corps of creative public diplomacy professionals who are not 
afraid to innovate. State has strengthened its capacity to lead by 
establishing an office of policy, planning, and resources under the 
Under Secretary for Public Diplomacy and Public Affairs.
    Other departments and agencies, including DOD, also make valuable 
contributions to public diplomacy. An example is the high-visibility 
role played by the U.S. military in delivering relief to the victims of 
the Indian Ocean tsunami. State and the NSC co-chair a policy 
coordinating committee on Muslim World Outreach that includes Defense 
and several other agencies in an effective process of collaboration, an 
interagency model that can be applied to other tasks. Since shortly 
after 9/11, State has maintained a working-level fusion team, with DOD 
participation that manages State-DOD collaboration on strategic 
communication on a daily basis.
    If confirmed, I will be open to good ideas and the improvement of 
our Public Diplomacy efforts will be a very high priority for me.

    (b). Truth is our greatest public affairs weapon and the Department 
of State will not ever seek to influence the media or others with lies 
or half-truths. I would argue strenuously against others in the U.S. 
Government using disinformation tactics. Deliberate deceptions and 
falsehoods can seriously undermine the credibility of the U.S. 
Government and irreparably harm our foreign policy and our national 
security. The credibility of the United States is too valuable an asset 
to risk for a momentary advantage.

Memos on Geneva Conventions and Torture Convention: Torture Convention/
        Interrogation Memo
    A Justice Department opinion memorandum on the Torture Convention 
and interrogation, issued August 1, 2002 (and then superseded last 
month) was reportedly vetted by lawyers from the National Security 
Council before being finalized [Washington Post, June 27, 2004].

    Question (a). Were NSC lawyers involved in reviewing the document? 
Did you have a role in reviewing the document, or in supervising the 
NSC legal staff? Please elaborate.

    (b). The Department of State was not involved in the preparation of 
this memorandum, and in fact were unaware of it until it was reported 
in the press. As Secretary, will you work to ensure that State 
Department lawyers are involved in any legal review of issues relating 
to treaty obligations?

    Answer. The President has repeatedly made clear that the United 
States stands against and will not tolerate torture. The President has 
also made clear that American personnel are required to comply with all 
U.S. laws, including the United States Constitution, Federal statutes, 
including statutes prohibiting torture, and our treaty obligations with 
respect to the treatment of all detainees. Interrogation policies of 
U.S. government departments and agencies have been carefully vetted by 
the Department of Justice to ensure that they comply with this mandate.
    I have been advised that a copy of the draft opinion on the Torture 
Convention and torture statute was made available to the Legal Adviser 
to the National Security Council before it was finalized. I was not 
involved in reviewing the draft opinion, although our Legal Adviser 
advised me that the Office of Legal Counsel was preparing analyses of 
laws applicable to interrogation of detainees to ensure that we comply 
with those laws.
    Yes, if confirmed, intend to work to ensure that State Department 
lawyers are involved in any legal review of issues relating to treaty 
obligations.

Memos on Geneva Conventions and Torture Convention: Geneva Conventions
    According to President Bush's directive of February 7, 2002, 
Taliban prisoners taken in Afghanistan are denied the protections of 
the Geneva Conventions.

    Question. Were you involved in the consideration of this directive? 
Please elaborate.

    Answer. I was involved in the process by which the President made 
the decisions reflected in his February 7, 2002 directive concerning 
humane treatment of al Qaeda and Taliban detainees. Although the 
Attorney General and other senior lawyers within the administration 
took the lead on the legal question concerning application of the 
Geneva Conventions, I was involved in meetings where both the legal and 
policy issues were discussed.
    In his directive, the President decided that, as a policy matter, 
the Department of Defense will treat all Taliban and Al-Qaida detainees 
humanely and, to the extent appropriate and consistent with military 
necessity, in a manner consistent with the principles of the Geneva 
Convention.

Role as Secretary of State
    Question. What are your top five foreign policy priorities?

    Answer. The United States is a global power which does not have the 
luxury of maintaining a single focus on just a few foreign policy 
issues. We have several opportunities and imperatives which we must 
address simultaneously.
    A guiding principle of our foreign policy is the promotion of 
democracy. The spread of freedom is the single greatest factor behind 
the spread of peace and prosperity in the world, and thus also the 
greatest long-term guarantee of the safety and well-being of the United 
States.
    We must remain focused on winning the war on terrorism. This means 
continuing and winning the fight against al-Qaida and other jihadist 
groups.
    But it also means supporting the development of a different kind of 
Broader Middle East--one that is built on the foundations of freedom 
and democracy, and opportunity for all people in the region. A 
democratic and secure Iraq, as well as a democratic and secure 
Afghanistan, will contribute to the transformation of this wider 
region. We are committed to continuing to work with the Afghan and 
Iraqi governments to this end. And we are committed to supporting 
freedom and reform throughout the Broader Middle East, a process 
launched by President Bush and G8 leaders at the Sea Island Summit, 
strengthening through the Forum for the Future meeting held in December 
2004 in Morocco, and continuing, with the next meeting set for 2005 in 
Bahrain. And we are determined to working as hard as we can to achieve 
the President's vision of Israel and a democratic Palestinian state 
living side-by-side in peace and security.
    We are also focused on the need to prevent and, where necessary, 
counter the spread of weapons of mass destruction, in Iran, in the 
Broader Middle East, in North Korea and elsewhere.
    Our efforts to promote freedom and democracy are not limited to the 
Broader Middle East. We are pleased to see the will of the Ukrainian 
people reflected democratically in the election of a new President; the 
strengthening of democracy in Russia will be critical to the pace and 
extent of our ability to develop a strategic partnership with that 
country.
    We continue our efforts to promote and strengthen democracy, 
opportunity, prosperity, trade and hope in Latin America. And, of 
course, the relationships with our neighbors, Canada, Mexico and the 
states of the Caribbean, are critical for freedom, prosperity, and 
security for ourselves and our hemisphere.
    In Asia, we will strengthen our sound alliances with Japan, South 
Korea, and Australia, as well as those in Southeast Asia, while working 
to promote a positive and constructive role for a transforming and 
increasingly powerful China.
    We have strengthened our ties with India and that will continue 
because the world's two largest democracies should have strong 
relations. Similarly, other increasingly influential democracies, such 
as South Africa and Brazil, must be a part of our vision for the 
future.
    Under President Bush's leadership, we have strengthened our support 
for democracy, development, good governance, and peace on the African 
continent. We will continue to lead the fight against poverty and 
disease, and to strengthen institutions that will guarantee freedom, 
opportunity, human rights, and justice for a new generation of 
Africans.
    In all of these areas, we will work together with our allies and 
friends in Europe, especially through NATO and the European Union. The 
United States and Europe share common values, common history, and 
common goals. We must therefore meet together the common challenges we 
face at the dawn of the 21st century. As President Bush has said, ``the 
world is better off, America is better off, Europe is better off when 
we work together.''
    In Europe, in Asia, in Africa, the Americas, and the Broader Middle 
East, we seek to mobilize and lead the efforts of all free nations, 
while maintaining strategic relationships with other global powers, all 
in the interest of strengthening a balance of power that favors 
freedom.

Middle East Peace Process
    Question. I understand that when the Jordanian government first 
proposed the idea of the Road Map, you stated that the administration 
could not support it. The President later agreed with the concept. 
Please explain the rationale behind your initial position.

    Answer. When the concept of the roadmap was first raised, we 
reacted positively, not negatively. But we could not support a plan 
that lacked phasing, had a strict calendar, or was not performance 
based, and it was clear that stopping terrorism had to be an immediate 
goal in any such document. That is what we sought, and we engaged in, 
intensive negotiations in the Quarter to produce a document that met 
these goals.

The President's Personal Representative
    In June 2003, the President designated you as his personal 
representative to the peace process.

    Question (a). What specific actions did you take in your capacity 
as the President's personal representative?

    (b). During Abu Mazen's tenure as Prime Minister, did the United 
States, the international community, and the Israelis do enough to 
support him? What steps did you take to bolster him? After Abu Mazen's 
departure, what steps did you take to try to revive peace efforts?

    Answer. The President designated Secretary Powell and me to work 
together. And we did. Both of us made trips to the region, both of us 
met--often together, in my office--with literally dozens of European, 
Arab, Israeli, and Palestinian officials. We continued the hard work of 
diplomacy as we moved first into a hopeful period after Aqaba, then 
quickly into a longer period where Arafat blocked progress. Many of the 
meetings I held were efforts to get things moving again despite the 
roadblocks. We also helped to mobilize international assistance to 
support Palestinian reform. As part of this effort, we provided $20 
million in direct budget assistance to the Palestinian Authority, whose 
Finance Ministry under Salam Fayyad managed, despite Arafat, to attain 
a level of fiscal transparency and accountability that was heralded and 
recognized internationally. As part of this effort, we appointed 
Ambassador John Wolf to serve as the head of a United States monitoring 
mission to monitor the parties' compliance with the Roadmap. Our 
efforts helped produce an agreement between the two sides by which 
Israel withdrew its military forces from roads and population centers 
in Gaza and Bethlehem. Indeed, the Israelis were about to withdraw from 
more population in the West Bank when significant Palestinian 
terrorists actions were perpetrated, undermining their efforts.
    It was the pressure from the United States, and our Quartet 
partners, that led to the creation of the position of Prime Minister to 
begin with. When Abu Mazen was appointed, we put together the Sharm el 
Sheik and Aqaba summits in June 2003 to bolster him and add to the 
forward momentum. We then hosted him at the White House in August. As 
you know, he was soon thereafter in essence fired by Arafat After his 
departure, Secretary Powell and I pressed very hard to work around 
Arafat, but it became evident to everyone in the Quartet that unless 
and until the PA firmly broke with terrorism, and had new leadership, 
forward movement was unlikely.

Iran
    The United Kingdom, France and Germany--known as the EU-3--have 
been engaged in negotiations with Iran to explore the chances of 
getting Iran to extend indefinitely its suspension of uranium 
enrichment and reprocessing activities and to drop its program to 
construct a heavy water-moderated research reactor that could be used 
for plutonium production. Many believe that such an agreement cannot be 
achieved unless the United States becomes part of the solution, so that 
Iran could receive security and other benefits that only the United 
States can provide in return for giving up its nuclear weapons 
ambitions.

    Question (a). Do you believe the EU-3 effort can succeed, and if 
so, what role should the United States play? What specific benefits 
might the United States put on the table? If you believe the EU-3 
effort is likely to fail, what alternatives do you suggest for U.S. 
policy?

    (b). The administration has called on the IAEA Board of Governors 
to refer Iran to the UN Security Council for its nuclear activities. 
What specific action do you believe the Security Council should take? 
Have you developed any plans for a phased initiation of sanctions? Can 
anything short of sanctions on Iran's sale of oil get Tehran's 
attention?

    (c). Russia plays a critical role as chief supplier of nuclear 
technology and fuel to Iran and has also been one of Iran's advocates 
at the IAEA. How will you convince Russia to join the U.S. and EU 
effort to terminate Iran's fuel cycle program?

    Answer (a). Whether or not the EU-3 initiative can succeed depends 
on whether or not Iran is willing to step away from its nuclear weapons 
ambitions. So far, we have seen no indication that Tehran is willing to 
do so. The United States shares with the United Kingdom, France, and 
Germany (the EU-3), with the rest of the EU, and with many others on 
the IAEA Board of Governors and in the international community, strong 
concerns about Iran's long record of clandestine nuclear activities and 
Iran's systematic violation for almost two decades of its NPT-required 
IAEA Safeguards Agreement. We share with the EU3 and others the view 
that Iran must permanently and verifiably end all of its efforts to 
develop fissile material production if it hopes to build international 
confidence that it has abandoned the pursuit of a nuclear weapons 
capability. It is our understanding that the EU3's goal in its ongoing 
dialogue with Iran is to secure Iranian agreement to such full 
cessation of its sensitive nuclear fuel cycle pursuits.
    However, we have seen no evidence suggesting Iran's leadership has 
made a strategic decision to abandon its nuclear weapons program, and 
we remain skeptical of Iran's intentions to implement fully the terms 
of its November 14, 2004 suspension agreement with the EU3. Indeed, 
Iran's leaders have publicly admitted that they have no intention of 
ending their enrichment program, and Iran most recently followed-
through on its stated intention by rushing to convert 37 tons of 
natural uranium yellowcake at the Esfahan Uranium Conversion Facility. 
The United States government is not a party to the EU3's ongoing 
dialogue with Iran. We believe that additional bilateral and 
multilateral pressure, including reporting Iran's noncompliance to the 
UN Security Council, will be required to persuade Iran's leadership to 
end its sensitive nuclear fuel cycle pursuits. We will continue to 
consult with our friends and allies toward this end.

    (b). Once the IAEA Board of Governors reports Iran's safeguards 
noncompliance to the UN Security Council (UNSC), as is required under 
the IAEA Statute, we believe there will be a range of options available 
to the Council. The UNSC has the legal authority to require Iran, for 
example, to stop its dangerous, unnecessary pursuit of the capability 
to produce fissile material for nuclear weapons. We continue to consult 
other Council members regarding how the UNSC might address Iran's 
nuclear activities, which we consider to be a growing threat to 
international peace and security. We believe that UNSC involvement on 
this issue would help change the Iranian leadership's calculations 
regarding the costs to Iran of continuing to pursue its nuclear weapons 
program.

    (c). The United States has for several years raised the Iran 
nuclear issue actively and at high levels with Russia, and we will 
continue to do so. We have engaged Russia both bilaterally and 
multilaterally, including at the IAEA Board and within the G-8. Russia 
has already joined us in calling on Iran to accept and implement a full 
moratorium on all sensitive nuclear fuel cycle efforts. We believe 
Russia shares our profound concerns at the prospect of a nuclear 
weapons-capable Iran, and Russia agrees with us that the international 
community must do all it can to prevent Iran from acquiring that 
capability.

Arms Control Reorganization
    We understand that Secretary Powell intends to propose the merger 
of the Bureau for Arms Control (AC) with the Bureau for 
Nonproliferation (NP), and to notify Congress of this action just 
before your nomination hearing. Such a reorganization would clearly 
constitute a reprogramming request under current law, and you would be 
responsible, if confirmed promptly after the hearings, both for 
obtaining the assent of congressional committees and for implementing 
the reorganization.

    Question (a). Do you support the merger of the AC and NP bureaus? 
If so, why?

    (b). How would the AC and NP bureaus be merged without sending the 
world a message (whether intentionally or not) that the administration 
is renouncing Arms Control as a tool of U.S. foreign policy?

    (c). How would the AC and NP bureaus be merged without diverting 
the attention of the Assistant Secretary for Nonproliferation from the 
difficult, day-to-day world-wide diplomacy involved in stemming sales 
of suspect materials and technology around the world to the more 
glamorous world of international treaty negotiations?

    (d). Will you commit to close consultation with this committee as 
you move forward with any reorganization?

    Answer (a). I support the merger of the Arms Control and 
Nonproliferation Bureaus as part of the Bush administration's strategy 
to fine tune the State Department's international security units to 
better address the challenges of the post-9/11 world. This merger 
recommendation by the Department of State Inspector General was 
endorsed by Secretary Powell, Deputy Secretary of State Richard 
Armitage, and Under Secretary of State for Arms Control and 
International Security John Bolton.
    If confirmed, I am committed to ensuring the AC/NP merger best 
utilizes these bureaus' talented officers while improving efficiency. A 
State Department task force headed by Human Resources experts has been 
working on the reorganization since last September. I have been briefed 
on their work and I believe that new bureau will be an asset to U.S. 
foreign policy.

    (b). Per the recommendations of the State IG Inspection Reports of 
the AC and NP bureaus, this is a merger of equals. The Bush 
administration will remain committed to pressing all states to honor 
their arms control treaty obligations through the new bureau, 
especially the Nuclear Nonproliferation Treaty, the Biological Weapons 
Convention, and the Chemical Weapons Convention.

    (c).The State Department panel overseeing the AC-NP merger has 
worked to devise a structure for the new bureau that provides adequate 
coverage for all of its responsibilities. Like the current AC and NP 
bureaus, the merged bureau will retain special representatives and 
ambassadors who are responsible for treaty negotiations.

    (d). If confirmed, I will stay in close contact with Congress about 
this reorganization and welcome this committee's questions and comments 
on it.

China and Nonproliferation
    You wrote in the Wall Street Journal in October 2003 that China has 
shown a ``pattern of cooperation'' in combating proliferation, yet the 
Bush administration sanctioned Chinese firms 37 times from June 21, 
2001 through September 2003. The Assistant Secretary of State for 
Verification and Compliance said on July 24, 2003 that Chinese 
``entities are involved in too many sensitive transfers for the problem 
merely to be one of imperfect enforcement.'' The State Department has 
repeatedly sanctioned Chinese firms since the Fall of 2003, most 
recently imposing sanctions on four more Chinese firms in November 
2004.

    Question (a). Why did you praise China for a ``pattern of 
cooperation'' weeks after the State Department announced new sanctions 
on Chinese firms and complained about a pattern of violations? Has 
China's proliferation conduct improved since October 2003?

    (b). What will you do as Secretary of State to end China's 
continuing pattern of proliferation of WMD technologies to countries 
such as Iran and North Korea?

    Answer. Cooperating with the Chinese government on non-
proliferation issues while sanctioning Chinese companies for actions 
taken which are in violation of our nonproliferation laws, including 
the Iran Nonproliferation Act of 2000, are not mutually exclusive 
actions. They are part of our overall effort to get China to play a 
more responsible role on non-proliferation. In the past 15 years, China 
has taken substantial steps to strengthen its nonproliferation 
policies, joining the IAEA and the Nuclear Suppliers Group, adhering to 
the Nuclear Nonproliferation Treaty, joining the Biological Weapons 
Convention, signing and ratifying the Chemical Weapons Convention, 
signing the Comprehensive Test Ban Treaty, and agreeing to work with 
the international community to ban production of fissile nuclear 
weapons material.
    In 2002 the PRC promulgated a series of regulations restricting the 
export of missiles and missile-related technology; subsequently, the 
PRC promulgated regulations on dual-use chemical and biological items 
and technologies and joined with us in the Container Security 
Initiative. In December 2003, China incorporated these existing 
measures into a new comprehensive system of export control regulations 
that include counterterrorism and regional stability considerations in 
licensing decisions. I might note that these measures were implemented 
as we have been increasing the use of sanctions against Chinese 
entities. The point is that one shouldn't assume that sanctions and 
cooperative measures are inconsistent. In fact, they are two sides of 
the same coin, and Chinese nonproliferation cooperation improved after 
we imposed sanctions on Chinese entities that had apparently not gotten 
the message. More recently, China has been working closely with the 
U.S. and other nations in the Six-Party Talks to persuade North Korea 
to dismantle its nuclear program.
    We will continue our extensive efforts to persuade China to 
effectively control exports, including the imposition of sanctions when 
warranted or when required by U.S. law. Through continuing dialogue and 
steps to impose costs upon proliferant entities where problems arise, 
we look forward to seeing China's pattern of cooperation improve even 
more in the future. In particular, we hope that China will improve 
implementation of export controls to the point that Chinese companies 
no longer engage in transfers that lead to the imposition of U.S. 
sanctions.

FMCT
    In March 1995, the Conference on Disarmament agreed to negotiate, 
in the words of the Shannon mandate, ``a non-discriminatory, 
multilateral and internationally and effectively verifiable treaty 
banning the production of fissile material for nuclear weapons or other 
nuclear explosive devices.'' In September 2004, after a lengthy review, 
the United States declared in Geneva its view that effective 
verification of an FMCT is not achievable.

    Question (a). If confirmed, will you push for negotiation of an 
FMCT without any verification provisions whatsoever, or might it be 
possible to agree on some measures that would be imperfect, but would 
not harm our national security?

    (b). Will you call for revising the Shannon mandate (which could 
well be difficult to achieve because the Conference on Disarmament 
operates on the basis of consensus), or will the administration be 
willing to begin negotiations under the Shannon mandate, while adhering 
to its stand that verification measures might do more harm than good?

    Answer. The United States announced the results of its review of 
FMCT in July, reaffirming our commitment to negotiation in the CD of a 
treaty to ban the production of fissile material for nuclear weapons or 
other nuclear explosives. Noting that the United States has not 
produced fissile material for such purposes for over 15 years, our 
announcement also reaffirmed the U.S. moratorium on such production. At 
the same time, we noted our serious concerns that effective 
verification of an FMCT is not realistically achievable.
    Because of these concerns, which we described in more detail at the 
end of August, we have told other interested states that including in 
the negotiators' mandate an a priori requirement that an FMCT be 
effectively verifiable would only set an unrealistic standard, making 
success impossible and blocking prospects for an agreement. 
Constructing an ineffective set of ``verification'' provisions could 
give false confidence about states' compliance with their obligations, 
while the difficulty of negotiating them would slow agreement on the 
basic FMCT prohibition. That legal prohibition on producing fissile 
material for weapons, the central element of any FMCT, would add an 
important further barrier to nuclear proliferation, one applying to 
both current and potential nuclear powers. To delay this achievement 
while arguing at length over provisions that would at best still not 
provide effective verification and at worst possibly damage other U.S. 
interests (e.g., risking disclosure of proliferation sensitive or 
national security information) is, in our view, counterproductive.
    We have not made agreement on this view a condition for moving 
forward, but do not wish to reaffirm a position on verification we 
believe incorrect. We hope to achieve consensus in Geneva that 
negotiations on an FMCT should begin without any imposed prejudgment.

NPT Review Conference
    In May 2005, the States Party to the Treaty on the Nonproliferation 
of Nuclear Weapons will gather in New York for a five-year review of 
the Treaty. The 2000 Review Conference seemed poised for failure, with 
many countries focused on proliferation on the subcontinent, the 
seemingly slow progress on reductions by the five nuclear weapon 
states, and the typical effort by Middle East nations to draw attention 
to Israel's nuclear program. After lengthy negotiations, however, a 
consensus resolution was agreed. If the results of the 2004 Preparatory 
Committee meeting are any indication, this year's Review Conference 
promises to be equally, if not more, contentious and will require high-
level, careful and focused U.S. leadership to prevent further erosion 
to the nonproliferation regime. Secretaries Christopher and Albright 
led the U.S. delegations to the 1995 and 2000 Review Conferences, 
respectively.

    Question (a). Will you lead the U.S. delegation at the May review 
conference?

    (b). What are we doing now to ensure that the NPT Review Conference 
is successful?

    Answer (a). The Treaty on the Non-Proliferation of Nuclear Weapons 
(NPT) remains the foundation of the nuclear nonproliferation regime and 
is vital to U.S. and international security interests. Review 
conferences are important benchmarks in the life of the NPT. The 2005 
Review Conference (RevCon) promises to be particularly important, given 
the many challenges the Treaty faces. Our principal focus at the RevCon 
will be on nonproliferation noncompliance, citing Iran and North Korea 
as current challenges. We will urge others to recognize the gravity of 
noncompliance with the Treaty's nonproliferation obligations, press all 
states to insist on full compliance by all Parties, and move to 
strengthen collective tools against proliferation.
    If I am confirmed, I plan to remain closely involved as the 
administration completes its preparations for the RevCon. While the 
administration has not yet determined who will head the United States 
Delegation in New York, you may be certain that the President's 
eventual designee will enjoy his full confidence and provide the 
necessary leadership to promote effectively the nonproliferation 
objectives of the United States at the RevCon.

    (b). The U.S. aim for the 2005 Review Conference (RevCon) is an 
outcome that strengthens the Treaty on the Non-Proliferation of Nuclear 
Weapons (NPT). Our priority is the challenge to the NPT posed by non-
nuclear-weapon state noncompliance with their NPT nonproliferation 
obligations. The RevCon can reaffirm the NPT's contribution to 
international security, the need for strict compliance with all its 
provisions, the need for parties promptly and firmly to address cases 
of noncompliance, and the need to strengthen the Treaty to avert future 
cases of noncompliance. The proposals to strengthen the international 
nonproliferation regime that the President outlined in his address to 
the National Defense University (NDU) last February will be at the core 
of the initiatives that the United States will pursue at the RevCon.
    In addition to noncompliance, the RevCon should also consider the 
threat to international security posed by non-state actor interest in 
acquiring nuclear weapons and non-state actor involvement in 
trafficking in nuclear materials, technology, and equipment. We will 
pursue support for the President's NDU proposals to address these 
challenges from noncompliance and proliferation involving non-state 
actors. Among the key tools in addition to restraint on enrichment and 
reprocessing are the universality of the Additional Protocol, 
aggressive pursuit of the Proliferation Security Initiative, 
implementation of United Nations Security Council Resolution 1540, and 
expansion of the Global Partnership.
    In the spirit of promoting full compliance with all of the 
provisions of the Treaty, the United States also intends to demonstrate 
its strong record of achievement in nuclear disarmament efforts in 
conjunction with NPT Article VI.
    The State Department leads a strong interagency team, which meets 
regularly to discuss, refine, and determine ways to advance these NPT 
policy positions at the upcoming RevCon. The United States routinely 
consults before, during, and after each review process meeting with key 
NPT Parties, particularly U.S. allies, with the leadership of the 
various Preparatory Committee meetings and RevCons, with officials in 
the UN Secretariat, and with the relevant non-governmental 
organizations. United States officials also conduct frequent travel 
abroad to consult with foreign governments, and to represent the United 
States at international workshops, conferences, and seminars to advance 
U.S. policy positions and learn the policy priorities of other NPT 
Parties.

                               __________

           Responses to Questions for the Record Submitted by
                      Senator Russell D. Feingold

Non-Proliferation
    Question. Developments in Iran have exposed problems in the Non-
Proliferation Treaty regime that need to be addressed. Some have 
suggested that the U.S. work with others to reform the NPT, so that 
countries cannot legally go right to the brink of producing a nuclear 
weapon, making it a bit late for enforcement action once they finally 
do cross the line. Some have also proposed changing the regime so that 
countries that reject inspections or withdraw from the NPT without 
addressing previous infractions must dismantle their nuclear 
capabilities to come back into the fold, and one could achieve 
agreement that nations which the IAEA cannot find to be in full 
compliance should no longer receive any nuclear assistance from others. 
What is your view of such proposed reforms? Are you satisfied that the 
U.S. can effectively work with other members of the international 
community to address Iran's nuclear ambitions under the current 
nonproliferation regime?

    Answer. President Bush and other world leaders have recognized the 
problems you mentioned and work is under way in several fora to address 
them. The Nuclear Non-Proliferation Treaty (NPT) is being tested as 
never before. Without stronger measures, confidence in the security 
benefits of the NPT could erode.
    Certainly, the Additional Protocol is essential in verifying 
compliance, as it allows the International Atomic Energy Agency greater 
access to sites and to information and can give the international 
community more warning time. But of course much more is needed. Efforts 
to limit enrichment and reprocessing technology are critical or we 
could see more countries like Iran that exploit and violate the NPT to 
advance their nuclear weapons potential. Stronger export controls and 
the Proliferation Security Initiative can help to halt or interdict 
clandestine nuclear commerce.
    Violations of the NPT and withdrawal from the Treaty to acquire 
nuclear weapons and avoid its consequences are serious threats to the 
NPT and should, at the very least, result in a cutoff of nuclear 
assistance to the state in question. The elimination of nuclear weapons 
programs in these states should be pursued relentlessly. These states 
must see that they face a dim future, and isolation from the 
international system, unless they abandon their nuclear weapon 
ambitions.
    We will continue to work with our friends and allies--and the 
entire international community--to persuade Iran, in particular, to 
make the right choice, and to vigorously pursue the reforms necessary 
to improve enforcement of the NPT.

Human Resources Requirements in Africa
    Question. After 12 years on the Subcommittee on African Affairs, I 
have traveled widely enough to know that understaffed embassies in 
Africa are more the norm than the exception. We have wonderful, 
capable, deeply committed Foreign Service officers working in Africa. I 
admire them and I am deeply grateful for their service. But they are 
too few in number--particularly when it comes to seasoned, expert 
people. Tiny embassy staffs are trying to cover huge, complex 
countries--too often without adequate effort or capacity to get out of 
the capital city. We have no permanent presence in northern Nigeria or 
eastern Congo, despite the fact that the stability of whole swathes of 
the continent can hinge on events in those areas. We have no permanent 
presence in Zanzibar or in Mombassa. We need more people on the ground. 
The 9/11 Commission points to parts of Africa, including the Horn and 
to West Africa as areas deserving of special focus. What steps are you 
prepared to take to match our personnel resources to our needs?

    Answer. Engagement with Africa is very high among President Bush's 
foreign policy objectives, from resolving conflict in Sudan and the 
Great Lakes to fighting terrorism in the Horn and limiting spread of 
HIV/AIDS under the President's Emergency Plan for AIDS Relief (PEPFAR). 
We are promoting democracy, expanding trade and investment 
opportunities, and strengthening health care, environmental protection, 
and efforts against trafficking in arms, drugs, and people. We also 
face substantial new staffing requirements in Iraq and Afghanistan, and 
a number of other high priorities.
    With the significant difficulties faced by our employees who serve 
in Africa, we continue to face challenges in meeting staffing needs, 
and the Department is making progress.
    Through the Department's recent hiring efforts, we created 135 
additional positions in our 48 posts in the Bureau of African Affairs 
<SUP>\1\</SUP> in FY 2002 to 2004, including those for consular and 
diplomatic security personnel, bringing the total number of State Dept. 
Foreign Service positions at the 48 African posts to 893 (an 18% 
increase). Even with the new positions, small to medium sized African 
posts often have little staffing depth and must be augmented by 
temporary personnel to cover gaps when staff members transfer or take 
annual leave. Additional positions are necessary to add depth and 
address future challenges.
---------------------------------------------------------------------------
    \1\ Note that all figures regarding positions and posts in Africa 
do not include those for Egypt, Tunisa, Libya, Algeria and Morocco, 
which are part of the Department's Bureau of Near East Affairs, not the 
Bureau of African Affairs.
---------------------------------------------------------------------------
    Difficult living conditions at many posts make them a challenge to 
staff. Given the security situation, three posts in Africa currently do 
not allow any family members at post and another three allow only adult 
dependents, making the one or two year tours there particularly 
difficult for employees who are also being asked to staff other 
``unaccompanied'' posts such as Baghdad and Kabul. Many of the African 
posts are among the hardest to fill because of concerns about security, 
health, education, and other hardship conditions. Thirty of forty-eight 
posts in the Bureau of African Affairs receive the highest hardship 
rating of 25 percent. Many of these places long ago hit the 25 percent 
ceiling for hardship differential (the compensation employees receive 
for the extraordinary hardship conditions at post). Due to the pay cut 
that non-senior Foreign Service employees take when serving overseas 
from the loss of locality pay, employees in many places like Abuja, 
East Timor, Guinea, and the Congo receive only 9% more pay than their 
colleagues in Washington (since their 25% hardship differential is off 
set by 16% locality pay in Washington), hardly a significant monetary 
incentive to serve there.
    We are in the process of formulating career development plans, 
which will include both incentives and requirements for hardship 
service to ensure staffing at our most difficult posts.

Democratic Republic of Congo
    Over 3.5 million people are thought to have died from war related 
causes in recent years in DRC. Countless others have been victims of 
brutal assaults and continue to live in fear. Yet despite the 
horrifying human costs of the conflict, despite the questionable 
efficacy and astronomically expensive nature of the peacekeeping 
mission on the ground, and despite the fact that the future of Congo 
has serious implications for the future of many African countries, the 
administration has not made stabilizing central Africa a priority.

    Question. What steps will you take as Secretary of State to help 
create a context in which MONUC can succeed and the Congolese people 
can realistically hope for a better future?

    Answer. MONUC remains one of the primary tools to achieve peace and 
stability in DRC. The United States will continue to work with the UN, 
specifically Special Representative Swing, to ensure maximum 
effectiveness of MONUC's activities within its current mandate and 
within the current authorized troop ceiling of 16,700. We are 
supportive of the recent increase to MONUC's authorized strength of 
5,900 troops. As these new troops arrive in the region over the next 
two months they will be positioned in eastern Congo to directly address 
the issue of armed militias.
    Since May of 2004, the United States has facilitated Tripartite 
talks between the governments of DRC, Rwanda, and Uganda. During these 
talks all three nations agreed that the greatest threats to Great Lakes 
stability are the armed militias that roam uninhibited throughout 
eastern Congo. The United States, in coordination with the UN Security 
Council, is discussing how to assist MONUC to meet fully and completely 
the various parts of its mandate, specifically the issue of support for 
DRC government efforts to disarm, demobilize and repatriate or resettle 
``negative forces'' in eastern Congo.
    Our direct diplomatic effort with the Tripartite Commission has 
been instrumental to keep communication open on all sides, so that 
differences can be aired between all nations of the Great Lakes region.

North Korea
    Question. The last four years of U.S. policy toward North Korea 
have failed to address the threat posed by a nuclear-armed and 
potentially a proliferating North Korea. Is this administration 
prepared to tolerate a nuclear-armed North Korea? If not, what changes 
in policy will you pursue?

    Answer. The United States is not prepared to tolerate a nuclear-
armed North Korea. But the problem is not the United States or our 
policies. The problem is in North Korea. That said, we have succeeded 
in establishing a regional consensus that the Korean Peninsula must be 
nuclear free. We have continued to coordinate closely through the 
trilateral process with our allies, South Korea and Japan. We have 
established the first multilateral security forum in Northeast Asia, 
the Six-Party talks. All of the parties to the Six-Party Talks have 
agreed on the objective--a nuclear weapons-free Korean Peninsula. And 
the five parties at the first Plenary, in August 2003, all told North 
Korea very clearly that they will not accept North Korea's possessing 
nuclear arms.
    We believe the Six-Party process offers the best opportunity to 
resolve this issue through peaceful, multilateral diplomacy.
    The U.S. is working within that process to achieve the 
dismantlement of all North Korean nuclear programs in a permanent, 
thorough and transparent manner, subject to effective verification.
    We have repeatedly made clear to the DPRK that the Six-Party forum 
is the way to end its international isolation, and that we and other 
parties are prepared to take corresponding measures as the DPRK 
dismantles its nuclear programs in an effectively verifiable manner.
    We met in New York in November and December with the North Korean 
Permanent Representative to the United Nations to make clear that we 
are ready to resume talks at an early date and without preconditions.
    Our partners in the Six-Party Talks--Japan, the Republic of Korea, 
China and Russia--are also urging the DPRK to rejoin and participate 
seriously in the talks. We remain in close contact with them on this 
issue.
    As the President has stated, the Six-Party process is the way 
forward. We and our Six-Party partners are keeping the focus on getting 
the talks going again, so that we can make real progress on the agreed 
objective. At the next round of talks, we will be prepared to give a 
detailed presentation on the proposal we tabled at the talks in June, 
and to respond to questions the DPRK may have as well as to raise 
concerns we have about their proposal.

Africa: Charles Taylor
    Former Liberian President Charles Taylor continues to reside in 
Nigeria, despite the fact that he is wanted by the Special Court for 
Sierra Leone to stand trial for war crimes and crimes against humanity. 
As I understand it, it is the policy of the United States to support 
the Special Court.

    Question. How will you work with the Nigerians, the Liberians, the 
Sierra Leonians and the Court itself to resolve this issue and ensure 
that Charles Taylor is held accountable for his crimes?

    Answer. We strongly support the work of the Special Court for 
Sierra Leone and its efforts to bring to justice those who bear the 
greatest responsibility for serious violations of international 
humanitarian law. Ensuring accountability for these crimes will also 
contribute to reconciliation and to the restoration of peace in Sierra 
Leone and all of West Africa.
    The administration and the Congress share a common goal of seeing 
Charles Taylor held accountable to face the charges pending against 
him. We must remember that by accepting Taylor, Nigeria saved hundreds, 
if not thousands of Liberian citizens who were determined to fight a 
civil war in Liberia while Taylor remained in power.
    The United States is in frequent contact with the Governments of 
Nigeria and Liberia on the issue of Charles Taylor. We have made clear 
to Nigerian President Olusegun Obasanjo, Liberian Chairman Gyude Bryant 
and othersthat our mutual goal must be for Charles Taylor to appear 
before the Special Court for Sierra Leone and face the charges pending 
against him. We also continue to urge Nigeria at the highest levels to 
take steps to further contain and confine Taylor and eliminate his 
ability to endanger the peace both of our nations have worked so hard 
to establish. We have made clear to President Obasanjo, Liberian 
Chairman Bryant and others that our mutual goal must be for Charles 
Taylor to appear before the Special Court in Sierra Leone and face the 
charges pending against him. We will continue to work with them to 
ensure that this happens.

                               __________

           Responses to Questions for the Record Submitted by
                          Senator Bill Nelson

Iraq
    Question. From time to time there are whispers that the Iranian 
presence in Iraq is pervasive. What are your views on the role of the 
Iranians in Iraq? How widespread is their presence and how effective 
can they be in securing an Iraqi government they can influence? Without 
diplomatic relations with Iran, how effective can we be at competing 
with their wider influence?

    Answer. We have made clear to Iran that we will oppose actions that 
undermine Iraq's stability. Senior officials of the Iraqi Interim 
Government (IIG) have publicly voiced their concerns about Iranian 
interference in Iraq. We have also made clear to Iran that we will 
oppose actions that undermine Iraq's stability. Our policy remains that 
we are willing to engage with Iran on specific issues of mutual 
concern, in an appropriate manner, if and when the President determines 
it is in our interest to do so. Iraq is clearly one of those issues.

Afghanistan
    Question. The growing and pervasive threat of drug trafficking to 
the security and stability of Afghanistan is frightening and dangerous. 
We have ignored this problem for far too long and allowed the illicit 
opium economy to re-develop across the country. I am concerned that any 
reaction at this point will be a case of too little too late, 
particularly with such a small presence of American troops who are 
already focused on the task of capturing OBL and other Al Qaeda 
leaders. I noticed that the majority of the money being used for anti-
narcotics programs in Afghanistan is from accounts controlled by the 
State Department. How will you effectively coordinate with DOD to 
ensure that these funds are spent properly and effectively? How will we 
effectively fight the cultivation of opium poppies without alienating 
the Afghan people, threatening support for their nascent government?

    Answer. We have an important opportunity to leverage USG resources 
to support President Karzai's determination to rid Afghanistan of the 
scourge of illicit narcotics and we have developed a comprehensive USG 
counternacotics plan.
    We are also closely coordinating our efforts with the U.K. who are 
the lead international nation in the counternarcotic fight. The Afghans 
themselves will be the deciding factor in this war on drugs. They are 
determined to win this battle and we are ready to lend them a 
hand.Working closely together in Kabul, all USG agencies are focused on 
ensuring a coordinated, cost-effective and successful counter-narcotics 
effort. An Embassy Interagency Planning Group (EIPG), reporting to the 
Ambassador, facilitates coordination. General Barno, the commander of 
U.S. forces in Afghanistan, maintains an office with dedicated staff at 
Embassy Kabul that is literally steps from the Ambassador's office.
    The Department's Bureau of International Narcotics and Law 
Enforcement (INL) is responsible for implementing the eradication 
component of the USG's five-part counternarcotics plan in Afghanistan, 
and plays a substantial role in coordinating and/or implementing the 
other four parts: public information, alternative livelihoods, law 
enforcement, and interdiction.
    INL officers in Washington and Kabul work closely with the 
Department of Defense (DOD) and other agencies that are involved in 
Afghan counternarcotics, including USAID, Department of Agriculture, 
Drug Enforcement Agency, and Department of Justice, through regular 
discussions and communications. In Washington, substantial interagency 
coordination occurs through the Afghanistan Interagency Operations 
Group (AIOG), which meets several times a week. It is co-chaired by the 
State Department's Afghanistan Coordinator and an NSC senior staff 
member, and includes Defense and other interagency representatives. 
There are also periodic interagency meetings at more senior levels in 
Washington.
    The Afghan Government understands that a nation based on the 
cultivation of opium poppy is not sustainable. As one of his first acts 
following his election, President Karzai made a dramatic call for the 
elimination of the illicit narcotics trade in Afghanistan, calling it a 
direct threat to the development of a stable, democratic society that 
respects human rights and the rule of law. We believe that the Afghan 
people and their government understand the need to address this problem 
quickly.
    One of the key parts of our counternarcotics plan is an aggressive 
alternative livelihoods program, which will provide Afghans with short- 
and long-term sources of income to encourage their movement out of the 
poppy economy. Through employment, business and infrastructure 
creation, Afghans in affected areas will receive short-term cash for 
work as well as longer-term opportunities to produce, process, and sell 
marketable crops other than poppy. Alternative livelihoods programs 
will also assist the central government in working through its 
provincial ministry representatives and governors to bring legitimate 
government services to the major poppy-producing provinces.
    Another component of our plan is a robust public information 
campaign in Afghanistan. Posters and radio messages in local languages 
are already informing the Afghan public of the danger and immorality of 
narcotics cultivation and trafficking, and President Karzai has been 
speaking out forcefully against the drug trade.
    The Department looks forward to continued close consultation and 
cooperation with Congress as we support the Afghan Government's fight 
against poppies. We appreciate your continued support for the resources 
necessary to implement programs for all parts of our counternarcotics 
plan.

North Korea
    Question. What have we accomplished with our North Korea Policy 
over the past four years? Kim Jong Il remains in power and his people 
continue to suffer an arduous daily existence. We believe that he 
increased the number of nuclear weapons in his arsenal and the six-
party talks occur in fits and starts. Keeping in mind the events of the 
past four years, how are we going to alter this policy moving forward?

    Answer. North Korea has for decades pursued a nuclear weapons 
program, which threatens the entire East Asia region and the integrity 
of the global nuclear non-proliferation regime. The President has 
repeatedly made it clear he seeks a peaceful diplomatic resolution to 
the North Korea nuclear issue. The United States has adhered to three 
basic principles to achieve that outcome. First, we seek the 
dismantlement of all DPRK nuclear programs in a permanent, thorough and 
transparent manner, subject to international verification. We cannot 
accept another partial solution that does not deal with the entirety of 
the problem, allowing North Korea to threaten others continually with a 
revival of its nuclear program. Second, because North Korea's nuclear 
weapons threaten the international community, multilateral diplomacy is 
the best approach to resolving the issue. Third, we will not reward 
North Korea for coming back into compliance with their international 
obligations. To do so would only incentivize their bad behavior, and 
would send exactly the wrong signal to other rogue regimes.
    In April 2003, we held a round of trilateral discussions in 
Beijing, with China and the DPRK. We made clear future talks would need 
to include the ROK and Japan, and we welcomed the participation of 
Russia as well.
    The Six-Party Talks were launched in August 2003, with China as 
host. The five parties all told North Korea very clearly in plenary 
session that they will not accept North Korea's possessing nuclear 
arms.
    At the Second Round of talks, in February 2004, the parties agreed 
to regularize the talks, and to establish a working group to set issues 
up for resolution at the plenary meetings. The ROK offered fuel aid to 
the DPRK, if there were a comprehensive and verifiable halt of its 
nuclear programs as a first step toward complete nuclear dismantlement, 
and other non-U.S. parties subsequently expressed a willingness to do 
so as well. Also subsequent to the Second Round of talks, two sessions 
of the Working Group were held, running two to three days each.
    The United States tabled a comprehensive proposal to North Korea at 
the Third Round of Talks, in June 2004. The ROK and DPRK also tabled 
proposals. The U.S. met directly with all of the parties over the 
course of the talks, and held a two-and-a-half-hour discussion with the 
DPRK delegation. We signaled our willingness to respond to any 
questions about our proposal the DPRK might have, and have indicated 
that we have a number of questions for the DPRK about its proposal.
    Despite the agreement of all six parties in June to resume talks by 
end-September, and the willingness of five parties to hold to that 
commitment, the DPRK has not yet agreed to return to the table.
    North Korea's rhetoric notwithstanding, the U.S. leadership has 
said repeatedly that we have no intention of attacking or invading the 
DPRK. If the DPRK is prepared to give up its nuclear weapons ambitions, 
the U.S. remains ready, as we sought to convey in the third round of 
the Six-Party Talks in June, to work in the context of the Talks to 
resolve the issues between us.
    Diplomatic contacts among the Six Parties are continuing. We met 
with the North Koreans in New York twice late last year, and made clear 
we remain ready to resume the talks at an early date, without 
preconditions, and asked that they return to the table. We have also 
met with our partners in the talks, in Seoul, Tokyo and Beijing. All of 
us agree that the Six-Party process is the way forward and that the 
only acceptable outcome is the complete, verifiable and irreversible 
dismantlement of all nuclear programs in North Korea.
    The door is open for the DPRK, by addressing the concerns of the 
international community, to vastly improve the lives of its people, 
enhance its own security, normalize its relations with the U.S. and 
others, and raise its stature in the world. The United States, working 
with our allies and others, remains committed to resolving the nuclear 
issue through peaceful diplomatic means. We have laid out the path to a 
peaceful resolution of the nuclear issue. The only thing that is 
missing is a strategic decision by Pyongyang to recognize that its WMD 
programs make it less, not more secure and to negotiate in earnest.

Haiti
    Question. Haiti remains a country teetering on the edge of 
disaster. A small contingent of peacekeeping troops is all that 
prevents Haiti from once again descending into chaos. Bearing this in 
mind, why is the UN peacekeeping mission in Haiti still undermanned 
seven months after its initial authorization by the UN Security 
Council? Haiti is short 1,910 military personnel out of a total 
authorization of 6,700 and 352 short of a total authorization of 1,622 
for civilian police. In other words, the military personnel are only at 
70% strength and civilian police only stand at 78%. Do you find this 
acceptable? What are the specific steps that will be taken to rectify 
this situation, recruiting the necessary forces and ensuring that they 
are effectively supported on the ground?

    Answer. The UN Stabilization Force in Haiti (MINUSTAH) now has 
6,334 of the 6,700 troops and 1,398 of the 1,622 civilian police 
authorized by the Security Council. We continue to work with the UN 
Department of Peacekeeping Operations to ensure that additional and 
appropriate police and troop personnel are assigned to Haiti.
    The Brazilian-led UN Mission has begun to establish a presence in 
the hardest-hit areas of Port au Prince. Security remains a major 
challenge and we fully support the UN in its job of providing security 
and training and vetting new and existing HNP so the Haitians can take 
responsibility for their own security. To that end, we have provided 25 
US CIVPOL to the MINUSTAH mission, and are providing over $6 million in 
bilateral support to build the capacity of the HNP.


    Question. What specific countries were contacted by our government 
to encourage their participation in this mission? Are you satisfied 
that the U.S. has contacted an appropriate number of countries to 
encourage and support their participation in the UN peacekeeping 
mission in Haiti?

    Answer. The United Nations has the primary responsibility to 
request that Member States contribute forces and personnel to UN 
peacekeeping operations. Working closely with the UN Department of 
Peacekeeping Operations, the U.S. separately contacted Jordan, Brazil, 
Argentina, Nepal, Uruguay, Canada, France, Italy, Chile, Peru, 
Honduras, El Salvador, Guatemala, Ecuador, the Philippines, and 
Paraguay to encourage their participation in the UN Stabilization 
Mission in Haiti (MINUSTAH).
    We are satisfied that we contacted the appropriate number of 
countries that we believed would participate. MINUSTAH's force level is 
now close to the maximum authorized strength of 6,700.


    Question. The tragic storms and subsequent flooding in Gonaives 
resulted in a terrible loss of life and subsequent dislocation for many 
Haitians. What was the U.S. commitment to supporting the rehabilitation 
of these communities? What is our current commitment? Are you satisfied 
with results that have been achieved in recuperating these communities?

    Answer. We have made $46 million in assistance, including $38 
million from the supplemental appropriation, available for the 
rehabilitation of areas affected by flooding during Tropical Storm 
Jeanne. We greatly appreciate the bipartisan support we received from 
Congress to assist the Haitian people recover from this disaster.
    We have signed contracts for rehabilitation of irrigation systems, 
hillside stabilization, road repair, and other infrastructure projects. 
Over 5,000 Haitians are employed by USAID's Office of Foreign Disaster 
Assistance in a clean-up program that has removed 15,300 cubic meters 
of mud from the city of Gonaives. Food is being provided to 
approximately 80,000 people and we have repaired ten pumps that are 
being used for irrigation and drinking water. Silt is being removed 
from the primary canals to further increase water availability and ten 
tons of bean seeds have been distributed to farmers.
    We have made a long-term commitment to the affected area and are 
focused not only on repairing the damage, but the environmental causes 
for the flooding.

    Question. What is the goal of U.S. policy towards Haiti? I suggest 
that it is long-term support to establish a stable democratic 
government that guarantees the security and economic well-being of its 
people. But U.S. policy over the last several years was a series of 
fits and starts, which has not fostered the profound changes that can 
be achieved through a deep and steadfast commitment. What are the 
specific steps as Secretary of State that you will take to ensure that 
we create a stable and safe Haiti?

    Answer. Our goals in Haiti are to give the Haitian people the tools 
they need to create a democratic government, stable institutions and a 
viable economy. To achieve this, the international community and we are 
first working to stabilize the security situation. This is accomplished 
through the UN Stabilization Mission, which along with the Haitian 
National Police has primary responsibility for security, and through 
the promotion of economic growth and the development of sound political 
institutions. Elections this fall will be vital to the establishment of 
a democratic government that, with broad popular support, can build on 
the momentum of the Interim Government to address the vast social and 
economic challenges Haiti faces. One of the lessons learned from prior 
interventions in Haiti is the need to proceed steadily and for the long 
haul, which the UN and we are prepared to do.
    Haitians face serious and daunting challenges to establishing a 
viable democracy and the rule of law. Haitians are the first to concede 
their history has been too often characterized by violence, 
authoritarianism and criminality. Former President Aristide's 
administration sadly followed that model. The Interim Government of 
Haiti has begun the process of establishing the rule of law to give the 
Haitian people the quality government they deserve. Aristide's lawful 
resignation and departure opens the door for this in the first time in 
a decade.
    The job of building Haitian democracy is up to Haitians themselves, 
but the U.S. and the international community can and will help them 
build viable institutions and institute good governance.

    Question. Why has the administration not come out in support of the 
HERO act introduced by my colleague Senator DeWine? This legislation 
provides Haiti with economic advantages that would attract industry and 
create jobs for the Haitian people. We must restore a sense of hope to 
the Haitian people. This legislation offers only the first small step 
in that direction. But it appears that the administration is not even 
committed to this step, casting our overall commitment into question.

    Answer. We strongly support the people of Haiti. We continue our 
efforts to help the Interim Government to build a more prosperous 
economy. Clearly, Haiti's economic development is in the U.S. interest. 
Creating economic opportunity in Haiti will make Haitians less 
dependent on foreign assistance for survival. It will help deter 
illegal migration and provide alternatives to drug smuggling as a 
source of income. It will increase the government's revenue base and 
the country's overall stability.
    The United States has taken broad steps to assist Haiti, including 
a pledge of $230 million at the World Bank Donors' Conference, which 
included $22 million to support economic growth and job creation. While 
the Senate passed the HERO legislation in the last Congress, the House 
took no action and the administration has not taken a position on the 
HERO legislation. If confirmed, I want to work with the Congress to 
fashion legislation that will find the right balance between job growth 
in Haiti and maintaining jobs here at home.

Colombia
    Question. Please provide an update on the status of the three 
American hostages, Marc Gonsalves, Thomas Howes, and Keith Stansell, 
held by the FARC in Colombia. How regularly are their families 
contacted and updated on the situation? I want to ensure that you will 
personally raise this issue at every opportunity with the Colombian 
government to make certain that these men are brought home safely and 
as soon as possible.

    Answer. In Colombia, there is no higher priority for the United 
States Government than the safe return of Marc Gonsalves, Thomas Howes, 
and Keith Stansell, whose captivity will reach two years on February 
13, 2005.
    Our continued efforts to locate the hostages include employing all 
assets of national power: diplomatic, financial, intelligence, law 
enforcement, military, and public diplomacy. In Washington, Miami, and 
Bogota, dedicated U.S. Government officials are working daily to bring 
them home.
    We are working closely with the Colombian government and other 
governments. We have and will continue to raise this issue at the 
highest levels. President Bush and President Uribe most recently 
discussed the situation during their Cartagena meeting in November 
2004. Ambassador Wood is in frequent contact with President Uribe and 
his cabinet about the three Americans. The Government of Colombia is 
providing the fullest cooperation possible.
    The Department's Bureau of Consular Affairs (State/CA) has been the 
principal point of contact with the hostages' families on behalf of the 
U.S. Government since February 2003. An officer in the Consular 
Bureau's Directorate of Overseas Citizen Services calls family members 
every week to keep them updated. The State Department hosted each 
family for a day of briefings from interagency representatives in 
February, March and April 2004, as part of our continuing efforts to 
keep them informed, respond to their questions and concerns personally, 
and remain in close touch with them. The Department is preparing to 
hold another round of meetings soon. The Department of Justice and FBI 
have also had direct contact with the families.
    If confirmed, you have my commitment that the State Department and 
I personally will continue to utilize every opportunity to raise the 
issue of the safe return of Marc Gonsalves, Keith Stansell, and Thomas 
Howes and to work for their safe return.

Latin America
    Question. In Latin America there are troubling trends in both 
security and democracy. We see frightening movements of Al Qaida and 
other international terrorist organizations that indicate an expansion 
of their operations in Latin America. We also see democratically-
elected leaders govern in undemocratic ways, while others are too weak 
to govern properly and in some cases are forced to resign because they 
are ineffective. How do we balance these critical but sometimes 
competing interests? We must tread carefully to ensure that we do not 
jeopardize our interests in strengthening democracy as we work to 
secure these countries from the threats of international terrorism.

    Answer. Enhancing security and promoting democracy must go hand-in-
hand. For example, our efforts to strengthen the rule of law help Latin 
Americans to tangibly feel the benefits of the rule of law. In turn, 
this renewed faith in their governments provides a critical buffer 
against support for illegal groups active in the region.
    We will continue to support justice and law enforcement programs 
that create the environment necessary for democracy to thrive. At the 
same time, we will help our partners develop the necessary capacities 
to combat terrorists within their national territories We will also 
assist them in protecting critical infrastructure such as the Panama 
Canal, as well as strengthen regional mechanisms that address 
terrorism.
    Multilaterally, we will support OAS efforts to both strengthen 
democracy and build effective counter-terrorism capacities, focused on 
increased border and financial controls, transportation security 
(aviation and ports), and cyber-security. In pursuing our goals, we 
will diligently promote adherence to the principles of democracy, 
including respect for the rule of law, human rights and fundamental 
freedoms, and shine a light on activities of leaders who govern 
undemocratically.


    Question. President Bush made the Western Hemisphere one of his top 
priorities at the beginning of his first administration. After 
September 11, his attention naturally refocused to other areas of the 
world. After three years, we have seen the troubling results of turning 
our backs too strongly on this region. Latin America continues to face 
difficult issues of security drug trafficking, poverty, disease, and 
instability. As Secretary of State, how will you make Latin America 
again a priority?

    Answer. While events elsewhere in the world have demanded increased 
attention and resources, President Bush has continued to recognize the 
strong economic, political, security, and cultural ties that inexorably 
link together the countries of the Western Hemisphere. Our policy 
toward the Western Hemisphere focuses on bolstering security, 
strengthening democracy, promoting prosperity and investing in people--
all within a multilateral framework.
    We will have two unique opportunities in 2005 to reinforce and 
demonstrate the high priority that we place on the Hemisphere: the 
General Assembly of the Organization of American States scheduled for 
June and hosted by the Secretary of State in Ft. Lauderdale, Florida 
and the November Summit of the Americas in Argentina.
    Building on the recent successes in the Hemisphere and the strong 
bipartisan support in Congress for our policies in the region, we will 
continue to focus our efforts on reducing drug production and 
trafficking, combating poverty, and confronting instability in the 
region. Our successes in Colombia, from counterterrorism operations and 
coca eradication to alternative development, strongly demonstrate how 
U.S. support can make a critical difference.
    In a similar vein, the U.S. has committed to improve health and 
reduce infectious diseases through the Global AIDS Initiative and the 
Summit of the Americas process. Our free trade initiatives, including 
trade capacity building, are eliminating trade barriers, opening new 
markets, and committing countries to modern trading rules. These 
efforts demonstrate the importance the U.S. places on such an important 
region.

Russia
    Question. The situation in Russia becomes more troubling every day. 
President Putin appears determined to dismantle the democratic 
institutions that were created in Russia over the past decade. I am 
troubled that the administration has not taken a more vocal stand in 
criticizing President Putin's actions. As a student of Russia, you must 
be troubled by this situation. As Secretary of State how will you 
approach this problem?

    Answer. The consolidation of democracy in Russia is in our 
strategic interest, as we believe it is in Russia's. A stable, healthy, 
democratic Russia will make a stronger partner internationally. We must 
first recognize that the Russia of today bears little resemblance to 
the Russia that emerged from the breakup of the Soviet Union. Progress 
has been made on the path towards a free market-based democracy.
    However, progress has not been even, and recent trends show 
considerable backsliding. We need to remain engaged with Russia. 
Efforts to isolate it would only further encourage the domestic trends 
we find most troublesome. As part of that engagement, we need to share 
with our counterparts at all levels of the Government of Russia our 
questions and concerns regarding the detrimental impact backsliding on 
democracy will have on our relationship. We must also continue to 
maintain close relations with those individuals and groups in Russia 
that are advocating for democratic values and institutions. We must 
continue to provide robust support for programs that strengthen the 
rule of law, help fight corruption, and defend democratic values in 
Russia. We must continue to support linkages between American and 
Russian institutions and individuals that focus on these issues. In FY 
2005, we plan to spend over $43 million for democracy programs in 
Russia--about a third more than we did in FY 2004. And we need a robust 
program of public outreach to show Russians how democratic institutions 
and practices have helped the United States meet the challenges we both 
face in the 21st Century. If confirmed, I look forward to working with 
the Congress to ensure continued strong support for democratization in 
Russia.

                               __________
?

      

                                     

APPENDIX II--ADDITIONAL MATERIAL INCLUDED IN THE RECORD AT THE REQUEST 
                      OF MEMBERS OF THE COMMITTEE

      Prepared Statement Submitted by Senator Russell D. Feingold
(Submitted as part of the 1/19/2005 Business Meeting Prior to the Vote)

    I cast my vote in favor of the confirmation of Dr. Rice to be 
Secretary of State because I believe that the president has the right 
to appoint cabinet officers who share his ideology and his perspective. 
Barring serious concerns about a nominee's qualifications or ethical 
record, and in keeping with Senate practices and precedents, my 
inclination is to give the President--any President--substantial 
deference in his cabinet choices.
    However, I want to be clear that I was troubled by some of Dr. 
Rice's statements in the hearing. Our most senior diplomat, our 
emissary to the entire world, should be able to represent our core 
values. Dr. Rice's failure, and the failure of the administration, to 
categorically reject tactics that the average American would 
acknowledge to be torture is more than disappointing. It is dangerous, 
and it is unacceptable.
    I also want to state, as I have before, that the President's 
foreign policy over the last four years has been, on many fronts, 
misguided and self-defeating. I am troubled by the damage done to our 
image around the world; I am concerned by our loss of focus in fighting 
terrorism; I am angry about the use of shifting justifications and 
faulty information to sell the war in Iraq; I am angry about the 
failure to plan for the fact that overthrowing a regime leads to 
disorder and disorder leads to looting; I am angry about the official 
insistence on grossly underestimating the bill that would be handed to 
the American taxpayer and then declining to budget for this massive 
expense once its parameters became more clear; I am angry about the 
mismanagement of efforts to put a competent Iraqi security force in 
place; I am angry about the woefully slow pace of reconstruction, and I 
am angry about this administration's failure to ensure that our troops 
were adequately equipped for the circumstances in which they found 
themselves. Many people in this country and in this Congress are 
troubled not only by the mistakes, but by the fact that there appears 
to be no real accountability for these failures.
    At one point in the course of the hearing, Dr. Rice expressed some 
indignation regarding questions or remarks that she felt impugned her 
credibility. Her credibility is a legitimate question. Dr. Rice made 
sweeping, public characterizations about aluminum tubes sought by Iraq 
before the war began that were, quite plainly, misleading. She 
permitted a reference to Iraq seeking uranium from Africa, a reference 
that she knew the intelligence did not support, to be included in a 
major Presidential address. She has a credibility problem, not just 
among skeptics in this country, but around the world. And to explore 
that issue in this forum was entirely appropriate.
    The American people elected President Bush, and, like any 
President, he is entitled to a cabinet that reflects his views. But I 
will continue to oppose every bad policy, to question every baseless 
assertion, and to advocate for a wiser course that will make our 
country more secure. The stakes are far too high for me to do anything 
else.

                               __________
      

                                 (273)

                          U.S. Department of State,
                                    Washington, D.C. 20520,
                                                   August 11, 2004.
The Hon. Richard G. Lugar,
Chairman, Committee on Foreign Relations,
U.S. Senate, Washington, D.C.

Dear Mr. Chairman:

    The Department supports the purposes of S. 2127 and the 
Administration has been leading a similar effort as recently notified 
to your committee. The Secretary has established an Office of the 
Coordinator for Reconstruction and Stabilization (S/CRS) within the 
Office of the Secretary. S/CRS will oversee and coordinate intra-
Departmental and interagency civilian post-conflict and crisis response 
efforts. This Office's vision is largely in line with the vision in 
your bill.
    The Department is currently working to secure necessary interagency 
involvement including details from key agencies to provide requisite 
expertise in specialized areas of reconstruction, stabilization, and 
humanitarian assistance. The Department is also developing an 
Operational Readiness Reserve concept to enable and test methods for 
agile and responsive mobilization of staff to meet these needs. 
Experience gained in the formation and initial operation of S/CRS will 
inform Administration decisions that could lead to creation of a more 
robust Office of Stabilization and Reconstruction Operations. As 
currently envisaged, this office would have many of the attributes 
called for in S. 2127.
    During this formative stage, sufficient authority exists to 
establish S/CRS and develop the concept to mobilize agency resources. 
As we move forward, we will work with you and provide more detailed 
comments on the entire bill. However, of greatest immediate benefit 
would be the provisions set forth in Section 5 of S. 2127 that 
authorize the President's request for a $100 million account to meet 
immediate needs in a complex crisis and provide other special 
assistance authorities including waiver of certain transfer and 
drawdown limitations. The ability to reallocate resources from a broad 
range of accounts in a time of crisis is essential if there is to be an 
effective and timely response to the situation in the affected country 
or region. We would appreciate your support in securing appropriations 
and authorities in Section 5.
    The Department greatly appreciates the willingness of your 
Committee to address how best to respond to failing, failed, or post-
conflict states. The Department looks forward to working with you on 
creating the resource framework for the new Office in the near term and 
on future efforts that could lead to building a robust operational 
capability in sequence.
    The Office of Management and Budget advises that there is no 
objection to the submission of this report from the standpoint of the 
President's program.

        Sincerely,

                                 Peter N. Petrihos,
                                Acting Assistant Secretary,
                                               Legislative Affairs.

                               __________

   Charts Detailing U.S. Trade Deficits Submitted by Senator Sarbanes


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                               __________

                             The Right Call

                         By L. Paul Bremer III,
          The Wall Street Journal, January 12, 2005; Page A10

    Recently some Monday morning quarterbacks have questioned the 
Coalition's decision to ``disband'' Saddam's army and bar senior 
Baathists from government jobs after we liberated Iraq. These were the 
right decisions. They served an important strategic purpose and 
recognized realities on the ground after the war.
    The Coalition's objectives in Iraq went beyond ``regime change.'' 
President Bush made clear that we were going to help Iraqis create ``a 
New Iraq,'' an Iraq freed from Saddam's unparalleled cruelty toward his 
own citizens. For more than three decades, the dictator had used the 
army and intelligence services to inflict misery, torture and death on 
Iraqis and their neighbors. The Baath Party was another important 
instrument of Saddam's tyranny. Saddam explicitly modeled his efforts 
to control Iraqi society on the Nazis. ``Mein Kampf'' was required 
reading for members of his intelligence services.
    In the north, Saddam repeatedly used his army to repress the Kurds, 
once employing chemical weapons to kill more than 5,000 in a single 
day. In the South, after the 1991 uprising, Saddam ordered his army to 
sweep up Shia men, women and children indiscriminately. They were 
transported to nearby fields on flatbed trucks, machine-gunned en masse 
and thrown into open pit graves. So far, almost a hundred of these mass 
graves have been found, monuments to Saddam's army's brutality toward 
Iraq's citizens. Conservative estimates are that Saddam's security and 
intelligence forces killed at least 300,000 of their fellow countrymen. 
The true number of victims will never be known because over a million 
and a half Iraqis are still missing.
    After Liberation, the Coalition felt it was vital to reassure the 
Iraqi people that in the New Iraq these organizations would no longer 
be used as instruments of repression. And so the Coalition prohibited 
the top 1% of the Baath Party from continuing in government service and 
``disbanded'' what was left of Saddam's military and security forces. 
The political importance of these decisions cannot be exaggerated. 
During my time in Iraq, Iraqi citizens from all over the country, from 
every sect, religion and ethnic group, repeatedly praised the de-
Baathification and disbanding of Saddam's security forces as the 
Coalition's most praiseworthy decisions. An opinion poll in early July 
2003 revealed that over 94% of Iraqis agreed that top Baathists should 
not be allowed in government.
    Kurdish leaders told me that the decree on the security services 
convinced the Kurds that the Coalition was serious about creating a 
united Iraq. That reassurance, they explained, was the decisive factor 
in the Kurdish decision to remain inside a united Iraq. If instead the 
Kurds had seceded, civil war would have followed. And a civil war in 
Iraq would have quickly become a regional war. The Shia, victims of 
wholesale slaughter by Saddam's army, delighted in the prospect of a 
New Army no longer dominated by Saddam's henchmen. They welcomed our 
promise that Shia men would be able to play an important role in that 
New Army.
    There was a practical side to our decision, too. By the time 
Baghdad and Tikrit fell, the Iraqi army had already disbanded itself. 
There was not a single organized Iraqi military unit intact after mid-
April 2003.
    The majority of Saddam's soldiers had been young Shia conscripts. 
These enlisted men were subjected to brutality and abuse by their 
mostly-Sunni officers. Conscripts who were not killed or captured 
during the war not surprisingly took advantage of the war's end to 
desert. Grateful to be alive, hundreds of thousands of enlisted men 
simply went back to their farms and families. Trying to get them to 
return voluntarily would have been a brutal undertaking. Do critics 
seriously propose that the Coalition should have gone into Iraqi homes 
and farms and forced these conscripts back into the hated army?
    Critics also ignore the political turmoil which would have resulted 
from reviving Saddam's armed forces. Last April, there was widespread 
outrage when a few hundred former army officers were brought back by 
the U.S. Marines in an effort to create a ``Fallujah Brigade.'' Imagine 
the reaction if at Liberation we had tried to recall tens of thousands 
of officers. The former army men did not go home empty-handed. Many of 
them, and looters, stripped their bases and barracks clean. They took 
not only anything which would move, but a lot that was nailed down--the 
sinks, faucets and toilets and even the tile and piping in the 
bathrooms. In many military bases at Liberation not a single brick was 
left standing on another. No base was usable without major repairs.
    So not only was there no Iraqi army left. There would have been no 
place to put an army if we had wanted to recall it. It has taken a year 
and billions of dollars just to reconstitute the facilities and 
equipment necessary for the New Iraqi Army. Nonetheless the Coalition 
understood the need to provide a future for the former army members. We 
immediately began recruiting the New Army and announced that members of 
the old army, with the exception of its top officers, would be welcomed 
into it.
    Today, more than three-quarters of the enlisted men in the New Army 
and virtually all of the officers and NCOs served in the old army. 
Moreover, in July 2003 we began paying a monthly stipend to all but the 
most senior former officers. These payments continue to this day. So if 
any former army officers are involved in the insurgency, it is not for 
money. Their objective is simply to retake power and to return Iraq to 
its horrible past. The fact that Iraq's new security forces are still 
not performing well enough to take full responsibility for Iraq's 
security underscores that creating a well-equipped, professional army 
cannot be done over night. The problems those forces face today would 
be even worse if, instead of a fresh start, we had tried to restore 
Saddam's old system.
    The decision to ``disband'' the Iraqi security forces was approved 
by the military commander on the ground and by America's senior 
civilian leadership. It was the right call. This decision, coupled with 
the prohibition of the top 1% of the Baath Party from government 
employment, signaled to the Iraqi people the birth of a New Iraq, one 
in which the security forces would no longer threaten their freedoms.

    Mr. Bremer was administrator of the Coalition Provisional Authority 
from May 2003 to June 2004, when sovereignty was returned to Iraq.

                               __________

 Comprehensive Report of the Special Advisor to the DCI on Iraq's WMD,
                           30 September 2004

    [The information below is from the complete report which can be 
                              accessed at:
              http://www.cia.gov/cia/reports/iraq_wmd_2004

                                nuclear
Key Findings
    Iraq Survey Group (ISG) discovered further evidence of the maturity 
and significance of the pre-1991 Iraqi Nuclear Program but found that 
Iraq's ability to reconstitute a nuclear weapons program progressively 
decayed after that date.

  <bullet> Saddam Husayn ended the nuclear program in 1991 following 
        the Gulf war. ISG found no evidence to suggest concerted 
        efforts to restart the program.

  <bullet> Although Saddam clearly assigned a high value to the nuclear 
        progress and talent that had been developed up to the 1991 war, 
        the program ended and the intellectual capital decayed in the 
        succeeding years.

    Nevertheless, after 1991, Saddam did express his intent to retain 
the intellectual capital developed up during the Iraqi Nuclear Program. 
Senior Iraqis--several of them from the Regime's inner circle--told ISG 
they assumed Saddam would restart a nuclear program once UN sanctions 
ended.

  <bullet> Saddam indicated that he would develop the weapons necessary 
        to counter any Iranian threat.

    Initially, Saddam chose to conceal his nuclear program in its 
entirety, as he did with Iraq's BW program. Aggressive UN inspections 
after Desert Storm forced Saddam to admit the existence of the program 
and destroy or surrender components of the program.
    In the wake of Desert Storm, Iraq took steps to conceal key 
elements of its program and to preserve what it could of the 
professional capabilities of its nuclear scientific community.

  <bullet> Baghdad undertook a variety of measures to conceal key 
        elements of its nuclear program from successive UN inspectors, 
        including specific direction by Saddam Husayn to hide and 
        preserve documentation associated with Iraq's nuclear program.

  <bullet> ISG, for example, uncovered two specific instances in which 
        scientists involved in uranium enrichment kept documents and 
        technology. Although apparently acting on their own, they did 
        so with the belief and anticipation of resuming uranium 
        enrichment efforts in the future.

  <bullet> Starting around 1992, in a bid to retain the intellectual 
        core of the former weapons program, Baghdad transferred many 
        nuclear scientists to related jobs in the Military Industrial 
        Commission (MIC). The work undertaken by these scientists at 
        the MIC helped them maintain their weapons knowledge base.

    As with other WMD areas, Saddam's ambitions in the nuclear area 
were secondary to his prime objective of ending UN sanctions.

  <bullet> Iraq, especially after the defection of Husayn Kamil in 
        1995, sought to persuade the IAEA that Iraq had met the UN's 
        disarmament requirements so sanctions would be lifted.

    ISG found a limited number of post-1995 activities that would have 
aided the reconstitution of the nuclear weapons program once sanctions 
were lifted.

  <bullet> The activities of the Iraqi Atomic Energy Commission 
        sustained some talent and limited research with potential 
        relevance to a reconstituted nuclear program.

  <bullet> Specific projects, with significant development, such as the 
        efforts to build a rail gun and a copper vapor laser could have 
        been useful in a future effort to restart a nuclear weapons 
        program, but ISG found no indications of such purpose. As 
        funding for the MIC and the IAEC increased after the 
        introduction of the Oil-for-Food program, there was some growth 
        in programs that involved former nuclear weapons scientists and 
        engineers.

  <bullet> The Regime prevented scientists from the former nuclear 
        weapons program from leaving either their jobs of Iraq. 
        Moreover, in the late 1990s, personnel from both MIC and the 
        IAEC received significant pay raises in a bid to retain them, 
        and the Regime undertook new investments in university research 
        in a bid to ensure that Iraq retained technical knowledge.

                               __________

                   The White House Regular Briefing,
                      April 10, 2003, Thursday \1\
---------------------------------------------------------------------------

    \1\ A transcript of the complete White House Briefing will be 
maintained in the committee's permanent files.
---------------------------------------------------------------------------
    Briefer: Ari Fleischer, White House Spokesman

    Location: White House Briefing Room, Washington, D.C.

          * * * * * * *
    Questioner. Ari, on weapons of mass destruction, British Prime 
Minister Blair said a couple days ago in Belfast that after the regime 
fell, that we, the coalition, would be led to them. That was his words. 
Yesterday Defense Secretary Rumsfeld was offering rewards for Iraqis to 
prevent the regime from either destroying documents or destroying 
materials or shipping them out to the country. So, I mean, what's the 
bigger picture here` Are we in a position--is the United States in a 
position where we have to rely on people on the ground to ultimately 
get to the very weapons that we say Iraq has and that we've been after?

    Mr. Fleischer. Well, I think there are two principal things that 
involve the Iraqi people in the efforts to determine where their 
weapons of mass destruction are. One is the people who are involved in 
it and want to do everything they possible can to destroy all the 
evidence of their involvement in it. Obviously, those people are the 
problem. And then there are other people who may have knowledge about 
it who want to provide that knowledge to the United States or to 
coalition allies so that evidence of mass destruction can indeed be 
unearthed or found. And I think we'll see both on the ground in Iraq. I 
think it is something that will be found We've always that we have 
information that they have weapons of mass destruction. The precise 
location of where it is is information that the Iraqi people can be 
helpful with.

    Questioner. Well, but--okay. But you're saying now that--I mean, it 
appears that we really are relying on people to lead us to them rather 
than knowing where these materials are. And if we don't have that sort 
of cooperation, I mean, are we going to come up empty here?

    Mr. Fleischer. I think you've always heard and you continue to hear 
from officials a measure of high confidence that indeed the weapons of 
mass destruction will be found. What we have is a regime that was a 
master at hiding it, that have set up a very large and elaborate 
infrastructure for the sole purpose of hiding it. And the military 
conflict goes through its various phases and we turn the corner from 
actual military conduct, military operation, to more of a pursuit of 
where the weapons of mass destruction are, then I think additional 
information will come in. And we don't rule out that it can come in 
thanks to the help of the Iraqi people.
    And I think additional information will come in, and we don't rule 
out that it can come in thanks to the help of the Iraqi people.

    Questioner. But I'm trying to nail this down. You're--either the 
bad actors are going to slip and tell you about it, lead you to it or 
present it to you, or people who are as the good actors are going to 
tip you off, you know, once you're there and lead you to the materials, 
that right now the government forces on the ground are not in a 
position independently to get to where the major caches----

    Mr. Fleischer. No, you can't rule out that the coalition forces 
might find something along their travels on the ground.

    Questioner  [continuing]. ----because you know who it is.

    Mr. Fleischer. Well, they're involved in military operations. And 
Iraq has been hiding it. But what we have is intelligence about their 
having it. Whether it was specific location or not is often not the 
case. But keep in mind the rescue of Jessica Lynch, for example. That 
was developed as a result of information provided to us by an Iraqi 
citizen. And so we of course were on the lookout for our POWs. We had 
our antenna up doing everything we could to find them. We have means to 
be able to do certain things. But there's a limit to these means. The 
more that there is help from the Iraqi people, the easier the effort.
    Ron?

    Questioner. I'm not asking for specifics, but I want to know 
specifically if the United States knows where a cache of WMD is?

    Mr. Fleischer. Well, we have----

    Questioner  [continuing]. ----(inaudible)--if the site was 
(cleaned?), they could go to it again.

    Mr. Fleischer. What we have always said is that we know that they 
had it, and they are expert at hiding it.

    Questioner. Do you know where any of it is?

    Mr. Fleischer. Ron, we have always said we know they have it; they 
are expert at hiding it. I can't discuss all intelligence 
information,and this is something Secretary Powell talked about when he 
went to the United Nations and talked about their abilities to hide. 
But make no mistake, we maintain high confidence that they have it and 
it will be found.
    David?

    Questioner. Do we know where any of it is?

    Mr. Fleischer. David?
          * * * * * * *
    Questioner. Ari, part of the reason for the war was WMD. Now, well 
into the war, WMD has not been found. The American public is going to 
the television every morning, listening to the radio every morning, 
trying to find out if indeed WMD was found. Does the administration 
feel there's some awkwardness right now with these statements of 
``they're professional at hiding'' and ``we know it's there?'' I mean, 
is there some sort of awkwardness about the fact that this has not been 
found as of yet?

    Mr. Fleischer. No. We know Saddam Hussein is there, but we haven't 
found him yet either. I mean, the fact of the matter is, we are still 
in a war, and not everything about the war is yet known. But make no 
mistake; as I said earlier, we have high confidence that they have 
weapons of mass destruction. That is what this war was about and is 
about. And we have high confidence it will be found.
          * * * * * * *

                               __________

     Correspondence from the White House Regarding H.R. 10/S. 2845 
                   (Intelligence Reform Legislation)

                                   The White House,
                                            Washington, DC.
                                                  October 18, 2004.
The Hon. Peter Hoekstra,
United States House of Representatives,
Washington, D.C. 20515.

The Hon. Susan Collins,
United States Senate,
Washington, D.C. 20510.

Dear Representative Hoekstra and Senator Collins:

    As the House-Senate conference on intelligence reform legislation 
(H.R. 10/S. 2845) meets, the Administration urges the Conferees to 
reach agreement on an effective bill to strengthen the nation's 
intelligence capabilities that both Houses can pass and the President 
can sign into law as soon as possible to meet the nation's security 
needs. There are many good provisions in both bills and the President 
endorses the best of each as outlined in this letter to strike a 
reasonable compromise that will best reorganize our intelligence 
capabilities and will make the country safer and stronger. The 
Administration appreciates the significant efforts of the House and 
Senate to date in passing H.R. 10 and S. 2845, and looks forward to 
continuing to work closely with the Conferees on this historic 
legislation.
    The Administration is pleased that a majority of the provisions of 
the President's legislative proposal, dated September 16, 2004, are 
included in either the House or Senate versions of the legislation. 
America is a nation at war, and the Conferees have an opportunity to 
contribute to the passage of a bill that takes another important step 
forward as we do everything in our power to defeat terrorism and 
protect the American people. These provisions include creating a 
National Intelligence Director (NID) with full budget authority, 
providing important statutory authorities for the newly created 
National Counterterrorism Center (NCTC), preventing the disclosure of 
highly sensitive budget information to our nation's enemies, especially 
during wartime, and preserving the chain of command.
    This letter addresses a number of important provisions in H.R. 10 
and S. 2845 that the Administration supports, as well as a number of 
provisions that the Administration opposes, for the reasons generally 
described below. This letter does not purport to address the 
Administration's comprehensive position on all of the provisions 
contained in H.R. 10 or S. 2845.
National Intelligence Director
    Budget Authority. The Administration supports the strong budget 
authority provided to the NID in S. 2845. To be effective, the NID must 
have clear authority to determine the national intelligence budget, 
strong transfer and reprogramming authorities, explicit authority to 
allocate appropriations, and the ability to ensure execution of funds 
by national intelligence agencies consistent with the direction of the 
NID. S. 2845 would provide such budget authority.
    The Administration is pleased that H.R. 10 would prevent disclosure 
of sensitive information relating to the intelligence budget. 
Disclosing to the nation's enemies, especially during wartime, the 
amounts requested by the President, and provided by the Congress, for 
the conduct of the nation's intelligence activities would harm the 
national security.
    Chain of Command. The Administration again stresses the importance 
of section 6 (``Preservation of Authority and Accountability'') of the 
President's proposal; the Administration strongly supports the 
inclusion of this provision by the Conferees. Inclusion of this section 
is essential to preserve in the heads of the executive departments the 
unity of authority over, and accountability for the performance of, 
those departments (including accountability for implementing the NID's 
statutory-based guidance). The section also recognizes that the 
authority of the Director of the Office of Management and Budget is 
unaffected. In addition, the Administration notes that many of the 
specific concerns with the NID provisions noted below relate to 
ensuring that the legislation does not interfere with clear lines of 
authority within the Executive Branch and does not, by excessive 
specification of management structures, confuse lines of authority or 
interfere with areas in which the Executive should retain discretion.
    Management Structure. The Administration is gravely concerned about 
the excessive and unnecessary detail in the structure of the Office of 
the NID included in both the House and Senate bills. The voluminous and 
bureaucratic requirements create confused chains of command, diminish 
accountability, and foster a risk-adverse culture. Such a structure 
will undermine rather than promote the ability of the national security 
community to carry out its responsibilities. The provisions of S. 2845 
would, in the aggregate, construct a cumbersome new bureaucracy in the 
Office of the NID with overlapping authorities and responsibilities. 
This legislatively mandated bureaucracy is inconsistent with the final 
report of The National Commission on Terrorist Attacks Upon the United 
States (``9/11 Commission'') and will hinder, not help, in the effort 
to protect the national security and preserve our constitutional 
rights. Many of the details contained in these provisions overlap with 
standard authorities of an Inspector General and a privacy officer. The 
bill should not create additional layers of investigative offices and 
staffs that will harm national security and prevent these officers from 
carrying out their duties. The Administration opposes creation of the 
Ombudsman of the National Intelligence Authority and the Analytic 
Review Unit, and also opposes provisions that allow a subordinate 
officer to oversee or otherwise supervise the work of his superior. The 
Administration opposes the requirements in S. 2845 that the General 
Counsel for the NID be appointed from civilian life; this requirement 
interferes with the President's ability to pick the best qualified 
candidate. We urge the conferees to adopt the President's proposal 
relative to the structure of the Office of the NID.
    The Administration also notes that in August the President 
established a civil liberties board ``within the executive branch'' (as 
called for by the 9/11 Commission) to further safeguard the rights of 
Americans (Executive Order 13353 of August 27, 2004). The 
Administration therefore opposes as unnecessary efforts to duplicate 
our ongoing efforts to protect civil liberties and privacy by the 
creation of another executive branch board. One of the most significant 
findings of the Commission Report is that agencies need to act more 
flexibly, rapidly, and together to protect national security. America 
needs an Intelligence Community that is focused on protecting America, 
while ensuring necessary protections for the rights of Americans as 
reflected in the President's Executive Order.
    The Administration is also concerned with the conforming amendment 
in H.R. 10 (section 1079) that designates the existing Community 
Management Staff as the Office of the NID in all statutes and 
legislation. The duties, responsibilities, and authorities of the CMS 
and those granted the NID in proposed legislation are not entirely 
consistent. This inconsistency further complicates the NID management 
structure and introduces more confusion into the chain of command. 
Instead, the NID should be given statutory authority to provide for a 
transition in an orderly fashion of CMS personnel and assets into the 
office of the NID, as appropriate.
    Responsibilities and Authorities. The Administration believes that 
the responsibilities and authorities of the NID should be described in 
a single provision that is both internally consistent and consistent 
with the goal of establishing a strong, effective NID. In addition, the 
Administration recommends that new sections 102(b)(3) and 102A(a)(1)(D) 
of the National Security Act as proposed in H.R. 10 be deleted. The 
Administration also believes that the NID should have the authorities 
set forth on pages 12-14 of the President's proposal in order to ensure 
that the NID is effectively empowered to operate the Office of the NID.
    Appointments. The Administration supports giving the NID a role in 
the appointment of key individuals in the Intelligence Community. The 
Administration supports the provisions in S. 2845, which are based on 
the President's proposal. The Administration also notes that certain of 
the provisions regarding the appointment of the NID are 
constitutionally problematic and looks forward to working with Congress 
to correct these provisions.
    Personnel Management. The Administration supports strong personnel 
management authorities for the NID similar to those set forth in 
sections 112(a)(8), 113(g), and 114 of S. 2845.
    Collection, Analysis, and Tasking. The Administration supports 
intelligence collection, analysis, and tasking authorities for the NID 
similar to those set forth in section 102(f) of H.R. 10.
    Acquisition Authority. The Administration supports the Senate's 
approach to granting the NID milestone decision authority, which will 
help ensure that the NID has full and effective budget authority. The 
Administration supports modifications to the language of section 162 of 
S. 2845 to limit the likelihood of duplicative bureaucracy.
    Coordination with Foreign Governments. The Administration would 
support the provisions in section 113(i) and the proposed new National 
Security Act section 103(f) in S. 2845 that assign to the NID and CIA 
Director complementary responsibilities with respect to relationships 
with foreign intelligence and security services, subject to the 
addition of the phrase ``or involving intelligence acquired through 
clandestine means'' before the period in section 113(i) and section 
103(f). Section 1011(a) of HR. 10 fails to grant the NID sufficient 
authority to coordinate these relationships and also fails to specify a 
role for the CIA Director in implementing this authority by 
coordinating contacts with foreign services.
    HUMINT Collection. The Administration supports granting 
responsibility for the overall direction and coordination of human 
intelligence operations overseas to the CIA Director. Section 301(a) of 
S. 2845 would ensure that overseas operations involving human sources 
will be coordinated and executed according to consistent standards. 
Section 1011(a) of H.R. 10 does not clearly establish the CIA Director 
as the coordinator of overseas HUMINT activity, and risks disrupting 
ongoing collection operations in the War on Terror.
    Alternative/Competitive Analysis. The Administration opposes 
section 146 of S. 2845. A new bureaucracy that duplicates the work of 
the National Intelligence Council is both burdensome and unnecessary. 
The need for independent, competitive, or alternative analysis is 
appropriately acknowledged in section 102(c)(l2) of the President's 
proposal of September 16, 2004, and section 1011(a) of H.R. 10.
    Protect Sources and Methods. The Administration supports provisions 
of S. 2845 that make explicit the NID's authority to protect 
intelligence sources and methods. At the same time, the Administration 
believes that the head of each element of the Intelligence Community 
should be explicitly charged with carrying out this critical authority 
according to the NID's guidance.
    Joint Intelligence Community Council. The Administration supports 
the establishment of a Joint Intelligence Community Council to ensure 
that heads of Departments containing elements of the Intelligence 
Community are held accountable for carrying out their statutory 
responsibilities to the NID and conversely, that the NID is held 
accountable for meeting the intelligence needs of the Council members. 
The Administration prefers section 1031 of HR. 10 over section 203 of 
S. 2845, but believes that the Administration-proposed provisions for 
the Council should be adopted.
    Reserve for Contingencies. The Administration believes that the NID 
and CIA each should have a Reserve for Contingencies. Section 118 of S. 
2845 would create a Reserve for Contingencies for the NID and the CIA, 
but would transfer the unobligated balance in the CIA Reserve for 
Contingencies to the new Reserve. The House bill does not establish a 
Reserve for Contingencies for the NID and would preserve the CIA 
Reserve for Contingencies (see, e.g., section 1071(a)(5)). Creating a 
NID Reserve and at the same time maintaining the CIA Reserve would 
enhance the NID's ability to deal with exigencies, while also 
preserving a key source of the flexibility CIA needs to meet its unique 
mission requirements.
    Location of Office of the NID. The Administration opposes section 
121(e) of S. 2845 which would bar the Office of the NID from being co-
located with any other Intelligence Community element, as of 1 October 
2006. It is imperative that the NID have the ability and flexibility to 
begin carrying out the reorganization and any new functions and duties 
that would be directed by intelligence reform legislation, while 
ensuring that all current intelligence activities within the purview of 
the Director of Central Intelligence and the Intelligence Community are 
continued in an effective and productive manner. The NID therefore 
should have the opportunity and the discretion, subject to direction 
from the President, to determine the optimal location for the Office of 
the NID in light of resources, security, efficiency, and other 
operating and management factors.

National Counterterrorism Center
    The Administration supports legislation to provide statutory 
authorities for the National Counterterrorism Center established by the 
President in Executive Order 13354 of August 27, 2004. The 
Administration strongly prefers Section 1021 of H.R. 10 over section 
143 of the S. 2845, except that the Administration believes that the 
Director of the NCTC should be appointed by the President.

National Counternroliferation Center/Other Centers
    The Administration favors waiting until the Commission on the 
Intelligence Capabilities of the United States Regarding Weapons of 
Mass Destruction completes its study before creating additional 
intelligence centers. The Administration looks forward to receiving the 
Commission's recommendations. Mandating creation of a National 
Counterproliferation Center (section 144 of S. 2845) or other similar 
organization with insufficient study is premature and risks disrupting 
ongoing efforts to counter the proliferation of weapons of mass 
destruction.
    The Administration opposes section 145 of S. 2845, which legislates 
the structure and authorities of other centers. Such a provision poses 
an unnecessary risk of interfering with the rapid organization of 
flexible centers to respond to new and emerging threats, limiting the 
flexibility to rapidly organize centers designed to respond to new and 
emerging threats.

Security Clearances
    The Administration opposes provisions in S. 2845 and H.R. 10 that 
would restrict the President's ability to manage the security clearance 
process. The President and the NID should retain the authority to 
tailor standards and procedures to agencies if necessary to protect the 
national security. The Administration is committed to improving the 
security clearance process, but is concerned with unrealistic time 
limits that could compromise national security. The Administration 
supports language contained in the President's proposal requiring the 
NID to prescribe standards for common personnel clearance policies.

Information Sharing
    The Administration commends and supports the provisions in H.R. 10 
that promote the development of a secure information sharing 
environment under the direction of the NID, while also providing 
flexibility concerning its design and implementation. The 
Administration also supports the language in H.R. 10 that preserves the 
information sharing responsibilities assigned to the Department of 
Homeland Security under sections 892 and 893 of the Homeland Security 
Act and Executive Order 13311, and urges the Conferees to ensure that 
those responsibilities are preserved in the final legislation. In 
contrast, S. 2845 is overly prescriptive and contains excessive detail 
that will restrict the ability to adapt rapidly evolving technologies 
to changing circumstances. Similar flexibilities should also be 
provided with respect to the House provisions regarding an 
interoperable law enforcement and intelligence data system.

Definition of ``National Intelligence''
    The Administration supports the definition of ``national 
intelligence'' contained in H.R. 10. This definition will further 
strengthen the NID and help to promote greater information sharing 
inside and outside of the Intelligence Community. The Administration is 
very concerned, however, about sections 221-225 of S. 2845 that raise 
significant constitutional issues.

Foreign Language Skills
    It is important in the War on Terror that intelligence agencies 
recruit and retain as many people as possible who are fully qualified 
in the foreign languages these agencies need. The Administration 
supports the provisions of the House bill that would advance foreign 
language education and training, and requests that those provisions be 
clarified to ensure that service payback obligations are enforceable.

Declassification Board
    The Administration supports the extension of the Public Interest 
Declassification Board but opposes section 226 of S. 2845, which would 
rename the Board as the Independent National Security Classification 
Board and create a Congressional right to appeal classification 
decisions made by an executive agency with respect to national security 
information. The authority to make such decisions is clearly vested in 
the President and his designated subordinates under the Constitution. 
Moreover, this provision is not germane to the 9/11 Commission's 
findings or recommendations.

Congressional Oversight
    The Administration is concerned that neither bill addresses the 
critical need to reorganize congressional oversight, including 
intelligence oversight and oversight of the Department of Homeland 
Security. The 9/11 Commission concluded that the creation of a NID and 
NCTC ``will not work if congressional oversight does not change too.'' 
Similarly, the 9/11 Commission recommended that ``Congress should 
create a single, principal point of oversight and review for homeland 
security.'' Accordingly, the 9/11 Commission specifically noted that, 
of all their recommendations, reorganizing congressional oversight may 
by ``among the most important.'' The Administration strongly urges the 
Conferees to address this critical omission.
    The Administration is concerned not only with the omission of 
congressional oversight reform, but the vast expansion of oversight by 
additional legislative agents contained in S. 2845. This is a 
significant step in the wrong direction and will hinder the ability of 
the House and Senate Intelligence Committees to perform their oversight 
function. The Administration opposes these provisions, including 
sections 207(1) and 335 of S. 2845.
          * * * * * * *
    In addition to provisions concerning the NID, the NCTC, and other 
core issues responsive to the Administration's proposal, both bills 
contain a number of additional provisions that will help ensure that 
the Intelligence Community and others in the War on Terror have all the 
necessary tools which are needed to prevent terrorist attacks. Some of 
the most important of these provisions are discussed below.

Terrorism Prevention, Homeland Security, and the Intelligence Community
    Additional Tools for the Intelligence Community. The Administration 
strongly supports and looks forward to working with the Conferees to 
enact those provisions of Title II of H.R. 10 that seek to ensure that 
the Intelligence Community and others in the War on Terror have all of 
the necessary tools that are needed to prevent terrorist attacks, and 
which help address 9/11 Commission recommendations such as those 
concerning weapons of mass destruction terrorism financing, and 
facilitators of terrorist travel and other material support for 
terrorists. The most critical of these include enhanced provisions to 
deny material support to terrorists (section 2043), including 
addressing military-type training by terrorists (section 2042, as well 
as section 3035); to ensure that communities are protected from 
suspected terrorists prior to trial and arrested terrorists are unable 
to launch attacks afterwards (section 2602, and the related post-
release supervision provision in section 2603); to prevent attacks by 
``lone wolf'' terrorists (section 2001); to prevent attacks using 
weapons of mass destruction (subtitle K); to further eliminate sources 
of terrorist financing (sections 2111-2115, and 2121-2124); and to 
ensure that the death penalty is available for all terrorist murders 
(e.g., section 2502, and the air piracy amendments in section 2503). 
These and other anti-terrorism tools in Title II would help keep 
America safer and help to address the 9/11 Commission's 
recommendations.
    Terrorist Travel and Border Security. The Administration also 
supports those provisions of Titles II and III of H.R. 10 that will 
better protect our borders from terrorists, while maintaining our 
tradition as a welcoming nation, and further address the 9/11 
Commission's recommendations concerning such efforts as border 
security, terrorist travel, and related vulnerabilities. In particular, 
the Administration strongly supports efforts to enhance our ability to 
utilize efficient, flexible tools to keep out or remove convicted 
criminals and suspected terrorists who cannot be charged with Criminal 
violations and those who have had their visas revoked (including the 
enhanced tools in sections 3009, 3010, and 3033), and our ability to 
share information about terrorist threats and crimes with foreign 
governments (section 2191).
    The Administration supports the provisions in section 3001 of H.R. 
10 designed to close a security gap by eliminating the Western 
Hemisphere exception for U.S. citizens. But the Administration intends 
to work with Congress to ensure that these new requirements are written 
and implemented in a way that does not create unintended, adverse 
consequences.
    The Administration strongly opposes the overbroad expansion of 
expedited removal authorities in H.R. 10 (section 3007), and has 
concerns about the provision addressing asylum (section 3008); these 
sections should be modified or dropped altogether. The Administration 
also believes that any changes in the asylum program must include 
removal of the annual asylee adjustment cap. The Administration also 
has concerns with the overbroad alien identification standards proposed 
by the bill (section 3006). The Administration welcomes efforts in 
Congress to address the 9/11 Commission's recommendations concerning 
uniform standards for preventing counterfeiting of and tampering with 
drivers licenses and birth certificates, but believes that additional 
consultation with the States is necessary to address important concerns 
about flexibility, privacy, and unfunded mandates. The Administration 
generally supports sections 1026-1029 of S. 2845, but recommends that 
the responsibility for establishment of the standards be assigned to 
the Secretary of Homeland Security, in consultation with other 
officials as appropriate, and that the development and issuance process 
be by means other than negotiated rulemaking.
    With respect to Section 3032 of H.R. 10, the Administration looks 
forward to working with the Congress on the detention-related 
paragraphs to ensure that the provision applies to the appropriate 
categories of dangerous aliens; that all of such aliens are provided 
with the appropriate procedural safeguards; and that it does not 
inadvertently interfere with Executive Branch efforts to find other 
countries to accept such people. The Administration is also opposed to 
the ``seek assurances'' provision of section 3032 as it is inconsistent 
with the President's constitutional authority.
    Counterterrorism Assistance. The Administration opposes section 
3087 of H.R. 10 because it unduly constrains the provision of 
counterterrorism assistance under the Foreign Assistance Act. 
Strengthening foreign countries' counterterrorism capabilities is an 
important line of defense in protecting the United States from 
terrorist attack. Like a number of other provisions, section 3088 
raises constitutional concerns and should be made precatory.

International Cooperation and Coordination
    The Administration does not support adding Title IV of H.R. 10 or 
Title X, Subtitle A, of S. 2845 to the final legislation as a number of 
its provisions are inconsistent with the President's constitutional 
authority with respect to foreign relations, diplomacy, and 
international negotiations. Furthermore, many of the provisions may 
adversely impact the ongoing War on Terror.
    The Administration also opposes section 1014 of S. 2845, which 
provides legal protections to foreign prisoners to which they are not 
now entitled under applicable law and policy. Section 1095 of the 
proposed National Defense Authorization Act for Fiscal Year 2005 (H.R. 
4200) already addresses this issue.

Other Government Restructuring
    The Administration opposes provisions in H.R. 10 that would 
encumber the Federal rulemaking process with duplicative and burdensome 
new requirements and significant potential litigation risks (section 
5091).
    Burdensome Reporting Requirements. The Administration is very 
concerned about the dozens of new reporting requirements contained in 
the bills. The Administration will continue to work with the Congress 
to eliminate or reduce the burden created by unnecessary or duplicative 
statutory reporting requirements and divert resources from critical 
national security tasks.
    Responding to Attacks. The Administration commends the provisions 
of H.R. 10 that add to the Secretary of Homeland Security's flexibility 
in providing first responder grant funds to certain high-risk areas, 
but has concerns about border state funding mandates that reduce that 
flexibility. The Administration opposes any provision that would unduly 
limit the Secretary's ability to allocate funds to high-risk areas. In 
addition, the provision authorizing letters of intent for multi-year 
interoperability grants may complicate homeland-security planning 
efforts by creating unrealistic expectations of long-term funding.
    Personnel. The Administration is concerned about a number of other 
provisions in Title V of H.R. 10, including, as referenced above, 
Subtitle F on security clearances. For instance, the Administration 
opposes provisions in Title V that would create inequities in personnel 
policy between the FBI and other law enforcement agencies, and looks 
forward to working with the Congress on a separate and comprehensive 
reform of law enforcement pay and benefits. While appreciating the 
intent behind it, the Administration also opposes section 5041 because 
of its harmful ramifications. The section would prevent officials from 
exercising delegated Presidential functions and from serving in agency 
lines of succession.
    Ethics Laws. The Administration opposes section 5043 of H.R. 10, 
which would eliminate the level playing field established for all three 
branches of government by the Government-Wide Ethics Reform Act of 
1989, creating a new regime of non-uniform ethics laws. The financial 
disclosure process should be modernized to reflect changed 
circumstances. The Administration strongly urges Congress to adopt the 
bill to modernize government-wide financial disclosure submitted by the 
Office of Government Ethics to the Speaker on July 16, 2003.
    Market Preparedness. As currently drafted, subsection 2(E) of the 
proposed amendment to the Securities and Exchange Act of 1934 in 
section 5085 of H.R. 10 weakens the Treasury's longstanding 
responsibility for the orderly functioning of the market for government 
securities, by providing the SEC with unilateral authority to suspend 
or restrict the operations of clearing agencies for government 
securities in the event of a national emergency. Control by the 
Treasury over this market is critical because of both the special 
characteristics of the market and the independent need of the Treasury 
to be able to provide for effective funding of the government of the 
United States at all times. The problem created by the current draft 
can be solved by deleting paragraph (E), which would have no effect on 
the remaining provisions.
    Public Safety Spectrum. The administration is dedicated to ensuring 
that adequate spectrum exists for public safety. The Department of 
Commerce has released a series of specific recommendations as part of 
the President's Spectrum initiative to accomplish this goal. The 
Administration opposes the inclusion of the ``Digital Transition 
Consumer Assistance Fund'' under Title X, Subtitle F of S. 2845. 
Creating a billion dollar fund to subsidize consumer electronics such 
as digital converter boxes, high-definition televisions, and the 
installation of cable and satellite services is not necessary to 
achieve the 9/11 Commission's recommendations. The Administration has 
proposed an analog spectrum fee on broadcasters to encourage faster 
return of analog TV spectrum. This proposal would facilitate public 
safety access to spectrum in a timely fashion without generating 
budgetary costs.

Conclusion
    The Administration also has concerns with a number of other 
provisions in the House and Senate versions of the legislation and 
notes that a number of provisions in the legislation could be applied 
only to the extent consistent with the President's constitutional 
authorities. We look forward to working closely with the Conferees as 
you craft a final bill to strengthen the nation's security that the 
President can sign as promptly as possible.
        Sincerely,
                                  Joshua B. Bolten,
                 Director, Office of Management and Budget.

                                  Condoleezza Rice,
  Assistant to the President for National Security Affairs.

cc: All House and Senate Members of the Conference

                               __________

                                 <all>

</pre></body></html>
